<html>
<title> - MILITARY CONSTRUCTION APPROPRIATIONS FOR 1998</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>
 
                  MILITARY CONSTRUCTION APPROPRIATIONS
                                FOR 1998

========================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                              FIRST SESSION
                                ________

          SUBCOMMITTEE ON MILITARY CONSTRUCTION APPROPRIATIONS

                    RON PACKARD, California, Chairman

JOHN EDWARD PORTER, Illinois  W. G. (BILL) HEFNER, North Carolina
DAVID L. HOBSON, Ohio         JOHN W. OLVER, Massachusetts
ROGER F. WICKER, Mississippi  CHET EDWARDS, Texas
JACK KINGSTON, Georgia        NORMAN D. DICKS, Washington
MIKE PARKER, Mississippi      STENY H. HOYER, Maryland
TODD TIAHRT, Kansas           
ZACH WAMP, Tennessee          

 NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

Elizabeth C. Dawson, Henry E. Moore, and Mary C. Arnold, Subcommittee Staff
                                ________

                                 PART 5
                                                                   Page
Overview..........................................................    1
    Defense-Wide Questions for the Record.........................  123
Housing Privatization.............................................  175
Quality of Life...................................................  231
Army..............................................................  337
Navy..............................................................  521
Air Force.........................................................  615
Outside Witnesses.................................................  751

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations

                     U.S. GOVERNMENT PRINTING OFFICE

40-717 O                    WASHINGTON : 1997

------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          







                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        THOMAS M. FOGLIETTA, Pennsylvania   
HENRY BONILLA, Texas                   ESTEBAN EDWARD TORRES, California   
JOE KNOLLENBERG, Michigan              NITA M. LOWEY, New York             
DAN MILLER, Florida                    JOSE E. SERRANO, New York           
JAY DICKEY, Arkansas                   ROSA L. DeLAURO, Connecticut        
JACK KINGSTON, Georgia                 JAMES P. MORAN, Virginia            
MIKE PARKER, Mississippi               JOHN W. OLVER, Massachusetts        
RODNEY P. FRELINGHUYSEN, New Jersey    ED PASTOR, Arizona                  
ROGER F. WICKER, Mississippi           CARRIE P. MEEK, Florida             
MICHAEL P. FORBES, New York            DAVID E. PRICE, North Carolina      
GEORGE R. NETHERCUTT, Jr., Washington  CHET EDWARDS, Texas                 
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director









             MILITARY CONSTRUCTION APPROPRIATIONS FOR 1998

                              ----------                              

                                       Thursday, February 27, 1997.

                         DEPARTMENT OF DEFENSE

                               WITNESSES

JOHN J. HAMRE, UNDER SECRETARY OF DEFENSE, OFFICE OF THE UNDER 
    SECRETARY OF DEFENSE (COMPTROLLER)
HENRY SODANO, DIRECTOR FOR CONSTRUCTION, OFFICE OF THE UNDER SECRETARY 
    OF DEFENSE (COMPTROLLER)

                       Statement of the Chairman

    Mr. Packard. Let's begin. I want to start, as much as 
possible, our hearings on time. So hopefully each Member will 
make an effort to be here on time, and let us start.
    I would like to introduce all of our new committee members. 
Of course I don't need to introduce Bill Hefner, who has been 
on the committee, chairing the committee for some time, and he 
certainly is not new. I am extremely happy and fortunate to 
have you with us. Introduce yourself and tell us where you are 
from.
    Mr. Edwards. Chet Edwards from the 11th District of 
Congress and formerly a member of the National Security 
Committee and the Veterans Affairs Committee.
    Mr. Packard. And now you are on the Appropriations 
Committee and we are extremely grateful that you are on this 
subcommittee.
    Mr. Wamp. I am Zach Wamp from Tennessee's Third District 
first elected to the 104th Congress. I served on 
Transportation, Science and Small Business Committees, and I am 
extremely grateful to be a member of the House Appropriations 
Committee, and particularly this subcommittee.
    Mr. Packard. I am delighted to have Mr. Steny Hoyer with 
us. Steny, would you kindly tell them what district you 
represent.
    Mr. Hoyer. Fifth District of Maryland.
    Mr. Packard. We are delighted to have each Member here.
    I mentioned that we would like to start on time in our 
hearings. And with your permission, Mr. Hefner, and if you are 
not here, I am going to start anyway. Is that all right?
    Mr. Hefner. You are the Chairman.
    Mr. Packard. We would like to start our hearings on time.
    We will hold to the 5-minute rule. I am not going to be 
quite like my Chairman on the Foreign Operations Subcommittee. 
He brought his little sand hourglass and when the sand wore out 
you were done. We will try to hold to the 5-minute rule. And if 
you need more time, we will go a second round or whatever is 
needed, but we will not cut you off or shortchange you on the 
ability to ask any questions.
    And where it is advisable or possible, we would encourage 
you to submit questions for the record and then our witnesses 
can respond to them in that manner, too. But again, we won't 
shortchange anybody on questions, it is that we would like to 
pass a round under under the 5-minute rule.
    I don't have a prepared opening statement that I am going 
to submit. Incidentally, on prepared statements certainly I 
will recognize the Ranking Minority for a statement in every 
hearing. Then if any of you desire to make statements, we will 
certainly honor that desire, but we will not expect statements 
from every Member at every hearing. But certainly you are 
welcome to present a written or a verbal statement.
    Let me say that I am very pleased to be here on this 
subcommittee, and to Chair it is above and beyond my 
expectations, and I am very pleased to have that opportunity to 
work with each of you and work with the witnesses. I have 
already met with most of the leaders of the agencies that come 
under the jurisdiction of this committee, and I am very 
impressed with what I have learned so far and with the people I 
have had the privilege of meeting.
    There are some fundamental things that I would hope we can 
accomplish in this next 2-year period, and let me just outline 
those for the benefit of the Members and for those here. I 
would like to encourage a shift in what has been, to my 
knowledge, the procedures of the past in terms of budgeting and 
the submission of budgets.
    I have learned that it is quite common for the different 
services to submit budgets that are low--balled in some areas 
and honest in other areas and then they expect the committee to 
``plus'' up or to increase in those areas where they feel the 
committee will strengthen their budget. They intentionally come 
in with what I would consider a budget that is not realistic, 
knowing that they will receive the funds that will upgrade them 
to a level at which they feel comfortable.
    One of the first questions I intend to ask every witness 
who comes here, in response to their budget submission, is are 
you able and willing to live with the budget you have 
submitted? And if they are not, maybe not this year but 
certainly in the future years, I will expect them to say yes to 
that question. I don't want anyone to submit a budget that they 
can't live with, that they feel we will ``plus them up'' in 
those areas where they low-ball.
    If we cannot have honesty in our working relationships, 
then it is simply not going to work well. I fully expect that 
the budgets that will be submitted by the different services 
are going to be honest budgets, period. And then we will work 
together to try to improve or to make the changes that might be 
necessary to meet the needs of this committee or to meet the 
needs of the services. But for heaven's sake, we have got to be 
honest with each other, and I don't want a bogus budget.
    This year is different because, again, I think they have 
gone by the procedures of the past. I would like to correct 
that myself.
    Secondly, we would like, and I am asking every service,and 
I hope that this committee will be completely supportive of that 
process, to start a 5-year planning process. We will not have a 
multiyear budgeting process. I think that it is just virtually 
impossible to expect that. But there is no reason why every service 
that comes under the jurisdiction of this subcommittee cannot do a 5-
year plan as to where they want to go and where they want to be in 5 
years. And then each year, as we review their budget submission, we 
will have them update that so that we will be working on a continuous 
5-year plan.
    It is the only way I think that we can have continuity in 
budgeting, and I think it is the only way that we will be able 
to develop a construction program for the different services 
that will continually meet our responsibility to fund the 
highest priority for construction.
    Thirdly, I believe in privatization. The previous 
subcommittee that I chaired made some significant strides in 
moving towards privatizing things on Capitol Hill. I served as 
Chairman of the Legislative Branch Subcommittee which dealt 
with a lot of the activities that take place right here in our 
buildings on Capitol Hill, and we moved rather substantively 
into the privatization effort.
    We believe that privatization in military construction is 
not necessarily a wave of the future, but it certainly should 
be an option to be explored in almost every case. Where it 
doesn't fit I would hope that the experts would be able to tell 
us, it just isn't going to work in this instance. But where it 
can work, we hope that it would be very seriously looked upon 
as an alternative.
    We simply have not had the money nor will we ever have the 
money I believe we need to keep pace with improving our housing 
and infrastructure without leveraging the private sector. We 
think that we should always have privatization out there as a 
possible option.
    And fourthly, and lastly, I don't think this is any 
different than what the committee has done in the past. I will 
have as one of my highest priorities, and I think it has been 
in the past, emphasis on quality of life issues, housing 
issues, barracks issues, workplace quality of life, but 
particularly housing and living quality of life and workplace 
quality of life. Those will be a high priority.
    I think they have been a high priority on this committee in 
the past, which means that a goal will be to certainly 
emphasize living quarters for our families and for our single 
service personnel. It costs a lot of money to train our 
military personnel. They have come to the services on a 
volunteer basis.
    If we are going to keep them after they have been trained, 
we have to provide them a decent place to live and decent 
facilities. And if we lose them after their very first 4-year 
tour, we lose a huge amount of money in terms of training and 
preparing them. And if we can retain people because we provide 
them not only good benefits but also a good quality of life, 
that is important.
    So I have taken a little more time than I intended to, and 
outlined, my fundamental goals as Chairman, but I hope that 
they parallel your goals.
    With those comments, let me recognize our Ranking Member, 
Mr. Hefner.
    Mr. Hefner. Thank you, Mr. Chairman. It is going to be a 
pleasure to work with you on this committee. This is probably 
one of the least partisan committees in the entire House, and I 
think from the staff wise all the way through to the Members 
that we have proven that over and over.
    Just recently we have had roll call votes. We didn't used 
to have roll call votes. We can finish our bill in about 20 
minutes. And that proves the rule. We never have enough money, 
and for the last few years our focus has been on quality of 
life. They have established in the authorizing committee a 
subcommittee on quality of life. They have not done that.
    We also established one on burden sharing, which was a 
focus of this committee. And years ago we started talking about 
burden sharing and this sort of thing. So this is a very good 
committee and we have it within our grasp to do some great 
things for our military people and for quality of life. 
Because, as you say, if the people are not happy in their work, 
they are not going to stay there. And I think that we have to 
work closely together here. And I do want to stress a little 
bit about what you said, Mr. Chairman, about setting 
priorities, budgeting.
    And General Joulwan this morning was talking about how 
important our Guard and Reserves and all these folks are, and I 
want to get into that a little bit. But I want to welcome you 
to the committee today, Mr. Chairman, and congratulate you and 
wish you a good tenure as Chairman of the Military Construction 
Subcommittee.
    And if we have to travel some, well, I would hope we 
wouldn't go anywhere where there are golf courses.
    Mr. Packard. We will try not to.
    Mr. Hefner. I want you to keep that in mind, if you would.
    Mr. Packard. Where there are no golf courses, you say?
    Mr. Hefner. Absolutely.
    Mr. Packard. I don't think he means it, either.
    Mr. Hefner. I am on record.
    Mr. Packard. I want to introduce Mr. Roger Wicker from 
Mississippi, also.
    With that, I would like to introduce our first witness. But 
before I do that, I think all of you received from the staff a 
list of our hearing schedule. Our next hearing will be next 
Tuesday in the afternoon at 1:30 and then they will proceed 
from there. We should be done by March 13th. We plan to move 
quickly, as this committee has always done.
    Is there anyone else who would like to make an opening 
statement?
    Mr. Hoyer. Mr. Chairman, I would not make a statement, but 
when I listen to you ask about living within their budget, it 
reminds me that the way the budget process works, it has many 
levels to live within.
    Some may ask the question who may be very willing to live 
within the budget that they submit to their department heads or 
to their agency. But as it goes up, of course, it is pared down 
as they try to meet fiscal realities such that the answer that 
you get may be that they are willing to live within the budget 
that they submitted to their agency, but they are going to have 
a tough time living within the budget that OMB and the 
President ultimately sent down here. Ihave had that experience 
on my other subcommittees.
    Mr. Packard. I think you will find that this committee will 
be inclined to provide as much as we are able to provide with 
our budget constraints, and so we are not looking to decrease 
or to lower the commitment to our military construction 
responsibilities.
    I think you will find, at least to me I hope, most members 
of the committee are anxious to keep that level as high as we 
economically can. Mr. Edwards.
    Mr. Edwards. Mr. Chairman, I will not make it a habit of 
making opening statements because I would rather hear from the 
witnesses, but this being our first meeting of this 
subcommittee and my attendance here on military construction 
issues, I would like to underscore your comment about the 
importance of quality of life.
    I happen to represent an Army installation with over 40,000 
soldiers. And, as most of you know, about 65 percent of the 
Army is married today. On average, they spend 138 days away 
from their families. And it seems to me that if we cannot 
ensure quality housing, health care, and education for military 
children, there is no way we are going to maintain a ready 
defense force.
    I think what we are doing in this subcommittee is just as 
important as many of the expensive weapons programs that will 
be debated in other committees. So I want to commend you for 
your focus on quality of life issues and look forward to 
working with you.
    Mr. Packard. Thank you, Mr. Edwards.
    Mr. Wicker, any opening statement?
    Mr. Wicker. No, thank you.
    Mr. Packard. Mr. David Hobson has arrived. David 
represents--what district, David?
    Mr. Hobson. Seventh.
    Mr. Packard. I appreciate you being here, David.
    And I might announce that Chairman Livingston has appointed 
David Hobson as the Vice Chair of this committee. So I don't 
know what that means, David.
    Mr. Hobson. I don't either.
    Mr. Hefner. He is in charge.
    Mr. Packard. But you need to know that because, obviously, 
it is a very important appointment.
    Mr. Hoyer. He is interested in your welfare.
    Mr. Packard. It is truly a distinct pleasure to have Doctor 
John Hamre here, the Comptroller of the Department of Defense, 
who was appointed by the President in 1993. He is the under 
secretary for the preparation and execution of the defense 
budget and the management and improvement programs. As 
Comptroller, he oversees both the programmatic and financial 
sides of the defense budget.
    My first exposure to him has been a delightful experience. 
I have really learned to admire him and appreciate what he does 
by working with him. He is very familiar with the process. He 
served as a Senate staff assistant on the Armed Services 
Committee. He served in the Congressional Budget Office. He 
received his Ph.D. at Johns Hopkins. So he is certainly 
qualified for his current position.
    We are extremely delighted to have you here as our very 
first witness. We are looking forward to your testimony.
    As with all witnesses, if I get your testimony the day 
before, I will read your testimony completely. I have done 
that. I have made significant markings and notes on it. I would 
prefer that you don't read it back to me because I have already 
read it, and I hope that most of the committee members have.
    So we would encourage all witnesses not to read their 
testimony but to give us verbally what they feel we need to 
know above and beyond their testimony and highlight their 
written testimony as they wish.
    Dr. Hamre, it is yours.

                statement of the honorable john j. hamre

    Mr. Hamre. Sir, thank you so much. It is a real honor to be 
invited to be here, and I appreciate your letting me make it 
more of a conversation because this is such an unusual hearing 
room where we can really talk rather than pretend like it is a 
big dais. I am also a little----
    Mr. Packard. Can you speak up a little bit?
    Mr. Hamre. I am sorry.
    I am always a little intimidated when I come to the House 
because, yes, I have worked in the Senate but that was because 
I couldn't get a job over here. I did work for 10 years for the 
Congress, and I believed very firmly then and I believe very 
firmly now, I have never seen a good budget that was delivered 
that wasn't improved through congressional oversight, and I 
believe that very strongly. And that certainly has been the 
case the last several years with this committee, and I know it 
will be that way again.
    Now, let me say, when I say that, I am not up here trolling 
for dollars. I am not casting and asking you to add money to 
our budget. We are prepared to live with the budget we 
submitted. I spoke with Henry Sodano, who is my senior civil 
servant who really knows what is going on--and he can't throw 
his voice more than 7 feet, so that is why he has to sit back 
here.
    We agree that we can live with the budget we have given 
you, but I also believe there are probably some soft spots in 
our budget that you are going to find when you scrub it, and 
there are probably some things that you are disappointed with 
that we have failed to do that you are going to want to take 
care of. And I think that is all fair.
    I feel honestly that the program budgets have always been 
improved by congressional oversight, and I mean that very 
sincerely. Sir, I would like to tell you very honestly, there 
are some problems with what we have submitted to you, not in 
this budget, but in the overall process that has been used over 
the years to build budgets.
    There are a lot of people in our business that do tend to 
look at preparing the budget as the first step for coming up 
here and asking for yet more. I remember, I spent some time in 
a seminary and I had a professor that said, us Lutherans, we 
like to sin, and God likes to forgive, and it really is a very 
good relationship.
    Mr. Packard. Very good relationship.
    Mr. Hefner. Do they need any more members?
    Mr. Hamre. And I think that it is analogous to the way we 
have frequently treated this committee. We have tended to not 
ask for everything so we could come up here and plead for and 
ask you to help us out and you give us more money.
    I strongly agree with what you said, we ought to be up here 
saying we can live with what we asked for and be honest about 
what we are asking for, make our case, try to defend it where 
we think it is good, try to fight off cuts where we do not 
think they are appropriate, and then tell you honestly where we 
think it isbest to add dollars.
    I very much admire what Mrs. Vucanovich did over the last 2 
years. She brought real discipline to the system by insisting 
that things be in our 5-year plan. And as you know, we didn't 
have a very good 5-year plan in the past. I think that was a 
very constructive step.
    I personally support very much what you have indicated is 
one of your priorities, Mr. Chairman, which is to get good, 
detailed planning for the MILCON budget in the Department of 
Defense.
    I have got to be up front and say, in the 3 years that I 
have been there--and I run both the programming and the 
budgeting side--we have never conducted a program review for 
MILCON Projects in the out years. We do very detailed out year 
reviews of what our strategy should be, what our procurement 
ought to be for new weapon systems.
    We have never conducted a good program review for MILCON, 
and we need to start doing that. And I am going to take your 
comment here as a direction for us to get started with the 
planning process early on our side. I think you got us started 
on that last year when you asked us to make sure the things 
that were added were in the 5-year plan, and we insisted on 
getting those FYDPs from the military department.
    So I can't honestly tell you that what I have programmed 
for MILCON in the out years is adequate. It may not be. It is 
going down and it is because we haven't done a very good job 
integrating it. So I take your direction as a very significant 
target, and we will be conducting a thorough review of the out 
year MILCON program.
    I also know that this committee is a bit disappointed with 
the level that we have put in the budget we have submitted to 
you. It is very honest and fair that you would compare it 
against the levels that you appropriated last year. Of course, 
you had more money and you did add funds. Everything you added, 
frankly, was very helpful.
    However, our point of comparison is what we had programmed 
for FY 1998 from last year's 5-year plan. While we didn't go up 
or down, we were able to hold the line as we were integrating 
priorities.
    The highest priority for the department, frankly, was on 
procurement of weapon systems. So when we got an additional 
$2.6 billion from the President at the very end of the budget, 
we put it into procurement. We did not put it into MILCON.
    When we look over this program right now, you have the 
right to say, well, if it is such a high priority for you to do 
quality of life, why is it down in the Navy? Those are very 
fair questions to put to us. All I can tell you is we went 
through a process where we did try to integrate priorities 
across the board and we just had to do something about our 
modernization attempts.
    That doesn't mean that we do not think we ought to address 
exactly what you have put in front of us, and I will do that. I 
especially welcome your call for a detailed 5-year plan that we 
will be working with you.
    Sir, your comment about privatization, we very much agree 
with you. We have conducted a series of studies. We are 
convinced that the private sector gets 30 percent more output 
for every dollar they invest in family housing than we get as a 
Federal Government. They are more effective at it, more 
efficient. They tend to use more modern designs and materials. 
They aren't blocked by cumbersome contracting processes. We 
think there is a lot more efficiency using private sector 
techniques.
    This committee was very generous in supporting our request 
for new authorities. We have used some and have several 
projects underway. We have 20 or so projects pending right now. 
There are a few that are already under way that appear very 
promising. We do need to carry through on them. And we think, 
as you have said, there is a greater opportunity for using the 
energy and innovation in the private sector to get more output 
for the dollars that we are asking for.
    Finally, if I may comment on quality of life. This 
committee has a very proud tradition of placing priority on 
quality of life that even predates Secretary Perry's hard work. 
Look at the pictures that you have chosen to hang in this 
hearing room as evidence of your priorities. It has been the 
quality of life over the years.
    And we agree with you. If we are going to spend a half 
billion dollars to train a pilot, if we are going to spend 
$1\1/2\ million to train a good captain to run a company, you 
can't afford to have him get fed up after 8 years and say, I am 
out of this outfit. We are investing in people, and a big part 
of that has got to be the quality of life that we give them 
when they are in the military.
    So I think carrying on the tradition of this committee 
started under you, Mr. Hefner, carried on by Mrs. Vucanovich 
and you Mr. Packard, we need to collectively find ways to 
strengthen the quality of life through this program.
    I strongly agree with what you said, Mr. Edwards. It turns 
out that 75 percent of our housing stock is 30 years old, 75 
percent. And we are not replacing it--we are replacing it on 
something like a 50-year cycle. That is just not adequate. We 
have got to do better than that.
    So it has to be a combination of us gettingadditional 
resources into this area through better 5-year planning, real program 
planning for MILCON, and getting better leverage for those dollars 
using private sector innovation and energy so we can get more output.
    Sir, I would stop here, if that is all right, and use this 
opportunity to address questions that you and the committee 
have.
    Mr. Packard. Thank you very much, Doctor.
    [Prepared statement of Hon. John J. Hamre follows:]

[Pages 9 - 15--The official Committee record contains additional material here.]


    Mr. Packard. Each of us should speak as loudly as we can. 
Our stenographer is having difficulty hearing.
    I am going to turn it over to Mr. Hefner first for 
questioning, if he doesn't mind.
    Mr. Hefner. I don't have very many questions.
    When we talk about budgets, it has always been a bone of 
contention with us and we always felt like the military 
construction was not a sexy item. Nobody ever goes and cuts for 
renovation of barracks and what have you as they do with B-1 or 
B-2 or submarine or aircraft carriers. And the problem we 
always have here is I guess we are a little bit cynical, we get 
the idea that they say, hey, we will send that budget over. And 
the Members that have bases in their area that have concerns, 
they will take care of the housing and stuff, they will eat it 
up. And that used to be the case.
    But this budget that we have had for the past 2 years has 
actually been stagnant at best. I can remember when we had 
actual dollars more than we have had in the last 3 or 4 years. 
So this committee I think has done a remarkable job with what 
we have had to work with.
    One question I would like to ask you.
    Mr. Hamre. Yes, sir.

                    guard and reserve funding levels

    Mr. Hefner. It has to do with the Guard and Reserve, 
particularly the Army, on their military construction. Now 
General Joulwan this morning talked about--he was very 
eloquent, very positive about the Bosnia operation, and he said 
from the military standpoint, on a scale from 1 to 10, he would 
give it about a 9, which is remarkable. We lost one person and 
that was to an accident.
    But he also talked about the importance of the Guard and 
Reserve forces in the Bosnian operation, and he said he would 
just like to give them a special award. It is my understanding 
that the Guard and Reserve make up 30 or 40 percent of our 
total force today but we don't expend anywhere near that on 
their budget, and they are an essential part of our total 
force.
    Shouldn't we have a better, more professional budget system 
to deal with the Guard and Reserve?
    Mr. Hamre. Yes, sir, I really do think we should. Last 
year, Congress told us and actually put some hooks in our flesh 
about putting the more forthright program together for the 
Guard.
    Frankly, when it came forward to us in the budget proposal 
from the services, it wasn't very good and we sent it back. We 
worked with them and we got it beefed up. And I wouldn't say it 
is particularly strong even right now.
    I think that is very much the tradition that we had where, 
don't ask for it, we like to sin, God likes to forgive, we like 
to come in short, Congress will give us more money, we will 
work all that out. But as you said, I think those days are 
gone.
    When I look at the congressional budget resolution where 
the dollars are below the President's budget request and both 
sides are bound and determined to get to a zero deficit by 
2002, I don't think it is going to be easy to get more money. 
So I think if we are going to honor the total force concept, we 
have got to do a better job on our side of building a program 
that makes sense, and that we can defend to you.
    I would say we have a hard time right now saying that 
program is adequate. We can execute it and it does reflect 
balanced priorities, but it probably was short of what we would 
really like to do in the long run.
    Mr. Hefner. I hope you would keep that in mind. The 
Chairman has already issued the warning there are not going to 
be add-ons, somebody coming in and saying, Mr. Chairman, I need 
an armory in my district because we have to have some place to 
have games and stuff. There is not going to be armories unless 
it is authorized and it is 35 percent designed and ready to go. 
So I just would appreciate you giving that some thought.
    Mr. Packard. Would the gentleman yield for just a moment on 
that? I think you captured the essence of what will make all of 
this work. If they do their planning on a long-term basis, a 5-
year basis, and that planning process obviously should require 
them to put the highest priority at the top of the list, it 
then gives us good reason to say or ask, is it in the 5-year 
plan?
    If it is not, it either has not been among the highest 
priorities and, therefore, maybe should not be funded at the 
expense of other needs, or the 5-year plan needs to be 
reevaluated. And I have no problem with that reevaluating 
because some things will drop off of the 5-year plan and other 
things might be added because circumstances change. But it will 
help them to submit a budget, an honest budget, if it is based 
upon a long-term plan that helps them develop their budget 
requirements.
    We hope that we can insist on that. And if a message can 
get back to all of the agencies that come under this 
committee's jurisdiction that we are going to expect their 
budget proposal to fit and match their planning process, and if 
they don't do their planning then their budget is really going 
to be a hit and miss thing.
    I think that the Guard and Reserve, particularly the Guard, 
facilities' bill in the past has been put together, at least 
from this committee, by virtue of who requests an armory or a 
facility and not so much their long-term plannedpriorities, and 
I would hope that we could change that.
    Mr. Hamre. Yes, sir. We have had too much history where the 
Guard can't get projects they think are crucial for their 
mission into the program. That is something that we need to be 
working on on our end.
    There is a particular problem with Reserve components. They 
feel that they are not adequately represented to express their 
needs inside the building. That is something that we do have to 
tackle to make sure they are fair and full partners in the 
building that process, and that we don't simply treat them as 
stepsons or stepdaughters and then make them come up to you and 
say they have been cheated and need to be bailed out.
    Mr. Hefner. I don't have any further questions.
    Mr. Hobson. Thank you, Doctor. It is nice to have you here.
    You are absolutely right. Over the years that is what has 
happened, the Guard is left out and people say we can go to the 
Members and we will get that runway or whatever the zoning for. 
I know that for a fact because I have done it. That is the only 
way you can get it done.
    I do want to thank you, though. We had a building last 
time, the acquisition support facility at Wright-Patterson with 
which we worked with the Secretary. Now I guess it is in the 
program and we are happy to see that happening, and I want to 
thank you all for that.

                     defense energy deficiency act

    I also wanted to talk to you about two other things, that 
they are somewhat germane to what we are talking about here. It 
is called the Defense Energy Deficiency Act. I don't know if 
you are aware of that or not, but we used to call it the FAR 
bill but we changed it around. That does some infrastructure 
things for bases that we can get that done.
    I don't know whether your office is working on this 
project, or what you think of it. It said they needed some way 
to get around the FAR to get this energy stuff going. When it 
comes to the infrastructure on some of these bases, you have no 
way to fund it anymore. So is there any way you could help us 
on that?
    Mr. Hamre. Sir, I think you are exactly right. First of 
all, a lot of the utilities on our bases are in poor shape. 
They are old and very hard to get funding for something you 
can't see. So things like transformers and utilities and 
pipelines and everything else, are in poor shape and decaying.
    We do have a proposal. We would like, frankly, to be able 
to go to the private sector to basically have them buy and 
operate some of this stuff and get it faster than we otherwise 
could get it if we were going to go through regular and normal 
channels. We have a legislative proposal this year to do that. 
We would be glad to sit down and work with you if there is 
anything we can do to convince you on that or make it a better 
proposal.
    Mr. Hobson. Kenny, what is the name of that guy--Millard 
Carr is the engineer that has been working on this. This came 
out of the Defense Department and we will try to work with you 
on it.
    Mr. Hamre. Believe me, we will do that. Mr. Sodano, when he 
gets back, will link up with Carr and go through it. We would 
very much like to find ways to expand the use of the private 
sector in helping us modernize our utility systems.
    Mr. Hobson. I can tell you, my local utility is not real 
happy with me, but I think it is the right thing for the long 
term. So I am willing to take the political hit from the local 
community because I think long term across the country it is 
what should be done.

                    wright-patterson afb: simulator

    I have one other question and, that is, what happened with 
the simulator at Wright-Patterson, the $7 million?
    Mr. Hamre. Sir, the money is there. Nothing is going to 
happen to it. I have been holding back in every one of these 
cases. I am going to make sure I am not going to disrupt an 
underlying program or cause greater cost over time. However, we 
have a problem with Bosnia. I have a $2 billion Bosnia bill and 
I do not have any way to pay for it.
    The administration has proposed a supplemental with 
offsetting rescissions. I know that sort of thing is not going 
to get approved, and I am working with the committees to make 
sure we can find a way to pay for that. By Monday I will call 
you and see where it stands. And if there is anything I am not 
doing that is disrupting it, believe me, I will make sure that 
that does not happen.

                  base realignment and closure savings

    Mr. Hobson. The last thing relates to Base Realignment and 
Closure, BRAC. And I know you discussed a little bit of it in 
here. Are you really seeing any savings?
    Mr. Hamre. Yes, sir, we are definitely seeing savings. We 
go through a process of analyzing them every year. We believe 
right now the study state annual savings associated with the 
four rounds of BRAC is going to be about $5.6 billion.
    Let me say that I am nervous that a lot of the 
environmental costs right now may not have been adequately 
covered. Of course, we would have those costs one way or 
another, whether we closed the base or not because we can't 
avoid our liabilities associated with cleanup. But frankly, 
those bills are probably going to end up higher which would 
lower the amount scored against BRAC. But we are getting honest 
savings of about $5\1/2\ billion a year.
    May I use this opportunity to say, I know there is a lot of 
concern about another round of base closures.
    Mr. Hobson. That was my next question, so go ahead. I have 
been through this twice.
    Mr. Hamre. And you have probably seen the darker side of 
the forest, as I recall from our conversation.
    Sir, everything right now is on the table. We are looking 
at the Quadrennial Defense Review. We are looking at 
infrastructure reduction and what we have to do.
    Secretary Cohen has been very explicit by saying, don't 
come forward and pretend you can fix this problem with rounds 
of BRAC. ``Let's have three more rounds of BRAC and fix this 
problem.'' That is unrealistic. We are going to have to find 
out all across the board in a systematic way what does it take 
for us to align our program and our resources. That may 
necessitate another round of BRAC.
    If it does, of course we can't do that on our own. We have 
to get your permission to do that. We will lay that out in 
detail. It is very clear, our force structure is downabout 30 
percent and our infrastructure is down only about 15 percent. Having 
said that, there is an awful lot of infrastructure that, frankly, is 
for mobilization expansion. I mean, I may not need anywhere near the 
kind of range capacity that I currently have, but if we ever have to 
mobilize, that would become one of our primary mobilization centers. I 
just can't get rid of it now because there is an artificial mismatch 
because infrastructure end strength--so we are going to have to think 
it through. It will have to be reasoned very carefully.
    We need to know what our long-term strategy is, what our 
force structure is going to be, and we need to have a real 5-
year planning process for MILCON. I would argue that last piece 
has not been in place and we need to put it in place.
    I am not predicting that there will be rounds but I also 
have to tell you it could come out of the process when all is 
said and done. Of course, it all has to be with your 
permission.

                            overseas housing

    Mr. Hobson. I have seen some of this housing overseas. I 
hope Mr. Packard will carry on overseas and in these bases, we 
need to try to bring up some of this housing. What we are 
asking them to do now is just not the right thing to do.
    Mr. Hamre. Yes, sir. And especially in Korea. We tried 
putting some more money in this year for Korean housing, 
because we thought we were not going to occupy for more than 5 
years at the end of the Korean War and they are still in them, 
and it really is embarrassing what some of those facilities are 
like. I appreciate very much your support on that, sir.
    Mr. Packard. I said earlier, I wasn't sure what benefit 
comes from being appointed Vice Chairman. I took him out of 
order and that was the benefit that he got. I announced that I 
would take them as they arrived, and that is what we will try 
to do from here on out. Mr. Edwards will be next.

                  omb scoring of housing privatization

    Mr. Edwards. Thank you, Mr. Chairman. Thank you, Dr. Hamre, 
for being here.
    In terms of our efforts to privatize some housing programs, 
are we having problems with OMB in terms of scoring? It seems 
to me that will bring down a lot of the privatized housing 
programs if we don't find a solution to that.
    Mr. Hamre. Sir, that was what brought down 801. And it 
wasn't just OMB. Congress and the administration worked on the 
new pay-go scoring rules, and one of those rules dealt with how 
you treat new long-term leases and how you reflect the 
obligation If you are going to do it, you ought to put in all 
those costs up front and not undermine 801.
    We worked a lot of that out with OMB a year ago, and we 
felt when we launched the initiative and you approved it, we 
thought we had much of it worked out. I do believe there has 
been a little bit of backsliding with the OMB.
    I spoke with Frank Raines and he is very supportive of this 
initiative. However, there are lots of little arcane decision 
rulings that require our vigilance to ensure they don't 
undermine this important initiative.
    I know I need to get better on that. I will meet with OMB 
to see where it stands and I will get back to you, sir.
    Mr. Edwards. Thank you.

                             family housing

    My second and final question is, based on your numbers, 
over 70 percent of our housing stock is 30 years old or older, 
and our present schedule replaces housing once every 50 years, 
it seems to me the problem is getting worse. Tell me what is 
the administration's plan to improve the problem rather than 
allowing it to get worse?
    Mr. Hamre. Sir, I think we have great hopes for this 
private sector housing initiative and using that as a way to 
jump start it, but it also means we have to be putting more 
resources in the input side. I think we held the line this 
year. We didn't let it get worse, but it didn't get better 
either. While we were going through the process, the people 
that had the loudest voice got the lion's share at the table 
this year. Frankly, that was the procurement accounts.
    When you look at it, I don't disagree with those decisions. 
However, in the long run, and in the QDR, one of the things 
that we have to get a handle on is what is the proper funding 
level for military construction and family housing.
    So the long-term solution is to watch us very carefully, 
what we do with the results of the QDR and what we report to 
you in our program next year.
    Mr. Edwards. Thank you, Mr. Chairman.
    Mr. Packard. Thank you, Mr. Edwards. Mr. Wamp.

                              davis-bacon

    Mr. Wamp. Just a two-part question. What is the impact of 
Davis-Bacon requirements on this particular budget request and 
what would the benefits, other than financial benefits, be if 
you could waive Davis-Bacon requirements?
    Mr. Hamre. Sir, I will get you a formal cost estimate of 
how much higher the costs are because of Davis-Bacon. I know 
this is of course a white hot political issue and it has been 
for years. So I will get you that number, unless, Henry, you 
know it now.
    Mr. Sodano. We estimate it to range from 3 to 17 percent 
depending upon location.
    Mr. Hamre. We will get you the formal estimate.
    Mr. Packard. That is about standard I have heard for all 
government projects.
    Would Mr. Wamp yield for just a moment? I had a question on 
that and this might be the appropriate time to ask it.
    In our efforts to privatize, if a private contractor 
submitted a bid to build, to lease, and then to manage for a 
long-term period of time, are there laws that require that 
private enterprise to submit their bid only based upon the 
highest or the prevailing wages under Davis-Bacon, or could 
they come in with the union contracts?
    Mr. Sodano. There is a Comptroller General decision that 
addresses that question. They say, basically, if appropriated 
funds are being used for the contract, then we are obliged to 
comply with the Davis-Bacon act. If there is substantial 
investment of private funds in that contract, then we are 
absolved from its provisions. It depends on what funds you are 
using for that contract whether you are subject to the Davis-
Bacon rules or not.
    Mr. Packard. I will want to pursue that further to get some 
details on it because I think that certainly has the potential 
of finding a way to provide military housing or military 
facilities in a very competitive way and leverage our dollars.
    Mr. Hamre. Why don't we provide a memo to you that explains 
what that is. I would say, we feel very much like a shuttlecock 
in an Olympics badminton tournament here when it comes to 
Davis-Bacon. It is a pretty white-hot kind of issue.
    [Insert for the Record: Comptroller General decision 
follows:]

[Pages 22 - 23--The official Committee record contains additional material here.]


    Mr. Packard. It is. But that certainly would be an 
incentive to privatize, there would be incentives if, in fact, 
there were ways to waive that.
    Excuse me for taking so much of your time.
    Mr. Wamp. That is all. Thank you, Mr. Chairman.
    Mr. Packard. Thank you. Then Mr. Hoyer and then Mr. Wicker.

                    fiscal year 1998 budget request

    Mr. Hoyer. Doctor, the Chairman makes a very interesting 
point. Let me ask you, what was the level of capital requests 
for MILCON construction this year?
    Mr. Hamre. What the services sent to us?
    Mr. Hoyer. What they projected their needs to be. You don't 
have to do it specifically, but this is an $8.4 billion budget 
request.
    Mr. Hamre. I think it is roughly the same amount. We didn't 
really cut anything this year. I don't believe we ended up 
below the submission.
    Mr. Sodano. We added projects to the guards.
    Mr. Hamre. There were a few projects that came in where 
they were duplicative of things that were added last year, so 
we eliminated that, but the dollars all went back to the 
service.
    Mr. Hoyer. Essentially what you are saying is, and this is 
the Chairman's point, that what the budget reflects is what the 
service themselves deem to be the need?
    Mr. Hamre. Yes, sir.

                       portsmouth naval hospital

    Mr. Hoyer. I have a parochial question and it is not mine. 
Congressman Pickett, who is not a member of this subcommittee 
but of course is a good friend of all of ours, is very 
concerned and wanted me to ask you the status of the hospital. 
We have got $34 million that was authorized and appropriated 
for fiscal 1997 and is not being spent. He is very concerned.
    Mr. Hobson. That is bigger than mine.
    Mr. Sodano. No, the amount that was appropriated in 1997 is 
released. The medical facilities folks requested that project 
in 1998.
    Mr. Hamre. I don't believe we have any money on withhold 
from the past. What he may be asking about is there was a----
    Mr. Hoyer. My question from Mr. Pickett, is if this is 
fiscal year 1997 money?
    Mr. Hamre. We will check that. I know of no reason why it 
would not have been released. I think it has been released.
    Mr. Hoyer. He intimated there might be some sort of GAO 
investigation.
    Mr. Hamre. What I am sure he is asking about is the final 
increment on the Portsmouth project. There was an additional 
building that really was not part of the hospital they wanted 
to improve as a renovation and that was about $34 million. They 
wanted it very much to be in fiscal year 1998.
    There is a GAO investigation under way to determine whether 
or not it is cost effective. The documentation originally 
provided by the Navy indicated that it was not cost effective. 
There was a GAO investigation directed by Congress last year. 
We have not yet received the results of audit; therefore, we 
put all of the funds in 1999. The project is in our 5-year plan 
and it is in 1999. It is not in 1998 because we don't know what 
the GAO will find.
    Mr. Hoyer. Do you know when you expect that?
    Mr. Hamre. Have you heard, Henry? We will find that out, 
sir.
    Mr. Hoyer. If you could do that, because I am sure Mr. 
Pickett is going to ask me about it again and I am sure he will 
ask you directly. He doesn't have to go through me.
    Mr. Hamre. And I told him, it is in our 5-year plan. It is 
really an issue of timing, was it appropriate to put it in 
1998, and we thought it was not because of the pending inquiry. 
It may not be cost effective. But I will report back to you.
    Mr. Hoyer. Mr. Chairman, I don't have any further 
questions.
    [Clerk's note.--The requested GAO audit is scheduled for 
completion in late April 1997.]
    Mr. Packard. Mr. Tiahrt.
    Mr. Tiahrt. Dr. Hamre, thank you for coming. I appreciate 
your willingness to appear before the committee. I hope we do 
yield a better product.
    Mr. Hamre. You will.

                          bosnia supplemental

    Mr. Tiahrt. Sometimes we wonder when we work through all of 
this. And the frustrating part about a democracy is nobody gets 
their way. But I am very concerned about the administration's 
approach to the defense budget discussion. Not being a part of 
the defense budget, I didn't hear all the talk about the 
recessions. But, I think it puts in jeopardy a lot of the 
priorities that we have when we have a $2 billion shortfall.
    Many of the things that we have with the voluntary Army 
that drives our problems aren't attractive to people. We don't 
always fill up our academies because it is not attractive 
enough for the current society to join the military. It is a 
quality of life issue.
    When we have the option to go around the globe and do 
wonderful things, we need to pay for those things. And I think 
when we don't do that we are not being straightforward, and it 
puts us in jeopardy.
    I wonder if there is going to be a recommendationthe $2 
billion recession and if so, how will it affect military construction 
and quality of life issues?
    Chet Edwards talked about 75 percent are now married. Well, 
child care is a great issue because a lot of them are married 
to other members in the military. So is the supplemental going 
to jeopardize those priorities that we think are important?
    Mr. Hamre. Thank you, sir.
    First of all, let me lay out factually the budget that we 
submitted for fiscal year 1998 has all the costs for Bosnia 
imbedded in our budget request, so we are not going to have a 
situation like we had in 1997 where we get into the year and 
have a hole that needs to be filled by trying to scrape it up 
from other accounts. I think that situation creates the 
condition you have described quite rightly where it is very 
awkward for you to put resources on things that you think are a 
priority for Congress and yet the first inclination for us was 
to use those to pay for something that you didn't think was 
right in the first place.
    The problem I always have with things like Bosnia is that 
we really ought to debate Bosnia and not simply how to pay for 
Bosnia. How to pay for Bosnia is an important debate, but 
secondary to the policy. Because of the way we have done it, it 
forces us to confront this funding disconnect. We do have about 
$2 billion funding disconnect in 1997.
    The administration's proposal is for Congress to accept a 
cancellation of about $2 billion and then reappropriate $2 
billion to go to Bosnia. A cancellation is a rescission with 
any of the details as it were.
    If history is a guide, you are not going to do that. And I 
don't blame you. But that is giving me the choice of deciding 
what to do or what not to do. And you all didn't run for 
election and get elected to turn it over to me to decide what 
to do with the projects.
    So I have to find a way of working with the Appropriations 
Committee to come up with sources that are acceptable to you to 
pay for Bosnia. That is going to be tough.
    I have been working with my people, with Henry and others, 
to try to find ways to do that that aren't controversial. I 
will tell you, there are no easy dollars available in the 
department. Last year, it was relatively easy because we had a 
windfall for about $800 million in the National Reconnaissance 
Office, some intelligence programs where we didn't need it in 
fiscal year 1996 and we were able to basically use that and 
then I replaced it in the out years. I don't have those kinds 
of relatively easy dollars.
    So right now I think I have about $700, $800 million, but I 
am a far cry from having $2 billion. I need to sit down and 
work with the professional staff on this committee and National 
Security Subcommittee to find a way to pay for it.
    If I can't do that then I have to go through the very 
painful process of coming back and saying I don't want to do 
this project, and you know how hard that gets for both of us. 
So I think over the next 3 or 4 weeks working with the 
committee we will find as many sources as we can.
    I know the staff on the committee is scrubbing our budget 
as well, maybe it is overstated, maybe it could be smaller, we 
don't think it is but it might be, and we can bring closure to 
this if we can get a supplemental passed, which we really do 
need by about the middle of April, without going through the 
very painful debilitating process of fighting with the very 
people that we are asking to help us. And that is the dilemma 
we face.
    And fortunately I have professionals, like Mrs. Dawson, who 
are working with us and her counterpart, Mr. Grone, on the 
National Security Committee. Now, the one thing that--and 
Chairman Packard asked me this yesterday, are you going to lay 
this on the MILCON budget, and I said no. I did misspeak and it 
was not intended to mislead, in that I do have some inflation 
savings from prior years and about $40 million of it is in 
MILCON. But again it is going to be your decision if you choose 
to use that.
    We are not going to systematically go around to try to ding 
those projects that are Member projects to pay for Bosnia. 
Because I know you are not going to agree to that and it is 
going to force me to have a fist fight with people that are, 
frankly, trying to help us.
    Mr. Tiahrt. Looking at the scope of government in the last 
couple of years, the largest work scope growth has been the 
Department of Defense. We probably spent a billion dollars in 
Haiti, a couple billion in Bosnia, maybe $3 billion.
    Mr. Hamre. Six and a half, sir.
    Mr. Tiahrt. It is an increase in work scope. Yet when I see 
the request from the administration come in, there is a 
reduction in that very part of the budget which they have 
increased the work scope the most. I don't understand the logic 
and it makes our job more difficult because we are going to 
have to lesson the quality of life in order to meet this 
increase in work. I am very concerned about the ongoing 
projects that we have in 1997.
    Mr. Hamre. And my pledge to you is to work as hard as I can 
with the professional staff and with the Chairman and others 
and the Ranking Member to make sure it is done in a fair and 
equitable manner and that we are not going out of our way to 
hurt anybody, and we will not hurt anybody in this process.
    Thank you, Mr. Chairman.
    Mr. Packard. Thank you. Mr. Olver.
    Mr. Olver. Thank you, Mr. Chairman.
    Doctor, I have a small, parochial project too having to do 
with the simulator.
    Mr. Hamre. Please raise it with me. I will be glad to go 
through it with you.

          base realignment and closure--environmental cleanup

    Mr. Olver. I will do it but not here at the moment. I 
wanted to ask a further question about the BRAC commissions. 
The first of those commissions was in 1989. Is that cleaned up? 
Is the budget for that now cleaned up?
    Mr. Hamre. Yes, sir. And I think there is $31 million left 
altogether that might be available for any final actions, but 
that is 99.9 percent cleaned up.
    Mr. Olver. My areas of involvement was in 1991, was Fort 
Devens. Is that one cleaned up?
    Mr. Hamre. In the aggregate it is, about 88 percent. I 
don't know the status particularly but we will find out.
    Mr. Olver. I am glad that you didn't say it is cleaned up, 
because I think there is some sense there are a number of items 
that have slid and it is not sure which ones are going to be 
done.
    Mr. Sodano. Environmental cleanup associated with the first 
round of BRAC is now being done with subsequent round funds.
    Mr. Hamre. So a lot of this is going to continue for some 
time now, especially on the environmental side.
    Mr. Olver. If you could give me some sort of summary of 
where we are on that, some of the items that were designed for 
Fort Devens, I would appreciate it.

 guard and reserve personnel components--decrease in military personnel

    You had mentioned here they are down by 30 percent in 
force, in infrastructure by 15 percent, and at least in terms 
of the active bases, this has been mainly done through the BRAC 
commissions. Is the Guard personnel on increase or decrease at 
this point?
    Mr. Hamre. Well, Guard personnel are on a downward trend.
    Mr. Olver. All Reserves as well?
    Mr. Hamre. All Reserves, yes, sir, are on a reduction. I 
believe our active duty force will be down a total against the 
1980 base. I think it is down about 34 percent and I think the 
Reserve components are down only about 22 percent. So it is 
less than the active duty reduction but there is still a 
reduction for all of the Reserve components. I don't recall but 
I will get it to you what the reduction is by component.
    [The information follows:]

[Page 29--The official Committee record contains additional material here.]


    Mr. Olver. Most of the Guard, say the Army Guard, focuses 
on units. Are there any of those that have more than one unit 
in the same armory? Have they been built in such a way that 
they could accommodate an area more than one unit, relatively 
small units, units maybe becoming smaller?
    Mr. Sodano. They are sized to accommodate multiple units.
    Mr. Olver. You do size them to accommodate multiples?
    Mr. Hamre. Yes, sir.
    Mr. Olver. Are those multiples more than two units of 
Guard?
    Mr. Sodano. Yes, sir. I have seen as high as three units 
using a single armory, but it wasn't sized for three units. 
There was an audit several years ago that found the Guard was 
sizing armories for three different units. In other words, if 
each unit included 200 people, they sized the Armory for 600. 
They don't do that anymore. Now the armory is sized for the 
largest unit but the training is staggered so that multiple 
units can use the same armory.
    Mr. Olver. In your planning process, would you be 
considering that, if the Guard is coming down slowly, albeit 
slowly, but in its total perhaps coming down? In my area there 
are a lot of armories and it might actually make sense in a 
long-range planning point of view to take locations which are 
very close to each other and--
    Mr. Hamre. Modernize a number at the same time.
    Mr. Olver. Yes, modernize and consolidate at the same time.
    Mr. Hamre. Sir, I think I am reflecting my personal lack of 
awareness of the underlying program because we have not, 
frankly, done overall program reviews. Let me get smarter and 
work with the Guard and come up to talk with you about it.
    Mr. Olver. Thank you, Mr. Chairman.
    Mr. Packard. Thank you, Mr. Olver.
    I have held my questions to the last and may not always do 
that, but I did today and because I thought it would be best to 
hear from all so that I would not duplicate.
    Let me go through your testimony briefly. There are only 
one or two questions that my staff helped me on. But in your 
presentation, you have compared your request to last year's 
request.
    Mr. Hamre. Yes, sir.

                       chemical demilitarization

    Mr. Packard. That does not help me a lot. I want to know 
what this year's request is in comparison to last year's 
appropriated level. You can do both, but I would like to be 
able to compare what we appropriated last year to what you are 
requesting this year. Just a simple question that I am 
personally interested: Is napalm considered a chemical?
    Mr. Hamre. No, sir.
    Mr. Sodano. The Chemical Detail Program concentrates on 
unitary chemicals. Right now we use binary chemicals. The 
stockpile that we are storing is unitary chemicals that are 
deadly in and of themselves.
    Mr. Hamre. But we demilitarized conventional munitions all 
the time and I think napalm is in that category. It is not 
considered to be like a chemical munition that has, like, a 
nerve agent.

                         overall funding level

    Mr. Packard. Thank you.
    I was very interested to find out and I am surprised to 
find out how much of our budget and our family housing budget, 
and I am not being critical at all, that 81 percent of it goes 
for maintenance, leasing operations and so forth. And I have 
visited some of these facilities so I know how they work and 
yet it was surprising that only 19 percent of that huge portion 
of our budget goes for construction of new facilities or the 
refurbishing of existing facilities. I think it was an 
interesting fact that so much of our budget goes to maintain 
what we already have. I wasn't aware of that. Again, I think I 
understand more of it now.
    It has been expressed before, and certainly I want to 
express my concern, the budget proposes a $2.1 billion 
reduction in your total defense budget. Seventy-five percent of 
that comes out of MILCON, $1.6 billion, and that is of course a 
major interest to members of this committee that so much 
emphasis is being placed on readiness and procurement and yet 
we hear a lot of lip service to a significant commitment to 
quality of life issues on our bases.
    I guess I don't quite understand why it comes out that we 
are being asked by the President's proposal to absorb 75 
percent of DOD's budget reductions.
    Mr. Hamre. Sir, what this comes down to is are we measuring 
it against what you ended up appropriating, which was in the 
aggregate about $10 billion higher than the President's budget 
request last year, or against the President's baseline. I 
understand the legitimacy of your wanting to measure it against 
how you ended up the year.
    From the President's perspective, we did not systematically 
say, we want to go cut MILCON because we were coming down, we 
were actually building from the bottom up a budget proposal, 
and we were very pleased, to be able to hold onto the MILCON 
dollars with the primary emphasis going into modernization, but 
we certainly weren't trying to go out and cut your budget, sir.
    Mr. Packard. Anything?
    Mr. Hoyer. I think he meant 1 billion. If we were 10 
billion higher----
    Mr. Hamre. Not in this committee. This committee isabout 1 
billion, but I think in the aggregate DOD wide, it is about 10 billion.

                             family housing

    Mr. Packard. On family housing, and I want to stay on 
family housing because I think all of us have expressed it is a 
priority, including the Defense Department, but last year the 
budget request proposed a 25 percent reduction to family 
housing and this year a 31 percent reduction in family housing 
request, and again that is from request to appropriated levels.
    Mr. Hamre. That is an active request.
    Mr. Packard. Right, I am aware of that. But that is the 
reality, the 25 percent request reduction last year and 31 
percent of the request reduction this year. And that really 
does not convince me that family housing is a top priority when 
we see that. That is more of a comment than a question.
    On the family housing improvement fund, there is no request 
for family housing improvement funds. That is zero on your 
request.
    Mr. Hamre. Yes, sir, for this year only, for 1998.
    Mr. Packard. And how do you justify that?
    Mr. Hamre. Sir, it is largely because there are available 
balances from the prior year that weren't going to get spent, 
and so if we asked for the dollars they weren't going to get 
executed for fiscal year 1998. And so we really think what we 
have is what we really could execute.
    Mr. Packard. Where are those available funds in family 
housing?
    Mr. Hamre. In family housing, in 1997. Because we were slow 
in getting off the blocks, we have got dollars available in 
1997 that, frankly, weren't going to be executed until 1998. It 
was simply an execution effort, sir.
    Mr. Packard. You are asking for a transfer authority or you 
intend to use transfer authority, and I am wondering where 
those will be transferred from. Are we looking at housing funds 
that are already there, or are we looking to transfer from 
other accounts?
    Mr. Sodano. Legislation provides for authority to transfer 
from the family housing construction account into the family 
housing improvement fund.
    Mr. Packard. That brings up my concern, then, as to will 
there be construction projects that will go away wanting if we 
transfer from the family housing construction account to the 
family housing improvement fund?
    Mr. Hamre. Sir, no. As a matter of fact, our concept is 
that we would transfer it in and get more housing out of it, 
that we are not going to take and not do a project that you 
have authorized and appropriated and then spend it on something 
else. We will actually use the private sector tool to get more 
housing for that location. But it is meant frankly to show the 
leverage we will get from the private sector for that.
    May I say, sir, we also would love to have you, as a 
committee, institute transfer authority only inside the MILCON 
account. For example, right now we cannot move dollars from 
housing into construction. We have such transfer authority with 
the national security part of the defense bill and we can't 
move any of it without your permission.
    So I know there is some concern that somehow we would be 
cheating on a project or undercutting something. We could not 
do that under these ground rules without your permission on any 
of it. If it is possible for us to be able to work with you, we 
would love to be able to do that, but again, you would be 
totally in control. I am not asking you to commit to anything, 
sir, because I know this committee has some serious questions 
about it.

                           transfer authority

    Mr. Packard. My response to your request to be able to 
transfer up to $200 million, my initial reaction is no way, we 
are just not going to relinquish that kind of ability to 
monitor.
    Mr. Hamre. Sir, you would be able to not only monitor it, 
you would have to approve it. Under no conditions would we do 
it unilaterally. We probably have not done a very good job of 
explaining that. But this would not be something we could do on 
our own, this would be something we could only propose to you 
and you would have total veto over.
    Mr. Packard. My understanding of what I read was it would 
leave the Secretary with the sole option and decision-making, 
and that is what I am saying now.
    Mr. Hamre. Sir, then we have misled you by not properly 
communicating this, because under no terms would we propose to 
you that we would be able to unilaterally change what you have 
done.
    Mr. Packard. Well, we will look into it. My analysis of it 
was that it would transfer from the Congress to the Secretary 
sole determination.
    Mr. Hamre. We have misled you, then, with the way we have 
referred to it because we are not proposing that.

                            quality of life

    Mr. Packard. We had an interesting experience when I toured 
one of the bases this past week, a couple of interesting 
experiences that maybe members of the committee would be 
interested in dealing with quality of life issues.
    We found that when the question was asked to one of these 
young recruits what--and, incidentally, we visited probably the 
most deplorable barracks we could find, and we asked them what 
is it that you would like to see, have available to you here in 
this barracks more than anything else?
    We thought it might be more privacy or two plus two 
barracks in this instance--and then I will ask a question on 
the one plus one concept--or perhaps more privacy in the 
latrines or shower areas or so forth, which were deplorable. 
But that was not it. Interesting enough, to these two men that 
we talked to, the thing they wanted more than anything else was 
a telephone.
    That came as quite a shock to me because I never thought, 
sitting here on the committee, that a telephone was a serious 
quality of life issue, but they wanted a telephone.
    The second thing they wanted, because most of them have a 
car, they just wanted to get off base when weekends come or 
time off. They wanted a place to fix their car and service 
their car.
    Those were the two top priorities that we heard from the 
men themselves or troops themselves. I think it was 
interesting. And now that I think about it, those are important 
things to a young single guy on a base in those barracks when 
there is no place to go and yet we sitting here or you sitting 
there would never think it was a top priority.
    Mr. Hoyer. Mr. Edwards is suggesting, Mr. Chairman, that 
there is a synergy between those two.
    Mr. Packard. I think there is.
    Mr. Hobson. If I could interrupt the Chairman, if you would 
have heard some of the testimony yesterday, they found out some 
other things to do in those barracks with the way the barracks 
are set up today. The results are not all that good with the 
pregnancy rate in some of the barracks.
    Mr. Packard. There is no need for the car if the telephone 
is not working. Any way, it was interesting to me.
    But when we talk to the commanding officers what the 
greatest need was, it is probably an area where we are very 
prone, and you have already mentioned it in your comments, to 
neglect, and that is the underground, unseen infrastructure. We 
are building brand new barracks. On this base that we visited 
there is a brand new barracks that is under construction, and 
we visited some that were completed, and yet dirty water is 
coming through the faucets at those brand new facilities 
because of the underground utilities that have not been 
repaired. They leaked. They break. They are old. They are World 
War II vintage. And I don't know that we are spending any money 
to upgrade the underground infrastructure. At least I don't see 
it in the budget, and I think it is an area that is easily 
overlooked because you don't see it. And even our base 
commanders don't put it in high priority. But it is reaching 
the point where it is critical.
    The young men moved into their barracks and in one instance 
the electricity was off for several days when they first moved 
in, and again it is the basic infrastructure. This is where 5-
year planning can come to help us, if we can begin to put some 
of these neglected areas that are really crucial to our 
servicing these men and women into a long-term plan.

                    troop housing--``one plus one''

    Back to one plus one barracks. When I met with the Air 
Force joint chief personnel, we got different signals. They 
were absolutely committed to one plus one. That is where you 
have one person in each cubicle or each living compartment in 
the barracks, complete privacy, in other words. They have their 
own bathroom. They have their own living quarters. As small as 
it is, it is still their own and it is not for two people. That 
is their goal in the Air Force.
    When we visited the Marines out at Camp Pendleton, they 
absolutely did not want one plus one. They thought it would be 
a detriment to their morale, a detriment to their goals and so 
forth. They would live with two plus two but some would even 
prefer to have it still more communal.
    It was interesting to get a different viewpoint from the 
different joint chiefs. I think everyone admits that the one 
plus one is a very noble goal but a very expensive goal and 
will take a long time to get there. But I am interested to know 
if there is a DOD policy or defense-wide policy on the goal of 
one plus one, two plus two, or other alternatives.
    Mr. Hamre. Sir, we went around and around and around on 
this and, frankly, this was one of those things this committee 
was forcing us to confront last year. I was frustrated in two 
dimensions. One is a single goal is very hard to apply when the 
underlying environmental conditions that each of the services 
have are so different. And so Marines genuinely have a very 
different problem than does the Air Force. The Marines deploy 
and go to war. The Air Force usually deploy and go to war from 
a base. And so they have a very different culture and the 
importance of the base is a very different flavor.
    Where I was most frustrated was the willingness of the 
military departments to establish a goal but not to pay for it, 
to say I want one plus one but I am not willing to put any 
money up to do it, and I thought frankly that smacked of 
trolling for dollars, I am going to specify a new goal to try 
to get there and, oh, by the way, I don't have any money to pay 
for it.
    And so I was pretty adamant about this, if one plus one is 
our policy, we ought to resource the darn thing. And instead we 
have plans that weren't going to get to one plus one for 23 and 
25 years.
    So this is one of those constitutional tendencies I felt we 
had to put together a long-term plan--not have a long-term 
plan, state long-term goals that have very direct resource 
requirements that nobody was prepared to reflect in their long-
term program. And we did that last year and I would argue we 
probably still have a disconnect in that area. That is one of 
those things that we ought to jump on.
    Where it stands now is that everybody, except the Marines, 
would like to build to a one plus one standard for new 
construction. The Marines would prefer to stay two plus two 
partly because of the nature of the Marine mission and partly 
because they have too far to run to catch up. They couldn't get 
to one plus one and they need to stretch their dollars further.
    That is not the case, of course, for new enlistees. They 
are in a barracks in an open bay type configuration for a 
period of time. I think where you ought to rightly ask us to 
come and say is, if one plus one is the standard, when are you 
going to get there? That is the goal.
    Mr. Hobson. The Navy isn't going to go to a one plus one.
    Mr. Hamre. No, sir. But one plus one I believe varies a 
little bit, and Henry, correct me if I am wrong, but I think 
one plus one, the size is a little different from each of the 
services as well. I think one plus one for the Air Force is 
more generous than one plus one is for the Navy and Army.
    Mr. Sodano. Actually, there is a standard but there are 
some differences--I think the Army is allowed extra space for 
their additional gear.
    Mr. Hamre. Because they have got all their gear, like 
backpacks. But there is definitely--I mean, there is a 
standard, one plus one. The Marines, however, are not going to 
be on that for a combination of reasons. But the bigger problem 
is we are a long ways away from getting there.
    Mr. Hoyer. Mr. Chairman, you may be interested in a story 
that this exchange reminds me of. Mr. Gephardt and Mr. Gingrich 
led a delegation to the Persian Gulf, to Saudi Arabia, in 
September of 1990 and went to King Camp Airport where we had 
deployed, even in September, I guess a couple thousand troops. 
We visited a tent. The tent must have been 65 degrees. It was 
100 degrees-plus out. I was actually cold in the tent. When we 
got back in the bus, we went to the mess hall, and as we got 
out of the bus, I saw some guys and I went up to them and I 
said, boy, I tell you, those tents are really something, 
fellows, its 65 degrees in there. And a young private looked at 
me and said, sir, those are Air Force tents. The Air Force had 
repositioned their tents and were fully air conditioned. The 
Army tents were on line then and had no air conditioning and I 
had made a hit with that Army private. He was ticked off with 
the Air Force.
    Mr. Packard. It is an area that I am trying to analyzehow 
we deal with different standards for different services in this 
committee in terms of our funding and in terms of our priorities.
    Mr. Hamre. Sir, I think we really have to respect the 
genuine differences that each of the services have for the kind 
of environment and kind of culture that has developed because 
of their war-fighting arrangements. Sixty or 65 percent of 
Marines are first-termers and it is a very different emphasis 
than it is for the Air Force, so we have to understand that. So 
there are going to be some differences here.
    Mr. Hefner. I would like to make a point and this is not 
something that comes with any particular administration. This 
has been a problem ever since I have been on this committee 
about requests and priorities. The Army has been very timid 
about making their requests. And I said when I was on the 
Budget Committee and joint chiefs were there and Army guys, you 
just tell us what you need and we will live with it. And the 
Navy and Air Force were raising hell about having to have a 
bigger allocation, but the Army has been so passive about their 
demands. And I would like to see them get their back up a 
little bit.
    I went to, I don't know if it was Oklahoma or Texas, but 
they were operating the most sophisticated weapons the world 
has ever seen and then when they get off work they have to walk 
across an unpaved parking lot and stand in water up to their 
ankles to get a shower.
    Mr. Packard. Again, we come right back to this long-term 
planning, if they do that with deep commitment to the process 
then when it gets to this year, that plan works up to this 
year, that should greatly assist them in putting together their 
budget request because they have already planned it on a long-
term basis. If they neglect that part of it, then they are 
always going to be willing to take what is left over.
    It has been a very interesting hearing and I deeply 
appreciate not only my colleagues here and their questions and 
their involvement but I appreciate your testimony, both of you.
    Before we leave, are there any additional questions that 
any of you would like to ask? I would not want to shortchange 
anybody.
    I have a packet of questions that we have not asked that we 
intended to submit and ask you to respond to them. And so if 
you will do that, we would appreciate it. But other than that, 
I have no further questions.
    Again, I want to thank you, Dr. Hamre, for very, very 
meaningful testimony and the witness that you are, and I 
appreciate it very much. And with that, this hearing is 
adjourned.
    Mr. Hamre. Thank you, sir.
    [Clerk's note.--Questions for the record submitted by 
Chairman Packard.]

                       Private Sector Initiatives

    Question. Please bring us up to date with the current 
status of the Department's efforts to promote private sector 
ventures for family housing and barracks.
    Answer. Since being provided the new authorities last year, 
DoD has been aggressively working to develop the programmatic 
foundations for housing privatization and actively test the new 
tools on specific projects. A report on our first year's 
progress has been provided to Congress. A copy is attached. 
(Attachment 1)

[Pages 37 - 68--The official Committee record contains additional material here.]


                     Troop Housing--Budget Request

    Question. How many spaces are included in the budget 
request for troop housing?
    Answer. The FY 1998 budget request includes $631 million to 
construct/modernize 40 barracks and 11,517 living spaces.

          Troop Housing: Cost to Buy-Out Troop Deficit (Army)

    Question. What will it cost to buy out the current troop 
housing deficit?
    Answer. Approximately 6 billion dollars in constant FY 1997 
dollars.

          Troop Housing: Cost to Buy-Out Troop Deficit (Navy)

    Question. What would be the cost to buy-out the current 
troop housing deficit?
    Answer. The Navy has planned to eliminate the Bachelor 
Housing deficit while reaching the 1+1 standard. This plan will 
cost $1.9 billion over 18 years ($105 million per year) and 
will not only eliminate the deficit but will upgrade 
substandard quarters and replace inadequate quarters to meet 
the new 1+1 DoD standard for permanent party. The Marine Corps 
has a dedicated funding stream for MILCON averaging $56 million 
per year until Fiscal Year 2005 to eliminate our inadequate 
spaces. The total cost is approximately $448 million.

         Troop Housing: Cost to Buy-Out Troop Deficit (Marines)

    Question. What would it cost to buy-out the current troop 
housing deficit?
    Answer. The Marine Corps has a dedicated funding stream for 
MILCON averaging $56 million per year until Fiscal Year 2005 to 
eliminate our inadequate spaces. The total cost is 
approximately $448 million.

               Cost to Buy-Out Troop Deficit (Air Force)

    Question. What would it cost to buy-out the current troop 
deficit?
    Answer. Once the Air Force completes its Dormitory Master 
Plan in July 1997, we will have the information to accurately 
determine the size of the dormitory deficit and the estimated 
cost to buy-out the deficit.

[Pages 70 - 71--The official Committee record contains additional material here.]


         Permanent Party Unaccompanied Personnel Housing (Army)

    Question. What percentage of the officers and enlisted 
force are single or unaccompanied?
    Answer. Data compiled in February 1997 shows 23 percent of 
officers and 39 percent of enlisted personnel are 
unaccompanied. The average total unaccompanied rate for Army is 
37 percent.
    Question. How many men and women, by service, are living in 
permanent party unaccompanied personnel housing, and how many 
single or unaccompanied personnel live in off-base housing?
    Answer. Approximately 134,000 Army personnel live in 
permanent party unaccompanied personnel housing compared to 
12,200 single or unaccompanied personnel in off-base housing.

         Permanent Party Unaccompanied Personnel Housing (Navy)

    Question. What percentage of the officers and enlisted 
force are single or unaccompanied personnel?
    Answer. Approximately 29% of the Navy officer population 
and 42% of the Navy enlisted population is single or 
unaccompanied. Marine Corps statistics are 30% officer and 59% 
enlisted.
    Question. How many men and women, by service, are living in 
permanent party unaccompanied personnel housing and how many 
single or unaccompanied personnel live in off-base housing?
    Answer. The Navy has a total of 55,400 bachelor personnel 
living in permanent party quarters and 46,200 living in the 
community.

       Permanent Party Unaccompanied Personnel Housing (Marines)

    Question. What percentage of the officers and enlisted 
force are single or unaccompanied personnel?
    Answer. 59.4% of all enlisted Marines are single and 29.9% 
of all Marine officers are single.
    Question. How many men and women, by service, are living in 
permanent party unaccompanied personnel housing, and how many 
single or unaccompanied personnel live in off-base housing?
    Answer. As of 3 Dec 1996, there are 79,311 Marines living 
on-base in bachelor housing and 10,656 bachelor Marines living 
off-base in the civilian community.

      Permanent Party Unaccompanied Personnel Housing (Air Force)

    Question. What percentage of the officers and enlisted 
force are single or unaccompanied personnel?
    Answer. As of 31 Jan 97, 24% of the active duty officer 
force and 35% of the active duty enlisted force are single. The 
Air Force has 10,706 officers and 67,813 enlisted personnel 
assigned overseas. Of the active duty personnel assigned 
overseas, 34% of the officers and 43% of the enlisted personnel 
are unaccompanied.
    Question. How many men and women, are living in permanent 
party unaccompanied personnel housing, and how many single or 
unaccompanied personnel live in off-base housing?
    Answer. The Air Force has approximately 72,000 permanent 
party men and women living in enlisted and officer 
unaccompanied personnel housing and approximately 44,000 single 
or unaccompanied enlisted and officer personnel living in off-
base community housing.

[Pages 73 - 100--The official Committee record contains additional material here.]


                           Lost Design (Army)

    Question. How much in lost design occurred in fiscal year 
1996 for each service?
    Answer. For fiscal year 1996, the amount of lost design for 
MCA and Army Family Housing Construction was $4,320,000.

                       Lost Design (Army Reserve)

    Question. How much in lost design occurred in fiscal year 
1996 for each service.
    Answer. The Army Reserve had $949,000 in lost design in 
fiscal year 1996.

                        Lost Design (Army Guard)

    Question. How much in lost design occurred in fiscal year 
1996 for each service?
    Answer. In FY 1996 the Army National Guard lost design in 
the amount of $19,157.50.

                           Lost Design (Navy)

    Question. How much in lost design occurred in fiscal year 
1996 for each service?
    Answer. The Navy MCON program has $3,454,000 in lost design 
occur in fiscal year 1996.

                    Planning and Design (Air Force)

    Question. How much in lost design occurred in fiscal year 
1996 for Air Force?
    Answer. The Air Force defines ``lost design'' as design 
that is no longer applicable due to changes in scope or 
criteria. Of designs accomplished in fiscal year 1996, $3.9 
million was categorized as lost design. The leading cause of 
lost design was refinements in 1+1 dormitory projects. This 
program started in fiscal year 1996 and we are incorporating 
lessons learned.

                  Breakage and Deferred Design (Army)

    Question. How much breakage and deferred design occurred in 
fiscal year 1996 for each service?
    Answer. For FY 96, the amount of design breakage for MCA 
and Army Family Housing Construction was $1,507,000. The Army 
does not track deferred design since it is not considered lost 
effort until the project is canceled.

              Breakage and Deferred Design (Army Reserve)

    Question. How much breakage and deferred design occurred in 
fiscal year 1996 for each service?
    Answer. The Army Reserve had $432,000 in design breakage in 
fiscal year 1996.

               Breakage and Deferred Design (Army Guard)

    Question. How much breakage and deferred design occurred in 
fiscal year 1996 for each service?
    Answer. The Army National Guard design breakage for FY 1996 
was $0.00. The deferred design for FY 1996 was $2,716,923.31.

                  Breakage and Deferred Design (Navy)

    Question. How much breakage and deferred design occurred in 
fiscal year 1996 for each service?
    Answer. The Department of the Navy MCON program had 
$3,379,000 in breakage occur in fiscal year 1996. No design was 
deferred in fiscal year 1996.

                Breakage and Deferred Design (Air Force)

    Question. How much breakage and deferred design occurred in 
fiscal year 1996 for Air Force?
    Answer. The Air Force defines ``design breakage'' as design 
accomplished for projects that have been canceled and are no 
longer required. Of designs accomplished in fiscal year 1996, 
$852 thousand was categorized as design breakage. The Air Force 
defines ``deferred design'' as design performed for required 
projects that will no longer be accomplished as part of the 
military construction program in the originally programmed 
fiscal year. Of designs accomplished in fiscal year 1996, $400 
thousand was categorized as deferred design.

                              Davis-Bacon

    Question. What is your estimate of the amount within the 
budget request for fiscal year 1998 that is attributable to the 
provisions of Davis-Bacon?
    Answer. To my knowledge, there have been no recent studies 
on the effects of the Davis-Bacon Act on military construction 
costs. Previous studies have indicated the cost impact of the 
Act to range between 3-10 percent of construction costs 
depending upon the specific circumstances and assumptions used. 
Those estimates do not include the cost of administration and 
enforcement of the Act. The most recent comprehensive review of 
Davis-Bacon Act costs was a 1979 General Accounting Office 
study, however, much has changed since 1979 and without a 
similarly rigorous study the Department would be reluctant to 
provide an estimate of the impact of the Act on the FY 1998 
request.

                             Phase Funding

    Question. Does the budget request include funding for any 
projects at a level that exceeds the amount of construction 
that can be put in place during fiscal year 1998?
    Answer. None of the new projects included in the FY 1998 
request are ``phased'' or funded for construction over multiple 
fiscal years. The Navy budget request includes $9 million for 
Phase IV of an Advanced System Integration Facility (Anechoic 
Chamber) to be constructed at the Naval Air Warfare Center, 
Patuxent River, MD. This is the last ``Phase'' (completion) of 
a multi-phase construction project.

    [Clerk's note.--See Army hearing regarding Fort 
Leavenworth.]

[Pages 103 - 121--The official Committee record contains additional material here.]


               Unspecified Minor Construction (Air Force)

    Question. Has this appropriation met the needs of the 
components over the last two years? What shortfalls, if any, 
have been encountered?
    Answer. The appropriation has been sufficient to meet our 
most urgent Air Force needs. Minor shortfalls have been 
accommodated through reprogramming actions.

                          Planning and Design

    Question. Does the budget request include sufficient 
planning and design funds to execute the entire fiscal year 
1998 and 1999 program?
    Answer. The Department's estimate for planning and design 
(P&D) requirements for the budget year is based on the size of 
the two succeeding fiscal year military construction programs. 
For example, the amount requested for FY 1998 will be used to 
complete design on FY 1999 projects and to initiate design on 
the FY 2000 projects. Therefore, the size of the FY 1998 
request is a function of the size of the FY 1999 and FY 2000 
construction programs. Consequently, the $189.9 million enacted 
in FY 1997 for planning and design will complete the design of 
the FY 1998 program and bring the FY 1999 program to the 
required 35% design level and will allow the Department to 
execute the entire FY 1998 program.
    In addition, the $201.5 million requested in FY 1998 for 
planning and design is sufficient to complete design on the FY 
1999 military construction program, which will allow for 
execution in FY 1999, and bring the FY 2000 program to the 
required 35% design level.
    Question. Are any projects in the ``Defense-Wide'' budget 
request at less than 35 percent design? If so, list and justify 
such projects.
    Answer. Design has only recently been initiated on a $9.3 
million project to construct a Headquarters Addition for the 
Defense Commissary Agency in Ft Lee, Virginia; however, the 
project was included in the Department's FY 1998 program 
because it is still believed to be executable in the program 
year.

                       Real Property Maintenance

    Question. What is the total fiscal year 1998 budget request 
for real property maintenance? How much is earmarked for 
barrack renovation?
    Answer. The total FY 98 budget request for real property 
maintenance is approximately $4.4 billion. Service budget data 
does not breakout the projected amount to be spent on barracks 
renovation and this number can not be accurately estimated at 
this time.
    Question. Submit for the record a table which will show, by 
fiscal year, the total amount approved by Congress for 
reprogramming for ``Military Construction, Defense-Wide'' for 
the last five years.
    Answer. The following table identifies the reprogramming 
requests approved by Congress for the Military Construction, 
Defense Wide account for the last five years.

Reprogramming request approved by Congress

                        [In millions of dollars]

        Fiscal year
1992..............................................................   5.5
1993..............................................................  13.3
1994..............................................................  26.6
1995..............................................................  14.0
1996..............................................................  16.3

    [Clerk's note.--Question for the record submitted by Mr. 
Hefner.]

                       Private Sector Initiatives

    Question. During testimony, Dr. Hamre cited an estimated 
30% savings from housing privatization. Please provide the 
basis for that estimate.
    Answer. The criteria used for developing housing 
privatization projects is that we must achieve at least a 3:1 
leveraging of our funds. This means that when compared to 
comparable DoD MILCON project costs at a given site, we will 
acquire at least 3 times as many units for the MILCON cost, or 
we will acquire the same number of units as the MILCON for \1/
3\ the cost.

    [Clerk's note.--The following are questions for the record 
regarding projects requested under the ``Military Construction, 
Defense-Wide'' Account.]

            Defense Commissary Agency Headquarters Addition

    Question. Why is this project included in Military 
Construction, rather than non-appropriated funds?
    Answer. A surcharge on selling prices in commissaries is 
authorized by 10 USC 2685. Sub-paragraph (b) of 10 USC 2685 
limits the construction and construction related uses of the 
surcharge proceeds to commissary store facilities only. An 
administrative building is not a commissary store facility.
    Question. How many additional personnel will the 
Headquarters addition accommodate?
    Answer. The addition will accommodate 275 additional 
personnel.
    Question. How many off-post facilities are currently being 
leased by the Defense Commissary Agency? What are the current 
leasing costs of these facilities?
    Answer. DeCA is currently leasing 4 off-post facilities at 
a total annual rent of $618,768.
    Question. What is the payback period for new construction 
versus continuing lease?
    Answer. The key factor in estimating the payback period is 
the residual value of the government-owned facility in the new 
construction alternative. OMB circular A-94 mandates the 
inclusion of a residual value in lease versus purchase 
analyses, based on the rationale that the Government would 
retain a usable asset even if the particular use for which the 
facility was originally constructed is no longer valid. If 
residual value is taken into account, the cumulative net 
present value of the headquarters building addition is 
approximately equal to that of a GSA lease at one year of 
occupancy of the facility (2001). If the residual value is not 
taken into account, the cumulative net present values of a GSA 
lease versus the headquarters building addition become equal 
after approximately 18 years of occupancy (2018). At present, 
the off post rental cost is less than that estimated for a GSA 
rental alternative because a significant number of personnel 
are located in a facility that was never designed for office 
use. The assumption at the time this facility was rented was 
that the occupancy would be for less than five years. The 
continuation of these leases is not considered a viable long 
term alternative.
    Question. The form 1391 does not provide estimated design 
status, basis, total design cost and construction start date. 
Could you please provide us with this information?
    Answer. The project is at a 15 percent design level and 
includes a site plan, schematic floor plans, cross sections, an 
architectural rendering and a detailed parametric cost estimate 
(considered to be equivalent to an estimate based on a 35 
percent design). The design cost is estimated at $744,000, and 
the construction contract award date is estimated to be June 
30, 1998.
    Question. Submit for the record a copy of 10 USC 2685.
    Answer. A copy of 10 USC 2685 is attached.

[Pages 124 - 174--The official Committee record contains additional material here.]


                                         Wednesday, March 12, 1997.

                         DEPARTMENT OF DEFENSE

                                WITNESS

JOHN B. GOODMAN, DEPUTY UNDER SECRETARY OF DEFENSE (INDUSTRIAL AFFAIRS 
    AND INSTALLATIONS)

                       Statement of the Chairman

    Mr. Packard. I appreciate Mr. Edwards being here, and I'm 
sure others will join us as we proceed. This morning we're very 
pleased to have with us John Goodman who is the Deputy Under 
Secretary of Defense for Industrial Affairs and Installations. 
This hearing will focus on privatizing our housing efforts in 
the Defense Department. We're very anxious to hear your 
testimony this morning, Mr. Goodman. It's a crucial area, one 
that we're very interested in, certainly, generally supporting 
of the concept.
    We look forward to hearing your report on how the 
Department is managing the efforts for the services--all the 
services to exercise the new authorities which have been 
granted in terms of privatizing. And we've read carefully, at 
least I have, your testimony completely, and we prefer that you 
summarize, that you highlight what you feel the Committee ought 
to hear in terms of the important issues but would prefer that 
you not read the testimony unless you insist.
    It took me a while last night to get through it, so it 
would take the rest of the morning doing it again. Mr. Hefner, 
I'm sure, will join us later, but Mr. Edwards, do you have any 
opening comments?
    Mr. Edwards. Mr. Chairman, I would simply say that while I 
know there are many meetings going on simultaneously, I 
appreciate, and I know other members of this Committee do, too, 
your focus on quality of life and housing issues. I just came 
from a breakfast this morning where I learned that the Army is 
planning to make an adjustment in their recruiting process. The 
Army will actually take more young soldiers, new recruits, who 
will only have to sign a 2-year contract rather than a 3-year 
contract.
    We are starting to see the slippery slope and it is these 
anecdotal situations like these, any one of which would not 
alarm me but together, they concern me. I just cannot think of 
anything more important than quality of life and housing issues 
for our military families. So, I want to thank you for your 
focus and attention on this issue and appreciate Secretary 
Goodman being here today.
    Mr. Packard. Thank you very much. With that, I will review 
the biography of Mr. Goodman. He has certainly had a very 
distinguished career, both educationally and experience-wise, 
and we're very pleased to have you where you're serving. It's 
our pleasure to work with you. And at this time, we'll have you 
go ahead and present your oral testimony, and then we'll have 
it open for questions.

               Statement of the Honorable John B. Goodman

    Mr. Goodman. Mr. Chairman, Mr. Edwards, I'm very pleased to 
be here today. This is the first time I've had an opportunity 
to testify before this Subcommittee and I look forward to a 
long and productive working relationship with you. I will 
certainly not read my entire testimony to you this morning, but 
with your permission I would request that mystatement be 
included in the record.
    Mr. Packard. It certainly will.
    Mr. Goodman. I would like, if I might, simply to summarize 
what I think the main points were in that testimony. But before 
I do, I want you to know that for the Department, and I know 
for this Subcommittee as well, there is a very important link 
between readiness and quality of life, and between our ability 
to attract and retain the kind of high quality personnel we 
need to be able to ensure we have a winning force in the 
future, and housing is a critical role in that endeavor.
    This Subcommittee was a driving force in the establishment 
of our initiative in housing privatization last year. I'm 
really grateful for this opportunity to discuss with you our 
efforts to use private sector capital to help revitalize 
housing.
    What I'd like to do today is to provide a short report card 
on where I think we are after our first year in the process. 
Overall, I think our first year was successful. We both 
developed programmatic foundations for housing privatization 
and we began to use the new tools that were provided to us.
    First, the Housing Revitalization and Support Office, HRSO, 
is up and running. That office provides the focal point for 
developing the legal, financial, and operational policies of 
the program. These policies are required, are critical to 
ensure that the projects that we develop are, first, accepted 
by the private sector and, second, protect the Department's 
financial interests. HRSO helps develop and train our housing 
personnel in the intricacies of real estate development and 
finance, and this is new to us. HRSO also helps spread lessons 
learned so that we don't have to reinvent the wheel on every 
project.
    Second, we've established protocols for site visits; 
financial models to analyze the use of the tools that we've 
been provided at different sites; a mortgage guarantee program 
to ensure lenders against political risk of base closure, 
downsizing, deployment; a process to provide direct loans; and 
also to convey existing DOD assets to real estate developers as 
part of our contribution to the deals.
    Over the past year, we've had to deal with many legal 
issues, as well the impact of RIF sharing between the 
government and the private sector and the impact of those 
issues on scoring. We've not resolved all of these issues and 
we're working with OMB to that end, but both impact how we 
structure real estate deals and how our projects will be 
treated financially.
    Third and most important, we've initiated a number of 
projects that help us determine how best to use our new 
authorities. One year ago as we received the authorities in 
March of 1996, I told then-Secretary Perry that I thought we'd 
be able to put about 2,000 units into the housing pipeline in 
our first year. In fact, the 6 projects that are now approved 
for development involve more than 4,000 units, twice what we 
had earlier predicted. When I met with Secretary Perry before 
he departed, he said, ``Well, it is not as much as I hoped but 
more than I expected.'' From Secretary Perry, who you know has 
been a champion of our young enlisted troops and their need for 
housing, I took this as high praise indeed. But it's not good 
enough and we plan to double that effort over the coming year.
    The military services have nominated an additional 42 sites 
for evaluation in Fiscal Year 97. And as we build on the 
lessons learned thus far, our program execution in both the 
number of housing units and the speed with which we develop 
deals will improve.
    Mr. Chairman, I believe this first year has been 
successful, but we are working to improve our performance and 
make it even better. We have to continue to improve on the team 
work between the base commander, the services, and the key OSD 
offices, my office, Office of General Counsel and the 
Comptroller. We have to continue to revise our decision-making 
tools and work with OMB to determine how our project is going 
to be scored. And consistent with managing the Department's 
financial interests, we have to reduce our procurement times 
and speed up what we're doing. The need for our young troops is 
simply too great.
    The funds appropriated to the Family Housing Improvement 
Fund have enabled us to develop critical tools, prepare the 
RFPs in a number of locations, and fund the government's 
contribution in our first project. Going forward, we're going 
to use the funds appropriated to this account to support the 
best projects that help meet the program's objectives.
    We're now still in the early stage in the program where 
we're still learning, and we still need to learn what works. 
But we believe that it's important to establish incentives for 
all of the services. Specifically, we will award funds 
appropriated into this account, regardless of service, based on 
the following criteria: The project addresses a critical 
housing priority; the project achieves our target leverage; the 
project cannot be readily funded from other available sources; 
the project expands our experience in using the tools and 
mechanisms that you have given us in this test period; and the 
project broadens our base of project size and configuration. As 
our experience grows, we plan to refine these criteria and make 
them even more specific.
    In closing, Mr. Chairman, we've had a good first year.It's 
not been easy because we're learning how to do business in a new way. 
However, we're committed to the program and we're working hard to build 
on our first year efforts to increase its size and scope. I am truly 
eager to work with you and other members of this Committee, and I'll do 
my best to answer your questions. Thank you, sir.
    [Prepared statement of the Honorable John B. Goodman 
follows:]

[Pages 178 - 190--The official Committee record contains additional material here.]


    Mr. Packard. Thank you very, very much. I think that in our 
questions today we would like to concentrate on just how well 
we have done this first year, where the problems are and what 
we've learned. Also, is this whole process fulfilling the 
intent of being able to provide housing at an affordable cost 
to the users, which is intended to be our service personnel?

                            overall funding

    With that--I'm getting my questions out here. Let me begin, 
and then we'll come to Mr. Edwards after I ask a couple of 
questions, and we'll just go back and forth. In 1996, we 
funded--or as the program was initiated, we funded $22 million. 
In the '97 budget last year, or this current fiscal year, we've 
funded $30 million. The Department has not submitted funds for 
Fiscal Year 98. Why is the Department of Defense not requesting 
any funding for the Family Housing Improvement Fund and for the 
Unaccompanied--Personnel Housing Improvement Fund for the 
Fiscal Year 98?
    Mr. Goodman. First, in regard to family housing, as Dr. 
Hamre mentioned before in his testimony before this 
Subcommittee, we had unobligated balances, which is an issue 
that he was looking at. But I think equally, and perhaps more 
important, the services and Department believe that significant 
additional resources would be made available through the 
authority that you've given us to transfer funds from MILCON 
projects into the account.
    Mr. Packard. So, you're looking for transfer authority, but 
how much is in the account now? Unobligated balances as you 
mentioned?
    Mr. Goodman. Approximately, $30 million.
    Mr. Packard. About 30. And why were they not obligated?
    Mr. Goodman. Largely, sir, because we simply--we weren't 
able to get projects through in time to do so. We've spent 
approximately $17 million between our administrative expenses, 
funding for the RFPs that I mentioned, and the first project, 
and we are working to obligate this additional money as fast as 
possible, using the criteria that I outlined for you.
    Mr. Packard. Now, this program was meant to be a 
supplement, not a substitute for the traditional construction 
account. Yet, compared to last year, the budget request for 
family housing, new construction and improvement to existing 
housing, decreases by $300 million or a 31 percent decrease, 
and maintenance of existing housing is reduced by almost 100 
million. Why these reductions to the funding of these accounts?
    Mr. Goodman. I think those changes occurred for several 
reasons, Mr. Chairman. The first point I would make is that 
relative to the President's request in Fiscal Year 97, our 
overall expenditures, our overall requests for family housing 
and barracks increased in large measure because our request for 
barracks increased significantly. And you're quite correct: 
Even relative to our own request last year, much less to what 
Congress appropriated, our housing requests declined.
    I think this--I think the overall, the overall budget 
reflects the importance that the Department attaches to quality 
of life, but in housing I think we simply are in a situation 
where the Department was putting together and was seeking to 
put together a balanced overall program, and our installations 
and housing funds had to compete on that basis. So, we were 
weighing all of the priorities of the Department.
    Mr. Packard. Your request, what was your request level? And 
I'd like you to compare it to what was appropriated last year.
    Mr. Goodman. Yes, sir.
    Mr. Packard. Not what was requested.
    Mr. Goodman. Yes, sir. Our Fiscal Year 98 request was $680 
million, and my information is that the FY 97 appropriation was 
$980 million. So, about a 30 percent decline from what this 
Committee and Congress appropriated last year. We were simply 
unable to maintain the level of effort that you provided, 
although we are obviously quite grateful for those funds and 
are putting them to good use.
    Mr. Packard. Has this been a tradition before you came? Was 
this a tradition of requesting significantly less than what was 
appropriated?
    Mr. Goodman. Mr. Chairman, I would need to refresh my 
memory on the data. My recollection is that relationship has 
changed somewhat over time in terms of appropriated funds and 
budget requests, but I would be happy to provide a more 
detailed answer for the record.
    [The information follows:]

[Page 193--The official Committee record contains additional material here.]


                     Privatization as a Supplement

    Mr. Packard. Okay. I'm concerned that inside Washington the 
belief is that privatization is the panacea to solve all of our 
problems, in particular the $30 billion housing problem that we 
know about. We have a housing problem that is essentially 
bankrupt and one that needs to be managed in a total rather 
than in bits and pieces. I think we all recognize this. We need 
a balanced program that includes adequate variable housing 
allowances, traditional construction, and privatization if 
we're going to repair and improve this problem.
    What role do you see for traditional housing construction 
as DOD privatizes and moves toward privatizing of housing?
    Mr. Goodman. Mr. Chairman, I think we need to use the new 
authorities that were provided to us to leverage our dollars as 
much as we possibly can. We are now in the process of learning 
the kinds of markets and situations in which those authorities 
will enable us to do so. I agree with you that this cannot 
replace our existing military construction funding approach to 
housing because I am certain that we are going to find markets 
in which those tools for housing construction simply do not 
work. I think what we are seeking to do now is to determine, in 
fact, where we can put these tools to their best possible use 
and where they will not apply.
    As we do that, I anticipate that we are going to 
findsituations where when we have a housing need where we're going to 
go straight to MILCON approach because we will have learned that 
privatization will not work. I agree with you, sir, that I don't 
believe that it is a panacea, but I do think that it it can and will 
enable us to address a number of deficiencies in a much shorter time 
period than we otherwise would be able to do so.

                      variable housing allowances

    Mr. Packard. What are we doing to improve the variable 
housing allowance system?
    Mr. Goodman. I understand that our overall allowance system 
is now under revision. I would need to provide a more detailed 
answer to you for the record on that, sir.
    [The information follows:]

    The current DoD allowance system determines variable 
housing allowance (VHA) rates by survey, using member 
questionnaires to determine the actual housing costs paid by 
the local military. This survey system tends to make allowances 
too low in high cost areas and too high in low cost areas.
    The new system would combine VHA and Basic Allowance for 
Quarters (BAQ) into a price-based local Basic Allowance for 
Housing (BAH) rate. This price-based system would be indexed to 
local housing costs and therefore not tied to unrelated pay 
raises as is currently the case with BAQ. Analysis indicates 
that the new system should be budget neutral because we now 
overpay in some areas but underpay in others. At current 
funding levels, the new system will not affect the current 
absorption rate.
    There are several advantages to combining the existing BAQ 
and VHA. First, allowance changes will clearly be tied to an 
established index. Second, it eliminates the need for annual 
surveys of the housing costs of all service members. This is an 
expensive, cumbersome process without added value. Third, there 
would be no need for an annual certification process, and many 
redundant regulations and rules can be streamlined. Finally, 
and most importantly, it will standardize absorption rates 
across the Department. This will allow for a consistent, 
equitable treatment for everyone, with increases and decreases 
being directly and proportionately changed as a function of the 
housing costs.
    The Department believes the new BAH system is important 
because it should allow us to better rely on the private 
sector. Implementation, if approved by Congress, would proceed 
over a period of years. The new system would ``grandfather'' 
members so that their payments will not go below previous 
allowance levels.

    Mr. Goodman. I agree with you, though. I think that 
allowances are also an important part of the housing 
privatization puzzle because those provide the cash flow. In 
the way that we're working, the allowances provide a good 
portion of the cash flow that helps make some of these projects 
financible. So, we need to make sure that we get those numbers 
right.
    Mr. Packard. What I would really like to do before we're 
done today is to get a feel for how well the variable housing 
allowances are going to satisfy the demand or the need for our 
personnel occupying the private housing that we build, and 
that's something we'll get into in a minute. You mentioned that 
there are times and areas where traditional construction will 
work better than privatization or vice versa. Do you have some 
specifics that you could list as areas where it may or may not 
work?
    Mr. Goodman. Not at this point, Mr. Chairman, because I 
think we're still learning where the privatization tools will 
work.
    Mr. Packard. Okay.
    Mr. Goodman. But obviously, making that determination is 
important to us because it will help speed our overall 
decision-making process. It's a very, important question.
    Mr. Packard. Well, at some point in the future we will, I 
think.
    Mr. Goodman. Yes, sir.
    Mr. Packard. Fine. I'll withhold further questions until 
later. We're very pleased to have Mr. Hefner with us and, with 
your permission, Mr. Edwards, I'll yield to him first. So----
    Mr. Hefner. Mr. Chairman, I haven't had a chance to review 
yet, and I apologize----
    Mr. Packard. Would you like Mr. Edwards to go first?
    Mr. Hefner. Yeah. I just wanted to apologize for being 
late. This is what happens when we have two committees meeting 
at one time. And we were just talking about--and then I will 
yield to Mr. Edwards. We don't really have a track record. I 
know the Navy's done some things, but we don't really have 
anything to compare this with as of this date. So, you don't 
know where it would be appropriate and where it would not be 
appropriate, do you?
    Mr. Goodman. Yes, sir. We're still learning that at this 
point.
    Mr. Hefner. Okay. I'll have some other questions later, but 
I'll yield to Mr. Edwards.

                              omb scoring

    Mr. Edwards. Thank you, Mr. Chairman. Secretary Goodman, 
where are we on the OMB scoring problem?
    Mr. Goodman. This is an ongoing issue and we have been 
working with the Office of Management and Budget. The program 
is new for them as well. At the moment, what we are trying to 
work out are scoring guidelines and participation guidelines to 
help determine how much private sector risk, public sector risk 
is important in the project to benefit from scoring under the 
Credit Reform Act. Those discussions had been taking place at 
staff level. I'm now in discussions with my counterparts at the 
Office of Management and Budget and our leadership in the 
Department, and I know that Director Raines (phon.) wants to 
get together and resolve these issues as soon as possible 
because we need that foundation to help us determine how we can 
move forward. And I think we're anticipating getting this 
resolved in very short order.
    Mr. Edwards. As of today, though, would rental occupancy 
guarantees be greatly limited by the OMB interpretation of the 
law?
    Mr. Goodman. I think rental occupancy guarantees would be 
treated as a long-term obligation of the government. And, 
therefore, any funds associated with those guarantees would be 
scored up front. But I think that is going to remain a key part 
of whatever the final guidelines are going to be. I think that 
tool is not going to be as useful to us. That was the same 
issue that arose in 801 Housing and I don't think we're going 
to overcome that.
    The issues that I'm more focused on now with OMB relate to 
issues such as how loan guarantees and direct loans are 
treated, how we discount cash flows, what kind of reserves--
when the private sector puts up reserves for replacement of 
houses, how were those treated. We're really down in the weeds, 
but some of those weeds are awfully important in determining 
how our project's going to be treated financially.
    Mr. Edwards. My second and final question would be 
regarding the five authorities permitted under this Act. After 
one year, do you have a sense of which tools you think will be 
useful in the real world and which ones might not be so useful?
    Mr. Goodman. Well, I think we have some initial 
experiences. I don't think we have enough information to make a 
firm judgment. We now have tried two limited partnerships. And 
at Fort Carson and Lackland we're using some different tools. 
We're using our loan guarantee authority, our direct loan 
authority, and our authority to convey land. Those tools, 
particularly the conveyance of land and loan guarantee 
authority, enable us to get even better leverage than I think 
we did at Corpus Christi and Everett. RFP's are out in both 
locations. We haven't seen the bids yet and I think we're going 
to need to evaluate those bids before we see whether we think 
those tools are really useful. I'm optimistic about them, in 
part, because I think they give you just an awful lot of 
purchase on the housing problem.
    Mr. Edwards. All right, very good. Thank you, Mr. Chairman.
    Mr. Packard. Mr. Kingston.

                             site selection

    Mr. Kingston. I noticed on the projects that you have 
listed--how do you determine who is eligible? For example, I 
have the need on a military base in our district to try to get 
some new barracks and new family housing, and it's a large 
order, about 100 million. How do we get them on track to see if 
they would qualify?
    Mr. Goodman. The first step in the process is that the 
services nominate sites as candidates. We ask the services to 
suggest sites where they have a critical need that they believe 
might be filled through use of these tools.
    Mr. Kingston, I believe we have, in fact, a project on the 
list from your district at Fort Stewart.
    Mr. Kingston. Okay. Can you have somebody brief my folks on 
that and let me know where we are on it?
    Mr. Goodman. Yes, sir, we'd be glad to do.
    Mr. Kingston. Okay. Also, just taking the example of the 
Corpus Christi Navy Base, when you save that money, which was 
considerable, does the housing allowance go up and offset some 
of that savings?
    Mr. Goodman. No. There are no changes, there are no changes 
in the housing allowances that we pay to the service men and 
women who will be living on these bases. If they had been 
living in government housing before for some reason and now 
they moved into this kind of housing, they'd be receiving 
allowances that they didn't otherwise have, but there are no 
changes overall in the allowances.
    Mr. Kingston. Okay. We don't save in one pocket and spend 
in another? That's what I was asking.
    Mr. Goodman. No, sir.

                             proper balance

    Mr. Kingston. Then another question, I'm not sure about 
this. We probably need to follow up with you, but we also have 
a Navy base in our district and apparently--that's King's Bay. 
When the Navy came there, they had indicated that as much as 
possible there would be off-base housing, apartments and so 
forth, and I am not sure if that's for the enlisted personnel 
or the officers, frankly. But now some of the private apartment 
owners are complaining that the Navy has been too aggressive, 
building on-base housing. What is the balance of that?
    Mr. Goodman. That, Mr. Kingston, is a very good question. 
One of the issues that we face anytime we engage in housing 
construction, whether it's through the military construction 
approach or through, through the privatization tools, is that 
there are sometimes issues in the local real estate community 
about the effect of that construction on the local housing 
market.
    My understanding is that as part of our planning process, 
each of the services in a slightly different manner conducts 
surveys to determine what the requirement is regarding adequate 
housing or new construction. I think it's very important as 
part of this privatization process that we work closely with 
the local community to help ensure that we come up with a 
project that helps strengthen the relationships between 
communities and the base, rather than making them more 
difficult. I don't think there's a single answer to that 
question, but it's an issue we need to be very cognizant of.
    Mr. Kingston. Let me give you just some specifics on one. 
Since the City of St. Marys has had vacancies in their 
apartments--that's the little town there--of 15 to 30 percent 
and the rental units, of course, according to the apartment 
owner, are very reasonable, but King's Bay continues to build 
more housing. Who would we work with on your staff to maybe 
specifically look at this in more detail?
    Mr. Goodman. Well, on this issue, what I would be happy to 
do is get the housing folks on my staff to also get together 
with the folks from the Navy who are determining what their 
initial requirement is to meet with your staff. And if you 
like, we will call your office----
    Mr. Kingston. That would be great.
    Mr. Goodman [continuing]. We'll call your office this 
afternoon to try to set that up.
    Mr. Kingston. That would be great. Thank you, Mr. Goodman. 
Thank you, Mr. Chairman.
    Mr. Packard. Thank you very much. Mr. Hobson is--has a 
hearing coming up in a few moments and he has at least one 
question he'd like to ask.

                             energy saving

    Mr. Hobson. I just have one long question I'm going to give 
you, and I'd like you to answer it at some point. We spend 
about $3 billion to provide energy to installations in the 
Defense Department and we, I think, could do a lot better job 
if we had--you know where I'm going with this because we've 
worked together and you've been very helpful--with more 
effective energy management. I started out working with Josh 
Gottbaum to establish a not-for-profit institution to assist 
installations in upgrading energy and infrastructure. We used 
to call it the Forrestal Institute. We changed the name. But 
this would have hadsome minor start-up cost and actually would 
have been a small percentage of the actual savings that we have gotten 
from this. And I really appreciate Millard Carr and his expertise. He's 
been wonderful. He knows all the problems with the FAR. He probably 
wrote a lot of it, but he knows the problems with that.
    And I guess at some point I'd like you to tell us where 
we're going to go. I understand that the controller zeroed out 
the funding, that the institute is now coming forth with a 
little different proposal which may be positive in the Army, 
and some other people are starting off on their own to do 
things. But, I'm concerned about how much they can do on their 
own; I'm happy to see them do things on their own, but I'd like 
some understanding with you. One, I think there needs to be 
more done and, two, if it doesn't work the way they're trying 
to do it now, that we go back and look at some way of working 
together. This idea didn't originate with me, this originated 
with you guys and then people changed along the way. Not you, 
you weren't there. But I'm a little concerned about where we're 
going.
    I'm willing to step back and say let's let them see what 
happens, but I'd like some commitment that we really go at this 
in the future.
    Mr. Goodman. Mr. Hobson, first, I know this idea didn't 
originate with me, but what I do know is that your leadership 
and interest in the issue has helped maintain a keen focus in 
the administration and in the Department of Defense on the 
importance of better energy usage, and I thank you sincerely 
for your strong interest in this. It has been important to me 
personally and important to the Department as we seek to figure 
out ways of bringing down our energy bill. I agree with you 
entirely.
    As you know, we worked hard last year on this proposal and, 
frankly, had some difficulties as we were trying to come up 
with an administration proposal. But we had a great deal of 
success going down another route with these energy performance 
savings contacts and establishing the authority and the ability 
to do that, and I think that offers us a great prospect to 
achieve very much the same ends.
    What--I think what we would like to try is to see whether, 
in fact, this can help us achieve those ends. And if it does 
not, I think you are exactly correct. We need to go back and 
look at that other proposal. I simply didn't want the best to 
be the enemy of the good, and I think we have a really good 
opportunity to do some good work here. But I'd like to provide 
you a longer answer to this. But we look forward to working 
with you on that in the future and appreciate your support.
    Mr. Hobson. Very big stick out there.
    Mr. Packard. Thank you, Mr. Hobson. Mr. Hefner, would you 
like to go ahead?

                     Privatization vs. 801 Housing

    Mr. Hefner. Just briefly. Mr. Kingston raised the point 
that--and this happens everywhere we do housing. The local 
people say hey, they're building houses here and we've got 
plenty of apartments here and houses and it's hurting our local 
economy. How is this going to differ from 801 housing? Now, we 
have a big 801 housing project at Fort Bragg, in that area. It 
works very, very well, and I haven't always been a real fan of 
801 housing, but it's worked very, very well.
    How is this different from 801 housing? A second part of 
the question is will the local contractors and the people be 
able to bid or will this be the big, large, multi--people that 
work multi--not multistate, but big companies have the 
advantage of being able to come in and get these contracts.
    Mr. Goodman. Mr. Hefner, on your second question, we are 
seeking to open this bidding up to a much broader commercial 
market. We are enthusiastic about having local, statewide, 
regional and national firms take a look at these projects. We 
want to evaluate the best possible deals that we can get. But 
one of the ways that we can get better prices on these projects 
and better performance is by expanding the realm of bidders who 
are willing to take a look at that. There is nothing that 
excludes local, local or regional participation in these 
projects.
    To some extent, it may be a function of the size of the 
projects, and we're doing projects of various sizes. And I 
assume that there would also be a significant amount of 
subcontracting in these projects. So, I would also expect that 
there would be significant work on that basis.
    Regarding your second question about 801 housing, I think 
this is a very important point and one that we need to keep at 
the top of our minds. One of the key issues that we have in our 
RFPs is a focus on management. There are two really critical 
parts of these projects. The first is how were they financed 
and constructed, the first part of the deal. And we want to 
make sure that we have folks who are financially strong, 
financially able, who have good financial backing and can carry 
it through construction.
    The second issue is how will the projects be managed over 
time? And that's quite important because some of these 
projects, such as Corpus Christi, for example, are 10-year 
projects. At Fort Carson, we're looking at a 50-year project. 
We're looking at out-leasing land for 50 years, so it's very 
important to us that the partner that we are picking is someone 
we think has the ability to manage over time. So, some of our 
key requirements in our RFP relate to management, and we will 
be evaluating past performance just as we now do in our 
acquisition programs because we want a good solid track record, 
that the people who we pick are going to be able to do what 
they say they're going to do, will devote the reserves that 
they say they're going to devote. So, I think that we need to 
maintain a strong focus on those issues to ensure that these 
projects are successful.
    Mr. Hefner. Well, I understand that, and I'm for 
privatization when it makes sense. I hope that you won't do a 
lot of bureaucratic paperwork and what have you, because some 
of these small people don't have the resources that the big 
national companies would have but the bottom line is going to 
be that the Federal Government is going to be responsible. Is 
that going to be the case?
    Mr. Goodman. It depends----
    Mr. Hefner. If the bottom line is if they forfeit or unable 
to make it, it will come back that the Federal Government will 
have responsibility to honor the----
    Mr. Goodman. The nature of our liability differs depending 
on the tools that we use. In the Corpus project,our liability 
goes no further than our initial equity contribution. The liability of 
the 801 projects----
    Mr. Hefner. How long is that, how long is that for, 10 
years?
    Mr. Goodman. It's a 10-year project, but our equity isn't 
up front. We are----
    Mr. Hefner. But after 10 years, do you have the option to 
renew, or after 10 years can the owners take the property and 
do whatever they wish with it?
    Mr. Goodman. I believe we have the option to renew for 5 
years, but at the end of that period the plan is that the 
property is sold and that we get our contribution back, plus 
any profits on top of that, plus our share of any profits on 
top of that. And that's money that we would then plow back into 
the Family Housing Improvement Fund.
    Mr. Hefner. You have an option to renew, but do you have to 
negotiate the renewal contract?
    Mr. Goodman. No.
    Mr. Hefner. It's the same?
    Mr. Goodman. It would maintain under the same terms.
    Mr. Hefner. There's one other thing that bothers me a 
little bit especially when you've had these bases--Fort Bragg. 
We're having an experience now where they're doing some pilot 
programs about moving, and there's an awful lot of local movers 
that have been involved with moving in the Fort Bragg area. But 
now they're finding that they're going to select one or two of 
the major moving companies--and this is just going to put the 
small guy completely out--he's going to be out. And then you're 
going to wind up with and at the mercy of the big guy. And I 
want us to be very careful if we do this because my desire is 
to have affordable housing for our troops, and we've been doing 
that for a long, long while.
    And when we met with Mr. Pirie a few years ago and he came 
up with this concept, we were excited about it. But we want to 
be very careful--or I want to be very careful before we really 
embark on something that we don't at least have a real good 
chance of success, because wasted money does not get anybody a 
place to live and it really don't help the problem. But I want 
to thank you for coming before the Committee today, and it was 
nice to meet you in the office the other day and we look 
forward to working with you. Thank you, Mr. Chairman.
    Mr. Goodman. Thank you, sir.

                 Unaccompanied Housing Improvement Fund

    Mr. Packard. Thank you very much, Mr. Hefner. Let me ask 
you a question concerning unaccompanied housing. What kind of 
progress are we making in the privatization of unaccompanied 
housing and why is it taking so long to implement this program? 
It's been on the books for a year now.
    And then perhaps also, is it a fact that the funds 
requested for this account, for the fiscal year, are just '98 
and '99? Does the fact that you have not requested funds--
signal that DOD does not intend to implement barracks 
privatization?
    Mr. Goodman. Mr. Chairman, we are working hard now to 
figure out whether and how we can use the authorities, and we 
are working particularly with the Air Force on two projects to 
see whether we can use them. There are two key issues that we 
need to address in these projects. The first is the financial 
viability of the project. Barracks are different from houses. 
If you forgive me, I don't mean to be stating the obvious in 
front of the Chairman of the MILCON Subcommittee, but the--it's 
more like funding a dormitory than it is like funding a 
multifamily housing project. The BAQ/VHA for our young enlisted 
troops is significantly less than it is for our slightly higher 
grades or folks with families. So, we need to figure out first 
whether we have sufficient cash flow through BAQ/VHA to be able 
to make these things work financially. The second issue gets to 
the question that Mr. Edwards raised, which relates to how will 
these projects be scored. One of the issues that I'm talking 
with OMB about now is how you score projects where we assign 
people. And what we're seeking to figure out is if we assign 
troops to barracks the equivalent of a rental occupancy 
guarantee? And we don't have an answer to that.
    It's something that we're going to have to work through, so 
we've got both that sort of policy scoring issue on the one 
hand and the financing issue on the other. I am not waiting to 
resolve the latter to really seek to move forward and 
understand the former. And we're working with the Air Force to 
do that, but I think we're just at a very early stage there.
    I think at this point I would certainly would not say that 
we don't intend to implement the authority. If we can make 
those tools work, we certainly will do so.
    Mr. Packard. Okay. Mr. Olver?

               Number of Housing Units for 1997 and 1998

    Mr. Olver. Thank you, Mr. Chairman. Mr. Goodman, I'm 
looking at your assessment on what you call visions for future 
success, and I notice in your--your request, I take it, is to 
be able to do 8,000 units in 1997. How much money was finally 
appropriated for that?
    Mr. Goodman. There's no specific funds appropriated. Mr. 
Olver, I wanted to put a stretch goal out there for 1997. We 
did the same in 1996, and I think we did a very good job in 
meeting it. That 8,000 is a stretch goal, and if we meet it I 
think it's terrific.
    Mr. Olver. Where do you think you'll be? Where do you--
where are you at?
    Mr. Goodman. We've got----
    Mr. Olver. Plus or minus.
    Mr. Goodman. Well, we're looking now--we have 42 additional 
candidate sites for this year and we're out doing site visits 
at a number of them to determine how we can use our tools. To 
some extent, the total number of housing units we do depends on 
how large each of those projects turns out to be.
    In light of the fact that we have 200,000 housing units 
that are in need of revitalization or replacement, I thought it 
was very important for us to have a stretch goal but one that 
was--and to go back to Mr. Hefner's comment, one where we want 
to make sure that we're doing this in a smart manner and 
protecting the Department's fiduciary interests.
    Mr. Olver. All right, well, what's your goal in this for 
Fiscal 98 that we're talking about now? What's your stretch 
goal here?
    Mr. Goodman. My goal is to continue to increase and expand 
the program as fast as we could possibly go as we determine 
what projects work. I cannot tell you in good conscience what 
number I thought we would achieve in '98. I don't think we have 
the experience at this point to be able to determine that.

                            funding sources

    Mr. Olver. I see. Well, I was trying to put bounds on what 
we're talking about here, and I notice in reading several of 
your proposals that are in process, which are either '96 or '97 
monies, or ones that--I guess there are probably some of both--
that in general in these privatizations your per unit costs 
through this method are in the range of $25,000 a unit on 
average, recognizing that you've got single and family units, 
and single and multi, and different kinds of units involved, 
and I was just trying to get a sense of what kind of dollars is 
in here in this budget for this particular program. I haven't 
been able to ferret that out of the testimony, so if you have 
something you can give me a sense?
    Mr. Goodman. Let me see if I can do a better job of 
responding. We have said in the Department that with our 
projected funding streams it would take us about 30 years to 
solve our family housing problem under traditional approaches. 
Obviously, the more money we put into the housing budget the 
faster we can solve that problem, but it's still a great number 
of years.
    Secretary Perry's goal for this was to try to help use 
these authorities to solve that problem in about 10 years. That 
would mean if you only used these authorities, and they were 
used for every project, that we would up the range to about 
20,000 units a year.
    Mr. Olver. But that would be amortizing those units out in 
15 years.
    Mr. Goodman. Twenty----
    Mr. Olver. In 10 years.
    Mr. Goodman. 200,000 units--right, as I said, that was 
the----
    Mr. Olver. But you wouldn't do that. You would use--it 
should--it ought to be good for 30 or 40 years, shouldn't they?
    Mr. Goodman. We have such a tremendous backlog of 
requirements and needs in housing, that would help us solve the 
backlog and then you would move on to a steady state----
    Mr. Olver. Okay.
    Mr. Goodman [continuing]. Of replacement.
    Mr. Olver. With that approach, all right.
    Mr. Goodman. I'm unable to tell you how fast we're going to 
be able to ramp up to that 20,000 level but what I want to 
assure you is that we're going to do it as fast as we possibly 
can, consistent with protecting our financial interests. But I 
think the per unit costs--I would correct the per unit costs of 
houses under these projects. I'd like to provide, to the extent 
I can, the exact number for the record but it's considerably 
higher than 24--for a family house, more than $25,000 a unit. I 
think we're probably in the 70,000-plus range, but my----
    Mr. Olver. Well, but wait a minute. Excuse me, maybe we 
need to settle that or make certain we're talking on the same 
basis. In the Corpus Christi project you're talking about 400 
units for 30 million, which would be 75,000, true, but the 
Navy's equity contribution is 9\1/2\ million, which is about 
25,000, about a third of that. I think the total projects seem 
to average in that 75, 80, 90 thousand range, somewhere in that 
range, but the equity portion seems to be only about a third of 
that.
    Mr. Goodman. Forgive me, I thought you were talking about 
total construction costs for the units.
    Mr. Olver. No, I want to know what you're asking from us.
    Mr. Goodman. I understand. My confusion----
    Mr. Olver. To get--if we're going to get 280,000 units--or 
your goal for 8,000 units, I was looking back and sort of 
figuring, well, that must have meant somewhere in the 200 
million range, but I was trying to--of our contribution to it, 
essentially, but I was basically trying to get confirmation of 
whether I was making this calculation and these inferences 
correctly and I can't find the number anywhere. So I'm--then I 
was trying to get--just to be completely open here, I was 
trying to figure out, well, what were you looking for in '98 
and what was our commitment going to be on that in this 
program.
    Mr. Goodman. As I said, forgive me, I thought you were 
talking about total construction costs as opposed to what our 
per unit contribution was, and I think--and your math is better 
than mine, but I think you're quite right in the Corpus deal.
    I think on some projects, frankly, we may get even better 
leverage than in Corpus. We will not--but we are not seeking 
appropriation from this subcommittee into the Family Housing 
Improvement Fund in Fiscal Year '98.
    Mr. Olver. You're not.
    Mr. Goodman. No, sir. We are anticipating that we would 
transfer funds from the Military Construction account into the 
Family Housing Improvement Fund, and leverage those dollars for 
our high priority projects in that manner.

                      base realignment and closure

    Mr. Olver. Okay, the--are all the proposals that you are 
thinking about in the places where you are looking for RFPs and 
so forth, asking for RFPs--there's quite a number I sense 
you're trying to get--are all of these--these are--are they all 
places which are outside the BRAC proposals? Are any of these 
places, places that are, for instance, on--involved in BRAC 
'95, or what somewhere down the road you're going to be in a 
very different form, bases in a different form?
    Mr. Goodman. None of the projects are at bases that have 
been closed in previous BRAC rounds. There are projects 
relating to places that may have been realigned as part of a 
previous BRAC round. In other words----
    Mr. Olver. But the housing would be related to what its 
ultimate realignment is.
    Mr. Goodman. Yes, sir.
    Mr. Olver. Okay, there are--there's a section in your 
paragraph on the conditions for future success where it reads 
``Projects to date have generally been sized below an 
installation's full housing need.''
    Given that there is an enormous need, I can imagine that 
being--that makes--that seems to me to make very good sense, 
that your projects would not attempt to do everything up--
everything in one base up to full completion because there's so 
many needs in your 200,000 units.
    And then it goes on to say that--basically some comments 
that ultimately lead to the economies of scale are such that 
increasing the size of the projects would raise the total 
number of units that you get, which is fairly obvious, butthat 
would lead you toward doing an ever-greater portion of the number in 
one place by increasing the size to get economy of scale. You might--it 
might go against the sentence, ``Projects to date have generally been 
sized below an installation's full housing need.''
    Would you like to kind of assess the balance here between 
the policies?
    Mr. Goodman. I agree with you. I think that our goal is to 
help solve our housing problem. What I've noted is that it 
doesn't take a whole lot more work on our part to do a 300-unit 
project than it does to do a 200-unit project, or to do a 400- 
or 500-unit project than to do a 300-unit project, and if we 
can figure out how to leverage our dollars so we can do that 
larger amount--that larger project, and we have a requirement 
to do so, that it gets more houses for the amount of management 
effort and attention that we have to spend.
    So all other things being equal, I certainly would favor 
trying to do more houses in a project to fill a requirement 
rather than doing two or three separate projects to meet that 
requirement. We need to pay attention as we're going through 
this process to figure out what's the best size of the projects 
from the perspective of the private sector.
    In other words, are there projects that are too big for 
certain kinds of developers, going back to Mr. Hefner's 
question? And that's something that we're testing at the 
moment.
    But where we have a base with a huge requirement, I'd like 
to be able to solve that problem with a fewer number of 
projects, if we can.
    Mr. Olver. Okay, I guess what I--your comment after I 
finished that question was you agree with me, and my smile was 
that, my goodness, you're a wonderful politician because I 
didn't know how anybody could have known what they ought to 
agree with at that particular point, but in any case, I guess 
your answer is essentially what I had hoped it might be.
    Reflecting the numbers here that you're talking about, your 
need is up in the 200,000 range and we're talking about out 
there with no requests for additional monies in either Fiscal 
98 or Fiscal 99, I guess it is. So you're really working on 
monies that have already been out there to float as projects.
    So your goals are in the range of only 5 or 6 percent of 
the total need out there, thus far at least in terms of money 
put forward. So we're going to have a hard time getting to the 
20,000 level in the next--during this 10-year period if the 
first 2 years are at zero, but, you know, we're starting to see 
how this whole privatization program works out.
    Mr. Goodman. There are two sources of funding for the 
program. One is--actually, three sources, if I might. One is 
funds that are directly appropriated into the account by this 
Committee. The second is funds that are transferred from our 
Military Construction Housing accounts into the account to do 
privatization projects, and----
    Mr. Olver. And you can do that as long as they are not 
otherwise designated funds.
    Mr. Goodman. Yes, or we can use it to substitute projects. 
So, for example, at Fort Carson Congress appropriated about $16 
million in 1995 for a construction program. We're able to 
transfer the money into the account, leverage it, and address a 
much, much bigger problem.
    The third source of funds is, to the extent that the 
projects themselves are able to save money--in other words, 
you're not able--either if you're not able to use all the money 
that's transferred into the fund for a project or, for example, 
at Corpus Christi where we get dollars back into the project, 
we can use those funds, then, to expand.
    But I think the greatest source of funds that the 
Department is looking at is the, the principal tool, is the 
transfer.
    Mr. Olver. I see.
    Mr. Goodman. The transfer tool.
    Mr. Hefner. Would the gentleman yield?
    Mr. Olver. Sure.
    Mr. Hefner. But you can't do this unless you have the 
authority of this Committee. The Chairman has to sign off.
    Mr. Goodman. Yes.
    Mr. Hefner. What it amounts to is reprogramming, isn't it?
    Mr. Goodman. Absolutely, and built into the legislation at 
two key points along the way is notification to Congress. The 
first is before we proceed with an RFP; and the second is 
before we transfer funds.
    You're exactly right. I didn't mean to imply otherwise.
    Mr. Olver. I guess the gist of my questions here about 
BRAC's and so forth was that--and we're at such a low level of 
meeting a need. The need is very high compared with the point 
at which we've reached, but if you're--if we're talking about 
the difference between 200 units and 300 units, or 300 and 400 
units, as economies of scale, or even up to 1,000 units in a 
place, we're nowhere. Even in those locations we're not 
probably coming to a very high percentage of the need. What 
concerns me is the--I would be concerned if, in the economies 
of scale, we were suddenly doing 20,000 in one place or 
anything like that because there was a need in that particular 
base when the way we function here, and have functioned for the 
last few years at least and still are probably in a 
considerable degree of flux, we might be deciding, well, that 
was not a base that we really intended to use in the same form, 
at the same level, same size, or so on, so--but as long as 
we're using economies of scale and trying to fill in that hole 
of need up to some level that's well below the full level, I 
don't think there's any problem in my mind.
    Mr. Packard. Let me go to Mr. Wamp and then we'll come back 
in another cycle.

                              davis-bacon

    Mr. Wamp. Thank you, Mr. Chairman.
    Mr. Goodman, from my perspective as a former developer of 
apartments and real estate two issues have continued to come up 
as we've had these hearings in the last 5 or 6 weeks. As we 
privatize some of these housing needs in our combined armed 
services, is it your opinion that Davis-Bacon, which the 
testimony has shown may inflate the cost of construction as 
much as 25 percent, definitely applies or might not necessarily 
apply when you privatize and enter into an agreement with a 
company in the private sector to provide these housing needs?
    And the second question--I'll just throw it out as well--
came up earlier from our colleague, Mr. Tiahrt, asking the 
question whether or not the Department of Defense can or is 
interested in building equity as a limited liability partner 
with these private companies. Should we just turn over this 
responsibility through a long-term contract,to the private 
company without regard to whether or not we build up equity? Is that an 
issue or should it be?
    Mr. Goodman. Mr. Wamp, in regard to your first question, 
our lawyers have taken a close look at this and have determined 
that in each of these cases the statute is such that Davis-
Bacon does apply and has been included in all of the projects.
    I know that this Committee asked the comptroller to try to 
get a handle on what those costs were, and we are working with 
him and the folks in Acquisition and Procurement are working 
with him in support of being able to provide an answer back to 
this Committee, but it does apply.
    On the second issue, we----

                  federal acquisition regulation (far)

    Mr. Packard. Before we leave that issue, if the gentleman 
would yield, let me extend that question beyond Davis-Bacon to 
FAR. What has been the determination on FAR? When does it 
apply?
    Mr. Goodman. Mr. Chairman, would you like me to answer that 
question now and come back to Mr. Wamp's question?
    Mr. Packard. Yes.
    Mr. Goodman. We looked at that question in particular when 
we----
    Mr. Packard. FAR is actually a higher level of requirement 
than even Davis-Bacon, is it not?
    Mr. Goodman. A higher level of requirement--Davis-Bacon--
I'm not sure I understand your question, sir. Davis-Bacon 
applies whether we use the FAR or whether we don't.
    Mr. Packard. Okay, go ahead and proceed with your answer. 
It will be fine.
    Mr. Goodman. Forgive me, Mr. Chairman, to you or to Mr.----
    Mr. Packard. No, to the FAR question.
    Mr. Goodman. Okay. When we had teams working on the Fort 
Carson and the Lackland RFPs, as I noted in my statement, and 
the Fort Carson folks came back and said they wanted to use the 
FAR, and Lackland said they wanted to come back and not use the 
FAR, and what I will tell you I was surprised when I saw these 
two projects that looked roughly similar with these two very 
different approaches, and I asked two questions.
    The first question was to our lawyers: are one of these 
folks wrong? I wanted to make sure that there was no legal 
prohibition, and it took more time than I would have liked to 
get an answer to that question but the answer was, no, both 
approaches were legally permissible as those projects were 
defined.
    The second question, I asked was we're going to have RFPs 
going out at about the same time for--in two of our first 
prioritization projects a lot of the same development folks are 
going to be there. Are they going to care? In other words, will 
this somehow inhibit the project? So we went out and we talked 
to a number in the development and in the finance community to 
try to figure out whether this would have some impact on market 
acceptance, and the answer that I got back there was that it 
didn't matter.
    I then tried to figure out whether there were significant 
differences in costs. I did not get an answer that one was 
significantly greater than the other in terms of costs so my 
conclusion was that we should allow both of them to move 
forward along those lines and then evaluate and see if we can 
draw some lessons going forward.
    I think the significant issue here--at least one of the 
significant issues here is the amount of control that is 
exercised using the FAR or going with a non-FAR approach, which 
is essentially using a leasing vehicle as your solicitation 
mechanism. It may well be that we have more control via a 
contract, which you do under the FAR, than we do through a 
leasing mechanism.
    This is an issue that's important to me to resolve. It's 
one that we are looking at actively because I want to make sure 
that we're going to do this in the most efficient mechanism 
that we can.
    Mr. Packard. You have one, though, that will be done under 
FAR and one that's not.
    Mr. Goodman. Yes, sir.
    Mr. Packard. Excellent. Go ahead with----

                     limited partnership agreements

    Mr. Goodman. In response to your second question, the Navy 
in 1995 was given the authority to enter limited partnership 
agreements, and that was then continued in the authorities that 
were part of the '96 Defense Authorization Act. I think my 
objective is primarily to figure out the best and most 
efficient ways to meet our housing needs. If entering a limited 
partnership agreement is the means to do that, I think it's 
certainly an approach that we need to explore.
    I don't think the Department of Defense is in the for-
profit business, but that said, if we're going to enter a 
limited partnership agreement and we're putting up funds, I 
certainly want to make sure the Department of Defense is 
getting a good shake out of the deal.
    Mr. Wamp. So the jury is still out on that issue, really. 
You'll test it as you go to make sure that your interests are 
protected no matter how that goes?
    Mr. Goodman. Yes, sir, and we have one on which we have 
broken ground and a second project that's now before this 
Committee for review.

                              davis-bacon

    Mr. Wamp. Just one follow-up question. You say in your 
testimony, ``We must continue to improve the capabilities of 
our work force and learn to adopt private sector practices.'' 
If Davis-Bacon applies, what are the other benefits, the other 
cost savings, the other private sector practices, that save 
money? If the private sector has to adhere to Davis-Bacon, 
where else are the great cost-saving measures?
    Mr. Goodman. It's a very good question. I think it relates 
first to the standards. We are building these projects to 
commercial standards. We are not specifying the projects so 
greatly as we often do in our normal military construction 
approach, so that they're having to do something considerably 
different.
    By doing so, we are also bringing more potential developers 
into the realm of folks who willing to bid on our projects. I 
think that competition will also be quite beneficial in driving 
down some of the costs.
    Mr. Wamp. Thank you, Mr. Chairman.

                           area cost factors

    Mr. Packard. On that point, to be more specific and also it 
relates to some of the things that Mr. Olver was trying to 
resolve in his mind, on the Corpus Christi project with 
404units, that figures out to $79,000 a unit from what our figures 
show. On Everett, Washington, you have 185 units, and that figures out 
to $101,000 per unit, or about a 20 percent difference. Are those 
differences reflected in the size, in the cost of construction from 
area to area? What are some of the factors that enter into the 20 
percent difference from one area of the country to another or one 
project to another?
    Mr. Goodman. Mr. Chairman, that's an important question. I 
would like to provide you a complete answer to that question, 
if I might, for the record.
    Mr. Packard. Are there different techniques or are you 
using different tools from one to the other in those two 
instances?
    Mr. Goodman. No, sir, the solicitations look very much the 
same.
    Mr. Packard. So it is pretty well a like-project 
comparison, okay.
    Mr. Goodman. Excuse me, Mr. Chairman, I will provide a full 
answer for the record.
    [The information follows:]

    Housing being developed under these two projects are very 
similar in size and amenities. The principle differences in 
development cost between these two projects is the cost of land 
and the area construction cost factor. Land for the Corpus 
Christi project costs less than $1,300 per unit compared to 
more than $13,000 per unit at Everett. This nearly $12,000 per 
unit cost delta accounts for more than half of the per unit 
development cost difference. Additionally, there is a 15 
percent difference in area cost factors between Corpus Christi, 
Texas and Everett, Washington, with Everett, Washington being 
15 percent higher.

                              bureaucracy

    Mr. Packard. I'm still concerned about the time that the 
process takes. For instance, the Air Force Lackland project, 
that began really in October of '95, and just last month we 
finally had the request for proposals. I understand the delays, 
at least in this instance, might be attributed to a 20-step 
process. A process that involved a lot more hearings, and 
presentations, and briefings, and so forth, but nevertheless 
are there efforts to streamline the process and what can this 
Committee do to help in that effort?
    Mr. Goodman. Mr. Chairman, I agree with you entirely. I am 
also concerned about the time that it has taken us. Let me tell 
you, what we're doing at various steps along the way and what I 
think will enable us to speed up the process.
    Once the service nominates the site, the first thing that 
we do is go out and do a site visit. Initially, this process 
took about 5 months. I have no idea why, but I considered that 
entirely unacceptable and I did not think that the reports that 
I received back from those site visits would have required that 
amount of time.
    We developed better protocols for the visits, we gained 
access to the kind of national data you need to be able to run 
some of the housing cost information so we could plug it into 
the models that we developed. We now have that process down to 
about 3 weeks. From the point that the site visit goes out, 
we're getting a report back in 3 weeks. That is probably close 
to acceptable.
    The second stage in the process after you do that is 
developing the RFP. The traditional approach by which these 
things happen in the Department of Defense is they get multiple 
briefings up through the service. Actually, since it starts out 
in the field you have briefings up through the major command, 
then up through service headquarters, and then multiple 
briefings within the Office of the Secretary of Defense, so 
that, the poor folks who are doing this, by the time they're 
done before you even get an RFP out have probably given 20 
briefings.
    I did not think that made sense so my first step in the 
process now is before we even get a report back from the 
field--is to bring together the folks from the Office of the 
Secretary of Defense and the service folks so we can identify 
what it is we think we need and agree on a timetable to get it 
there, and I am holding people's feet to the fire as to those 
timetables, so that the folks that are doing the work are not 
having to get multiple approvals.
    You mentioned Lackland; the same applies to Corpus 
Christi--a number of issues which were first-time issues for 
us. You asked me the question about FAR and non-FAR. Since 
there were legal and potentially financial issues at stake, I 
wanted to make sure that I had a good answer to that question. 
It took longer than I would have liked but that was an 
important issue. I think we now know the answer to that 
question.
    So I think that having worked out some of these critical 
issues will significantly speed up our RFP development stage. 
I'd like to bring that down, and you mentioned the length of 
time. We ought to be in the 6-month, 6- to 9-month, time frame 
for RFP development max, and better still.
    Mr. Packard. So is it essential that all 20 steps or so 
that you mentioned before or after the RFPs are sent out to go 
through the different levels and different agencies or can 
those be combined? I have to assume that the briefings are very 
similar from one agency to the next, and you're probably all 
right over there at the Pentagon or somewhere where they could 
maybe jointly hold some of the briefings, consolidate them.
    Mr. Goodman. One of the things that we have done very 
successfully in the acquisition, in the hardware acquisition, 
area is to develop integrated product teams, where you have 
everybody sitting around the table. I'm doing that with all of 
the folks at my level, and I'm insisting that that also happens 
at the action officer level, so that you don't get into this 
whole sequential process. I think that's exactly the direction 
that we need to do more of.

                 delayed regular construction projects

    Mr. Packard. Have the funded housing, family housing, 
construction projects been delayed pending outcome of 
privatization research and projects? And has the site selection 
process also slowed down because of these privatization 
efforts?
    Mr. Goodman. I'm sorry, sir, would you repeat the question, 
please?
    Mr. Packard. Well, I'm concerned or interested in whether 
the funding for family housing projects has been delayed 
pending the outcome of privatization projects; and the second 
question would be has the site selection process slowed down--
or slowed the regular construction process down? Is 
privatization interfering with and slowing down other 
construction processes?
    Mr. Goodman. To the extent that we are evaluating whether 
we should replace housing funded through our traditional 
military construction approach with privatized housing, it 
certainly does slow that down because what we're seeking to do 
is figure out is there a better way to do that.
    Regarding site selection, are you referring to when we're 
trying to figure out where you locate--where you might locate 
the privatized housing project?
    Mr. Packard. Yes, and has that slowed down the regular 
construction program?
    Mr. Goodman. I think the answer to that question is no.
    Mr. Packard. Okay. Okay, yes, Mr. Hefner.

                    privatization versus 801 housing

    Mr. Hefner. Well, I have a lot of questions, and I feel 
sure you're going to have a lot of questions before we sit 
down--the bottom line is that, and Mr. Wamp mentioned this 
about equity--of course, I would like to see some equity, but 
my concern is not so much equity. My concern is responsibility 
that the federal government will have as far as costs go, and I 
have said, often said, in the 801 housing I would like to be a 
developer and get in the 801 housing where I would have the 
guarantee of the money. I would be guaranteed full occupancy 
and I would be guaranteed after 20 years that it's mine; we're 
going to renegotiate. I mean, that's a heck of a deal.
    But I see a lot of problems arising from this, and 
especially I see a lot of problems for those of us that have 
bases in our districts where we're going to have a lot people 
coming to us, small contractors and the local economy folks, 
that are saying ``we've got units here that are sitting open 
and we can't rent them,'' what-have-you and this sort of thing.
    But again I go back to my earlier statement that my concern 
is to try to get the most for our dollar, and get a decent 
place for our people to live, and, you know, one solution, 
maybe kind of far out, would go back to what we did years ago. 
We build housing on base and we teach a course in our services 
on how to be carpenters, and plumbers, and what-have-you, and 
have them learn a trade so if you don't make a career out of 
the service you learn a trade and keep them up ourselves. That 
is one solution, but I just hope that you don't set up a 
situation where you're going to have a huge bureaucracy.
    A lot of small companies are going to say, ``Hey, we can't 
do that. We can't do all the paperwork. We can't read all the 
rules'' and a lot of them are not going to be able to do it 
financially unless they have the backing from a NationsBank, or 
First Union, or whoever. They're not going to be able to 
participate, and what worries me is the giant conglomerates 
come in and the first thing you know it will be--we'll have a 
cartel in building houses for the military. I don't think 
that's real good.
    Privatizing sounds real good, and I'm for the free 
enterprise system and all this, but I think we have to be very 
careful, especially in this area, because you're dealing with--
like in Fort Bragg. I keep going back to Fort Bragg, but Fort 
Bragg is the absolute lifeblood of Fayetteville, North 
Carolina, and you've got people there that for 20 years have 
been in a moving business and working in conjunction with the 
base there. You've got people there who have been building 
condominiums, and homes, and what-have-you.
    And one other question. Will these buildings that will be 
built, they won't be built on the installation. They'll be 
built in different areas. Will there be different designs 
especially for the specific sites--will they be site adaptable? 
Will you have architects you'll work with and what-have-you?
    Mr. Goodman. Some of our projects are on private land and 
some of our projects are on base. At Fort Carson and Lackland, 
those are both on-base projects.
    I think we are not seeking to mandate a design but we're 
certainly asking them to do projects that are attractive 
projects in which our service members and their families will 
want to live, and that's very important.

                              o&m account

    Mr. Hefner. One other question, briefly. In O&M money--O&M 
money is used for upkeep, what-have-you. That money, if it is 
not used, could it be transferred into this program?
    Mr. Goodman. I don't think so. I think the only thing that 
we are allowed to transfer into the fund is military 
construction funds.
    Mr. Hefner. Okay, thank you. Thank you, Mr. Chairman.

                        installation involvement

    Mr. Packard. Thank you, Mr. Hefner. The next series of 
questions that I have I think are quite crucial, and they 
really will relate to how well the personnel out on the bases 
and the users, the men and women who will occupy the housing, 
how well they're involved in this process. I sense that there's 
a void here that I would like to get your response to.
    At Everett and Corpus Christi, were family housing projects 
developed without the involvement of the bases, or the 
personnel, or the installations, why was that done? Why didn't 
you consult with the bases themselves, the personnel who 
actually knew more about the location, and the site, and the 
project, and the need, why were they not consulted?
    Mr. Goodman. Two comments, Mr. Chairman. First, the site 
visits/RFP preparation was done largely before the Housing 
Revitalization Support Office was set up here as I understand 
it, but I've reviewed these issues with the Navy and my 
understanding is that the local base commanders were consulted 
in the process as they were trying to figure out what kind of 
need they had, what kind of unit configuration they needed, and 
roughly where those should be.
    Mr. Packard. Were the officials from these installations 
involved in the site selection, in the choosing of developers? 
Were they involved in negotiating the rents the Navy agreed to? 
Were they involved in those kinds of activities?
    Mr. Goodman. The actual site selection was, as I understand 
it, part of the bid, so the question then is were there local 
people who were part of the source selection team.
    Mr. Packard. Were they part of the team?
    Mr. Goodman. The information I've received to that question 
is no, they were not. You had people from the fleet and from 
NAVFAC, but there were not folks on the source selection team.
    Mr. Packard. Why not?
    Mr. Goodman. I don't know the answer to that question but 
what I do know is that in our projects that we have at Lackland 
and Fort Carson, with which I'm more intimately familiar, that 
we have been working extensively with the base commanders in 
helping define the projects, and, in addition, that those base 
commanders are holding open town meetings to which all families 
are invited to discuss the projects, what they're thinking 
about, to promote greater involvement.
    I think this is a very important issue because I think we 
need to promote greater user input into these projects. We 
normally count on our base commanders to do this, and I think 
it's an issue on which I want to focus in greater detail.
    Mr. Packard. So, you mentioned in your oral statement that 
you want to build on lessons that you've learned thus far. This 
you would consider one of those things you want to change 
because you feel it was a void in the processing of the first 
two projects?
    Mr. Goodman. Well, to be honest, at the time we began this 
at Lackland and Fort Carson, I didn't know the, the actual 
extent of, involvement. I'm not sure I have an opinion at this 
point about who should be on a source selection team, but I 
think it is desirable, but more importantly I think it's 
desirable that early on we have as much local input as 
possible.
    Mr. Packard. Well, I think to highlight this problem and 
maybe you can explain why, as I suggested last week, February 
27, the housing officials at the Naval Station in Everett were 
unaware of the agreed-to rents, and part of the reason is it's 
never been discussed with them or the sailors in that area, and 
that certainly is something that I don't understand. As of 
almost a week ago they are not even aware, or were not aware, 
of the rents that would be charged and the agreements that have 
already been signed or made.
    Mr. Goodman. Mr. Chairman, I understand that tomorrow there 
is a meeting between some of my staff, Navy personnel, and 
Committee staff. I will work to make sure that we are able to 
answer those questions.

                            user involvement

    Mr. Packard. On the user involvement question, in your 
testimony you state that ``I now bring together senior Service 
and OSD officials to review the major outlines of projects and 
identify major concerns and issues.''
    At what point in this process do you bring the actual men 
that will occupy those units into the picture?
    Mr. Goodman. Well, the base commander and the local folks 
are now involved early on.
    Mr. Packard. Were they before?
    Mr. Goodman. I'm unable to answer that, but I know what we 
have done at Lackland and Fort Carson. I believe that the 
commanders at Corpus were involved early on in determining what 
the broad configuration of the project would be.
    What we do now, though, is that when the HRSO service team 
goes out to do the initial site visit, that then results in 
that report that I mentioned is going to come back in 3 weeks. 
They're meeting out there with the commanders and with the 
commanders' housing staff.
    That discussion is important, and the communication there 
is important because we need to make sure the local commander 
has a good understanding of what is possible, and we need to 
learn from him also what is desirable, and that is a really 
important communication that takes place.
    Mr. Packard. When I visited the facilities in the San Diego 
area, Navy as well as Marine Corps facilities, we visited the 
housing placement offices and talked to the personnel and they 
were frankly very expert on knowing where adequate housing 
would be available for young men and women who would come in 
seeking housing. They would know rental rates and structures, 
what was appropriate, what was too high, what a particular rank 
would be able to afford, and then we talked to some of the 
families themselves and found what kind of housing they could 
afford and what kind they simply could not afford to move into.
    Mr. Goodman. Mr. Chairman----
    Mr. Packard. From my personal point of view, within a 
matter of a day's visit, I got some information that I think 
would be essential for this process to work. I think thatthe 
commanders don't know as much as those housing people know that are 
responsible on a day-to-day basis to help these young families find 
housing, and I think that the families themselves can tell your people 
some things that they wouldn't get from a base commander, or certainly 
not get from your Pentagon hierarchy that is in this loop of processing 
the projects.
    Mr. Goodman. Mr. Chairman, let me correct the impression 
that I inadvertently created. When the site team goes out 
there, it does not just meet with the commander. It is meeting 
with all of the folks in their housing office.
    I've also in the last 6 months visited a number of bases 
and I find the most useful thing when I visit houses, and I'm 
accompanied, as I'm sure as you are by the commander, is to try 
to leave the commander by the door and get the, generally, the 
spouse to give me a tour of the house without the service 
member there, because you know you're going to get the straight 
scoop and nobody's going to be worried about what the impact's 
going to be on their career.
    I think it is important that we have these open town 
meetings and that our folks are there. I think those 
discussions are important. I think it is both helpful in 
defining the project, and it's an important validity check. I 
just didn't want to leave you with the impression that I am not 
in complete agreement with your position.
    Mr. Packard. I don't think that was done in the case of the 
Corpus Christi or Everett projects. Now you are indicating to 
me that you've changed that process.
    Mr. Goodman. Yes, sir.
    Mr. Packard. I don't believe the sailors or the families 
were really involved in this whole question of whether they can 
afford the housing project--or the houses in the project that 
was being developed.
    Mr. Goodman. I'm not sure whether they were consulted, and 
I would like to be able to defer that discussion, if I might, 
to our meeting with your staff tomorrow because I----
    Mr. Packard. The ongoing projects that are under your 
jurisdiction now, you intend to involve that input?
    Mr. Goodman. Oh, yes, sir.

                               utilities

    Mr. Packard. One other question that relates, I think, to 
the users, and this really, I think, gets to the question of 
whether the projects are going to succeed in terms of what 
we're building them for. We're building these projects under a 
privatization process to provide on a quicker basis needed 
housing for our military personnel, mostly for your mid- or 
lower-level ranks.
    One of the concerns that I've picked up in this process, 
reviewing it and studying it, is the question of utilities. 
That can make or break a deal of whether it's doable for some 
of these service personnel because they're on a very finite 
allowance, and if, in fact, they're expected to pick up the 
utility costs that can be a significant addition that may not 
be factored in when they are initially built.
    What range of options are being considered under the 
various projects now regarding the costs of utilities? Is it 
correct that the cost of utilities is one factor used in 
determining the variable housing allowances, and, if so, isn't 
the decision to exclude utilities from a privatization project 
thereby--therefore leaving it to be assumed by the occupant, 
isn't that tantamount to paying for the utilities twice?
    Mr. Goodman. First, we have dealt with this differently in 
our two different kinds of projects.
    At Corpus Christi and at Lackland, utilities--the total 
rent that will be paid by the service members and their 
families is their BAQ/VHA. They will not be paying any 
utilities out of pocket.
    There are, I understand, black boxes to which we could 
eventually put meters if we ever decided to change that, but 
that is not included in their expected rent.
    Mr. Packard. How was that handled at Corpus Christi and 
Everett?
    Mr. Goodman. At Corpus Christi and Everett what is the 
service members will be paying, will be paying for utilities.
    To get to your earlier point, our calculations of BAQ/VHA 
never covered all of the members, all of their--all of the 
utilities that people have to pay when they go in the private 
sector and rent housing. I don't think we're double paying 
here.
    Mr. Packard. Do you have an estimate of what the utility 
costs are at Corpus Christi and Everett?
    Mr. Goodman. Yes, sir, I do, and let me tell you on what 
those numbers are based. Let me first just mention, if I might, 
if I can go through Corpus Christi because we went through a 
similar process in Everett.
    In 1994, Naval Facilities Engineering Command went out to 
calculate the average monthly cost of utilities in the Corpus 
Christi/Ingleside area, hiring a firm, Metro Market Trends, 
Incorporated. Based on a range of data, including surveys of 
state and local real estate management firms, interviews with 
the local utility, Central Power and Light, with other utility 
providers, looking at the average utility cost per month for 
the Corpus Christi/Ingleside, Texas, area, they came up with a 
range of $90 per month for a two-bedroom to $125 per month for 
a four-bedroom.
    As part of the solicitation, the bidders were asked to 
estimate what they considered to be likely utility costs for 
their projects, and I don't have those numbers but I understand 
that they came in roughly within those ranges.
    Navy consultants then went out to validate that information 
and they surveyed recent commercial projects in the area, and 
the numbers were in the same ball park.
    Now, one of the things I think is unique here is that as 
part of the RFP energy efficiency, the ability of the 
developer's to save energy was specifically noted as an item 
that would be reviewed as part of the total project. So these 
projects are likely to be even more energy efficient than the 
other local houses.
    I understand that some data that the Committee may have 
seen is in disagreement with these numbers, and I think that 
what I would propose is that at this meeting tomorrow we share 
this full data with Committee staff to be able to provide this 
to you.
    Mr. Packard. I think the real issue for me is, is it 
included? Are the utilities included in the rental feethat's 
normally quoted to service personnel, or is it an addition, or is it 
separate, and is that taken into consideration in terms of their 
allowance and their ability to pay?
    In other words, will we drive service families away from 
these projects because they cannot absorb the utility costs 
plus the cost of rental? If we drive them away then, of course, 
we're building, privately building, homes that are not to serve 
the purpose for which we're building them.
    Mr. Goodman. Yes, sir, I think that is exactly the right 
question. My understanding, based on the information that I 
have reviewed to that, is that no, we are not doing so, that 
their rent plus their utilities, when you compare BAQ/VHA to 
their rent plus the utilities, that that is well below what we 
consider acceptable housing costs prices.
    But I understand that some data that this Committee has 
seen may be in conflict with those numbers and I know that my 
staff and the Navy would like to get with your staff and really 
lay all that information out, because we shouldn't have any 
disagreements about that fact.

                 intended purpose of privatized housing

    Mr. Packard. I'm ready to wrap this up because we do have a 
vote going on, but the thing that I would like to close on is 
these are very, very important beginnings. We cannot afford to 
fail on these initial pilot projects because they will set the 
tone for all other projects to follow, and we're looking for 
grand success in this area, and I think you know that we are 
supporting the concept; but we are concerned about some 
loopholes that we sense have not been carefully addressed in 
the two initial projects, Corpus Christi and Everett.
    I would be very, very concerned, if, in fact, after we all 
went through all of this effort, we found that the developer 
could not provide a rental including utilities that the 
personnel could afford. If they can't afford them, then it's 
either going to officers or it's going to go to some other 
people who we did not intend to address, then we would have 
people still unaddressed in terms of adequate housing simply 
because we didn't do these right to begin with.
    And then if we model all future projects after these two 
initial models without correcting these loopholes, then we've 
got a serious problem, and we haven't solved our problem for 
providing adequate housing for our mid-level personnel. That 
would be a tragic mistake and I don't wish for that to happen, 
and so we will follow very closely to make certain that these 
projects provide affordable housing.
    If an E-5, or E-4, or an E-6 cannot get into this kind of 
housing because they simply did not have enough allowance and 
have to pick up additional costs for utilities that were not 
calculated in, then that becomes a serious problem. I don't 
care whether it pencils out economically at the end of the 10 
years or the 15-year-period. You may be able to justify that it 
was a good venture, but if it still failed to provide them with 
the housing then we're diverting those funds to an effort that 
is not solving the problem that we intended those funds to be 
used for. That's the crux of what I am trying to get to.
    I've got some other important questions but not the time to 
ask. I don't choose to ask you to remain and wait for me to 
vote and come back. I will submit them to you for your 
response. Would you be willing to do that?
    Mr. Goodman. Yes, sir.
    Mr. Packard. And any other questions that any member of the 
Committee might ask you?
    Mr. Goodman. Of course.
    Mr. Packard. But that is very critical to me. I sense that 
these first two projects had some areas that may leave us 
wanting in those areas, and we may want to pursue that a little 
bit further. I sense, however, that you are trying to correct 
these concerns as we proceed with other projects.
    Mr. Goodman. Yes, sir. Thank you very much.
    Mr. Packard. With that, the hearing is adjourned and thank 
you very, very much. You've been a good witness.
    [Clerk's note.--Questions for the record submitted by 
Chairman Packard.]

                      HRSO Administrative Expenses

    Question. Why is the Department proposing to transfer HRSO 
administrative expenses from the Family Housing Improvement 
Account to the Defense-Wide O&M account which is under the 
jurisdiction of the National Security Subcommittee?
    Answer. HRSO was chartered by the Secretary of Defense to 
develop both family housing and barracks projects using the 
alternative authorities for acquisition and improvement of 
military housing provided by Congress. However, Congress 
established separate funds for family housing and barracks 
projects, required that the funds be separately administered, 
and prohibited commingling of the funds. Since HRSO will be an 
integral participant during the development of both family 
housing and barracks projects, funding HRSO activities through 
the Family Housing Improvement Fund would violate the 
commingling of funds prohibition. Consequently, to comply with 
the legislation, funding for the HRSO was moved from the Family 
Housing Improvement Fund to the O&M Defense-Wide appropriation 
in FY 1998 where similar management support activities are 
funded. Since the Department could comply with the existing 
legislation by moving HRSO funding to the O&M Defense-Wide 
account, no legislative change was necessary.
    Question. Of the funds appropriated in the past two years, 
how much has been spent on staff salaries and how much has been 
spent for consultants?
    Answer. None of the money appropriated to the Family 
Housing Improvement Fund has been spent on HRSO staff salaries. 
HRSO staff salaries for the 15 individuals assigned to HRSO are 
paid from O&M or Military Pay appropriations of their parent 
organization. Of the money appropriated in the past two years 
for HRSO administrative expenses, about 89% will be spent on 
consultant support for development of the program and specific 
projects.
    Question. How much of the HRSO funding has been spent to 
date for facilities and equipment, travel and for consultants 
and their travel?
    Answer. To date we have spent a total of $3.6 million to 
develop the program and specific projects. Of this, $455K has 
been for HRSO facilities, equipment and travel. The remainder . 
. . $3.2 million has funded consultant support.
    Question. Who is paying for the additional training of 
service personnel to gain expertise in private sector 
operations and, specifically what type of training are they 
receiving?
    Answer. All HRSO staff are required to attend the National 
Development Council's demanding three week ``Housing 
Development Finance Professional Certification Course.'' So 
far, half of the HRSO staff has earned their certification and 
the other members are in various stages of the course work. 
This or similar training is also required for most service 
personnel who are developing privatization proposals. The Army 
is sponsoring the National Development Council courses which 
are being attended by HRSO staff as well as staff from all 
branches of the military. The HRSO is paying for its staff 
members to attend and the Services are paying for their staff 
members to attend their courses.
    Question. Why is the fiscal year 1998 request of $7 million 
for HRSO salaries and expenses more than double what has been 
spent in the last two years?
    Answer. As we ramp up the program and increase the number 
of projects the level of consultant support require increases 
proportionately.
    Question. Provide for the record detailed justification for 
the $7 million request.
    Answer. Approximately $600,000 will go to HRSO facilities, 
equipment and travel similar to first year expenditures. The 
remainder will be for consultant support consistent with 
projected ramp-up of the program. The detailed project workload 
for FY98 will depend on progress of projects currently in the 
pipeline.
    Question. Provide for the record all salaries paid by OSD 
and the individual components of all HRSO personnel.
    Answer. HRSO salaries for staff members are as follows:

1........................................  GS8........................  Step 10....................      $37,289
1........................................  GS9........................  Step 1.....................       31,680
1........................................  04.........................  A/F........................       47,970
1........................................  05.........................  A/F........................       59,468
1........................................  05.........................  USMC.......................       61,545
2........................................  GS13.......................  Step 5.....................       61,913
1........................................  GS14.......................  Step 2.....................       66,707
1........................................  GS14.......................  Step 7.....................       77,466
1........................................  GS15.......................  Step 6.....................       88,590
3........................................  GS15.......................  Step 10....................       98,714
1........................................  SES 3......................  ...........................      113,751
                                                                                                    ------------
      Total..............................  ...........................  ...........................   $1,004,434
                                                                                                                

    Question. Provide for the record all actual expenditures to 
date and planned expenditures for the remainder of fiscal year 
1997.
    Answer. Actual expenditures to date are $3.6 million. 
Planned expenditures for the remainder of fiscal year 1997 are 
$2.4 million.

                           HRSO Jurisdiction

    Question. Are there any plans to expand HRSO jurisdiction, 
perhaps to oversee the proposed utility privation?
    Answer. We expect to limit HRSO jurisdiction to 
privatization of military housing.

                           Economic Analysis

    Question. When conducting an economic analysis on these 
projects, does the Department look at what the total cost 
(including housing allowances and utility payments by service 
personnel) over the life of the project is?
    Answer. Yes.

                           Transfer of Funds

    Question. Has there been any reluctance on the part of the 
Services to transfer an entire construction project 
appropriation into the Family Housing Improvement Fund, even 
when the cost of privatization is less than the traditional 
construction project?
    Answer. No experience yet. All of the projects currently 
approved for development expand the number of housing units 
being constructed under privatization and require the entire 
military construction project appropriation for funding.

                  Federal Acquisition Regulation (FAR)

    Question. What problems is DoD having in determining 
whether or not the FAR applies is housing privatization 
projects?
    Answer. DoD General Counsel has closely reviewed whether 
the FAR applies to privatization projects. The answer depends 
on which authorities are used in a specific deal and how they 
are used. Basically when there is a direct obligation of 
appropriated funds to directly acquire military housing or 
services, the FAR applies. In many privatization projects this 
will not be the case. However, the Military Department may opt 
to use certain FAR provisions because they are deemed 
appropriate to protect the interest of the government.
    Question. Is the Department experiencing increased costs for 
housing privatization projects due to the FAR?
    Answer. There are specific FAR clauses which have been conjectured 
to increase costs. Investigation of the specifics of these increases 
have thus far been inconclusive. The most commonly mentioned clause 
regards application of the Davis Bacon Act. In this case it doesn't 
matter whether the solicitation is under the FAR or not, since Davis 
Bacon applies due to the federal nature of the projects.
    Question. What is the estimated percentage of increased costs of 
housing privatization projects using the FAR?
    Answer. As discussed in Question 13, results of investigation into 
this question have been inconclusive.
    Question. What is estimated increased cost of the FAR for the 
ongoing housing privatization projects at Fort Carson, Camp Pendleton, 
and Corpus Christi?
    Answer. At present, we have no hard data that would support 
increased costs related to following FAR. We are continuing to evaluate 
the issue.
    Question. Why was Lackland Air Force Base, Texas, allowed to issue 
the Request for Proposal (RFP) for its housing privatization project 
without the FAR provisions?
    Answer. The Lackland project is a real estate transaction. The 
primary legal instrument for the project is a ground lease of the 
installation land. Outleases of federal land are not governed by the 
FAR. The FAR applies to ``the acquiring by contract with appropriated 
funds of supplies or services (including construction) by and for the 
use of the Federal Government through purchase or lease . . .'' (FAR 
part 2.101). The Air Force's role in the Lackland project is merely 
that of a lessor of land whose interests are defined and protected in 
both the commercial and public sectors by a lease agreement. The 
improvements (housing facilities) will be owned by the ground lessee. 
The ground lease will incorporate, as an exhibit, a subordinate 
companion operating agreement which will implement the lease and 
address day-to-day details. The ground lease will control in the event 
of conflict between any provisions of the two instruments. The Air 
Force is following competitive procedures in determining which 
developer will be selected to construct the housing on the outleased 
land.
                               Impact Aid
    Question. How is impact aid going to be determined with 
privatization projects?
    Answer. Normally, when housing is off-base (thus taxable) a low 
level of impact aid is available to local schools. For on base housing, 
a higher level of impact aid would be provided. This presumes there is 
not an on base school available.
                        Expiration of Authority
    Question. Will five years be enough to get a thorough testing of 
the privatization market for family housing? For unaccompanied housing?
    Answer. We believe the five year test period will provide adequate 
time to see how the authorities work.
                       Non-Performing Contractors
    Question. In the traditional Construction and Family Housing 
programs, there are well-established and widely-understood means for 
dealing with non-performing contractors. In general terms, how would 
this be handled under an FHIF-Funding Project?
    Answer. This is one of the major concerns with the program. The 
goal is to ensure we select experienced proven managers to provide 
quality operation and maintenance. We also have to write contracts 
which accurately specify performance criteria. To accomplish this we 
are providing expert consultant support to help structure solicitations 
and evaluate proposals in this critical area. Additionally we are 
reviewing some of our experience from the Section 801 Build-to-Lease 
program for lessons learned in this regard.
    Question. Is special attention being given to avoid non-performance 
of maintenance work?
    Answer. Yes. See answer to the preceding question.
                          Voluntary Assignment
    Question. What assurance can you provide that assignment of 
individual service members to FHIF-funded family housing units will be 
strictly voluntary?
    Answer. Service members will be referred to privatized housing when 
assigned to the military base. As with regular military family housing, 
they will choose whether to live there or not. The privatization 
projects are being structured to be desirable for our service members 
vice mandatory. One of our authorities allows us to provide rental 
guarantees to the developers, and OMB considers assignment of 
individual members as a rental guarantee. Due to severe budget scoring 
incurred under this authority, we do not anticipate providing rental 
guarantees at this time.
    Question. How would OSD respond to any involuntary assignment?
    Answer. As described in the preceeding answer, a project designed 
with involuntary assignment would not be feasible due to budget scoring 
impact and would not be approved.
    Question. Is it correct that there is no guarantee that any 
military personnel will occupy FHIF-funded family housing units?
    Answer. As noted in the two preceding questions rental guarantees 
would have severe budget scoring impact and therefore offer little 
advantage over normal military construction. We do not anticipate using 
rental guarantees at this time. However the privatized housing is 
designed to be affordable, quality housing which military personnel 
will live in by choice.
                              OMB Scoring
    Question. What problems is DOD having with OMB scoring of housing 
privatization projects to ensure they are fully funded before contracts 
are awarded?
    Answer. OMB has agreed to scoring under the Credit Reform Act for 
our projects at Ft. Carson and Lackland AFB. We are working closely 
with OMB to formalize procedures for future projects as we finalize 
these first two. In any case scoring for each project is approved by 
OMB prior to contract award.
    Question. How did OMB score the projects at Corpus Christi 
and Everett?
    Answer. The projects at Corpus Christi and Everett are 
limited partnership projects and, as such, are scored 100% up 
front. They do not qualify for credit reform scoring.
    Question. Is this scoring of any value in predicting how 
OMB will score future projects?
    Answer. The scoring used on these projects will be of value 
only for projects executed using limited partnerships.

                         Non-Appropriated Funds

    Question. For the projects that you have reviewed to date, 
has there been any involvement whatsoever with the non-
appropriated funds, such as out-lease of land that includes a 
commissary, officer club, theater, or recreation facilities?
    Answer. No.
    Question. If so, how is this included in the calculations?
    Answer. Not applicable.

                             Property Taxes

    Question. When the Services issue RFP's for privatization 
projects, what direction is given to bidders regarding property 
taxes?
    Answer. The private developer is responsible for all real 
estate taxes. Whether they are required to be paid or not has 
raised considerable discussion in the Ft. Carson RFP process. 
The DoD position is that taxes are not required but this does 
not rule out possible litigation regarding this issue.
    The city or state may not be able to tax the land or 
buildings if exclusive federal jurisdiction applies, but the 
burden is on the private entity to verify and obtain the 
necessary paperwork from the taxing authorities. As stated 
before, there is considerable legal disagreement over this 
issue.
    Question. Is the Department seeking statutory clarificaiton 
of whether or not property taxes will apply to these projects?
    Answer. Not at this time. Each project must be considered 
on an individual basis based on the specific legal terminology 
used when the land in question was transferred to DoD.
                              Maintenance
    Question. What is the range of options being considered under 
various projects regarding costs for maintenance?
    Answer. This is a critical aspect of the program which will 
significantly impact the long term viability of the projects. We are 
emphasizing selection criteria that ensure proven, quality operators 
will be selected and have enlisted expert consultant help in the source 
selection process.
                 Limits on Federal Liability for Costs
    Question. What is the range of options being considered under 
various projects regarding limitations on Federal liability for costs?
    Answer. We expect operation and maintenance of the projects to be 
provided by the private sector for our housing privatization projects.
                               Unit Size
    Question. Should we continue funding the construction of two 
bedroom units or are larger units for lower graded enlisted personnel 
and their families, the ones that are needed most?
    Answer. Projects are developed for the grade structure and family 
demographics of the specific location. We anticipate a mixture of units 
based on the local requirement.
                    Family Housing Improvement Fund
    Question. Why were the Navy's Limited Partnership Agreements at 
Corpus Christi the only ones funded completely from the Family Housing 
Improvement Fund even though the installation had construction funds 
available which could have been used?
    Answer. At the time the Corpus Christi Limited Partnership 
Agreements (LPA) were executed the congressionally added fiscal year 
1995 construction funding was committed for award of a parallel 
military construction project to construct 100 units at Naval Air 
Station Kingsville. Therefore the Family Housing Improvement Fund 
provided $9.5 million to the Navy for execution of this limited 
partnership which was the first test of our new authorities.
                       HRSO Workload Measurement
    Question. What workload measures can you provide to indicate what 
value is added to Service proposals by HRSO's efforts?
    Answer. During the first year of operations, HRSO established the 
policies and procedures necessary to implement the initiative. 
Specifically, HRSO issued guidance to define how to take projects from 
inception to completion. It developed a comprehensive pro forma to help 
screen the financial feasibility of projects at potential privatization 
sites. It established protocols for the collection of site specific 
data, as well as criteria for identifying those sites where the 
authorities could be used most effectively. And it contracted with 
expert consultants to assist in the complex and unfamiliar task of 
commercial real estate development and finance.
    HRSO joins with the Military Departments to form site visit teams 
to evaluate the feasibility of privatization and to recommend which 
specific authorities would be best suited to the circumstances of the 
particular location. The HRSO also oversees the RFP process and is the 
DoD action office to address legal and Office of Management and Budget 
issues.
    The HRSO has also worked aggressively to increase awareness and 
understanding of the program in both the commercial real estate and 
financial communities. The HRSO addresses industry associations, 
national conferences and local industry forums for each project. The 
HRSO Internet Home Page hhtp://www.acq.osd.mil/iai/hrso) is a good 
example of this outreach.
    Question. What accomplishments have been achieved so far?
    Answer. In our first year, we got off to a good start. In December, 
the Department broke ground on the first project--a limited partnership 
project at the Naval Air Station Corpus Christi, Texas, for 400 units 
of junior enlisted personnel family housing. The Department of the Navy 
cost for the project is $9.5 million. Using our traditional MilCon 
approach, it would have cost the Navy about $12 million to build just 
100 units. The Navy issued an award in March for our second project--a 
$6 million partnership project at Naval Station Everett, Washington, to 
construct 185 units for junior enlisted personnel. We have issued 
Requests for Proposals (RFPs) for two other projects; two more RFPs are 
under development. All together, these projects will revitalize more 
than 4,000 units. The Department is now reviewing a host of new sites 
nominated by the Military Departments to expand the program 
significantly in the coming year.
    Question. What measurable plan of work does HRSO have for fiscal 
year 1997 and 1998?
    Answer. In developing candidate sites for FY 97 and FY 98, the 
military departments were instructed to evaluate both family housing 
and barracks, to increase the number of candidate projects, and the 
number of units in each project. Projects to date have generally been 
sized below an installation's full housing need. Since the costs to 
bring a project to completion do not increase significantly with size, 
larger projects are more cost effective than smaller ones. Increasing 
the size of projects would also raise the total number of housing units 
that could be constructed or revitalized through the program. Our goal 
is to double the number of units planned for construction and 
revitalization--from the 4,000 in FY 1996 to 8,000 units in FY 1997 to 
16,000 in FY 1998.

[Page 223--The official Committee record contains additional material here.]


    Question. For the majority of these contracts, the units 
were built on government-owned land, outleased to the 
contractor at a nominal cost. The terms of the contract require 
the contractor to remove all improvements from this leased land 
and to vacate the site at the completion of the 20-year period. 
In theory, the Department of Defense could seek authority to 
renew and/or renegotiate these contracts in some manner yet to 
be determined. It is more than half-way through the lease 
period for the oldest of these contracts. Is there an overall 
plan for the completion of the program?
    Answer. The earliest 801 projects terminate in 2006. As we 
determine our housing requirements through our normal planning 
process, we will take completion of this program into account. 
At this point it is too early to tell whether we need to keep 
these projects in the inventory or not.
    Question. Will the completion of the section 801 program 
fall under the purview of HRSO? If not, why not?
    Answer. We do not anticipate completing the 801 program 
under the purview of HRSO at this time. Currently the HRSO 
authorities are in a five year test period of the earliest 801 
completion is 2006.
    Question. Is there a possibility that the Family Housing 
Improvement Fund could be used in connection with these 
``build-to-lease'' contracts?
    Answer. As noted in the preceding question, the HRSO test 
authorities are in a five year test period and the earliest 801 
completion is 2006. Consideration of this connection is 
premature before requesting permanent HRSO authorities.

                           Funding Mechanism

    Question. The authorization and appropriation for the FHIF 
specifically permit transfers to the Fund from amounts 
appropriated for Construction in ``Family Housing'' accounts. 
Have any such transfers occurred? If so, from which accounts 
and in what amounts? If not, why not?
    Answer. $5.9M was transferred from Navy family housing 
accounts to fund the Navy's Everett project. Congressional 
notification was provided in February 1997.
                         Legislative Proposals
    Question. Provide for the record any authorization and 
appropriation language that is deemed necessary to establish a separate 
account in the Military Construction Appropriations Act to fund all 
expenses for HRSO, including payroll compensation and benefits of 
Federal employees.
    Answer. No language is required.
                              O&M Account
    Question. Why was a decision made to fund such expenses under the 
Defense-Wide O&M account in the National Security Appropriations Act, 
rather than propose language to accomplish such funding in the Military 
Construction Act.
    Answer. HRSO was chartered by the Secretary of Defense to develop 
both family housing and barracks projects using the alternative 
authorities for acquisition and improvement of military housing 
provided by Congress. However, Congress established separate funds for 
family housing and barracks projects, required that the funds be 
separately administered, and prohibited commingling of the funds. Since 
HRSO will be an integral participant during the development of both 
family housing and barracks projects, funding HRSO activities through 
the Family Housing Improvement Fund would violate the commingling of 
funds prohibition. Consequently, to comply with the legislation, 
funding for the HRSO was moved from the Family Housing Improvement Fund 
to the O&M Defense-Wide appropriation in FY 1998 where similar 
management support activities are funded. Since the Department could 
comply with the existing legislation by moving HRSO funding to the O&M 
Defense-Wide account, no legislative change was necessary.
                              Project Data
    Question. For the record, submit form 1391s for all projects 
proposed for fiscal years 1997 and 1998, including but not limited to 
Corpus Christi, Everett, Fort Carson, Lackland AFB, and Camp Pendleton.
    Answer. The Services have not prepared 1391s for the Military 
Housing Privatization Initiative (MHPI) projects. The information 
normally provided by a 1391 is required to be submitted during the 
congressional notification process prior to the Department's 
solicitation of the project. Notifications have been sent to congress 
for Corpus Christi, Everett, Fort Carson and Lackland AFB. The Camp 
Pendleton and other MHPI projects are currently being prepared and 
reviewed by the Services and DoD prior to submission. It normally takes 
130 to 140 days to develop the project and solicitation plan. At the 
end of this period the Department has sufficient information to meet 
the MHPI reporting requirements.
                        Budget Appendix Material
    Question. The Program and Financing Statement for the fiscal year 
1998 budget shows total obligations of $5 million for the Military 
Unaccompanied Housing Improvement Fund during fiscal year 1997, with 
unpaid obligations of $5 million at the end of fiscal year 1999.
    Why does the Program and Financing Statement for the Family Housing 
Improvement Fund show an unobligated balance of $62 million at the end 
of fiscal year 1999?
    Answer. The Program and Financing Statement for the Family Housing 
Improvement Fund does not show an unobligated balance of $62 million at 
the end of FY 99. It shows $62 million of unexpended obligations, and 
$19 million unobligated.
             Corpus Christi, Limited Partnership Agreements
    Question. Why are only 404 housing units to be built when a 
shortage of 602 units was identified?
    Answer. As a pilot project the scope of the Limited Partnership at 
Corpus Christi was a balance between being large enough to stimulate 
local development and yet small enough to be manageable. Additionally, 
the Navy typically only programs military construction projects up to 
90 percent of requirement.
    Question. Why did the Office of the Secretary of Defense 
(OSD) and Navy Official agree to ``rents plus utilities'' that 
are more than lower graded enlisted personnel can afford?
    Answer. In the solicitation for the Navy's Public-Private 
Venture for housing for the Corpus Christi area, the Navy told 
developers that they should consider the BAQ/VHA for an E-5 
with dependents as the target rate for a 3-bedroom unit. Rents 
for the different units were not fixed at thee BAQ/VHA for each 
pay grade or for any particular pay grade. Navy wanted the 
developer's offered rents to be an element of the evaluation 
process so that they could select that development proposal 
which offered the Best Value to the government, that is, the 
highest quality housing with the lowest rents closest to the 
target E-5 with dependents. It was recognized that an E-7 with 
dependents would have less out-of-pocket expenses as a tenant 
in a 3-bedroom unit and an E-3 with dependent would have more.
    The fiscal year 1995 legislation which authorized the Navy 
to enter into a Limited Partnership for the development of 
family housing identified an objective with respect to rental 
rates, namely, that the rental rates for some or all of the 
units available to service members be affordable to such 
members. ``Affordability'' is defined in terms of the service 
member's ``Maximum Allowable Housing Cost.'' This objective has 
been met for the target population.
    Question. What are OSD and the Navy going to do if lower 
graded enlisted personnel do not rent the housing units built 
for them because they cannot afford them?
    Answer. There is no indication that the target grade 
families, E-5, would not chose to rent units in these 
developments. However, if military families do not elect to 
completely fill these developments, the Limited Partnership 
Agreement does allow the developers to lease available units to 
civilian occupants. Civilian lease terms are limited to one-
year to maintain lease preference for military families.
    Question. What have the Office of the Secretary of Defense 
and Navy done to protect the Government's $9.5 million 
investment if Landmark Residential defaults on the Limited 
Partnership Agreements and walks from the two Corpus Christi, 
Texas housing privatization projects?
    Answer. There are a number of features incorporated into 
the Limited Partnership Agreement which protect the Navy's 
investment. Landmark Organization, Incorporated, and its 
president, Mark Schultz, have provided personal and corporate 
guarantees. All budget overruns (construction and operation) 
are assumed by the General Partner. During construction, an 
independent consulting architect reviews invoices and approves 
payment, i.e., the pro rate release of the Navy's capital 
contribution. The Navy's maximum liability is $9.5 million, the 
amount of its investment. In the event of default, the 
defaulting partner's interest may be sold, with the proceeds 
applies to (1) pay off long-term debt and (2), at the option of 
the Navy, either 67.4 percent of the balance to the Limited 
Partner, and 32.6 percent to the General Partner, or $1.5 
million to the Limited Partner, and then the balance to the 
General Partner.
    Question. What do they intend to do if this happens?
    Answer. The Navy's maximum liability is $9.5 million, the 
amount of its investment. In the event of default, the 
defaulting partner's interest may be sold, with the proceeds 
applied to (1) pay off-long-term debt and (2), at the option of 
the Navy, either 67.4 percent of the balance to the Limited 
Partner, and 32.6 percent to the General Partner, or $1.5 
million to the Limited Partner, and then the balance to the 
General Partner.

                   Naval Station, Everett, Washington

    Question. How far is the new housing development in 
relation to the Everett Naval Station?
    Answer. The new housing development is approximately eleven 
miles from the Naval Station.
    Question. What is the driving distance and how long does it 
take to drive it during the normal rush hours?
    Answer. Proceeding North along 1-5 from the base, it is 
about 6 miles to Marysville, and another 5 miles to the housing 
project. During normal rush hours, it takes approximately 20-30 
minutes to drive from the housing project to the base.
    Question. What are the monthly rents to be charged for the 
two, three, and four bedroom houses?
    Answer. The 1997 monthly rental rates to be charged are as 
follows:
    2-Bedroom--$725.
    3-Bedroom--$750.
    4-Bedroom--$850.
    These rates are approximately $95 below market rates for 
comparable units.
    Question. What are the estimated monthly utilities for each 
of the above houses and who pays them?
    Answer. Tenants pay for the utilities for their units. 
Utilities are approximately $85 to $105 depending on unit type.
    Question. What do the E-1s through E-5s at the Everett 
Naval Station think about the new houses?
    Answer. Interest is extremely high. Brand new townhouses 
are an exciting alternative to apartment style living. Another 
positive reaction is the proximity to the commissary and 
exchange along with a very short commute to the Naval Station.
    Question. Can they afford the rents, especially those with 
large families who need a three or four bedroom house?
    Answer. The Request for Proposals (RFP) for the Everett 
Limited Partnership Agreement (LPA) indicated that rents for 
three-bedroom units should be targeted at the housing allowance 
(BAQ/VHA) of an E-5. The rent structure in the LPA reflects 
this objective inasmuch as both three and four bedroom rents 
plus estimated monthly utility costs are below the DoD 
established Maximum Allowable Housing Cost (MAHC) of an E-5. 
Similarly, the two-bedroom units cost, rent plus utilities, is 
below the MAHC for E-1 through E-4's. The MAHC is used as one 
of the principle measures to determine if a military family is 
suitably housed.
    Question. Do they intend to live in the new houses and, if 
not, why not?
    Answer. Yes, sailors do intend to live in these new homes.
    Question. After the 6<SUP>th</SUP> year 20 percent of the 
units are to be sold annually. Will an E-5 be able to afford 
the proposed sales price to sailors?
    Answer. Assuming 90 percent Veterans Affairs (VA) financing 
for 30 years with a six percent adjustable rate mortgage (ARM) 
and no unusual consumer debt, most E-5's would qualify for a 
$135,000 home, using standard Veterans Affairs (VA) 
underwriting ratios. Some applicants may require additional 
review and justification depending on individual family 
finances. Obviously, spousal income or increased down payment 
would improve the income to debt ratio.
                         Fort Carson, Colorado
    Question. What are the estimated revenues and operating expenses 
for the project for 50 years? For 75 years?
    Answer. The estimated revenues for the project are $2.23 billion 
for 50 years and $5.42 billion for 75 years.The estimated operating 
expenses (excluding vacancy allowance) are $894 million for 50 years 
and $2.17 billion for 75 years.
    Question. What are these amounts for the 1,824 housing units for 
which the military occupants currently forfeit their housing 
allowances?
    Answer. The estimated revenue for the 1,824 housing units is $1.41 
billion for 50 years and $3.41 billion for 75 years. The estimated 
operating expenses (excluding vacancy allowance) for 1,824 units are 
$565 million for 50 years and $1.37 billion for 75 years.
                       Camp Pendleton, California
    Question. Who originated the housing privatization project at Camp 
Pendleton?
    Answer. Camp Pendleton was submitted for consideration as a 
privatization project by the Department of the Navy during the first 
round of nominations in 1996.
    Question. Did Camp Pendleton's Commanding General express a 
preference for privatized housing versus military constructed housing?
    Answer. He expressed a preference for a solution that would provide 
acceptable housing for the troops as fast as possible.
    Question. Were any family housing military construction projects 
held hostage so as to press forward with the privatization project?
    Answer. The primary method of funding privatization projects is to 
leverage existing family housing military construction funds. In the 
case of Camp Pendleton the Department of the Navy proposed using $20M 
appropriated for a FY96 project at Camp Pendleton.
    Question. Are the Camp Pendleton personnel in favor of the housing 
privatization? If not, what are their concerns?
    Answer. Yes.
    Question. Why has HRSO been non-responsive to Camp Pendleton 
officials requests for information since the industry forum?
    Answer. I have no information related to HRSO being non-responsive. 
If there is more specific information, I'll be happy to look into it.
    Question. When can the Naval Facilities Engineering Command 
officials expect to get the data they need from HRSO to complete the 
Request for Proposal (RFP)?
    Answer. They have been provided everything required.
                      Account Balances/Allocations
    Question. What is the balance of funding in the Family Housing 
Improvement Account and the Military Unaccompanied Housing Improvement 
Account?
    Answer. The Family Housing Improvement Fund balance is $30.7 
million. The Military Unaccompanied Housing Improvement Fund balance is 
$5.0 million.
    Question. How do you envision allocating funding in these two 
accounts to ensure competition?
    Answer. This initial opportunity money needs to be sued judiciously 
to maximize testing the authorities. This has to be weighed against the 
financial viability of the project and the severity of the housing 
problem. I will evaluate each project on the following criteria: the 
project addresses a critical housing priority; the project achieves our 
target leverage; the project cannot be readily funded from other 
available sources; the project expands our experience in using the 
tools and mechanisms that you have given us in this test period; and 
the project broadens our base of project size and configuration. As the 
program matures I plan to refine these criteria and make them even more 
specific.
    Current MilCon planning process for housing provides basis for 
developing projects in areas of greatest need. It also allows us to 
leverage existing resources. I will encourage the Military Departments 
to look at those sites for privatization.
    Question. Has the remaining $30 million been committed to a 
Service? Follow up: I learned during the Air Force hearing yesterday 
that HRSO has agreed to contribute up to $4 million for the Lackland 
project. Is this the case?
    Answer. The $30 million has not been committed to any specific 
service or project. We intend to use the $30 million toward the best 
projects, regardless of service, that help develop effective use of the 
authorities. This will be done following the criteria I outlined in my 
opening statement. Under that criteria, we have agreed to fund up to $4 
million toward the Lackland project.
                              Budget Tool
    Question. Based on what I know from the Everett and Corpus Christi 
projects, it concerns me that the Navy may be using housing 
privatization as a budget tool to cut costs at the expense of sailors 
and their families, rather than as a program tool to provide suitable, 
affordable housing for them. Can you assure me this is not the case?
    Answer. It is not the Navy's intent to use housing privatization as 
a budget tool to cut costs at the expense of sailors and their 
families. They are using the authorities to increase the availability 
of suitable, affordable housing as part of the improvement of overall 
quality of life for our military service members.
                           Use of BRAC Funds
    Question. Why is the Department seeking authority to allow the 
transfer of Base Closure funds into the Family Housing Improvement 
Fund?
    Answer. The Department evaluated the need for authority to transfer 
Base Closure family housing funds into the Family Housing Improvement 
Fund. There appears to be merit to using the privatization authorities 
to provide housing at reduced cost at bases gaining forces because of 
base closure actions, however, we believe it is premature to request 
authority at this time.
    Question. Is there any prohibition on using direct appropriations 
to the Family Housing Improvement Fund at a BRAC location?
    Answer. No
    Question. Have the Services and DoD determined any specific 
locations where the transfer of BRAC funds would be useful?
    Answer. The only sites I am aware of where transfer of BRAC funds 
might potentially be useful are Air Force sites at Maguire AFB and 
Travis AFB.
                        Installation Reluctance
    Question. Have there been any instances where an installation has 
been told to do a privatization project when the base is reluctant to 
do so?
    Answer. For privatization projects to be successful there has to be 
agreement and ``buy-in'' to the plan at all levels. I am not aware of 
any instances where the base has been forced to do privatization.

    [Clerk's note.--End of questions for the record submitted 
by Chairman Packard.]
    [Clerk's note.--Questions for the record submitted by Mr. 
Dicks.]
                   Naval Station, Everett, Washington
    Question. Mr. Goodman, one of the first projects is at Naval 
Station, Everett. In your testimony, you describe this project as 
providing 185 units of off-base housing. The Navy will contribute $5.9 
million toward the total project cost of $19 million.
    When do you anticipate the award of this project to be announced.
    Answer. The Limited Partnership Agreement for this project was 
awarded 23 March 1997.
    Question. When do you anticipate the project will be ready for 
occupancy?
    Answer. Certificates of Occupancy should be issued on the first 
units in September 1997. Units will then become available for occupancy 
at the rate of approximately 23 units per month. According to the 
developer's most recent production schedule, a Certificate of Occupancy 
for the last unit will be issued in April 1998.
    Question. In your testimony, you mention that the term of 
this contract will allow renters to purchase units on favorable 
terms after the first six years of the contract. Does this mean 
that you anticipate an ongoing requirement to build more units, 
as units are purchased by renters?
    Answer. This projects adds 185 units to the private market, 
whether for lease or for sale. These additional private housing 
assets will continue to reduce the Navy's deficit regardless of 
ownership status.
    Question. The terms of the ``on-base'' housing contracts 
appear to be for a long time; 50 years for the initial 
contract. Are you convinced that these contracts will provide 
adequate guarantees that the quality of the housing will be 
maintained over the entire period of the contract?
    Answer. We believe that adequate safeguards can be 
incorporated into our contracts to assure appropriate levels of 
maintenance for the entire period.
    Question. For both of the ``on-base'' projects that you 
describe, you mention a ``loan guarantee for base closure.'' 
How would such a provision affect the decision process when 
reviewing bases for any future round of closures?
    Answer. The costs related to paying off the loan guarantee 
would be considered part of the financial impact of closing the 
base in question during any future BRAC.
    Question. What has been the reaction of the base commanders 
to these projects?
    Answer. The reactions have varied. Some appreciate the need 
to find an alternative to traditional MILCON; others don't. As 
we demonstrate these projects are a viable alternative to 
MILCON I believe reaction will be positive.
    Question. What has been the reaction of the private sector? 
Has there been lots of interest reflecting the prospect of 
healthy competition?
    Answer. There has been an enormous amount of private sector 
interest in this program. Each of the Industry Forums have been 
attracting well over 200 people each. To date, more than 500 
companies have requested the Fort Carson REP and hundreds more 
have requested the Lackland AFB RFP. There were over 400 people 
in attendance at the Fort Carson Pre-Proposal Conference. 
Additionally, there are currently over 700 names on the Housing 
Revitalization Support Office mailing list to whom we send 
program updates and industry forum and RFP announcements, and 
more than 1,500 people access the HRSO Home Page each week. The 
Internet address is: http://www.acq.osd.mil/iai/hrso.
    Question. Does this mean that you anticipate that Family 
Housing and Unaccompanied Housing Improvement Funds to be self-
sustaining from this point forward?
    Answer. We don't know yet. If we are able to achieve 
significant leveraging of MILCON money from projects converted 
to privatization we may be able to make the accounts self-
sustaining.
    Question. Do you anticipate that this initiative will 
result in any changes to the cost of housing that our service 
men and women experience? Will it change the housing allowances 
that the services pay to the service members?
    Answer. We are structuring privatized projects around the 
rents supportable by existing BAQ/VHA allowances. The intent is 
to provide affordable quality housing at rent levels that our 
service men and women can afford with their current level of 
allowances. Privatization alone will not change the housing 
allowances.

    [Clerk's note.--End of questions for the record submitted 
by Mr. Dicks.]
                                            Tuesday, March 4, 1997.

                         DEPARTMENT OF THE ARMY

                                WITNESS

JERRY T. ALLEY, JR., COMMAND SERGEANT MAJOR FORCES COMMAND

                       Statement of the Chairman

    Mr. Packard. Let's call this hearing to order, ladies and 
gentlemen. I fully expect this to be an outstanding hearing. 
This is our opportunity to hear from the gentlemen who really 
understand and know the life and the needs of our service men 
and women. And so, it's a pleasure to welcome each of you who 
head up the enlisted men and women of our services. We deeply 
appreciate your testimony and being here as a witness.
    Today's hearing will focus primarily on quality of life 
issues. In our last hearing most of us on the committee 
expressed this as being one of our highest priorities. It will 
continue to be a high priority. I mentioned in the last hearing 
my visit to Camp Pendleton which is in the heart of my district 
and certainly one of the great bases of amphibious training in 
the world. But while we were there, referring to quality of 
life issues, the question was asked of two young people--not 
too long out of boot camp--what were the two issues or the 
quality of life issues that were most important to them that 
they do not have, and to our surprise, the telephone was listed 
as the most important issue in their barracks. They didn't have 
a telephone. Well, that came as a surprise to me and I think to 
most of us who were there that something as almost 
insignificant as a telephone is such a high priority to our 
young men and women. And sometimes we don't understand really 
what quality of life issues are to individuals.
    The next thing, the next listed item was a place to repair 
their car. I would have never thought of those two items as a 
major need for our service men or women. And yet, as I listen 
to them and begin to think about it, it became clear that those 
are huge issues to young men and women who are somewhat tied to 
their barracks for a large part of their lives and no place to 
really communicate. So, it was an interesting revelation to me.
    I really do look forward to this hearing and to your 
testimonies. I've read them carefully and I've highlighted them 
and marked them. There are some questions that I'll have but, 
overall, I was very, very impressed with what you've submitted 
to this committee. So, we will look forward to that.
    And with that in mind, I would like to have--Mr. Hoyer, 
would you like to represent the minority side on an opening 
statement?
    Mr. Hoyer. I'd like to represent the majority side--but 
given the state of things--I'll represent the minority side. I 
want to say that, gentlemen, I apologize. I'm going to have to 
run out because we have another hearing on the Drug Institute 
at NIH and they're specifically having it early for me. So, 
I've got to be there. But I wanted to come by and welcome you 
on behalf of Mr. Hefner and our side of the aisles. Actually, 
this is not an aisle. Everybody on the committee has the 
highest respect for you gentlemen. I came because I wanted to 
hear the real rank in the service. We deal with the officers a 
lot, but there's no officer that I've met that's worth their 
salt that doesn't know full well that the services succeed or 
fail on their enlisted personnel, and nobody's in closer touch 
with them than you are. And so, I'm pleased to be here.
    Chief Hagan, I'm particularly pleased to be here with you. 
I know you spent a little bit of time at Pax. It's probably not 
enough because it's a great place to be, but I'm pleased to 
have you here and look forward to your testimony. Although I 
will not be here for your comments, I want to let you know that 
I will read all four of your statements with great interest, 
because I think what you have to say will be very important to 
the perspective that this side of the aisle and that side of 
the aisle has on the matters that come before this 
subcommittee.
    Mr. Chairman, thank you very much for giving me that 
opportunity.
    Mr. Packard. Thank you, Mr. Hoyer. And he's absolutely 
right. This is really not a partisan committee at all. It's 
probably one of the most bipartisan subcommittees on 
Appropriations, for which I'm grateful, and I appreciate your 
comments.
    Mr. Edwards, do you have any comments to make?
    Mr. Edwards. Mr. Chairman, I am here to listen, but I think 
you said it well in our first meeting, that quality of life 
issues have everything to do with maintaining a strong national 
defense and readiness. And as someone who represents a large 
Army installation, Fort Hood, and recognizing 2/3 of the Army 
is married, I think there is much to be said about how we 
recruit soldiers, but we re-enlist the family. So, I think your 
testimony today is just as important as someone testifying 
about bombers or aircraft carriers. I'm thrilled that you are 
here.
    Thank you, Mr. Chairman, for calling this meeting.
    Mr. Packard. Thank you. And, Mr. Tiahrt.
    Mr. Tiahrt. Mr. Chairman, some of our committees were so 
far apart, but I think we do have an issue like Chet talked 
about. The qualify of life is important to all of us and you do 
re-enlist the family. And we're looking forward to hearing from 
you who work where the rubber meets the road. So, I'm looking 
forward to your testimony.
    Thank you, Mr. Chairman.
    Mr. Packard. Thank you very much. And we'll now move into 
the testimonies of each of you, and I won't introduce you 
separately. I'll just have you move one after the other. The 
Army will come first with Jerry Alley, Jr. He's the Command 
Sergeant Major of the U.S. Army Forces Command. And for the 
Navy we have Sgt. or Chief Petty Officer, excuse me, John 
Hagan, the Master Chief Petty Officer for the Navy. The 
Marines, which are always near and dear to me, Lewis G. Lee, 
Sergeant Major of the Marine Corps. Representing the Air Force 
is Eric Benken, Chief Master Sergeant of the Air Force.
    Each of you, we're grateful to have you here. I have read 
all the testimony. I would prefer that you don't just 
regurgitate it to us. We just want to hear what you think are 
the problems and the needs of the men and women who you 
represent service-wide. We would hope that you would highlight 
the things that you think are important, but not just read your 
testimony. And with that, we'll go to you, Sergeant Major 
Alley.

            statement of sergeant major jerry t. alley, jr.

    CSM Alley. Yes, sir. Good afternoon, Mr. Chairman, 
distinguished members of the subcommittee. I'm honored to 
appear here today to represent the enlisted soldiers and their 
families of America's Army.
    I have submitted to you a written statement, and I request 
that it be entered into the record.
    Mr. Packard. So ordered.
    CSM Alley. First, I would like to thank the subcommittee, 
sir, for the additional funds that you providedover the last 
year. Those funds were utilized in our family housing, and our barracks 
accounts with the additional money that we were given, we were able to 
refurbish 1100 homes, 5300 billet spaces to Department of Defense's 
standard of ``1 plus 1.'' This was in itself, it was a great morale 
builder for our soldiers and their families.
    Mr. Chairman, as you know, deployment of America's Army has 
not easened in the last year. We continue to have soldiers 
deployed worldwide. In addition to the 100,000 soldiers that we 
presently have stationed overseas, last year we had a daily 
average of 35,000 soldiers away from home in over 70 countries. 
These soldiers were doing--were maintaining peace in Bosnia, 
tyranny and aggression from Iraq and Southwest Asia. And on the 
home front, they were used in emergencies for hurricanes, 
fires, and floods.
    Throughout my travel I talk to soldiers that are deployed, 
preparing to deploy, or returning from deployed. These are 
dedicated young men and women and are committed to their 
country. They know that the American people only have so much 
money to provide the men and women of our Armed Forces. These 
soldiers only want to serve and serve proudly. They only ask 
that they be allowed to maintain their families and the 
soldiers in living conditions that are adequate to the 
standards of living. The Army is committed to acquiring and 
providing adequate benefits to our soldiers and their families. 
If we are able to recruit and retain the American soldier, we 
must provide benefits.
    As you know, we understand the quality of the soldier is 
there. Also, though, we need to understand that the family is 
an important product, also, of the United States Army. We 
enlist soldiers, we re-enlist families. As you know, the most 
important member of a military family is the spouse. The spouse 
will decide in the majority of the times whether the soldier 
stays in the Army or gets out.
    I hope during our discussions here that we come up with a 
quality of life package that will adequately support America's 
Army and help us keep the great men and women we have in 
uniform. I'm looking forward to your questions. Thank you.
    Mr. Packard. Thank you very, very much.
    [Prepared statement of Sergeant Major Jerry T. Alley, Jr. 
follows:]

[Pages 235 - 240--The official Committee record contains additional material here.]


                                            Tuesday, March 4, 1997.

                         DEPARTMENT OF THE NAVY

                                WITNESS

JOHN HAGAN, MASTER CHIEF PETTY OFFICER OF THE NAVY
    Mr. Packard. Master Chief Petty Officer Hagan.

              Statement of Chief Petty Officer John Hagan

    MCPON Hagan. Chairman Packard, committee members, thank you 
for the opportunity to speak on behalf of sailors and their 
families and thank you for what you have done in the past for 
the Navy.
    I submitted a written testimony that you've reviewed to 
and, from previous experience, I am confident it will be 
carefully considered. So, I will quickly summarize a few 
points. I would direct your attention to the photos that I have 
taken the liberty of displaying on the map here to talk about 
shipboard life.
    I realize this is the MILCON Subcommittee and the MILCON 
does not include shipbuilding. But, in fact, it's very 
important and very relevant. Over 175,000 sailors serve on sea 
duty currently. It is what we do, it is why we exist. Sea duty 
experiences shape sailors' lives and attitudes and they are at 
the heart of every career-related decision sailors make.
    Allow me, please, to put these shipboard berthing photos in 
perspective. And, by the way, these photos were taken recently 
on the Navy's newest carriers, the John Stanos and the George 
Washington, and coincidentally the largest warship. The space 
in this room is 600 square feet. If I could put these photos in 
context of this room, we take 600 square feet of unobstructed 
space aboard ship and put 16 three-tier racks. And so, we would 
berth 48 people in this space. By raising the overhead, and I 
imagine this is a false ceiling, and going to a taller space, 
we would probably put 96 in this space on 2 decks. In the 
little room that we pass through, the foyer, there would be 
four to five sinks, three urinals, and four toilets, or six or 
seven toilets if it were female berthing, and two or three 
showers.
    Sailors, 48 again on this deck, would sleep and store all 
their belongings in this space. Again, MILCON is your primary 
responsibility, but Navy's MILCON needs simply to be 
prioritized with the shipboard sailors' lifestyle in clear 
focus. In the current MILCON plan, there are no projects 
programmed for single sailors afloat. This is a long-neglected 
area. While we have done well by families--and, in fact, I 
thank you over and over again very sincerely for how well we 
have done--we have neglected the single sailor that lives at 
sea for 36 to 60 months.
    On all but the smallest ships and submarines, the single 
sailor lives there in pay grades E-4 and below. E-5 will 
finally have BAQ/VHA 1 July of this year, thanks to the wisdom 
of this body. But they live there for 36 to 60 months with no 
access to better facilities ashore. On the small ships, they do 
move into the barracks, but even that doesn't make real good 
sense because, for example, the smaller MHC is considered 
inadequate, the coastal mine sweeper, to berth in while in home 
port. But the berthing inhabitability on the small MHC is 
really better than the larger MCM which is considered adequate 
for berthing in port.
    So, we have issues. They are inflexibly difficult to 
overcome and I don't have any proposal for making life and 
habitability aboard ship better, simply that we do better at 
pierside and home port for the time that the sailor is in home 
port. To put that into context, a typical 5-year tour, and far 
too many of our ratings serve 5 years or 60 months at sea, can 
include as much as 60 percent of the time out of home port or 
constrained to shipboard by duty without violating the current 
OPTEMPO/PERSTEMPO guidelines. Typically, the long sea tour of 
60 months is followed by the shortest shore tour of 24 months, 
never more than 36 months.
    So, I ask you for consideration in these areas for the 
sorts of pierside facilities very similar to what you 
mentioned, Mr. Chairman, in your opening comments to meet the 
needs of sailors aboard ship and home port. And I will tell you 
we're having the greatest of difficulty finding the money and 
prioritizing our current assets to do even some makeshift 
rehab/refurbish sort of things to meet that need.
    I will summarize by telling you I have no complaints about 
sea duty. We all realize we are up against the basic laws of 
physics when it comes to shipboard life. And, in fact, there 
are some simply great aspects of living so closely at sea. The 
team-building and the pride that is generated is absolutely 
essential to our mission. I won't neglect the family house 
MILCON. I would just say very quickly I came back from Lamore 
late Sunday night where I saw the new family housing that's 
replacing the 1950 vintage poured concrete structures and the 
sailors out there are ecstatic with that gain, as are sailors 
in so many locations that I detailed in my testimony, or 
attempted to detail. And so, I thank you for that and I look 
forward to responding to your questions.
    [Prepared statement of Chief Petty Officer John Hagan 
follows:]

[Pages 243 - 255--The official Committee record contains additional material here.]


    Mr. Packard. Thank you very much. Let me break for a 
minute.
    [Recess.]

                                 ----------

                                            Tuesday, March 4, 1997.

                       UNITED STATES MARINE CORPS

                                WITNESS

LEWIS LEE, SERGEANT MAJOR OF THE MARINE CORPS

    Mr. Packard. And now we'll go to the Sergeant Major of the 
Marine Corps.

                Statement of Sergeant Major Lewis G. Lee

    SGTMAJ Lee. Mr. Chairman and committee members, I too am 
very honored to appear here today. And obviously, I'm not 
deployed, but I want to tell you that 22,000 of our men and 
women from the Reserve and the active side are forward deployed 
today. Readiness and operational responsiveness remain our 
number one priority. And, of course, as you well know, quality 
of life enhances that readiness. Among our priorities remains 
military construction and infrastructure within our bases and 
stations.
    We've been lucky to receive your support, and we are indeed 
appreciative of that, and continue to make significant 
improvements in our bachelor housing. We maintain 97,000 
bachelor housing spaces around the world and, unfortunately, 
about 10,447 of those are classified as inadequate. Now, having 
said that, I want to make sure you understand that I don't have 
anybody that doesn't have a place to live.
    The FY 98 Quality of Life Program has included $71 million 
for repairs and maintenance, and $42 million for replacement 
reconstruction. In addition to the '97 additions, that allowed 
us to apply in excess of $88 million to a backlog of repairs 
and over $59 million to constructing approximately 1200 man 
spaces. For that we are truly appreciative, and we believe with 
your continued support we will be able to eliminate inadequate 
BEQs in 10 years. I know that seems like a long time, but then 
again, in reality, that's not a long time. I also want to 
comment that the whole room replacement of our furnishings, we 
were on a 25-year cycle 2 years ago. We are down now to a 13\1/
2\-year cycle and we think that by fiscal year 02 we will be 
able to do what the DOD standard is, continually refurbish our 
rooms every 7 years. We put $25 million into new furnishings 
last year, $17 million, thankful to you all, this year. And, 
gentlemen, I have seen those furnishings. They're good, they're 
quality, they're what Marines want. In fact, they go out and 
pick them out and we put them in the buildings.
    We're making progress on our, backlog of maintenance and 
repairs. We were at $106 million backlog in maintenance and 
repairs of BEQs, single housing, in FY96. We're down to $80 
million at the end of this year. That's a lot of money, but 
we're down to $80 million by the end of this year. And the 
Commandant, Gen. Krulak, has committed to eliminating all 
backlogs by the year 1905. We can do that, and he's committed 
to it.
    In our family housing, we have about 25,350 family units 
today. I'll be honest with you: We need to replace or 
revitalize about 13,000 of those. And considering everybody we 
need to provide housing for, we need about 10,980 more units. 
So, we're not in good shape in family housing, but we know 
where we are.
    Our FY 98 budget gets funded at 14 percent less than it was 
in FY 97, but we're going to be able to do some good things in 
fiscal year 98, although we're 14 percent less. We're going to, 
for instance, replace 133 units at 29 Palms, California, and 
we're going to build new units, 171, at Camp Pendleton and 166 
at MCAS Miramar, and we're going to revitalize 40 more units at 
Camp Lejeune, North Carolina. So, we are going to make some 
progress.
    And again, the backlog of maintenance and repairs for 
family housing is calculated the same way it was for BEQs, and 
we're behind there. So, we intend to continue the emphasis on 
reduction of this. And again, with the support that we're going 
at right now, without increases but with the continuing 
support, maintenance backlog will be finished by the end of 
fiscal year 01. And again, that seems like a long time but it's 
not.
    Where we are, reconstituting our neighborhoods and 
rebuilding, we're including not only the basic quarters but 
other quality of life, what I call amenities, within the 
neighborhood that we are building up for the families, and such 
things as community centers, ball fields and playgrounds, just 
to name a few. We found out that we build all that stuff into 
it, just like a development would, were cheaper in the long run 
than adding it to it piecemeal.
    For our families who live off base on independent duty, 
we're dedicated to helping them find adequate and affordable 
housing, and there's a lot of information in my testimony that 
deals with that. I'm not going to try to recite it here, but I 
want you to know that probably the ones that might have the 
toughest living conditions are family members on independent 
duty who are disenfranchised from a major military 
installation; this is of great concern to us. I know that 
Congress is looking to help us. We've got some initiatives in 
DOD, within the Marine Corps, to help ourselves.
    I'm going to round this thing out by saying--when you talk 
to the Marines, mostly quality of life is measured by the 
housing itself. But I want you all to know we're also pursuing 
better training and working facilities on our bases and 
stations. Our bases and stations are our proving ground that we 
deploy our combat units from. So, whatever we do to those bases 
and stations infrastructure-wise, we have to make sure that we 
have training and working locations that really support the 
fact that when we send people out they will be trained and 
qualified to not only win but come back home alive.
    And last but not least, because you all ensure that the 
Marine Corps receives these kind of things--and this is not 
military construction, but I want to pass onto you also the 
fact that we appreciate that through your alls' support we are 
now building the best field equipment, personal gear, and 
personal equipment, that our Marines have ever had. And 
remember, our Marines spend 40 to 60 percent of their career 
deployed or in a field training environment. And the example of 
what you all have bought us in the past and what you're 
actually going to buy for us this year is 23,600 more sets of 
cold weather gear, extreme cold weather gear, 12,900 combat 
tents like we've never had before, 25,700 load-bearing systems, 
8,700 sets of new style body armor that will stop rounds and 
fragmentation, and 3700 advance combat crewman helmets. And 
I've got a whole litany of things that we're purchasing this 
year for our Marines.
    Again, quality of life is measured by a lot of things but, 
basically, our intent is always to try to equip, train, and 
provide our Marines with the quality--with the capability that 
if we have to fight they will win. And not only will they win, 
but they'll survive because, again, coming back home alive is 
the greatest qualify of life of all.
    You all have helped us. We're making progress. I thank you 
on behalf of all my Marines and I ask your continuing support.
    Mr. Packard. Thank you very, very much, Sergeant Major.
    [Prepared statement of Sergeant Major Lewis G. Lee 
follows:]

[Pages 260 - 272--The official Committee record contains additional material here.]


                                 ----------

                                            Tuesday, March 4, 1997.

                      DEPARTMENT OF THE AIR FORCE

                                WITNESS

ERIC W. BENKEN, CHIEF MASTER SERGEANT OF THE AIR FORCE

    Mr. Packard. And lastly, we'd like to hear from Chief 
Master Sergeant of the Air Force, Mr. Eric Benken.

             Statement of Chief Master Sergeant Eric Benken

    CMSAF Benken. Good afternoon, Mr. Chairman and committee 
members, and thank you very much for the opportunity to be here 
today.
    During my last assignment as a senior enlisted advisor in 
Europe, I was able to see first-hand the tremendous work that 
this committee has done in the past to improve the quality of 
life for our service members. Visits to our bases by committee 
members gave them a first-hand view of the need for quality of 
life improvements, improvements that have been neglected in 
Europe for many years due to downsizing and restructuring.
    Because quality of life directly equates to readiness and 
retention of quality people, your work has a direct impact on 
the status of our armed forces and how well we'll respond to 
our nation's call. MILCON's support to improve our dormitories 
for our single airmen, to replace and renovate our aging family 
housing, and to provide increased child care is essential to 
our readiness.
    Because of the reduced size of our military, every member 
must be a highly trained, multiskilled contributor to our 
defense team. Improvements in quality of life remove the 
distractions that can take away from readiness. In Europe, when 
quality of life initiatives began to take hold, our forces were 
able to concentrate on their mission without distraction and we 
saw much improved morale and fighting spirit. This was 
especially true among our single airmen who are often living in 
crowded, central latrine dorms that are rapidly deteriorating.
    Our troops are eternally grateful for all that you do for 
them. We have the best Air Force in the world today and we need 
to keep it that way. And again, I appreciate the opportunity 
for the dialogue today.
    [Prepared statement of Chief Master Sergeant Eric W. Benken 
follows:]

[Pages 274 - 284--The official Committee record contains additional material here.]


                           morale and welfare

    Mr. Packard. Well, thank you very, very much for your 
synopsis of your written testimony and for the paramount things 
that you brought to our attention.
    Let me just ask a general question and then I'll open it up 
for my colleagues to ask anything that they would like. 
Probably nothing affects the morale of our men and women in the 
services more than the quality of life issues that you've 
addressed in your testimony and we're emphasizing on this 
committee. Would you give the committee an evaluation of what 
you consider the morale generally in your branch?
    CSM Alley. Sure. Basically, in the Army our morale is very 
high when it comes to our job ability, our performance, and 
taking care of our soldiers. Our problem comes when we start 
talking about health services, pay, deterioration of housing, 
deterioration of barracks, and the constant threat of 
downsizing.
    The Army's morale is great when it comes to us doing our 
job. We're good at it, we are very proficient, and the soldiers 
love being soldiers.
    Mr. Packard. Your biggest concern then, and the concern of 
your troops, is the uncertainties of their future?
    CSM Alley. Yes, sir, the constant uncertainties.
    Mr. Packard. Gentlemen?
    SGTMAJ Lee. Well, actually, in the Marine Corps, as the 
Sergeant Major said, the, the morale is good. Our men and women 
are ready to go at anytime. In fact, I find when they think 
they're being left out of something they're very disappointed. 
But if there is concern, I think, the medical is at issue with 
them. I think the medical is the biggest issue.
    Mr. Packard. Be more specific on your medical.
    SGTMAJ Lee. On medical it is the families and their access, 
the quality of the care once they arrive at the installation.
    Mr. Packard. The troops themselves are not being 
neglected--
    SGTMAJ Lee. Active duty Marines themselves are comfortable 
and they're satisfied. Whether it'll be around when they retire 
or when they get out or not, or what they're entitled to, is a 
question for them. Primarily, though--then again, I want to 
refer back to the ones who are disenfranchised from a major 
installation, our independent duty Marines and their families--
where CHAMPUS causes a lot of confusion. And wherever you go, 
you'll have a litany of different types of problems. So that is 
a big concern.
    CMSAF Benken. Sir, I would assess our morale as excellent. 
I will tell you that our retention rates are good, primarily 
based on the accent that we have given to quality of life 
improvements, the dormitories, the fact that we are able to 
give our troops single rooms and the ``1 plus 1'' dormitory is 
critical to retention. We need to continue to improve our 
family housing and our access to child care. Roughly, 80 
percent of our troops are married with family members today. 
About 20 percent live in the dormitories.
    So, the accent has been on quality of life and that is the 
reason that we are enjoying this state of morale that we have. 
I will tell you that there are perceptions: The potential 
erosion of benefits, potential attack on the retirement system. 
The Tricare system that we have is going to be good, we 
believe. We're working very hard at that. However, that is a 
perception, especially among the retirees and those over 65, 
that that is a benefit that is--has been lost.
    So, we have some things on the horizon that we need to 
watch and we need to be careful of. But as far as MILCON and 
things like that, the support that this committee has given us, 
I think that has been absolutely critical to the fact that we 
are enjoying this morale.
    MCPON Hagan. Sir, I'll repeat part of what you've already 
heard. The morale, as I define it, is, in the Navy, very good 
across the spectrum. I travel extensively, as you expect, and I 
go to pockets of places where morale is bad. Morale, as I think 
we want to discuss it here, long-term worries--and let me add 
before I leave that that I find morale to be the best where 
sailors are working the hardest and sacrificing the most. 
That's always amazed me. I can't articulate it as well as I 
would like to, but at the end of an extended deployment--in the 
middle of an extended deployment sailors are enjoying some good 
morale, doing what they were trained for, and I find that to be 
very satisfying and gratifying.
    Worries: Maintaining the present OPTEMPO. Maintaining the 
present OPTEMPO comes with costs. We worry about the strong 
rumors of future drawdowns and future--and those rumors are 
occasionally put to rest when Secretary--previous, former 
Secretary of Defense Sperry would put that rumor to rest and it 
would pop back up again.
    Advancement opportunity suffers during drawdown. BRAC 
causes all sorts of uncertainty. So, those rumors plague us and 
those are big picture things that sailors worry about. I would 
just add that the MILCON gains almost everywhere I travel, 
almost everywhere I travel. I can point to something recently 
come up out of the ground, coming up presently or a 
groundbreaking is scheduled, and that goes a very long way 
toward credibility for future promises.

                               retention

    Mr. Packard. Thank you. One of the most influential factors 
for retention that was mentioned, not only in written testimony 
but in your responses, is the quality of life issues. I note 
that in yours, Master Chief Petty Officer, your testimony, that 
you address the matter ofwhether there ought to be a priority 
for the senior enlisted man versus the junior and newly enlisted man. 
How would you determine the balance, the proper balance? Because 
retention really is at the junior level, it is not your senior enlisted 
personnel that you worry about in terms of retention. You don't usually 
lose them at 16, 17 years, we lose them at 3, 4, and 5 years. How do 
you balance between these quality of life emphases that we want to make 
between those two grades?
    CSM Alley. Sir, we really lose our people at two points, 
first termers and the 10-year mark.
    Mr. Packard. Good observation.
    CSM Alley. At the 10-year mark, they have just enough time 
to continue with their career, or they have time to get out and 
start a new career. Last year the Army had a significant 
problem at the 10-year mark, and we had concerns at our initial 
mark. Why? Same thing we just discussed here. We were still in 
the process of downsizing.
    There is a happy medium. I think we have to look at the 
total Army and take care of our soldiers every day. That's the 
only way that we're going to be able to maintain a happy 
medium, and we need to stop all rumors of downsizing, base 
closures and issues like that. Rumors do more damage than 
anything.
    Mr. Packard. Interesting.
    CMSAF Benken. Sir, we're concerned about our second termers 
as well. You know, we--and again, I go back to this perception 
of the erosion of benefits. You know, we have three retirement 
systems now. We have the one that was prior to 1980 which we 
fall under. You have the one between '80 and '86. And then 
those that came in after 1986 who are now getting to about the 
10- or 11-year point in their career are starting to say 
whoops, my retirement isn't as good as that one you had prior 
to 1980. So, they're re-evaluating their options.
    And I will tell you that if you take somebody who works on 
a B-2 aircraft or something like that, who was a highly skilled 
technician who we have invested a lot of money into the 
training, gets an offer from Northrup or somebody like that, it 
looks very attractive to them. So, we are concerned about our 
second termers, especially when you lay on some of the skills 
that have the high OPTEMPO that are going over to the desert 
for the fifth or sixth rotation for a 90-, 120-day stint. That 
starts to wear on them.
    So, that's why the quality of life things and those 
distractions that take place at home, we want to minimize 
those, and those are things we can do something about. We can't 
do anything about the contingencies or the political side of 
what we do, but we can control and we can attack the quality of 
life things. And that's why it's very, very important to us to 
be able to do that. So, we are concerned about second termers.
    Mr. Packard. Any comments?
    MCPON Hagan. Sir, you said how do you balance, and 
``balance'' is a great word and the answer is good leadership. 
It's becoming increasingly difficult for leadership to make 
some decisions. I'm a very strong proponent. I'm over 40 years, 
going on 5 years in this job. I've had a lot of time to think 
through, study, discuss. I believe a strong career force needs 
to have the promises kept to it, and I am a strong proponent of 
limiting, or at least fully evaluating, what we do for the 
first-term force in terms of the large expense for a huge 
number of people and what that same amount of money can do for 
the smaller career force.
    We're taking care of the junior enlisted in places like San 
Diego by giving them assignment housing at the same priority as 
their senior counterparts to some housing areas and not to 
others. It's working fairly well. We have in the Navy perhaps, 
I believe, out of all the forces the only real third- and 
fourth-term retention challenge. I will tell you quite 
honestly, without meaning to be facetious, when a sailor has 
come ashore after a 5-year sea tour, hasn't had a full shore 
tour and is looking at a re-enlistment decision, has perhaps 
lost a wife on the first tour, considers the separation to be 
part of the reason, they think long and hard about the cost of 
going back.
    The high tech ratings have good employment opportunities. 
I'd like to say, and I say it to large numbers of junior 
sailors on flight decks and in hangar bays, when I say that I'm 
not in favor of extending every benefit of the career force to 
the first-term force, and I explain it by saying it's a very 
transitory period that you're in that first-term force. It's 
the entry level. Some degree of deprivation is not only to be 
expected, but perhaps good, some degree of dealing with delayed 
gratification, all the while maintaining that threshold we 
can't go beneath is usually very clear.
    So, balancing and good leadership, I think we're doing 
fairly well in the Navy. We could use some help, as I've 
written in the testimony, but thank you for the question.
    SGTMAJ Lee. Sir, I guess I'll be a little more blunt. We 
are a first-term organization, a very young force, and an 
enlisted man in the Marine Corps, his or her life doesn't 
change if they stay 4 years or 30 years. I am absolutely 
against extending every benefit that a career Marine deserves 
due to their extended period of sacrifice, and they do 
sacrifice, they do suffer hardship, as long as they stay in the 
Marine Corps. I just see no need.
    And in giving them--or taking from them and giving to this 
massive first-term organization that I hire on for 4 or 5 
years, and I'm only going to keep a few of them past that, I am 
not giving them everything that I need to give to my career 
Marines, man and woman, family, whatever the case might be.
    Mr. Packard. Mr. Hefner.

                     navy personnel at crystal city

    Mr. Hefner. I don't have any particular questions, but 
we've heard all this, you know, the same problem exists from 
year to year and from budget to budget. And it is good to see 
that we're making some strides in your particular area.
    I'd just like for my own information, how many people--you 
may not have this but you can get it for me for the record. How 
many Navy personnel do we have stationed in Crystal City?
    MCPON Hagan. I'll have to get you that exact answer for the 
record. It's probably on the order of 300 or 400. Now, I'll 
have to back up. I'm thinking enlisted. Enlisted and officer is 
probably on the order of several thousand. Enlisted, maybe on 
the order of 300 or 400 scattered out in the various offices. 
If it's higher, it'll surprise me, but I'll certainly get you 
that for the record before the end of the day.
    [The information follows:]

    Navy has a total of 4441 personnel working in Arlington 
County. This is broken down as 2758 officers and 1683 enlisted. 
In Crystal City itself Navy has 960 officers and 299 enlisted.

    Mr. Hefner. Don't they have a new development down towards 
Quantico?
    MCPON Hagan. Not a new development towards Quantico. We 
have a Woodbridge Family Housing. We have a new development up 
in Maryland that has been open about a year, and those two 
housing units--and we have a brand-new one, MILCON over at 
Anacostia that I refer to in my testimony as one of the many 
places we're grateful for the MILCON. And those housing totals, 
in total, have gone a long way toward making duty in 
Washington, D.C., a lot more palatable for the enlisted mid-
grade careers that come up here. And we take care of literally 
every junior sailor pretty quickly with that housing or other 
arrangements.

                               downsizing

    Mr. Hefner. Has the downsizing had an impact on some of 
these communities where we just got new housing and what have 
you?
    MCPON Hagan. BRAC has had a positive and a negative impact, 
as you would guess, in Charleston, South Carolina, where we 
BRACed most all the fleet there. We have an excess of family 
housing for the remaining sailors at the Naval Weapons Station, 
and for the airmen, available for the Air Force's use as well 
there. But BRAC in places like Groton, Connecticut, as I go 
into at some length, Groton doesn't even pop by the traditional 
parameters of--and whether a place is housing critical. It 
isn't even on the top 10 list. And yet, it may well be the 
number one priority for the Navy because BRAC has changed the 
way we ought to measure things.
    The BRAC impact at other places has made long housing waits 
where there has been short ones. It has given us a bulge that 
we'll have to work through in our housing issues.

                                 morale

    Mr. Hefner. Somebody mentioned--I believe this gentleman 
from the Marines talked about men seem to be happiest when 
they're the busiest. Who was that that--we had some hearings 
not long ago in the Defense Subcommittee and Gen. Joulwan 
(phon.) was with us day before yesterday, and we had some 
enlisted men that had done duty in Haiti and was now doing duty 
in Bosnia, and it was amazing to hear these young men talk 
about how proud they were of the accomplishments that they have 
achieved. And I don't know what--I guess that would relate to 
morale, but they seemed to be pleased that they were doing 
something they believed to be very, very important. Is that 
what you were talking about when you referred to when they are 
very busy and engaged?
    CSM Alley. The American soldier is very proud of the job he 
does. If he does it overseas, he's even prouder because another 
nation gets to see it. Right now, I don't see any soldiers that 
are not working hard. As I said, I have a daily average of 
35,000 deployed overseas, in addition to the 100,000 already 
there.
    So, yes, sir, I think we keep our soldiers busy and the 
morale is high. Our problem is not morale, sir, our problem is 
the spouse of that soldier who we've deployed to Haiti or to 
Bosnia; he's on his third rotation in one year, and he hasn't 
had an overseas assignment yet.
    Mr. Hefner. I suppose that health care and worrying about 
whether you're going to be downsized and what have you sort of 
reflects the populace of the country, that people are worried 
about their jobs, their health care, this sort of thing. Sort 
of mirrors what most people, especially us older people, are 
thinking about, health care and this sort of thing.
    I think you do a tremendous job and it has been--when I was 
chairman of this committee, for the past several years, our 
focus has been on quality of life, and I remember a few years 
ago going to Texas to Mr. Edwards' district--it was Mr. Leeds' 
(phon.) district at the time. There were some of the people--
some of the spouses who talked to us. They were at an old 
cafeteria trying to remodel it to where they could have a day 
care center, we have really worked kind of hard to try to do 
the things that we think are important for retention and for 
quality of life, and I commend you for your dedication and I am 
proud to have you here today.
    The gentleman from North Carolina, where in North Carolina?
    SGTMAJ Lee. Well, we both are, sir. I grew up in Sampson 
County, down in Goldsboro.
    MCPON Hagan. Ashville, sir.
    Mr. Hefner. Ashville. From one end to the other. Got a big 
hog industry down south----
    SGTMAJ Lee. One of the reasons why I left.
    Mr. Hefner. Thank you, gentlemen.
    Mr. Packard. Thank you. Mr. Tiahrt.

                              medical care

    Mr. Tiahrt. I guess when we talked about quality of life, 
housing seemed to be what most of you mentioned as a big 
definer of quality of life, and I think we're trying to make 
progress there. But you also mentioned keeping promises several 
times or failing to keep promises. I'd like to understand that 
a little better. What's the most commonly perceived promise 
that's not being kept, Mr. Lee?
    SGTMAJ Lee. Sir, as I said, the biggest thing I have 
trouble with, sir, is the medical side. And primarily, that 
comes from the families and the family members. And again, 
especially that comes from the ones who are, like I say, not 
close to a military installation.
    And the ones who are nearing retirement, even like myself, 
I think I'll be okay. I still trust the system to be there. But 
I've got a lot of people who are talking to me about they don't 
really believe that the availability of medical care is going 
to be there when they need it, and they feel like it's been 
promised to them and I think, from a layman's understanding, it 
has been promised to us. So that's the big issue I deal with, 
sir, that I really can't explain away. I can explain away 
almost everything else.
    I would like to say that I don't think that is causing me a 
problem retention-wise, and certainly it's not causing me a 
problem recruiting-wise. I'm exceeding my recruiting standards. 
In all honesty, I have more people that want to stay in the 
Marine Corps, at every level, at least on the enlisted side, 
than I have room for. So, we're doing good in a lot of areas.
    Mr. Tiahrt. Mr. Hagan, would you concur?
    MCPON Hagan. I would partially, sir. I will tell you that I 
am able to stand in front of every audience and defend and 
define that we haven't got any broken promises. The retirement 
system has been dealt with honestly. The attempt last year to 
do something that didn't grandfather the present population was 
the first that I know of that got high profile, that would have 
been dishonest. All the other things, the changes in the 
retirement system require explanation and those are perceptions 
that have to be dealt with.
    When I talk about keeping promises, I talk mostly about 
worries about the future internal to the Navy. Well, let me 
address the medical care very briefly.
    MCPON Hagan. I'm happy with the progress here. And, if we 
continue to be as responsive as we have been in the initial 
deployment of track here to getting the troubles out of it, 
understanding the issues, but that's a perception we deal with 
regularly, the free medical care was promised. We, again, deal 
with a perception and a reality. So, number one, inside the 
Navy lifelines that I would make you aware of is a tempo for 
sailers on sea duty means that they deploy pre-major 
deployments in a five year sea tour and the promise that they 
will roll ashore at a particular time, or the promise that the 
inner deployment cycle that the year, the one year, or 
hopefully longer, but we hope no less than one year between 
major deployments, will be a time that you can have some 
quality of family time. That's a promise that's getting 
increasingly difficult to keep. The promise of upward mobility 
for all ratings, given the retention challenges is a promise 
that's increasingly difficult to keep. But, I will tell you to 
leave the positive angle that I really believe is there, we're 
making and keeping promises and it's interaction like this 
that's, I believe, allowing us to do that.
    Mr. Tiahrt. Mr. Alley.
    CSM Alley. The third biggest thing is medical care, as 
always. As you know, Tricare is not one system. It's seven or 
eight different systems. It depends on what side of the street 
you're living on this week; Your Tricare and my Tricare are not 
the same. Soldiers don't understand it. One of the biggest 
things soldiers don't like and which has nothing to do with 
this committee, the fact that somebody published a report that 
Congress is looking at raising the retirement age to 55 now. 
So, when you retire at 20 years, you're going to get another 
job until you reach 55 to get your retirement check. It's 
rumors of this nature that soldiers don't like.
    CMSAF Benken. Sir, I would say to you that we are a family, 
not only of active duty but of retirees, as you know, those who 
served in wars before us. When I came on active duty in 1970, 
my net pay was $3 a day and I was told, at that time, that, 
``Okay, hold up with the pay because you're going to have 
medical care the rest of your life. Your family members won't 
have to worry about that. You'll have a retirement'', and those 
kinds of things. So, you go through your career. You don't buy 
a house because you're on the move so you don't build up 
equity. And, that's okay. You put up with those kinds of things 
because you're proud to serve your nation and you want to do 
that. So, the retiree community feels that they have been left 
out, especially when it comes to the medical care. Those that 
are 65 are sent a letter, basically saying, you are no longer a 
member of the military medical community and oh, by the way, go 
sign up for Medicare. I had a retired gentleman come to my 
office today that's 71 years old who informed me that he pays, 
has a deduction from his social security for Medicare, that he 
has a copay of about $25 on the 100, that he has to have 
supplemental insurance policy at $90 a month to pay for that, 
and things like that. And, he served in World War II and his 
comment to me was, ``You wouldn't be going to this hearing 
today if I hadn't fought in that war'', you know. We could have 
been under a different regime. So, those are the kinds of 
things. We fight perceptions. I will tell you that 
legislatively, last year for instance, and I've gone back five 
years on this, Congress has been very good to us and you have 
made great gains for us and we're very appreciative of that. 
But, we have to--we have a very small force and a very talented 
force that we need to maintain and we need to keep this force. 
And, we cannot lose the momentum of quality of life gains. And, 
I think that's the point that I would stress to you very, that 
is very important today, is that we do not want to lose that 
momentum because we are on a, on a glide path, a glide path 
that may take us into what I think may be a hollow force 
syndrome that we experienced in the late seventies. We do have 
highly skilled people that can and do have options if they want 
to exercise those options. Those are my perceptions and that's, 
that's kind of what I pick up in the field and we spend about 
20 days a month on the road talking to troops.
    Mr. Tiahrt. We appreciate your interest. Thank you, Mr. 
Chairman.
    Mr. Packard. Thank you, Mr. Tiahrt. Mr. Edwards.

                               retention

    Mr. Edwards. Thank you, Mr. Chairman. First, let me thank 
all the--services. As I hear from military leaders from other 
countries come to the United States and visit our 
installations, they come away more impressed with our non-
commissioned officer corps than anything else. You have risen 
to the top of the non-commissioned rank so, congratulations. 
Thank you for what you do. One problem I have is trying to 
determine how we objectively evaluate morale and general 
attitude in the military. Your subjective answers are probably 
as good as any answer we can get from someone. But, I have to 
wonder, if I had been in this room in the 1970's when we now 
recognize we had a hollow force and when morale was not good, 
what would have been the objective standards that would have 
told members of Congress that we have serious problems? Does 
each of your services keep records or retention rates? I assume 
that's as good of an----
    CMSAF Benken. Yes, sure we can.
    Mr. Edwards. Indication of what morale really is, 
objectively speaking. Do you have that or could you provide 
that over the last several years to the committee?
    Well, what has been happening with those retention rates 
overall? Have they been steady, going up, going down? Could you 
generally give me an answer?
    [The information follows:]

    The Air Force does maintain enlisted retention rates for 
first-term (those on their firs contract), second-term (those 
who have completed their first-term and reenlisted for a second 
term), and career (those that have completed their second-term, 
but less than 20 years of service). The retention rates have 
been relatively steady, with a slight decline this past fiscal 
year as indicated in below data. Historical goals: 1st Term = 
55%; 2nd Term = 75%; Career < 20 = 95%)

                                                  [In percent]                                                  
----------------------------------------------------------------------------------------------------------------
                Category/fiscal year                   1990    1991    1992    1993    1994    1995    1996   1997
------------------------------------------------------------------------------------------------------------ ------
1st term............................................      52      59      58      61      59      63      59    
2nd term............................................      69      77      76      82      81      77      76    
Career < 20.........................................      93      95      96      97      96      96      95    
----------------------------------------------------------------------------------------------------------------

    CSM Alley. The Army has retained the soldiers that they 
needed the last five years. Now, this year, unlike prior years 
we must expand our recruiting. Remember, we were downsizing for 
five years also.
    Mr. Edwards. Right.
    CSM Alley. This year we're going to recruit one for one and 
we're having some problems right now.
    Mr. Edwards. Well, let me ask you about that. I am told 
something that greatly concerns me, if it's true. In the latest 
numbers, the percentage of high school graduates recruited in 
the Army dropped from the high 90 percentiles down to 88 
percentile. Is that approximately correct and if so, do you 
have any----
    CSM Alley. Yes, sir.
    Mr. Edwards [continuing]. Any thoughts as to why that is 
happening?
    CSM Alley. Prior to the downsizing, our percentage rate was 
88 to 90 percent. During the downsizing years, we raised it up 
because we didn't need as many soldiers.
    Mr. Edwards. Right.
    CSM Alley. So, we did not recruit one for one. Now, we are 
recruiting one for one, and we had to go back to our original 
objective of five years ago, which is to put the percentage 
rates back at 88 to 90 so we can maintain a one for one ratio. 
In saying that, all the soldiers do have a high school 
equivalency or a high school diploma. Everyone, and only 2 
percent will be Category IV, and they have to be high school 
graduates with a diploma.
    Mr. Edwards. So, when I hear the number 88 percent, the 
others have GED's or----
    CSM Alley. Yes, sir.
    Mr. Edwards [continuing]. Equivalency degrees?
    CSM Alley. Yes, sir.
    Mr. Edwards. Okay.
    CSM Alley. But, they must score in the top percentage on 
the Armed Forces test.
    Mr. Edwards. Right.
    CSM Alley. They cannot score below Category I-IIIA. They 
have to score in the top.
    Mr. Edwards. Okay. Any others? Comments?
    SGTMAJ Lee. Sir, I think, again, we're a little bit 
different. You have to understand our organizational structure. 
We recruit about 40,000 people every year. We don't recruit one 
for one. In fact, of the 40,000 people I'll recruit this year, 
if they all stay in the Marine Corps four years from now, 82 
percent of them are going to go back out into society. We're 
only going to keep about 18 percent of our first term force. We 
need to keep what we have coming into us to sustain our 
recruiting effort but, we're not having any trouble recruiting 
and, we are recruiting in excess of what we even set, ourself, 
standards for. We feel some luck, 107 percent of our total goal 
for the last 20 months, I believe, and while our high school 
diploma is 95 percent, we're getting 97 percent. So, we're 
doing great there. On the other side, sir, we retain a very 
small career force and I'll be honest with you, they serve out 
of patriotism and dedication to duty and that's why I said a 
while ago, I want them taken care of. I want all Marines taken 
care of; I want them to care.
    MCPON Hagan. One last question. I'd like to ask very 
briefly if during draw down, the retention figures that we'll 
give you during draw down, are skewed by the fact that we're--
we have planned and premeditated attrition, even during that 
time, though, we needed, could not have done without SDAP and 
SRB money to shake the force and retain certain skills and I 
would add, outsourcing and the changing shape of the force has 
impacted or is beginning to impact and it is widely perceived 
to be impacting it greatly. The seashore rotation, more of our 
ratings are spending 60 months at sea now than, than at any 
time in recent history and that's a, a bad trend. So, we have 
some future retention worries for the mid term as well as the 
first term force.
    CMSAF Benken. Sir, if I could add, we've--we met our 
recruiting goal but we, we're considering this as having the 
caution lights on. In our Armed Forces Qualification tests, 
before, about 88 percent scored in the upper half. It's down to 
about 83 percent now and in the first quarter of ninety-seven, 
it was down to 79 percent.
    Mr. Edwards. Was it?
    CMSAF Benken. So, our recruits are a little bit less 
qualified than they have been in the past. So, the caution 
lights are on.
    Mr. Edwards. Right. Thank you. I think my time is up, so 
let me just ask for the record, if I could, Mr. Chairman, if 
each of you could answer again, for the record, not orally, 
whether there is a process whereby you interview enlisted 
personnel that voluntarily leave each respective service and 
are those records available to us, both on an individual basis 
and a collective basis? It seems to me that would be a good way 
for members of Congress to evaluate what the problems are and 
why people are leaving voluntarily. Thank you, Mr. Chairman.
    [The information follows:]

    The Air Force does not conduct exit interviews for 
personnel who leave the Service. However, we do have survey 
data from 1993 indicating why enlisted members separate. 
Primary among the reasons they gave for deciding to separate 
were pay and allowances, amount of additional duties, and 
recognition of one's efforts.

    Mr. Packard. Mr. Wamp.
    Mr. Wamp. Thank you, Mr. Chairman. I want to join the 
chorus of grateful members of this subcommittee and, in fact, 
Congress, to thank each of you for yourselves and all the men 
and women that you represent in the respective services. It's 
almost like a choir here today because your request or, in 
fact, our desires, and this is a very bipartisan effort here, 
where we're talking in certain generalities because in terms of 
specifics, we'll be, I think, fighting as a subcommittee for 
just about every dollar of your request and in some cases much 
more. But, in a specific objective approach, with limited 
resources in FY 98, specifically the MILCON budget, and I 
understand health care and how it relates directly to quality 
of life probably is much more than any other area, but, with 
regard to the MILCON request and FY 98 budget, in a time of 
limited resources, give me one particular example in your 
respective service, where you think we can get the most bang 
for the buck, on any new program, any new dollars spent, any 
request that's in this budget, where you think we could make 
the most difference with that dollar?
    MCPON Hagan. I'll be happy to start by telling you, the sea 
service unique needs of the Navy, which include the single 
sailor serving afloat, in the long term, I'm not sure the 
impact would be immediate, but in the long term, I'm positive 
it would be dramatic. We have sailors that make life changing 
decisions, including marriage and leaving the Navy when they, 
in fact, love what they do because life on board ship is 
arduous and they're not sure when that will change. By adding 
MILCON, focused on and targeted at, they can--life in home 
port, when pierside and are more pleasant and more convenient, 
we would have a big long term gain. The short term gain would 
be to continue the momentum that we have in family housing and 
to evaluate very carefully any departure from the traditional 
delivery method for family housing before we buy into fully.
    Mr. Packard. May I just have you yield for a moment? What 
percentage of the Navy personnel are on sea duty at one time?
    MCPON Hagan. Sir, the number that--of 172,000, it's a 
difficult question to answer simply but I'll try. 172 to 
175,000 sailors currently serving on sea duty out of a force of 
320,000 enlisted right now.
    Mr. Packard. Over 50 percent?
    MCPON Hagan. Yes, sir. Well over 50 percent and some who 
were serving--that doesn't count anybody that's serving an 
isolated duty like Diego Garcia. So, it's over 50 percent and 
for some sailors, that increasingly high number I talked about 
earlier, it is five-sevenths of their career expectations. Five 
out of every seven years will be at sea.
    Mr. Packard. Then approximately, if you continue to yield, 
approximately what percentage of the budget is devoted to pier 
side versus all other parts of your Navy career?
    MCPON Hagan. The swag, I will give you, is nothing more 
than a swag but it is, it would be a single digit, sir.
    Mr. Packard. Be very small?
    MCPON Hagan. It might be a very low single digit.
    Mr. Packard. And, that's why you're emphasizing that part 
of your testimony so much?
    MCPON Hagan. It is, sir.
    Mr. Packard. Thank you.
    SGTMAJ Lee. Sir, I'd like--say that we, we in the Marine 
Corps tend to take what we have and where it ain't and--onto 
where it's not absolutely programmed, we got to do this week, 
we have a tendency to stretch it out as far as we can. And in a 
lot of places we are refurbishing and fixing things instead of 
using the assets provided to build from the ground up because, 
i.e. I can refurbish two, two and a half houses that will look 
like new houses for the price of one new construction. We do 
that periodically, where we are allowed to do it. I think 
that's the best use we can make of the----
    CSM Alley. Sir, Army housing is basically 37 years old. 
Will we ever go into any refurbishing? Our barracks are 30 to 
40 years old. The barracks we have today were built for a 
conscript Army. I think we need to continue the current pace 
for upgrading our barracks and homes and if anything at all, 
acquire additional homes. So, 75 percent of the Army lives off 
post.
    CMSAF Benken. Sir, we need to continue to improve our 
unaccompanied housing and also our family housing. We've got 
41,000 people that are on a, on a waiting list. Again, our 
average house is about 34 years old. We've got about 58,000 
that require improvement or replacement and at current funding 
levels it would take us about 26 years to eliminate the 
backlog. So, that's priority. The other thing is child 
development centers would be the third thing I would say is we 
need to improve on that.
    Mr. Packard. Thank you. Mr. Parker.

                               Retirement

    Mr. Parker. Well, I'm going to broach a subject that is a 
little bit different. I hear a lot of talk and I don't want to 
start any rumors but you're already hearing them anyway. I'm on 
another committee. I was on another committee a couple of years 
ago and one of the members got up and started talking about the 
contract between a person going in the military and the 
government and talked about it being legal versus what--well, 
he said it's not a legal contract. And, it's not a legal 
contract. It's a--I consider it a moral contract. And, what he 
wanted to do was just say, ``Well, what we need to do is just 
change the system where everybody currently in the system can't 
retire until they're 55.'' I said, you cannot do that to 
people. You can't put them in that situation and then turn 
around and say, we're going to change your whole life. We're 
going to change how you view your retirement, what your plans 
are. We're going to just totally destroy it. Now, my question 
is this. This idea is not going to go away and, like I say, I'm 
not trying to start rumors but because of the budgetary 
restraints, we're going to continue to come back to this. We've 
already seen changes in retirement over a period of years. You 
look at 1980, you look at 1986, there are going to be other 
changes in the future. Now, we don't get people of your level 
together coming into this committee or any other committee very 
often and what I would like is for you to tell me what you 
think, and I'm not telling you, and I know that you won't agree 
with the concept. I mean, I'm taking that for face value. If a 
decision were made, let's say like on retirement, holding off 
on retirement until at 55 like Federal employees or whatever. 
If that would occur--first of all, I believe that it would have 
to be for those coming into the military now. I mean, it could 
not be for anybody in the military at this point, but for those 
prospective individuals that are coming in. How would that be 
perceived and from the standpoint of your, of the military 
personnel but also how would that affect your recruiting and 
retention?
    SGTMAJ Lee. Okay. First of all, let me make sure you 
understand. I hope we don't have--okay. But, in allhonesty, the 
way we are, the way we do business and why we exist, it would not have 
an impact on our recruiting because I don't think very few enlisted 
Marines go in the Marine Corps with any intention of making a career 
out of it. We challenge them, we discipline them and those that, those 
that do well enough, that we got room for, we keep. I do believe that 
would have a tremendous impact on the career force, though. But, right 
now, I only maintain a small career force and we do everything we can 
to take care of that career force. So, I don't think it would have an 
impact on the Marine Corps on recruits cause I just don't think the 18 
year old man and woman who join today, in the Marine Corps, are worried 
about anything except getting through the first four years. But, once 
we're into three or four, I believe we have a tremendous problem 
getting those people to stay 20, 30 years.
    MCPON Hagan. For the, understanding the size of the line 
item that we're talking about in the budget and the number of 
efforts that are made to keep it, to slow its growth, not to 
make it smaller, I do understand the question and it would, of 
course, have to be grandfathered because nothing else--anything 
else would be a broken promise that would cause havoc and it's 
impact on the career force, quite honestly, I don't think is 
predictable because the factors that go into it--if you had a 
very--if your career was not arduous, if, in fact, you were in 
a sure intensive rating, you weren't transferred around the 
world and you could serve until age 55, a lot of people are not 
like the four of us sitting here at the table and, and we want 
to serve till 55 or 60 if you can change the law as regards us. 
But, they're going to make us go sooner. An awful lot of people 
are, are making their decisions about family separation, what 
the trade off is for this. The figure I gave you of five years 
of sea duty involving as much as 60 percent or three full 
years, either separated from your family because you're 
constrained to the ship for duty when it's in port or for 
section duty, or absolutely out of home port, deployed or in 
another place, you wouldn't trade that for a delayed pension 
benefit and retention, I think, would be extraordinarily 
difficult to predict.
    CSM Alley. I agree. You would have to look at the career 
force. Could the career force stay in to age 55? That would 
have a significant impact. On top of that, now, a soldier 
coming in today who retires at 20 years gets less than 40 
percent of his retirement pay. If I was going to make the 
military a career, under what you're saying, I'd come in, spend 
my three or four years, and then I'd go in the Guard and 
Reserves. At age 60, I would get more than what you're going to 
give me to serve my country full time. So, I don't think you 
would have too many career soldiers.
    CMSAF Benken. Sir, my initial reaction is that's a stake in 
the heart to, to the careers. It really is. You would have to 
completely overhaul, I think, the entire military compensation 
package and benefit package and take a complete relook at it 
and then sell that to the newcomers. You'd have to grandfather 
to begin with and I will tell you that a lot of people serve 
out of their heart. And, they serve for all the right reasons 
and it's patriotism and it's wanting to do good things for 
their country. And, you know, our people that serve today are 
role models for America. Everywhere they go. When they go 
outside the gate, they get 100 percent credibility. Anybody 
that looks at American servicemen or women, today, thinks of 
them with very, very high regard. All of us served in a time 
when we had people that used to come to the base in civilian 
clothes and go home in civilian clothes. I don't ever want to 
return to that day. I don't ever want to return to the day of 
the hollow force. I want to keep these young men and women that 
I look in the eye today and when they come out of basic 
training, 88 percent of them say, ``I joined to serve my 
country.'' And, we need to take care of them and, and 
retirement is part of that. And unless, unless there is--
overhaul the entire package and take a relook at it and, and 
compensate them for what they do, I would, I would--my 
recommendation would be we not fool with the retirement again. 
We've already done it twice.
    Mr. Packard. Thank you.
    CMSAF Benken. Yes, sir.

                                Housing

    Mr. Packard. Thank you, Mr. Parker. Mr. Wicker.
    Mr. Wicker. Thank you, Mr. Chairman. First of all, Sergeant 
Major I'm delighted to know that you're from Sampson County. I 
spent four years in Wayne county, Seymore Johnson. And, you 
know, there's another side to those pigs. North Carolina 
barbecue's pretty good. That's one of the things I really miss. 
When I was on active duty, it was 1976 to 1980, and it seemed 
like, to me, although I don't know any statistics about this, 
that a lot of them, the mid to upper graded enlisted people 
chose to live off base and use their basic allowance for 
quarters to buy a house or to rent a place. It seems to me as 
I've gone on into the Reserve and been various places, that 
we're now requiring more and more people to live on base 
because the services have gotten smaller. And, so I note, Chief 
Alley, that you said there's a 40,000 personal waiting list. Is 
that for married personnel or is that for just the enlisted 
ranks in the Air Force? And, would you comment about whether 
there's some people that would really rather live off base and 
use their BAQ, but are not allowed that option anymore.
    CMSAF Benken. We have 41,000 on the waiting list, sir, and 
I'm not sure what the break down between officer and enlisted 
is. I would think that that's total. Yes, sir. I will tell you, 
in a lot of communities, today, and a lot of this has to do 
with perhaps our society and how communities go, depending on 
where you're at. Right outside of Robins Air Force Base, for 
instance, in Georgia, you can hear gunfire and things like 
that. So, we have a lot of people who want to live on base for 
those reasons. And, sometimes the housing that they can afford 
downtown is in areas of town that are dangerous or they feel 
are potentially dangerous to their families. So, I think 
that's, that's part of the overwhelming desire to live on base. 
We also have a gap in the amount of money members are expected 
to pay out of pocket for housing. In other words, you know, by 
mandate, 85 percent is covered by the housing allowances, BAQ 
and VHA and the 15 percent comes out of, out of our pocket. 
That gap has grown to about 21 percent.
    Mr. Wicker. Say that again.
    CMSAF Benken. We have housing allowances. Okay. Our housing 
allowance, BAQ, VHA is a supplement depending on the cost of 
living and the area. Okay? 15 percent of our pay, or 15 percent 
of our housing cost comes out of our pay. That's mandated, 
either by Congress or DOD requirement or whatever. So, it's 
often times cheaper--that gap grows, or has grown to about 20 
percent and we have worked to close itthrough BAQ and VHA 
reform we're looking at to try to close that gap. But, that is another 
reason why people would live on base because you just give up your BAQ 
and your VHA so you don't have that extra, beyond the 15 percent that 
you would pay out of your pocket, if that, if that makes sense.
    Mr. Parker. When you say you hear gunfire, are you talking 
about they're in a neighborhood, it's a tough neighborhood to 
hear gunfire?
    CMSAF Benken. Right. Right. So, the option would be to live 
on base, they would prefer to live on base. And, there are--and 
I will be honest with you, too. There are cultural things--you 
know, when you're in the military and as you know this, sir, 
having served, that there is a certain military culture. There 
are things that your children have access to on base. There is 
a security that's on base when you're deployed for those kinds 
of reasons. That's why family housing is very important to us. 
All of those things combined.
    Mr. Wicker. Do all four of you agree that most married, 
enlisted people would prefer to live on base rather than to 
live off base and get the BAQ?
    CSM Alley. Yes, sir, because of exactly what the Chief 
said. Security. It's a different atmosphere. I would tell you 
that the average soldier, if he's living in an area that he can 
afford on what we give him, probably has to carry a gun to work 
and a gun back home because he's in a rotten neighborhood.
    MCPON Hagan. I would----
    CSM Alley. Living on post, you have that secure feeling, 
and you save money because you're not taking money out of your 
pocket like Chief said, because it may be 21 percent in one 
area. If you're in Atlanta, it's about 35 percent; it continues 
to grow, and we don't ever increase it for the average soldier.
    MCPON Hagan. I would, would not unequivocally say yes 
because the data wouldn't reflect that. But, first of all, I 
tell you, there's no location in the navy where we're requiring 
any married sailors to live in housing. That's an option we've 
chosen not to do. We've closed housing down in Charleston 
rather than say require someone to move into housing, that--
that used to be a practice, to fully utilize those resources. 
To answer the question before us now, there are people 
depending on their circumstances would certainly want to use 
the BAQ, VHA which is, in some areas very adequate. It is 
mandated by law as Chief Master Sgt Benken said, the target if 
for it to cover 85 percent. The formula is very complex or if 
we're to cover 85 percent of your housing needs on a sliding 
scale. And, a lot of people would happily put 25 or 30 percent 
with that to invest in a home at some point. So, they would not 
like to live on base. But, if you have rephrased the question 
to say, does 100 percent of an 81 an option to live in family 
housing? Absolutely, sir.
    Mr. Packard. Why did the Navy discontinue the practice of 
requiring utilization of existing housing?
    MCPON Hagan. Well, we haven't discontinued it anywhere that 
is not BRAC impacted, first of all. There is a waiting list 
everywhere that has not got a BRAC migration away from that 
location. We haven't discontinued it for single sailors in the 
BEQ because that would be a waste of scarce funds. They're 
required to live in BEQ so long as it's adequate. We just 
haven't done it in locations where we could have because the 
savings would not balance out the negative impact on a sailor's 
life. It would be the wrong thing to do ethically, actually. 
And, we try to keep our housing needs. We, for instance, house 
a lot less sailors. Our housing infrastructure, relative to the 
Air Force, for example, can house a smaller percentage, a 
significantly smaller percentage of our married families. And 
so, we don't really have that problem. We have a waiting list. 
Generally, everywhere. The only examples are BRAC impacted by 
migration away from that community.
    SGTMAJ Lee. Sir, we too have a waiting list almost 
everywhere. You asked me if most of my families would prefer to 
live on base. I would say, I'd say yes, yes.

                     quality of life funding levels

    Mr. Packard. Thank you, Mr. Wicker. If any of you need to 
leave, I just want to make an announcement now that our next 
hearing will be tomorrow morning at 9:30 and our witness will 
be Mr. Mike Walker, the Assistant Secretary of the Army for 
Installations, Logistics, and Environment, for your 
information. Let me ask one or two questions and then others 
may have a second go around if they'd like. It was mentioned, 
that in past experience of this committee, in terms of trying 
to catch up on quality of life issues and the momentum is there 
now and please not to lose the momentum and yet as we review 
this year's budget, the President has requested and I think the 
recommendation of the Joint Chiefs a lowering of the level of 
quality of life appropriations in every case, in every branch. 
Why do you think that we are seeking less funding in these 
quality of life areas than last years appropriation level?
    MCPON Hagan. I'd be happy to lead off. Our leaders debate 
with tooth and tail and none of us want to live in the best 
family housing on the face of earth and not have the weapons 
systems and the resources to go to war and win. All of us in 
positions of leadership, whether it be midgrade enlisted 
leadership or our senior four stars understand that. I'm still 
dismayed by seeking lists, if seeking lists translates to 
losing the momentum in some key areas because it would be 
pennywise and pound foolish in the long run but we do all 
understand, I believe, the tough decisions that are being faced 
in terms of research and development, in terms of--we can't 
fight this Navy 20 years from now by putting free ships into 
commission for a year. We can't maintain 340 or 330 ships. We 
all understand that, even a sailor at the deckplate level and, 
again, tough decisions required of everyone but that's my first 
response.
    CMSAF Benken. Tough decisions are the balance of 
modernization and things like that, you know. I know our own 
Chief of Staff puts it very well when he talks about Korea and 
how we had a 37 to 1 kill ratio and because we didn't modernize 
our air superiority aircraft, we entered the Vietnam war and I 
think our kill ratio was like 2.5 to 1 against a fifth rate Air 
Force. And then the only reason it was that good is because we 
have superior pilots. But, that's the kind of issue that's 
really tough. We have to modernize. We have to have the weapons 
systems to save lives. We have to have that. So, it's a balance 
and it's a tough one and all of us recognize that.
    CSM Alley. Yes, sir. There's no doubt that without 
modernization, we're not going to make it in the Army of the 
21st Century, but we also understand that if you don't have 
quality soldiers, you don't need modernization.
    SGTMAJ Lee. I'm not exactly sure. I'm not that confident in 
my answer but I think we're requesting about along the lines of 
what we've been requesting. I know last year and the year 
before we got a significant plus-up of quality life--and some 
of that went to--milcon and family housing plus a quality of 
life wages. Some of that went to--milcon and family housing, 
sir.
    Mr. Packard. I think you heard though, my comments probably 
have leaked back to you that we're going to try to change that 
and deal with more realistic budgeting.
    SGTMAJ Lee. But as I say, I believe we actually requested 
along the lines of what we have requested in the past, sir. In 
the case of the Marine Corps, it's not a tremendous amount of 
money, but it's about what we need, and it's not a trade off 
this year or fiscal year 98 for procurement because we're down 
in those areas already.

                     one plus one barracks standard

    Mr. Packard. One other question and then we'll open it up 
for others who may wish to. On the one plus one barracks 
standard that's been determined for most of the branches of the 
services. I'm not sure the Marine Corps has bought off on that 
but if I read your testimony right, you've actually got a 
waiver for that and we certainly heard a different message at 
Camp Pendleton last week that they don't necessarily feel that 
it would be healthy for the Marines. They really feel that it 
may create a softer life than what you'd like your Marines to 
have. Be that as it may, I'd like your response on whether it's 
a realistic goal, if in fact it might be putting too much money 
into one little segment of quality of life at the expense of 
other areas, or delay the upgrading and the refurbishing and 
the new construction process that's going on in each of your 
branches of the service, or is it a realistic goal and is it 
going to be a goal that we can hold to?
    CMSAF Benken. Sir, it is realistic and it only affects 
about 20 percent of our troops. 80 percent of them will live in 
existing infrastructure that was built to the existing two plus 
two standard. All we're going to do there is provide the person 
their own room. You know, we have, we put two people in 180 
square feet, and, sir, I would have a hard time living with my 
wife, she's here today, in 180 square feet. And we put two 
human beings in that situation and that's, and that is just not 
good. The one plus one is very important to us and, again, it's 
20 percent of the force and we're only going to build. Our new 
construction will be to that standard for the most part. So, 
we're going to use the existing infrastructure that we have, 
that impacts 80 percent of our force and see what goes out 
until their service life has ended.
    CSM Alley. And we're doing the same thing. We're not 
creating new barracks. The problem that I have is that we have 
barracks in which I can sit in my room and watch the guy's TV 
next door. We have actual cracks in the walls. These are the 
types of living conditions that we have to get soldiers out of. 
That's what I'm worried about. I consider that quality of life.
    MCPON Hagan. Sir, it's a very realistic goal and in the 
Navy, right down to the Secretary level, I think it will please 
you to know that waivers, we grant a lot of waivers to the one 
plus one standard because to put people out on BAQ and VHA, 
single sailors, would be an unwise use of scarce resources 
when, in fact, we fall modestly short of the one plus one 
square foot and other standards. A permanent waiver in that 
case is an appropriate thing to do for the life of that 
structure. A temporary waiver in other cases because the sailor 
is on sea duty deploying out of those barracks like at Lamore 
where we have 11 squadrons, 10 of which deploy heavily. But I 
would point out the one plus one standard doesn't give much 
play on these ships here where you get 18 square feet per 
person. The top left photo there is looking at 12 racks and 
that is on the George Washington in that particular shot, where 
12 sailors live. There may or may not be a lounge that they 
have access to and they do live on that ship for their full sea 
tour unless they're married or they are an E-5 and E-5's were 
only granted the BAQ, VHA authorization in July. So, one plus 
one is a realistic goal and one of our challenges, I suppose 
for all of us, certainly for me, is to paint the difference, to 
paint a picture to find the difference between a goal and how 
long it will take us to get there and how long it'll be before 
these sailors, when they're in port, move off of these ships 
into barracks, realistic goal, but I think our needs are the 
greatest of all the services and that's what I hope to portray 
in my testimony.
    SGTMAJ Lee. And, those are realistic goals for us to go to 
one plus one and in the case of our largest population of 
enlisted Marines, our lance corporals and below. We don't want 
them living by themselves in a room to be honest with you. We 
want them to have the support of one another, cohesion, team 
work, look after each other. We are trying very hard to put our 
corporals and sergeants, our E-4's and E-5's in separate rooms. 
But, no, it's not a realistic goal. We've got a permanent 
waiver. We don't feel the one plus one meets our needs.
    Mr. Packard. Well, the Marine Corps, was that different 
policy than the other branches? Are they worried about an 
erosion of the level of funding that would go toward our 
overall housing? You'll still get your level of funding and 
then you can use it with a different goal in mind? Mr. Edwards, 
to you have other questions?

                                housing

    Mr. Edwards. Well, just one last question. There are a lot 
of issues will deal with in a subcommittee that interrelate to 
other subcommittees and committees in this House, but basic--
Sgt Maj Alley and Sgt Maj Lee, maybe you could address this. It 
does affect families' ability to afford housing, so it would 
affect this committee. I am hearing Army soldiers saying there 
is a real problem. They're asked to be deployed on average 138 
days out of the year, and the Marines even more days than that. 
If a soldier is married, the moment he leaves for the National 
Training Center, $200 is taken out of his paycheck, out of 
basic rations pay. Is that, from each of your perspectives, a 
real morale problem? It is not a huge dollar figure in the 
perspective of the Defense budget, but would that measurably 
impact morale if found a way to deal with that? It has to 
affect their ability to afford housing when they are off post, 
because----
    CSM Alley. I was just at Ft. Hood, Texas, two weeks ago. It 
has, for the young soldier, a significant impact. I don't know 
if you realize, but when we deploy these units, the wording of 
the order determines if he loses his BAS or not, not what he 
does or where he goes. Deployment to contingencies versus 
exercises is really the determining factor. On contingencies or 
operational missions, they keep their BA; on exercises, they 
lose it.
    Mr. Edwards. Right.
    CSM Alley. We tell soldiers, ``But you've got to remember 
the basic rations allowed is not for you and you should not 
count on it.'' You can't tell a family that. They count that 
200 and some dollars as part of their entire income, and the 
spouse counts that in writing out the bills. So, it has a 
significant impact on the American soldier.
    SGTMAJ Lee. It's not compensation. It's food and money for 
the individual and if we're going to continue to take it away 
from them when we deploy, we're going to issue the majority of 
them mealcards. Regardless of which way we go, I don't really 
see the Marine Corps getting around it because that can be a 
lot of money.
    Mr. Edwards. And in the Army, I think there are many 
enlisted personnel having problems. For example, they are 
stretching their dollars to pay for their apartment each month 
and all of a sudden $200 is taken out of their paychecks--then 
that 20 year old wife whose husband has just been deployed, 
suddenly can't afford the apartment. I recognize that it may 
cost a certain amount of money, but do you at least hear these 
complaints? In the Army, there is feedback that there is a 
problem. Is it a problem in the Marine Corps?
    SGTMAJ Lee. It's problem with the individual, yes. They 
don't like to have the money taken from them, but the bottom 
line is they got to be fed. They can't have free food and the 
$200.
    Mr. Edwards. When you go from feeding four people to three 
people to two, when a husband or wife are deployed, you don't 
necessarily save $200 in grocery bills. In theory you might 
argue that but buying food for three is not really that much 
cheaper than buying food for four in the real world.
    SGTMAJ Lee. Let me say, that is a problem and I'm not sure 
the way we're pursuing this as a solution is the right way to 
go.
    MCPON Hagan. Let me put it into a little better context for 
you, sir. When you report to sea duty as we establish what 
percentage the Navy serves at sea, you lose that BAS for your 
entire sea tour. If you get in return three meals a day on the 
ship, the inequity here is that in order to fully utilize that 
benefit you'd have to come back to the ship for every meal. 
That's unrealistic and it's unfair so that one is broke. There 
is another aspect to it that's broke and it isn't cheap, in the 
zero sum game we live in where plus up has been eliminated from 
our vocabulary cause that message has come through loud and 
clear on some issues I've worked, sir, recently. It isn't a 
small amount of money and is a larger issue for the Navy than 
for any other service because of the number of sailors that 
live afloat. Seabees of the four to seven months out of 12, 
right now our Navy Seabees, the eight construction battalions 
have the highest--tempo in the Armed Forces. When they're in 
battalion they're seven months out of 12. When they leave, they 
lose that $220 and get $3.50 a day in return, drawing no career 
sea pay because they don't live on ships, it's a problem for 
their morale. It's both a perception and a reality and so we 
deal with it and I think we can do better. I think there are 
some interim and some long term solutions for that dilemma.
    Mr. Packard. Thank you. Mr. Tiahrt. Any questions? Mr. 
Parker.

                                 gangs

    Mr. Parker. I've got one question and you brought up the 
thing about the communities in which some of the bases are 
located and some of the problems. Do we have a gang problem out 
there. You see it on television or occasionally something comes 
up and you, all of you are travelling around a great deal, 
you're talking to a lot of people you're seeing. Do we have one 
in the military?
    CMSAF Benken. As far as military----
    Mr. Parker. Yes.
    CMSAF Benken. I'd say the Air Force does not. We've done 
studies on that. We are a reflection of our society so I 
suppose in the family member context that there could be, that 
could exist.
    CSM Alley. I have seen nothing that shows that we have 
them, especially on our own posts. We do have gangs in the 
public schools, but as far as that migrating to posts or the 
soldier's kids from posts being in them, I have not seen that 
in my travels.
    MCPON Hagan. As you're asking that question, sir, active 
duty sailors, no, sir, we do not.
    SGTMAJ Lee. I concur. No, sir.
    Mr. Packard. Mr. Wicker.
    Mr. Wicker. No.
    Mr. Packard. We have other questions that we won't take the 
time at this hearing but we would like to submit them and if 
you would respond to them, we'd appreciate that. And, with 
that, ladies and gentlemen, I want to particularly thank this 
panel. It's certainly refreshing to hear from those who really 
constantly are rubbing shoulders with the troops out there that 
they recruit and career levels. I appreciate you being here, 
Sergeant Major Alley, Master Chief Petty Officer Hagan, 
Sergeant Major Lee and Chief Master Sergeant Benken. And, with 
that, if there's no further questions, this hearing is 
adjourned.
    [Clerk's note.--Questions for the Record submitted by 
Chairman Packard:]

                         Marsh Task Force--Army

    Question. Now that the Marsh Task Force on Quality of Life 
has been released for a year, what specific steps have been 
taken to address the issues highlighted by the Task Force? In 
your opinion, is progress being made by the Department of 
Defense?
    Answer. The Army is pursuing initiatives across the entire 
range of issues cited in the Marsh Task Force to improve the 
quality of life of our soldiers and their families.
    Housing--Army Family Housing (AFH): The Army vision is to 
provide quality on and off-post housing and services for 
families. The Army wants to maximize the use of the fiscal year 
1996 Military Housing Privatization Initiative authorities 
commonly known in the Army as capital Venture Initiatives 
(CVIs). The CVI program leverages government dollars to obtain 
private-sector interest, operations, and investments to fix 
family housing.
    Army Barracks: The Army recognizes the importance of 
quality barracks and has made them its number one facilities 
priority. The Army's Barracks Modernization Program provides 
for both new construction and renovation of existing barracks 
into single-soldier communities that meet the 1+1 design 
standard agreed upon by all Services--a net private living area 
of 118 square feet per soldier. The program is on track to 
provide quality barracks at the 1+1 standard for every soldier 
by 2012, eight years sooner than we reported last year, which 
demonstrates the Army's commitment to improving the quality of 
life for single soldiers. The cost to buy out the Barracks 
Modernization Program is estimated at $6 billion.
    Personnel Tempo: Army's personnel tempo (PERSTEMPO)--the 
percent of time a soldier spends away from home and family for 
training and deployment--remains at an all time high. During 
fiscal year 1996, soldiers who deployed on temporary duty, 
operational deployments, and training exercises (non-local) 
were away from their home stations for an average of 197 days. 
In addition, the average combat arms soldier who was not 
deployed on a contingency operation spent approximately 140 to 
170 days in combat training away from home overnight (local and 
Combat Training Center) to maintain readiness. The Army 
lessened the impact of PERSTEMPO by: rotating units through 
contingency operations to lessen the overall burden; selective 
use of reserve component forces to augment operational mission 
tasking; global sourcing for operational deployments; use of 
contract civilians; and stabilization of deployed soldiers. The 
Army continues to spread deployment requirements across the 
force, but with the recognition that some units and soldier 
specialties, by virtue of their mission and skills, will be 
required to deploy more frequently than others.
    Community and Family Services: In the area of community and 
family support and housing the Army continues to seek more 
efficient and effective ways to deliver services while 
minimizing the need for infrastructure. Our results include: 
Meeting the DOD goal to satisfy 65 percent of demand for child 
care while building only replacement centers; focusing on 
outreach in family support programs; testing more effective 
ways to deliver the fitness and recreation programs; and 
evaluating more effective delivery of the MWR program under the 
unified resource concept.
    In summary, progress has and is being made by the Army to 
address issues highlighted by the Task Force. We have focused 
our initiatives on providing the highest level of services to 
our soldiers and families while continuing to pursue operating 
efficiencies.

                         Marsh Task Force--Navy

    Question. Now that the Marsh Task Force on Quality of Life 
has been released for a year, what specific steps have been 
taken to address the issues highlighted by the Task Force? In 
your opinion, is progress being made by the Department of 
Defense?
    Answer. In my opinion there has been substantial progress 
in every Quality of Life area highlighted by the Marsh panel 
with the possible exception of OPTEMPO/PERSTEMPO where the 
challenge is very tough. Navy OPTEMPO/PERSTEMPO has been held 
within specified guidelines, but most initiatives being studied 
have long range potential.
    Family housing and BQ facilities throughout the Navy are 
improved and several private/public ventures are the direct 
result of Dr. Perry's progressive thinking and Marsh panel 
recommendations. However, BQ and family housing revitalization 
requires resources in order to ever make significant gains.
    Maintaining revitalization is critical to Quality of Life. 
While these gains are very satisfying and greatly appreciated, 
aging infrastructure and new established BQ standards make it 
clear that the present rate will never achieve the stated goals 
and plus-ups will be required.
    I would be happy to respond to your specific issues/
concerns with more detailed answers, but to answer the question 
thoroughly would require volumes.

                     Marsh Task Force--Marine Corps

    Question. Now that the Marsh Task Force on Quality of Life 
has been released for a year, what specific steps have been 
taken to address the issues highlighted by the Task Force? In 
your opinion, is progress being made by the Department of 
Defense?
    Answer. Due in part to the Marsh Panel findings and 
recommendations, we have made great strides in improving the 
quality of life for our Marines and their families. This 
commitment is reflected in our new QOL Master Plan published in 
August of last year. The plan outlines a coordinated and 
comprehensive approach to achieving our vision of providing 
appropriate level of quality of life services to all Marines, 
and their families, regardless of where assigned. As such, it 
acts as a reference tool for determining priorities and 
applying resources in the most effective way. The FY98 budget 
includes $539 million to support quality of life initiatives.
    Adequate compensation remains our highest priority, while 
improvements to bachelor housing continue to be our highest 
housing priority. Marine Corps QOL program additions include 
$71 million for repair and maintenance of barracks and $42 
million in replacement construction in FY98. In FY97, QOL 
additions allowed us to apply $88 million to barracks repair 
and over $59 million to construct approximately 1,180 new BEQ 
manspaces, and 840 open squadbay spaces at the School of 
Infantry, Camp Pendleton, California. All BEQ construction 
programmed through FY05 will provide the 2x0 room 
configuration, which will help us eliminate inadequate BEQ 
spaces in 10 years. BEQ furnishings are also being upgraded 
through our ``Whole Room'' furnishings program, and the 
furniture replacement cycle is being reduced from 13.6 years to 
the DON standard of seven years beginning in FY02. We are also 
making great progress regarding our backlog of maintenance and 
repairs (BMAR) for BEQs. Our goal is to eliminate the BMAR for 
our entire barracks inventory by FY05.
    In FY98 Family Housing improvements include: replacement of 
133 units at Twentynine Palms; construction of 171 units at 
Camp Pendleton; construction of 166 units at Miramar; and 
revitalization of 40 units at Camp Lejeune.
    Other QOL programs include recreation, leisure, family and 
children services, information, religious and counseling 
programs. These programs are the commanders' tool to help build 
a strong Marine Corps community. Improvements include increased 
hours of operation, better trained staff, more and upgraded 
equipment and renovated or new infrastructure such as our new 
fitness centers at Camp Pendleton and Camp Lejeune.
    We continue to address the growing child care demand 
through new and expanded initiatives. These include expanding 
Family Child Care (FCC) to incorporate off-base residences, 
enhancing our Resource and Referral Program, pursuing 
outsourcing options, and focusing on the child care needs of 
Marines on recruiting and independent duty.
    The QOL initiatives outlined above have improved the 
standard of living for our Marines and their families. The 
Marine Corps has made a significant commitment to improving QOL 
by a balanced application of resources, organization and 
command influence. We believe we have programmed to reach an 
acceptable level in these QOL domains which were addressed by 
the Marsh Panel.

                      Marsh Task Force--Air Force

    Question. Now that the Marsh Task Force on Quality of Life 
has been released for a year, what specific steps have been 
taken to address the issues highlighted by the Task Force? In 
your opinion, is progress being made by the Department of 
Defense?
    Answer. The Air Force continues to build upon its 
successful Quality of Life programs where were positively cited 
throughout the Task Force's Oct 95 report, and thus have 
directly contributed to the Department of Defense's overall 
progress with key issues. In response to the report's 
recommendation for a defined standard for bachelor housing, the 
Air Force significantly influenced OSD's adoption of the new 
``one-plus-one'' private sleeping quarters configuration for 
dormitories. Such a dorm is under construction at Scott AFB and 
our new assignment policy will phase in private rooms for all 
permanent-party members living in existing dormitories by 
FY2002. Also, Air Force will buy out all remaining central 
latrine dormitories for permanent-party members by FY 1999. In 
answer to the Task Force's recommendations to update community 
standards and to include more private sector involvement in 
family housing, the Air Force has formulated a whole-house/
whole neighborhood concept supported by comprehensive Housing 
Community Plan. With the help of Congress, we are investing a 
combined FY96/97 total of $610M in the military family housing 
construction program. A new 420-unit family housing 
privatization project at Lackland AFB is evidence of our 
commitment to private sector involvement to accelerate the pace 
of revitalization.
    We've also satisfied the Task Force's recommendation to 
establish a universal definition of personnel tempo (PERSTEMPO) 
by spearheading the adoption of the measurement for PERSTEMPO 
within OSD--``one day away is one day away''--whether off 
station for operational or unit training purposes. The Air 
Force goal is to hold this PERSTEMPO count to no more than 120 
days per year for each person. Our progress has been 
substantial, moving from 13 weapon systems exceeding this 120 
day threshold in FY94 to only 4 in FY96. A significant part of 
this success is contributed to contingency tasking management 
and following the advice of the Task Force to leverage the 
Reserve Component. In FY97, we are committing $136.9M in man-
days to make optimal use of Air Reserve Component volunteers to 
reduce taskings on active duty units.
    In the area of community support, we answered the Task 
Force's call to sustain appropriated support of child care by 
increasing the ratio of appropriated to non-appropriated 
providers from 1:5 to 1:3. This addition of 325 appropriated 
providers will help us keep user fees stable and satisfy more 
of the high demand for toddler and infant care. In our recent 
actions to respond to our single members' desires for better 
fitness center accessibility by adding authorizations to extend 
operating hours, we satisfied the Task Force's recommendation 
for such program expansion. We are also attempting to restore 
funding to a youth intervention counselor program initially 
funded by Congress in FY95 to address the Task Force's 
suggestion to promote youth programs to resolve emerging gang 
problems. Adhering to other Task Force findings, our Family 
Support Centers continue to provide exceptional personal 
financial management services to their communities.
    Finally, in response to the Task Force's recommendation to 
standardize tuition assistance reimbursement rates, the Air 
Force's tuition assistance program is under review by OSD to 
become the standard for all the services. We continue to fully 
fund a program which covers 75% of tuition costs up to a 
maximum of $250.00 per credit hour--a $57.4M investment in 
FY97.
    In summary, the Department of Defense is making excellent 
progress in addressing the issues highlighted by the Task Force 
and the Air Force continues to provide essential leadership to 
those efforts.

                 Impact of Terrorism on Personnel--Army

    Question. Has the threat of terrorism impacted those 
personnel stationed in the Middle East? Are we doing everything 
possible to protect our service men and women from terrorist 
attacks?
    Answer. The threat of terrorism has had an impact on the 
quality of life of personnel stationed in the Middle East. It 
has led to restricted movement to and around the civilian 
community, as well as placing increased training requirements 
on already demanding jobs. Also, we have reduced the number of 
accompanied billets within the Central Command Area of 
Responsibility and have required selected families to return to 
the United States.
    Before the Khobar Towers bombing, there were 600 to 700 
dependents in Saudi Arabia at any given time. Service members 
had the option to serve 12-month unaccompanied or 24-month 
accompanied assignments. As a result of the Khobar Towers 
bombing, the Secretary of Defense approved departure of all 
Department of Defense family members from Saudi Arabia tot he 
Continental United States in safe-haven status and directed 
that Central Command reduce the number of Department of Defense 
family members in the Central Command Area of Responsibility. 
The Assistant Secretary of Defense (Force Management Policy) 
approved 59 military and civilian key billets for Saudi Arabia 
and 28 for Kuwait. Key billets are identified as those 
positions authorized as accompanied assignments. All other 
billets were converted to unaccompanied (dependent-restricted) 
status. Of the 59 key billets in Saudi Arabia, 22 were U.S. 
Army. Of the 28 key billets in Kuwait, 17 were U.S. Army. 
Soldiers in key billets are required to serve 24 months whether 
or not they elect to be accompanied. In addition, school age 
children (K-12) are not authorized to be moved to Saudi Arabia. 
We have made these changes because they provide the best 
possible protection of our forces and their families consistent 
with completing our mission.
    We are taking every reasonable precaution to protect our 
service men and women from terrorist attack. We have relocated 
and consolidated personnel to specific facilities deemed more 
suitable for hardening from terrorist attack. hardening 
measures taken include: new perimeter fencing, increased stand-
off improved lighting, berm construction, employment of blast 
walls, surveillance equipment, new access controls, changes in 
traffic patterns, and relocation of living quarters to the 
interior of the compounds. Troop deployments for force 
protection include two infantry companies with command and 
control, one 21-member Explosive Ordnance Detachment element, 
one military police platoon and 176 individual augmentees of 
varied skills. We have implemented increased threat awareness 
training through both pre-deployment training as well as in-
theater training.

                            Terrorism--Navy

    Question. Has the threat of terrorism impacted those 
personnel stationed in the Middle East? Are we doing everything 
possible to protect our service men and women from terrorist 
attacks?
    Answer. The threat of terrorism has impacted the personnel 
stationed in the Middle East in the sense that their awareness 
of the threat has been heightened through increased 
Antiterrorism training. Antiterrorism training consists of the 
knowledge and use of defensive measures used to reduce the 
vulnerability of individuals and property to terrorism acts. 
Service personnel in the Middle East have received 
Antiterrorism training from Naval Criminal Investigative 
Service (NCIS) agents and have been provided the best possible 
information available.
    We are doing everything possible to protect our service 
personnel from terrorism attacks in that we are constantly 
evaluating the capability of our units in the Middle East and 
vulnerability to terrorist attack. These evaluations provide 
direct, real-time input to force commanders in the region 
regarding their weaknesses, as well as recommend corrective 
measures. In the NAVCENT AOR, negotiations with host nations 
are on-going and $2.5M identified to lease land contiguous to 
the Administrative Support Unit (ASU) Bahrain complex. Upon 
execution of a lease and with Congressional approval, 
construction of berthing facilities will be accomplished 
enabling ASU to vacate a vulnerable high rise downtown. In 
addition, Marine Corps Fleet Antiterrorism Security Teams 
(FAST) have been assigned to augment Navy Security Forces in 
protecting personnel living in the local populace and ASU 
complex, and, explosive detection dog teams have been detailed 
to Bahrain.

                        Terrorism--Marine Corps

    Question. Has the threat of terrorism impacted those 
personnel stationed in the Middle East? Are we doing everything 
possible to protect our service men and women from terrorist 
attacks?
    Answer. Following the Khobar Towers bombing and in response 
to the Downing Commission, SECDEF revised policy in DODD 
2000.12 of 15 Sep 96 to expand the role of the CJCS and 
Combatant Commanders for the protection of forces. Accordingly, 
responsibility for force protection of personnel stationed in 
the Middle East rests with the Commander-In-Chief, U.S. Central 
Command (CINCUSCENTCOM) and with the Department of State's 
Chief of Mission. CINCUSCENTCOM has conducted numerous 
assessments of the security posture within his area of 
responsibility, specifically within the Middle East region and 
has taken certain actions to reduce the potential for U.S. 
service personnel to be targeted for terrorist attack. Measures 
include the establishment of an interim Marine Corps Security 
Force Company at Bahrain; the removal of DOD family members 
from the operating area; expansion of terrorism awareness 
training to include threat briefings for deploying personnel; 
and the establishment of a force protection coordination cell 
under JTF-SWA. Additionally, CINCUSCENTCOM has submitted for 
additional funding from CJCS to undertake security enhancements 
and is currently evaluating addition of personnel with certain 
skills to enhance force protection planning. From a Marine 
Corps perspective, we have reinforced our foundation programs 
for combatting terrorism and instituted a training program 
Corps-wide designed to increase the individual awareness of all 
deploying personnel prior to arrival in any region outside the 
United States to include the Middle East. While we can never 
guarantee that our service men and women will not be targeted 
by terrorists in the future, we are taking measures to increase 
individual awareness and harden our facilities which will 
reduce the terrorists opportunity and minimize the risk 
inherent to the forward deployment of U.S. service personnel.

                     Impact of Terrorism--Air Force

    Question. Has the threat of terrorism impacted those 
personnel stationed in the Middle East? Are we doing everything 
possible to protect our service men and women from terrorist 
attacks?
    Answer. Yes. The threat of terrorism has impacted our 
people in terms of living standards and freedom of movement in 
the area in addition to the risk itself. To better counter the 
terrorist threat the U.S. Air Force moved it's operations from 
Kohbar Towers to Prince Sultan Air Base (PSAB). PSAB is in a 
remote location removed from any population centers. PSAB did 
not have enough permanent facilities to accommodate all of the 
personnel moved to that location. People are being housed in 
tents and modular trailers at this time. Negotiations are on 
going with the Host Government to build permanent facilities. 
Many projects have been accomplished to provide for the comfort 
of the people assigned. Although people are housed in tents, 
each tent has a cable television provided. Four hot meals per 
day are available in the messing facility. The Army Air Force 
Exchange Service has established a Base Exchange, Burger King, 
Pizza Hut, Baskin Robbins, Laundry/Dry cleaning, Barber Shop 
and various concessions. The Fitness Center provides outdoor 
basketball courts, soccer, baseball fields, running track, and 
a weight training room. The Recreation Center shows movies, 
provides telephone access, card room, video check out and a 
library. A Chapel and Air Transportable Hospital are also on 
site. Additional Security forces have been assigned to PSAB. 
Key leadership positions have been extended to one year tours, 
insuring continuity. The Security Forces have been provided 
advanced detection and surveillance equipment. Training 
programs have been established to reinforce the Force 
Protection mindset. Additional funding has been allocated to 
meet security needs. The Air Force is making every effort to 
protect their people and resources from a possible terrorist 
attack.

                      Overseas Installations--Army

    Question. What unique problems do the single service member 
and those with families face overseas?
    Answer. Soldiers and family members overseas are in a 
unique situation in that they are separated from their support 
structure and culture. They rely on their installations to 
provide almost everything for them, such as shelter, food, 
schools, stores, places to worship, and recreational and 
entertainment facilities. Due to housing shortages, some 
families are forced to live on the economy and may face 
language barriers, transportation difficulties, and social 
isolation. While installations, both in the continental United 
States and overseas, provide the training, maintenance, 
administrative and support facilities that we require to 
perform our mission, overseas installations are far more 
critical to the quality of life of our soldiers and their 
family members.
    Question. Do you feel the services are adequately 
addressing overseas housing and facility needs?
    Answer. The Army is adequately addressing overseas housing 
and facility needs within budgetary constraints.

                      Overseas Installations--Navy

    Question. What unique problems do the single service member 
and those with families face overseas?
    Answer. Families stationed overseas often face cultural 
barriers as well as financial problems when arriving at their 
new duty station. They experience people who speak a different 
language and have many different cultural norms. In addition 
some Sailors experience financial troubles overseas when they 
arrive in a country with a much higher cost of living. 
Fortunately, COLA in almost every location I visit is adequate 
and meets this need. However, there is an inherent inequity in 
single shipboard Sailor COLA as opposed to their married 
counterparts. This inequity is centered around the theory that 
the single Sailor aboard forward deployed ships eat all their 
meals on the ship, while married Sailors buy a portion of their 
food on the local economy. This is, of course, flawed reasoning 
and in fact compounds the basic inequity associated with BAS 
(all shipboard Sailors inflexibly forfeit BAS in exchange for 
rations in kind (RIK) and there is no option for partial BAS 
payment recognizing that some meals in homeport are taken 
ashore in a liberty status. The Navy's overseas screening 
program attempts to minimize these difficulties before a member 
transfers overseas. Family Service Centers located overseas 
also alleviate some of these problems once the member has 
transferred with inter-cultural relations training and 
financial management education and counseling.
    Question. Do you feel the services are adequately 
addressing overseas housing and facility needs?
    Answer. The Naples Improvement Initiative will relocate NSA 
Naples, COMFAIRMED and over 50 tenant commands from leased 
facilities in the Agnano Crater to a Navy MILCON Facility at 
Capodichino Airport and to the Naples Support Site in leased-
constructed facilities. The Capodichino area will include a 
fitness center complex, barracks, gymnasium, and galley. The 
Naples Support Site will include leased housing (up to 1,000 
family housing units), a child development center, schools, a 
hospital, and other community support facilities. The first 500 
homes will be completed by the end of fiscal year 1998. The 
first 36 homes will be available for occupancy in later April 
1997. A total of 232 homes will be completed in 1997 and an 
additional 268 will be delivered in 1998. This initiative will 
greatly improve the quality of life and safety of our Sailors 
and their family members in Naples.
    The Navy's most serious overseas family housing problem is 
the inadequate support of suitable housing. Much of the housing 
is unsafe, in poor condition, or too expensive for Navy 
families. One way we are addressing this issue in Atsugi and 
Yokosuka, Japan, is by the construction of new homes for Navy 
families by the Government of Japan under the Japanese 
Facilities Improvement Program. In fiscal year 1997, 534 new 
homes will be completed with an additional 458 homes planned 
for fiscal year 1998. To address the issue in Europe, we are 
obtaining additional family housing leases in Italy at Naples, 
Sigonella, LaMaddalena and Gaeta; and Rota, Spain.
    During FY 1997 a block-lease project for 65 homes at 
Palmeri in Sigonella, Italy, is under construction. Twenty-four 
of the homes will be complete and ready for occupancy this 
year. The remaining 41 homes will be completed by March 1998. 
Navy is also proceeding with lease-construct projects at 
Sigonella, La Maddalena and Gaeta and reviewing requirements 
for additional housing in Rota. Funding for these projects is 
included in the FY 1998 request and the outyears.
    There are unique problems that both Navy single service 
members and those with families face overseas. They must adapt 
to local cultural customs and the language of the host country. 
Direct member rentals on the economy are not without problems. 
Language barriers with landlords, absence of closets, voltage 
differences, lack of insect screens on windows, water 
shortages, theft, lack of air conditioning, inadequate heating, 
costly utilities, and lack of potable water are just a few of 
the challenges that our military members and their spouses and 
children have to deal with overseas. To improve the living 
conditions of families living on the economy the Navy expanded 
its overseas furnishings program. Families are provided cooking 
stoves, refrigerators, kitchen cabinets, wardrobes, light 
fixtures, washers and dryers, and transformers.

                  Overseas Installations--Marine Corps

    Question. What unique problems do the single service member 
and those with families face overseas?
    Answer. Unique problems associated with overseas assignment 
include spouse employment, family separation, limited medical 
facilities for special needs families, limited housing, child 
care, community and recreational facilities, cultural and 
language barriers, geographic separation from family and 
friends, more than usual time away from home for Marine due to 
deployments or field exercises. Single members are less likely 
to be prepared financially. Predestination information as 
provided by Family Service Centers and sponsors are essential 
for planning and problem prevention actions. Longer lead time 
for notification of a PCS, especially for first term enlisted 
and single members is desired to help avoid pitfalls of 
arriving in an overseas location and not being able to 
effectively manage the barriers of language, transportation, 
money exchange, and cultural differences of food, customs and 
etiquette of the host country. Service members with families 
are usually on waiting lists for base housing. Children's quick 
adjustment to school is important to avoid grade level 
complications and learning difficulties. Some members on 
unaccompanied overseas tour move their families on their own 
and then cannot cope with the unplanned costs of living on the 
foreign economies. Spouses accompanying service members are at 
a disadvantage concerning employment due to SOFA agreements. 
This is especially true for professional positions requiring 
licenses that creates a break in work experience making it more 
difficult to obtain employment upon return to CONUS.
    Question. Do you feel the services are adequately 
addressing overseas housing and facility needs?
    Answer. The majority of our Marines overseas are stationed 
in Japan where housing and facilities are being adequately 
addressed by the Japanese Government through construction of 
quality homes, barracks and other facilities to address our 
deficits. They have also demolished some of the oldest units. 
The existing family housing on Okinawa should be sufficient to 
satisfy negotiated requirements of USMC Accompanied Tours and 
additional units programmed at Iwakuni should satisfy the 
family housing requirement there. Also, as a result of our 
Bachelor and Family Housing Campaign Plans, adequate attention 
is now being paid to the repair and furnishing of our overseas 
housing.

                   Overseas Installations--Air Force

    Question. What unique problems do the single service member 
and those with families face overseas?
    Answer. The issues for our overseas members were considered 
when we developed the Air Force priorities for pursuing an 
adequate quality of life for our members, families, and 
civilian employees: compensation and benefits, safe and 
affordable housing, quality health care, a balanced OP/
PERSTEMPO, community and family support, retirement benefits, 
and educational opportunities. Housing for families and single 
members, health care, commissaries and exchanges, libraries and 
fitness centers are critical to our overseas troops. They offer 
members and their families needed services and familiar 
activities; products and brand names that serve as touchstones 
to home. Single service members must adapt to a different 
culture with limited resources. They are heavily reliant upon 
whatever is offered or provided by the installation. Families 
also face isolation when they are forced to live great 
distances from the installation because of limited military 
family housing. They are also impacted by the limited 
availability of employment opportunities for spouses, and where 
child care availability is limited on an overseas activity, 
families have limited options. Having said this, the Air Force 
has been and remains committed to ensuring our services and 
programs support our overseas service members and their 
families. We support programs like the Overseas Family Member 
Dental Program (OFMDP) which provides dental care to family 
members in Europe and is expanding to the Pacific. We are 
turning our attention to overseas housing, recreation, and 
health care programs. We are eliminating permanent party 
central latrine dormitories and moving to new ``1 + 1'' 
standard for our single members, and pursuing several Military 
Family Housing replacement projects throughout Europe and the 
Pacific. To promote health and fitness, we are establishing 
Health and Wellness Centers at all major overseas 
installations. In addition to these initiatives, we recently 
gained POV storage and round-trip port travel reimbursements 
associated with overseas assignments in the 97 National Defense 
Authorization Act.
    Question. Do you feel the Services are adequately 
addressing overseas housing and facility needs?
    Answer. Yes, we feel the Air Force is adequately addressing 
our most pressing overseas family housing, dormitory, and other 
quality of life facility needs given the current budget 
constraints.
    Our overseas installations have undergone several years of 
limited or deficient funding levels for quality of life, family 
and unaccompanied housing. Now that the force drawdown has 
become more stable, we are beginning to reinvest in our 
facilities and housing for our forward-deployed members and 
their families. We ask for continued Congressional support of 
our overseas requirements.

              Stabilization Force (IFOR) Deployment--Army

    Question. How is the morale of our soldiers deployed in 
support of the IFOR mission? And, what about the families left 
behind? Are they receiving the proper support?
    Answer. The morale of our soldiers is generally very high, 
as these soldiers feel they are involved with a mission that is 
benefiting the citizens of the Stabilization Force (SFOR) area. 
The morale of the soldiers continues to stay high as long as 
they feel their families are being properly cared for at home 
during their deployment, and they receive equitable credit for 
the length of the deployment upon their return.
    Family support is crucial in U.S. Army Europe (USAREUR) due 
primarily to the status of forces agreements which limit a 
spouse's ability to function (sign documents, access 
facilities, banking, etc.) without the service member. USAREUR 
established a comprehensive program of family assistance and 
related programs. The Family Support System (FSS) includes 
Family Support Groups (FSGs); the expansion of the Army 
Community Service into a more comprehensive Family Assistance 
Center (FAC); and a requirement that commanders appoint and 
train Rear Detachment Commanders (RDCs) and develop a family 
support plan.
    USAREUR activated 21 FACs to assist families of soldiers 
deployed to Bosnia. The FAC is a central point for providing 
assistance, guidance, and information or referral to family 
members during a deployment or other contingency operation. 
Families of deployed soldiers are encouraged to participate in 
the unit FSG. FSGs are established to provide activities and 
support that will enhance the flow of information, morale, and 
esprit de corps within the unit. An FSG also provides a network 
of communication among the family members, chain of command, 
and community resources. To ensure FSGs are available for 
families of deployed soldiers throughout Europe, USAREUR 
requires all deploying units to implement and sustain FSGs. 
With certain restrictions, family members and FSGs are allowed 
morale telephone calls and e-mail and fax access to deployed 
soldiers. In addition, an FSS e-mail address for FSG leaders, 
FACs, and RDCs is on-line, allowing quick dissemination of 
information to everyone.
    Rear detachment personnel are critical in the family 
support system available to support families of deployed 
soldiers. Lessons learned from Desert Shield/Desert Storm 
indicated that rear detachment personnel must have appropriate 
training on the resources available to assist them in 
supporting families of deployed soldiers. The Commander-in-
Chief, USAREUR, is strongly committed and personally involved 
with rear detachment training. USAREUR has conducted four rear 
detachment training sessions in support of the Bosnia 
deployment.
    The Family Support System established by USAREUR is working 
well. Approximately 95 percent of the families remained in 
Europe while soldiers deployed to Bosnia.

                         IFOR Deployment--Navy

    Question. How is the morale of our soldiers deployed in 
support of the IFOR mission? And, what about the families left 
behind? Are they receiving the proper support?
    Answer. Sailors deployed in support of the IFOR mission 
are, in large part, deployed as part of their regular 
deployment cycle. That is what we as Sailors do, deploy to meet 
this mission. Their families left behind for the duration of 
the deployment are cared for through the many support systems 
already in place to provide assistance every time Sailors 
deploy.

                     IFOR Deployment--Marine Corps

    Question. How is the morale of our soldiers deployed in 
support of the IFOR mission? And, what about the families left 
behind? Are they receiving the proper support?
    Answer. As is generally the case when Marines are in an 
operational environment, morale is high. Deployment to support 
operation IFOR was treated the same as any other deployment. 
One of the core programs and focus in our Family Service 
Centers is ``Deployment Support,'' which provides both members 
and families with pre-deployment briefs as well as return and 
reunion briefs.

                       IFOR Deployment--Air Force

    Question. How is the morale of our soldiers deployed in 
support of the IFOR mission? And, what about the families left 
behind? Are they receiving the proper support?
    Answer. Theater CINCs are reporting high morale, 
efficiency, and effectiveness among airmen deployed to their 
area of responsibility. Specifically, the Air Force recently 
sent 6,000 ``how's it going'' surveys to airmen deployed to 
Southwest Asia and throughout the Balkans. To date, 15% of the 
surveys have been returned with a projected completion date of 
31 March 1997. Thanks to Air Force Family Support Centers, 
family members of deployed personnel get outstanding support 
during all phases of the deployment process--deployment 
preparation, support during separation, and guidance for 
anticipated reunions. Spouse support groups suhc as ``Hearts 
Apart'', Youth/ Teen classes, morale calls to deployed members 
and assistance during deployment process (identification of 
special needs) illustrate our support to families of deployed 
personnel.

                     Physical Fitness Centers--Army

    Question. I understand there are too few quality fitness 
centers on DOD installations. What is the importance of these 
centers and what benefits can be found by providing new, 
improved center?
    Answer. Physical fitness centers are the cornerstone in 
providing soldiers opportunities to enhance their readiness. A 
soldier's level of physical fitness has a direct impact on 
combat readiness. Programs and opportunities offered through 
fitness centers improve productivity, enhance unit cohesion, 
promote esprit de corps, and meet mission, recreational, 
social, and competitive needs.
    Modern, improved physical fitness centers that offer a 
variety of programs and state-of-the-art equipment aid 
commanders in providing fitness programs focused on the 
specific wartime mission functions of their units. The U.S. 
Army emphasizes total fitness to help meet its war and 
peacetime operations by providing adequately and professionally 
staffed modern fitness centers with state-of-the-art equipment.

                     Physical Fitness Centers--Navy

    Question. I understand there are too few quality fitness 
centers on DOD installations. What is the importance of these 
centers and what benefits can be found by providing new, 
improved centers?
    Answer. The Department of the Navy has always emphasized 
the need to maintain certain levels of fitness to ensure that 
personnel would be in condition to perform required duties and 
be physically prepared for the hardships of deployment. 
Maintaining a physically-fit fighting force is mission 
essential and integral to readiness. Navy fitness standards 
require each Sailor to exercise a minimum of three times a 
week, in addition to weight and bodyfat maintenance. Thus, 
fitness is a condition of employment for Navy men and women.
    Recent quality of life surveys indicate accessibility to 
fitness centers and programs is a top concern for Navy 
personnel. Over 45 percent of Navy fitness centers were 
constructed prior to 1960. Providing a safe, modern environment 
in which to meet established fitness standards is of paramount 
importance. Providing funding to boost this particular quality 
of life issue can directly impact retention of our service 
members. Of equal importance is the positive effect of fitness 
on maintaining good health and reducing the risk of death from 
coronary heart disease, the leading cause of death in the 
United States.
    An additional important factor is the need to outfit every 
ship with a minimum quantity of high quality fitness equipment 
which can endure the rigors of shipboard use. Maintaining a 
minimum aerobic fitness level in a deployed sea duty 
environment is difficult at best.

                 Physical Fitness Centers--Marine Corps

    Question. I understand there are too few quality fitness 
centers on DOD installations. What is the importance of these 
centers and what benefits can be found by providing new, 
improved centers?
    Answer. Fitness centers provide the following benefits and 
are important to the Marine Corps for the following reasons:
    They contribute to overall mission readiness by providing 
facilities that improve the physical fitness of Marines (and 
families).
    They are a focal point for supporting health and wellness 
programs.
    They are instrumental in support of the Quality of Life 
programs mandated by DoD--fitness centers are the number 1 
priority of MWR patrons in all recent QOL surveys.
    Fitness centers provide the capability to conduct the 
following programs: strength and endurance training programs; 
aerobics programs; rehabilitation and injury prevention 
programs; and individual fitness assessments and health risk 
appraisals.
    Currently Marine Corps fitness centers are: very old (only 
four built in the last ten years); housed in buildings designed 
as something else (old mess halls, bowling alleys, and 
warehouses) and are lacking in adequate space; lack properly 
qualified and certified staff personnel; and have modern 
equipment but not always the sufficient numbers, or proper mix, 
to support the usage demand.

                  Physical Fitness Centers--Air Force

    Question. I understand there are too few quality fitness 
centers on DOD installations. What is the importance of these 
centers and what benefits can be found by providing new, 
improved centers?
    Answer. Fitness in the Air Force is not discretionary. All 
Air Force active duty members must meet fitness standards in 
support of the mission. To meet this requirement, we must make 
sure every airman has the opportunity to take part in a regular 
daily exercise routine. Fitness centers provide an environment 
essential to that.
    One-third of the members surveyed said fitness and sports 
programs are the most important base-level service on their 
installations. According to our surveys, AF members visit our 
fitness facilities over 7 million times per month. They also 
tell us that if we extended hours of operation, improved the 
equipment in the facilities, and expanded the number of 
facilities, they would use fitness centers even more.
    The average AF fitness center is 30 years old and was built 
to accommodate a single gender force. While renovations have 
been made over the years to accommodate female users, most 
facilities are still below contemporary standards. The Air 
Force has identified a requirement for 17 fitness center 
projects totaling $91M in the Fiscal Year Defense Plan. Higher 
mission requirements precluded them from being included in the 
FY98 budget request.

                        Family Separation--Army

    Question. Are families choosing family separation because 
of housing shortages rather than mission requirements? I 
believe these personnel are referred to as ``geographical 
bachelors.'' How widespread is this problem?
    Answer. Geographical bachelors are unaccompanied personnel 
voluntarily separated from their families and drawing housing 
allowances at the ``with dependents'' rate. Since this is a 
personal choice, the Army does not track this information.

                        Family Separation--Navy

    Question. Are families choosing family separation because 
of housing shortages rather than mission requirements? I 
believe these personnel are referred to as ``geographical 
bachelors.'' How widespread is this program?
    Answer. There are many reasons Sailors are choosing to make 
PCS moves without their families. Many of these reasons are 
detailed in my written testimony. Among the reasons are the 
career of a spouse, an investment in a home at a previous duty 
station, and the availability of housing at their new duty 
station. One current example of the growing number of 
geographical bachelors is New London, Connecticut. In this 
region, two new casinos have increased the local population by 
more than 20,000. The availability of off base housing is 
limited, leaving more than 500 names on the waiting list for 
family housing. Many Sailors are choosing to accept orders as a 
``geographic bachelor,'' but barracks rooms are limited and the 
``geographic bachelors'' are being forced out of their 
barracks. New London is not an isolated example, but in fact, 
this is a growing problem that requires attention.
    The reasons that Sailors report to new duty stations 
unaccompanied are often complex and deeply personal. This 
situation is regrettably occurring more often than ever before 
and shows no sign of decreasing.

                    Family Separation--Marine Corps

    Question. Are families choosing family separation because 
of housing shortages rather than mission requirements? I 
believe these personnel are referred to as ``geographical 
bachelors.'' How, widespread is this problem?
    Answer. The choice to become a geographical bachelor is 
based upon very individual and personal circumstances, such as 
a spouse with a good job at the former duty station, or 
ownership of a house that the Marine does not want to (or 
can't) sell. Or perhaps the Marine prefers not to move children 
during the school year.
    Lack of readily available on-base housing can influence the 
decision to become a geo bachelor, but it would not be the 
determining factor since BAQ/VHA is always available for living 
off base. Some Marines choose to be a geo bachelor for several 
months while they are on the waiting list for base housing. But 
with BAQ/VHA always an option and the personal circumstances 
involved in each decision, we do not consider geographical 
bachelorhood to be problematic.

                      Family Separation--Air Force

    Question. Are families choosing family separation because 
of housing shortages rather than mission requirements? I 
believe these personnel are referred to as ``geographical 
bachelors''. How widespread is this problem?
    Answer. This is not a big problem in the Air Force. 
Families usually do not choose family separation because of 
housing shortages. Although availability of housing may delay 
arrival of some families. Instead, families normally choose 
family separation because of other reasons such as allowing 
dependents to complete the school year or to allow the spouse's 
continued employment.

              Family Housing Versus Bachelor Housing--Army

    Question. What inequities exist between housing policies 
for married and single personnel?
    Answer. Junior soldiers with families can choose where they 
want to live, while their single counterparts are required to 
reside in the barracks. Also, barracks living for junior 
soldiers is a more closely supervised environment.
    Question. Are we providing an equal balance between the two 
in rectifying the problems?
    Answer. Yes, we believe the adoption of the 1+1 living 
standard for single soldiers goes a long way to equalizing some 
of the inequities between single and married soldiers.

              Family Housing Versus Bachelor Housing--Navy

    Question. What inequities exist between housing policies 
for married and single personnel?
    Answer. One of the more significant inequities between 
married and single personnel is the freedom of choice. In most 
cases, married personnel can live either in the private sector 
or apply for Navy housing if available, based on their 
individual family requirements or desires. Their single 
counterparts in the junior enlisted pay-grades must live where 
the Navy tells them to. For many this is on board ship with 
upwards of 30 roommates, for the others it is in barracks with 
2 to 4 roommates and for a relative few it is in the local 
community. Other inequities include the square footage given 
the individual. For a married person in government quarters the 
minimum sized house is approximately 950 square feet; the 
single Sailor in the barracks receives 90 square feet living 
space minimum, not including common space, and the shipboard 
Sailor receives even less. Single Sailors who live in the 
private sector also receive less BAQ/VHA than their married 
counterpart. Additionally, living in barracks or on board ship 
subjects the single Sailor to more inspections, working parties 
and a much greater loss of privacy and personal freedom.
    Question. Are we providing an equal balance between the two 
in rectifying the problem?
    Answer. While considerable effort is underway to improve 
housing for single sailors such as allowing E5s and E6s to move 
off ship and off base and providing the new 1+1 standard for 
our single sailors in the barracks there still remains much to 
be done.

          Family Housing Versus Bachelor Housing--Marine Corps

    Question. What inequities exist between housing policies 
for married and single personnel?
    Answer. Inequities do exist in various aspects of the two 
housing policies. They are in the areas of: (a) how personnel 
are housed (bachelors reside with a roommate and share a bath 
with 3 others; married members are assigned housing that 
provides a separate bedroom for each child); (b) routine 
inspections are conducted in bachelor housing rooms to ensure 
cleanliness and order; there are no similar inspections in 
family housing; (c) storage for possessions is a concern in the 
barracks as very little is provided; in family housing storage 
units and garages exist along with a design for increased 
interior storage areas; and, (d) bachelor junior enlisted 
personnel are housed on base without an option to reside in 
town; the private sector is the primary source for family 
housing and military family housing is only provided where the 
private sector cannot meet the need.
    Question. Are we providing a equal balance between the two 
in rectifying the problems?
    Answer. The Marine Corps has written a draft 
``Headquarters, Marine Corps Plan for Centralized Direction and 
Oversight'' to ensure a balance is achieved. This draft 
addresses bachelor and family housing in addition to other 
areas of facilities management. It provides a vision, strategy, 
goals, and desired funding profile. As a result, an increased 
emphasis has been placed in the bachelor housing area to 
provide a quality of life which is comparable to those living 
in family housing. To this end, the main goal is to eliminate 
our inadequate inventory in 10 years with a dedicated funding 
stream averaging $50 million per year in our MilCon account. In 
the family housing area, the construction requirement is 
estimated the same as bachelor housing except projected family 
housing deficits in the private sector, as determined by market 
analysis, are considered. Our family housing funding level will 
allow us to continue construction of new units in high deficit 
areas (in Fiscal Year 1998 only), replacement of some units 
where revitalization is no longer economically viable, 
revitalization of units with severe environmental problems, and 
eliminate further increases to the backlog.

           Family Housing Versus Bachelor Housing--Air Force

    Question. What inequities exist between housing policies 
for married and single personnel?
    Answer. Married personnel are not required to live on base, 
they may choose to live on base or off base (with the exception 
of a few people in ``key and essential'' designated positions 
who must live on base). In comparison, junior unaccompanied 
personnel must live on base, and unaccompanied housing does not 
always afford the same amount of space and privacy as family 
housing. For example, dormitory rooms are smaller and do not 
have adequate storage space, or space to entertain guests. 
While most dormitories have some large, public areas (lounges, 
kitchens, laundry facilities) these do not offer the same 
measure of privacy as family housing quarters. Additionally, 
dormitory facilities are controlled by unit commanders; thus 
dormitory residents are subject to details to clean common 
dormitory areas unlike their counterparts in family housing.
    Question. Are we providing an equal balance between the two 
in rectifying the problems?
    Answer. We're doing better to close the gap between family 
and unaccompanied housing standards. Air Force corporate 
leadership believes unaccompanied airmen on their first term of 
service should be housed on-base because (1) they can least 
afford to live off base due to low housing allowances, and (2) 
they should receive continuing guidance and leadership 
mentoring during their initial years of service. With the 
Department of Defense approval of the new 1+1 dormitory 
standard and the new Air Force private room assignment policy, 
the Air Force is making major strides toward correcting 
inequities between family and unaccompanied housing. These 
steps satisfy unaccompanied airman's primary quality of life 
concern: privacy. Because Air Force corporate leadership also 
views unaccompanied housing as directly tied to force 
recruiting, readiness, and retention, Air Force leadership is 
committed to achieving private dormitory rooms as soon as Air 
Force resources permit.

                         Bachelor Housing--Army

    Question. From your discussions with your personnel, what 
is their preference--to live on the economy or to live in 
contemporary barracks?
    Answer. According to the Tri-Service Survey which was 
conducted in 1992, 83.8 percent of the single soldiers 
interviewed preferred to receive separate quarters allowance 
and live off-post.
    Question. What are the top three complaints you hear about 
housing, for single personnel?
    Answer. Single soldiers want more privacy, space, and less 
supervision.

                         Bachelor Housing--Navy

    Question. What are the top three complaints you hear about 
housing for single personnel?
    Answer. Personal freedoms/restrictive rules and 
regulations, privacy/square footage, inspections/working 
parties.

                     Bachelor Housing--Marine Corps

    Question. From your discussions with your personnel, what 
is their preference--to live on the economy or to live in 
contemporary barracks?
    Answer. Young enlisted Marines definitely prefer the 
convenience and cohesion of living in the barracks. As a single 
Marine attains more rank and time in the Service, he often 
prefers to live on the economy.
    Question. What are the top three complaints you hear about 
housing for single personnel?
    Answer. Single Marines are most concerned about: (1) 
housing that is neat, well maintained, and offers ample storage 
for their possessions and equipment; (2) better furnishing; and 
(3) cable television and telephone hookups.

                      Bachelor Housing--Air Force

    Question. From your discussions with your personnel, what 
is their preference--to live on the economy or to live in 
contemporary barracks?
    Answer. For the most part, our junior airmen prefer to live 
on base, as they typically do not have the financial means to 
adequately support themselves on the economy. As they mature in 
age and grade, we find the natural desire is to live off-base 
on the economy. Of course, the location of the installation is 
key to their response depending on whether they live in a high 
or low cost area of the country or live overseas.
    Question. What are the top three complaints you hear about 
housing for single personnel?
    Answer. The top three areas of concern our enlisted airmen 
living in dormitories cited in the 1995 quality of life survey 
were: (1) Privacy--88% of dormitory occupants stated having ``a 
private sleeping room'' when asked what would most improve 
their quality of life, (2) facility maintenance, and (3) size 
of the room.

                          Family Housing--Army

    Question. What are the most frequent complaints you hear 
about family housing?
    Answer. The principal complaints are: congested housing 
areas; insufficient parking; and antiquated kitchens, 
bathrooms, and floor plans.
    Question. What type of waiting list are our enlisted 
personnel and their families faced with for on-base housing?
    Answer. There are approximately 18,000 enlisted families on 
waiting lists for government family housing. The average 
waiting time varies by location and depends on the family's 
bedroom requirement. On the average, enlisted families wait 
about 15 months for on-post family housing.

                          Family Housing--Navy

    Question. What are the most frequent complaints you hear 
about family housing?
    Answer. The most frequent complaints the Navy hears from 
its families about housing is the poor condition of their 
existing government homes; the shortage of government homes; 
and the lack of affordable and suitable community housing. 
About 36,000 homes in the Navy's family housing inventory 
require revitalization, including replacement, improvements and 
major repairs, to bring them up to Neighborhoods of Excellence 
standards. The Navy's $2.5 billion backlog is scheduled to be 
eliminated by the end of fiscal year 2005. This year's request 
includes funding for the replacement of 128 at Lemoore, 
California, and revitalization of 2,231 homes at 29 locations. 
the Navy is currently exploring the options associated with the 
Public/Private Venture legislation as a means to improve the 
living conditions for our Sailors. These options could allow 
the Navy to correct our facility deficiencies or replace the 
homes in a timely manner. The Department of Defense also is 
continuing to look at proposals to change the housing allowance 
system that would allow members to afford a wider selection of 
housing and reduce the need for military housing.
    Question. What type of waiting list are our enlisted 
personnel and their families faced with for on-base housing?
    Answer. As of 30 September 1996, there were about 22,000 
enlisted families on worldwide waiting lists for family 
housing. The waiting times for assignment to family housing 
vary from one month to several years depending on the location, 
time of year, and other factors. For instance, there are some 
waiting lists in Japan which are as long as three years. The 
number of families on the waiting list reflects a combination 
of families who: would prefer to live in government housing; 
are unsuitably housed in the private community; or expect 
assignment to government quarters during their tour of duty. 
The waiting list excludes families who decided not to apply for 
assignment to government quarters because it would not become 
available during their entire duty at that installation.

                      Family Housing--Marine Corps

    Question. What are the most frequent complaints you hear 
about family housing?
    Answer. The principle complaints about family housing are 
the lack of housing, waiting times, size of units, the 
inability to provide routine maintenance due to lack of 
funding, houses remaining unrepaired or in unsightly condition 
for extended periods, and outmoded unit design.
    Members living in civilian housing are also most 
dissatisfied with the condition and cost of their housing, 
neighborhood safety, and length of time it takes to get to 
work.
    Question. What type of waiting lists are our enlisted 
personnel and their families faced with for on-base housing?
    Answer. There are more than 6,000 families on the waiting 
list. The average waiting time is approximately 15 months; 
however, waiting times vary significantly by location and pay 
grade of the member.

                       Family Housing--Air Force

    Question. What are the most frequent complaints you hear 
about family housing?
    Answer. The most frequent complaints we hear about family 
housing are: units are too small; units do not allow one 
bedroom per child; and the waiting time to be assigned to 
housing unit is too long.
    Question. What type of waiting lists are our enlisted 
personnel and their families faced with for on-base housing?
    Answer. Our enlisted married personnel and their families 
are faced with waiting lists that are 12 to 24 months long at 
many locations. The Air Force has approximately 41,000 families 
on lists waiting for assignment to family housing.

                        Housing Allowance--Army

    Question. Are we now providing an adequate housing 
allowance to enlisted personnel?
    Answer. The Department of Defense (DOD) has reviewed the 
current system for determining housing allowances to correct 
inherent inequities and inefficiencies, particularly for junior 
enlisted personnel in high-cost areas. A joint working group 
developed a methodology for combining Basic Allowance for 
Quarters and Variable Housing Allowance into a single Basic 
Allowance for Housing indexed to increases in housing costs. 
One of the main components of the new system is to compute 
allowances based on external price data for housing costs from 
the private sector instead of housing rental expenditures. The 
Army has concurred in the provisions of proposed legislation 
drafted by DOD that will improve junior enlisted housing 
allowances especially in high-cost areas using the new Basic 
Allowance for Housing. DOD will soon forward this proposal to 
Congress for approval.

                        Housing Allowance--Navy

    Question. Are we now providing an adequate housing 
allowance to enlisted personnel?
    Answer. No, in most Navy Fleet Concentration Areas we are 
not providing adequate housing allowances. Currently, Basic 
Allowance for Quarters (BAQ) is indexed by wage costs, not 
housing costs. Variable Housing Allowance (VHA) is based on 
survey data as reported by members, reflecting what they can 
afford to spend on housing rather than what might be 
appropriate. As a result, BAQ nor VHA have been able to 
consistently keep up with the growth in housing costs, and have 
unfairly disadvantaged those in high cost of living areas while 
favoring those in low cost of living areas. The current DoD 
housing allowance reform initiative to combine BAQ and VHA into 
a single allowance based on external price data will enable us 
to target the housing allowance more appropriately and for the 
first time tie the allowance to a national index of housing 
costs. Housing allowance (HA) reform is long overdue. The 
current HA reform has been well staffed and represents a major 
step forward. I anticipate it will resolve several long 
standing housing compensation inequities.

                    Housing Allowance--Marine Corps

    Question. Are we now providing an adequate housing 
allowance to enlisted personnel?
    Answer. The combination of Basic Allowance for Quarters 
(BAQ) and Variable Housing Allowance (VHA) is intended to cover 
85% of a Marine's off-base housing costs, leaving 15% to be 
paid out-of-pocket. Currently, individual Marines pay about 
19.6% of their housing costs out-of-pocket. In this regard, 
BAQ/VHA is not adequate, particularly for Marines in more 
expensive areas. The BAQ Reform proposal for FY98 will 
alleviate many of the problems associated with the current BAQ/
VHA system, and will reduce the percentage of housing costs 
absorbed by the individual Marine.

                      Housing Allowance--Air Force

    Question. Are we now providing an adequate housing 
allowance to enlisted personnel?
    Answer. For most junior enlisted members, current housing 
allowances do not cover the intended 85% cost of off-base 
housing. As a result, members now absorb 19.4% instead of 15% 
of housing costs. The current average absorption for an E-5 
with a family is $158/mo (15% absorption = $116/mo; additional 
4.4% absorption = $42/mo). Two recent initiatives, rate 
protection (FY96) and VHA locality floors (FY97) were designed 
to improve housing allowances for our most junior members and 
have provided some relief to these members. The proposed 
housing allowance reform will tie housing allowances to local 
housing costs. Many enlisted members will see increased 
allowances as a result. The reform is not intended to address 
members absorption, although absorption is a definite 
consequence. Additional legislative action will be required to 
buy-down member absorption.

                     Housing Referral Offices--Army

    Question. Overall, how important are housing referral 
offices and how successful are they?
    Answer. As long as the Army houses approximately two-thirds 
of families off-post and 70 percent of those are junior 
enlisted families, the Army will need housing referral offices. 
They are very important in finding safe, affordable off-post 
housing in the shortest time for relocating soldiers and their 
families. They are highly effective and successful; they 
provide the assistance required for soldiers to locate housing 
that meets their families' needs in the shortest possible time.

                     Housing Referral Offices--Navy

    Question. Overall, how important are housing referral 
offices and how successful are they?
    Answer. About three-fourths of Navy military families 
reside in private housing. Housing referral personnel assist 
families, as well as bachelors and eligible civilians, to 
acquire adequate, affordable housing on the economy. Housing 
Referral Services are useful to junior military personnel who 
have less experience at making good decisions when obtaining 
housing. A newcomer to an area may encounter such problems as 
unethical and discriminatory landlords; unfamiliarity with 
neighborhoods, schools, and local housing laws; and rental/
utility deposits. It takes time to research the housing market, 
and time can be precious when a family has just relocated and 
the military member is trying to orient to a new job or is 
scheduled to ship out in a couple of weeks, leaving the family 
behind. The housing office helps make it less of an ordeal by 
providing needed information and services. Housing Referral 
Services are vital at overseas locations in helping military 
members and families find suitable housing in communities that 
are very different from those in the U.S. The Housing Office 
helps with lease review, negotiation, and security deposits; 
provides listings of units that meet an acceptable level of 
criteria; and is a conduit with the utility companies, helping 
with utility hook-ups and billing ``problems.'' Housing staffs 
take families to vacant homes in the community. This showing 
services is invaluable for families whose car has not yet 
arrived from the U.S. and public transportation is not 
convenient or available. When the inexperienced military person 
deals directly with the landlord, they are vulnerable because 
they may not know the right questions to ask, make incorrect 
assumptions, or simply have a problem communicating because of 
language differences. The housing office looks out for the 
military member and his/her family's best interests.
    To ease upfront costs for newly relocated personnel, the 
housing office establishes deposit waiver programs with local 
landlords. The Rental Set Aside Program is a winning situation 
for both the military member and landlords. Landlord/resident 
mediation services help resolve disputes. Continuously improved 
automated systems provide comprehensive and current listings 
for community housing. Interactions with the local government 
and real estate/property management organizations further help 
with placing personnel in the private community. Housing 
relocation services help educate personnel on what to expect at 
their next duty station.
    The above housing referral services contribute much to the 
well-being of military members and their families. Housing 
referral services have been greatly enhanced under the Navy's 
Neighborhoods of Excellence concept of improving family housing 
services. Customers at most installations now enjoy expanded 
office hours in the evening and over the weekend, and expanded 
showing services. Without housing referral services, Navy 
personnel would have to rely on local realtors and property 
managers to locate housing. Local realtors normally place more 
emphasis on for-sale properties rather than affordable rental 
properties required by Navy families, particularly E-1 through 
E-6 enlisted personnel and their families. Many of the unique 
services required by military personnel are not provided by the 
private sector.
    Providing housing referral services is an effective means 
of housing families as the Navy steps back from constructing 
new homes and relies more on the private sector, privatization 
authorities, and improved allowances.

                 Housing Referral Offices--Marine Corps

    Question. Overall, how important are housing referral 
offices and how successful are they?
    Answer. Housing offices are an extremely important element 
in our service to families living in both military family 
housing and in the private community.
    Housing offices are responsible for the centralized 
management of all aspects of family housing. These 
responsibilities include: participating in family housing 
market analyses to determine housing requirements; recommending 
programming for housing acquisitions; planning for operations, 
maintenance, repairs, alterations, and improvements; 
translating plans and programs into budget requirements; 
applying resources (funds and manpower); controlling, issuing, 
and repairing furnishings; assigning and managing housing 
units; managing rentals; leasing housing units; conducting 
habitability inspections; informing occupants of matters 
involving local police and fire protection authorities, school 
boards, and other community services; mediating complaints from 
occupants; implementing self-help programs; and maintaining 
records of inventory, condition, and costs.
    For members arriving at an installation, housing referral 
offices provide a variety of counseling services. These 
include: providing maps and information packets on the local 
communities; networking with realtors; maintaining convenient 
access to all new community rental and for-sale listings; 
conducting workshops and advising members on home buying; and 
tailoring the housing search to the members' affordability 
range, location desires, and specific family member 
requirements (schools, hospitals, spouse employment, etc.).
    The referral counselors also inspect housing complexes for 
adequacy and suitability for our military members and provide 
mediation services in landlord/tenant disputes. Counselors work 
with local landlords to waive application fees, credit checks 
and security fees for military members.
    The referral offices have been successful in assisting the 
majority of our families find housing. However, even with their 
efforts our housing deficit remains at over 10,000 homes.

                  Housing Referral Offices--Air Force

    Question. Overall, how important are housing referral 
offices and how successful are they?
    Answer. Housing referral offices are extremely important in 
helping Air Force members and their families locate acceptable 
community housing. Since being established in 1968, the offices 
have helped over sixty percent of the Air Force accompanied 
population locate housing on a continuous basis. Housing 
Referral offices provide counseling to service members and 
their families on home finding, renting, buying and selling. 
They also help settle landlord disputes and provide preliminary 
inquiries to validate discrimination complaints. At overseas 
locations, referral offices help bridge the gap between service 
members and local language and customs.

                         Job Satisfaction--Army

    Question. List in order the priorities to ensure job 
satisfaction of our enlisted personnel.
    Answer. Job satisfaction priorities are: Adequate 
compensation and benefits, adequate housing, realistic training 
with state of the art equipment, and quality health care; 
maximum flexibility for commanders to provide for soldiers' 
quality of life, including: Flexible duty hours, civilian 
education opportunities, unit functions, and promotion 
opportunities and personal recognition; an adequate support 
environment for soldiers and their families.

                         Job Satisfaction--Navy

    Question. List in order the priorities to ensure job 
satisfaction of our enlisted personnel.
    Answer. In our Retention/Separation Questionnaire, 
completed voluntarily by Sailors who are separating, 
reenlisting or extending, we ask Sailors to rate their 
satisfaction or dissatisfaction with 45 factors of Navy life, 
and to identify which of the 45 factors would be the most 
important reason for leaving (or thinking of leaving). The top 
six responses for Fiscal Year 1996, similar to those from 
previous years, identify the following factors as having the 
highest satisfaction level:

1. Job security
2. Support and recreation services
3. Quality of commissary and exchange
4. Geographic location of jobs
5. Coworker competence
6. Education benefits

    When we examine responses of only those Sailors who chose 
to stay (reenlist or extend), we see a slightly different 
emphasis, with greater importance for job content and the 
military chain of command:

1. Job security
2. Support and recreation services
3. Job fulfillment/challenge
4. Respect from superiors
5. Geographic location of jobs
6. Use of skill/training on the job

    All of these factors are clearly important to our Sailors. 
We are also concerned about improving the factors that Sailors 
who left cited as the reason for leaving:

1. Family separation
2. Promotion and advancement opportunity
3. Basic pay
4. Quality of leadership/management
5. Quality of Navy life
6. Job enjoyment

                     Job Satisfaction--Marine Corps

    Question. List in order the priorities to insure job 
satisfaction of our enlisted personnel.
    Answer. The Marine Corps is not just a job; it is a way of 
life. Therefore, any measure of satisfaction will necessarily 
include elements from all facets of service, not just from a 
Marine's specific job. Focus groups of active duty Marines have 
identified and ranked the following 5 issues as their top 
concerns: leadership, pay, family issues, benefits, and 
training/optempo.

                      Job Satisfaction--Air Force

    Question. List in order the priorities to insure job 
satisfaction of our enlisted personnel.
    Answer. There is no formal registry of enlisted job 
satisfaction priorities in the Air Force. Therefore, using the 
premise that the reasons people stay in the Air Force also 
enhances their job satisfaction, our priorities would be based 
on why people stay. Historical survey data collected from 1988 
to 1994 indicates enlisted members stay with us for reasons 
such as opportunity for education/training, availability of 
medical care, and retirement benefits.

                         Child Care Needs--Army

    Question. Are we meeting the needs with the growth in 
single soldier parents, dual military couples and more spouses 
in the workforce?
    Answer. Fiscal year 1998 funding provides the Army the 
capability to satisfy the DOD goal of 65 percent of its child 
care demand through three primary delivery systems: child 
development centers, family child care homes, and supplemental 
services.
    Question. What efforts are being made to provide increased 
child care during deployments such as IFOR?
    Answer. Child care programs extend operating hours during 
the weekdays, open for care on weekends, and provide respite 
care to meet community needs. Additionally, on-site hourly care 
for unit functions and family support group meetings is offered 
to support deployment-related activities. Local trainers 
schedule classes for caregiving staff on coping with stress, 
staff awareness of stress in children, and parent support.
    Question. Would you update the committee on the need for 
new facilities and are adequate funds available for operation 
of the centers?
    Answer. We have an adequate number of facilities and are 
committing our funds to replace or upgrade existing facilities. 
Operations and Maintenance, Army (OMA), funds are adequate to 
operate Child Development Centers (CDCs). Also, Family Child 
Care in government quarters enables the Army to avoid capital 
investment and sustainment necessary for CDCs.

                         Child Care Needs--Navy

    Question. Are we meeting our child care needs with the 
growth in single soldier parents, dual military couples and 
more spouses in the workforce?
    Answer. In my estimate, one of the most difficult tasks is 
defining and establishing the real need. DoD has established a 
goal to have all services meet 80 percent of the child care 
potential need for children ages 0-12 years by FY-2005. Navy is 
currently meeting 47 percent of the ``potential need,'' and has 
a plan to reach 65 percent of the ``potential need'' by FY-03. 
Current program includes care for 25,974 children ages 0-5 
years and 12,006 children ages 6-12 years. The current delta is 
14,377 spaces for children 0-5 years of age.
    Of the care provided the following shows the percentage of 
categories of parents with children in care:

------------------------------------------------------------------------
                                                   Center       Family  
                                                   based      child care
------------------------------------------------------------------------
Single military...............................          7.1          8.8
Dual Military.................................          4.8          7.6
Military w/spouse.............................         82.6         79.8
DoD civilians.................................          5.5          3.8
------------------------------------------------------------------------
 Note. The DoD formula for calculating potential need is based on 8     
  percent of children of single parents and 6 percent of children of    
  dual military parents.                                                

    The Navy's plan to reach the 65 percent goal includes:
    (1) Continued operations of existing programs which 
includes center based care and Family Child Care (FCC).
    (2) Maintaining eleven (11) programmed MILCON centers 
through FY-03. In addition, increased O&MN funding is 
identified in POM-98 to operate these centers once completed.
    (3) Use of off-base civilian child development centers:
    a. Contract with qualifying civilian centers in fleet 
concentration areas to ``buy down'' rates: Contracts have been 
awarded in Jacksonville and Norfolk, and we plan to award 
additional contracts in these areas, as well as San Diego, 
Seattle, and Pearl Harbor. The Service member will pay the same 
rates as they would in an on-base development center, and the 
government will pay the contractor the difference. Civilian 
centers must be accredited by the National Association for the 
Education of Young Children to qualify for this contract.
    b. Resource and Referral (R&R). We have hired R&R personnel 
to assist parents in obtaining care in off-base centers. 
Parents will pay civilian rates; no subsidy will be provided by 
the Navy. In addition, these personnel will be able to identify 
possible state, county or federal subsidies for qualifying 
parents. These referrals count toward meeting our potential 
need for child care if the centers are nationally accredited 
and the parent cost is no more than 120 percent of the cost 
they would pay in an on-base center.
    (4) Expand FCC to certify military spouses living off-base 
in civilian housing which will create a larger pool of 
providers in more locations surrounding the military 
installation. In addition, FCC subsidies are provided in 
certain areas.
    (5) Simultaneously, the Navy is conducting an A-76 
Commercial Activities Study in the San Diego area, to write a 
performance work statement, develop the government's most 
efficient organization on a regional basis, and determine if 
the private sector can effectively compete and meet the 
potential need by 2003, at equal or better quality and 
availability, and at equal or less cost to the government. The 
test will include use of qualifying on and off-base child 
development centers and in-home care.
    Question. What efforts are being made to provide increased child 
care during deployments such as IFOR?
    Answer. There is no requirement for child care during deployments. 
Single Sailors or dual-member marriages must provide their own 
caregiver in their absence. In accordance with OPNAVINST 1740.4A, the 
Navy requires all single and dual military members to complete a family 
care plan that designates persons responsible for the care of their 
dependent children during deployments or emergencies. If children are 
in Navy child development programs prior to deployment and the designee 
has access to the programs, the children may remain in care. For short 
periods of TAD, members who have children in Family Child Care (FCC) 
often name the FCC provider as the responsible designee with the 
cooperation of that care giver.
    As the Navy's senior enlisted leader, I am greatly concerned that 
we, the Navy, do everything possible to ensure that all hands 
understand that deployment custodial care is the sole responsibility of 
the service member.
    Question. Would you update the Committee on the need for new 
facilities and are adequate funds available for the operation of the 
centers?
    Answer. The Navy initiative includes 11 MILCON centers programmed 
and funded through FY-03.

                     Child Care Needs--Marine Corps

    Question. Are we meting our child care needs with the growth in 
single soldier parents, dual military couples and more spouses in the 
workforce?
    Answer. The Marine Corps has identified resources and worked hard 
to expand services to meet the growth in child care requirements. The 
DoD goal set for each of the Services is to provide for 65% of the 
potential need which translates to 15,000 child care spaces for the 
Marine Corps. Currently, the Marine Corps program supports access to 
14,000 spaces.
    Question. What efforts are being made to provide increased child 
care during deployments such as IFOR?
    Answer. Our response to this problem is delegated to the local 
level. Installation commanders and child care program directors do what 
they can to extend operating hours and to offer services, sometimes at 
no cost, to support the special needs of families during these periods. 
The Marine Corps also sponsors a fee subsidy program for family child 
care homes; these subsidies may be used to compensate for special 
family needs and circumstances during deployments.
    Question. Would you update the Committee on the need for new 
facilities and are adequate funds available for the operation of the 
centers?
    Answer. The FY96 MILCON program included a center at MCB Camp 
Pendleton; the FY97 program funded projects at MCAS New River and 
MCAGCC Twentynine Palms. Many of the children to be accomodated in 
these three facilities are currently in temporary facilities on the 
bases, therefore operational funds are available to support the opening 
of these facilities. There are no funds for child care centers in FY 
98; however, the FY99 program includes a center at MCAS Cherry Point; 
additional O&M funds would be required to support this facility. There 
are no other MILCON projects for child care centers in the FY96-99 
timeframe.

                      Child Care Needs--Air Force

    Question. Are we meeting our child care needs with the growth in 
single soldier parents, dual military couples and more spouses in the 
workforce?
    Answer. The Air Force child care program is one of the largest in 
the United States, providing more than 48,000 child care spaces per 
day. The Air Force is still not able to meet the 85,000 spaces a day 
that are needed. We are currently meeting 57% of the need and 
facilities are programmed to meet 65% of the need by 2001.
    Question. What efforts are being made to provide increased child 
care during deployments such as IFOR?
    Answer. Where there are large numbers of individuals deployed, the 
installation commander can open or extend the operating hours of Air 
Force child development centers to meet the child care needs of those 
families left behind. Air Force child development centers are open 
other than normal operating hours during a month to meet the special 
needs and requirements of the parents on the base.
    Question. Would you update the Committee on the need for new 
facilities and are adequate funds available for the operation of the 
center?
    Answer. The Air Force has identified nine child development centers 
($31.1M) for inclusion in future military construction budget requests: 
Andrews AFB MD, Bolling AFB DC, Scott AFB IL, MacDill AFB FL, Eglin AFB 
FL, Luke AFB AZ, Falcon AFB CO, and two at Wright-Patterson AFB OH. We 
are striving to meet the Department of Defense goal of 65% of the child 
care demand by 2001, and 80% by 2005. The additional child development 
centers that are needed to satisfy the 80% child care demand goal are 
not currently prioritized in the Air Force program. Higher mission 
requirements precluded their being their being included in our FY98 
budget request. As these centers are approved, funds for their 
operations will be included in the AF budget.

                         Bachelor Housing--Army

    Question. What is the preference of our enlisted personnel (single 
and married) to live on or off base?
    Answer. According to the Tri-Service Survey which was conducted in 
1992, 83.8 percent of the single soldiers interviewed preferred to 
receive separate quarters allowance and live off-post. Given the 
current state of the Army, with its frequent deployments and 
unaccompanied tours, most families prefer to live on-post. The number 
one reason is a secure and safe environment. The second reason is the 
cost of suitable, off-post housing.

                         Bachelor Housing--Navy

    Question. What is the preference of our enlisted personnel (single 
and married) to live on or off base?
    Answer. Three-fourths of Navy families live in the private 
community. Based on the results of the Variable Housing Allowance 
Survey conducted in the Summer of 1996, 34 percent of married enlisted 
personnel living in the private sector indicated a preference for on-
base housing.

                     Bachelor Housing--Marine Corps

    Question. What is the preference of our enlisted personnel (single 
& married) to live on or off base?
    Answer. The preference for on-base housing versus living on the 
economy is a highly personal one. This preference is also location 
specific and depends on the quality of both on-base and civilian 
housing, affordability, commuting distances, surrounding support 
facilities, and availability of DOD schools in some areas.
    The waiting list for Marine Corps on-base housing exceeds 6,000 
families, indicating a continued strong desire of families housed in 
the civilian community to move into on-base housing. One strong factor 
influencing this preference is the frequent deployment of Marine Corps 
service members and the feeling that family members left behind will be 
more secure on-base.
    Finally, the significant ``out-of-pocket'' cost differential 
between on-base and off-base housing cannot be ignored as a major 
contributing factor to the continued preference for on-base housing.
    Bachelor Marines have indicated in the 1994 Marine Corps Quality of 
Life Study (Kerc Study) that they are less satisfied than families with 
the quality of on-base housing and indicated a stronger preference to 
live off-base. Marine Staff Sergeants and above have the option to live 
off-base. We are addressing the junior enlisted bachelor quarters issue 
through an extensive bachelor quarters construction program. Marine 
Corps leadership desires our junior enlisted Marines to continue to 
live on-base where greater access to morale, welfare, and recreation 
facilities and dining facilities will help them live within their pay 
and allowances.

                      Bachelor Housing--Air Force

    Question. What is the preference of our enlisted personnel (single 
and married) to live on or off base?
    Answer. Approximately 60 percent of unaccompanied personnel live on 
base, and 40 percent live off base. For the most part, our 
unaccompanied junior airmen prefer to live on base, as they typically 
do not have the financial means to adequately support themselves on the 
economy. As they mature in age and grade, we find the natural desire is 
to live off-base on the economy. Of course, the location of the 
installation is key to their response depending on whether they live in 
a high or low cost area of the country or live overseas.
    For our married personnel approximately 60 percent live off base 
and the remaining 40 percent live on base, however there is a strong 
desire to live on base as evidenced by 41,000 families on the waiting 
list for base housing. The primary consideration for families wanting 
to live on base is cost; in many locations member's housing allowances 
are not sufficient, driving high out-of-pocket costs and a preference 
to live on base where there are no out-of-pocket costs. Other factors 
driving a preference to live on base are proximity to base (work, 
medical, and community services), and safety and security of family 
members while military members are deployed or experiencing higher TDY 
rates.

                Assessment of the Medical Program--Army

    Question. Do you think the quality of DOD's medical facilities and 
the quality of medical care that is provided in those facilities is as 
good as it should be?
    Answer. The Department of Defense's (DOD's) medical facilities 
provide a consistently high level of quality medical services. The 
Joint Commission on Accreditation of Healthcare Organizations has 
surveyed and accredited all Army medical facilities. Hospitals 
throughout DOD continue to outscore civilian and federal peers on 
surveys and continue to set national standards for quality of care.
    The age of our facilities, however, continues to remain an issue. 
With a steady decline of medical military construction (MILCON) funds 
and the burden of sustainment shifting back to the services, our 
facilities will be approximately 110 years old before they can be 
replaced. Currently, approximately 42 percent of Army health and dental 
clinics and 32 percent of Army hospitals and medical centers are 
classified as substandard as a result of their age and condition. 
Although much progress was made in the late 1980's and throughout this 
decade to upgrade our hospitals and medical centers, health and dental 
clinics, training and medical research facilities must also be 
modernized.
    Question. Would our enlisted personnel rather receive their medical 
care at DOD facilities, or elsewhere--and why? Are there significant 
differences of opinion between active duty as compared with the views 
of dependents?
    Answer. Enlisted personnel would prefer to receive their care in a 
military treatment facility (MTF). They understand the military system 
and are comfortable with it. The latest Army annual survey of 
beneficiaries indicates that overall satisfaction with medical care is 
up from the previous year, that access to health care has improved, and 
that our beneficiaries are receiving the high quality of care they are 
accustomed to receiving. In Regions where TRICARE has been implemented, 
TRICARE PRIME enrollees express satisfaction with the program. Active 
duty personnel are automatically enrolled in TRICARE Prime. All TRICARE 
Prime enrollees, whether they are active duty of non-active duty, 
receive their primary care in MTFs.
    It has been generally stated that soldiers are more concerned with 
the source of their families health care than they are about their own. 
Family members' issues with health care involve access, cost, and 
quality. Beneficiaries believe they are receiving quality health care. 
For the most part, military hospitals and clinics are close to where 
most soldiers and their families live, which makes it more convenient. 
This convenience is important, especially for junior enlisted personnel 
who may have difficulties with transportation. Additionally, there are 
no other user fees or co-payments associated with care in MTFs as there 
would be if treated in civilian facilities. This cost would also have a 
major impact on junior enlisted personnel.
    Question. Are there differences between DOD facilities at U.S. 
installations and those overseas--where there is no real alternative to 
military health care?
    Answer. There are virtually no differences between Department of 
Defense medical facilities on U.S. installations and overseas. We 
provide a wide range of medical services in our medical facilities both 
here and abroad. However, with the downsizing of the Army in Europe, 
access to military hospitals has decreased and drive times have 
increased as we have reduced from nine hospitals to three. We have, 
however, emphasized improved access to primary care with increased 
staffing of our clinics and expanded clinic hours. We have also 
provided expanded dental services for active duty families through 
contractor-provided dental support. The three Services in Europe, in 
concert with assistance from the Assistant Secretary of Defense (Health 
Affairs), are establishing a TRICARE program for Europe that will help 
families through referral centers, health care finders and translators, 
patient liaisons, and development of preferred providers and 
institutions. A TRICARE Europe Support Office has been established in 
Ramstein Air Force Base and is working to implement a comprehensive 
program in Europe.

                Assessment of the Medical Program--Navy

    Question. Do you think the quality of DoD's medical facilities and 
the quality of medical care that is provided in those facilities is as 
good as it should be?
    Answer. I am confident that Navy's medical facilities are good and 
that the medical care provided in those facilities is of the highest 
quality. All Navy Medical Treatment Facilities are currently accredited 
by the Joint Commission for the Accreditation of Healthcare 
Organizations' (JCAHO). JCAHO is the internationally recognized 
credentialing organization for military and civilian medical treatment 
facilities.
    Question. Would our enlisted personnel rather receive their medical 
care at DoD facilities, or elsewhere--and why? Are there significant 
differences of opinion between active duty personnel as compared with 
the views of dependents?
    Answer. We do not have data that specifically addresses the issue 
of enlisted personnel's preferred site of medical care, either at a DoD 
facility or civilian facility. However, the 1996 Annual Health Care 
Survey does give insight into how our beneficiaries rate our services. 
Data indicates that active duty personnel and their dependents who have 
experienced both military and civilian health care in CONUS Catchment 
Areas are more satisfied with civilian health care than military health 
care. There is no statistical difference in responses between active 
duty beneficiaries and dependents of active duty beneficiaries. 
Previous survey data from 1992 shows that a majority of junior enlisted 
respondents would not pay out of pocket for a civilian health plan but 
would enroll in it if it was free. Figure 1 illustrates the 
dissatisfiers for Active Duty and their family members from the 1996 
Annual Health Care Survey of DoD Beneficiaries.

                                FIGURE 1                                
                              [In percent]                              
------------------------------------------------------------------------
                                                                 Family 
                                                      Active     active 
                                                       duty       duty  
------------------------------------------------------------------------
Military facility too far away....................       29.8       26.9
It is too difficult to get an appointment at a                          
 military facility................................       22.0       23.8
Facility has been closed..........................        1.3        5.2
The services I need were not available............       15.9       22.6
I can get better care from civilian providers.....       28.2       38.1
------------------------------------------------------------------------

    Question. Are there differences between DoD medical facilities at 
U.S. installations and those overseas--where there is no real 
alternative to military health care?
    Answer. Our data exhibits no difference between CONUS and OCONUS 
facilities. All medical construction is accomplished under uniform DoD 
guidance and construction standards. Navy medicine incorporates any 
additional standards required by the host nation's laws, for example, 
light-wells in Japan. Overseas medical treatment facilities (MTFs), 
like their CONUS counterparts, undergo inspection by the Joint 
Commission for the Accreditation of Healthcare Organizations (JCAHO) 
every three years. A JCAHO survey includes a determination of 
compliance with strict physical plant standards. For the last complete 
JCAHO survey cycle (1994 through 1996), the average Navy CONUS MTF 
JCAHO survey score was 92.5; the average Navy OCONUS MTF JCAHO survey 
score was 92.7. Beneficiaries overseas receive more comprehensive 
services from the MTF than in the U.S. because of the lack of 
alternatives, i.e. dental care for dependents, easier access to 
orthopedics and ob/gyn services.

            Assessment of the Medical Program--Marine Corps

    Question. Do you think the quality of DOD's medical facilities and 
the quality of medical care that is provided in those facilities is as 
good as it should be?
    Answer. I am confident that the Navy's medical facilities are good 
and that the medical care provided in those facilities is of the 
highest quality. The data below indicates that our medical treatment 
facilities (MTF's) consistently score higher than their civilian 
counterparts on the Joint Commission for the Accreditation of 
Healthcare Organizations' (JCAHO) triennial inspections, which include 
evaluation of the facility and the medical care delivery system.

------------------------------------------------------------------------
                                            Average JCAHO score--       
               Year                -------------------------------------
                                        Navy MTF's       Civilian MTF's 
------------------------------------------------------------------------
1993..............................               89.7               82.7
1994..............................               92.3               88.1
1995..............................               94.3              (\1\)
1996..............................               93.3              (\1\)
------------------------------------------------------------------------
\1\ Not available.                                                      

    Question. Would our enlisted personnel rather receive their medical 
care at DOD facilities, or elsewhere--and why? Are there significant 
differences of opinion between active duty personnel as compared with 
the views of dependents?
    Answer. We do not have data that specifically addresses the issue 
of enlisted personnel's preferred site of medical care, either at a DOD 
facility or civilian facility. However, the 1996 Annual Health Care 
Survey does give insight into how our beneficiaries rate our services. 
Data indicates that active duty personnel and their dependents who have 
experienced both military and civilian health care in CONUS Catchment 
Areas are more satisfied with civilian health care than military health 
care. There is no statistical difference in responses between active 
duty beneficiaries and dependents of active duty beneficiaries.
    Previous survey data from 1992 shows that a majority of junior 
enlisted respondents would not pay out of pocket for a civilian health 
plan but would enroll in it if it was free. The table below illustrates 
the dissatisfiers for Active Duty and their family members from the 
1996 Annual Health Care survey of DOD Beneficiaries.

                              [In percent]                              
------------------------------------------------------------------------
                                                                 Family 
                                                      Active     active 
                                                       duty       duty  
------------------------------------------------------------------------
Military facility too far away....................       29.8       26.9
It is too difficult to get an appointment at a                          
 military facility................................       22.0       23.8
Faciilty has been closed..........................        1.3        5.2
The services I need were not available............       15.9       22.6
I can get better care from civilian providers.....       28.2       38.1
------------------------------------------------------------------------

    Question. Are there differences between DOD medical facilities at 
U.S. installations and those overseas--where there is no real 
alternative to military health care?
    Answer. Our data exhibits no differences between CONUS and OCONUS 
facilities. All medical construction is accomplished under uniform DOD 
guidance and construction standards. Navy medicine incorporates any 
additional standards required by the host nation's laws, for example, 
light-wells in Japan. Overseas medical treatment facilities (MTFs), 
like their CONUS counterparts, undergo inspection by the Joint 
Commission for the Accreditation of Healthcare Organizations (JCAHO) 
every three years. A JCAHO survey includes a determination of 
compliance with strict physical plant standards. For the last complete 
JCAHO survey cycle (1994 through 1996), the average Navy CONUS MTF 
JCAHO survey score was 92.5; the average Navy OCONUS MTF JCAHO survey 
score was 92.7. Beneficiaries overseas receive more comprehensive 
services from the MTF than in the U.S. because of the lack of 
alternatives, i.e. dental care for dependents, easier access to 
orthopedics and ob/gyn services.

              Assessment of the Medical Program--Air Force

    Question. Do you think the quality of DoD's medical facilities and 
the quality of medical care that is provided in those facilities is as 
good as it should be?
    Answer. The quality of our medical facilities is not as high as it 
should be. We continue to be underfunded in Operations and Maintenance 
and Military Construction to property maintain, repair, modernize, and 
replace our medical inventory. Based on projected funding, we have a 
modernization/replacement cycle of approximately 100 years. Couple this 
with the state of our average facility--28 years old and built to 
support a concept of care from the 1960s--and we can not provide 
facilities with appropriate space, functionality, and technology as we 
transition from an inpatient focused system to an ambulatory focused 
system. The impact is we have older, less efficient facilities which do 
not meet the expectations of our patients or the requirements of our 
staff.
    However, a number of facts support the conclusion that Air Force 
medicine is outstanding. Within the current three-year cycle, the Air 
Force overall average score on surveys by Joint Commission on 
Accreditation of Healthcare Organizations again slightly exceeds the 
national average.
    Air Force inpatient facilities consistently perform better than the 
aggregate average of the Maryland Hospital Project Quality Indicator 
Project (MHA QIP) (includes 900+ inpatient facilities) in several 
performance areas such as inpatient mortality, cesarean sections, 
perioperative mortality, unscheduled readmissions and unscheduled 
returns to the operating room.
    The Air Force continues to experience a lower rate of malpractice 
claims per 100 physicians than the largest civilian malpractice insurer 
in the nation, even accounting for the Feres doctrine.
    Question. Would our enlisted personnel rather receive their medical 
care at DOD facilities, or elsewhere--and why? Are there significant 
differences of opinion between active duty personnel as compared with 
the views of dependents?
    Answer. In 1996, DOD surveyed a stratified random sample of 
beneficiaries worldwide. This particular question was not addressed. 
However, a similar question was asked of the beneficiaries. ``Did you 
receive any health care from a military facility or provider in the 
past 12 months? The active duty enlisted force responded with 62 
percent of them receiving care from a military medical treatment 
facility (MTF) in the past 12 months. Of those who received care from 
the MTF, 71 percent were satisfied with the care they received. 
Military active duty do not have the option to use civilian over 
military health care. Therefore, the survey did not address why they 
chose military over civilian care. However, the overall study shows 
that technical quality is the first of several determinants. When 
comparing active duty personnel to active duty dependents, findings 
show that 94 percent of active duty usually go to a military facility 
while 77 percent of the family of active duty go to a military 
facility. Although we have no scientific basis for this conclusion, we 
believe that the family of active duty choose our MTFs because of a 
desire for high quality coupled with lower costs.
    We recognize the previous data may not fully respond to your 
question. The most current data available that directly responds to 
these questions was provided to this committee last year. Basically, we 
reported from a 1994 Air Force Surgeon General's survey (the most 
current to date) that beneficiaries were asked, ``If you were given the 
opportunity to enroll in a variety of health care plans today, which 
source of care would you choose?'' Forty percent of active duty 
enlisted personnel responded that, if given the choice, they would 
choose military sources over CHAMPUS, private insurance, employee 
programs or other federal non-military facilities.
    Enlisted families also preferred military sources (39 percent) over 
any other option available.
    Question. Are there differences between DOD medical facilities at 
U.S. installations and those overseas--where there is no real 
alternative to military health care?
    Answer. DOD surveyed a stratified random sample of beneficiaries 
worldwide. Findings show that the mean levels of satisfaction were 
generally lowest among beneficiaries living overseas. Mean levels 
tended to be highest among those living in stateside non-catchment 
areas. On each of the 10 scales, however, the means among the three 
groups always fell within a relatively narrow range. For example, on 
the overall satisfaction scale, overseas beneficiaries responded with a 
mean level of satisfaction of 3.2, stateside catchment area 
beneficiaries had a mean of 3.4, and stateside non-catchment area 
beneficiaries had a mean of 3.5.

                Recruitment/Training/Re-enlistment--Army

    Question. What does it cost to recruit and train an enlisted 
service member for his or her first assignment?
    Answer. The average cost to recruit and train an enlisted member of 
the Army in fiscal year 1996 was approximately $34,200. The cost 
breakdown is as follows:

Accession Cost \1\............................................    $8,486
U.S. Military Entrance Processing Command.....................       720
Basic Training................................................     8,000
Advanced Individual Training..................................    16,000
Clothing Issue................................................     1,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................    34,206

\1\ This cost includes expenditures for the Army College Fund, 
enlistment bonuses, Loan Repayment Program, military and civilian pay, 
advertising, communications, computers, and recruiter support. Because 
this is an average cost per accession, it can vary significantly from 
year to year based on the total number of accessions.

    Question. What are the current first-term, second-term and career 
reenlistment rates?
    Answer. For fiscal year 1996, reenlistment rates (percent of 
eligible soldiers reenlisting) for initial term (first term), mid-
career (second term up to ten years active service), and careerists 
(over ten years active service) are as follows:

                           Reenlistment rates

                                                                 Percent
Initial Term......................................................  53.4
Mid-Career........................................................  84.7
Career............................................................  93.1

                Recruitment/Training/Reenlistment--Navy

    Question. What are the current first-term, and career re-enlistment 
rates?
    Answer. Current reenlistment rates for Fiscal Year 1997 (fiscal 
year to date, through the end of February) are:
                                                                 Percent
First-term........................................................  53.9
Second-term.......................................................  59.2
Career............................................................  83.0

            Recruitment/Training/Reenlistment--Marine Corps

    Question. What does it cost to recruit and train an enlisted 
service member for his or her first assignment?
    Answer. The average cost to recruit and train an enlisted service 
member are:
    Average cost to recruit an Enlisted Marine: FY96, $4,934; FY97, 
$4,939; FY98, $5,029; and FY99, $5,393.
    The cost shown is determined by the Office of the Assistant 
Secretary of Defense for Accession Policy, and includes O&MMC costs for 
recruiting and advertising; and MPMC costs for military salaries and 
enlistment bonuses.
    Average cost to train an Enlisted Marine at his/her first permanent 
duty station:

------------------------------------------------------------------------
                                              Fiscal year               
                             -------------------------------------------
                                 1996       1997       1998       1999  
------------------------------------------------------------------------
Initial Issue (MPMC)........     $1,037     $1,038     $1,084     $1,106
O&MMC.......................      2,249      1,993      2,035      2,207
MPMC........................      9,902     11,008      9,662     11,480
                             -------------------------------------------
    Total...................     13,188     14,039     12,781     14,793
------------------------------------------------------------------------

    Question. What are the current first-term, second-term and career 
re-enlistment rates?
    Answer. Reenlistment rates for FY 96 were:
                                                                 Percent
First term........................................................  21.3
Second term.......................................................  57.6
Career............................................................  94.5

    We continue to meet our goals for first term reenlistments, as 
established in our First Term Alignment Plan (FTAP). The FTAP ensures 
first term Marines are not reenlisted in excess of our career force 
requirements in each Military Occupational Specialty.

              Recruitment/Training/Reenlistment--Air Force

    Question. What does it cost to recruit and train an enlisted 
service member for his or her first assignment?
    Answer. It cost an average of $14,600 per member from recruit to 
arrival to first duty station.
    Question. What are the current first-term, second-term and career 
re-enlistment rates?
    Answer. FY96 first-term reenlistment rate was 59%, second-term--76% 
and career--95%.

                 Reasons for Leaving the Service--Army

    Question. What do you find are the most common reasons for leaving 
the service?
    Answer. Based on various surveys conducted by the Army Research 
Institute and RAND and input from commanders, the most common reasons 
for leaving the Army are: To test the civilian market; effects on 
personal life caused by military obligations; duty location; to pursue 
civilian education; and spousal dissatisfaction and family 
consideration.

                 Reasons for Leaving the Service--Navy

    Question. What do you find are the most common reasons for leaving 
the service?
    Answer. In our Retention/Separation Questionnaire, completed 
voluntarily by Sailors who are separating, reenlisting or extending, we 
ask which of 45 identified factors is the most important reason for 
leaving (or thinking of leaving) the Navy. Although the exact rank 
order of responses varies somewhat from year to year, the significant 
reasons have stayed much the same since the current version of the 
questionnaire began in 1990. For Sailors who left voluntarily in Fiscal 
Year 1996 the top six reasons were: (1) Family separation; (2) 
promotion and advancement opportunity; (3) basic pay; (4) quality of 
leadership/management; (5) quality of Navy life; and (6) job enjoyment.

             Reasons for Leaving the Service--Marine Corps

    Question. What do you find are the most common reasons for leaving 
the service?
    Answer. Focus groups of active duty Marines have identified a 
number of issues that appear to be important factors in the decision to 
remain or separate from the Marine Corps. They ranked the following 5 
issues as their top concerns: leadership, pay, family issues, benefits, 
and training/optempo.

               Reasons for Leaving the Service--Air Force

    Question. What do you find are the most common reasons for leaving 
the service?
    Answer. The most recent data we have available is for 1993. (We did 
not collect data throughout the drawdown.) The most common factors 
influencing officers include promotion opportunities, recognition of 
efforts, and availability of civilian jobs, and those influencing 
enlisted members include pay and allowances, amount of additional 
duties, and recognition of one's efforts.

                      Family Violence Cases--Army

    Question. The Marsh Task Force cited that ``more than 28,000 cases 
of military family violence were substantiated in 1994.'' What efforts 
have been taken or are being taken to see that Family Advocacy Programs 
are more proactive?
    Answer. The Family Advocacy Program (FAP) has taken a very 
proactive approach in addressing family violence by developing and 
implementing comprehensive prevention materials (e.g., educational 
videos) and DOD Family Advocacy Quality Assurance Standards. FAP has 
initiated a number of programs, including Family Advocacy Law 
Enforcement Training (FALET), Stress Management Training, a Chain of 
Command education program, and a Child Abuse Prosecutors Course. In 
addition, the Army plans to establish a spouse abuse victim advocacy 
program at each Army installation in fiscal year 1998.
    The FAP coordinates and works cooperatively with other Army 
Community Service (ACS) programs to include Financial Counseling, 
Exceptional Family Member Program, Relocation, Family Member 
Employment, and Outreach. The FAP works with local agencies to provide 
and coordinate services and training with child care providers, school 
counselors, mental health providers, chaplains, law enforcement, and 
Staffs Judge Advocate.

                      Family Violence Cases--Navy

    Question. The Marsh Task Force cited that ``more than 28,000 cases 
of military family violence were substantiated in 1994.'' What efforts 
have been taken or are being taken to see that Family Advocacy Programs 
are more proactive?
    Answer. The Navy New Parent Support Program, our primary prevention 
program for child abuse at over 40 installations world-wide, represents 
a best option, research-based strategy to provide voluntary early 
intervention to high risk vulnerable junior service members and their 
families with complex needs around the time of a child's birth. The 
Navy is providing spouse abuse victim support services at 19 
installations and clinical support services at 21 sites to children 
witnessing violence. Two other Family Advocacy Program (FAP) prevention 
efforts include: the Youth Outreach Program to improve character, 
skills and resilience among Navy youth; and the Return and Reunion 
Program to reintegrate families after long deployments. Continued 
congressional support will ensure continuation of these programs at 
approximately 50% of our installations that represent a majority of the 
Navy population.

                  Family Violence Cases--Marine Corps

    Question. The Marsh Task Force cited that ``more than 28,000 cases 
of military family violence were substantiated in 1994.'' What efforts 
have been taken or are being taken to see that Family Advocacy Programs 
are more proactive?
    Answer. The Marine Corps Coordinated Community Response (CCR) 
provides the operational and philosophical framework for a 
comprehensive proactive approach to family violence prevention and 
intervention. The CCR supports prevention efforts that protect and 
support victims and hold offenders accountable. The following are some 
of the family violence prevention programs available on installations:
    a. New Parent Support Program (NPSP)--This abuse prevention program 
provides home visitation to Marines and family members who are 
expecting children or who have children up to 6 years of age.
    b. Mentors in Violence Prevention--This program targets young 
Marines and encourages their participation in the prevention of gender-
based violence.
    c. Youth Violence Prevention--This pilot program at MCAGCC, 29 
Palms focuses on violence prevention and targets youth in pre and 
after-school programs.

                    Family Violence Cases--Air Force

    Question. The Marsh Task Force cited that ``more than 28,000 cases 
of military family violence were substantiated in 1994.'' What efforts 
are being taken to see that Family Advocacy Programs are proactive?
    Answer. The Air Force Family Advocacy Program (FAP) has several 
aggressive homebased prevention and outreach programs that target Air 
Force families at risk for maltreatment. These programs are primary and 
secondary prevention education services that provide families with 
adaptation and family resilience skills. Currently, there are 77 First 
Time Parents programs, staffed with registered nurses, that provide 
home-based prevention interventions. The goal of this program is to 
prevent child and spouse abuse. Services include home visits by a nurse 
pre- and post-delivery that includes unborn/infant family development 
education, newborn behavior/language, and support of Air Force 
families' role adaptation to parenthood.
    Another proactive effort, Home-based Opportunities Make Everyone 
Successful (HOMES) programs are now available at 27 Air Force bases. 
HOMES is a prevention program where services are provided by a nurse 
and social worker team. Goals of this program are to reduce spouse and 
child abuse, increase use of Air Force and civilian community 
resources, prevent disease, promote health and fitness of Air Force 
families, prevent poor birth outcomes and enhance Air Force family 
resiliency.
    Our Family Advocacy Research has proactively identified risk 
factors in several areas of domestic violence and informed the field. 
Through our partnership with the University of New Hampshire and the 
University of Missouri we have recently completed a review of domestic 
violence entitled ``Partner Violence: A 20 Year Review and Synthesis,'' 
which will soon be placed on an internet Web cite to benefit not only 
those who work with military families but also the civilian sector.
    Our data shows Air Force spouse and child abuse rates have remained 
stable over the past several years and are now declining. In addition, 
the severity of these cases has also declined. We believe this positive 
data is in great part attributable to our proactive intervention 
efforts.

                         Family Advocacy--Army

    Question. How are the services helping to deal with the problem of 
one parent being deployed and creating a single parent situation?
    Answer. The Army has established a comprehensive program of family 
assistance and related programs to support the needs of family members 
during deployments. The Family Support System (FSS) includes Family 
Support Groups (FSGs) and the expansion of the Army Community Service 
into a more comprehensive Family Assistance Center (FAC). Commanders 
appoint and train Rear Detachment Commanders (RDCs) to develop a family 
support plan. With certain restrictions, family members and FSGs are 
allowed morale telephone calls and e-mail and fax access to deployed 
soldiers. In addition, an FSS e-mail address for FSG leaders, FACs, and 
RDCs in on-line, allowing quick dissemination of information to 
everyone.
    Families of deployed soldiers rely on the FAC and RDC for accurate 
information, and immediate or emergency assistance. The FSGs are 
established by unit commanders to bring families together to help each 
other during deployments. The FSGs provide activities and support that 
will enhance the flow of information, morale, and esprit de corps 
linking family members, the chain of command, and community resources.
    Question. Are we experiencing youth gang problems on our 
installations?
    Answer. Installations experience varying degrees of misconduct by 
youth living on-post, some of which could be construed to be ``gang'' 
related.
    The Army does not consolidate at Department of the Army level data 
on youth or youth gang related crimes. In November, 1996, DoD 
established the Defense Incident Based Reporting System (DIBRS) for all 
Services. When fully operational in 1998, DIBRS will enable the 
Services to collect and report all criminal incidents on installations 
to include juvenile and gang incidents.
    Notwithstanding the lack of Army level reported data at this time, 
soldiers were recently surveyed on this issue. The Spring 1996 sample 
survey of military personnel conducted by the U.S. Army Research 
Institute, asked: ``To what extent is there a problem with youth 
violence, organized gangs in our military and nearby civilian 
communities?'' Twenty-one percent of the respondents reported moderate 
to very great problems with organized gangs on post. Thirty-nine 
percent reported moderate to very great problems with organized gangs 
in nearby civilian communities.

                         Family Advocacy--Navy

    Question. How are the services helping to deal with the problem of 
one parent being deployed and creating a single parent situation?
    Answer. Deployment is an accepted way of life within the Navy. One 
parent being deployed has not been a significant problem as related to 
the Family Advocacy Program. Support services including Family Support 
Groups and Child Care Programs are tailored to accommodate deployment 
situations, as well as assistance from Family Service Centers 
throughout.
    Question. Are we experiencing youth gang problems on our 
installations?
    Answer. Not on any large scale. I know of only a couple of isolated 
incidents over the last year and, in fact, I hesitate to call them 
``gang'' problems. Without minimizing the seriousness of juvenile 
criminal activity, I believe in most Navy locations we experience the 
routine problems of youth in a changing society. These problems in and 
of themselves, without any so called ``gang'' component, are serious 
enough and Navy currently does no have sufficient resources to deal 
with ``latch key'' kids, and other phenomenon of todays society. Many 
commands have extensive community partnership outreach personal 
excellence initiatives which match Sailors as tutors and big brothers/
sisters with selected school children. I believe the sense of community 
at Naval bases is a great help in minimizing youth delinquency and 
criminal activity. There are, however, insufficient resources to 
support youth activity centers, intramural youth leagues, dependent 
youth recreation centers, etc. One of the most frequent questions my 
wife is asked in her capacity as the Ombudsman to the Navy at large 
pertains to the scarcity of youth programs, full time counselors, etc., 
in many locations.

                     Family Advocacy--Marine Corps

    Question. How are the services helping to deal with the problem of 
one parent being deployed and creating a single parent situation?
    Answer. The Family Advocacy Program provides a number of support 
and education services to parents who are geographically separated from 
their spouses due to deployment. Services and programs to these parents 
are coordinated with Family Service Center Staff to maximize assistance 
to these parents. Services may include individual and group support 
activities, crisis intervention, parenting classes/groups that 
specifically address their special circumstances, referrals to other 
services on and off the installation.
    Question. Are we experiencing youth gang problems on our 
installations?
    Answer. We do not have a youth gang problem on Marine Corps 
installations. However, we are fully aware of gangs in close proximity 
to our bases and the potential for contact with dependents and even 
young Marines. We do experience a certain amount of juvenile crime in 
our housing areas, but none that is gang-related. Through good working 
relationships with local law enforcement agencies, active family 
involvement, and proactive juvenile enforcement teams, we have been 
able to prevent gang related activities from taking root on our bases.

                       Family Advocacy--Air Force

    Question. How are the services helping to deal with the problem of 
one parent being deployed and creating a single parent situation?
    Answer. Family Readiness is a key issue for Family Support Centers 
(FSCs) focusing on helping to ease deployment stress on families. 
Collaboration among all base agencies has been successful and 
essential. FSC services alleviate stress and seek to keep families 
informed: Pre-deployment Family Readiness Workshops, ``Hearts Apart'' 
programs, regular contact with families throughout deployment, ``Give 
Parents A Break'', and Spouse Morale Calls are examples of programs 
that have been successful. The following are comments from around the 
Air Force: (1) From a first term airman's spouse at RAF Alconbury: 
``The pre-deployment readiness training, your aftercare, and your phone 
calls have been wonderful! I always knew that no matter how tough it 
may have been, I was never alone!''. (2) RAF Lakenheath: FSC-wide 
effort assisted stressed spouse, along with Air Force Aid, to have 
vehicle repaired and overcome a potential crisis. Another indicator is 
the increased usage of available programs by families of deployed 
members: (1) Financial assistance programs and Air Force Aid have 
higher use by families of deployed personnel, (2) Spouse Morale Calls, 
and (3) ``Give Parents A Break'' have growing popularity, easing stress 
for single parents. A number of base agencies are working together with 
the squadron to enable families to prepare for, and to cope effectively 
with, the many stresses of deployment.
    Question. Are we experiencing youth gang problems on our 
installations?
    Answer. The Air Force has not experienced an organized or focused 
gang problem on its installations. It has, however, experienced some 
gang-related incidents impacting its installations and people (both on 
and off base). Incidents ranging from graffiti and vandalism up to drug 
dealing, assaults and murder have occurred, with the majority at the 
lower end of the spectrum. Air Force military members and their 
families, as well as Air Force civilians, were victims and perpetrators 
in some cases. The Air Force Office of Special Investigations analyzed 
gang-related activity on and around Air Force installations in 1992 and 
1995; reporting: (1) a very small number of Air Force personnel and 
family members were street gang members, and some committed violent and 
other criminal acts; (2) a small number of Air Force personnel and 
family members were victims of street gang violence; and, (3) Air Force 
school-aged family members were particularly vulnerable to street gang 
problems. In response to this question, AFOSI reported that gang 
activities continue to impact some Air Force installations and people.

                        Spousal Employment--Army

    Question. During your travels what problems do you hear associated 
with spousal employment, both in CONUS and overseas?
    Answer. Spouses say the tow most common barriers to finding a job 
are lack of available jobs that utilize the spouses' training, 
experience and skills, and a lack of jobs in an acceptable salary 
range. Key obstacles to spouse employment are:
    a. Fewer Positions.--While the legislation and programs 
establishing military spouse hiring preference are beneficial to 
spouses and attempt to reduce the burden of military relocations, 
recent government downsizing has reduced the total number of Federal 
government positions. Consequently, there are fewer positions for which 
military spouse preference applies.
    b. Limited Career and Promotional Opportunities.--Frequent 
Permanent Change of Station (PCS) moves and frequent job changes limit 
career and promotional opportunities. Private sector employers are 
reluctant to hire spouses and invest in their training when they know 
the spouse will leave in two or three years. In addition, transfer of 
college credits from one school to another is difficult for family 
members whose education is interrupted by a PCS move.
    The Family Member Employment Assistance Program (FMEAP) is designed 
to help spouses overcome employment problems due to frequent transfers. 
Such transfers result in breaks in employment, education, and training, 
which frequently force spouse to start job searches and career 
development from scratch. Program offerings include: job search 
workshops in resume writing, interviewing skills, and networking; 
career counseling; self-employment skills; job referrals from various 
local, state and federal job banks' and jobs skills training.
    c. U.S. Army Europe (USAREUR).--The only problem USAREUR encounters 
on a regular basis is the lack of entry-level positions for military 
spouses. For spouses located outside the continental United States, 
that fact severely limits their employment possibilities. With fewer 
government positions available in USAREUR, the Family Member Employment 
Assistance Program (FMEAP) maintains a steady business with family-
member spouses.

                        Spousal Employment--Navy

    Question. During your travels what problems do you hear associated 
with spousal employment, both in CONUS and overseas?
    Answer. Many spouses express frustration with their under-employed 
status. They are often forced to accept positions that are not in line 
with their career goals or are highly overqualified for positions they 
accept. They are reluctant to complain because they feel fortunate to 
get any type of job.
    Spouse are often at the mercy of employer attitudes. Employees tend 
to want 3 to 4 year commitments and are reluctant to hire military 
spouses with short term work histories. Due to frequent moves, spouses 
report difficulty gaining experience and advancing in a given career 
path. Employers often aren't willing to invest resources in spouses who 
cannot make long-term commitments to the company. Without the 
appropriate training and experience, promotions are not likely. 
Military spouses often feel their military status affects their salary 
and benefits. Until employers perceptions about military spouses 
change, there will continue to be a barrier to employment.

                    Spousal Employment--Marine Corps

    Question. During your travels what problems do you hear associated 
with spousal employment, both in CONUS and overseas?
    Answer. The mobile military lifestyle is reported by spouses to 
present barriers to employment and career development that spouses in 
stable work environments do not experience. Spouses are often 
discriminated against in competition for jobs due to the service 
members' affiliation with the military. Spouses have to vigorously work 
at convincing employers that they are dependable and will be available 
for work. Other barriers are: last hired is the first laid off, under 
employment, and lower pay often with no medical, dental or retirement 
plans. The mobility of the service member's career then results in the 
establishment of two separate households and puts unique strains on the 
family. Spouses with careers are less willing to move each time a 
service member is transferred.
    OCONUS barriers are more detrimental to spouse employment than 
CONUS employment. Spouses often put their careers on hold to accompany 
the service member overseas knowing that employment is nonexistent or 
limited. SOFA agreements at overseas installations prevent employment 
in some cases and under employment. Other factors include: language, 
transportation and child care in a foreign environment.

                     Spousal Employment--Air Force

    Question. During your travels what problems do you hear associated 
with spousal employment, both in CONUS and overseas?
    Answer. CONUS--One of the problems that we find across the service 
is the unrealistic expectations of spouses concerning ``Spouse 
Employment'' programs. Military programs were designed to prepare 
spouses for the job search by designing training programs to meet the 
needs of the first time job hunters, professional spouses, and those 
interested in furthering their education or those who wish to use their 
talents in volunteer positions. The program was never intended to be a 
placement service. That is why the Air Force calls its program ``Career 
Focus.'' OVERSEAS--The Status of Forces Agreement (SOFA) in some 
countries limits employment for spouses especially in Italy, Turkey, 
and Korea. Most spouses in those countries cannot consider entrepreneur 
types of employment. Some bases, however, provide classes for spouses 
on preparing for job searches once they return to the mainland. At 
Lajes, the Family Support Center Career Focus office prepares spouses 
for resume writing and interviews and helps them set up interviews 
before they leave the island. At Ramstein, there is a special course 
for spouses interested in starting their own business. They learn about 
contracting, financial concerns, marketing, etc. We also try to get 
overseas spouses interested in volunteering. They can use that 
experience on their resumes. So despite the problems of a limited job 
market, there are opportunities to take advantage of overseas.

       Women, Infants, and Children Program (WIC) Overseas--Army

    Question. What benefit does the WIC program provide junior enlisted 
families?
    Answer. The WIC program provides supplemental foods, health care 
referral, and nutritional education to junior enlisted soldiers and 
their families. The program is designed to target women, infants, and 
children who are nutritionally at risk. The WIC program's preventive 
approach helps save long-term health costs and treatment for families, 
as well as reducing the work load on the military health care system.
    Question. Are problems arising because these benefits are not 
available overseas and what is being done to rectify this problem?
    Answer. This program currently is unavailable to soldiers overseas. 
Entitlements for junior enlisted families enrolled in the WIC program 
are terminated once they are assigned overseas. DOD petitioned Congress 
to establish the program overseas for soldiers and their families. The 
Fiscal Year 1995 DOD Authorization Act authorized the Secretary of 
Defense to implement a special supplemental food program outside the 
United States, and directed the United States Department of Agriculture 
(USDA) to provide funding. Implementation of the program has been 
delayed due to funding problems. DOD and USDA are working to resolve 
the issue.

       Women, Infants and Children Program (WIC), Overseas--Navy

    Question. What benefit does the WIC program provide junior enlisted 
families?
    Answer. The WIC program provides our junior enlisted families the 
same benefits of improved infant nutrition and discretionary income as 
their civilian counterparts.
    Question. Are problems arising because these benefits are not 
available overseas and what is being done to rectify this problem?
    Answer. The Navy has a very active overseas screening program 
designed to ensure that no overseas assignments are made for service 
members not capable of living within the economic and health 
constraints engendered by an overseas assignment. While the Marsh panel 
found that most E-4 and below are eligible for WIC, the Navy maintains 
a policy that E-3 and below service members with dependents are not 
eligible for overseas assignment, no exceptions. It is therefore 
anticipated that any overseas WIC program will provide the most benefit 
to those services with less stringent overseas screening programs. So 
long as COLA is at an adequate level and BAQ/OHA are paid, there is no 
need for WIC. Married Sailors overseas often enjoy greater 
discretionary income for the basics than their counterparts in the U.S.

    Women, Infants and Children Program (WIC) Overseas--Marine Corps

    Question. What benefit does the WIC program provide junior enlisted 
families?
    Answer. The WIC program provides junior enlisted families with the 
following: formula, milk, peanut butter (diet staples). The program, 
which is offered through local departments of social services has been 
a tremendous financial benefit to junior enlisted families.
    Question. Are problems arising because these benefits are not 
available overseas and what is being done to rectify this problem?
    Answer. The junior Marines and their families who would be eligible 
in the States for the WIC program have to go without the program 
overseas. This puts a real strain on those young families and it is 
especially detrimental if the family has to live off base on the 
foreign economy. Fluctuations in the dollar often cause tremendous 
hardship. The Chaplains, Red Cross and Navy/Marine Corps Relief Society 
are called up to provide assistance overseas; however, they too are 
limited in what support they can provide. The WIC program needs to be 
authorized for use overseas.

     Women, Infants and Children Program (WIC) Overseas--Air Force

    Question. What benefit does the WIC program provide junior enlisted 
families?
    Answer. The Special Supplemental Food Program for Women, Infants 
and Children (WIC) provides food vouchers and nutritional information 
to at-risk, low income pregnant women, postpartum mothers, and infants 
and children up to age five. The WIC program is administered at the 
Federal level by the Food and Nutrition Service of the U.S. Department 
of Agriculture (USDA).
    Question. Are problems arising because these benefits are not 
available overseas, and what is being done to rectify this problem?
    Answer. The major problem facing young enlisted members overseas is 
lack of adequate finances. Young military families overseas are faced 
with economic difficulties because of the high cost of living in areas 
such as Germany and Japan. Many live off base in isolated areas. 
Expensive automobile insurance claims a large part of the member's 
paycheck. WIC would provide nourishing foodstuffs to eligible junior 
enlisted families who may need assistance to buy groceries. In the 
Pacific, 12% of families using the child care centers earn less than 
$23,000 in total income per year. In Europe, 10% earn less than $23,000 
per year. The nutritional education component of WIC, which teaches 
young families to prepare healthy low-cost meals, is as important an 
element of the WIC program as is the better known food subsidy. This is 
a long-term benefit that helps not only the mother and child, but the 
entire family--a true primary prevention dividend. This program is not 
currently available overseas due to a lack of funding.

                            Education--Army

    Question. Would you share with the Committee what you hear in your 
travels about the quality of education for dependents.
    Answer. Soldiers' concerns about the quality of their children's 
education is directly related to where they are stationed. Overseas, 
they want schools to offer courses that meet the elective, pre-college, 
and occupational needs of their children. Department of Defense 
Dependents' Schools (DODDS) conducted a six-year analysis which was 
highlighted in the recently released 1995 ``Report Card from DODDS 
Parents.'' This showed the percentage of parents who awarded ``A's and 
``B's'' to our overseas schools rose significantly from 54-percent in 
1989 to 67 percent in 1995, indicating a very positive trend. 
Exceptions to the trend were the gifted and talented programs, which 
the DOD Education Activity (DODEA) plans to review in light of these 
findings.
    Stateside, where many soldiers' children attend schools which are 
run by local education authorities (rather than by DOD), soldiers' 
concerns relate to the availability of sufficient funding for these 
public schools. U.S. Department of Education Impact Aid funding is 
usually less than 40 percent of the cost to educate a dependent child. 
Local taxes do not make up for Impact Aid budget reductions. Regardless 
of where they are located, our soldiers want schools to have the 
resources, personnel, and technology necessary to support their 
children's learning.

                            Education--Navy

    Question. Would you share with the Committee what you hear in your 
travels about the quality of education for dependents?
    Answer. I receive very few complaints about the quality of 
education provided to military families in DoDDs-served locations 
overseas. Achievement test scores in DoDDs are consistently higher than 
the national average, and few U.S. school districts offer the caliber 
of early intervention and medically-related services found in DoDDs. 
Observed or reported weaknesses include overcrowding, day care (for 
special needs children in particular), and inadequate recreational 
opportunities for high school children.
    Two non-DoDDs overseas locations frequently cited by concerned 
parents are Guam and Hawaii, where many military families elect the 
financial sacrifice of placing their children in private schools due to 
perceived weaknesses in public education.
    In the U.S., the persistent underfunding of impact aid to school 
districts with a significant proportion of military families is of 
growing concern.

                        Education--Marine Corps

    Question. Would you share with the Committee what you hear in your 
travels about the quality of education for dependents.
    Answer. In general parents are very pleased with the education 
provided by the Department of Defense Education Activity. When concerns 
were expressed over the implementation of a new mathematics program, 
Math Land, the Marine Corps and DoD Dependent Schools were interested 
in what parents had to say. According to the survey conducted, the 
Marine Corps parents were most concerned about the implementation of 
the program and the effect of a totally new, non-traditional approach 
to mathematics when it came time for students to transfer back to 
stateside schools. DoD Dependent Schools provided more information to 
parents and set up summer workshops for teachers to ease the 
transition.

                          Education--Air Force

    Question. Would you share with the Committee what you hear in your 
travels about the quality of education for dependents?
    Answer. Generally, the information received on the education of our 
dependents is good. There are isolated cases as in any school system 
where problems arise. Problems are dealt with expeditiously between 
school officials and the military commanders. Communication between the 
school system and the military community has improved over the past few 
years. Current emphasis on teacher improvement, more rigorous 
standards, technology development, and the adoption of a school home 
partnership program have promoted effective integration of school, 
community and family.
    We do have grave concerns regarding the professional leadership 
within the Department of Education in the Territory of Guam. Children 
of assigned personnel attend the Guam public schools. DoD does not 
operate schools on the island of Guam. Our major concern is the poor 
quality of education provided by the Guam public schools and the lack 
of accountability in the areas of instruction, maintenance, and hiring 
practices. The educational program provided by the Guam public schools 
is not comparable to the program provided by the DoD schools overseas 
or the DoD domestic schools located on military installations in the 
US. The current and previous commanders at Anderson Air Force Base in 
Guam have always been concerned about the quality of education that 
military children receive attending the Guam public schools. As 
recently as March 3rd, the Guam Department of Education was threatening 
school closures, staff layoffs, elimination of student services, 
cafeteria closings, and the curtailment of interscholastic activities 
due to lack of funds. Even with the additional DoD dollars over the 
past ten years (FY 96=12 million), the problems continue. It may be 
time that we seriously consider all other viable options including 
recommending to DoD that we consider building DoD schools to provide 
quality educational programs for our dependents on Guam.

    [Clerk's note.--End of questions for the record submitted 
by Chairman Packard.]
                                          Wednesday, March 5, 1997.

                         DEPARTMENT OF THE ARMY

                                WITNESS

ROBERT M. WALKER, ASSISTANT SECRETARY OF THE ARMY (INSTALLATIONS, 
    LOGISTICS AND ENVIRONMENT)

                       Statement of the Chairman

    Mr. Packard. I had the privilege of meeting with Mr. Walker 
the other day, and it was a real pleasure to meet with you and 
to visit with you, and I'm expecting a very good hearing this 
morning. We want to welcome you here to our third hearing this 
year. I think you're known as Mike to most people.
    Mr. Walker. Yes, sir, Mr. Chairman.
    Mr. Packard. I did want to congratulate you for including 
foreign barracks improvements in your funds. We think that 
that's an area that is certainly needed. The quality of life 
issues are as important to our overseas troops as they are here 
at home.
    I've read very carefully your full testimony. It's very 
inclusive. It certainly is well organized and well done, and I 
appreciate it very much. I may have some questions as we get 
into the question and answer period, that are specific to your 
testimony, as well as some general questions that I'll have. 
Welcome, Mr. Tiahrt.
    And so with those very brief remarks, and for the benefit 
of the members who might not be able to remain, we will 
proceed. Our next hearing is at 9:30 tomorrow morning. We 
apologize for the early hour, but it does help us not to 
conflict with votes and with other activities of the day.
    We're moving along very well on our hearings, and I might 
mention that the hearings have been very well organized and 
very well done. I've been very pleased thus far. Tomorrow 
morning's hearings will be the Navy and the Marine Corps and 
our witness will be Mr. Robert Pirie, the Assistant Secretary 
of the Navy for Installations and Environment.
    We're very, very pleased to welcome this morning Mr. 
Walker, who is the Assistant Secretary of the Army for 
Installations, Logistics and Environment. And before we have 
you introduce your support group that's here with you, I think 
it would be appropriate for us to meet those who are here with 
you. I'd like to invite Mr. Edwards if he would like to have 
any opening statements.
    Mr. Edwards. Mr. Chairman, because of the 10 o'clock 
memorial service for our former colleague Frank Tejeda, who was 
a great veteran and member of Congress, I am going to pass on 
my opening statement. I am glad to have the Secretary and other 
leaders here. Thank you.
    Mr. Tiahrt. I also pass and am glad to have you here.
    Mr. Walker. Thank you. Thank you very much.
    Mr. Packard. Thank you very much. I think most of us have 
either read or will read your testimony, and I think it's your 
style not to just----
    Mr. Walker. Yes, sir.
    Mr. Packard [continuing]. Reiterate what you've written.
    Mr. Walker. Sure.
    Mr. Packard. We'd appreciate if you would hit what you 
consider the highlights for this Committee to know and hear, 
and then we'll open it up for, for discussion.

        opening statement--honorable robert m. walker, asa (ILE)

    Mr. Walker. Thank you very much, Mr. Chairman. I appreciate 
those comments, and I would ask that my full statement be 
included in the record.
    Mr. Packard. Certainly will.
    Mr. Walker. Mr. Chairman, let me introduce those who are 
with me. I think many of the members know Mr. Paul Johnson, who 
is the Deputy Assistant Secretary of the Army for Installations 
and Housing. He's been testifying before this Committee for 
many, many years. Back when I worked on the Senate side and sat 
in a similar position, as Hank and Liz, Paul was testifying 
before me in those days. And I must tell you that sitting here 
on this side of the table is still an unusual feeling for me.
    Mr. Packard. Let me interrupt. I had intended to read a 
little bit of your biography and mention that you had spent 
considerable time doing just what we're doing.
    Mr. Walker. Yes, sir.
    Mr. Packard. Serving as a staff person on the Senate side 
on military construction appropriations, but you've had a lot 
of other very noble--experiences that I won't go into but----
    Mr. Walker. Thank you, Mr. Chairman. I've spent many hours 
in this room before conference I might add. But it's a pleasure 
to be back.
    I'm also accompanied by Maj. Gen. Randy House. Gen. House 
is our new Assistant Chief of Staff for Installation 
Management. And we are very glad to have him with us. Gen. 
House not only brings with him the experience of a former 
installation commander, he was a commander at Fort Riley, but 
for the past, 2 plus years, I suppose, Randy has been the 
senior military assistant to the former Secretary of Defense 
Bill Perry. So he brings a wealth of experience to us at a 
critical time and we need that kind of experience in our 
Assistant Chief of Staff for Installation Management.
    I'm also accompanied by BG Bill Bilo who has testified 
before this Committee on several occasions. He's the Deputy 
Director of the Army National Guard. And BG James Helmly, who 
has also testified many times before the Committee, as the 
Deputy Chief of the Army Reserves.
    Mr. Chairman, we thank you for the opportunity to appear 
this morning on behalf of our request for family housing and 
military construction.
    Mr. Chairman, I think we all probably agree that we have 
the best Army in the world today and probably our best Army in 
our history. Our challenge, as you heard from the testimony 
yesterday, our challenge in the future is to keep it that way. 
And while we may have the best Army today, it's not preordained 
that we are going to continue to have the best Army in the 
future. The fact is, as you heard yesterday, that in, that in a 
good economy, it's hard to compete with the civilian job 
market. Studies are showing that the propensity of young people 
to join the military today is declining. And this year in the 
Army----
    Mr. Packard. Let me interrupt you just a moment. I heard on 
the news on the way in that the Army has decided to not require 
a high school diploma because enlistments are down.
    Mr. Walker. What the decision is, previously we have 
required 95 percent of our recruits to have a high school 
diploma and the additional 5 percent to have a GED or 
equivalent. What we have determined to do is to go back to the 
Department of Defense standard which is 90 percent high school 
diploma and 10 percent GED. That was what the decision was.
    And Mr. Chairman, one reason is that this year we need to 
recruit almost 90,000 young men and women. Three years ago, 
when I was sworn in, we were only recruiting 65,000. So we're 
trying to compete in a better economy and it's difficult. And 
of course then, once we recruitsoldiers, they gain skills and 
training that are valuable in the civilian job market. So there is no 
guarantee that we will always be able to attract and retain the young 
men and women that we're going to need in the future to continue to 
protect this nation's interest. That's why the work of this 
Subcommittee, quite frankly, is so important.
    It's really imperative that we continue to provide a good 
quality of life for our soldiers and their families. If ever 
our soldiers perceive that we have lost our focus on quality of 
life, if ever they believe that we're not doing what we can for 
them, then the Army, frankly, is in danger of losing its edge, 
and we cannot let that happen. When I was nominated, I told the 
President that it was my view that if you take care of 
soldiers, they'll take care of the nation. And that is still my 
basic philosophy and always will be as long as I'm in this job. 
But in these tight budget times, and with a balanced Federal 
budget becoming a reality, I think we're probably going to find 
it increasingly difficult to put our money where our mouth is 
as the saying goes.
    The request before you today represents many months of 
debate and many months of discussion within the Department of 
the Army. The guidance that we received from the Secretary of 
Defense, Secretary Perry, was that we continue to emphasize 
readiness as the first priority and that we provide the maximum 
pay raises allowed by law. And then once we did that, all the 
other requirements had to compete for the remaining resources. 
This past year, we reformed the process that we use internally 
to program our 6-year budget plan for the Army budget. And that 
actually allowed us to give new focus, especially to quality of 
life requirements. And as a result, Mr. Chairman, the request 
before the Subcommittee does represent some progress from 
previous years. In the FY 98 request that's before you, we were 
able to increase the military construction and family housing 
accounts by $300 million over the amount we had previously 
planned for the '98 budget year. And I'm pleased to report that 
this budget request, for the first time in many years, many 
years that I can remember, requests more funding for active 
Army military construction than was approved by the Congress in 
the previous year. That hasn't happened in a long time. As a 
result of this increase, Mr. Chairman, we were able to fully 
fund our highest priorities which are barracks and strategic 
mobility.
    Mr. Chairman, since I've been an Assistant Secretary, I've 
found that today's soldiers are very realistic. They know that 
we cannot do everything right now. They understand that there 
are financial limits and budgetary restraints. But what they do 
want to know is that we have a plan to make things better and 
that we're working to execute that plan. And Mr. Chairman, we 
have developed a plan to replace or revitalize or renovate 
single soldier barracks in the United States by 2008, 
throughout the world by 2012. The previous plan called for not 
finishing that until the year 2020, and that was just too long. 
So Mr. Chairman, we deeply appreciate this Committee's support 
for our barracks effort, and we ask for the assistance of the 
Subcommittee in helping us keep that plan on track in the 
future.
    Now with regard to family housing, Mr. Chairman, the 
request before you would replace or revitalize 1,000 units of 
family housing. Well, Mr. Chairman, we have 119,000 sets of 
family quarters. And we cannot ask America's soldiers and their 
families to wait more than a century while we replace 
substandard housing. I think we all probably agree that there's 
a great deal of truth in that saying that you recruit soldiers, 
but you re-enlist families. And the problem is that in our 
current budget climate traditional methods of providing family 
housing is never going to be enough for us to meet our 
requirements. And it's my personal judgment that if we fail to 
provide quality housing for soldiers and families, they will 
essentially vote with their feet. They either won't enlist, or 
once enlisted, they won't stay in the Army, and we'll be left 
with a major personnel challenge and major personnel shortages. 
We cannot let that happen.
    Therefore, Mr. Chairman, we are looking at ways of 
leveraging the private sector to help us construct and renovate 
and operate and maintain family housing. And I want to thank 
this Subcommittee, Mr. Chairman, for its foresight in approving 
the seed money in previous years that helps us to implement the 
legislation which permits us to test a wide range of housing 
privatization concepts. Just a couple weeks ago, I visited Fort 
Carson to review the Army's first and the Department of 
Defense's most complex family housing privatization effort. And 
during fiscal years '98 and '99, we plan to proceed with an 
additional 14 projects. And from my visit to Fort Carson, I'm 
confident that the test there is going to be successful. I 
believe that it's going to help us to define the kind of long-
term approach that we need to take for family housing. So Mr. 
Chairman, we would ask for the Committee's continued support 
for our privatization initiative.
    Mr. Chairman, with regard to our base closure program, I'm 
proud to tell you that we've finally turned the corner. Fiscal 
year '97 is the first fiscal year where we will begin to save 
more money from base closures than we're spending. And it's 
taken us 9 years, but the investment is beginning to pay off. 
And by the end of fiscal year 2001, when the current round of 
base closures must be completed, we will be saving $1 billion 
annually from what we would have been spending without base 
closures and realignments. And those savings are taking into 
account the large cost of environmental cleanup that we have to 
undertake. So we ask for the Committee's continued support for 
our request to fund the base closure program.
    And Mr. Chairman, before I conclude and take your 
questions, I would like to highlight one particular request 
that's before you, and that is our prepositioning program in 
the Persian Gulf region. Last month, I visited our new 
prepositioning afloat maintenance facility which is in 
Charleston, South Carolina. And during my visit, the Army was 
loading the first LMSR. That's the acronym for the six football 
field-size cargo ship that will join our war reserve afloat 
fleet in Diego Garcia. And I want to emphasize here this 
morning, Mr. Chairman, the absolute importance of 
prepositioning to deterrence in that region of the world.
    While I was walking around observing the loading 
operations, I asked a young PFC who was working there on the 
ship in the loading operations what it all meant to him. And 
without thinking, he said: ``So Saddam Hussein won't make the 
same mistake again.'' And that PFC I think was right on the 
money. I believe that if we had had tanks and equipment 
prepositioned in the region in 1990, Saddam would have probably 
thought twice before he decided to invade Kuwait.
    During Desert Shield, it took us 20 days before we had even 
the first M-1 tank in the desert. Twenty days, that's a long 
time. A lot can happen in that length of time. Last fall, when 
the President deployed elements of the 1st Cav, we had a 
brigade of soldiers beginning to fall in on tanks that were 
prepositioned in Kuwait in 96 hours. And that I really think is 
deterrence, Mr. Chairman.
     But I will tell you that our existing prepositioning in 
the region, the brigade in Kuwait and the brigade afloat that 
we have available to the region, is not enough to ensure long-
term deterrence or to ensure an adequate defense if Saddam or 
some other enemy of freedom were to decide to attack. A future 
enemy is not going to do what Saddam Hussein did. He just sat 
there and let us build up our forces for 6 months, essentially 
unchallenged. And that will never happen again. So we deeply 
appreciate this Committee's support for our prepositioning 
initiative in Quatar. The last phase of this project, Mr. 
Chairman, is included in this budget request, and we 
respectfully ask for your continued support.
    Now Mr. Chairman, I have taken the last few minutes to talk 
about what is in our request. Let me take just a moment to talk 
about what is not in the request. As we went through the 
programming process, every requirement could not make it to the 
top of the list. And because of the necessity that we had to 
prioritize and make tradeoffs and ensure, at the same time, 
that we had adequate funding for readiness and personnel, we 
were unable to provide increases for operational facilities 
construction or for Guard and Reserve MILCON. And that, I will 
tell you, is our challenge for the future.
    We found ways to, and we're working on, other ways of 
improving quality of life investments. But the requirement to 
increase investment in operational facilities, investment in 
Guard and Reserve MILCON, is here on us, and we've got to find 
ways to do that. And this is coming to us at a time that for 
the Army we also have to find ways of increasing our science 
and technology budget and our equipment modernization budget. 
And when we see that challenge and factor in the likelihood of 
a balanced budget, we know that the budget for military 
construction is not going to grow appreciably. So for us, we 
know what that means. We know that we have got to continue to 
do some things better, that we're going to have to continue to 
become more efficient, that we're going to have to continue to 
adopt better business practices. Doing that is not going to be 
easy. But I'll tell you, it's the approach that we're going to 
have to take if we're going to find the resources to make the 
facility investments that are needed for a modern Army, 
particular for the Army that we're going to require in the 21st 
century.
    So Mr. Chairman, we're going to need the help and support 
of this Committee along the way. We thank you for all your help 
and support in the past. We're going to need it now more than 
ever, and we look forward to our continued partnership on 
behalf of the men and women of the Army, Mr. Chairman.
    [The prepared statement of the Honorable Robert M. Walker 
follows:]

[Pages 343 - 375--The official Committee record contains additional material here.]


    Mr. Packard. Thank you very much, Mr. Walker. I was going 
to go to you first, Mr. Edwards, but apparently you are out of 
time so----
    Mr. Edwards. I am sorry. To those members who arrived after 
my opening comments, Frank Tejeda's memorial service is going 
to be held at 10 a.m. As a member of the Texas delegation and a 
friend of Frank's, I apologize for leaving early. Thank you, 
Mr. Chairman.
    Mr. Packard. That's fine. If you would submit any questions 
you have for the record, we'll certainly----
    Mr. Edwards. I will do that. Thank you.
    Mr. Packard. Thank you very much.

                        budget planning process

    We had a good visit when you came to my office, Mr. Walker, 
about a 5-year planning process. I noticed in your formal 
submitted remarks that you have presented a 2-year budget which 
was new to me, and I really was not only intrigued but somewhat 
grateful to see that. That is the beginning, in my judgment, of 
a 5-year plan. Would it be difficult, or is it going to be 
difficult, to do very similar to this in future years where we 
would be able to see what your long-term plan is, as you've 
showed us a 2-year plan, extend that to a 5-year plan?
    Mr. Walker. Yes, sir. We actually have in our planning 
process now a 6-year planning cycle. So we actually have goals 
for the years beyond fiscal year '99 through the year, fiscal 
year 2003 for military construction, family housing, base 
closure, for all of our requirements in the Army. That is put 
together in our future year defense plan, and I'm sure the OSD 
comptroller would be willing to share that with the Committee.
    Mr. Packard. Is that the basis of your budget planning on a 
current annual basis?
    Mr. Walker. Yes, sir, it is. When we reformed the budget 
planning process last year, we essentially utilized the first 
year of the future year defense plan for fiscal year '98 as the 
basis for the budget for fiscal year '98, '99----
    Mr. Packard. Do you see much change in that plan? Is there 
a great deal of updating or changing that takes place from year 
to year?
    Mr. Walker. From year to year, there is a modest amount. 
For future years, you'll see large changes, quite frankly. It's 
a planning cycle, and a great deal of things change over time. 
We would hope, for instance, Mr. Chairman, that over time we'll 
be able to persuade others in the Army as we go through the 
prioritization process to put a little more money into family 
housing and into military construction for the Guard and 
Reserve, for operational facilities, because as youlook in 
those future years and those out years to 2003, it's still pretty low, 
we need to work on that.
    Mr. Packard. Well, I appreciate your efforts in that 
regard. I think that if we can get that throughout Government, 
just not here at MILCON, that will be I think a great step in 
the right direction.
    Mr. Walker. Yes, sir.

                      infrastructure requirements

    Mr. Packard. While I was out visiting some of the bases in 
my initial visits that I'm trying to do, there was an area that 
I think stood out rather clearly as an area that's easy to 
neglect and possibly is neglected, and that is the underground 
infrastructure on our bases. Most of our bases are old. They've 
been around for a long time. Most of them at least go back to 
World War II. And a lot of the underground infrastructure is 
World War II vintage or older in many instances. When you build 
a new barracks or a new building or even on-base housing, it 
doesn't change brackish water or brown water or sewer problems 
or electrical problems, if the underground infrastructure has 
not been upgraded. That's a huge, expensive item and one that's 
easy to forget or overlook because it's not seen. And is that 
included--and I notice that you've mentioned infrastructure. Is 
that included in your long-term budgeting?
    Mr. Walker. Yes, sir. And take barracks, for instance, as 
you mentioned. We program underground infrastructure 
improvements such as utility improvements, as part of those 
projects. But as you look overall at the infrastructure 
challenge that we face, we probably have as much as $6.9 
billion in infrastructure requirements, substandard 
infrastructure that needs to be improved. They tell me that 
probably 50 percent of our infrastructure, the underground 
utilities and the like, is substandard today. And I can tell 
you from visiting some of our locations around the world, we're 
going to have a hefty price to pay someday when they start 
failing in major ways. So it is an area of great concern.
    I'll tell you one of the things we're doing. As a matter of 
policy, the Army is attempting to privatize as much of our 
utilities as we can. We're finding that water and sewer plants, 
electric utility distribution, other utility facilities are 
often of interest to local communities. And we're proceeding 
with privatization. We have a goal to privatize up to 100 
percent in the future as you look long term into the 21st 
century. I will provide for the record the number of utilities 
that we've already privatized, the number that we have 
underway. We have studies of roughly 100 going on right now. We 
believe that that is one way to deal with our infrastructure 
problem. Many, many local communities see benefit, because 
they're able to gain some benefit by the privatization as well. 
So that is one way that we will have to deal with our 
infrastructure problem.
    [The information follows:]

                        Utilities Privatization

    The Army now has 12 utility privatized, 8 in the process of 
being transferred, and over 100 at various stages of study.

    Mr. Packard. The problem is so large, I'm not sure that we 
could even make a dent in it that would be observable----
    Mr. Walker. That's right.
    Mr. Packard [continuing]. If we didn't find a way to fast 
track it, and privatizing may be one of those ways.
    Mr. Walker. And you know, we're finding that in the 
civilian sector too. Our infrastructure is beginning to 
crumble.
    Mr. Packard. Mr. Tiahrt.
    Mr. Tiahrt. Thank you, Mr. Chairman. Mr. Walker, glad to 
have you here. I think you've got a very tough job. The 
Department of Defense is the only branch of the Federal 
Government, to the best of my recollection, that has had an 
increase in work scope and a decrease in budget. Most everybody 
else has a decrease in budget and a decrease in work scope. So 
you have a tough job.
    Mr. Walker. It is a daily challenge, I will tell you.
    Mr. Tiahrt. I imagine it is. And it takes innovation. I 
think, for example, Gen. House formerly at Fort Riley came up 
with a good way of trying to provide good housing by 
renovating. And I think that's part of what's in this budget is 
to continue that effort. And I want to comment on that. I 
appreciate your innovation, Gen. House. It really has left a 
good legacy behind in Fort Riley.
    But I'm a little concerned about not budgeting things that 
the military has to do, like Bosnia. And I just want to put 
this on the record, that we have got to be honest about what 
we're going to spend, and the Administration has to be honest 
about what they're going to spend in overseas missions, because 
it is an increase in work scope. And everything that you do in 
your area of Installations, Logistics and Environment, is 
placed at risk by not budgeting such missions. So that makes 
your job increasingly more hard, as far as the requirement of 
innovation and cutting corners and, I don't want to see that. 
We talk about quality of life and the way we do this for our 
installations. Yesterday we had the chief master sergeants and 
those who represent the men and women who do the work. And they 
said that you re-enlist the family. You enlist the soldier. You 
re-enlist the family. And that's where you got a tough job.
    I see Ft. Leavenworth disciplinary barracks $63 million. 
And I assume that's budgeted for to house more prisoners.
    Mr. Walker. It's for replacement of the current facility--
--
    Mr. Tiahrt. So it's not expansion.
    Mr. Walker. No, sir. Well, actually, it will be a smaller 
prison than the one we have now.
    Mr. Tiahrt. All right. We have got a lot of other places 
that I'd like to spend money on besides prisons.
    Mr. Walker. Yes, sir.

                             privatization

    Mr. Tiahrt. But I understand you have some priorities. 
Privatization is another initiative that I support. I 
appreciate your efforts. I hope I understand this. You're 
trying to move military personnel into a private housing market 
and allow them to build a little equity? Is that part of the 
initiative too going beyond the privatization?
    Mr. Walker. Over time, that could be part of the 
initiative. The current initiative, for instance, at Fort 
Carson, is to seek a developer who would take over the 1,800 
units of family housing that we have and renovate those units 
in 5 years, and in addition to that, to build another 825 units 
of new housing, and all within 5 years. And then continue to 
operate that housing and maintain it for a period of 50 years 
with a 25-year option after that. If we did that, using the 
current program that we've got, it would be over 50 years 
before we could ever accomplish that kind of construction, that 
kind of renovation at Fort Carson, which is a very high-cost 
area for soldiers.
    So that is the essence of our first privatization 
initiative which is ongoing at Fort Carson. We'll be looking at 
other methods in those other 14 that I mentioned in my opening 
statement to try to see what works best. I'm one of those 
people who believe that what works best at Fort Carson may not 
work at Fort Riley, for instance, and that you have to have a 
menu that you can choose from.
    Mr. Tiahrt. Mr. Chairman, I would just like to conclude by 
saying this. I would like to see us continue this privatization 
thought by allowing members of the military to develop some 
equity in a home somehow. Instead of investing in the 
infrastructure through privatization, let's invest in the 
people, and let them build a little of their own equity. I 
think there ought to be a way we can do that. Thank you, Mr. 
Chairman.
    Mr. Packard. That's an interesting concept. You mean to 
build up--if you'd yield--to build up equity in a privatized 
base housing project?
    Mr. Walker. You might ask the other Services about that. My 
recollection is one of the Services is looking at that specific 
proposal. And that will be part of the test with----
    Mr. Packard. I'd like to find out.
    Mr. Walker. Yes.
    Mr. Packard [continuing]. If you could--let me know.
    Mr. Walker. We'll sure do it.
    Mr. Packard. Very good. Thank you very much. Mr. Olver 
please.
    Mr. Olver. Taking me out of turn?
    Mr. Packard. Well, no, I----
    Mr. Olver. I'm perfectly willing to pass to the others 
while I read some more of the material, Mr. Chairman.
    Mr. Packard. I'll go to someone else. I was going to go 
from one side to the other irrespective of the order of 
arrival. But Mr. Hobson would be next then.

                      barracks projects in europe

    Mr. Hobson. Thank you, Mr. Chairman. I'm an old real estate 
guy, so I start looking at numbers, and I look at four projects 
in Europe. How many troops are going to be in Europe in the 
next 2 years, 5 years--you know pretty much now.
    Mr. Walker. Well, what we----
    Mr. Hobson. If you don't, I want to get the CINC back in 
here again.
    Mr. Walker. Right.
    Mr. Hobson. Because he said get a number, and he supposedly 
got a number.
    Mr. Walker. Right. The number overall, for all of the 
Services, is roughly 100,000. For us, it's about 65,000.
    Mr. Hobson. 65,000.
    Mr. Walker. Yes, sir.
    Mr. Hobson. How many units are you going to do for $43 
million?
    Mr. Walker. I'll have to provide that for the record.
    [The information follows:]

                        Troop Housing in Europe

    Four projects in Germany for a total of 43 million dollars 
will renovate barracks for approximately 307 soldiers.

    Mr. Hobson. Yeah, well, let me tell you my problem. I start 
looking at numbers, and I see $43 million. If I'm right, and 
you've got--you said the number of troops. But I want to know 
how many units you're going to do for $43 million. That's a lot 
of money.
    Mr. Walker. It is----
    Mr. Hobson. In the private sector, if you're going to 
build--of course, I'm not building in Europe, I'm not building 
on a base, and I don't know what rules you have to follow. If 
you had to follow the rules over there, this probably would 
build a different number of units. But I'd like to know what 
we're doing. You know, I'm not real happy with some other 
contracts the Army has done, mainly trucking contracts. So when 
I start looking at housing stuff, I know a little more about it 
than I do trucks although I'm learning.

                      guard and reserve components

    The other thing is that I'm very concerned about is--and 
this may be a wrong assumption. Let me put it this way. But my 
feeling is that the Army historically has not done as good a 
job with its Guard and Reserve units as some other Services, 
and I don't want to get into that. But I think that's a real 
problem in our readiness. When I see this coming this way, 
that's a problem with me, because long term, when the Army has 
to go, those people have to go. And then they get a lot of 
criticism because they're not ready, or they have to stand off 
someplace for a period of time, and then you take a lot of heat 
for that. I realize there is only so much money to go around. 
But the Army has got to look at what the change in the world is 
today, and whether we like it or not in the records, there is 
more dependence on the Guard and the Reserve and what they do. 
I think the Army is a little slow in recognizing that.
    Mr. Walker. Well, thank you for those comments, Mr. 
Chairman. I came out of the National Guard. I spent a great 
deal of time in the Tennessee National Guard and D.C. National 
Guard. And I can tell you today we can't go to war or go to any 
deployment without a large increment of the Guard and Reserve. 
Saturday, I just welcomed back my old MP unit from the D.C. 
National Guard back from Germany, where it had been since last 
July, to replace MP units that had gone on to Bosnia. If we had 
a major deployment like Desert Storm, 60 percent of the people 
would be Guard and Reserves. We cannot go to war without them, 
so we appreciate your comments.
    Mr. Hobson. Thank you, Mr. Chairman. I----
    Mr. Packard. Thank you. Whenever you're ready, Mr. Olver, 
we'll come back to you. We'll go on then with Mr. Parker. Mr. 
Parker.
    Mr. Parker. Thank you. I want to follow up with what Mr. 
Hobson has said. And I don't want to be confrontational. You 
know, I want to be sweet this morning. But I, I have a real 
problem. And let me tell you why I've got that real problem. 
Let's start off by my asking you a question. Do you accept the 
fact that you get a bigger bang for the buck with the Guard and 
Reserve as far as mission than anything else you've got in the 
military?
    Mr. Walker. That is a common phrase I use in all my 
speeches, yes, sir.
    Mr. Parker. Okay. So you, you accept that fact. I accept 
that fact.
    Mr. Walker. I certainly do because I know----
    Mr. Parker. And historically, this country has never had a 
tremendously large standing Army. It never has.
    Mr. Walker. Right.
    Mr. Parker. And we're, we're looking at things in a 
different way now. If you accept that fact, when I look at the 
figures that you have as far as the MILCON needs for the Guard, 
I don't see the numbers there that are necessary. Now I'm going 
to make a request of you. I want the Guard, Army Guard, to give 
me, give this Committee, what it needs, what it feels its needs 
are to have total readiness for its mission. My personal view 
is that the figures that you have in the budget are not there. 
Do you feel it meets all its needs?
    Mr. Walker. I don't know if you were here when I mentioned 
in my opening statement that that's a great deficiency in this 
budget.
    Mr. Parker. Okay, now, okay, now you admit that it's a 
deficiency.
    Mr. Walker. Yes.

                           army guard budget

    Mr. Parker. Now I want to know why in God's name are we 
taking the one part of the budget that has the greatest bang 
for the buck, and we're sitting back saying that's a great 
deficiency and, and we just can't quite do that right now. Why, 
to me, that's ridiculous.
    Mr. Walker. What the Guard did during the programing 
process, with the funds available to the Guard--and I might ask 
Gen. Bilo to speak to this a bit, because he sat on those 
planning committees as well--the Guard used funds first for 
readiness requirements. And once they put those readiness 
requirements and paid for them, the funds available for 
investment, such as construction, were just not available. And 
is there anything you'd like to add to that, Gen. Bilo?
    BG Bilo. Sir, I'd only add that regarding the Army budget 
process that we went through, the Guard was represented on each 
panel----
    Mr. Parker. Were you given a number first, or were you 
asked to give how many--look, you can approach it two different 
ways. You can turn around, and you can say tell me what you 
need to be prepared. Or they can say here's your number, and 
just go up to your number, and then that's where we're going to 
cut off. Which way did you approach it?
    BG Bilo. Sir, we took--as everybody did that worked through 
that budget process--the staff took requirements in, and they 
competed within the installations program evaluation group.
    Mr. Parker. Were you given a number----
    BG Bilo [continuing]. Part of the budget--no.
    Mr. Parker. You----
    BG Bilo [continuing]. No. No, sir.
    Mr. Parker [continuing]. Were not given a number.
    BG Bilo. No, sir. We, took a requirement--we, had to 
compete within that program evaluation group, and then each 
group had to compete within the Army, each one of the six 
groups had to compete for part of the total pie. And there were 
a lot of decisions made based on priorities, and I represented 
them, I took in our priorities, and everybody else took in 
their priorities. The final outcome, the decision makers set 
the priorities, and the final result was the MILCON budget that 
we submitted here.
    Mr. Walker. I've got to add, it's really worse than it 
looks in the budget, because I will tell you about our 
internal--what, what the General didn't say is that when we 
finished our internal budget reviews, there was about $3 
million left in MILCON for the Guard. And as a result of 
decisions made after we sent the budget to the Department of 
Defense, we were able to increase that to the $45 million that 
you see today.
    Mr. Parker. But Mr. Walker, the problem I have is in the 
past, this Committee and the Congress have always put add-ons, 
you know, to push up the number. Now you all know that. You 
expect that. You--and, and I think, my personal view is that 
basically, the Pentagon says well, boys, they're not going to 
allow us to do this. And they will put some add-ons on this 
thing, because they know we can't operate at this level. So 
what we will do is we're just going to wait, and we'll put in 
what we feel we need, and we know we'll get some add-ons later 
on. I'm going to tell you, that is a crazy way to budget, but 
that's what's been happening in the last few years. And I 
think----
    Mr. Walker. I think you're----
    Mr. Parker [continuing]. Now, now and no disrespect 
intended, but I think that's the mind set over there now.
    Mr. Walker. Yeah, I think there's a growing understanding 
that this Committee faces the same problem we've got. You all 
have a limited amount of money to deal with. Add-ons are going 
to be a lot more difficult for you. So those who might think 
that in the Army or, or in the other Services are, are going to 
have to rethink it because the future----
    Mr. Parker. Well, first of all, I think that is a 
ridiculous way to budget.
    Mr. Walker. Yes, I agree with you.
    Mr. Parker. I think it's a ridiculous way to plan. And my 
personal view is, and I'll close with this. I've got some more 
questions. But there is not a realization in the Pentagon this 
is a different world. Now being from the south, I've heard 
about civil war before. Friend, you all got a civil war at the 
Pentagon. Everybody over there is fighting. They're fighting 
with each other and each Service is fighting each other for 
those limited resources. You got the Guard out there, who I 
believe is being pushed to theside. Now that's my own personal 
view. And I guess being from a state where Sonny Montgomery comes from, 
I guess that's an inherent thing----
    Mr. Walker. Yes.
    Mr. Parker. But I'm going to tell you this, everybody's 
going to be hurt if we don't start having a plan out there 
where we know where we're going. And right now, I don't see 
that we really know where we want to go.
    Mr. Walker. Let me say this QDR process, the quadrennial 
defense review that's undergoing, that's going on right now, 
and I hate to second guess what may happen. But I think what 
we're going to find is that more responsibilities will probably 
be given to the Guard and Reserve as a result of that. Our 
challenge is to make sure that the resources go with that. 
And----
    Mr. Parker. Let me just interrupt. It is to the benefit of 
the regular military to turn over missions to the Guard where 
the Guard is not funded properly and watch them fail. Now 
that----
    Mr. Walker. The Guard won't fail.
    Mr. Parker. I'll tell you what, if they're not funded 
properly, they will.
    Mr. Walker. Oh, let me give you an example. Back a year or 
so ago, we had a rotation of our Sinai mission, which has 
traditionally been active component, fully manned by Guard and 
Reserve with a handful of active component leaders. It was a 
great success. The Army is looking internally at other 
missions, such as the Sinai mission, where the Guard and 
Reserve can, can help reduce the personnel tempo of our active 
component----
    Mr. Parker. Let me ask you a question. When we go to 
Bosnia, and the Guard and Reserve could have gone over and done 
a lot of the work, but it's contracted out to Brown and Root, 
and I'm sure Brown and Root needs training. I'm sure of that. I 
mean, you know, these guys with Brown and Root, I mean, you 
know, they've got families to support. They need that income, 
and they need to know how to do some things I guess.
    Mr. Walker. Well----
    Mr. Parker. But the Guard and Reserve could have done some 
of that.
    Mr. Walker. We have the----
    Mr. Parker. The Guard could--and, and everybody says well, 
it's cheaper to contract out. I don't think in the long run 
it's cheaper.
    Mr. Walker. We asked the same question, quite frankly. That 
was an issue that was discussed at great, great length both in 
OSD and in all the Services. The Department of Defense asked 
Logistics Management Institute to do a study. And they did show 
that there was about $140 million savings as a result of using 
Brown and Root, which is the LOGCAP contractor. There will be a 
different one in the future.
    In addition to that, if you--you would probably have to 
change some of your force structure around. But as we looked in 
at the issue, at the study that LMI did for DOD, they did find 
some, some reduction in cost through contracting.
    Mr. Parker. Can I tell you something?
    Mr. Walker. Yes, sir.
    Mr. Parker. It's hard for me to understand, unless somebody 
is biased against the Guard, how they can look at that type of 
situation, and see what they needed and what the Guard needs, 
and the training potential that is there, and how everybody can 
be so smart and make such a mistake; and I don't know how they 
made that mistake but I will tell you before it's over with 
we're going to regret that type of decision, because Brown and 
Root, when it comes to our national defense, these are fine, 
patriotic people, but the Guard is necessary for us to do what 
we need to do in this country.
    Mr. Walker. Yes, sir. Yes, sir, there's no question about 
it, and, you know, we have roughly 6,000 Guard men and women 
who are directly associated with the Bosnia mission, either 
in----
    Mr. Parker. And----
    Mr. Walker [continuing]. Either in Bosnia or in Germany.
    Mr. Parker [continuing]. They have a lot of Brown and Root 
people over there.
    Mr. Walker. Oh, yes, sir.
    Mr. Parker. And that's a problem. Thank you, Mr. Chairman.
    Mr. Packard. Thank you. Mr. Olver.
    Mr. Olver. Thank you, Mr. Chairman. Have I gained any time 
in the process of these deferrals?
    Mr. Packard. I thought there was a little erosion of your 
time--but I don't want to impose that.

             unspecified minor project--massachusetts arng

    Mr. Olver. Thank you. Thank you, Mr. Walker, for your 
testimony. I--being new to this committee this is a good 
summary overview and I wanted to comment on a few areas, ask a 
few questions. Let me take a parochial thing or two, one 
obvious and maybe not quite so obvious, but there is a 
construction project for the Massachusetts Army National Guard 
which had been programmed in Fiscal '97 under the unspecified 
minor construction for the Air Reserve at Westover. It was for 
a helicopter flight simulator for the Army Guard unit which is 
based there, which I'll talk about again a little bit later, 
but it had been approved by the National Guard Bureau in July 
'96 and placed on the '97 unspecified list, and then that 
approval was withdrawn. I don't expect you necessarily to be 
able to answer this but--directly--but I want to know what's 
happened to it, and why it was withdrawn, and where it's been 
put to, because on the unspecified list about to be going 
forward once it's been programmed, I would think, if you're 
planning process is rational.
    Mr. Walker. I don't know quite this answer. I might ask 
General Bilo if he's familiar with it.
    BG Bilo. Yes, sir. The minor dollars of '97 were 
redirected. We were told to redirect those funds to other 
projects.
    Mr. Olver. To what projects?
    BG Bilo. I can provide that list for the record. I do not 
have the list with me.
    [The information follows:]

                  Directed Minor Construction Projects

    The following FY 1997 Army National Guard projects were 
directed by Congress:

                                                              $ Millions
Scout armories, various locations, AK......................... \1\ 1.425
Army aviation helicopter landing pads & taxiway, Decatur, IL..  \2\ .575
Bachelor officer and enlisted barracks, For Harrison, MT...... \1\ 1.495
Land acquisition, Fort Harrison, MT...........................    \1\791
Training simultation building, Camp Rilea, OR.................  \1\1.350
                    --------------------------------------------------------------
                    ____________________________________________________

    Total.....................................................    $5.636
---------------------------------------------------------------------------
\1\ SAC initiatives.
\2\ HRC initiatives.

    [Clerk's note.--The Conference Agreement provided the full 
amount of the budget request ($5.5M), which did not contain 
project-level justification.]
    Mr. Olver. You were told to redirect them?
    BG Bilo. Yes. Yes, sir.
    Mr. Olver. After you had--you had programmed them and you 
were told to redirect them.
    BG Bilo. Yes, sir.
    Mr. Olver. Oh, well, okay. You were asked----
    Mr. Packard. You were asked to redirect----

                           brac environmental

    Mr. Olver. By language in the legislation that this 
Committee--well, we'll have to track that down. Maybe you can 
help me and maybe staff of the Committee can help me track down 
this process. I'll leave that but you know it's an issue of 
concern to me in any case. Let me--on your--the section on base 
closures, I notice that you have indicated what I hope are good 
numbers on what the one-time implementation costs and savings 
were and what the long-term benefits are after the--after 
completion. I notice that the major area of what would appear 
to be remainder of things to be done is in the environmental 
area, and in the 1988 draft you've got only slightly over half 
the sites that have been completed. Do you have the money 
appropriated? Is the money there in the BRAC account to 
complete those sites?
    Mr. Walker. The BRAC account, of course, will end in 2001 
under the current----
    Mr. Olver. All of them or just the one for 1988?
    Mr. Walker. No, all of them.
    Mr. Olver. All of them?
    Mr. Walker. If there are remaining environmental 
requirements, we will pay those out of our O&M budget and our 
budget for environmental clean-up, but we are obligated under 
the law to make those clean-ups as rapidly as possible. Some of 
the monitoring and some of the clean-ups will extend, quite 
frankly.
    Mr. Olver. So you're--it can continue to be used----
    Mr. Walker. Yes, sir.
    Mr. Olver [continuing]. For these.
    Mr. Walker. Yes, sir.
    Mr. Olver. Well, let me go on, then, the--interestingly the 
1991 seems to have a higher percentage cleaned up but there's 
one that I have a concern about, and that--well, I just want to 
ask you if in these base closures there is an environmental 
contamination that's discovered after land has been conveyed to 
the development authority that didn't know that it was--to a 
state, to a public development authority, or whatever, that 
didn't know that contamination was there, it's discovered 
afterward, clearly it's an Army-related environmental problem. 
Are you taking up responsibility for that?
    Mr. Walker. My understanding is the Superfund law requires 
that, and if I'm wrong my staff might tell me.
    Mr. Olver. That is correct.
    Mr. Walker. Yes.
    Mr. Olver. So there can be--there should be no question of 
whose responsibility it is.
    Mr. Walker. Right.
    Mr. Olver. Is there, then, an argument that goes on about 
whether the Army was responsible? Although it seems in these 
bases it's pretty clear, isn't it?
    Mr. Walker. If there has been some subsequent reuse which 
might be attributed, there would be some discussion. But, no, 
sir, other than that, no.
    Mr. Olver. But you do accept the responsibility; it is in 
the law that that should be the case?
    Mr. Walker. Yes, sir.

                       power projection platforms

    Mr. Olver. Okay, let me leave that for a moment. Let me go 
on, then, to your Reserve program, and I wanted to--in page--
the section on Reserve analysis, you make the comment in 
discussing the Reserve program that most of your Reserve 
requests are for Fiscal '98 and '99, includes a large--a number 
of projects at Fort McCoy, one of the Army's 15 power 
projection platforms. I--I'm, as I said, new to this Committee. 
I understand you have or are about to have two Reserve power 
platforms? Are the others Army Active power platforms? Can you 
explain to me what this power platform process is, and maybe 
there's a map somewhere that maybe more of us would be 
interested in----
    Mr. Walker. We'll be glad to provide that kind of map for 
you, and Fort McCoy, for instance, would be one of those 
locations where you'd mobilize if there were to be a major 
deployment.
    [The information follows:]

[Page 387--The official Committee record contains additional material here.]


    Mr. Walker. I don't have any----
    Mr. Olver. How many Reserve power platforms are there to 
be?
    Mr. Walker. I'd like to have----
    BG Helmly. There are two; there are Army--and Army Reserve. 
There are----
    Mr. Olver. Two?
    BG Helmly. There are 15 in the entire Army, Active Army, 
Army National Guard, and Army Reserve. The Army Reserve has 
assumed those as missions from Forces Command, and the 15 
number is the number of installations that the Army staff, in 
conjunction with the U.S. Army Forces Command, determined 
necessary to mobilize and move, mobilizing Active, National 
Guard, and Army Reserve forces through to meet the two major--
conflict scenario within the National Military Strategy.
    Mr. Olver. Okay, but you say there are two, and there are 
15. Is it 15--is----
    BG Helmly. It's 15 total.
    Mr. Olver [continuing]. These platforms for Active, 
Reserve, and Guard?
    BG Helmly. That's correct, and two are operated by the Army 
Reserve.
    Mr. Olver. Reserve, and those are McCoy in Wisconsin and 
Dix in New Jersey?
    BG Helmly. The Army Reserve will assume command of Fort Dix 
on 1 October of this calendar year.
    Mr. Walker. We just passed you a map.
    Mr. Olver. Oh, okay. And I notice that a lot of this 
construction money is for Reserve centers. The centers that are 
to be created in California and maybe converted or created, I 
don't know, as it is suggested in Michigan, Tennessee, 
Virginia, are these at a level of usage that articulate with 
the platforms or are these going to be more platforms?
    BG Helmly. Sir, I don't want to try to speak for my 
neighbor, General Bilo, but both the National Guard and Army 
Reserve are community-based on a daily basis throughout our 
towns and communities. In the Army Reserve, we have some 1,400 
centers that are located in local towns in virtually every 
state in the Union that house our units and soldiers on a daily 
basis. The 15 power projection platforms are major 
installations that you see on the map in front of you there 
that we move to for mobilization, for collective training and 
in the case of combat formations, tank gunnery, major weapons 
gunnery, maneuver training and in the case of the Army Reserve, 
running a petroleum line, say, or have hospitals in the field, 
that one cannot accomplish at the local center in a town or a 
community.
    Mr. Olver. If I may, just to clarify here, when--again, the 
15 and 2, I would infer from the way you're--the way--not 
exactly the words, but the way you're using them, that the 2, 
which are Reserve platforms, will not have Active Army units on 
them?
    BG Helmly. Sir, on a daily basis, they will not house 
Active Army units. They will train Active Army units, well as 
National Guard and Army Reserve, but on a temporary basis, if 
you will.
    Mr. Olver. Well, the other 13 which are Active platforms, 
will those have Reserve or Guard units?
    BG Helmly. The other----
    Mr. Walker. For training, yes.
    BG Helmly. The other 13----
    Mr. Olver. For training but not for general housing, not 
for general location?
    Mr. Walker. And for mobilization, yes.
    BG Helmly. For mobilization.
    Mr. Walker. In fact, all 15 will have a mix. All 15 will 
have a mix during a mobilization period.
    Mr. Olver. Okay, this is going to be a little bit of 
Chinese water torture to get all of this through. I have more 
but I'll--I will pass for a while. Will we have another round?
    Mr. Packard. Yes, we'll come back. Mr. Wamp.
    Mr. Wamp. Thank you, Mr. Chairman. I think there may be 
additional anxiety from the gentleman from Mississippi so I'll 
yield to him for----
    Mr. Parker. I thank the gentleman for yielding. Mr. 
Chairman, I know that you've expressed an interest in this but 
I would like to publicly ask that we have a briefing on the 
Guard and Reserve.
    Mr. Packard. I think that's in the process of being 
scheduled.
    Mr. Parker. Also I would----
    Mr. Packard. And part of this discussion will certainly be 
amplified there.
    Mr. Parker. And I think before that, I would--before we 
have the briefing, I would like submitted to this Committee for 
all the members a--in a utopia--what they would like to have as 
far as meeting the--what they feel their mission is and the 
real needs that they have as far as military construction and 
readiness. I think that in order for us to make the decisions 
that we need to make and the priorities that we need to make, 
we need to have that, and I--and the reason that I'm saying 
that is because I don't feel that the 200--250 million in 
MILCON over--in the budget, is it $250 million until 2003?
    Mr. Packard. That's probably about right.
    BG Bilo. Sir, the filing that we submitted that Mr. Walker 
talked about, in our budget submission, which you have copies 
of, we did a six-year plan, and it's got about $226 million in 
it for the six-year plan.
    Mr. Parker. Mr. Chairman, I don't believe that is a real 
figure from the standpoint of what is needed. I would like to 
know what they really need, and that way we--when we go into 
these briefings we will have a much better idea of what we 
need, but I respectfully submit that and I appreciate the 
gentleman's consideration.
    Mr. Walker. Let me add that the National Security 
Committee, in it's report last year, required a report on just 
that issue, Congressman, and that report will be coming soon. 
We actually have a meeting this afternoon to review it.
    Mr. Packard. Will it be available before the briefing is 
scheduled?
    Mr. Walker. When is your briefing, Mr. Chairman? We'll make 
sure it is.
    Mr. Packard. I think it will be probably about two month 
from now.
    Mr. Walker. Yes, sir.

                              davis-bacon

    Mr. Wamp. Reclaiming my time, as a member of the Army 
Caucus and one who was born at Fort Benning while my father was 
on active duty, I have to tell you that my brother was born 
there a year prior to me, and my father says that he cost about 
8 bucks and I cost about $12.00 to be born, and my parents are 
still questioning whether or not they got their money's worth. 
But it was a good deal, I think. But, welcome, Mr. Walker. We 
all have our different interests. I continue to go back through 
these hearings and ask questions about Davis-Bacon. Can you 
tell me, without jeopardizing any confidentiality or putting 
yourself in an awkward position, what the Army says to the 
Administration with respect to the increased costs associated 
with Davis-Bacon; exactly how you assess what that cost is; if 
it's just something that we accept and go on, or is it 
something that every year we continue to question; and is the 
burden that the Davis-Bacon provision places on our 
construction requirements growing?
    Mr. Walker. The studies are actually mixed on exactly what 
the level of impact is. Some studies say there's more impact 
than others. I might ask General House and Mr. Johnson if they 
have anything to add on Davis-Bacon?
    Mr. Johnson. It depends on what the project is. In fact, at 
Fort Carson, when we looked at that there was no difference in 
the Davis-Bacon cost of construction or the other. So, as I 
said, that's an inference that varies from place to place.
    General House. Sir, thank you, just to clarify that for the 
record, it's complex enough that----
    Mr. Packard. May I interrupt just a moment? Ourstenographer 
is unable to get the recording, so could you come up to the table and 
use the microphone. So, General, please come forward.
    General House. General House, sir. I was just saying I 
would like to provide that for the record because of the 
complexity of your question.
    Mr. Wamp. Let me ask you this, just for my understanding as 
well. Does Davis-Bacon apply to our construction overseas in 
any situation? I mean, if we're not using contractors from the 
United States----
    General House. Correct.
    Mr. Wamp [continuing]. Then it doesn't apply. So this is a 
domestic problem, and even then the testimony that you'll 
submit for me will reflect that based on different regions of 
the country it's a problem in some areas but it's not a 
significant problem in other areas where the cost of labor may 
be just as high as Davis-Bacon requirements in that particular 
region?
    General House. Correct. Sir, I really need to go back and 
respond to that on the record.
    Mr. Wamp. Well, I'll look forward to that.
    General House. Yes, sir.
    [The information follows:]

    The General Accounting Office and Congressional Budget 
Office have concluded that mandating Davis-Bacon wage rates 
adds a small percentage (less than 5%) to construction costs in 
the United States. In heavily unionized areas, like large 
cities, most contractors pay wages comparable to Davis-Bacon 
rates on non-Federal projects. However, larger differences may 
exist in more rural areas.

    Mr. Packard. May I just comment briefly? I think that this 
Committee's position in the past has been that Davis-Bacon is a 
requirement by law that our military has to comply with. This 
Committee does not have jurisdiction over, of course, changing 
Davis-Bacon. There are other committees that deal with that. I 
think what I'm interested in as it relates to Davis-Bacon is if 
in the process of privatizing projects, does that change the 
dynamics as it relates to Davis-Bacon? I think on ordinary 
construction work that's--military construction that's done by 
the military through normal processes, I don't think there's 
any way that they can avoid complying with Davis-Bacon 
requirements, am I correct in that, General House?
    General House. Yes, sir.
    Mr. Packard. I think my question, and I think it maybe was 
stimulated by a question that you were asked earlier in an 
earlier hearing, was has that changed as we look at 
privatizing?
    Mr. Walker. If you take the Fort Carson project, for 
instance, though it's a private--a project that seeks a private 
investor, certain regulations apply, the federal acquisition 
regulations apply, and the lawyers tell us Davis-Bacon does 
apply in that instance.
    Mr. Packard. Thank you very much. Mr. Kingston is here. We 
won't start the second round until we hear from your first 
round.

                               recruiting

    Mr. Kingston. Well, I'll try to make it snappy, Mr. 
Chairman. Mr. Secretary, General Frederick Vollrath said 
recently that because of the sexual harassment and other 
problems, the Army is starting to recruit non-high school 
graduates?
    Mr. Walker. Well, that wasn't exactly his statement. Our 
studies do not show yet whether or not sexual harassment has 
had an impact. In fact, as we go out and talk to recruiting 
commands, we're finding that that's not coming up. What we are 
finding, which General Vollrath indicated yesterday and I 
mentioned in my opening statement earlier, is that it's the 
economy, that we're having a tough time recruiting people 
against a good economy when there are some really good 
opportunities for them.
    Mr. Kingston. Well, I think he was misquoted in the press. 
He's among friends here, so--that happens from time to time. 
Two things: One question that comes into my mind is that 
recently a home-schooler in our district said that he was not 
allowed in the Army because the Army did not accept a home-
schooled high school diploma. Is that correct? We've looked 
into it a little bit and I think you have something that 
requires a certified or recognized school, and it does, I don't 
think intentionally, hurt home-schoolers. Home-schoolers 
generally have pretty high SAT scores, good moral values, and 
all the right stuff I would think you were looking for. Tell me 
about home-schoolers in the Army, because I found that to be 
disturbing to the extent that I would like to pursue it in 
legislation if I need to.
    Mr. Walker. I'll be honest with you. I do not know the 
answer to that but we'll be glad to provide it for the record.
    Mr. Kingston. Okay, because I think you would be denying 
yourself of a great crop of kids if that is the case, and let's 
look through it together and let me know how I can help you.
    [The information follows:]

    In the Army, LTG Vollrath recently approved an increase 
from 5 to 10 percent in the number of individuals with an 
alternative education credential that the Army can enlist 
annually. This change will increase the opportunities of those 
who are home schooled. Individuals with alternative education 
credentials, such as home schooling, will still be required to 
score in the upper mental test score categories (I-IIIA on the 
Armed Forces Qualification Test), which is, we feel, the most 
valid measure of quality for enlistment in the Army. We are 
confident that taking this step opens the pool of those 
eligible to enlist without reducing quality and assists us in 
meeting the higher accession mission in FY 97 and in the years 
ahead. Although some research has indicated that attrition 
levels are slightly higher among individuals with alternative 
education credentials, the Army leadership feels that we cannot 
achieve the FY 97 mission (89,700) without adjusting the High 
School Diploma Graduate goal to that of the Department of 
Defense standard (90%). The Army will continue to monitor the 
attrition levels of all recruits in an effort to identify any 
potential problem areas.

                          barracks renovation

    Mr. Kingston. Now, the second question: I know that a lot 
of the enlisted people live on post and they are in dormitories 
or barracks. But their college counterpart in the private 
sector is in a dormitory equivalent. The barracks tend to be 
dreary, smelly--I've noticed in the ones that I've toured the 
ventilation is bad because they've got a 1970's technology 
probably moving to first-generation buildings that have windows 
that don't open, and kind of stuffy, and so forth; and I would 
imagine that you lose a lot of 25-year-old enlisted people to 
the private sector because after you've trained them to be a 
high tech mechanic or whatever they can do better in Lockheed 
or wherever.
    Mr. Walker. Right, you're right on target. That's exactly 
what we talked about earlier in the early part of the hearing 
in my opening statement, and that's one reason--what we've done 
is we've established a barracks renovation plan where all the 
barracks in the United States are going to be renovated or 
rebuilt between now and the year 2008, all of them. That's 
150,000 or more units, and the previous plan called for 2020, 
and that was too long. So we've been able to put more money. 
We've got, oh, in this budget when you add up military 
construction, when you add up operation and maintenance funds, 
when you add up funds coming from Europe, from Germany, the 
Republic of Germany, and from Korea and Japan, we have over 
$550 million--almost $550 million to spend just for barracks 
renovation. Well, I mean, we're really putting our money where 
our mouth is in that regard just because of what you said. 
There's a tremendous problem out there that we've got to 
correct, and if we don't correct it these young people are 
going to vote with their feet and we're going to have a real 
personnel problem.
    Mr. Kingston. Well, let me get provincial. Page 6, you're 
talking about 18 projects?
    Mr. Walker. Yes.
    Mr. Kingston. I represent Forts Stewart and Hunter. Are 
they listed in that 18, and if so, what rank?
    Mr. Walker. Oh, I'll have to get back to you on exactly 
where Stewart projects are in the ranking and in the future 
year defense spending. We'll be glad to do that.
    [The information follows:]


                     Fort Stewart Barracks Projects

    The eighteen projects do not include projects for Fort 
Stewart or Hunter Army Airfield. One Fort Stewart project, a 
$54 million barracks for the sub-post at Hunter Army Airfield, 
is programmed in the FYDP for fiscal year 2000. Fort Stewart is 
also scheduled to receive $12.5 million of fiscal year 1997 
Quality Of Life Enhancement, Defense, funds to repair and 
renovate five VOLAR barracks buildings to the modified 1+1 
standard.

    Mr. Kingston. They fall in that category perfectly and I 
think that, you know, we want to help in that direction. I have 
some photos, just coincidentally. If we can share those to you, 
we'll be delighted----
    Mr. Walker. I appreciate it. Let me tell you, I am 
intimately familiar with the Fort Stewart situation because my 
executive officer, who is here with me, was the last garrison 
commander at Fort Stewart, and I got him because of his great 
experience. He keeps me advised on a daily basis of that.
    Mr. Kingston. Good. We're glad to see you have a hometown 
bias here. Let me mention one other thing in terms of the 
resumed quality of life, it may fall under your support. Fort 
Stewart has something like 26 warehouses with about 250,000 
square feet total. They're all in World War II era buildings. 
Some of them can't be used. They can only use about 150,000 of 
the 250,000 square feet. Those are the warehouses that 
distributed all the equipment that was deployed for Desert 
Storm, because 24th Infantry, as you know, was involved in it, 
and so that is also a major security concern, I would think, 
having such an inefficient distribution setup. Mr. Chairman.
    Mr. Walker. I will tell you our second priority, below the 
barracks, is strategic mobility where we get at those very 
issues.

                       guard and reserve training

    Mr. Packard. I find that every member has a hometown bias 
and that really relates back to what Mr. Parker was bringing 
up, and I don't want to belabor that. He stepped out. But I 
think the discussion on the budgeting process for the Guard and 
the Reserve should be held until we have the briefing for that 
purpose, but it does certainly emphasize what I think we talked 
about in our personal visit a few days ago. That is, that one 
of my goals, and I hope one of the goals of this Subcommittee, 
is to make the transition to where we have absolutely accurate 
budgeting requests for the Guard and Reserve--in all MILCON 
issues, but particularly the Guard and the Reserve, where I 
think we've seen a plussing-up by this Committee beyond the 
request. We think that the Guard and the Reserve leaders ought 
to make the priorities of where we should budget the money, and 
try to reduce, the political process that goes on after we 
receive your budgets and requests. But we will discuss that at 
another time. I would like to pursue for my own education, the 
kind of training that takes place with the Guard and the 
Reserve. I'm not sure I totally understand, maybe other 
Committee members do but I don't--the kind of training that 
takes place among our Guard and Reserve units in comparison 
with Active Duty training and so forth. I would like to hear, 
probably, maybe even from some of your----
    Mr. Walker. Sure, I'll turn to them in a moment. It depends 
on what the jobs of those units are. Some of them are earlier 
deployers than others, so that affects the level of training 
that they get. We have 15 enhanced brigades in the Army Guard, 
for instance, that receive a higher level of training than 
perhaps some of the other brigades who deploy much later in the 
war fighting. So if I could turn to General Helmly and to 
General Bilo if there is anything they might have to add?
    BG Bilo. Sir.
    Mr. Packard. You're welcome to step up and take a seat if 
you'd like.

                      army national guard training

    BG Bilo. Sir, I would just say, speaking for the Army 
National Guard, as Mr. Walker said, the level and intensity of 
training that different units do is based on their priority and 
types of unit. Basically, the Army National Guard, they've got 
a one weekend a month, and they've got a 2-week annual, 
training period. There's other types of training that we do 
overseas to support the CINCs. Those periods usually last for 3 
weeks, and these areselected units with special skills.
    Mr. Packard. And do they--on their 1-weekend-per-month 
training, is that usually done locally at the armories, at the 
facilities locally?
    BG Bilo. Sir, there's a mix on that now, and I would like 
to just take a minute. The Army has developed a total-Army 
school system. We're in the process of spreading this total-
Army school system throughout the entire country, and it 
involves the Active as well as the Guard and Reserve. The 
object is to regionalize certain areas that are going to be 
taught, whether it be leadership training, whether it be 
infantry training, armor training, artillery, communication, 
quartermaster, and have troops go to different regions like, a 
region within a region of the country, and either the Guard or 
the Reserve has a responsibility to train and give that kind of 
instruction. We're going to a regional training approach 
because every state can't have a tank range. Every state can't 
have a one-of-a-kind. The money isn't there. That, coupled with 
distance learning, the Army distance learning program, is 
changing the way we train. It has increased the value of the 
readiness centers, which we also refer to as power projection 
platforms. We deployed 18 units direct to Bosnia from our 
readiness centers, and what we've had to do in those cases is 
to link with the Army classroom of the future using a lot of 
different technology, simulations, and automation. We've had to 
go in and redesign some of our existing armories, and in 
planning for future new readiness center construction, we've 
taken this into account.
    Mr. Packard. And your 2-week training period is generally 
at a place--that's not local?
    BG Bilo. No, sir. It could be in a local state training 
area, but most of the time it isn't. The bases that General 
Helmly talked about, it could be done there; it could be done 
on any of the other Active Army installations. Any of the power 
projection platforms which were discussed earlier, this 
training can also take place there.
    Mr. Walker. For instance, the Tennessee Enhanced Brigade 
trains at Fort Stewart.
    Mr. Packard. What is the difference in the training between 
the Guard and the Reserve?
    BG Bilo. There's no difference in the standard, of course. 
The only difference that I would say, and certainly General 
Helmly will comment on this, would be different kinds of units, 
where we do our training and what kinds of training, only 
because we have different kinds of units. The Army National 
Guard has all the combat structure in the Reserve component, 
most of the combat support structure, and the USAR is largely 
comprised of combat service support structure. It's just 
different types of units and the types of training. That's only 
the difference.
    Mr. Walker. General Helmly, is there anything you would 
like to add----
    BG Helmly. Yes----
    Mr. Walker [continuing]. To this discussion?

                         army reserve training

    BG Helmly. Congressman, my answer to that is that the 
standards are the same. The Army Reserve and National Guard 
have much in common. First of all, we're proud to serve the 
country as part of the Army. Legislated somewhat differently, 
but functionally organized differently by the Army. The Army 
Reserve no longer has, and perhaps it was a part of the anomaly 
that we spoke of regarding a standing Army for 50-plus years--
we shed ourselves of combat units, which have the historical 
military connotation of tanks, artillery, infantry, large 
weapons. We're now organized into combat support, combat 
service support, primarily, and that actually is our historical 
legacy since our formation in 1917. Very heavy in the Army 
medical department, into combat support hospitals, specialized 
teams; very heavy into engineering, military intelligence, the 
signal, civil affairs, psychological operations, all, the 
entire range, of supporting skills for the Army on the 
battlefield. Thus, we require very little in the way of major 
ranges for tank gunnery or artillery and very little in the way 
of major maneuver areas where you can maneuver large formations 
of soldiers. A lot of our training takes place, if you will, in 
a facilities environment where we train our maintenance 
soldiers. Some is environmentally constrained because of the 
support nature, water purification and petroleum handling as an 
example, are difficult to comply with the environmental laws of 
the nation, protect that heritage, but also pump live 
petroleum, purify water, brackish water, et cetera. So we have 
to be very careful as we move about training those units. Our 
units are organized primarily at a company level, 150 to 200 
soldiers commanded by a captain or major, or a detachment. We 
have some very specialized units, seven-man neurosurgical 
detachments. Those are very difficult to train. Often we train 
with civilian industry going out to hospitals or local 
organizations and using facilities there. We do move to the 
major platforms for the 2 weeks annual training during the 
summertime or any time during the year. We do conduct our fair 
share of overseas exercises as General Bilo mentioned, again, 
in our core competency skills in the support arena.
    Mr. Packard. Who plans the curriculum or the training 
activity for a given week or a given 2-week period?
    BG Helmly. The United States Army Reserve forces in the 
continental United States are commanded by the U.S. Army 
Reserve Command, subordinate to U.S. Army Forces Command, our 
four-star headquarters in Atlanta, Georgia, and the training 
guidance is prepared there. We do have forward stationed Army 
Reserve units in the Pacific and Europe commanded by the 
Seventh Army in Europe and the U.S. Army Pacific in Hawaii, and 
they plan, in conjunction with Forces Command, the training 
doctrine--I'm sorry, training guidance. All of the doctrines 
and standards are published by the Army's Training and Doctrine 
Command, so, if you will, the standard for a combat support 
hospital is set by the U.S. Army Medical Center at Fort Sam 
Houston, subordinate to Training and Doctrine Command, and that 
standard of what must be performed in terms of tasks and to 
what level are the same as they are in the 82nd Airborne 
Division or a Fort Bragg-based hospital in the National Guard 
and the Army Reserves, so that when we take the field in battle 
you have, indeed, one Army.
    Mr. Packard. Are all of the members of the Guard and the 
Reserve former Active Duty people?
    BG Helmly. No, sir. I don't want to try to speak to 
specifics of the National Guard but we recruit each, if you 
will, from the civilian population. We do, in the Army 
Reserve--any young man or woman who enlists in the regular Army 
has a legal obligation to the nation for up to 8 years, so if 
they complete a 3-year active duty tour and leaveactive duty, 
they automatically come to the individual ready Reserve, in which we 
provide oversight through our personnel center in St. Louis. They then 
can go into a National Guard unit and are recruited often by the 
National Guard, or an Army Reserve unit if they wish to serve there, 
but we also recruit off the street, if you will.
    Mr. Packard. What kind of basic training do you provide a 
recruit off the street, as you say, that has not had previous 
active duty basic training, and so forth? How do you deal with 
that in the Guard and the Reserve in terms of that person 
coming right out of nowhere and never having had any previous 
military training?
    BG Helmly. Sir, they go through the same basic and advanced 
technical training as their regular Army counterpart in both 
the National Guard and the Army Reserve program, based on our 
recruiting requirements, a number of school seats in initial 
entry training and in advanced individual training. So it's the 
same--it's conducted by the same training center.
    Mr. Packard. How does that work and how effective is it if 
you have a unit that is made up of someone who was a master 
sergeant in the Army and then went into the Reserve or the 
Guard, versus someone in that same unit who came in out of 
nowhere and has to go through, really, the basic training? How 
do they work together as a unit when they have that much 
disparity in terms of experience?
    BG Helmly. Well, the master sergeant, of course, would be 
occupying a non-commissioned officer's supervisory position. If 
the master sergeant had come off active duty in the regular 
Army, we would expect that soldier to perform to standard as he 
or she was doing in the regular Army. The private, of course, 
would be the same relationship as he would have in a regular 
Army unit, different grade, expected to perform to the same 
standard but a different task. The private would be the worker, 
if you will, performing mechanical skills, water purification 
skills. The master sergeant would be the supervisor. And we 
find that the former active duty soldiers bring a wealth of 
experience. It helps us in another way, also. The soldier who 
is recruited off the street into the Reserve components views 
the Army through that set of limits, than the regular, former 
regular, Army soldier who comes to a Reserve or National Guard 
unit and begins to realize that, indeed, we do have a one-Army 
standard; that the Reserve and National Guard can, indeed, 
perform many missions that perhaps sometimes they're perceived 
as not being capable of performing. So it helps us a great 
deal.
    Mr. Packard. General Bilo.
    BG Bilo. Yes. Yes, sir.
    Mr. Packard. You can stay right there. It's fine.
    BG Bilo. General Bilo again, sir. Your question about the 
master sergeant. If you walk into a unit, and if you visit a 
unit, an Army National Guard unit, or for that matter a USAR 
unit on a weekend drill, you'll find if you go through a 
personnel roster that you'll see people at different levels of 
training. Basically I think the answer to your question is we 
have initial entry training for the people who are fresh and 
have never had any prior service. We have individual training, 
people going away to specialty schools in the Army or changing 
their military occupational specialty, and when the unit gets 
together during the 2-week annual training phase they do 
collective training. So there isn't a problem with the master 
sergeant coming in from active duty and a person coming in off 
the street. The total Army school system takes into account 
that there are people at different levels, but as General 
Helmly said, no matter what level they're at or what component 
they're in, it's task, condition, and standards are the same, 
and when they go to collective training they're evaluated on 
task, condition, and standards no matter what component they're 
in.
    Mr. Packard. I appreciate very much the detail on this 
subject. It's something I've wanted to know and I have not 
known. Mr. Olver?

                       power projection platforms

    Mr. Olver. Thank you again, Mr. Chairman. Now having had a 
map to look at, I'm ready for another round. But actually, 
please, tell me what is the second, then, Reserve power 
projection platform? What do you call it, a 3-P or a P-3 or 
something? What----
    BG Helmly. Sir, to clarify, perhaps--and I apologize for 
any confusion we may have caused. The 15 power projection 
platforms, of course, are not only the number of Army 
installations across the spectrum. There are many more, and 
then you also have some similar active installations run by the 
National Guard, and state-owned installations. The 15 were 
developed by U.S. Army Forces Command in a streamlining process 
looking at mobilization for the two major regional contingency 
scenarios. There were formerly 39, and it was considered ``39'' 
was a Cold-War figure. We needed that number of installations--
--
    Mr. Olver. Which was the second one of the Reserve 
platforms?
    BG Helmly. To get to your point, Fort Dix, New Jersey, and 
Fort McCoy are the two that are also----
    Mr. Olver. Okay, so I was right in the first place but you 
diverted me by saying you didn't--weren't taking over Dix until 
sometime later.
    BG Helmly. That's correct, sir, 1 October of this----
    Mr. Olver. But it's to become your second platform.
    BG Helmly. That is correct.
    Mr. Olver. Okay, well, now, the idea that we're given 
that--are there more or fewer Reserve personnel now than 
there--5 years ago?
    BG Helmly. In the case of the Army Reserve, the Army 
Reserve has decreased its end-strength and the selected Reserve 
from 319,000 in Fiscal Year '89 to 208,000 in Fiscal Year '98, 
which is our budget end-strength number, about a 35\1/2\ 
percent reduction.
    Mr. Olver. Okay, 35 percent reduction from--over those 10, 
a total of 10, fiscal years.
    BG Helmly. That's correct.
    Mr. Olver. Now why--did I hear correctly that you have 
1,100 or something like that Reserve centers, Army Reserve 
centers?
    BG Helmly. 1,400 approximately.
    Mr. Olver. 1,400? 1,400 across the country--are----
    Mr. Walker. 2,300 National Guard armories.

                          army reserve centers

    Mr. Olver. Okay, and 2,300 Guard locuses. Why, then, for 
the Reserve are we creating more centers, then, if the number 
of total personnel has gone down by 35 percent? Why would we 
need more centers?
    BG Helmly. In terms of----
    Mr. Olver. If we've already got 1,400?
    BG Helmly. Right, in terms of----
    Mr. Olver. Have we consolidated any of those? I mean, in 
terms of Guard, the comments were made in the testimony, Mr. 
Walker, that we continue to pursue the use of joint 
installations and facilities by more than one Reserve 
component. This is--yes, it's in the Reserve testimony, and yet 
we're creating more Reserve centers?
    BG Helmly. Sir, we're not----
    Mr. Olver. Way down?
    BG Helmly. In actuality, we're not creating more. We're 
replacing some. We could go into all of the construction 
factors out of Defense and Army standards dealing with plant 
replacement value, and year life-span of facilities, et cetera.
    Mr. Olver. Well, maybe you'd describe for me then when 
you're talking about the capital--going back to that, going to 
the capital program that you have indicated which is supposed 
to serve four centers in Virginia, Tennessee, Michigan, and 
California, are these, then, replacing two centers which are 
already there or something along those lines?
    BG Helmly. Sir, I'll--I could go to each of the specifics.
    Mr. Olver. Okay.
    BG Helmly. Let me cite, if I can, the first, that we have 
gone through an exhaustive process, not completed yet, to 
identify under-used centers with priority on leased facilities, 
to get out of leased facilities. From that, go to owned 
facilities to identify those which are under-used--definition: 
20 or fewer Army Reserve soldiers--try to get out of those. We 
have initiated an effort in conjunction with the--of the Army 
to co-locating MEP stations with Army Reserve centers in an 
effort to reduce costs to ourselves and the personnel side of 
the Army. That's where we do the testing of initial entry 
recruits. We do occupy a number--I can provide it for the 
record--of joint-use facilities with the Army National Guard as 
well as the other Reserve components of the other Armed 
Services in an effort to co-locate ourselves, reduce your 
utilities cost, reduce your repair/maintenance, as well as 
reduce your construction backlog and replacement.
    Mr. Olver. So, I mean--a lot of the Army Reserve centers 
are, then, in leased facilities rather than owned by the Army. 
Some are owned, some are leased.
    BG Helmly. Sir, I would only differ with the word ``a 
lot.'' I don't have----
    Mr. Olver. A lot? Some.
    BG Helmly [continuing]. The number--whatever, ``some 
number.''
    Mr. Walker. I will tell you from my perspective it's more 
than it should be. We're spending an awful lot on----
    Mr. Olver. On leases.
    Mr. Walker [continuing]. On leases, so we would like to get 
out of those leases to the maximum.
    Mr. Olver. Do you think it's more cost effective to own, 
and maintain, and so forth, with Davis-Bacon and putting that 
one into it versus the leased facilities? Well, that's one 
perfectly good reason----
    Mr. Walker. Well, economics show you that----
    Mr. Olver. Yes. No, well, let me then ask you, given that 
the total personnel had come down is the number of 1,400 of 
Reserve centers that we have now, is that up or is it down in 
the same 10-year period that you've said that the personnel are 
down?
    BG Helmly. Sir, I don't want to give you that number now.
    Mr. Olver. Okay.
    BG Helmly. I believe that it's down----
    Mr. Olver. I'd sort of like to see an analysis of how 
that's moving because if you're trying to take locuses where 
there are very small units, this issue of consolidation for 
efficiency and what you describe as getting out of leased 
facilities out to be as significant as the--well, maybe it's 
part of BRAC in some cases, but in many cases probably not if 
these smaller centers----
    BG Helmly. That is correct. There have been a number of 
BRAC-related actions which have reduced what we call, and what 
the law is named, ``Reserve Enclaves.'' I give you as an 
example Fort Devens in Massachusetts, which was BRAC'd but 
became Devens Reserve Forces Training Area.
    Mr. Olver. You discovered my parochial in the midst of----
    BG Helmly. Well----
    Mr. Olver [continuing]. In the midst of these questions 
about the Reserve.
    BG Helmly. It so happens I visited there just a couple of 
months ago.
    Mr. Olver. Okay.
    BG Helmly. But, if I could, we'd like to provide you from 
Mr. Walker's office--we'll provide you over that same period of 
time the number of centers we occupy, where we are today, and 
of that number the number of leased buildings and facilities 
that we occupy.
    [The information follows:]

                                             USAR FACILITIES PROFILE                                            
----------------------------------------------------------------------------------------------------------------
                                                                       1985     1990     1992     1994     1996 
----------------------------------------------------------------------------------------------------------------
USAR Facility Locations (All)......................................     1444     1457     1466     1501     1418
Leased Facilities..................................................  .......  .......      611      526      372
----------------------------------------------------------------------------------------------------------------

    The Army Reserve was consistently short of authorized 
facilities square footage (60-65% of required) until 1994 when 
the dynamics of downsizing, and the acquisition of Base 
Realignment and Closure (BRAC) enclaves brought the Army 
Reserve up to 80% of required space. This accounts for the less 
than equivalent reduction in facility requirements to the 
reduction in USAR end-strength. Aggressive reductions in 
leases, however, did take place and leased properties was the 
major area in which reductions were made.

    Mr. Olver. May I go on?
    Mr. Packard. Of course.

                     o&m for army guard facilities

    Mr. Olver. Thank you, Mr. Chairman. I would like to move on 
for a moment to the Guard issue because it seems to me that 
some of the same things might be said. It's my understanding 
that there's been some frustration with the--from this 
Committee in earlier times for strategic thinking to come out 
of the Department as to where Guard facilities are, and what's 
happening to the Guard numbers, and the maintenance and the 
possible consolidations of those, and that we have not gotten 
much in the way of recommendations. It's just been left to this 
Committee to do add-ons or something along those lines. Am I 
correct in reading the testimony, am I correct that the Guard 
facilities are maintained by monies appropriated by this 
Committee that would go to the states?
    Mr. Walker. No, sir, the construction is actually a 75/25 
percent cost share, with the states providing 25 percent.
    Mr. Olver. Construction is 75 percent us----
    Mr. Walker. That's----
    Mr. Olver [continuing]. And 25 percent state.
    Mr. Walker. Yes, sir.
    Mr. Olver. To--your testimony on page 21 says at the top, 
``The National Guard Bureau does not own, operate, or maintain 
these facilities.''
    Mr. Walker. That's right.
    Mr. Olver. That ``the states, territories, and 
commonwealths perform these functions----''
    Mr. Walker. Yes, sir.
    Mr. Olver [continuing]. ``of ownership, operation, and 
maintenance.''
    Mr. Walker. Once constructed, the states operate and 
maintain the armories.
    Mr. Olver. But do we--the--do we--the further comment on 
the page before is that their average age--this is the 
armories, the Guard facilities--is ``35 years. States take care 
of these facilities using the limited resources in Real 
Property Maintenance accounts, as authorized and appropriated 
by Congress.''
    Mr. Walker. Yes, sir. I'll let General Bilo explain the 
real property maintenance account and how it is provided to the 
states.
    Mr. Olver. Okay.
    BG Bilo. Yes sir, I would like to go back just a minute on 
your question about new armories, sir, or new----
    Mr. Olver. Yes.
    BG Bilo [continuing]. Readiness centers. The Guard's whole 
program for readiness centers is to replace existing readiness 
centers. A different category which we submit for is 
operational maintenance sites--excuse me, organizational 
maintenance sites, and most of those come as a result of new 
construction, but it's based on acquiring modern equipment that 
cascades from the active component to Guard units. Old 
maintenance sites and facilities are inadequate to support this 
equipment. An example is an M-60 tank would fit inside a 
maintenance bay but we had an M-1 that didn't. So we had to 
replace the organizational maintenance shop to take care of 
that and I just wanted to point that out to you, but our 
program is based on the replacement of existing readiness 
centers.
    Mr. Olver. That's a construction account. Replacement would 
be a construction account.
    BG Bilo. Yes, sir.
    Mr. Olver. Which is 75 percent federal and 25 percent 
state?
    BG Bilo. Yes, sir. Yes, sir, and there's different 
categories which I'll explain to you. But on leasing--armories, 
we had a little under 75 armories or 100 readiness centers 
leased by us--and I believe about 23 of those are in the state 
of Alaska. It's a special arrangement on Indian or Eskimo land, 
and they're very small, half the size of this room. They're in 
very remote locations, part of our old scouts that we had up 
there. But, sir, a readiness center that's built on federal 
land, the MILCON is 100 percent federal. The O&M cost is 75 
percent federal and 25 percent state. That's how the cost for 
O&M is done. Now, if we build a readiness center on state land, 
the MILCON is 75 percent federal, 25 percent state; the O&M is 
100 percent state, or in some cases.
    Mr. Olver. The O&M? Operations and maintenance is 100 
percent state.
    BG Bilo. Yes, sir.
    Mr. Olver. That's in--oh, I see. Well, then----
    BG Bilo. We work arrangements where there's a split, 50 
percent federal, 50 percent state.
    Mr. Olver. So that's a negotiation?
    BG Bilo. Yes, sir.
    Mr. Olver. Arrangement?
    BG Bilo. And maintenance facilities, which I alluded to, 
airfields, et cetera, those types of facilities, the MILCON is 
100 percent federal, and then the O&M is 75 percent federal, 25 
percent state.
    Mr. Olver. So that the comment here which is--which I read 
again, this ``average is 35 years. States take care of these 
facilities using the limited resources in Real Property 
Maintenance accounts, as authorized and appropriated by 
Congress,'' I should not conclude from that that all the money 
that they use--there is some portion of the money--actually 
you've said that O&M----
    BG Bilo. Yes, sir.
    Mr. Olver [continuing]. Is totally state, unless there's 
some special arrangement----
    BG Bilo. Yes, sir. Yes, sir.
    Mr. Olver [continuing]. For O&M to be provided----
    BG Bilo. And these----
    Mr. Olver. If--would it--the reason that we have leaky 
roofs in our armories which are 60 or 80 years old, the oldest 
ones, is that the state has not----
    BG Bilo. Sir, that's part of it but the older--yes, sir, 
and the older the facility, the more costly to repair.
    Mr. Olver. Yeah, undoubtedly.
    BG Bilo. Yes, sir.

                  massachusetts army guard facilities

    Mr. Olver. Undoubtedly. I'd love to have somebody give me a 
sense of what facilities for Army Guard we have in 
Massachusetts and the age of those facilities. I mean, I can 
quickly name a couple that are very close to others where it 
might make sense to reconstruct one and, you know, and divest 
the others.
    BG Bilo. Yes, sir.
    Mr. Olver. Back to the state and let them turn it into 
ayouth center or something like that.
    BG Bilo. Yes, sir. Sir, we would be happy to provide that 
list to you for all your facilities in the State of 
Massachusetts.
    Mr. Olver. Well, it's going to take a long time for me to 
understand this complexion.
    Mr. Packard. I'm sure that it can be arranged to have a 
briefing at your office to give you whatever you need to know 
in terms of details and specifics.
    BG Bilo. Sir, I would be more than willing to come over at 
your request and give you a total laydown----
    Mr. Olver. Oh, you don't want to do that.
    Mr. Packard. Of course he does.
    Mr. Olver. I would be happy to----
    Mr. Packard. Of course he would.
    Mr. Walker. Mr. Chairman, if I might make a suggestion 
because of the great interest of the Committee in the Guard and 
Reserve program, as you get ready for your briefing, and you 
might consider this for the briefing, there's a Reserve Forces 
Policy Board that's established that serves both, in law, both 
the Secretary of Defense and the Congress as an advisor to the 
Congress on Reserve issues, both the Guard and Reserve. The 
chairman of that board is a fellow by the name of Terry 
O'Connell, a very dynamic individual and a great advocate for 
the Guard and Reserve. You might want to have Chairman 
O'Connell over for a discussion, and I think you'll find, and 
your members will find, that he has something to add to the 
issue.

                      troop housing--``1 plus 1''

    Mr. Packard. That's a good suggestion. Let's see what we 
can do, and if you deal with him--other members of the 
Committee would enjoy it. Let me ask a couple of quick 
questions that hopefully you can answer very quickly and then 
we'll conclude. On the ``One-Plus-One'' barrack standard, what 
impact has that policy had on the military construction budget 
and are you meeting your targets with ``One-Plus-One'', and is 
that having a negative effect upon providing budget monies for 
other parts of your needs?
    Mr. Walker. Mr. Chairman, of course, we began the ``One-
Plus-One'' in the Army in Fiscal 1994, which was the year 
before the Department of Defense established the standard. We 
believe it's a good investment in the quality of life for the 
soldiers because it's so important to try to retain these 
soldiers in the force. ``One-Plus-One'' cost you a little bit 
more. On a space-by-space basis, it will cost you a little bit 
more, but we think that that investment is worth it.
    Mr. Packard. And it hasn't slowed you down on other 
priorities?
    Mr. Walker. Mr. Chairman, the overall budget has slowed us 
down.

                         child care facilities

    Mr. Packard. Okay. The child care facilities, you have a 
goal, the DOD has a goal, that 80 percent of total child care 
needs are satisfied, and yet you have no budget request for 
Army child care centers. Is the Army meeting this goal or 
moving toward this goal?
    Mr. Walker. Oh, right now, we're reaching 64 percent of the 
Army--DOD goal is 65 percent. The DOD goal is 65 percent, and 
we're almost there. It's a mix of not only child care centers 
but also in-house child care and the like.
    Mr. Packard. So are you moving in that direction?
    Mr. Walker. Yes.
    Mr. Packard. And the fact that you have no budget request 
for child care centers is not going to slow us down----
    Mr. Walker. No, sir.
    Mr. Packard [continuing]. In trying to achieve that goal?
    Mr. Walker. In the future years defense plans there are 
some child care centers. For instance, in Fiscal '99, next 
year, there will be two in Germany.

                        unneeded infrastructure

    Mr. Packard. Right, okay. One last question. You mentioned 
on page 3, the early part of your testimony, that ``we must 
divest of all unneeded real property.'' This is old buildings 
that are boarded up and the paint is peeling off. It's more 
expensive now to demolish those buildings, apparently, under 
environmental requirements, lead paint, and asbestos, and so 
forth. Are you meeting the goal of divesting a facility every 
time we replace one?
    Mr. Walker. Yes, sir; we are. In fact, we're doing more 
than that. In our Operations and Maintenance account that's 
before the Defense Subcommittee we're providing over the 6-year 
budget plan $100 million a year in operations and maintenance 
funds that's to be used exclusively for eliminating excess, the 
old excess infrastructure. With that we'll eliminate about 10 
million square feet a year, so we'll eliminate another 60 
million square feet over the next 6-year budget plan, but we've 
got about 150 million----
    Mr. Packard. And how much are we rebuilding?
    Mr. Walker [continuing]. In excess infrastructure.
    Mr. Packard. How much are we replacing in terms of square 
footage?
    Mr. Walker. I'll have to get back to you.
    Mr. Packard. Less than that?
    Mr. Walker. Yes, sir.
    Mr. Packard. Yeah, okay.
    Mr. Walker. Much less.
    [The information follows:]

                               Demolition

    So as to not to increase the Army inventory, there is an 
equivalent amount of demolition for each square foot of new 
construction. This demolition is in addition to the other 
infrastructure reduction initiative underway.

    Mr. Packard. If any member on the Subcommittee wishes to 
submit additional questions, you'll respond I hope.
    Mr. Walker. We certainly will, very quickly, I'm sure.
    Mr. Packard. Thank you. With that, ladies and gentlemen, I 
want to thank you very much for a very, very fine testimony and 
a very good hearing. I appreciate the chance to meet with you, 
Mr. Walker, and now the hearing is adjourned.
    [Clerk's note.--Questions for the record submitted by 
Chairman Packard:]

                       Private Sector Initiatives

    Question. Please bring us up to date with the current 
status of the Army's efforts to promote private sector ventures 
for family housing and barracks.
    Answer. The Army has 15 approved projects at various stages 
of development. We are focusing on projects that impact large 
numbers of assets, thereby fixing the housing problem quicker. 
The Fort Carson Request for Proposals (our first privatization 
project) was issued in December 1996, and we anticipate award 
this summer. The other sites are: Forts Stewart, Hood, Bragg, 
Detrick, Dix, Hamilton, Campbell, Eustis, Sam Houston, Meade, 
Lee, Riley, Sill, and Lewis. If the Fort Carson project goes as 
planned, and the other sites are feasible projects, we expect 
to award most of them during Fiscal Years 1998 and 1999. Fiscal 
Year 1997 will see the award of Fort Carson, and we expect an 
acceleration of the program during Fiscal Year 1998. We want to 
test the Military Housing Privatization Initiative authorities 
for barracks renovations as well as new construction. We are 
soliciting nominations from our major commands to use these 
authorities for our barracks program.
    Question. What other private sector initiatives is the 
Department pursuing?
    Answer. The Army recently initiated studies to be conducted 
in accordance with OMB Circular A-76, Performance of Commercial 
Activities, of almost 10,000 positions. In utility systems 
privatization, 12 systems have been privatized (six natural 
gas, two electric, one sewer, one water, and two waste water 
plants), eight more are nearing completion (five water, two 
electric, one sewer), and more than 100 other utility systems 
are under study for possible privatization. We are also 
pursuing 25 public-private ventures for morale, welfare and 
recreation facilities in which the Army offers the use of 
government land for a specified period to a private developer 
to use to develop and operate needed MWR services for soldiers 
and their families.
    Question. Do you anticipate any legislative proposals this 
year in this area?
    Answer. The Army submitted two legislative proposals for 
FY98 on utilities privatization that are being worked by OSD 
and OMB. The first is to authorize the Service Secretaries to 
convey utility plants with underlying land after notifying the 
appropriate committees and subcommittees. This will enable 
installations to complete privatization actions within a 
predictable time frame without being tied to the legislative 
calendar. The second proposal is to exempt the transfer of 
government-owned utility systems from the federal tax on 
contributions in aid of construction. Without the exemption, 
privatization actions with private utility companies can become 
uneconomical, since the utility would merely pass the tax along 
to the Army.
    The Army also has legislation language to authorize the 
transfer of the water and wastewater systems at Fort Bragg, 
North Carolina, and Camp Parks Reserve Training Center, 
California, which it is holding pending the outcome on the 
first legislative proposal above.
    In the MWR facilities area, the Army is considering a 
legislative proposal that would authorize Service Secretaries 
to make real property on military installations under their 
control available to private entities, without fair market 
value consideration, for the purpose of establishing commercial 
businesses that will contribute to the morale, welfare, and 
recreation of members of the Armed Forces. Rather than 
providing fair market value lease payments for the use of 
military real property, the private entities would deposit into 
the installation's MWR fund account money in amounts that the 
Service Secretary or his designee deems appropriate. These 
funds would be available for the same MWR-related purposes as 
prescribed for the non-appropriated fund accounts into which 
they are deposited. The section is necessary in order to 
establish exceptions to statutory provisions that generally 
require the Service Secretaries to receive fair market value 
payments in return for the lease of military real property.
    In addition, a legislative proposal is being reviewed by 
OSD and OMB that would expand opportunities for and benefits of 
outleasing real and personal property at military 
installations. This would provide additional funds for 
installation operation and maintenance, providing potential for 
quality of life improvements as well as benefitting local 
communities and businesses.

                  Facilities Privatization Initiatives

    Question. Has the Army utilized the Capital Venture 
Initiative (CVI) approved in the fiscal year 1996 DoD 
Authorization Act, as a solution to meeting facilities 
shortfalls?
    Answer. The Army has identified 15 sites to potentially use 
the fiscal year 1996 DoD Authorization Act authorities. Our 
primary goal at these sites is to renovate our existing 
inventory and turn over operation and maintenance to the 
private sector. When the economics allow, the Army will include 
construction of new units to address inventory deficits in Army 
Family Housing.
    Question. Has the use of CVI provided housing quicker and 
at a lower cost than conventional military construction?
    Answer. No projects have yet been awarded under the 1996 
legislation. However, based on our financial and economic 
analyses, the privatization tools in the legislation will 
provide housing more quickly and at less cost. For example, if 
Fort Carson is awarded as planned, we expect to revitalize the 
entire 1,824 unit inventory and build an additional 840 new 
units at Fort Carson within five years. Without privatization 
we do not have the resources to ever fix it all. Thus, 
privatization may become a powerful tool in our strategy to 
improve the quality of our family housing in the U.S.
    Question. What is the current status of the Army goal to 
privatize 75 percent of all feasible utility systems?
    Answer. The Army is aggressively pursuing privatization of 
utilities and housing. We now have 12 utility systems 
privatized, 8 in the process of being transferred, and over 100 
at various stages of study. Our goal is to privatize 100 
percent of the natural gas systems because of the risk to life 
and safety, and 75 percent of all remaining utility systems by 
the Year 2003.
                    Family Housing Improvement Fund
    Question. While the Department is placing an emphasis on family 
housing privatization, there is no appropriation request for the Family 
Housing Improvement Fund for fiscal year 1998 and instead the 
Department will use transfer authority. Briefly, how does your Service 
intend to exercise this authority in the coming year?
    Answer. The Office of the Secretary of Defense centrally manages, 
programs and budgets for the DoD Family Housing Improvement Fund 
(FHIF). The fund received direct appropriations of $22 million in 
fiscal year 1996 and $25 million in fiscal year 1997. These funds are 
available until expended; approximately $30 million remains available 
to finance projects.
    Consistent with design of the initiative, project award will use 
cash, land, and/or facilities depending on the site and terms of the 
contract. Some sites may not require any up-front money. However, if 
cash is needed (for example, mortgage guarantees), funds will come from 
either the family housing construction account at that site, or the 
Army will request funding from the centrally managed FHIF.
    Question. In the past two years $45 million has been appropriated 
for the Family Housing Improvement Fund. What rationale does the 
Department use for the distribution of these funds? Is it allotted to 
the services, or held centrally to allow every project to compete?
    Answer. The Office of the Secretary of Defense centrally manages, 
programs and budgets for the DoD Family Housing Improvement Fund 
(FHIF). Consistent with design of the initiative, the Army will 
transfer family housing construction funds in Fiscal Year 1998 for FHIF 
projects at locations where construction funds are approved and the 
economics of the privatization project require such a transfer. Where 
funds are required and not available for transfer, the Army will 
request funding from the centrally managed FHIF.
    Question. Are we seeing a movement for this program to be a 
substitute for construction versus the original intent that it be a 
supplement?
    Answer. The Army continues to concurrently program and budget for 
housing construction projects and privatization initiatives to maintain 
flexibility in attacking our housing problems. Both programs are 
focused at installations where our needs are greatest. As a result, we 
simultaneously develop projects using both programs at some locations.
                            Marsh Task Force
    Question. Last year, the DOD Task Force on Quality of Life reported 
its findings to this committee. They cited five major issues affecting 
the standard of living for single and unaccompanied personnel. What 
steps has the Army taken in the past year to address these issues, and 
how do you envision these plans working?
    Answer. Responses concerning the five major issues are provided 
below:
    Issue 1: Broad policies for bachelor housing.--The approval and 
implementation of the 1+1 standard signaled the Army's commitment to 
improve the quality of life for its single soldiers. The new standard 
incorporates the concerns addressed by soldiers and adjusts the gap 
between family and unaccompanied personnel housing. Revision of the 
Army Housing Management Regulation reflects the Army's commitment by 
increasing the focus on policies directly relating to single soldier 
housing.
    Issue 2: Policy Governing Required and Allowed Residents in 
Barracks.--The Army provides guidance regarding housing of single 
soldiers by establishing broad assignment parameters with authorized 
latitudes to accomplish the military mission. The Army leadership views 
barracks assignment decisions as an important command prerogative, 
directly tied to good order, discipline, readiness, and morale.
    Issue 3: Suitability Criteria for Bachelor Housing.--General 
adequacy standards for single soldiers are addressed in the Army 
Housing Management Regulation for both on and off-post living 
facilities. We have surveyed our barracks, identified those that no 
longer meet current suitability criteria and developed a modernization 
plan. If adequacy standards cannot be met, commanders may authorize 
soldiers to reside off post, except for military necessity. Housing 
offices provide community homefinding, referral and relocation services 
for all soldiers, single and married. Information regarding on-post and 
off-post housing and related services is updated regularly and 
available Army-wide. Installations also provide orientation briefings 
for newly arrived personnel, to include available housing services.
    Issue 4: Bachelor Housing Funding--Insufficient and Unfenced.--Over 
the past year, the Army has conducted detailed analysis of the barracks 
situation and the minimum requirement for the Army Force Structure. We 
have committed over 46 percent of the Military Construction, Army (MCA) 
program in the Future Years Defense Plan (FYDP) to the Whole Barracks 
Renewal Program. In addition, we have initiated an OMA Barracks Upgrade 
Program to renovate barracks built in the seventies and early eighties 
to an approximately 1+1 standard. Annually, $150 million are dedicated 
to this program. As a result, the time to buy out the barracks 
modernization program in the U.S. was reduced from the year 2020 to 
2008. Overseas, timelines to achieve a modified 1+1 standard have been 
reduced from the year 2020 to 2010 in USAREUR and from 2020 to 2012 in 
Korea.
    Issue 5: Management and Operation of Barracks.--The Army is working 
diligently to create separated working and living environments for our 
single soldiers. The design of the Whole Barracks Complex also referred 
to as Single Soldier Communities, replaces our old gang latrine type 
barracks and provides a neighborhood type atmosphere similar to an off-
post apartment complex. The complex is designed to enhance single 
soldier's quality of life by providing privacy, additional space and by 
taking administrative functions out of the barracks. This greatly 
improves customer service and directly affects personnel readiness, 
morale and retention.
                           Barracks Standard
    Question. Please comment on how the Army has incorporated the DoD 
1+1 barracks standard in this year's budget request.
    Answer. The Army has been using the 1+1 standard for all barracks 
military construction projects since 1994. However, in Korea, we are 
building barracks under waiver from the OSD standard until we are out 
Quonset Huts and Relocatables. Then we will build barracks and assign 
spaces according to the standard. This year's budget request includes 
18 barracks projects for $338 million.
    Question. As a result of the DoD-wide barracks standard, has the 
Army reduced the amount of planning and design required for these 
projects, through the use of standardized design?
    Answer. Some savings have been realized and they are already 
reflected in the budget request.
    Question. Has the Army budgeted for a balanced program, one which 
provides improved troop housing yet still meets the growing 
infrastructure improvement needs?
    Answer. Yes, over half of the fiscal year 1998 budget request for 
Military Construction, Army (MCA) is committed to upgrade housing for 
single soldiers to the ``1+1'' standard. The whole barracks renewal 
program is the Army's highest priority for Quality of Life (QOL) and, 
as such, a great emphasis is placed on buying out the substandard 
conditions by 2012.
    Another high priority program, receiving approximately 13 percent 
of the MCA funding, is the Army Strategic Mobility Program (ASMP) which 
constructs infrastructure to enhance deployment of the Forces such as 
railheads and airfield upgrades and roads.
    Remaining Army projects, not in the Strategic Mobility or Barracks 
programs, compete for available funding based on contribution to 
readiness, mission support and urgency of need. The Army feels this 
balance is the best it can achieve within the limited resources 
available.
    Question. Has the Army developed a plan to use privatization in 
meeting the ``1+1'' standard? We want to test the Military Housing 
Privatization Initiative authorities for barracks renovations as well 
as new construction, but have not yet developed a plan. We are awaiting 
the results of our Fort Carson family housing project to gain all of 
the lessons learned needed to expand the program into the barracks 
area. Also, we are soliciting nominations from our major commands to 
use these authorities for our barracks program.
    Question. Testimony last year stated that all barracks projects in 
the fiscal year 1998 program will be budgeted based on parametric 
design, unless a 35% design was already performed. Have all the fiscal 
year 1998 barracks projects been budgeted based on parametric design?
    Answer. No. The Army is using parametric estimates to the maximum 
extent practical in the preparation of budget estimates. For the FY98 
budget request, parametric estimates were used to develop costs for 13 
of the 18 barracks projects requested. The remaining five (5) barracks 
projects had designs sufficiently underway to provide 35% cost 
estimates for the budget.
                          Barracks--Priorities
    Question. Has the Army developed a listing of the barracks backlog 
by location?
    Answer. Yes. The Army has a listing for replacing and upgrading 
barracks to support its overall strategy to buy out the barracks 
program. We are evaluating results of a recent data call which will 
form the basis for prioritization by location.
    Question. Has the Army completed its overall master plan and 
strategy for development of barracks installation-by-installation?
    Answer. The Army has an overall strategy for replacing and 
upgrading barracks to the 1+1 standard. The strategy is implemented 
using two programs; the MCA whole barracks renewal program and the OMA 
Barracks Upgrade Program. These two programs address the total, Army-
wide, requirements for construction or conversion to a 1+1 standard 
with a target buyout for 100% of the requirement worldwide by 2012.
    Question. If so, what are the top five installations with the 
highest priority?
    Answer. The committee has before it our request for fiscal years 
1998 and 1999. After these requirements have been fulfilled, our next 
priority installation locations are Korea, Germany, Fort Bragg, Fort 
Stewart, Fort Meade, Fort Eustis, Fort Lee, and Fort Lewis.
                       Barracks Program Execution
    Question. Have you run into any difficulties executing the FY 1997 
barracks programs?
    Answer. No, all barracks projects are scheduled for award this 
fiscal year.
    Question. What is the current troop housing deficit?
    Answer. The Army has a requirement to provide barracks for 
approximately 137,600 unaccompanied enlisted soldiers world-wide. At 
this time, approximately 57 percent of our barracks spaces do not meet 
adequacy standards.
    Question. Does the Army intend to exercise any new authorities to 
execute the 1997 and 1998 barracks projects instead of using 
conventional military construction?
    Answer. No. The Army has a long-range plan to look at all its 
housing assets in relation to privatization. We are awaiting the 
results of our Fort Carson family housing Capital Venture Initiative 
project to gain all the lessons learned needed to expand the use of new 
authorities into the barracks area.
    Question. Are there practical limits to the number of barracks 
projects that can be executed in a given year, if so, what is the level 
of those annual limits?
    Answer. Using construction funds, there is generally no limit that 
could be executed in any given year. Army-wide, we would probably not 
saturate the Corps of Engineers capability to handle added work, 
however, at an installation we need to have enough space to house 
soldiers displaced by construction activities.
                             barracks rpma
    Question. Last year the Army received $149 million for barracks 
renovation under the Real property Maintenance Account in the National 
Security Appropriations Bill. Provide for the record a list of projects 
that will be funded by this initiative and the status of each project.
    Answer. Attached is the current Army plan for execution of the two 
year Quality of Life Enhancement, Defense Appropriation.

[Pages 409 - 410--The official Committee record contains additional material here.]


                   ,Real Property Maintenance Account
    Question. Is it correct that the Real Property Maintenance Account, 
which is funded in the National Security Appropriations Bill, is 
budgeted at only 63% of the requirement for fiscal year 1998?
    Answer. Real Property Maintenance (RPM) is actually funded at 61%
    Question. Describe for us how the Army makes the tough decision 
between the funding levels proposed for RPMA and Military Construction.
    Answer. The Army followed a comprehensive decision-making process 
to review, validate, and prioritize its total six years requirements to 
arrive at a balance of funding within the available resources. in the 
specific areas of Real Property Maintenance (RPM) appropriations and 
Military Construction, Army (MCA), we follow a three-fold facilities 
strategy. First we focus our investment on our most important readiness 
areas, such as Quality of Life and Strategic Mobility, second, we are 
divesting all unneeded real property, through base closure actions, 
privatization initiatives, and demolition, and, third, through 
efficiencies and proven business practices, we are reducing the cost 
required to support our facilities and related services, including 
management and maintenance of our real property inventory.
                           Panama Relocation
    Question. For more than twenty years, the treaty obligation for the 
return of all properties to the Government of Panama by December 31, 
1999 has been publicly known. Yet here we are, dealing with an eleventh 
hour relocation of the Southern Command to Miami, leasing an 
administrative facility and reviewing a fiscal year 1998 budget request 
for family housing. The Army's plan is to lease eight family housing 
units late in fiscal year 1997 [subject to the appropriations 
limitation of not to exceed $15,000 per unit per year], and to purchase 
these units in fiscal year 1998 if Congress agrees to an appropriation 
of $2.3 million for these eight units--an average cost of $287,500 per 
unit.
    If this budget request is denied, how will the Army proceed?
    Answer. If the budget request is denied, the Army must use its High 
Cost Lease authority for the eight Command Group units. The other 
alternative is to have the eight Command Group personnel use their 
allowances and seek their own accommodations. However, neither of these 
options is acceptable since the leasing limits and housing allowances 
will not allow command group members who have representational 
responsibilities to find adequate quarters to carry out these official 
duties.
    Question. Bring us up to date with the current status of the Panama 
Canal Treaty Implementation Plan?
    Answer. The U.S. Forces are strongly committed to the 
implementation of the Panama Canal Treaties of 1977 and have worked 
closely with the Government of Panama to ensure smooth transfers. Since 
1979 the U.S. Forces have transferred approximately 30,000 acres of 
land and 1,631 facilities. The most recent transfers were Fort Amador 
in September 1996 and the Arraijan Tank Farm in January 1997. The 15 
November 1994 Panama Canal Treaty Implementation Plan transfer schedule 
establishing transfer dates for the remaining property has been 
modified as follows:
                        atlantic side transfers
    1999: Fort Davis Communication Site, Pina Training Area, Fort 
Sherman, Galeta Island.
                         pacific side transfers
    1997: Arraijan Tank Farm (January), Summit (January), Curundu Flats 
(July), Balboa Elementary School (August), Albrook Air Force Station 
(September), and Gorgas Army Community Hospital (November).
    1998: Quarry Heights (January), Herrick Heights (January), Morgan 
Avenue (January), Bryan Hall Complex (January), and Panama Canal 
College (July).
    1999: Cocoli, Ancon Hill Communications Site, Empire Range/Camp 
Ruosseau, Corozal Commissary, Curundu Middle School, Cerro Gordo 
Communications site, Curundu Laundry, Chiva Chiva, East Corozal, West 
Corozal, Fort Clayton, Fort Kobbe, Balboa High School, Ammunition 
Storage Point #1. Howard air Force Base, Balboa West Range, Rodman 
Naval Station, Farfan, and Marine Corps Barracks.
    Question. What is the current status of the Army's efforts to 
identify and secure eight leased housing units?
    Answer. The Army has developed an acquisition plan based on leasing 
eight houses with an option to buy. A Request for Proposals outlining 
the Army's needs and intentions is being developed for circulation with 
the private sector.
    Question. Under the Family Housing subaccount for leasing, the 1998 
column shows 70 leased units in Miami, with 840 months purchased in 
1998, at a total cost of $1,168,000, or $1,390 per unit per month. How 
did you determine that 70 units were required for the SOUTHCOM 
relocation, and how did you reach the estimate of cost?
    Answer. The 70 leased units include 62 units for junior soldiers 
with 3-4 bedroom housing requirements and eight units for Command Group 
personnel. A market analysis conducted by the Corps of Engineers 
determined that 62 soldiers would be unable to find adequate housing 
because either costs exceeded their housing allowances or there was an 
insufficient supply of 3-4 bedroom units available within the commuting 
area. The other eight units are for the Command Group personnel who are 
considered Key and Essential Personnel. The costs were estimated for 
the 62 units by using the normal lease limitation of $12,000 per unit 
per year plus the Consumer Price Index adjustment for each fiscal year. 
The costs for the eight units were estimated by using the high cost 
lease-limit of $14,000 per unit per year plus the Consumer Price Index 
adjustment for each fiscal year. Leasing funds for these eight units 
are required pending completion of the purchase/construct request at 
some point during the fiscal year.
                       Installation Status Report
    Question. Please describe for us how the Installation Status Report 
was used in developing the Fiscal Year 1998 program?
    Answer. When the Fiscal Year 1998 budget was prepared, only the 
results of the Fiscal Year 1995 Installation Status Report (ISR) were 
available. 1995 was the implementation year of the ISR, it was limited 
to active duty installations in the Continental United States, and 
provided only minor input in developing this year's program. The ISR 
gives the Army a systematic, consistent look at its facilities. As the 
database grows it will provide the Army with additional screening 
factors for facilities requirements and facility condition trends, 
enhancing the Army Military Construction (MCA) program development and 
assisting in identification of potentially critical revitalization 
programs.
                                 Korea
    Question. What is the current construction backlog in Korea, by 
type of facility?
    Answer. Based on current data, the projection to buyout the 
facilities deficit in Korea is currently $5,300,000,000. Military 
Construction, Army (MCA) is currently programmed only for Quality of 
Life (QOL) projects, thus, mission and training facilities upgrades are 
funded via Operation and Maintenance, Army (OMA), Real Property 
Maintenance, and host nation construction.
    Question. Please describe difference between the two Korean 
burdensharing programs--the Combined Defense Improvement Program (CDIP) 
and the Republic of Korea Funded Construction?
    Answer. U.S. Forces Korea (USFK) programs and manages the two Host 
Nation Funded Construction programs: Combined Defense Improvement 
Program (CDIP) and the Republic of Korea Funded Construction (ROKFC) 
program for all Services in Korea. USFK negotiates the amount of 
funding through annual cost-sharing negotiations each calendar year 
(CY).
    CDIP Projects. Commonly known as the ``warfighting'' program, the 
Republic of Korea (ROK) limits funding to those projects which support 
or enhance warfighting capability. The ROK funding for this program for 
Calendar Year 1996 is $50 million, $33 million is for Army projects. 
This program is expected to continue at the same funding level.
    ROKFC Projects. This program provides cash to the USFK for 
primarily quality of life (except Morale, Welfare, and Recreation 
facilities), infrastructure, and environmental projects. Under this 
program, the ROK provided $55 million in Calendar Year 1996, $37.5 
million for Army projects. It is anticipated that the funding level 
will remain fairly constant.
    Question. Please describe how these two programs are helping you 
meet your facility needs in Korea.
    Answer. The annual addition of $70 million of new construction 
provided to the Army by the Republic of Korea provides barracks, 
mission and support facilities, and infrastructure upgrades and greatly 
enhance the Army's readiness and quality of life in Korea.
    Question. What is the current troop housing deficit in Korea? What 
is the projected deficit after completion of the FY 1999 program?
    Answer. In Korea, barracks for approximately 17,500 enlisted 
soldiers require replacement or renovation. After completion of the FY 
1999 program, barracks for approximately 15,200 enlisted soldiers still 
require renovation or replacement.
                             Southwest Asia
    Question. What is the current status of the second phase of the 
Strategic Logistical prepositioning complex in Southwest Asia?
    Answer. The final design of Phase II is being completed and project 
will be out for bid to contractors in April of 1997 with anticipated 
award in July 1997.
    Question. Mr. Walker, last year you testified that the third phase 
of the Southwest Asia prepositioning project was programmed at $66 
million in fiscal year 1998, but this year's budget request totals $37 
million to complete the project. What accounts for the differences in 
cost to complete the project.
    Answer. Since last year's hearings we have received actual 
contractor bid data from the Phase I award and have been able to adjust 
our current project working estimates to reflect those actual costs.
    Question. Last year we were assured that the location of this 
project had been declassified, but this year's request is under 
``Overseas various Locations''. Why isn't the location named?
    Answer. As this project is a three phased project over three 
appropriation years it was retained under the same line items for audit 
and continuity purposes.
    Question. Will the contractor for the first phase need to re-
compete for the second phase, and again for the third phase.
    Answer. Yes.
                         Historic Preservation
    Question. What is the current status of the report that is due to 
be submitted to us by March 28 regarding historic homes [directed by 
last year's Senate Report 104-287, page 10]?
    Answer. The report is currently being coordinated among the Army 
staff; we anticipate meeting the March 28, 1997 submission date.
                        Total Army School System
    Question. Describe for us the current status and the future plan 
for the Total Army School System (TASS).
    Answer. I am advised by the Assistant Secretary for Manpower and 
Reserve Affairs, who has jurisdiction over TASS, that TASS is currently 
operational, scheduled for full implementation in October 1997. As 
General Sullivan, former Chief of Staff, Army (CSA), said when he made 
the decision to implement TASS, ``My expectation is that, ultimately, 
the component of the school and/or instructor will be transparent to 
the student. Additionally, I believe that we are making leader 
development more accessible and less expensive, and that we are making 
important strides in the integration of America's Army.'' U.S. Army 
Training and Doctrine Command's (TRADOC) goal is to achieve that 
vision.
    Question. What is being done to utilize excess capacity at existing 
schools--both active duty and guard and reserve--prior to seeking new 
construction?
    Answer. As the Army moves to a combined Structure Manning Decision 
Review (SMDR) process in the next few years, use of excess capacity 
will be maximized. The SMDR is a training management process that 
compares the training requirement to the schoolhouse capacity and 
resolves resource constraints for the first three years of the POM 
(Program Objective Memorandum). The training requirement is based on 
the number of soldiers that must be trained in specific specialties to 
meet the Army's readiness requirements based on force structure. RAND 
Corporation is currently studying options for optimal solutions to 
excess capacity issues. Currently, the United States Army Reserve 
(USAR) and the Army Reserve National Guard (ARNG) are using the SMDR 
process to ensure utilization of capacity while eliminating duplication 
of effort between the USAR and ARNG TASS battalions.
    Question. How are the requirements, capabilities, and capacities of 
the guard and reserve factored into TASS?
    Answer. Currently, TASS is the combination of the former ARNG and 
USAR school systems. The Active Component (AC) supports TASS through 
``functional alignment'' of the proponent schools and the Title XI 
program. The requirements, capabilities, and capacities of the guard 
and reserve are the current requirements, capabilities, and capacities 
of TASS. These are consolidated in the SMDR process. Following the Army 
vision, TASS and the active component system will merge, with soldiers 
from either RC or AC attending any of the schools for full credit. This 
will occur once courseware and equipment issues are resolved.
    Question. Are any projects in the 1998 request related to TASS?
    Answer. In fiscal year (FY) 98, there is no Military Construction, 
Army (MCA), requirement expected as a result of TASS. The Army Distance 
Learning Program (ADLP) is crucial to TASS implementation and to the 
future readiness of the Army. It does include Operation and 
Maintenance, Army (OMA), and Other Procurement, Army (OPA), funds for 
the upgrade of facilities with distance learning classrooms for TASS 
battalions.
    Question. Is it correct that the TASS staff at the Army's Training 
and Doctrine Command (TRADOC) has recently been cut from 36 people to 
14 people?
    Answer. TRADOC Coordinating Element (TCE) at Deputy Chief of Staff 
for Training (DCST), TRADOC, was projected to include 36 personnel when 
fully staffed. In June 1996, The DCST changed the missions and 
functions of TCE and spread the TASS mission across the entire DCST 
organization. The TCE has 14 personnel with the sole mission of TASS 
implementation, while more than 38 additional personnel support the 
TASS effort within the other directorates of DCST. There are also 
coordinating elements within each region which provide direct support 
to the TASS battalions.
    Question. Is TASS really just a scheduling tool . . . in other 
words, has TASS ever functioned to disallow proposed education or 
training as unnecessary, duplicative, or otherwise inappropriate?
    Answer. TASS is more than a scheduling tool; it is a major change 
in Army Training. TASS (TRADOC) is an active player in the areas 
mentioned above for USAR and ARNG. The ARNG and USAR have been 
eliminating unnecessary, duplicative or inappropriate courses from 
their schools. In the future, all three components will delete 
unnecessary, duplicative, or otherwise inappropriate education and 
training through the combined SMDR process. A limited combined SMDR was 
tested in FY96 with the Artillery School and the Command and General 
Staff College for those courses which have been redesigned as TATS 
courses (courses which are standard between the Reserve Components (RC) 
and Active Component (AC). A full SMDR is programmed as the process 
evolves over the next few years.
                          Unobligated Balances
    Question. The budget proposes to finance a total of $7.9 million 
from unobligated prior year appropriations for the Army Reserve 
account. Why was it formulated in this manner, and why didn't the 
Department request a traditional rescission of these funds? Provide for 
the record the individual sources which derive the $7.9 million.
    Answer. The Department of Defense directed the Army Reserve to 
finance $7.9 million of the Fiscal Year (FY) 1998 budget from prior 
year unobligated funds. The Army Reserve did not request a rescission 
of the unobligated prior year funds because these unobligated funds re 
not considered to represent actual savings. Military construction cost 
estimates and initial contract costs are only approximations of the 
true cost of projects. Therefore, as part of normal program management, 
these unobligated funds re applied to in-scope contract modifications, 
unforeseen problems, contractor claims, and reprogramming actions on 
other projects for which legitimate shortfalls occur. The individual 
sources which derive the $7.9 million reduction, although subject to 
change, are tentatively identified as follows:

------------------------------------------------------------------------
              State                     Location       FY 1996 reduction
------------------------------------------------------------------------
CA..............................  Camp Parks.........           $161,000
KS..............................  Olathe 539,000.....                   
NC..............................  Hickory............            600,000
NH..............................  Manchester 900,000.                   
NV..............................  Las Vegas..........          5,700,000
                                 ---------------------------------------
      Total.....................                               7,900,000
------------------------------------------------------------------------

                      Projects No Longer Required
    Question. Please provide for the record a list of any projects, 
either in the FY 1997 appropriation or in the prior years' unobligated 
balances, that are no longer required due to force structure changes, 
base realignment and closure, mission changes, bilateral and 
multilateral agreements, or other reasons. Please include on the list 
military construction projects, family housing and construction 
improvement projects, and projects financed under the base realignment 
and closure accounts.
    Answer. MCA: None. AFH: None. BRAC: Fort Huachuca, Arizona, 
Warehouse, FY 97, PN 44446235, BRAC 95, $8,00,000: Requirement can be 
met with existing facilities. The funds have been reprogrammed for high 
priority BRAC Operation & Maintenance requirements.
                          Host Nation Support
    Question. The budget request includes $20 million for Host Nation 
Planning and Design. What is the Army's estimate of the size of the 
construction program that will be funded by host nations during FY 
1998, and what is the estimated allotment of the requested $20 million, 
by location?
    Answer. The expected construction placement for all Service during 
FY 1998 is $1 billion in Japan; $105 million in Korea; and $60 million 
in Germany. The expected allotment of FY 1998 Host Nation Planning and 
Design funds is $16 million for Japan; $1 million for Korea, and $3 
million for Europe.
    Question. Last year Congress appropriated $20 million to the Army 
for Host Nation Planning and Design for criteria development and for 
surveillance of design and construction related to construction. Has 
this amount proven adequate?
    Answer. Based on the expected program, $20 million should be 
adequate.
    Question. What is the estimated allotment of the $20 million 
(appropriated last year), by nation?
    Answer. The FY 1997 Host Nation Planning and Design funds have 
currently been allocated as follows: $17 million for Japan; $1 million 
for Korea; and $2 million for Europe. The allocation will continue to 
be monitored to determine if further adjustments are necessary.
    Question. Please provide for the record a list of Army projects 
that will be executed in FY 1997 under host nation funded programs in 
Japan and Korea, and in the Arabian Gulf, as well as any information 
you can provide on NATO Infrastructure and Payment-In-Kind projects in 
Europe.
    Answer. See attachment.

[Pages 416 - 417--The official Committee record contains additional material here.]


    Question. Have host nations declined to fund any projects 
that the Army requested in FY 1997? If so, what projects were 
denied, by which host nation, at what cost, and for what 
reason?
    Answer. The Government of Japan (GOJ) will not include the 
following types of projects in the Japan Facilities Improvement 
Program (JFIP): (1) military related or offensive in nature; 
(2) ammunition storage; (3) certain kinds of recreational 
facilities like golf courses; (4) chapels; (5) repair and 
maintenance; and (6) politically sensitive as local officials 
must approve building permits. Consistent with this policy, 
Japan refused to fund a $15.5 million Ammunition Storage 
project at Kawakami Ammo Depot with the explanation that the 
local mayor would not approve the required construction permit.
    The Republic of Korea (ROK) recently deferred an Army 
project proposed for the next Combined Defense Improvement 
Program (CDIP)--Aircraft Parking Aprons (Ph 1) at Camp 
Humphreys, $1.9 million. This project was deferred by the ROK 
Joint Chiefs of Staff to make funds available for a U.S. Navy 
pier project. The Army expects the project to be included in a 
future CDIP program.

                             Reprogrammings

    Question. Please submit for the record a table which shows 
by fiscal year, the total amounts Congress has approved for 
reprogramming actions in the ``Military Construction, Army'' 
and the ``Family Housing, Army'' accounts over the past five 
years.
    Answer. See attached table.

[Pages 419 - 421--The official Committee record contains additional material here.]


                   Chemical Demilitarization Program
    Question. Funding for the Chemical Demilitarization Program has 
been provided under the ``Military Construction, Defense-wide'' 
account, but the Army remains the Department's agent for the execution 
of the program. Please summarize for us the current operation of the 
program, and the funding projections for the remaining construction.
    Answer. I am pleased to report to you that the funding and 
management strategies established by the Congress as described below 
have and continue to work extremely well. Public Law 99-145 directed 
that funds to destroy the chemical agents and munitions be set forth in 
the budget of the Department of Defense for any fiscal year as a 
separate account and not be included in the budget accounts for any 
military department. However, an exception was granted for the related 
military construction funds which were budgeted in the Military 
Construction, Army account until Fiscal Year (FY) 1995. Section 142 of 
Public Law 103-337 amended Public Law 99-145 which directed that the 
military construction funds for the chemical demilitarization 
facilities be budgeted in the Military Construction Defense-wide 
account. The rationale provided for this change was that budgeting for 
the construction of these facilities within the Military Construction, 
Army account would unnecessarily and improperly inflate the size of the 
Army's military construction projects. Funds authorized and 
appropriated for the Chemical Stockpile Disposal Program in the 
Military Construction, Defense-wide account are released from the 
Office of the Department of Defense (Comptroller) to the Department of 
the Army for execution. Also, Public Law 99-145 directed that the Army 
become the Executive Agent to carry out the destruction of the United 
States' chemical stockpile. Office of the Secretary of Defense 
oversight is provided from the Office of the Assistant to the Secretary 
of Defense (Nuclear, Chemical and Biological Defense Programs). The 
Army Acquisition Executive manages the execution of the program. The 
Program Manager, Chemical Demilitarization executes the program. The 
Army possesses the expertise in the acquisition, storage and 
destruction of chemical agents and munitions; training in chemical 
warfare defense operations; and qualifications regarding safety in 
handling chemical agents and munitions. The United States Army Corps of 
Engineers provides expertise and assumes responsibilities for 
construction of the demilitarization facilities.

[Page 423--The official Committee record contains additional material here.]


    Question. Please describe for us the environmental actions 
required and/or facility construction certification packages 
needed to start a chemical demilitarization project.
    Answer. Prior to construction of the chemical 
demilitarization facilities several environmental documents 
must be developed and approved. These include:
    a. Documentation required by the National Environmental 
Policy Act (NEPA). Under NEPA, the Army is required to develop 
a site-specific Environmental Impact Statement (EIS) describing 
the proposed action and its potential impact to the surrounding 
environment. This document is reviewed by several government 
and state agencies, as well as the public. Also, NEPA requires 
that the Army develop a Record of Decision which states the 
Army's intentions associated with the project.
    b. Resource Conservation and Recovery Act (RCRA) and Clean 
Air Act (CAA) Permits. Permit applications which describe the 
facility's design and proposed operational parameters for these 
permits are prepared by the Army and submitted to the affected 
State. Included with the applications are Ecological and Health 
Risk Assessments. Permits are issued by the concerned state to 
the Army after public review.
    c. The Toxic Substances Control Act (TSCA) Permit. The TSCA 
permit application is prepared by the Army and submitted to the 
affected Regional and Headquarters National Environmental 
Protection Agency (EPA). This document addresses the poly-
chlorinated biphenyls (PCB) in the M-55 rocket firing tubes. 
These permits are issued to the Army following EPA and public 
review.
    d. Storm Water Permit. The permit application, describing 
the management of storm water and silt runoff during 
construction, is prepared by the Army and submitted to the 
affected state.
    e. National Pollution Discharge Elimination System (NPDES) 
Permit. The application is submitted to the affected state 
which describes the project's management of storm water for 
sites over 5-acres and the effluents from the sits's sewage 
treatment facility.
    f. The environmental permits and certifications required to 
construct and operate a chemical disposal facility are 
summarized below:
    (1) Prior to Award of the Construction Contract: Final 
design prepared and certified in accordance with the Unites 
States Army Corps of Engineer procedures; RCRA and CAA permit 
applications submitted to State; TSCA permit application 
submitted to EPA; Site-specific Environmental Impact Statement 
(SSEIS) approved; and Record of Decision based upon SSEIS being 
signed.
    (2) Prior to the Start of Construction: RCRA and CAA 
permits issued; and Storm Water permit issued.
    (3) Prior to Operations: Independent Facility Certification 
(completed and accepted); RCRA permit demonstrated (trial burns 
conducted and accepted); TSCA permit granted (trail burn 
conducted and accepted); and NPDES permit issued.
    You can be assured that all environmental permit 
documentation is being closely coordinated with the federal and 
state regulators. We have established site-specific Integrated 
Product Teams to assist in quality control and preparation of 
the environmental documents. Additionally, the program has 
layered oversight by independent agencies and organizations to 
ensure compliance with all federal and state regulations.

                       Child Development Centers

    Question. What percentage of the total child care need is 
the Army is currently meeting?
    Answer. The Army is currently meeting 64 percent of the 
child care need and expects to meet 65 percent by fiscal year 
1998.
    Question. What is the Army's goal for meeting the need--has 
it increased from last year's goal of 65 percent?
    Answer. Army's goal is still to meet 65 percent of the 
total child care need. Currently, the Army is meeting 64 
percent of the child care need and will increase to 65 percent 
by fiscal year 1998 at current funding levels.
    Question. What is the current deficiency in the total 
number of spaces for child development facilities worldwide?
    Answer. The Army has a shortfall of 891 child care spaces. 
The Army goal is to satisfy 65 percent of the child care need. 
The Army plans to eliminate this shortfall by using a 
combination of Family Child Care in government housing, school-
age programs in existing facilities/schools, and alternative 
programs.
    Question. Can you provide a list of the highest priority 
military construction projects to address the Army's child care 
deficiency?
    Answer. The highest priority military construction projects 
are Kitzingen, Germany and Mons, Belgium which are budgeted for 
in fiscal year 1999.
    Question. Why are there no child care projects in the 
Army's budget request for fiscal year 1998?
    Answer. Although there are facilities in need of 
renovation/replacement, there were insufficient resources to 
fund all of the Army's infrastructure revitalization 
requirements. Expansion of care is planned through the use of 
Family Child Care in government housing, school-age programs in 
existing facilities/schools, and alternative programs.
    Question. Please provide for the record a list of child 
care projects requested for fiscal year 1999?
    Answer. The army has requested two child care projects for 
fiscal year 1999: Kitzingen, Germany and Mons, Belgium.
                      Base Realignment and Closure
    Question. Are there any schedule slippages in ongoing realignments 
and closure?
    Answer. No. The Army's BRAC program is ahead of schedule. The Army 
is working to implement all initiatives on an accelerated basis in 
order to realize the savings as soon as possible. All closures will be 
completed prior to July 2001.
    Question. After the completion of all actions, is there a 
possibility that excess installation inventory will remain which would 
justify another round of realignments and closures? If so, how soon?
    Answer. There are currently no legislation provisions for future 
BRAC rounds. The Army is currently analyzing infrastructure 
requirements in concert with the Quadrennial Defense Review. This will 
indicate which areas contain excess capacity and may be subject to 
further reductions. An evaluation of the QDR results will indicate 
whether the Department of Defense might profit from another round of 
BRAC.
         Family Housing Privatization and the Housing Authority
    Question. How are the Army's efforts proceeding with the various 
privatization efforts for family housing?
    Answer. We are very optimistic about the potential benefits of the 
authorities you gave us in Fiscal Year 1996. Our progress has been slow 
due to the number of, issues we had to address and work with OSD. This 
is true of any new program, but we believe we are over the hurdles and 
we can only see major advantages to the program. The private sector is 
also very interested in the program as evidenced by the nearly 400 
requests for bid packages. Fiscal Year 1997 will see the award of the 
Fort Carson project, and we expect a visible acceleration of the 
program during Fiscal Year 1998.
                               Inventory
    Question. How many family housing units do you have in the United 
States, and how many do you have overseas, excluding sections 801 and 
802, and excluding leases?
    Answer. In fiscal year 1998, the Army will have 91,711 units in the 
United States and 27,165 units overseas.
    Question. How many Section 801, Section 802, and leased units do 
you have in the United States, and how many do you have overseas?
    Answer. In fiscal year 1998, the Army estimates there will be 4,080 
Section 801 units, 276 Section 802 units, and 71 other leased units in 
the United States. We estimate there will be 11,168 leased units 
overseas; there are no Section 801 or 802 units in foreign areas.
                        Age of Housing Inventory
    Question. What is the average age of the family housing inventory?
    Answer. The average age of the family housing inventory is nearly 
36 years.
    Question. What percentage of the family housing inventory is over 
30 years old?
    Answer. Approximately 69% of the family housing inventory is over 
30 years old.
    Question. What percentage is over 40 years old?
    Answer. Approximately 25% of the family housing inventory is over 
40 years old.
                            Housing Deficits
    Question. What is your current worldwide family housing deficit?
    Answer. The Army's world-wide family housing deficit is 10,322 
units.
    Question. What are your three largest deficits, and how large are 
they?
    Answer. Based on calculations made from the latest Army Stationing 
and Installation Plan, the three largest deficit locations are: Fort 
Bragg, NC, 1,650 units; Fort Hood, TX, 1,530 units and Fort Campbell, 
KY, 982 units.
    Question. What are your three most expensive deficit locations, 
based on the actual payments of housing allowances?
    Answer. The three most expensive deficit locations, based on 
housing allowances, are Hawaii, Fort Lewis, WA and Fort Bragg, NC.
                             Waiting Lists
    Question. How many families are on waiting lists for government-
provided family housing, and what is the average waiting time?
    Answer. Historically, the Army has approximately 2,000 officer 
families and 18,000 enlisted families on waiting lists for government 
family housing. The average waiting time varies by location, depending 
on bedroom requirements. On the average, officer families wait no more 
than 10 months and enlisted families wait no more than 15 months for 
on-post family housing.
                            Off-base Housing
    Question. How many families are living off-base?
    Answer. There are approximately 190,000 families living off-post.
    Question. What are the criteria for suitable off-base housing?
    Answer. The Army's criteria for suitable off-base housing are:
    a. Location. The dwelling is within a 1-hour commute by privately-
owned vehicle during normal commuting hours, or within other limits to 
satisfy mission requirements and the dwelling is not in an area, 
subdivision, or housing complex designated by the installation 
commander as ``not acceptable for health or safety reasons''
    b. Cost. For making programming and/or acquisition decision, the 
maximum acceptable monthly housing cost is the total of BAQ plus 
Variable Housing Allowance (VHA) plus the maximum out-of-pocket cost 
(50% of BAQ). Total monthly cost includes rent, utilities (except 
telephone and cable TV), and other items of operating expense that are 
compensable by the VHA.
    c. Size. The minimum net square footage for family dwelling units 
are: 1 bedroom, 550; 2 bedrooms, 750; 3 bedrooms, 960; 4 or more 
bedrooms, 1,190. The dwelling unit has the minimum number of bedrooms 
to ensure no more than two persons share a bedroom. For unaccompanied 
personnel the unit is unshared and meets minimum space standards for 
government housing and provides the occupant a private bedroom, and 
that the total area (private space plus proportionate share of common 
areas) meets the minimum space standards for government housing.
    d. Condition. The dwelling is well maintained and structurally 
sound. It does not pose a health, safety, or fire hazard. The dwelling 
is a complete unit with private entrance, bathroom, and kitchen for 
sole use of its occupants. The kitchen, a bathroom, the living room and 
the bedrooms can be entered without passing through bedrooms. The 
kitchen has stove and refrigerator connections, and space for food 
preparation. At least one bathroom has a shower or bathtub, lavatory, 
and a flushable toilet. The dwelling has air conditioning or a similar 
cooling system and a permanently installed, adequately vented, heating 
system, if it is in a climate where those are included in Government 
construction per MIL-HNBK-1190. The dwelling has adequate electrical 
service. The dwelling has washer and dryer connections, or accessible 
laundry facilities are on the premises. The dwelling unit has hot and 
cold, running, potable water. In some foreign areas, construction 
standards for community housing do not provide for potable running 
water. In such places, hot and cold running water shall be provided and 
a continuous supply of potable water shall be made available.
    e. Occupant Owned Housing. All occupant owned housing is considered 
adequate.
                            ``Suitability''
    Question. How many families are unsuitably housed, and how is 
``unsuitable'' defined?
    Answer. Approximately 76% of on-post family housing does not meet 
current construction standards, and approximately 10,000 Army families 
living off-post are not suitably house. ``Unsuitable'' off post housing 
is defined as those housing units that do not meet the off-post 
adequacy criteria.
                          Deferred Maintenance
    Question. What is the current annual funding requirement for family 
housing maintenance and repair?
    Answer. The current, annual, unconstrained funding requirement for 
maintenance and repair is $685 million.
    Question. What is the current backlog of deferred maintenance?
    Answer. The Army discontinued collecting data about deferred 
maintenance and repair (DMAR) at the end of fiscal 1995 when the 
Installation Status Report (ISR), Part I--Infrastructure was 
implemented. Based upon the ISR, the estimated cost of repairs and 
improvements to achieve quality condition CI for family housing 
facilities is $5.2 billion. Quality condition CI means that at least 
90% of the inventory meets current standards.
    Question. How much maintenance and repair work can be performed 
during a single fiscal year, and what the limiting factors?
    Answer. The Office of the Assistant Chief of Staff for Installation 
Management estimates the Army can execute a maintenance and repair 
program equal to the fiscal year 1998 requirement of $685 million. The 
single, most limiting factor is completing engineering design work for 
major maintenance and repair projects in order to award the contracts 
before the end of the fiscal year.
                       Construction Improvements
    Question. How much construction improvement work can be performed 
during a single fiscal year, and what are the limiting factors?
    Answer. The Office of the Assistant Chief of Staff for Installation 
Management estimates that approximately $450 million per year could be 
awarded for family housing construction improvements Army-wide. The 
major limiting factors are the availability of planning and design 
funds and design lead time of approximately one year.
                    Operation and Maintenance Costs
    Question. What is the average operations and maintenance cost per 
family housing unit?
    Answer. The Army is funded at an average operation and maintenance 
cost in fiscal year 1998 at $7,888 per owned dwelling unit.
    Question. How does the average cost compare with the requirement--
assuming ``no growth'' in deferred maintenance?
    Answer. In fiscal year 1998, the average operation and maintenance 
amount is 97 percent of the funding level necessary to sustain the 
inventory at its current condition.

                          Currency Fluctuation

    Question. What currency gains or losses are projected for 
your overseas housing programs during fiscal years 1996 and 
1997?
    Answer. In fiscal year 1996, losses in the currency 
fluctuation account for family housing operation and 
maintenance were $26.9 million. In fiscal year 1997, based on 
data available through January 1997, we expect a gain of 
approximately $10 million in the currency fluctuation account 
for family housing operation and maintenance. The currency 
fluctuation account is centrally managed by the Office of the 
Secretary of Defense and is separate from the Family Housing, 
Army appropriation.

                            Officer Quarters

    Question. Please submit for the record a table showing: (a) 
how many general/flag officer quarters you have, separately 
identifying CONUS and OCONUS locations, (b) how many of these 
quarters exceed the statutory space limitations, and (c) the 
average O&M cost per unit.
    Answer.

------------------------------------------------------------------------
                                             CONUS            OCONUS    
------------------------------------------------------------------------
Number of GFOQ........................             243               94 
Number that exceed statutory space                                      
 limitations..........................             214               85 
------------------------------------------------------------------------
Average O&M cost per unit (based on FY96 data): $25,861.                


[Pages 428 - 430--The official Committee record contains additional material here.]


     Defense Intelligence Agency Missile Space Intelligence Center

    Question. There is a budgeted project for a replacement 
facility for the Defense Intelligence Agency's Missile Space 
Intelligence Center at Redstone Arsenal in Huntsville, Alabama. 
DIA says that upon completion of this project they intend to 
simply return the old facility to the Army's control. What is 
the Army's plan for re-use or demolition of this facility?
    Answer. Future use of this facility is being re-evaluated 
based on resource constraints. At this time, there are no funds 
available to renovate this facility for other tenants nor is 
there a tenant signed up to renovate and move into this 
facility. This building will be placed in a lay-away status 
when the Missile and Space Intelligence Center moves into the 
new facility.

                            Barstow-Daggett

    Question. By letter dated February 4, 1997, the Committee 
was notified of the Army's intent to initiate the design of 
several military construction projects, including a heliport 
for Fort Irwin, to be located at Barstow Daggett, California. 
However, this project is not programmed for construction 
funding until fiscal year 1999. Why is it programmed in fiscal 
year 1999, rather than fiscal year 1998?
    Answer. Fiscal year 1999 was the earliest timeframe for 
programming the project given constrained resources and 
timeline for negotiating use of property and possible cost 
sharing with county and state officials..
    Question. Submit for the record a history of funds 
appropriated to date for efforts at Barstow-Daggett.
    Answer. The Military Construction Appropriations Act, 1995, 
includes $10 million for the airfield at Barstow-Daggett. The 
Military Construction Appropriation Act, 1996, includes $10 
million for the airfield at Barstow-Daggett.
    Question. Submit for the record a copy of the current from 
1391 for this project.
    Answer. Copy attached.
    Question. Describe in some detail what steps have been 
taken to assure that previously approved authorization and 
appropriation for this project will not be allowed to expire, 
and to authorize reprogramming of previously appropriated 
``airfield'' funds for this ``heliport'' project.
    Answer. Language for the authority to use existing 
authorization of $10 million for an airhead at Barstow-Daggett 
to be used for the construction of a heliport at the same 
location has been submitted on 12 March 1997. The language 
allows the first phase of the project ($20 million) to be 
executed upon completion of the project design in FY98.
    Question. What is the current status of the environmental 
study and other work related to the possible land acquisition 
for the National Training Center at Fort Irwin?
    Answer. The Real Estate Planning Report (REPR) for the 
Southern Alternative was completed in February 1997. The draft 
EIS was completed and distributed for public comment in 
December 1996. The public comment period is open until 7 April 
1997. Remaining environmental tasks include the Preliminary 
Assessment Screening, the Project Mitigation Plan, the Economic 
Analysis, and the Biological Protection [Fencing] Plan. 
Estimated completion is September 1997.
    Other engineering tasks include: Utilities Corridor 
Topographic Mapping & As-Builts, Highway 127 Topographic 
Mapping, and Berms Feasibility Study. It is estimated these 
tasks will be completed in September 1997.
    Question. What is the current status of the report on this 
subject that is due to be submitted to us by March 15?
    Answer. The report to Congress on the National Training 
Center Land Acquisition for the Southern Expansion is currently 
under review by the Department of the Army and the Secretary of 
Defense. The study will be formally submitted to the Committee 
upon completion of the review.

[Pages 432 - 434--The official Committee record contains additional material here.]


          Fort Leavenworth, Kansas U.S. Disciplinary Barracks

    Question. What is the current capacity of the Disciplinary 
Barracks, what is the current inmate population, and why will 
the replacement facility have a capacity of 512?
    Answer. The capacity of the current Disciplinary Barracks 
(USDB) is 1503 inmates for minimum, medium and maximum 
confinement. The current population is 1030 inmates which 
includes trustee personnel. The prison population is being 
reduced by 500 based on agreement with the Federal Bureau of 
Prisons. The new USDB will have a design capacity of 512 
inmates for minimum, medium and maximum security prisoners. It 
is expected that upon completion the new USDB will have an 
occupancy rate of 400-450 inmates.
    Question. Can the replacement facility accommodate all 
existing vocational training programs?
    Answer. The replacement facility is designed to accommodate 
all existing vocational programs at the USDB. It is meant to be 
self-sustaining as is the current facility.
    Question. What is the potential cost and scope for 
expansion of the new facility beyond the budgeted project?
    Answer. There is no proposal to expand the scope of the new 
facility. It is expected that upon completion, the new USDB 
will have an occupancy rate of 400-450 inmates. If the need 
arises because of overcrowding, we expect that regional 
facilities can absorb some inmates based on length of sentence, 
type of offense, and available bed space.
    Question. Why is full funding required in a single year?
    Answer. The new USDB is requested in a single year because 
it is intended to be a complete and useable facility complex. 
Upon completion, the entire function and population of the 
existing USDB (minus inmates transferred to the Federal Bureau 
of Prisons) would be transferred to the new facility. Partial 
or phased funding (and occupancy) would require extensive 
transportation, and associated risks, to move inmates between 
confinement and support facilities on a daily basis. It would 
also require both facilities to be maintained and operated 
during the transition period.
    Question. The form 1391 shows a construction start date of 
12/97. How much construction can be put in place during fiscal 
year 1998?
    Answer. Current estimate is $20 million and will be put in 
place during fiscal year 1998.
    Question. Why is the proposed site for the new facility so distant 
from the existing Disciplinary Barracks?
    Answer. The site is the nearest location that will meet 
requirements for the correctional facility as well as providing a 
suitable construction site.
    Question. To what extent does this drive up costs--for such items 
as roads and utilities, and for Operation and Maintenance 
considerations such as additional costs for transportation of people 
and things.
    Answer. Going to an unprepared site can increase the cost of 
supporting facilities such as roads and utilities. However, operation 
and maintenance costs are not expected to be significantly affected by 
site selection.
    The Army considered two sites. The site chosen avoided $7 million 
in additional costs that would have been required to prepare the 
original site.
    Question. What is the plan for re-use or demolition of the existing 
Disciplinary Barracks?
    Answer. Upon completion of the new facility the existing facility 
complex will be demolished pending environmental (historical) concerns. 
There is no current plan to re-use the existing facilities. However, 
since the National Park Service and the Advisory Council of Historic 
Preservation has designated the USDB a significant historic structure, 
the Army must adhere to the process prescribed in Section 106 of 
National Historic Preservation Act. In addition, a NEPA analysis is 
required which can be conducted parallel to the historic process.
    Question. Why do we need a confinement facility? What other 
operations were examined, such as expanded regional military 
confinement facilities, or confinement in non-military federal 
institutions? Could the entire facility and operation be privatized?
    Answer. Sec 951, Title 10, USC allows the Secretary to establish a 
confinement facility for violators of the Uniform Code of Military 
Justice, however, in that event one of the responsibilities of the 
Secretary state he shall ``. . . provide for education, training, 
rehabilitation and welfare of offenders confined in a military 
correctional facility . . .'' The Army is the executive agent to 
confine prisoners for all Services. This is accomplished at the U.S. 
Disciplinary Barracks at Fort Leavenworth. Alternatives to repair the 
``Castle'' were developed and an economic analysis performed. The 
analysis showed that, over a 25-year life cycle, the least expensive 
alternative is to construct a new facility. Regional facilities can not 
replace the USDB. The regional facilities have an occupancy rate of 
approximately 75% and are unable to absorb all or even the majority of 
the remaining 500 medium and maximum security inmates at the USDB. 
Level 2 facilities (confinement less than 5 years) are not capable of 
handling maximum security inmates on a long-term basis. The Federal 
Bureau of Prisons (FBOP) can't accept all the USDB inmates. More than 
half the current inmates are undergoing the appellate process, have not 
been formally discharged from the military and are not eligible for 
transfer to the FBOP. Military prisoners who retain their active 
military status remain subject to the military justice system. Also, 
the FBOP is already overcrowded and to take all military inmates would 
exacerbate the shortage. The FBOP did agree to transfer of 500 inmates. 
If the mission was to be privatized, DoD would still be asked to 
provide a facility for the current population at the USDB.
    Question. The current Disciplinary Barracks were built with inmate 
labor, and it has held up quite well for nearly a century. How large 
was the inmate workforce at the time of construction, and how long did 
it take to complete construction?
    Answer. The existing Castle facility was constructed in 7 years 
(1908-1915). Interior finish work continued through the early 1940s. 
Construction methods were very poor, as evidenced by the insufficient 
reinforcing steel in the structural concrete and the ``low-fired'' 
bricks used in the exterior walls (allow moisture to penetrate and 
crumble under heavy loads).
    Question. Can this project be justified on purely economic 
grounds--avoid O&M costs, more efficient manpower utilization, and so 
forth?
    Answer. Yes. The construction of a new USDB to a more efficient 
design will save approximately 290 military police spaces and 35 
civilian spaces for a projected cost savings of $4.8 million dollars/
year. Additional savings will be realized in the area of staff support 
(e.g., housing, barracks). Using inmate labor to save the Army money by 
BASOPs off-sets, repairing TA-50 and other equipment, millwork, etc., 
was key to the Army's decision last August. Centralized management of 
inmate labor in one facility, and efficient design of the new prison 
make it a Win-Win situation for the Army.
    Question. The Army often claims considerable success at 
rehabilitating inmates at the Disciplinary Barracks. What are the 
limitations of trying to measure recidivism in this unique population?
    Answer. The Army currently tracks recidivism (subsequent re-arrest 
by police) of those inmates that are released on parole. There are no 
official records or completed studies examining the recidivism rate of 
all military inmates released. A study has been initiated which is 
examining the recidivism rate of all military inmates released from 
1990 to 1995 (five-year period). Initial indications are the recidivism 
rate is 7.3%, based on 1,544 inmates released and 113 which have been 
re-arrested. The study, when completed, will further identify types of 
offenses and background history of offenders.
    Question. What is the current value of inmate labor in the 
operation of Fort Leavenworth? Would this increase, decrease, or remain 
constant upon completion of this project?
    Answer. In 1996, USDB BASOPs offset due to inmate labor was $2.5 
million, and FY 97 projection is $2.8 million. These figures do not 
include installation NAF support details that include inmate labor at 
the recycling center, stables, kennels, and auto craft shop. It is 
projected to remain constant upon completion of the project.
    Question. Three major assessments were performed in 1991, 1992, and 
1994. Summarize for us the findings of these assessments.
    Answer. 1991: Finney and Turnipseed, Topeka, KS. The castle was 
evaluated for gravity, wind, and seismic load capacity. The criteria 
used was the Army seismic criteria at that time, which reflected the 
requirements for new construction. Its recommended repairs include; 
partial replacement of exterior walls; connect floors to walls; 
reconstruct tiers in domicile wings; replace overstressed floor slabs; 
install seismic joints; strengthen foundations; strengthen overstressed 
structural members; and improve moisture protection by tuckpointing and 
replacing spalled and cracked masonry and concrete. The estimated cost 
for repairs was $200 million.
    1992: Kansas City District, K.C., Mo. This study reexamined the 
seismic portion of the 1991 study to reflect the most current seismic 
criteria recommendations for existing buildings as promulgated under 
FEMA-178, National Earthquake Hazard Reduction Program. The goal was 
hazard reduction but at a higher risk of damage. State of the art 
seismic reinforcement techniques were also incorporated to reduce the 
overall cost of the repairs to $63.3 million. The gravity load and 
envelope repairs were the same as the 1991 study. The main seismic 
repairs consisted of core drilling the walls to add reinforcement and 
underpinning the foundations to resist seismic uplift.
    1994: Kuhlman Design Group, Maryland Heights, MO. The intent of 
this study was to use a different analysis technique (computer 
modeling) to independently validate the 1991 study. Since the 1991 
study identified similar structural problems throughout all wings of 
the Castle, the 1994 study modeled a typical Castle domicile wing. It 
also focused on earthquake forces, since any reinforcement made to 
withstand those forces would also strengthen the structure against 
horizontal wind loads. The Kuhlman study indicated that the existing 
Castle could not withstand an earthquake measuring more than 4.8 on the 
Richter scale. Even though only 2 earthquakes of that approximate 
magnitude have occurred Kansas within the last 125 years and both were 
centered over 75 miles away. Modern building codes require that large 
structures such as prisons in this region be constructed to withstand 
earthquakes of this intensity.
    Question. What further assessments could be performed to confirm 
possible areas of concern? At what cost and how long would it take?
    Answer. We believe nothing would be gained by further studies.
    Question. What changes have been observed and documented since the 
1994 assessment?
    Answer. In 1995, a structural firm conducted a baseline assessment 
of the structural situation within the USDB. They installed movement 
gauges on the 9 major cracks throughout the building. Readings of the 
gauges reveal only negligible movement since 1995.
   FT Huachuca, Arizona Whole Barrakcs Complex Renewal ($20,000,000)
    Question. What is the cost for demolition of the three existing 
barracks buildings?
    Answer. Estimated cost for demolition is $287,000.
    Question. Will this be funded within this project, or elsewhere?
    Answer. The estimated demolition cost is included within the 
estimated project cost.
     Fort Carson, Colorado Close Combat Tactical Trainer Building 
                              ($7,300,000)
    Question. This project provides the first facility of a combined 
arms tactical training (CATT) system complex. What are the future 
military construction requirements for this complex?
    Answer. The family of training systems encompassing the CATT are 
being developed over an extended period of years utilizing shared 
technologies and at collated, linked or stand alone sites. Currently 
there are four other programs in various stages of development with no 
definitive projects identified to date.
    Question. Why weren't other projects included in the fiscal year 
1998 program?
    Answer. Projects for the remaining four phases are being phased in 
according to the development of the corresponding shared technologies, 
hardware requirements, and production schedules which have not been 
finalized.
   Fort Gordon, Georgia--Whole Barracks Complex Renewal ($22,000,000)
    Question. This project includes a ``soldier community building,'' 
at a cost of $1,721,000. Please describe this item in some detail.
    Answer. Under the 1+1 barracks complex standard a soldier community 
facility is provided for soldiers to handle common service items which 
includes a washer and dryer area, a mud room for cleaning heavily 
soiled items from an exercise, visitors meeting lounge, activity/game 
room area and bulk item storage facilities.
      Schofield Barracks, Hawaii--Whole Barracks Complex Renewal 
                             ($44,000,000)
    Question. This project involves the demolition of 26 buildings. 
Briefly describe the buildings that will be demolished.
    Answer. The facilities to be demolished consist of old wooden 
storage houses built in 1921.
 Crane Army Ammunition Activity, Indiana--Ammunition Containerization 
                      Complex Phase I ($7,700,000)
    Question. This project will have Phase II which is programmed in 
fiscal year 1999. Why wasn't this second phase included in the fiscal 
year 1998 program?
    Answer. The fiscal year 1999 project is a separate distinct phase 
from that requested in 1998. Funding constraints require this follow-on 
phase to be programmed next.
 Concord Naval Weapons Station, California--Ordnance Support Facility 
                             ($23,000,000)
    Question. What is the basis for the estimated cost for the land 
acquisition that is included in this project?
    Answer. The railroad land purchase is integral to the project to 
incorporate the existing tracks into a rail serviced container transfer 
and holding complex. A portion of the existing right-of-way is in the 
footprint of the improvements and some existing trackage will be 
incorporated into the improvements. Proposed construction by the Army 
will render the remaining portions of the tracks unusable by the Union 
Pacific Railroad. Purchase of the land will eliminate a high risk 
position for the Government in future negotiations should the right of 
way be obtained by lease. The current cost estimate is based on a 
market analysis which determined the present appraised value.
      Fort Riley, Kansas--Closed Combat Tactical Trainer Building 
                              ($7,300,000)
    Question. Describe in some detail the ``special foundation work'' 
that is required for this project.
    Answer. Site soil conditions indicate an expansive clay type soil 
which requires the design agency to provide either pile footings or 
extra thick floating floor slab as a construction solution.
    Question. This project will complete a complex started in fiscal 
year 1996. Is the demolition of existing facilities included in this 
project?
    Answer. There are two facilities to demolish under this phase 
included in this project.
    Question. If so, what are the demolition costs, and how will it be 
funded?
    Answer. The demolition costs are estimated at $452,000 and have 
been included in the estimated total project cost for this project, as 
shown on the DD Form 1391.
 Fort Sam Houston, Texas--Whole Barracks Complex Renewal ($16,000,000)
    Question. The DD Form 1391 shows that this project is only 5 
percent designed as of January 1997. Isn't there a requirement of 35 
percent prior to budge submission?
    Answer. The Army has adopted the use of parametric estimates, with 
congressional approval, commencing with fiscal year 1998 program and 
they are now used in lieu of a 35 percent design. A parametric estimate 
is considered an equivalent project cost estimating tool and the DD 
Form 1391 reflects that a parametric estimate has been performed for 
this project.
                        Environmental Compliance
    Question. How large is the backlog of requirements for 
environmental compliance projects, and how long will it take to buy-out 
this backlog?
    Answer. The Army National Guard compliance backlog is $74 million. 
Funding to the levels listed below will adequately fund all recurring 
and programmed compliance requirements, as well as buy out this backlog 
over the next three years.
    FY 1998: $121 M including $20 M Buy-out.
    FY 1999: $117 M including $30 M Buy-out.
    FY 2000: $112 M including $24 M Buy-out.
              Expiring Authorizations--Army National Guard
    Question. For projects that have been previously appropriated but 
not yet executed, list any authorizations that will expire in 1997, 
1998, or 1999, if any identifying the year of expiration.
    Answer. 1997: Barracks, Fort Indiantown Gap, PA.
    1998: None.
    1999: None
                    Excess Prior Year Authorization
    Question. For the record, what is the amount of excess prior year 
authorization, if any?
    Answer. At the end of Fiscal Year 1997, the Army National Guard 
anticipates $5.9 million in residual prior year authorization.
                    Army National Guard End-Strength
    Question. What is the authorized end-strength for 1996 and 1997, 
and the projected end-strength for 1998?
    Answer. The authorized end strength for the Army National Guard was 
375,000 in FY 1996, (actual total was 369,976); and 366,516 in FY 1997. 
The projected end-strength for FY 1998 is 366,516.
                   Base Closure--Army National Guard
    Question. For the record, list the locations where facilities were 
transferred to the National Guard components under base realignment and 
closure.
    Answer. There have not been any transfers to the Army National 
Guard at this time. The Army National Guard, through the Adjutants 
General of four States is in the process of receiving the following 
installations: Ft. Pickett, VA and Ft. Chaffee, AR on 1 October 1997; 
Ft. Indiantown Gap, PA on 1 October 1998; and Ft. McClellan, AL on 1 
October 1999.
    Question. What increases in facility requirements have resulted 
from such transfers?
    Answer. The Army National Guard has assumed all recurring costs to 
operate and maintain the facilities on these sites. In addition, it 
assumes responsibility for all existing backlog of maintenance and 
repair.
    Question. For facilities that have been transferred to the National 
Guard components under base realignment and closure, are the BRAC 
accounts fully meeting the construction requirements at those 
locations?
    Answer. Again, no facilities have been transferred yet. However, 
there is one construction project required at Ft. McClellan. When its 
scope is finalized, we will have a better indication of whether the 
BRAC accounts can fund it.
    Question. How far have such transfers gone toward resolving 
facilities shortages for the National Guard components?
    Answer. The transfers have had no impact on Army National Guard 
facility shortages. The Army was fulfilling an existing requirement to 
train the Army National Guard. This requirement has not changed, but 
not the Army National Guard will run the installments.
                     Army National Guard Inventory
    Question. What is the value of the current physical plant, and the 
types, numbers, and average age of facilities?
    Answer. The current plant replacement value of the Army National 
Guard's physical plant is $16.3 billion. Of this, $7.9 billion is in 
armories, $4.2 billion is in training facilities, $2.8 billion is in 
logistical facilities, and $1.4 billion is in aviation facilities. The 
average age of these facilities is 36 years. These facilities contain 
65.8 million square feet which the Federal government supports, and 
67.0 million square feet which the State's exclusively support. Among 
these facilities are 3,214 armories, 241 United States Property and 
Fiscal Officer facilities, 121 Army Aviation facilities, 4 Aviation 
Classification and Repair Depots, 701 Organizational Maintenance Shops, 
69 Combined Support Maintenance Shops, 24 Mobilization and Training 
Equipment Sites, 40 Unit Training and Equipment Sites, 10,576 training 
facilities, and 4,520 miscellaneous logistical facilities.
                      Backlog--Army National Guard
    Question. What is the current backlog of facility requirements?

    [Clerk's note.--The following report, dated April 9, 1997, 
was submitted subsequent to the hearing. The Army National 
Guard's response to the above question was the submission of 
pages 12 through 27 of the report, excluding the first eleven 
projects (which were contained within the fiscal year 1998 
budget request). The report was directed by House Report No. 
104-563, the House Report to accompany the National Defense 
Authorization Act for Fiscal Year 1997. The report itemizes 788 
unfunded projects, totaling $3,485,117,380, beyond those 
projects currently programmed through Fiscal Year 2003 in the 
Future Years Defense Program.
    Note the Army National Guard's response to the following 
question, regarding the history of the fiscal year 1998 budget 
request.]

[Pages 440 - 469--The official Committee record contains additional material here.]


             History of Budget Request--Army National Guard

    Question. Submit for the record a chart which will show the 
history of the fiscal year 1998 budget request [aggregate total 
only, not a project listing]. At a minimum, this chart should 
display the amount approved by the National Guard Bureau, the 
amount approved by the Army, the amount approved by the Office 
of the Secretary of Defense, and the amount approved by the 
Office of Management and Budget.
    Answer.

                          FY 1998 Budget Cycle

                        [In millions of dollars]

Army National Guard requirement...............................   454.000
Initial submission to Army/OSD................................     7.049
Final submission to Army/OSD..................................    45.098
Submission to Congress........................................    45.098

    Question. How much would be required to keep even with facilities 
needs?
    Answer. Given an estimated plant replacement value of $17.2 billion 
for FY 1998, it would take $398 million annually to provide facilities 
for new missions, replacement, and revitalization. This figure also 
includes the funds required for the planning and design effort.
                  Family Housing--Army National Guard
    Question. List the locations and number of units of family housing 
occupied by the National Guard components.
    Answer. The Army National Guard has no family housing.
              National Guard Backlog of Maintenance Repair
    Question. What is the current backlog of maintenance and repair 
funded under the operations and maintenance accounts, by component?
    Answer. The Army National Guard backlog of maintenance and repair 
for FY 1997 is approximately $322.1 million.
    Question. What is the annual funding requirement to avoid growth of 
the backlog?
    Answer. To avoid growth in the Army National Guard's backlog of 
Maintenance and Repair in FY 1998, the annual funding requirement will 
be $333.3 million.
             Parametric cost Estimates--Army National Guard
    Question. To what extent do you rely on parametric cost estimation 
in the design of military construction projects?
    Answer. The Army National Guard uses parametric design to establish 
the initial scope of projects. Parametric cost estimation is used to 
develop the initial cost estimate for projects.
    Question. What degree of confidence do you have in the accuracy of 
parametric design estimates?
    Answer. We find parametric design estimates are accurate for 
establishing the scope for facilities which the Army National Guard 
routinely constructs. For example, readiness centers and maintenance 
shops are routinely constructed. In these cases a parametric design can 
be 95% accurate for determining the required square footage. For unique 
facilities that have never, or rarely been constructed, parametric 
designs are not as accurate.

[Pages 471 - 472--The official Committee record contains additional material here.]


    Question. Has this appropriation met the needs of the 
components over the last two years?
    Answer. The Army National Guard has made the best possible 
use of minor construction funds. However, many worthy projects 
have been deferred due to constrained resources.
    Question. What shortfalls, if any, have been encountered?
    Answer. The FY 1997 Congressional language directed what the Army 
National Guard would fund with its FY 1997 unspecified minor 
construction funds. Because of this, the following projects were 
deferred to future years.

                                                                        
------------------------------------------------------------------------
                                                                   Cost 
              Location                         Project            ($000)
------------------------------------------------------------------------
CP ROBERTS, CA.....................  HAND GRENADE QUALIFICATION      124
                                      COURSE.                           
STONES RANCH, CT...................  TNG SITE, AMMO BUNKERS....      387
ELBERTON, GA.......................  ORGANIZATIONAL MAINTENANCE      319
                                      SHOP ADD.                         
SAVANNAH, GA.......................  ORGANIZATIONAL MAINTENANCE      147
                                      SHOP ADD/ALT.                     
CP BEAUREGARD, LA..................  ARMY AVIATION SUPPORT           353
                                      FACILITY, INTERIM                 
                                      FACILITY.                         
WESTOVER AFB, MA...................  FLIGHT SIMULATION BLDG          363
                                      RENOVATION.                       
CP ASHLAND, NE.....................  WASH RACK UPGRADE.........      174
FT DIX, NJ.........................  REGIONAL TRAINING SITE,         186
                                      MAINTENANCE ENGINE ROOM.          
------------------------------------------------------------------------

         Army National Guard Demolition of Unneeded Facilities
    Question. How large is the inventory of unneeded facilities 
awaiting demolition?
    Answer. The current inventory indicates that 758,721 square feet 
require demolition.
    Question. Is the work funded exclusively under the operations and 
maintenance account?
    Answer. No, demolition is part of major construction when an 
existing facility is being replaced by new construction.
    Question. How will this work be tracked to ensure that funds are 
used for demolition?
    Answer. The Army National Guard has established two Army Management 
Structure codes exclusively for demolition not associated with new 
construction: one for facilities that receive 100% Federal support, and 
one for facilities that receive a 25% State match.
    Question. What is the level of effort for this work for fiscal year 
1997?
    Answer. The current estimate for demolition requirements is $3.3 
million. Because of funding constraints in performing demolition not 
associated with new construction, we estimate less than $100,000 in 
demolition will actually take place in FY 1997.

[Pages 474 - 487--The official Committee record contains additional material here.]


                Facility Definition--Army National Guard

    Question. What difference is there, if any, between an armory and a 
readiness center?
    Answer. There is no difference between an armory and a readiness 
center. Either facility is a structure that houses one or more units of 
the Army National Guard and is used for home station training and 
administration of those units. However, in recent years, armory 
utilization has been greatly enhanced to support the expanded role of 
the Army National Guard in the Total Army mission. The term readiness 
center calls attention to this expanded role. Readiness centers in the 
Army National Guard are oriented toward the training and mobilization 
of the citizen-soldier. Training focuses on individual, squad, crew, 
team and leader training with the NCO as the primary trainer, using 
simulators, distance learning and other technologies to achieve and 
sustain qualification of the individual soldier. The readiness center 
also provides our soldiers with a sustainable, accessible and secure 
base from which they can rapidly mobilize and deploy in times of need.
                State Master Plans--Army National Guard
    Question. Bring us up to date with the current status of the 
National Guard Bureau's five-year program to fund development of state 
master plans.
    Answer. A program is in place to fund five States in FY 1997, with 
twelve States each fiscal year thereafter. This program will provide 
the States with a State wide Master Plan and software to aid in Real 
Property development. The Real Property Maintenance Plan is a dynamic 
document, a continually evolving source of guidance for Real Property 
decision making in the State.
    Question. Which states will be funded in fiscal year 1997?
    Answer. The selected States are Indiana, Iowa, Kansas, Minnesota, 
and North Dakota.
    Question. Why is this effort funded under the O&M account, rather 
than under Military Construction planning and design?
    Answer. Military Construction planning and design funds are to be 
used to design specific projects. The goal of Master Planning is to aid 
in Real Property decision making, not to design specific projects.
    Question. Does the National Guard Bureau currently have access to 
each State's 10-year Long Range Construction Plan?
    Answer. Yes, not only do we have access, but we maintain a copy of 
each State's Long Range Construction Program.
                 Environmental Compliance--Army Reserve
    Question. How large is the backlog of requirements for 
environmental compliance projects, and how long will it take to buy out 
this backlog?
    Answer. The Army Reserve's backlog of unfunded compliance 
requirements is approximately $12 million. This unfunded backlog 
consists of Class II and Class III compliance actions that are not 
classified as ``must fund'' requirements. Additional funding in the 
amount of $3 million per year would permit this backlog to be 
eliminated in about four years.
                 Expiring Authorizations--Army Reserve
    Question. For projects that have been previously appropriated, but 
not yet executed, list any authorizations that will expire in 1997, 
1998, or 1999, if any, identifying the year of expiration.
    Answer. Army Reserve projects meeting this criteria are listed 
below. These projects are all scheduled for award in fiscal year 1997.

----------------------------------------------------------------------------------------------------------------
                                                                         Pgm amt                                
                Appn year                           Location              ($000)            Auth expires        
----------------------------------------------------------------------------------------------------------------
1996....................................  Olathe, KS.................          539  30 Sep 98                   
1997....................................  Buffalo, MN................         4260  30 Sep 99                   
1997....................................  Ft Bragg, NC...............         9966  30 Sep 99                   
1997....................................  Geneva, PA.................         9352  30 Sep 99                   
----------------------------------------------------------------------------------------------------------------

             Excess Prior Year Authorization--Army Reserve
    Question. For the record, what is the amount of excess prior year 
authorization, if any?
    Answer. For all fiscal years through FY 1997, Army Reserve military 
construction authorizations exceed appropriations by $788,000. This 
excess prior year authorization will expire on 30 September 1998.
                       Army Reserve End Strength
    Question. What is the authorized end strength for 1996 and 1997, 
and the projected end strength for 1997?
    Answer. The authorized end strength for the Army Reserve is 230,000 
for FY 1996 and 215, 179 for FY 1997. The projected end strength for 
the Army Reserve as of September 30, 1997 is 210,950.
                       Base Closure--Army Reserve
    Question. For the record, list the locations where facilities were 
transferred to the Reserve Components under base realignment and 
closure.
    Answer. As a result of Base Realignment and Closure (BRAC), the 
Army Reserve has acquired facilities (transfers from other services) at 
the following locations:

------------------------------------------------------------------------
             State                     Location             Program     
------------------------------------------------------------------------
Arizona.......................  Williams Air Force     BRAC 91          
                                 Base.                                  
Ohio..........................  Rickenbacker ANG Base  BRAC 91          
South Carolina................  Myrtle Beach Air       BRAC 91          
                                 Force Base.                            
New York......................  Naval Station, New     BRAC 93          
                                 York.                                  
------------------------------------------------------------------------

    Question. What increases in facility requirements have resulted 
from such transfers?
    Answer. Army Reserve facility requirements have generally been 
reduced as a result of Base Realignment and Closure (BRAC) actions. The 
Army Reserve has been able to consolidate some activities and eliminate 
some leased facilities, thereby reducing operation and maintenance 
costs.
    Question. For facilities that have been transferred to the reserve 
components under base realignment and closure, are the BRAC accounts 
fully meeting the construction requirements at those locations?
    Answer. To date, Base Realignment and Closure (BRAC) accounts have 
funded Army Reserve military construction requirements arising solely 
out of base closure actions.
    Question. How far have such transfers gone toward resolving 
facilities shortages for the reserve components?
    Answer. The BRAC program has had a negligible effect on the 
military construction backlog. Most facilities retained for Army 
Reserve use at Reserve Component (RC) enclaves were already occupied by 
Reserve units. However, in four cases, additional buildings were 
acquired to alleviate existing space shortages.
                        Inventory--Army Reserve
    Question. What is the value of the current physical plant, and the 
types, numbers, and average age of facilities?
    Answer. The plant replacement value (PRV) and average age of Army 
Reserve facilities are estimated at $3.6 billion and 32 years, 
respectively. The PRV and average age of facilities at Army 
installations commanded and controlled by the Army Reserve is estimated 
at $1.9 billion and 47 years, respectively. Major functional activities 
include 925 U.S. Army Reserve Centers, 107 Joint Armed Forces Reserve 
Centers, 112 Area Maintenance Support Activities, 28 Aviation Support 
Facilities, 24 Equipment Concentration Sites, and 12 Regional Training 
Sites.
                          Army Reserve Backlog
    Question. What is the current backlog of facility requirements?
    Answer. The total military construction (MILCON) backlog for Army 
Reserve facilities and Army installations under Army Reserve command 
and control is estimated at $1.9 billion.
    Question. How much would be required annually to keep even with 
facilities needs?
    Answer. The Army Reserve has a total annual requirement of $96 
million just to meet revitalization needs for its facilities and 
installations. The revitalization needs represent the minimum essential 
requirements to prevent further deterioration of the inventory.
                      Army Reserve Family Housing
    Question. List the location and number of units of family housing 
occupied by the reserve components.
    Answer. Most full-time support assignments in the Army Reserve are 
with troop program units located in civilian communities all over 
America. Government-furnished family housing will usually not be 
available in these locations. Where government housing is available, 
all active duty soldiers, including Active Guard/Reserve (AGR) 
personnel, are considered for family housing in accordance with 
applicable regulations of the respective Services operating the family 
housing units. The Army Reserve does not maintain a centralized 
database or any other upward reporting system for family housing 
information on individual soldiers.
             Army Reserve Backlog of Maintenance and Repair
    Question. What is the current backlog of maintenance and repair 
funded under the operations and maintenance accounts, by component?
    Answer. The backlog of maintenance and repair (BMAR) for Army 
Reserve facilities is currently estimated at $125 million. The BMAR for 
Army installations under Army Reserve command and control is currently 
estimated at $56 million.
    Question. What is the annual funding requirement to avoid growth of 
the backlog?
    Answer. Annual maintenance and repair funding requirements to 
prevent growth of the backlog of maintenance and repair are $115 
million for Reserve facilities and $49 million for Army installations 
under Army Reserve command and control.
                Parametric Cost Estimates--Army Reserve
    Question. To what extent do you rely on parametric cost estimation 
in the design of military construction projects?
    Answer. The Army Reserve is using the Modular Design System (MDS) 
for all new military construction designs. The ``front end'' of the MDS 
software contains a ``programmer's package'', which facilitates 
development of the project scope and building layouts. This portion of 
the software uses parametric cost estimating to generate project cost 
estimates very early in the design process.
    Question. What degree of confidence do you have in the accuracy of 
parametric design estimates?
    Answer. The Army Reserve is very confident in the accuracy of 
parametric cost estimating functions and capabilities of the MDS 
software. The programmer's package produces a preliminary cost estimate 
very early in the design process that is at least as accurate as a 35% 
design estimate in a traditional design.

[Page 491--The official Committee record contains additional material here.]


    Question. Has this appropriation met the needs over the last two 
years?
    Answer. The Army Reserve's unspecified minor construction 
appropriation has been adequate to meet identified needs.
    Question. What shortfalls, if any, have been encountered?
    Answer. No shortfalls exist in available funding at this time.
             Army Reserve Demolition of Unneeded Facilities
    Question. How large is the inventory of unneeded facilities 
awaiting demolition?
    Answer. The Army Reserve does not demolish unneeded reserve 
centers. There facilities are reported as excess and disposed of on the 
local market. At Army installations under Army Reserve command and 
control, about 290,000 square feet of World War II structures are 
planned for demolition at a estimated cost of $2.1 million.
    Question. Is the work funded exclusively under the operations and 
maintenance account?
    Answer. Demolition is funded under operations and maintenance 
accounts, except when buildings are being demolished within the 
footprint of a new facilities being constructed using military 
construction accounts.
    Question. How will this work be tracked to ensure that funds are 
used for demolition?
    Answer. The Integrated Facilities System--Mini/Micro (IFS-M) is 
used to track the demolition program and funding.
    Question. What is the level of effort of this work in fiscal year 
1997?
    Answer. Demolition of World War II structures at Army Reserve 
installations will be accomplished subject to the availability of funds 
at the end of the fiscal year.
                      Reprogrammings--Army Reserve
    Question. Submit for the record a table which will show, by fiscal 
year, the total amount approved by Congress for reprogrammings for the 
last five years.
    Answer. Congress approved the following total amounts for 
reprogrammings for the Army Reserve:

                                                            Total amount
        Fiscal year of funds                        approved by Congress

1992....................................................      $2,960,948
1993....................................................      $3,481,000
1994....................................................      $6,308,452
1995....................................................    None to Date
1996....................................................    None to Date
               Projects No Longer Required--Army Reserve
    Question. Please provide for the record a list of any projects, 
either in the fiscal year 1997 appropriation or in the prior years' 
unobligated balances, that are no longer required due to force 
structure changes, base realignment and closure, mission changes, 
bilateral and multilateral agreements, or other reasons. Please include 
on the list military construction projects, family housing construction 
and construction improvement projects, and projects financed under the 
base realignment and closure accounts.
    Answer. The Army Reserve has canceled six prior-year, unawarded 
projects as a result of force structure changes, training mission 
changes, and non-availability of suitable land:

----------------------------------------------------------------------------------------------------------------
             Fiscal year                        State                   Location                Description     
----------------------------------------------------------------------------------------------------------------
1990................................  Arizona.................  Ft. Chaffee.............  Regional Training Site
                                                                                           (RTS) Medical.       
1990................................  Massachusetts...........  Ft. Devens..............  RTS Maintenance.      
1990................................  Pennsylvania............  Ft. Indiantown Gap......  RTS Maintenance.      
1991................................  Arizona.................  Ft. Chaffee.............  RTS Maintenance.      
1991................................  Minnesota...............  Walker..................  USARC/OMS.            
1993................................  West Virginia...........  Weirton.................  USARC/OMS.            
----------------------------------------------------------------------------------------------------------------

                   Army Reserve Unobligated Balances
    Question. What is being done to improve execution rates and to 
avoid large unobligated balances?
    Answer. Army Reserve major construction program execution is 100 
percent for fiscal year (FY) 1995 and prior years. For FY 1996, only 
one line item remains to be executed: a land acquisition valued at 
$539,000. The FY 1997 program is on schedule for 100 percent execution. 
The Army Reserve is using the Modular Design System (MDS) to improve 
the ability to execute projects in the year of funding.
    Question. For the record, submit a list of all projects for which 
funds were previously appropriated, but which have not yet been 
executed. This list should include, at a minimum, the year in which 
funds were appropriated and the estimated contract award date.
    Answer. The Army Reserve has only one project, a land acquisition, 
that meets this criteria:

----------------------------------------------------------------------------------------------------------------
           Fiscal year                   State              Location            Pgm amt            Sched awd    
----------------------------------------------------------------------------------------------------------------
1996............................  Kansas.............  Olathe............           $539,000  June 1997.        
----------------------------------------------------------------------------------------------------------------

     Sacramento, California, U.S. Army Reserve Center ($13,072,000)
    Question. The budget requests an appropriation of $13,072,000 and 
an authorization of $20,972,000 for an Army Reserve Center in 
Sacramento, California. Why is there a difference in these amounts?
    Answer. The Department of Defense directed the Army Reserve to 
finance $7.9 million of the Fiscal Year (FY) 1998 budget from prior 
year unobligated funds. The reduction in appropriation request was 
applied to this one project. The total estimated cost of the project, 
equal to the authorization request, is $20,972,000. This information is 
displayed on the DD Form 1391.
    Question. For the record, submit a form 1391 totalling $20,972,000 
for this project.
    Answer. The DD Form 1391 contained in the budget request shows the 
full cost of the project to be $20,972,000. A revised DD 1391, 
reflecting an appropriation request of $20,972,000, is submitted as a 
separate attachment.

[Page 494--The official Committee record contains additional material here.]


    Question. For the record, submit three forms 1391 (totaling 
whatever is required) to fund this as three separate projects--
an Army Reserve Center, an Organizational Maintenance Shop, and 
an Area Maintenance Support Activity.
    Answer. The Army Reserve submits as a separate attachment 
two DD Forms 1391 for only two projects, not three--An Army 
Reserve Center and a combined Organizational Maintenance Shop 
(OMS) and Area Maintenance Support Activity (AMSA), referred to 
as an OMS/AMSA. It is neither economically wise nor desired to 
construct two separate buildings on the same site in which 
similar and concurrent maintenance activities would be 
performed. OMS activities are those performed by the tenant 
reserve unit personnel, including full-time military members. 
An AMSA is a maintenance activity staffed by civilian personnel 
who provide support to reserve units on a full-time basis.

[Pages 496 - 497--The official Committee record contains additional material here.]


 Fort McCoy, Wisconsin Army Reserve Readiness Training Center Phase II 
                             ($14,856,000)

    Question. Why is this project tallied in the ``C-1'' as a 
training facility, rather than as a troop housing facility, 
since this phase of construction covers only billeting?
    Answer. The Army Reserve originally developed the Army 
Reserve Readiness Training Center (ARRTC) as a single project 
in 1989. Forces Command directed the phasing at a later date. 
Phase I provided for the main training building, and Phase II 
provides for the billeting portion of the project. This 
structure provides transient billeting for over 8,500 students 
attending various courses at the ARRTC throughout the year. The 
facility does not house permanent party personnel, but is 
considered an essential and integral part of the training 
facility. Therefore the Army Reserve did not code the project 
as a troop housing facility.

                            Planning Process

    Question. We have talked personally about my desire for a 
firm planning process and I know you share my concern. I was 
interested to learn last week that while the Army National 
Guard claims to have a construction backlog of over $4 billion 
they have no concrete or orderly plan to eliminate the backlog. 
Mr. Walker, what can we do and what needs to be done about the 
lack of support and funding requested by the Department to have 
each component place a strong emphasis on the need for long-
term plans and the need to adhere to them?
    Answer. The Office of the Secretary of Defense (OSD) has 
fully supported the Army's long-term barracks and strategic 
mobility construction programs. For remaining infrastructure, 
the Army's construction backlog requirement is based on a 25-
year buyout of the deficit and maintaining a 57-year 
revitalization cycle for existing facilities. Funding is 
insufficient to achieve these goals, however, by focusing 
available resources we have accelerated our barracks upgrade 
program for completion in 2012 and we will complete strategic 
mobility construction with the Future Years Defense Plan (FYDP) 
ending in fiscal year 2003.
    Current funding levels for Family Housing do not permit us 
to ever buy out the backlog of construction. To compensate, we 
are vigorously pursuing the Military Housing Privatization Act 
authorities passed in fiscal year 1996 to leverage private 
capital against our requirements and improve the quality of 
housing for our soldiers and their families.
    We need your support of the projects we have requested in 
the budget to stay on track with the programs we have funded, 
both in the United States and overseas.
    The Army National Guard requires each State to submit a 
Long Range Construction Program annually. The Army National 
Guard then creates a Future Years Defense Plan by prioritizing 
the projects from all the State programs based upon the 
priority of the units the projects support, the design status 
of the projects, and the State priority. The highest weight 
goes to unit priority and because the Army National Guard force 
structure is in flux, a project's place on the Future Years 
Defense Plan is likely to change from year to year. Moreover, 
starting in Fiscal Year 1997, the Army National Guard is 
providing the States an additional planning tool by funding, 
over five years, a master plan for each State. However, this of 
itself will not reduce the construction backlog. Quite simply 
there are insufficient funds within the Army as a whole to make 
a dent in a construction backlog that exceeds $1.3 billion for 
the Army National Guard alone. That is, assuming no inflation, 
to reduce the current backlog over even 10 years would require 
$130 million for construction and $39 million for planning and 
design. During this same period, a new backlog of equal or 
greater significance would develop. This does not include the 
requirement of $3.5 billion in revitalization projects in the 
current Long Range Construction Plan.
    The Army Reserve does have a long-term plan to eliminate 
its construction backlog. However, the reason that this backlog 
cannot be eliminated as quickly as might otherwise be desirable 
is due to the limited funds made available for this program due 
to the fiscal realities that the Army faces from a constrained 
budget. This does not mean that Army Reserve projects are not 
being supported by the Army leadership; the Army Reserve's 
highest priority projects are, in fact, fully funded. It does 
mean that budget realities preclude the funding of many 
worthwhile projects with a lower priority.
                      Infrastructure Requirements
    Question. What emphasis is the Army placing on the growing problem 
of infrastructure replacement? In particular, when you do a whole 
barracks renewal are infrastructure deficiencies addressed?
    Answer. The Army addresses deficiencies in infrastructure when 
planning and constructing whole barracks renewal projects so that the 
resulting project is complete and useable. The Strategic Mobility 
program also constructs infrastructure to enhance deployment of the 
Forces such as railheads and airfield upgrades and roads. For other 
than barracks and Strategic Mobility, projects compete for available 
funding based on contribution to readiness, mission support and urgency 
of need. Projects specifically related to infrastructure repair may 
receive funding if they are of high enough priority.
    The Army is also attempting to solve utility infrastructure 
problems through privatization efforts, with the goal to privatize at 
least 75% of all utilities. For central heating plants not feasible to 
privatize, the Army will begin a five year program in 1998 to modernize 
and repair those systems.
                       Family Housing Maintenance
    Question. The budget includes a reduction of $57.5 million from the 
enacted levels for family housing maintenance. This is after a 
reduction of over $106 million in fiscal year 1997. Is this budget 
adequate to address the tremendous need for maintenance and repair of 
existing units?
    Answer. The fiscal year 1998 Army Family Housing maintenance and 
repair budget represents 94 percent of the sustainment level of 
funding. The sustainment level represent the amount necessary to 
maintain our dwelling units at their current condition with no 
improvement and no deterioration. This budgeted amount will keep units 
open but not stop the continuing deterioration of the inventory. In 
regard to the total maintenance and repair requirement, the fiscal year 
1998 budget represents 72 percent of the requirement.
                             Privatization
    Question. Describe for us what the Army plans to accomplish through 
its various privatization efforts
    Answer. The Army is aggressively pursuing privatization of 
utilities and housing. We now have 12 utility systems privatized, and 
over 100 at various stages of study. Our goal is to privatize 100 
percent of the natural gas systems because of the risk to life and 
safety, and 75 percent of all remaining utility systems by the Year 
2003. We have the Fort Carson Request for Proposal, and 14 other 
installations in various stages of development for family housing 
privatization. The lessons learned from the Fort Carson solicitation 
will be applied to these and follow on privatization projects.
                       Barracks/Balanced Program
    Question. $338 million, or 57 percent of the Army's construction 
request, is for whole barracks renewal. Has the Army been able to 
budget for a balanced program with emphasis on 1+1, one which provides 
proper troop housing yet still meets the growing infrastructure and 
operational needs?
    Answer. Yes, over half of the FY98 budget request for MCA is 
committed to upgrade housing for single soldiers to the ``1+1'' 
standard. The whole barracks renewal program is the Army's highest 
priority for QOL and, as such, a great emphasis is placed on buying out 
the program by 2012.
    Another high priority program, receiving approximately 13 percent 
of the MCA funding, is the Army Strategic Mobility Program which 
constructs infrastructure to enhance deployment of the Forces such as 
railheads and airfield upgrades and roads.
    Remaining Army projects, not in the STRATMOB or Barracks programs, 
compete for available funding based on contribution to readiness, 
mission support and urgency of need. The Army feels this balance is the 
best it can achieve within the limited resources available.
                    Demolition of Excess Facilities
    Question. Last year, this committee added a total of $30 million 
for the purpose of demolishing excess facilities. Unfortunately, this 
initiative did not make it through conference. Is the Army placing 
enough emphasis on eliminating excess facilities, and what can this 
committee do to help correct the deficiencies?
    Answer. Yes, the Army is still emphasizing the disposal of unneeded 
infrastructure. The Army has just successfully completed a five-year 
Facilities Reduction Program in which we disposed of approximately 39 
million square feet of unneeded facilities, freeing up resources to 
better care for our required facilities. In the Fiscal Year 1998 
budget, we increased funding for infrastructure reduction to $100 
million (in Operations and Maintenance/Real Property Maintenance 
Accounts) and plan to continue throughout the Future Years Defense 
Plan.
                               Total Army
    Question. Mr. Walker, I realize that this question probably exceeds 
your portfolio, but you are singularly qualified to give us the benefit 
of your views in this area.
    Is it time to review the basic mission of the Army National Guard 
and the Army Reserve as members of the Total Force?
    Answer. The Army National Guard and the United States Army Reserve 
have different and distinct missions. Because both reserve components 
are an integral part of the Total Force, we are constantly reviewing, 
analyzing, and assessing their missions. The Army National Guard is 
designed as a balanced force which mirrors the structure and capability 
of the Active Army. Because of Federal and State obligations, their 
current critical role in the Total Force must be maintained. In fact, 
we are seeking ways to better integrate and develop mutually supportive 
activities.
    Question. This is a very broad question, but we keep hearing that 
the reason the Reserve Components are so active in seeking the support 
of Congress is that they do not get sufficient support from the Army. 
It strikes me that Army is not doing whatever it can for the Reserve 
Components--and especially for the Army National Guard--it might be 
because it does not value their contribution to the Total Force.
    Do you know if this whole relationship between the active duty Army 
and the Army and the Reserve Components will be scrutinized by the 
Quadrennial Defense Review?
    Answer. One of the key areas that the Quadrennial Defense Review 
(QDR) is examining is the relationship between the active duty Army and 
the Reserve Component. The QDR is an OSD level look, but the Army is 
establishing mechanisms to explore ways to better integrate the Active 
Component and Reserve Component and then implement the best of those 
findings. The Deputy Chief of Staff for Operations has established a 
Process Action Team to develop these initiatives. The Active Army has 
always recognized the value of the citizen-soldier tradition as 
personified through the Army National Guard.

    [Clerk's note.--End of questions for the record submitted 
by Chairman Packard.]
    [Clerk's note.--Question for the record submitted by 
Congressman Parker:]
                   MILCON Needs of the National Guard
    Question. I am very concerned with the propensity to underfund the 
Army National Guard with an apparent expectation that Congress will 
plus up the funding level with add ons. What we are getting are budget 
requests that do not come close to meeting the readiness and quality of 
life standards that are required for the Guard's mission.
    I would like to request the Army National Guard submit for the 
record the military construction requirements that would be required to 
upgrade the aging Guard infrastructure. The FY 1998 budget 
justification identifies approximately $250 million in MILCON needs 
through 2003. However, I suspect the real Army National Guard 
requirements are considerably higher.
    Can you quantify what the Guard's real and immediate MILCON needs 
are? Can you have the Guard submit a project list that would reflect 
those needs? For the record, I would expect such a list to exceed $450 
million.
    Answer. Following is the Army National Guard's project list:

    [Clerk's note.--Note that this response is the text of 
pages 12 through 27 (excluding the first eleven projects, which 
were contained within the fiscal year 1998 budget request) of a 
report dated April 9, 1997 that was submitted subsequent to the 
hearing. The full text of the report appears earlier in this 
hearings record.]

[Pages 501 - 517--The official Committee record contains additional material here.]


    [Clerk's note.--Questions for the record submitted by Mr. 
Wicker:]
   Bed-Down of Avenger Air-Defense-System Units, Various Locations, 
                              Mississippi
    Question. In last years House Report 104-563, report language was 
included entitled ``Military Construction to Support the Bed-down of 
Avenger Air-Defense-System Units, Various Locations, Mississippi.''
    This language directed the Secretary of the Army to submit the 
appropriate scope and cost variation reports to the Congressional 
Defense Committees as required by law.
    The conversion of the National Guard Unit (1-204th Air Defense 
Artillery Battalion) headquartered in Newton, is complete except for 
MILCON funds needed to complete the modifications to the facility in 
Morton, Mississippi and the new construction of an organizational 
maintenance shop (OMS) in Decatur as directed by the Army.
    How does the Army intend to fund the remaining projects and when 
will the Army submit this reprogramming request? Why was it not 
included in the President's Budget Request?
    Answer. The source of funds to be reprogrammed can not be 
determined. As reflected in the Semi-Annual Submission of Military 
Construction Audit Train submitted to the Congress in November 1996, 
the Army National Guard has a funding shortfall of approximately $26 
million. Our first priority is to eliminate this shortfall. However, 
these projects would have a high priority should additional savings 
become available. The reason the remaining projects were not included 
in the FY 1998 President's Budget Request was because Decatur was not 
sufficiently designed.

    [Clerk's note.--End of questions for the record submitted 
by Mr. Wicker.]

    [Clerk's note.--Questions for the record submitted by Mrs. 
Meek.]
                    SOUTHCOM Headquarters Relocation
    Question. Are there any difficulties now, or expected, with any of 
the leases for the headquarters building or housing units?
    Answer. There are no problems with the current building lease. The 
lease is a 10 year firm term lease and is scheduled to be completed on 
26 May 97, at which time the lease will be executed and SOUTHCOM will 
begin occupancy. It will take approximately four months to ready the 
building for full occupancy, including installing communications and 
computer equipment. The lease was originally reported to the Senate 
Armed Services and House National Security Committees on 28 Jul 95 and 
approved by the House National Security Committee, Subcommittee on 
Military Construction on 31 Aug 95. A revised acquisition report was 
submitted to the same committees on 31 Jan 97 to notify the Congress of 
a proposed increase in the annual rent to provide for security upgrades 
and acquisition of an additional 19 acres of land adjacent to the 
building for a security buffer. The security buffer and upgrades were 
recommended by the Defense Special Weapons Agency following a force 
protection assessment conducted in Nov 96. Committee staff members were 
briefed on the recommendations on 26 Feb 97. Mr. Hefley subsequently 
placed the security upgrades and buffer on hold, pending receipt of 
additional information. Because the increased annual rent exceeds the 
prospectus threshold prescribed for public buildings by 40 USC 606, GSA 
will also have to submit a prospectus through OMB, to the House and 
Senate Public Works committees for approval.
    Housing for the 8 key and essential personnel must still be funded. 
The Army proposes to lease the houses beginning in Aug 97, pending 
receipt of authority and appropriations to purchase them. DOD has 
included $2.3M in the President's budget for the acquisition. An 
Acquisition Report (pursuant to 10 USC 2662) stating all requirements 
for unaccompanied personnel and family housing, was submitted to the 
Senate Armed Services and House National Security Committees on 28 Feb 
97.
    Question. It is my understanding that the current or expected 
leases for facilities for SOUTHCOM are cost-effective and favorable to 
the Department of Defense. Is this correct?
    Answer. Yes, that is correct. The Department of the Army completed 
an economic analysis on 28 Jul 95 that calculated the net present value 
(NPV) for the following three options in Greater Miami:
    a. Leasing a facility in the private sector: NPV=$32.1M.
    b. New construction on a parcel of land owned by the FAA: 
NPV=$35.7M.
    c. Renovation and new construction at Richmond Heights, a Coast 
Guard facility site: NPV=34.6M.
    Based on the net present value, leasing was the most favorable 
option.
    Question. Will you supply for the record information about the 
length of time spent, number of personnel involved, number of 
alternative sites examined, and cost including site visits, analyses, 
and personnel time, of the process that led to the decision to relocate 
SOUTHCOM to the greater Miami area.
    Answer. In 1995, an OSD/JCS Selection Committee performed a review 
of potential relocation sites. The committee reviewed 126 sites in 26 
cities, and considered the following factors: the ability of SOUTHCOM 
to effectively perform its mission, quality of life, and cost. The 
committee submitted three sites to the Deputy Secretary of Defense for 
decision: Washington, DC; New Orleans; and Miami. Miami was determined 
to be the best location. The actual costs associated with these studies 
and review processes have not been quantified but the studies and 
effort spanned several months.
    Question. If DOD were to reopen the search process to identify a 
different geographic area in the continental United States for the 
SOUTHCOM headquarters.
    (a) What would be the advantages or disadvantages in terms of 
national security to a location other than Miami?
    Answer. SOUTHCOM states: Since we have moved operationally from the 
planning to the implementation phase of the relocation process, the 
disadvantages are numerous, and if we had to revert back to initial 
phases of the relocation process, we know of no advantages.
    We have indicated to Panama US Commitment to revert back several 
sites this year based on the HQ relocation timeline. Restudying the 
move would require retention of these areas in Panama which could then 
cause a firestorm of public protest in Panama, and would give the 
perception, right or wrong, that we are NOT LEAVING. It would 
definitely inhibit the ability of both the GoP and the USG to negotiate 
for a post-99 presence and probably ruin the chances for a successful 
Panamanian plebiscite on a Post-99 presence.
    USG focus, decisiveness, a resolve would be questioned;
    This could be viewed as a negative USG signal to the Latin American 
community which was accepted the reality of American turnover of the 
canal and might see the ``restudy'' as a crude attempt to exert 
pressure against Panama. Most countries in Latin American welcome the 
SOUTHCOM headquarters move to Miami because they place great emphasis 
on Miami as the US epicenter for Latin America.
    Prolonging the relocation process redirects Command focus from its 
primary missions.
    Question. (b) What would be the additional costs to DOD?
    Answer. Costs associated with breaking the lease: Agreement to 
lease guarantees contractor the lease rate for 10 years. Worst case 
buyout is the present value of the 10 year stream of payments of 
$1.734M per year plus the sunk costs associated with the installation 
of the communications infrastructure and the building enhancements, or 
requirements over and above that which would be required for a standard 
GSA building.
    a. Present value--Assuming interest rate between 6-8%: $11M-13M.
    b. Sunk costs--Communications backbone: $7.6M; building 
enhancements: $1.3M.
    c. Communications equipment and service contracts: $27.8M.
    d. BellSouth Contract: $3.5M.
    Personnel turbulence costs: The cost to service members in personal 
turbulence would be significant. Newly assigned personnel are now 
typically pre-locating their families in the Miami area and then 
reporting in an unaccompanied status to Panama for a few months. This 
is done in anticipation of the approaching relocation. Homes have been 
privately purchased or leased. Children have been enrolled in schools. 
Spouses are pursuing their careers. To delay SOUTHCOM's relocation 
would impart hardship on the hundreds of service members and their 
families.
    Question. In last year's evaluation, when DOD selected the Greater 
Miami/Dade County area for the new home of Southern Command, did the 
local community offer any cost saving options or incentives that would 
lower Department of Defense costs?
    Answer. Although all of the communities under consideration offered 
incentives, the DOD study did not evaluate incentives in making the 
site selection. Miami was chosen as the preferred site for the reasons 
set forth in response to question #7.
    The county offered a $1.5M assistance package to be applied toward 
infrastructure costs. The funds have been made available to the 
building owner who has provide an accounting to the community detailing 
the actual expenditures.
    Other incentives by the community have been assistance to 
individuals in the form of relief from realtors' fees and security 
deposits, holding seminars and otherwise providing information to 
service members moving into the area.
    Question. Are the plans to relocate SOUTHCOM to Greater Miami on 
schedule and on budget?
    Answer. The building construction is 95% complete and on schedule. 
The building will be complete on 26 May, at which time the process of 
installing communications and computer equipment commences. This 
process will continue through September in order to render the building 
fully operational by 26 Sep. SOUTHCOM's detailed planning for the 
phased movement of personnel and operation is also on schedule.
    Facility construction and communications/computer equipment are 
also within budget.
    Key and Essential housing is pending approval of funding in the 
President's budget.
    Question. Will you supply for the record the reason Miami was chose 
as the site most favorable for the SOUTHCOM relocation?
    Answer. The OSD/JCS selection committee in considering sites for 
the SOUTHCOM relocation focused on three criteria in their 
recommendations to the Deputy Secretary of Defense. The criteria were: 
Mission (access to theater, cultural integration, governmental 
interagency access), Quality of Life (housing/living costs, schools, 
medical, crime, personnel support, employment availability), and Cost 
(non-recurring-facilities, communications, furniture, relocation; 
recurring-civilian pay, official travel, maintenance, security, 
utilities, housing allowances).
    Miami scored highest in mission in effectiveness and second in 
other two categories of cost and quality of life. Based upon the 
selection committee's input, Secretary Deutch chose Miami on 24 March 
1995.

    [Clerk's note.--End of questions for the record submitted 
by Mrs. Meek.]
                                           Thursday, March 6, 1997.

                         DEPARTMENT OF THE NAVY

                                WITNESS

ROBERT B. PIRIE, JR., ASSISTANT SECRETARY OF THE NAVY (INSTALLATIONS 
    AND ENVIRONMENT)

                       Statement of the Chairman

    Mr. Packard. Let's go ahead, ladies and gentlemen. We've 
got a minute. I'd rather be a minute early than a minute late. 
We're delighted to have this hearing. We're very, very pleased 
to have the Honorable Robert Pirie with us today. I had the 
privilege of meeting with him in private and I'm really 
impressed with his leadership at this assigned area. I want to 
welcome each of you here. Just as a matter of procedure, we 
appreciate those who are supporting you here, Mr. Pirie, if you 
need to use them at any time, we would certainly be happy to 
have them on the record. If they are to address any question or 
any issue, please come forward where they can be heard and the 
stenographer can pick them up.
    This morning's hearing is focused on the construction 
program for the Navy and the Marine Corps. Mr. Pirie is the 
Assistant Secretary of the Navy for Installations and 
Environment. He's had remarkable experiences that have 
qualified and prepared him for this assignment. It's a 
Presidential appointment. He's a Naval Academy graduate, a 
Rhodes Scholar at Oxford, and served for 20 years as a naval 
officer. He worked at the Congressional Budget Office, was the 
Principal Deputy Assistant Secretary of Defense and later 
became the Assistant Secretary of Defense with Manpower, 
Reserve Affairs, and Logistics, the President of Essex 
Corporation in the private sector. You've had some rather 
remarkable experiences and we certainly are proud to have you 
before our committee again this year. I'm particularly pleased, 
Mr. Pirie, that you have included in your budget overseas 
requests for barracks and for improvements of some of our 
overseas facilities, such as Sigonella, which I've been to see. 
We are anxious that we don't overlook our overseas facilities.
    As we've talked before, housing and quality-of-life issues 
are important, to this subcommittee. We are very pleased also 
that you've moved into the private sector to assist in getting 
some of our facilities built and we will be looking forward to 
your testimony. I'd like to hear from Mr. Hoyer. Incidently our 
ranking member, Mr. Hefner, is on his way and will be here 
shortly. Traffic was a little more difficult this morning than 
usual, and he's called in but will be here. But, did you have 
any comments, Mr. Hoyer?
    Mr. Hoyer. Mr. Chairman, thank you for giving me this 
opportunity. On behalf of Mr. Hefner, Mr. Olver and myself, I 
want to welcome Secretary Pirie to the hearing room. Secretary 
Pirie, as you noted, is both a Naval Academy graduate and a 
scholar, a Rhodes Scholar. He had a distinguished military 
career with hands-on experience and operational experience as 
well as private sector experience. I've had the opportunity to 
work with Secretary Pirie over the years. He is an 
extraordinary able and very easy person with whom to work. I 
look forward to hearing his testimony and I know that this 
committee will be advantaged by having the opportunity to work 
with him and I know I speak for Mr. Hefner. And Mr. Olver is 
here, he can speak for himself, but we're looking forward to 
his testimony.
    Mr. Pirie. Thank you, thank you very much.
    Mr. Packard. Mr. Olver, do you have any comments?
    Mr. Olver. I'll be very, very brief. Congratulations on 
Navy's win last night, and secondarily, while I don't have the 
kind of long experience that Mr. Hoyer has had in dealing with 
you, I notice that we were both graduates in '55, but you are 
obviously older than I.
    Mr. Pirie. He must not want anything.
    Mr. Olver. As it turns out, as it so often does, I've got 
two hearings going this morning so I'm going to be most 
interested in what you say. I don't have to have any seacoast.
    Mr. Pirie. It's an insular view that you have.
    Mr. Olver. Right, it's an insular view that I have but I 
will be very interested in what particularly in Massachusetts 
is the structure of both active and reserve forces under your 
command, so to speak here, for the purposes that are involved 
and, I guess, let me just make kind of a blanket request that 
some of a mapping or road mapping, something that shows me what 
those facilities are in Massachusetts. If you'd like, I'd be 
happy to see what they are broader in New England in the active 
and reserve under the Navy.
    Mr. Pirie. Yes, sir. We'll be glad to provide that for you.
    [The information follows:]

    The Navy has very few bases in Massachusetts. The last 
remaining Navy base in Massachusetts is NAS South Weymouth 
which is scheduled to close this year as part of the BRAC 1995 
Commission recommendations. In support of the Navy & Marine 
Corps Reserves we have NRC Quincy and N&MCRC Worcester. Former 
reserve centers in Pittsfield and Chicopee were closed in 1994 
as a result of BRAC 1993 decisions and their operations 
consolidated in NRC Quincy.

    Mr. Packard. Our next hearing, is scheduled for Tuesday at 
1:30 in the afternoon. The subject will be the Air Force 
Construction Program and Mr. Rodney Coleman will be our 
witness. So for those who might have to leave early, we hope 
that you'll be aware of that schedule.
    Now, Mr. Pirie, we're very pleased to have you here. I have 
read all of your testimony and underlined it and there may be 
some questions on it, so if it's to your liking, we'd 
appreciate it if you would not read the testimony--and I don't 
think that's your style anyway, from what I understand. If you 
would just tell us what you think we need to hear and what we 
need to know and highlight the areas, we'd appreciate it, and 
maybe to begin with, you might want to introduce some of those 
who are here to support you.

            statement of the honorable robert b. pirie, jr.

    Mr. Pirie. Yes, sir. Thank you, Mr. Chairman. With me today 
are Admiral Dave Nash, who is the Chief of the Naval Facilities 
Engineering Command; Major General Joe Stewart, who is the 
Deputy Chief of Staff of the Marine Corps for Installations and 
Logistics; and Rear Admiral (Select) JohnBrunelli, who is the 
Deputy Chief of the Naval Reserve. And so if I completely fail, they 
can pick me up and carry me out. And, with your permission, I will just 
hit the highlights, Mr. Chairman. After the introduction, this may seem 
rather dry and informalistic, but just a couple of points that may be 
helpful.
    Overall, our Fiscal '98 MILCON, Family Housing, BRAC 
requests, all of those things put together, are $2.8 billion. 
And that's down $800 million from our '97 level, because, in 
the environment of downsizing and fiscal stringency and the 
need to beef up our investment accounts, our judgement is that 
this is all we can really afford in this area. And there is 
great and continuing pressure to reduce the overall 
infrastructure costs and increase force moderation.
    Fiscal '98 MILCON is down about $200 million from Fiscal 
'97. We just could not find the money, given other priorities, 
to sustain the '97 level. We focused on those projects that 
support military needs--military readiness needs--including 
quality of life. About a third of our Fiscal '98-'99 budget is 
for bachelor quarters (BQ) construction. It'll provide an 
additional 5,676 spaces and it will replace 1,723 old and 
substandard spaces in our bachelor quarters.
    All permanent party BQs in the Navy that are built new will 
be to the new 1+1 standard. The Marines will replace their 
oldest and worst facilities using a standard called 2 + 0, 
which, in our judgement, is the fastest and best way to get the 
most Marines into acceptable living conditions.
    The fiscal '98 Family Housing Budget is down about $200 
million from Fiscal '97. The primary reduction is in new 
construction. This is a result of the decision we made to scale 
back the acquisition of houses that the government would own 
and operate. We looked in depth at the cost of housing our 
sailors and marines in the private sector with housing 
allowances versus in government-owned and operated homes. We've 
concluded that building and operating government houses is not 
a good deal either for the taxpayer or for the average sailor 
or marine. It costs about $15,000 a year to operate and 
maintain a government-owned house, on the average. We pay our 
members, not in government housing, about $8,000 a year in 
allowances to which they generally add about $2,000 a year from 
their own pockets, on the average, to get decent housing.
    Our research indicates that in many locations, the private 
sector can provide appropriate housing at a price much closer 
to the allowance figure than to what it costs the government to 
put up a house. We think it's a good idea, at this point, to go 
slow on government provided housing and to explore the 
possibilities open to us in public/private ventures, and in 
enhancing allowances.
    Last year's BAQ increase and the increase in VHA floor, 
given to us by the Congress, are a big help. The Office of 
Secretary of Defense is now preparing a report and 
recommendations to remedy some of the other known defects in 
the current allowance indexing methodology and we believe that 
will help us a great deal, too.
    Navy and Marine Corps are making public/private ventures in 
housing a reality. Now, we had a ground-breaking last December 
for 404 homes in the Corpus Christi, Texas area. Occupancy will 
begin this November. We have just notified the Congress last 
month that we will be proceeding with 185 homes in Everett, 
Washington, in which the Navy is a limited partner, 
contributing $5.9 million while the general partner contributes 
$12.9 million. We expect to sign that agreement this month and 
we have occupancy of the quarters in May, 1998. Both projects 
I've talked about give sailors preference in renting and a rent 
reduction of approximately $100 per month over comparable homes 
in the local.
    In the base closure area, the Fiscal '98 BRAC budget is 
down about $400 million from Fiscal 97 because of lower BRAC 
MILCON needs. By the end of the year 2000, we will have 
invested $10.9 billion in the implementation of four rounds of 
base closure that began in 1988. By that time, we will already 
have saved $15 billion, for a net savings of $5 billion, and 
we'll save $2.6 billion a year thereafter. We're on the down 
slope of BRAC implementation. We've already completed 66 
percent of all mandated closures and realignments. Thirty-one 
more are scheduled for this year including major ones, Long 
Beach Naval Ship Yard and Naval Air Station Alameda.
    Fiscal 1998 is the last year with significant construction 
requirements for implementation of BRAC. Our BRAC budget is 
transitioning from closure and realignment to completion of the 
environmental cleanup and disposition of the property. We are, 
of course, committed to the cleanup of all BRAC property and we 
give priority in funding to sites with near-term reuse 
potential. The general area of BRAC this year has seen the 
privatization of Naval Air Warfare Center, Indianapolis and 
Naval Ordnance Station, Louisville. These actions have saved 
the taxpayer money, saved jobs in the area, and opened the 
possibility of continued productive use of the installations 
under the aegis of the local redevelopment authorities. We're 
pleased with this result because it shows that we, working 
together with communities, can get past the trauma of BRAC 
rapidly.
    We're pursuing a number of initiatives to reduce 
infrastructure support costs including out-sourcing, 
privatization and regionalization of functions. And details of 
that kind of thing are in my testimony and we'd be quite 
pleased to explore any avenues that you would be interested in. 
And that really concludes my summary.
    [Prepared statement of the Honorable Robert B. Pirie, Jr.]

[Pages 525 - 546--The official Committee record contains additional material here.]


    Mr. Packard. Thank you very much. We appreciate your 
summary. Mr. Hoyer, would you, I'm going to yield to the two 
members who have to leave a little bit early. Would you mind?
    Mr. Hoyer. No, that's fine.
    Mr. Packard. Mr. Olver, would you like to go first, because 
you may have to leave.

               massachusetts base reasignment and closure

    Mr. Olver. Thank you very much. I wanted to--following up 
my comments and connecting with what you have had to say, on 
the BRAC closures, I think there was one BRAC closure in 
Massachusetts. That was the Weymouth Naval Air Station.
    Mr. Pirie. That would be the Naval Air Station in South 
Weymouth.
    Mr. Olver. Is that one of those that's completed, is that 
one of the 118 completed or is that still--
    Mr. Pirie. No, that's still going on. And I have to explain 
that BRAC closures take place in a number of stages, such as 
the stage in which the mission of the base ceases and we no 
longer carry on the activity formerly carried on there. There's 
another stage called operational closure and that is one in 
which the people who are associated with the base leave and the 
base is placed in a caretaker status. And finally, we hope 
fairly soon the base is cleaned up and disposed of and turned 
over to the local community for the reuse that they choose to 
make of it. So this precedes--and this one hasn't even been--
this is not even----
    Mr. Olver. Well, which year was it, was it '91 or '93.
    Mr. Pirie. It was selected in Fiscal '95.
    Mr. Olver. Oh, it was selected in '95.
    Mr. Pirie. Yes.
    Mr. Olver. So it's one of the latter ones.
    Mr. Pirie. Yes, and it has not----
    Mr. Olver. Place it in your schedule of 118 complete, 31 
for 97, 14 for 98, 12 for 99 and so forth. Any idea what its 
planned schedule is?
    Mr. Pirie. I think it's 2000 closure, I think.
    Mr. Olver. Really?
    Mr. Pirie. Yes.
    Mr. Olver. So it will be one of only the two in the year 
2000, in Fiscal 2000?
    Mr. Pirie. I think that's right. I'll correct myself. It's 
either----
    Mr. Olver. Would you check on that?
    Mr. Pirie. It's either '99 or 2000. But it's out there.
    Mr. Olver. Okay. I would appreciate knowing whether--my 
understanding is that the Marine Air Reserve unit that was 
there is to be consolidated with the Air Force at the Air Force 
Reserve Base at Westover, Massachusetts. Is that--do you know 
that to be the case?
    Mr. Pirie. Admiral Brunelli.
    ADM Brunelli. Yes, sir, it is.
    Mr. Pirie. Yes.
    Mr. Olver. Okay. So there would have to be things that--
there are things in the BRAC budget that relate to what goes on 
at the Naval Air Station in preparing it for decommissioning or 
whatever you call it.
    Mr. Pirie. Yes.
    Mr. Olver. And there have to be things that happen at 
Westover to accept--I think the unit has been moved, hasn't it, 
officially, or hasn't it been officially moved?
    Mr. Pirie. I don't know.
    Mr. Olver. Maybe somebody could give me a----
    Mr. Pirie. We'll give you a rundown of that
    Mr. Olver [continuing]. A briefing on how that goes. But 
I'm particularly interested in what will be necessary to bring 
about that move in an orderly manner and in what, in which year 
and when we have to prepare to make that move. Is this the kind 
of move that is going to be common in the BRAC closures, that 
is, co-locations of Naval Air with Air Force Reserves, reserves 
from the two services in a place where they may fit together or 
is it unusual?
    Mr. Pirie. It's not--it's more unusual than common. I can 
think of one other place, Naval Air Station Atlanta, in which 
we are co-located with the Air Force and it's a joint base. We 
have both Navy and Marine Corps units at the Naval Air Station 
Atlanta and it's working very well. And we expect the Westover 
thing to work out equally well.

                           navy force levels

    Mr. Olver. Okay. My only other question, I notice that in 
your testimony you list something--I was surprised to find the 
total number of--the total force--although that may be just--
well, active, I take, 50,000 men and women in the Navy and 
Marine Corps operating force. That would imply that the total 
present Navy and Marine Corps together is under 200,000, is 
that correct?
    Mr. Pirie. No. The Marine Corps is 174,000 and the Navy is 
on the order of 400,000 people total. So I'm not really sure 
what part of the testimony you're referring to.
    Mr. Olver. So I guess it--well, there's a sentence here, on 
any given day, roughly 30 percent of Navy and Marine Corps 
operating forces consisting of more than 50,000 men and women 
aboard 100 ships, is deployed around the world. On any given 
day, 30 percent of the Navy and Marine operating force. It must 
be in the definition of what operating force is versus what the 
total present forces are.
    Mr. Pirie. No. The operating forces here would be forces 
assigned to deployable units and the third of the units that we 
have that are deployed, are, in fact, deployed.
    Mr. Olver. Are outside the country, is that what that 
means?
    Mr. Pirie. That's right.
    Mr. Olver. Okay.
    Mr. Pirie. But there's a fairly substantial support 
establishment that supports all those deployable units.
    Mr. Olver. Okay. I'd like to understand what--how one 
categorizes and breaks down what is our total into operating 
and support or something like. Maybe we could see----
    Mr. Pirie. We would be very glad to give you that.
    Mr. Olver. I was led into thinking that the numbers from 
that were much smaller than they actually are and I would like 
to know what the totals are, that would another thing.
    Mr. Pirie. I'd be very glad to supply that.
    [The information follows:]

    The Department of Defense Dictionary of Military and 
Associated Terms, known as Joint Pub 1-02, defines operating 
forces as ``Those forces whose primary missions are to 
participate in combat and the integral supporting elements 
thereof.'' Naval operating forces include aircraft carriers, 
other surface ships, Sea Bees (destroyers, frigates, amphibious 
assault, combat logistics, etc.), submarine (ballistic missile 
submarines and attach submarines), aircraft squadrons, Marine 
Corps ground combat elements that deploy, as well as the 
Sailors and Marines that are assigned to these units. 
Generally, at any given time about one third of all naval 
operating forces are deployed, one third are in a work-up/
training mode preparing to deploy, and one third are in 
maintenance or overhaul mode ashore.
    Non-operating forces do not deploy. These include most 
shore based commands and headquarters functions, administrative 
units, public works functions, maintenance activities such as 
shipyards, aviation depots, supply activities, Naval hospitals, 
recruiting training, basic skill and advanced training 
schoolhouses, as well as the Sailors, Marines, and civilian 
personnel assigned to these units.

    Mr. Olver. Thank you, thank you very much.
    Mr. Packard. Thank you, Mr. Olver. Mr. Hobson?

                         housing privatization

    Mr. Hobson. Thank you, Mr. Chairman. I'll try to be very 
brief, sir. I like the idea of using the private sector in this 
house as long as we don't get held hostage to it at some point. 
But I don't understand the Navy's housing requirements as much 
as maybe the Air Force's. I've got a big Air Force base in my 
district, so I know Norm is probably really up on it. But 
overseas are you going to do the same thing?
    Mr. Pirie. No. Overseas, generally, we do not do that. 
Either we provide government housing overseas or we enter into 
leases with qualified local corporations. We have not explored 
the notion of doing public/private ventures overseas and I 
think, given our experience with some of our overseas leasing, 
it would be very complicated.
    Mr. Hobson. So overseas, you're going to try to provide on-
base housing, is that what you're going to try to do?
    Mr. Pirie. Overseas generally we try to provide on-base 
housing. It varies from area to area. Every single area has its 
own set of interesting problems. But it is quite desirable, in 
a fair number of areas, for us to provide on-base housing.
    Mr. Hobson. Okay. But in this country you're going to 
continue to move towards a privatization effort?
    Mr. Pirie. In this country, we think there is a robust 
housing market and we, particularly since we're capital short, 
we need to tap that housing market and we need to give our 
people that are access to that market and we need to work with 
those people better.
    Mr. Hobson. Well, I'd just like to say, I encourage that 
and whatever we can do to support that, I certainly will want 
to support the Chairman and I don't know if the rest do. Last 
term, when I was on this committee also, we tried to encourage 
that. Thank you very much.
    Mr. Pirie. Sure. Thank you. I appreciate that.
    Mr. Hobson. It's nice to see some guy that's graduated from 
college about the same time I did.
    Mr. Pirie. I use the same kind of stuff in my hair.
    Mr. Hobson. When I came here, only six years ago, I didn't 
have any gray. Thank you, sir.
    Mr. Pirie. It's the job.
    Mr. Hobson. We've got a Navy secretary upstairs also today.
    Mr. Packard. Mr. Hobson's on the Defense Subcommittee, 
also. We appreciate very much your testimony and your response. 
Mr. Hoyer, we'll go to you next.

                             funding levels

    Mr. Hoyer. Thank you. Mr. Secretary, in your statement, on 
Page 2, you unfortunately note that we cannot afford to invest 
more in our shore infrastructure. The financial realities that 
confront the Navy and every other service, as we in Congress 
try to balance the budget are tough. But at the same time, I 
supported the $9.6 billion that you referred to, the add-on, of 
which 200 plus may have gone to the Navy. The chairman in our 
opening hearing said that we want to have the witnesses be 
ready to live with the budget presented. I'm sure you're ready 
to live with the budget presented. But, in order to accomplish 
our objective, how far short, do you think, if money were not 
the factor, if this were 1982, or '83, or '84 or '85, when debt 
didn't matter to us, what would you think would be our total 
Navy need?
    For instance, in referring to your statement, one of the 
things that we do in every public enterprise, and in private 
enterprises, is steal from maintenance and upkeeping when times 
get tough. It's easy to do and we think tomorrow won't come and 
it won't crumble and fall. What ought we spend to do the job 
that you think ought to be done given the fact that we 
understand that we don't have the finances to do that? I know 
that's a difficult question but I'm trying to figure out how 
far short are we? I am one who does not believe that we can 
further reduce our defense expenditure. It's a dangerous world. 
The Army is now having trouble in terms of its recruitment. 
They have to lower, maybe not their standards, but lower the 
average educational attainment of their recruits. Tell me what 
we really ought to be doing, if we had the capacity to do it?
    Mr. Pirie. Well, let me begin by agreeing with you on two 
points, Mr. Hoyer. One is that we need to keep our defenses 
robust and able to deal with the challenges that we meet and 
reduction doesn't seem like a good idea at this point. Secondly 
that we have to live with what we are given and so we have 
balanced this as best we can into executable and so forth, 
although we are not really happy with the over all level. How 
much could we spend? We could effectively spend substantial 
increases in real property maintenance, in family housing, in 
the military construction for things like piers, runways, 
hangers, ramps, things that are related to the operational 
forces. And I really hesitate to give you a figure, but Admiral 
Nash, sitting behind me, runs the Naval Facilities Engineering 
Command and they have done an admirable job of obligating, 
putting under contract and executing what we have thrown at 
them over the years.
    Mr. Hoyer. Let me then, if I can, Mr. Chairman, ask Admiral 
Nash a specific question. Quite obviously, whenever you prepare 
a budget, you prepare a list of needs, that need may be from 
one to ten. You may have money only to fund one, two and three. 
That does not mean that four through ten are not necessary, it 
means as a practical matter that, as you submitted a budget to 
your superiors, though Secretary Perry up the chain, some got 
cut. What was the figure that you provided of needs that were, 
I won't say critical, but important needs in the short term?
    ADM Nash. Well, sir, I will, if I may, get back to you with 
the exact figure, but what we do, as you well know, is we 
basically take a five-year look at it and put in----
    [The information follows:]

    We annually take a six year look at military construction 
requirements and put projects in priority order referred to as 
the Future Years Defense Plan (FYDP). Our assessment indicates 
we need approximately $950 million per year to provide an 
appropriate level of funding to eliminate our current 
construction backlog. Our request for construction funding is 
prioritized along with all the other needs of the Navy.

    Mr. Hoyer. Which the chairman is very supportive of and 
wants done.
    ADM Nash. Yes, sir. And so, if you ask me, what more would 
we want to invest, I'd say we'd look in our list that's already 
in our budget, or in our pom over the five years and we would 
pick from those projects. Because we have a rather rigorous 
process as far as actually at the base level and moves all the 
way up through the Navy, to decide where we ought to invest. So 
when one wants to find other places that would be wise to 
invest, it would be--we can go to that. Like we've done in the 
past, we just picnic. That helps me as the executor, because 
I'm able also to get the work underway and get it done in the 
time frame that you want to see it done. So that would be what 
I would recommend if there was more money to be put into, we 
would just look in our--yes, sir.
    Mr. Dicks. But generally you'll discuss that. Is it true, 
on your statement, you say have a $3 billion backlog that's 
going to go up to $3.7 billion.
    ADM Nash. Yes, sir.
    Mr. Dicks. I mean, obviously you've identified $3.7 billion 
worth of work that needs to be done, isn't that correct?
    ADM Nash. Yes, sir.
    Mr. Dicks. Thank you.
    Mr. Hoyer. I think that Mr. Dicks made my point, and that's 
really what we're looking for. We understand that we have 
limited financial resources. I am somebody who's going to vote 
for the balanced budget amendment, notwithstanding President 
Clinton's view on it. I've continued to vote for it because I 
think we need to have constraints. I'm also one of those who 
believes that this country can afford to keep it's military at 
peak operating efficiency. We need to know what that is and we 
need to argue what that is. Not because we'll get it, but we 
need to keep focused on what the need is that we're not meeting 
so that nobody is deluded that we are funding everything that 
which we need to fund. In fact, we're funding that which we 
think we can afford today, not necessarily that which we need. 
And that's what I want to make sure that I know about, that's 
what----
    Mr. Dicks. I think I'll start this one, on procurement.
    Mr. Hoyer. Transgress on the Chairman's time.
    Mr. Dicks. On procurement, we know we're about $16 billion 
a year short. So you just have two areas here, O&M and talking 
about defense-wide, I mean, we're at least $16 billion a year 
short in terms of modernization for weapon systems. The 
procurement budget's gone up to $135 billion in '85 down to 
about $41 to $44, we'd plus it up a little bit, but that's 
where we are.
    Mr. Hoyer. Mr. Chairman, I've got to leave, I've got 
Secretary Rubin in front of the Treasury-Postal Subcommittee.
    Thank you very much, sir.

                    family housing improvement fund

    Mr. Dicks. Mr. Chairman, I have to go to Defense. I have 
one question, if my colleague would let me. Tell me, you don't 
have any money, I'm told, in the Family Housing Improvement 
Fund and you're just going to use transfer authority, is that 
correct? Apparently Congress has given you some money, but you 
have not requested any for '98?
    Mr. Pirie. That's exactly right, sir. We have not requested 
it for '98. We did have some for '97 and we expect, if we 
don't----
    Mr. Dicks. And you haven't used it all?
    Mr. Pirie. No, we have not used it all, the '97 money. If 
we work these public/private ventures and need money, we expect 
to reprogram from other accounts. We need a more orderly way, I 
think, to budget for public/private ventures than the Family 
Housing Improvement business, which is a small amount that goes 
to OSD, gets split between three services and so forth.
    Mr. Dicks. Out there, in our state, we're doing one of 
them, as you mentioned, Everett. It's very--people are very 
excited about it. I think this is a good way to go, I think we 
can go a lot further, get a lot more done, and it's a better 
way to go. But, have we got all the problems with CBO and OMB 
on scoring straightened out, are they on board on this?
    Mr. Pirie. The public/private ventures that we're working, 
we have succeeded in getting through the scoring net on those, 
simply because we're working them in ways that limit the 
government's liability. So we're in--with OMB, yes, sir.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Hoyer. Mr. Chairman, thank you for that consideration 
and also thank you for starting these at 9:30 and starting them 
on time so we can get a least a half an hour in before other 
hearings.
    Mr. Packard. Thank you.

                          limited partnerships

    Mr. Wamp. Thank you, Mr. Chairman. Mr. Secretary, 
yesterday, when the Army was here, my colleague, Mr. Hobson 
from Ohio, identified himself as an old real estate guy and I'd 
like to think of myself as a former real estate guy, not quite 
in that category yet. But having come out of the real estate 
development business and actually been involved in housing 
construction for about a decade, I'm very interested in this 
privatization notion all across our armed services and I read, 
on Page 13 of your testimony, that you have actually entered 
into a very fresh agreement, brand new, kind of uncharted 
waters, with Landmark Organization of Austin, Texas to build 
404 housing units in Texas. And I'm interested in two things, 
really. One, is there a way for the Navy to build up equity 
ownership in these units through these agreements so that as we 
privatize the Navy can actually make, possibly get, not just 
more efficiencies from a cost standpoint, but build up equity 
over time, which is the notion that my colleague, Mr. Tiahrt 
from Kansas actually raised in other hearings, which, I think, 
is a good point,having come out of that business, there may be 
a way. I know some of our BRAC processes. I have a volunteer ammunition 
site in my district that's not a BRAC closure. They kept it active, but 
it's in a reindustrialization program and through long-term leases back 
to local government, they're actually lowering their maintenance costs 
and getting a return. It's all very creative. We've got a lot of assets 
that we need to do as much as we can with. My question is, do you think 
there's a way to integrate some equity buildup over time, or do you 
think that's not the route that the Navy or other armed services should 
go, and secondly, have you found that Davis-Bacon applies or doesn't 
apply when a private contractor, or developer is actually providing, 
the construction on a project like this one in Austin and Corpus 
Christi, Texas?
    Mr. Pirie. I think I'll let Admiral Nash deal with the 
Davis-Bacon matter. Are you looking for equity, that is 
individuals building up equity in particular houses or are you 
talking about the government building equities in the 
partnership or corporation?
    Mr. Wamp. The government.
    Mr. Pirie. There are a huge number of different ways we can 
enter into these limited partnerships, and certainly that's one 
possibility. The ones that we have ventured into so far, we're 
simply a limited partner and to the degree that the general 
partner succeeds, the partnership prospers; our share will 
increase and we will make money, which we'll return to this 
housing account. Whether or not these things prosper, if your 
question implies, do we want to eventually build up enough 
equity and take over the housing for ourselves, convert it to 
government housing, I don't think that's a particularly good 
idea. We haven't done that very well in the past. The housing 
industry really functions very well in the United States, it's 
efficient and we think that tapping that industry and using it 
not only to produce houses but also to manage and so forth, is 
the right way to be. We want to be a small part of a robust 
efficient market. We don't want to create our own----
    Mr. Wamp. Kind of a follow-up question. I've looked at 
quite a bit of housing yesterday. And Mr. Hobson made the point 
having out of the business, he was trying to get a total 
development cost, then total construction cost, and then a per 
unit cost and then try to factor some reasonable cost per 
square foot. Exactly what is this costing per square footage? 
Is it is $100 a foot or is it $150 a square foot. Do you have 
any idea what the developers projections are on these 404 units 
where the private sector is building on a per-square-foot cost 
for the actual construction, not the land value, but just the 
improvement costs of the construction of the units?
    Mr. Pirie. I'll definitely defer to Admiral Nash on that 
one.

                              davis-bacon

    ADM Nash. All right, sir. First on your Davis-Bacon, no, 
sir, it doesn't apply because it's actually the partnership 
that is building the housing and owning it, so it's not a 
federal government contract.
    Mr. Wamp. That's interesting. It does not apply he said, 
versus yesterday, the Army actually thought it did apply. I 
think that was the answer from the Army.
    ADM Nash. Well, I don't mean to contradict him, but----
    Mr. Pirie. Well, it may be that the Army is entering into a 
deal that--I mean, because these all take different forms.
    Mr. Wamp. If I could interrupt some previous testimony 
indicated that this particular provision can raise the cost 25 
percent over all to our military construction budget. That's 
significant dollars. If it doesn't apply, that's----
    Mr. Packard. That's a huge incentive for privatization.
    Mr. Wamp. It's a huge incentive for privatization, 
absolutely.
    ADM Nash. And the other thing, sir, is we've figured over 
time, we build housing per square foot at about the same cost 
as the industry does across the nation. And I think we might 
build a little bit bigger house, a little bit different house 
and so therefore there would be some cost differentials, so I 
think we're pretty much on the mark. And so I think we are 
competitive, yes, sir.
    Mr. Wamp. One other point that I want to say for the record 
is, I was involved in multifamily housing before the Tax Reform 
Act of 1986.
    Mr. Pirie. Lester, too, wasn't he?
    Mr. Wamp. And a lot of our housing construction in this 
country that was driven from the private sector was driven for 
tax reasons and not net profit reasons, the old-fashioned way, 
where you pay the mortgage down and you try to generate net 
income per month on your investment. And we've got to make sure 
that tax reform, as it relates to the overall country, is 
integrated with any of this new privatization. We don't want 
our tax code to encourage developers to do it the way they were 
doing prior to reform, where a lot of tax-exempt bond financing 
and the tax benefits for the development actually spurred 
developers to build low cost temporary housing. I know you all 
have standards that you have to live by, but I'd like to see 
this investment in masonry, long-term low maintenance, very 
efficient units in terms of the utilities cost and periodic 
infrastructure updates. So I think our tax code needs to make 
sure that we keep in mind any privatization efforts that are 
underway in the armed services so that the developers have the 
incentive, in your case, to invest long-term, to do it the old-
fashioned way and make sure that there are no bells and 
whistles thrown into the deal for whatever tax benefits that 
take away from the long-term stability and maintenance cost of 
the investment.
    ADM Nash. Sir, I'll confirm on the Davis-Bacon so we don't 
get off on a tangent.
    Mr. Wamp. Sure, for the record.
    [The information follows:]

    Navy legal counsel has determined that Davis-Bacon 
regulations do apply to housing privatization under current 
legislation. However, it has not had any cost impact on the 
Navy's two existing initiatives at Corpus Cristi, TX and 
Everett, WA because the large contractors who have the 
financial means to enter into these contracts are already 
paying prevailing wages equal to or greater than the labor 
rates dictated by Davis-Bacon rules.

    ADM Nash. For the record, if that's all right, sir.
    Mr. Wamp. Thank you, Mr. Chairman.
    Mr. Packard. Thank you. There is a call for a vote. Let me 
ask one question and then we'll go over and vote and come back, 
if you wouldn't mind. It takes, hopefully, only about 10 to 12 
minutes. We may be having another vote, I don't know. I was 
pleased, as I have been in most of the witness' written 
testimony that you're moving or looking at a '98-'99 budget, 
you've addressed it that way in your testimony. Which means 
that you're looking at at least an immediate two years, even 
though we don't budget on a two-year basis or on a multi-year 
basis, your planning is on that basis.
    Mr. Pirie. In general, you do.

                             five-year plan

    Mr. Packard. And you're pretty well done--I'm impressed 
with that. I was pleased to hear, in Admiral Nash's response 
that they are looking, that they draw from their five-year 
plan. It would be of value, to me at least, and maybe to all 
members of this subcommittee to see your five-year plan and 
it's helpful to me to see your two-plan and to see '99 in 
addition to the '98, simply because it allows me to see where 
you're going and how you're spacing your funding requirements 
and so forth. How difficult would it be to do that on a five-
year plan?
    Mr. Pirie. I think a five-year plan is provided, is it not?
    ADM Nash. I believe we provided to OSD.
    Mr. Pirie. We'll work on that, Mr. Chairman, I can get it 
for you.
    Mr. Packard. I think it would be helpful to me and I'm sure 
the other members--because, as you know we've talked about it, 
one of the goals that we've now established for all agencies is 
to develop their five-year plan and then modify that each year 
so that it's still updated and they still have the five years 
from year to year. But, at the same time, develop their budget 
from that five-year plan.

                      infrastructure requirements

    And the last item I'll discuss before we leave is the 
infrastructure, underground, unseen infrastructure. Very few of 
those who have testified thus far from the branches of the 
services have really addressed that seriously and yet, I sense, 
that that's a major long-term, rather significant cost item, 
easy to overlook because it's not seen and it's not something 
that has a direct effect upon the quality of life, and yet it 
really does have a significant effect upon quality of life. A 
good illustration of my concern was when we visited Camp 
Pendleton. For the benefit of the General, we saw all of the 
substandard housing and we saw some of the new housing and the 
daycare centers that we're doing a relatively decent job of 
addressing, it's a serious problem. And yet, when we were about 
to leave, General Reinke mentioned, in fact, I was in the car 
with him, just he and I and the driver, and he mentioned that 
it's unbelievable how bad the pipes, the underground 
infrastructure is. It's World War II vintage, of course, and in 
many of our bases, it's been even longer than that. It's never 
really been replaced. And when they build a new barracks, and 
these brand new faucets and a brand new building and all of the 
wonderful amenities that we include for our service personnel, 
they turn on the faucet and brown and ugly water comes out, not 
because of the new construction, but because of all of that 
that supplies the need or the utilities and water to the new 
construction. Are we addressing that adequately, is it a 
neglected area and, if so, is there thought being given to a 
long-range program of upgrading the underground utilities?
    Mr. Pirie. We share a problem with the United States at 
large, is that much of the infrastructure you don't see, the 
water systems, utilities, waste water treatment and things of 
that kind are aging. Part of the interest in our 
regionalization and privatization initiatives involves things 
like turning those over to private utility companies or getting 
private utility companies to come in and replace the systems 
and take over the operation.
    Mr. Packard. You did address that in your testimony.
    Mr. Pirie. Yes, sir.
    Mr. Packard. I saw where that might be one of the more 
attractive areas for privatization and that may hasten the time 
when--because I see this as long-term--if we do it by simply 
budgeting and doing it in-house, it could be a long-term 
process and a very expensive process.
    Mr. Pirie. Yes, sir.
    Mr. Packard. But it's an area that you don't believe we're 
neglecting or we're overlooking.
    Mr. Pirie. No, we're not. I mean, we know we have problems 
and we're addressing them as rapidly as we can.
    Mr. Packard. Let me go vote and then I'll be back. And 
there's an advantage to all of my colleagues leaving and 
there's a disadvantage. One is the advantage is I have you all 
to myself, and the disadvantage is that I have you all to 
myself.
    (Brief recess.)

                           barracks standards

    Mr. Packard. We'll call it back to order. And I think that 
I'll proceed with some questions that I have for you, Mr. 
Pirie. You mentioned in your statement this morning that the 
fastest and best way to get the Marines into adequate housing 
was the 2 + 0, barracks standard. Why does that not apply to 
all branches of the services, particularly the Navy?
    Mr. Pirie. The Marines have a particularly bad problem. 
They have a very substantial number of spaces that are open-bay 
barracks and things of that kind, so in the case of the 
Marines, we thought it was prudent to waive the 1 + 1 standard 
to just allow them to deal with the problem that, which 
otherwise would take an inordinate length of time. In the case 
of the Navy, we don't start from such a bad base and we 
consider that the 1 + 1 standard is what we really want to take 
into the 21st century and it will stand up to kind of the 
improvement, let's say, of the standards and lifestyles.
    Mr. Packard. It's a very high goal and I guess, and I'm 
certainly not expressing a displeasure with that goal of 1 + 1. 
My only concern would be that in an effort to reach that goal, 
it may slow down the process of replacement and new 
construction simply by additional costs for the 1 + 1.
    Mr. Pirie. There are places where we have waived it on a 
case-by-case basis because, in some cases--
    Mr. Packard. In the Navy?
    Mr. Pirie. Yes, sir. If it would require a redesign of 
something and hold up a project for a year or two years, if a 
particular location is in very bad shape for BQs, we have 
issued some waivers. But we think--we just don't want to build 
a lot of stuff that people in the 21st century will think of as 
junk.
    Mr. Packard. Let me ask the General if he would respond. In 
my brief exposure to this 2 + 0 waiver that the Marines have 
had, is it not so much that the fact that their problem is more 
acute and they just need to get something done, but rather that 
they, themselves, would prefer the 2 + 0? They feel the 
influence and the atmosphere they want to create for their men 
and women is, the 2 + 0 is conducive to that, is that a correct 
interpretation, General?
    GEN Stewart. Sir, you know, our intent is to still stay by 
the DOD policy, which is 1 + 1, but we see a lot of quality in 
the 2 + 0. I mean, it's good for unit training, it's good for 
teamwork, it's good for cohesion. So there are some real strong 
points to a 2 + 0, but yet, nevertheless, I mean----
    Mr. Packard. Is there a division in the Marine Corps on 
this ranking official?
    GEN Stewart. No, sir. We're--I mean, there is some 
discussion about it, but we're going to do what we're told and 
we're going to go to the 1 + 1. Our problem is we couldn't get 
there until 2078, you know, with the funding we have, so, but 
we don't think that it's a big drawback to go to 2 + 0 for 
those reasons.
    Mr. Packard. Thank you.
    GEN Stewart. Yes, sir.

                             family housing

    Mr. Packard. Seventeen percent reduction in the request for 
family housing, we've discussed that and there's been other 
questions. In your statement, Mr. Pirie, you mentioned that 
it's primarily because of base closing and I'm wondering if 
that----
    Mr. Pirie. But the reduction in the number of our houses is 
primarily caused by base closures since we've moved out of 
places where we had family housing, yes, sir.
    Mr. Packard. And thus the reduction in the request?
    Mr. Pirie. No, sir.
    Mr. Packard. The reduction, is there a connection there?
    Mr. Pirie. No, sir.
    Mr. Packard. Okay. Then I misread your testimony. Okay. 
What is the rationale for a 17 percent reduction, just not 
being able to find the money?
    Mr. Pirie. Yes, sir. As Mr. Dicks mentioned, we have very 
substantial pressure in the modernization accounts and we're 
just trying to find money everywhere and everyone is sharing 
the pain. That's our share.

                           regional planning

    Mr. Packard. I was really impressed with the Navy moving to 
a regional plan. I presume you've been working in that 
direction for quite some time. But I just think that's a great 
idea and certainly it should work in the areas you outlined in 
your testimony, where there are concentrations of naval 
facilities, like San Diego, and Puget Sound and Jacksonville 
and Pensacola, places like that, it's just a natural. And as I 
read it, I thought, why we hadn't concentrated on that before, 
but that's a great idea. How far along are we in that, is it 
still in the planning stages and can it be across branches of 
the services? You have M.C.R.D., for instance, in San Diego, 
are there ways to actually blend different branches of the 
services into that regional planning process?
    Mr. Pirie. It is, in fact, just beginning, although in 
places like Jacksonville, we have a number of initiatives off 
the ground. So it's beyond the planning stages, but, I mean, 
there is a great deal more that needs to be done. It certainly 
can be across service and there's a lot of cross-service 
support in a number of areas. So that I think it's very 
promising. We can, in fact, get Admiral Scudi who is Navy's 
point man on this to come and give you a rundown, Mr. Chairman, 
if you would like that.
    Mr. Packard. Let me ask a couple of questions here, and 
then see if that's the appropriate thing to do, we can 
certainly do that. How much distance do you consider 
regionalizing before it reaches a point of being just too 
remote?
    Mr. Pirie. I think it depends upon what the particular 
situation is. I mean, for a consolidated deal with the electric 
power utilities and so forth, we might take a very substantial 
slice of the east or west coast, and get a consolidated deal. 
For other kinds of things, they would be much more local. So it 
really depends upon the circumstance, laundry services, 
probably, fairly local.
    Mr. Packard. Well, as I read that and began to mull over 
the concept in my mind, and then consider that in view of my 
visit to the Naval facilities, particularly in San Diego, and 
I'll expand that as we can. But San Diego's regional concept is 
not unlike several of the other areas that you've mentioned. 
The requirements of housing could cross-pollinate with 
different branches in the services if they're in the same 
locality or same region, and it may be that there could be some 
savings, and it may not be a bad idea for Marines and Navy 
personnel, or Air Force personnel and Army personnel to live in 
the same housing projects as neighbors. I don't know that that 
would be a detriment. It may be a real plus.
    Mr. Pirie. Navy and the Marine Corps in the San Diego area 
have, in fact, have a memorandum of agreement and the housing 
is all in a pool. You know, it's Navy and Marine Corps housing.
    Mr. Packard. And the referral services and the efforts to 
help people find housing could be regionalized as well?
    Mr. Pirie. Yes, sir. San Diego has an excellent referral 
service.
    Mr. Packard. They do, I saw it.
    Mr. Pirie. It's first class.

                         overseas construction

    Mr. Packard. And it is. And I presume it--well, I saw that 
as a real good idea and I hope that it will progress. I had the 
chance to visit Sigonella as well, while on a recent trip, and 
was briefed on the housing problems there, about 3:00 in the 
morning, incidently. That was not their problem, that was our 
fault. We had weather problems that delayed our getting off 
from here and so it changed the schedule, but he was there to 
brief us. They have some unique problems there and I don't know 
whether that's unique to a lot of our overseas problems, but it 
was my first exposure to the nature of problems that we have in 
providing housing in some foreign countries.
    Mr. Pirie. Sir, every single base has a different set of 
problems. Everyone is unique, sir.
    Mr. Packard. Well, I guess you're right. They are trying 
some privatizing there, even though it's overseas, and they are 
struggling with it, but the CO there really felt that he was 
making progress and ultimately would be successful in getting 
some of the problems worked out for private housing built, much 
on the same concept that we do here in the States.
    Mr. Pirie. We have lease authority overseas which is not 
scored and which is different from our in-states authority and 
we are able to use the overseas leasing authority to enter into 
arrangements for--which essentially get us the use of private 
housing overseas. We have a very big project in Naples, which 
your staff director can tell you a lot about.
    Mr. Packard. I've been to Naples, but not for the purpose 
of seeing the housing problems. I'll do that, at some point, 
but I understand that it's rather severe.
    Mr. Pirie. It's rather severe but we've got a good solution 
in place and I think it's going to work out very well.
    Mr. Packard. Do you? Italy is not the standard run-of-the-
mill country to work with on something like that, how have you 
worked that out in Naples?
    Mr. Pirie. The Naples project is a long-term lease for a 
facility, the initial increment of which will be 500 houses, 
with an option on a further 500, which we hope to proceed to 
build fairly soon, and it is in a location that is much more 
accessible to the work place for our people, so that their 
transit time, instead of having to go all the way across 
Naples, they will be able to get onto an autostrada and get to 
work in just maybe 10 or 15 minutes.
    Mr. Packard. That's good.
    Mr. Pirie. And it will be an enclosed location, not 
necessarily--not walled, but it will be a discrete location in 
the village which will have support facilities, a chapel, 
schools, and things of that as well as the housing. So we think 
it will be a great deal better for them. It will have it's own 
water plant. Water in Naples has been a problem and we've been 
issuing bottled water to the people for some time.
    Mr. Packard. Are the problems different in places like 
Germany or Korea, in terms of overseas problems that you have 
to deal with? Is this same opportunity for leasing there as 
there is in Italy?
    Mr. Pirie. The problems are different. In Korea, for 
example, in the Seoul area, the Army is the executive agent and 
we have a small presence there and we take what the Army gives 
us. We have a base at Chin Hu in Korea, where the housing, 
which is left over from an earlier era, is just absolutely 
superb. So it's different everywhere.

                      regional maintenance centers

    Mr. Packard. You mentioned eight regional maintenance 
centers that have been established and then some additional 
regional repair pilot centers. What are they, what's the 
concept there and where are they at? How are you proceeding 
with them?
    Mr. Pirie. They are in major fleet concentration areas like 
Gulf of Jacksonville. There's one in New England that is run 
out of New London.
    Mr. Packard. On the west coast?
    Mr. Pirie. On the west coast, San Diego and the Puget Sound 
area. And the regional maintenance idea is simply to 
consolidate maintenance functions like electric motor repairs, 
so that you don't have 15 electric motor repair shops in the 
Norfolk area. You have one, they do it at the ship yard now, 
and the Navy enlisted personnel and the craftsmen from the ship 
yard work side-by-side, so the enlisted personnel get excellent 
training and so forth. And the costs of the whole operation are 
held down. The regionalization of maintenance is, I think--and 
this is not my business, incidently, that I'm talking about. 
I'm a real estate person, but the regionalization of 
maintenance is a terrific idea that's going to have big payoff 
in the future.
    Mr. Packard. Is that going to require some significant 
construction work?
    Mr. Pirie. I think that it's likely that it will require 
less rather than more. I mean, we're using, the electric motor 
example, we're using the electric motor facilities at Norfolk 
Naval Ship Yard and actually that capacity more efficiently.
    Mr. Packard. To be responsive.
    Mr. Pirie. Yes, sir.

                           pier modernization

    Mr. Packard. Well, in some of the Navy facilities in San 
Diego, we saw the revitalization and actually the building of 
new pier facilities on North Island. How far behind are we, or 
are we behind on pier facilities throughout the country, 
throughout the Navy?
    Mr. Pirie. We have a great deal of backlog of maintenance 
on piers to make up. I can't give you an exact figure. I will 
supply that for the record, but, you know, in many of our 
locations, our piers are not in as good shape as they ought to 
be and that's going to be a major focus of our future efforts.
    Mr. Packard. With the home-porting concepts, is that going 
to require changing our piers or adding some to certain areas, 
like we are at San Diego? Is that being done?
    Mr. Pirie. We're pretty well there, in terms of the 
existing pier facilities. Modernization is going to have to 
take place. There may be some new piers required, for example, 
if it's decided to home-port an additional aircraft carrier in 
the Bremerton area, we'd probably have to build a pier there. 
The pier in--or the wharf in San Diego will be to accommodate 
the aircraft carriers that will be home-ported there. They will 
be--the Navy's now doing an environmental impact statement on 
the carrier home-porting on the west coast, so I can't 
anticipate the answer particularly, but the nuclear carriers 
have different requirements from the conventional carriers, but 
this doesn't argue a major pier building requirement. We're 
building in ones and twos and upgrading certain locations, but 
our major problem in piers is refurbishing and keeping in good 
shape what we have rather than building new.

            third-party contracting for child care services

    Mr. Packard. The Navy has been selected to conduct the 
demonstration program for third-party contracting for child 
care centers, or child care services, I should say, not 
necessarily the construction of the centers. Incidently, San 
Diego, as you know, I think, has been selected as the area to 
really pilot the out-sourcing concept of this whole service. 
How is that working, and are we far enough along to evaluate it 
and just update me on where we're at?
    Mr. Pirie. I'll have to supply that for the record, sir. 
That's not my bailiwick. The Assistant Secretary of Manpower 
and Reserve Forces----
    [The information follows:]

    The Department of the Navy has two outsourcing initiatives 
underway. The first is the demonstration project, included in 
the FY95 DoD Appropriations Act, for which DoD requested Navy 
to serve as the Executive Agent. The purpose of this project is 
to expand availability of affordable child care in five fleet 
concentration areas by contracting for spaces to ``buy down'' 
rates in qualifying civilian child development centers. Service 
members would pay the same rate as they would pay at an on-base 
child development center, and the government would pay the 
contractor the difference. Criteria for civilian centers to 
participate in this program is accreditation by the National 
Academy of Early Childhood Programs, a division of the National 
Association for the Education of Young Children.
    Two legislative requirements, the Service Contract Act 
(SCA) and the Crime Control Act, have impacted implementation 
of this initiative.
    The first solicitation was issued in FY95 but the feedback 
from potential bidders in the Norfolk area indicated the SCA 
minimum wage rate was higher than the child care wages in the 
Norfolk area. The Department of Labor (DOL) recommended that 
Navy conduct a wage survey and present the results to the DOL. 
The Navy did conduct a survey, which resulted in lower SCA wage 
rates in most of the five areas.
    A second solicitation was issued and in December 1996, five 
contracts were awarded in Norfolk, Virginia and three in 
Jacksonville, Florida for a total of 235 spaces. The contracts 
can not be implemented until sufficient background checks have 
been completed to meet the requirements of the Crime Control 
Act. Delivery orders will be issued for the Norfolk contracts 
in March 1997. A third solicitation will close 8 April 1997, to 
include San Diego, Seattle and Pearl Harbor.
    We do know that the current contracts provide economical 
spaces for children ages three to five years. However, we don't 
know if civilian centers will be able to provide economical 
spaces for children under two years of age, which is our 
greatest need.
    Secondly and simultaneously, the Department of the Navy is 
conducting an A-75 Commercial Activities Study in the San Diego 
area. This study will write a performance work statement and 
develop the government's most efficient organization on a 
regional basis (both Navy and Marine Corps). It will also 
determine if the private sector can effectively compete and 
manage the Department's current child development program, as 
well as increase future capacity to meet the child care 
requirement by 2003. This test includes use of qualifying on- 
and off-base child development centers and in-home family child 
care.
    We are presently working with our Office of the General 
Counsel to resolve the question of the application of the SCA 
to the Family Child Care (FCC) providers. Currently, FCC 
providers are not government employees. The Department of the 
Navy manages the FCC program, which includes the recruitment, 
certification, training, and inspection of FCC providers and 
homes. In some locations the Department of the Navy provides a 
payment to the provider to subsidize the amount paid by the 
parent. The Navy Office of the General Counsel is reviewing the 
overall concept to determine the appropriate contract mechanism 
and potential application of the SCA to the FCC program.

    Mr. Packard. But it is conceptual as well, and I'd 
appreciate any report you could give on this event for the 
record. Looking at the parochial side, I noticed in your 
testimony also that Miramar Naval Air Station is building a new 
mess hall or dining facilities. Was that necessary because of 
the restructuring of Miramar and the Marines coming to Miramar, 
or would that have been necessary if Miramar would have 
continued as a naval air facility?
    Mr. Pirie. It would have been necessary even if the Marines 
hadn't come to Miramar. The existing mess hall was an 
unsatisfactory facility and we would have needed to do that 
sooner rather than later.
    Mr. Packard. Do you know when that's to be completed? I've 
not been at Miramar for a few years.
    Mr. Pirie. The mess hall in Miramar, '98.

                            marsh task force

    Mr. Packard. We've talked about private sector initiatives 
and you certainly do have my strong support to move in that 
direction where it works and we're finding that it works in 
many more areas than perhaps we initially were thinking. But 
you've outlined some of the areas where you're pursuing that. 
The Marsh Task Force last year identified five areas where the 
quality of life would be addressed, that affected both the 
singles and unaccompanied personnel as well as family housing, 
but primarily I think it was single and unaccompanied. What 
steps are the Navy and the Marine Corps taking to address these 
issues? How do you envision the plan working?
    Mr. Pirie. Well, the Marsh Panel found that our housing 
situation was not particularly satisfactory and recommended the 
creation of a military housing authority. We've examined that 
proposition and rather than go in that direction, have chosen 
to emphasize the public/private ventures and the Pirie 
initiatives that we have. I think we've got a great deal of 
learning yet to do about public/private ventures in housing and 
before we launch off and create a mega housing authority, I 
think we probably ought to see how these other ways of dealing 
with the private sector and bringing in private sector capital 
can be made to work for us. So that's where we're putting our 
money, Mr. Chairman.
    Mr. Packard. Perhaps maybe my last question, and then if we 
submit additional questions to have you respond for the record, 
you'd be willing to do that, I'm sure.
    Mr. Pirie. Gladly, Mr. Chairman.

                    demolition of excess facilities

    Mr. Packard. Again, as I drive through bases and it's 
obvious that there are old buildings that are boarded up, not 
used, they're really deteriorated to the point where they are 
an eyesore and they're a problem. I know that you're 
concentrating on that more and more, I think what we've heard 
previously is that the goal is to certainly, at least, take one 
down for every one they replace or add. Would you report on how 
the Navy is coming in that area, demolishing old structures, 
and the problems you're having with it?
    Mr. Pirie. Well, we've had substantial amounts of money put 
in the budget both in '96--I mean, rather '97 and '98 for 
demolition and we're emphasizing and it's an important 
practice, not only because the old buildings are unsightly and 
expensive to just be caretakers of, but also because there's a 
tendency for people to want to move back into the old buildings 
from time to time and then you're stuck with them for even more 
periods of time. So it's one of our priorities and we haven't--
--
    Mr. Packard. Have you expended all of the monies that have 
been allocated for that purpose in the last two budget years?
    ADM Nash. We'll get back to you on that, sir, but we have 
spent some of it, I'm not sure that we've spent all of it, but 
we're really focused on this program because we really think 
it's one very, very important thing for us to be doing.
    [The information follows:]

    We have obligated the entire $6.4 million allocated in 1996 
in our centrally managed O&M account for demolition. In 1997 we 
have obligated about 10% of the $25 million allocated and are 
currently preparing the balance of the program for execution 
and funds obligation by the end of the year. There is also 
demolition included in some military construction projects when 
the new building is placed on an already occupied site or an 
inadequate building is replaced. Also, some of our major 
claimants and installations are demolishing facilities with 
their own O&M funds.

    Mr. Packard. I have the privilege of going out and playing 
golf at Camp Pendleton every now and then and I drive right by 
a lot of those buildings that are really waiting for demolition 
and so if the funds are not being spent, then it's not because 
there is not the need there.
    Mr. Pirie. Well, there is a need, yes, sir. And I'm sure 
General Reinke has told you that, you know, he wanted to 
bulldoze one of them and somebody moved in and then he couldn't 
do it and----
    Mr. Packard. Well, and you can't just bulldoze them any 
more.
    Mr. Pirie. Yes, that's true, sir.
    Mr. Packard. Some environmental requirements make it so 
that it's almost as costly to tear them down as it is to build 
them. Well, that's exaggerating, but the point is, it isn't 
like it used to be where you could just either put a match to 
them or you could bulldoze them or even hire somebody--or 
somebody actually will pay you to come in and take the lumber 
off. You can't do that anymore. There's paint and asbestos and 
environmental problems and it's a different story now, I 
recognize that. And that's unfortunate in some ways. I 
appreciate your response, Mr. Pirie. We're very fortunate to 
have Ms. Anne Northup with us today, welcome to the 
subcommittee. She's from Louisville, Kentucky, a new member of 
our committee, the Appropriations Committee. She doesn't sit on 
this subcommittee, but has asked if she could come and ask a 
question or two that relates to some of her issues in her 
district, and so I certainly yield to Mrs. Northup at this 
time.

                          louisville, kentucky

    Ms. Northup. Thank you. Mr. Pirie, I have several questions 
related to the Naval Ordnance Station in Louisville. I know 
that the Naval Ordnance Station was sort of the first effort at 
privatization. It occurred in my district, it had quite a--
there was quite a lot of press, a lot of effort by the Navy to 
point to a successful effort at privatizing a facility. There 
are a lot of concerns related to that, both short-term and 
long-term and I'd like to go over some of those with you now.
    The short-term is that United Defense is the company that 
has the contract. When companies bid on privatizing Naval 
Ordnance, there, of course, would have to be an estimate of 
what the contract would be for business. Was the Navy going to 
buy $5 million worth of business, or $100 million of business 
at this facility. And your, the Navy, estimated the level of 
business to be about $47 million. But after United Defense won 
the contract and before the facility actually changed hands, 
that was reduced to $41 million. And the company, United 
Defense was required to hire people at a level to sustain $41 
million worth of Navy business.
    Almost immediately after that was privatized, you reduced 
the contract to United Defense to $35 million. This is a $6 
million change, there are all of the people who were offered 
work at United Defense, had to give up all of their previous 
opportunities for future work at federal installations and 
retirement benefits and other benefits. So they took quite a 
chance on the Navy when they became employees of UnitedDefense. 
I know that you're working hard to find the $6 million, but I am very 
concerned about that trend. I think if the Navy did not intend to keep 
their level of work at a sustained level through the short-term 
transfer so that there would be any viability for this facility, that 
should have been decided up front so that nobody took the risk, not the 
city, not the county, not the individual employees.
    But since they did, you know, I want to know what your 
level of commitment is and what you think will happen in terms 
of sustaining, on the short-term, the level of commitment that 
you, that the Navy estimated.
    Mr. Pirie. I'm not the Assistant Secretary of the Navy who 
deals with workload or assignment of work to Louisville. That's 
the job of the Assistant Secretary for Research, Development 
and Acquisition, Mr. John Douglass. So I'm just not in a 
position to say what the Navy is going to be doing there. The 
whole rationale behind the closure and privatization was the 
sort of downsizing of the Navy and the diminution of the amount 
of gunwork there is to be done. So I know that there's some 
difficulty in finding the work to put it. But I'll have to let 
Mr. Douglas respond to that question, ma'am.
    [The information follows:]

    The Navy is committed to giving privatization-in-place at 
Louisville every opportunity to succeed as long as the quality 
is acceptable and the costs are competitive. The Navy has a 
vested interest in this initiative in that it retains a much 
needed technical capability to support the fleet, shrinks Navy 
infrastructure, and saves money. Our commitment has been and 
will continue to be that all of this type of work needed by the 
Navy will be performed by the Louisville privatization 
contractors. The declining Navy budget, the need to fund 
contingency operations, and the reduction in the size of the 
fleet will all have effects on the financial level available to 
support existing systems in the fleet. As you stated we are 
continuing to work with the privatization contractors to reduce 
costs and are continuing to identify funding for our much 
needed fleet support work.

    Ms. Northup. Well, you know, the concern is there are 
people that--there's a reason, it's the pentagon, and I've 
decided that there are five sides to every project we do. But 
you are the person in charge of installations and the future of 
this installation depends on the Navy finding this work and 
sustaining the cost for this work. So I'm asking you to be 
engaged in the question, after this meeting, of whether or not 
the work is going to be there. I'm realizing that this is an 
evolving process, but again, I'd like to point out. It was less 
than two months after transfer that a $6 million cut was in 
place. You know, that, to me, does not signal a good faith 
effort on the Navy's part to fully fund what was necessary to 
sustain these jobs.
    Let me say that I understand that you cannot commit and nor 
can the Navy, nor can they to taxpayers, long-term level of 
work that can be done over the next 20 years to make sure that 
this privatization takes place and is successful. But clearly, 
the first year, the second year, in that time frame, the Navy 
has got to provide the work there that they said they were 
going to do. My understanding is that it's not a question that 
there's not the work. It's where this work is going to take 
place, and that maybe privatization conceptually, at the top 
levels, is something the Navy wishes to do. It's a good deal 
for taxpayers, they get more work done at a cheaper cost. And 
that ought to be the goal of what the Navy, whether it's 
installations or contracts or whatever, is trying to achieve.
    However, farther down the line, there may be people within 
the Department of the Navy that would rather keep that business 
on Navy controlled sites rather than privatization sites. So 
even though the work is being done, it's my understanding there 
are other places where there are similar opportunities for work 
where this work is being carried out that are not privatized. 
So if there is a conflict within the Navy about whether they 
want to privatize an amount of work, it's my, at least, 
understanding that it's not there isn't work, it's just not 
coming to Louisville. Can you comment on that?
    Mr. Pirie. No, I have no idea what the situation is. It's 
not my area of responsibility.
    Ms. Northup. The success of the privatization, do you 
consider that part of your responsibility?
    Mr. Pirie. The success of the privatization is essentially 
up to the local redevelopment authority and the corporations 
involved. And I have been urging the Mayor of Louisville and 
Mr. Jimly, the head of the local Redevelopment Authority, to 
think very seriously about supporting that facility with 
private sector work because it appears to me that that Navy 
work is going to be declining over the years.
    Ms. Northup. Over the years, I would agree with you. But I 
want to reiterate that they have to see it through in the 
short-term. But I'm glad you brought up long-term development, 
because that was the second question I wanted to ask you. There 
is no way that they are going to be able to have any private 
work in there despite the fact that it's in a prime location, 
we have a great opportunity, unless the Navy is willing to do a 
conveyance, an economic development conveyance of the property 
to the local Redevelopment Authority. What are your plans in 
that area?
    Mr. Pirie. When the Redevelopment Authority has developed a 
plan to use the facility, we will make that in accordance with 
the regulations for disposing of the property. The primary 
alternative and the environmental impact statement, we are 
required to by NEPA and when the environmental impact statement 
is done, it will really depend upon what the local 
Redevelopment Authority asks for in that redevelopment plan and 
whether they ask for an economic development conveyance or some 
other mode of conveyance, we will have to consider that on its 
merits and in accordance with the laws and regulations we have 
to comply with.
    Ms. Northup. When do you expect the environmental impact 
statement to be completed?
    Mr. Pirie. Well, I don't know, I guess we really have to 
hear from them about what they want to do with the property 
before we can start the environmental impact statement.
    Ms. Northup. Well, they're in a real bind here, because 
there is--we know there is environmental cleanup, about $26 
million. No company is going to come in there and be at that 
facility if they don't know that they have a long-term lease. 
And we can't offer a long-term lease because we don't have a 
conveyance. So you're not going to act until they have a plan. 
They're--it almost adjoins our airport, because it's a UPS hub 
in Louisville, there is a tremendous dynamic right now in 
Louisville of economic development around the UPS hub. 
Companies that want to have overnight servicing of products, 
overnight repair, whether it's in--we have 14 companies that 
have come in. They would love to consider Naval Ordnance. Navel 
Ordnance needs them very badly and it's good for the Navy 
because it will help reduce the rental that United Defense had 
to pay, and therefore reduce their overhead.
    But none of those things can take place. If the Naval 
Ordnance cannot offer a long-term lease for a building or for 
property on there, they can't offer that as long as there are 
the environmental problems.
    Mr. Pirie. Well, I see no reason why they can't offer a 
long-term lease. Why should they not be able to?
    Ms. Northup. Well, they are apparently under the belief 
that until the--that companies will not sign a lease until the 
local Redevelopment Authority has control of the property.
    Mr. Pirie. Well, we haven't found that difficulty in other 
areas of the country.
    Ms. Northup. What other areas is----
    Mr. Pirie. Charleston.
    Ms. Northup. Charleston?
    Mr. Pirie. Yes.
    Ms. Northup. Do you have any idea where--I know that there 
is a set aside in the budget, in the President's budget for 
environmental cleanup for base closures, bases that the Navy is 
no longer going to own. Do you have a priority of what bases 
that money will be spent, at what bases that money will be 
spent?
    Mr. Pirie. We put priority on the bases that have the best 
near-term reuse prospects. That's simply a budgetary 
consideration.
    Ms. Northup. So is there a list?
    Mr. Pirie. There's no--well, we do have a list of--and a 
plan for cleanup, we can provide you that, yes.
    Ms. Northup. Just this week, or last week we were informed 
that all the ball teams that have originally played on the 
extra land out there, this community-wide effort, that they 
would no longer be allowed to play because of the dioxin, trace 
amounts of dioxin that was found in the soil. I guess it's 
pretty clear that if we're going to--if a company moved in 
there and perhaps the environmental impact statement shows that 
there is some hazardous materials, that the company wouldn't be 
able to stay in that building or on that facility.
    Mr. Pirie. We're working with the local EPA to assess the 
amounts of dioxin and we should have a report fairly shortly on 
that. It's not at all clear now whether it is a hazard to human 
health and safety, but we want to make absolutely sure that we 
know before we let the kids back on the ball fields. We are 
proceeding to assess the site to make sure that we understand 
what's there. And you said trace amounts of dioxin, trace 
amounts are parts per trillion, that's a very small amount of 
dioxin. We're not certain that it's really a hazard.
    Ms. Northup. Well, again, I can't tell you how focused the 
people of Jefferson County are on making this privatization 
work. It's in--it's located so strategically in Jefferson 
County, near the airport, near the UPS hub, for economic 
development opportunities. We're very eager to have private 
companies come in there. We realize that it's a long-term 
future, but if, because of environmental cleanup, or lack 
thereof, or lack of conveyance, we are unable to proceed to 
make this viable based on private companies coming in there, 
then we have to continue to rely on the Navy for a longer 
period of time. You know, I've talked to you about the United 
Defense, if that were an individual occurrence, I would say, I 
could understand that maybe it had caught somebody off guard, 
but there was also the Cockie, that's 60 employees that went 
with the Cockie. They had a budget that was in place, the 
transference of the facility occurred on the 20th of August. On 
September 19th, the Division of the Navy that oversees it 
issued a stop work order. It was less than a month after the 
signing and had apparently the intention of transferring that 
work up to their own installation rather than allow a private 
company to begin to grow these services, or to begin to provide 
these services. That's hardly a good-faith effort at 
privatization. If they didn't intend to fund it and keep the 
funding at a level amount long enough to get this private 
effort on its feet, then they shouldn't have privatized it and 
shouldn't have taken all these jobs and had these men and women 
take these risks. So I ask you, to whatever extent you are in 
charge--you can participate in solving this and making this a 
good-faith effort, at least on the short-term, a full-funded 
effort, I would ask you to do that.
    Mr. Pirie. I'd be glad to help in any way I can.
    Ms. Northup. Okay. Mr. Chairman, I just ask you, in the 
process of the appropriations budget, I'm not on this 
subcommittee, I am on the committee, but I think as we 
appropriate money in the process, that we have to make sure 
that we live up to the contracts, the efforts that we make and 
that the Navy looks up to those expectations and those 
responsibilities. Thank you.
    Mr. Packard. Thank you, we appreciate your appearance 
before the committee. Mr. Kingston, you've just arrived. We've 
got a few minutes before we adjourn, so why don't you----
    Mr. Kingston. That puts some pressure on me----
    Mr. Packard. No, no, you have the rest of the meeting.

                    hiring home schooled individuals

    Mr. Kingston. Thank you, Mr. Chairman. Mr. Secretary, I 
wanted to ask you the same questions that I asked Secretary 
Walker with the Army yesterday. In terms of recruitment, the 
Army read some statements about hiring non-high school 
graduates and so forth, and I had no editorial comment on that 
at all. But recently a young man came to our district office 
who was unable to be accepted into the armed services, although 
he did not name Navy, but because he was a home-schooler, a 
graduate from a home school. Do you have a policy on home 
school?
    Mr. Pirie. This is another area, which I am delighted to 
say, is not my area of expertise. And I'm sorry I don't know 
the answer to that question, but we could provide that for you, 
sir.
    [The information follows:]

    In response to the proliferation of new types of 
educational credentials that had surfaced (e.g., high school 
equivalencies based on competency examinations, adult 
educational diplomas, experiential learning diplomas, etc.), in 
1987 the Department of Defense developed a three-tier system 
for classifying educational credentials. The three tiers are: 
(1) high School graduates; (2) alternative credential holders; 
and (3) non-high school graduates. For enlistment purposes 
individuals in tier one are considered high school diploma 
graduates, while those in tiers two and three are identified as 
non-high school diploma graduates. Consistent with this OSD 
policy guidance, the Department of the Navy considers and 
enlists home schooled applicants as Non-High School Diploma 
Graduates (NHSDGs). Current Department of the Navy policy 
limits the enlistment of NHSDGs to five percent of total fiscal 
year accessions.

                                ritalin

    Mr. Kingston. I would be very interested in that. And you 
know, while you're at it, if you could tell me what your 
program is on Ritalin, kids on Ritalin, if you accept them. I 
can tell that you--you probably spank your children, Mr. 
Secretary.
    Mr. Pirie. My children are in a position to spank me.
    Mr. Packard. That's the drug that's used for hyperactive 
kids these days.
    Mr. Kingston. Yes. Yuppie parents drug their kids, they 
don't spank them.
    Mr. Packard. Not this yuppie parent.
    Mr. Pirie. My youngest is 28 years old.
    Mr. Kingston. This drug is very, very common in elementary 
schools all over the country, and kids are given it and it 
calms them down for their hyperactivity. If you're a 10-year-
old boy and you're a hyperactive boy, the world's against you 
today because the teachers can't spank you. We, also in our 
district office, encountered a young man who had been on 
Ritalin and because of that, he was not accepted into the armed 
services, because it was considered a disease that regular 
medication had to be applied for. And it was not again the 
Navy, but I can promise you it's something that also, I 
certainly don't fault the armed services for saying we don't 
want people who are chronic drug users because of a physical 
condition because you have to have high physical standards. But 
on the same hand, I don't know that parents have a clue about 
this or student guidance counselors and it is something that--I 
think it's just a scandal growing, if you will, that there are 
a lot of people who don't know when they put their kids on 
Ritalin that they're ruining a potential career in the armed 
services.
    Mr. Pirie. That's right. This is the provence of our 
Assistant Secretary for Manpower and Reserve Affairs, Dr. 
Rostker, but I'll take this up with him. I do know, just sort 
of in passing, that if someone is on a program of regular 
medication, that that's a bar to enlistment. But I don't know 
that that should necessarily apply to this one. But I'll find 
out and we'll get the answer to it.
    [The information follows:]

    Consistent with a Department of Defense Directive 6130.3 
``Physical Standards for Appointment, Enlistment, and 
Induction,'' any individual who currently uses Ritalin to 
improve or maintain academic skills will be disqualified for 
enlistment. Individuals who have had a history of academic 
skills disorders which interfere with work or school after the 
age of twelve and have a history of medication, but who are 
currently not using Ritalin or other medication to improve or 
maintain skills, may apply for a medical waiver. Waiver 
packages are carefully reviewed on a case by case basis by the 
Bureau of Medicine and Surgery (BUMED) and must contain a 
psychological consultation and letters from teachers, 
counselors and coaches which verify that the person functions 
normally in an academic setting without medication. Upon 
reviewing an applicant's request for a waiver, BUMED looks for 
at least one year of normal function off medication. If an 
applicant is still in high school or college, BUMED looks for 
one semester off medication as indicative of their ability to 
function well in a mainstreamed arena. Many young people cease 
to require medication support as they mature since they adapt 
to effective forms of adult learning that allow them to become 
successful physicians, teachers, attorneys, dentists, etc. 
However, some young people continue to require medication to 
function at a reasonable level of learning and responsibility. 
These are the applicants who are not considered suitable for 
military service. Methyphenidate (Ritalin), a Schedule II 
controlled substance, and other similar drugs also have a 
significant possibility for abuse. Should an applicant receive 
a waiver to enter the Navy or Marine Corps, any interruption of 
medication supply, especially in an operational setting, could 
significantly impair their ability to function and may impair 
the success of the mission or impose personal safety concerns.

    Mr. Kingston. In this case, many of them have been on 
Ritalin for say a two or three-year period of time, they ended 
it when they were 15 or 16, but other times they go on and I am 
not criticizing the parents who put children on Ritalin as much 
as I'm saying, people don't realize how serious this decision 
is, because if they're not well informed about it, they should 
know about it.
    Mr. Packard. That may not be unique to Ritalin either, 
there may be other drugs for other problems.
    Mr. Kingston. That's true. That's a drug problem.
    Mr. Packard. But the point, I think that maybe Mr. Kingston 
is making, is that any drug that would be used to perform any 
function on a child or even a teenager, if they're using that 
drug when they come up for enlistment, it may affect their 
potential for enlistment. So I don't know that you'd want to 
reevaluate your policy, but maybe there may be an educational 
need here.
    Mr. Kingston. I think it's an education need because I 
think your policy has good reason and we don't want to 
micromanage your policy, we micromanage too many other things 
that we're busy on. I also have, in my district, King's Bay 
Naval Base.
    Mr. Packard. I was there last month, a super place.
    Mr. Kingston. All my dealings with them, just absolutely 
topnotch people who could do anything that they want to, very 
intelligent, very well disciplined and very impressive.
    Mr. Packard. Very good--super relations with the community, 
very harmonious.
    Mr. Kingston. We're glad to have them there.
    Mr. Packard. On the Ritalin issue, the normal practice or 
the normal procedure would be that they outgrow the need for 
it. I had one son for whom it was prescribed but by his early 
teens he had outgrown it and that's the normal procedure. So 
that if they're still on it at the time that they are ready 
for, old enough for enlistment, it may be a more serious 
problem than the Navy or any other branch would want to deal 
with. And it may therefore, the policy, may have some 
significant appropriate application. But I don't know whether 
the history of ever having Ritalin, I don't think would affect 
enlistment if they're off of it.
    Mr. Kingston. I think that what my question was more to 
make sure the Navy has a policy on it, and to do my part to 
make sure that the parents and the guidance counselors, because 
sometimes the schools administer the drug, but that folks know 
about it. But I know lots of children, lots of my friends and 
relatives who are on the drug who could be affected by this.
    Mr. Packard. Thank you.
    Mr. Kingston. Thank you very much.
    Mr. Packard. We sincerely appreciate your being such a good 
witness and answering our questions and we're very delighted to 
have you before us. We appreciate the chance to work with you 
as we develop the budget and as we develop our bill. If there 
are no other questions or comments, thank you, and the hearing 
is adjourned.
    [Clerk's note.--Questions for the record submitted by 
Chairman Packard:]
                       Family Housing Maintenance
    Question. The budget request includes a reduction of $46 million 
from the enacted levels for family housing maintenance. This is after a 
reduction of over $25 million in fiscal 1997. Is this budget adequate 
to address the tremendous need for maintenance and repair of existing 
units?
    Answer. Yes. The Department of the Navy's fiscal year 1998 
maintenance request provides sufficient funding to take care of routine 
maintenance, preventive maintenance, service calls, and change of 
occupancy, as well as small repair projects that work off the backlog. 
The number of homes we need to maintain has decreased due to 
divestiture of excess homes primarily due to base closure. Homes 
requiring whole house revitalization, which includes improvements as 
well as concurrent repairs, are funded out of the improvement account.
                            Sigonella, Italy
    Question. What is the current status of providing additional family 
housing at Sigonella Naval Air Station in Italy?
    Answer. Naval Air Station in Sigonella, Italy, has an inventory of 
98 government owned homes and 460 government leased homes available for 
Navy families. An additional 65 leased homes at nearby Palmeri are now 
under construction.
    Currently, most of the Navy families living in the private 
community are unsuitably housed. Housing in the community has 
undependable utilities and lacks central heating, kitchen cabinets and 
appliances. We have initiatives underway that would provide a total of 
904 homes. A lease construct project for the first phase of 404 new 
homes is now under negotiation.
                       Barracks/Balanced Program
    Question. $172 million, or 32 percent of the Navy's construction 
request, is for Bachelor Enlisted Quarters. Has the Navy been able to 
budget for a balanced program with the emphasis on 1+1, one which 
provides proper troop housing yet still meets the growing 
infrastructure and operational needs?
    Answer. Yes. Overall, the construction budget proposed by the 
Department of the Navy presents a reasonable balance between improving 
QOL and supporting infrastructure/operational needs.
                    Family Housing Improvement Fund
    Question. In the past two years $45 million has been appropriated 
for the Family Housing Improvement Fund. What rationale does the 
Department use for the distribution of these funds? Is it allotted to 
the Services, or held centrally to allow every project to complete?
    Answer. Recently, the Department of Defense adopted the following 
criteria regarding the use of the centrally-managed FHIF:
    The project addresses a critical housing priority.
    The project achieves target leverage.
    The project cannot be readily funded from other available 
resources.
    The project expands our experience in using the privatization tools 
and mechanisms.
    The project broadens our base of project size configuration.
    Question. Are we seeing a movement for this program to be a 
substitute for construction versus the original intent that it be a 
supplement?
    Answer. No. We are experiencing a learning curve during which time 
the DON--and private indsutry--are working together to gain a better 
understanding of how the new legislative authorities can best be used 
to provide access to quality, affordable housing for our Sailors and 
Marines.
                          Unobligated Balances
    Question. The budget proposes to finance a total $8.5 million from 
unobligated prior year appropriations for the Family Housing, Navy 
account. Why was it formulated in this manner and why didn't the 
Department request a traditional rescission of these funds? Provide for 
the record the individual sources which derive the $8.5 million.
    Answer. The proposed use of $8.5 million of unobligated prior year 
appropriations to offset the cost of the replacement of 128 homes at 
the Lemoore Naval Air Station allows the Navy to construct more homes 
there than would otherwise be possible in Fiscal Year 1998. The Navy's 
budget proposal maximizes the use of general savings available from 
prior year appropriations to minimize the need for Fiscal Year 1998 
appropriations.
    If a general rescission is the preferred means of addressing the 
$8.5 million of general savings, the Lemoore project must be fully 
appropriated at a cost of $23,226,000. The general rescission should be 
applied to Fiscal Years 1996 and 1997 as follows: fiscal year 1996, 
$5,000,000; and Fiscal year 1997, $3,463,000. This would also eliminate 
the requirements for reprogramming and cost variation that would be 
inherent with the lower appropriation.
    At the time that the budget was submitted to Congress, it was 
unclear whether or not a general rescission could be applied without 
the identification of specific projects as the source of funds. As a 
result, the Navy did not request a tratiional rescission of funds, 
because the funds to be used to offset the cost of the Lemoore project 
cannot be attributed to specific Fiscal Year 1994-1997 projects.
    Specifically, $5.3 million of the total $8.5 million are derived 
from general savings that are currently available to the Navy as a 
result of a unique series of circumstances, dating back to Fiscal Year 
1989:
    In Fiscal years 1989 and 1991, two large housing projects were 
authorized and appropriated for the Long Beach Naval Station:
    Fiscal year 1989, construct 300 units--$26.1 million.
    Fiscal year 1991, construct 300 units--$25.0 million.
    During the latter part of Fiscal Year 1991, both projects were 
canceled as a result of a 1991 Base Realignment and Closure action.
    Rather than rescind the funds for these two projects, Congress 
directed that the funds be used to construct needed housing at both 
Alameda and San Diego. 344 units of housing at Alameda had been 
authorized and appropriated in Fiscal Year 1990 at a cost of $28.4 
million. Soon thereafter, funds for this project were reprogrammed to 
repair and replace property damaged by Hurricane Hugo. In their 
Conference report accompanying the Military Construction Authorization 
Act for Fiscal year 1992, the House and Senate Armed Services 
Committees directed that $34.0 million (of the $51.1 million available) 
from the two Long Beach projects be used to construct the 344 units at 
Alameda. The remaining $17.1 million was to be used to construct 148 
units at San Diego.
    In the latter part of 1993, this time as a result of 1993 Base 
Realignment and Closure action, the Alameda project was canceled. The 
$25.0 million that had originally been appropriated for the Fiscal year 
1991 project at the Long Beach Naval Station was subsequently rescinded 
by the House and Senate Appropriations Committees via the Military 
Construction Appropriations Act for Fiscal Year 1994.
    $17.1 million of the original Fiscal Year 1989 Long Beach 
appropriation was used to construct the 148 units at San Diego. The 
contract was awarded in April 1993 and completed in May 1995.
    Rather than let the $9.0 million balance expire at the end of 
Fiscal Year 1993, the Navy utilized split-funding authority to apply 
these funds toward the execution of several Fiscal Year 1992 and 1993 
projects--resulting in general savings in each of these two fiscal 
years. In similar fashion, these savings were applied toward the 
execution of several subsequent-year projects. In addition, a portion 
of these savings ($3.6 million) was used as a source of funds for the 
recent reprogramming to complete the construction of 300 units in San 
Diego. The remaining balance of $5.4 million is available as general 
savings in Fiscal Year 1996 and 1997.
    An additional $3.2 million of general savings is available in 
Fiscal Years 1996 and 1997 as a result of savings on a number of other 
Fiscal year 1993 and prior projects. Likewise, these savings were also 
applied to subsequent-year projects--resulting in the availability of 
additional general savings in Fiscal Years 1996 and 1997.
            Third Party Contracting for Child Care Services
    Question. How will the Service Contract Act impact this outsourcing 
option?
    Answer. We are presently working with the Office of General Counsel 
to resolve the question of the application of the SCA to the family 
child care (FCC) providers. Currently, FCC providers are not government 
employees. The Department of the Navy manages the FCC program, which 
includes the recruitment, certification, training, and inspection of 
FCC providers and homes. And, in some locations DON provides a payment 
to the provider to subsidize the amount paid by the parent. The Office 
of General Counsel is reviewing the overall concept to determine the 
appropriate contracting mechanism, and the potential application of the 
SCA to the FCC program.
                         Child Care Facilities
    Question. Does the Navy meet the Department of the Defense goal of 
providing for 65 percent of the child care requirement?
    Answer. The Navy currently meets 47% of the child care requirement. 
Funding has been programmed to meet the 65% goal by FY 2003.
    Question. What is the current plan for reducing and eliminating 
current deficiencies?
    Answer. The Navy plans to increase capacity through the following 
alternatives.
    (1) Selected programmed MILCON centers through FY03. In addition 
increased O&MN finding is identified in the FYDP to operate these new 
centers once completed, and to also fund current centers so they can 
operate at maximum capacity.
    2. Use of off-base civilian child development centers:
    a. Contract with civilian centers in fleet concentration areas to 
``buy down'' rates: Contracts have been awarded in Norfolk and 
Jacksonville, and will soon be awarded in San Diego, Seattle and Pearl 
Harbor, to ``buy down'' rates in civilian accredited child development 
centers. The Service member will pay the same rate as they would pay at 
an on-base child development center, and the government would pay the 
contractor the difference. Criteria for civilian centers to participate 
in this program is accredition by the National Academy of Early 
Childhood Programs, a division of the National Association for the 
Education of Young Children (NAEYC).
    b. Resource and Referral: Navy has hired resource and referral 
personnel to assist parents in obtaining care in off-base, state 
licensed centers. Parents will pay the civilian center rate (i.e., 
subsidy will be received from the Navy). However, spaces will be 
counted toward meeting the 65% goal if the center is accredited and the 
parent cost is no more than 120% of the cost they would pay at the on-
base center.
    (3) Expand Family Child Care to authorize military spouses living 
off-base to be certified Navy in-home care providers, creating a large 
pool of providers in more locations surrounding the military 
installations.
    (4) Simultaneously, the Department of the Navy is conducting an A-
76 Commercial Activities Study in the San Diego area, to write a 
performance work statement, develop the government's most efficient 
organization on a regional basis, and determine if the private sector 
can effectively compete and meet the potential need by 2003, at equal 
or better quality and availability, for equal or less cost to the 
government. The test includes use of qualifying on and off-base child 
development centers and in-home care.
    Question. Provide a listing, in priority order, of the location and 
estimated cost of all child care development center construction 
necessary to eliminate this backlog?
    Answer. The following is a prioritized list of child care 
development center construction that has been validated by the Navy's 
planning system:

NAS Key West FL...............................................     4,130
MCAS Cherry Point, NC.........................................     4,890
NH Portsmouth, VA.............................................     2,300
NAVICP Philadelphia, PA.......................................     1,550
NAS Keflavik IC...............................................     4,466
NAVICP Mechanicsburg, PA......................................     1,600
NSB New London, CT............................................     3,300
Norfolk NSY Portsmouth, VA....................................     4,700
MCB Camp Pendleton, CA........................................     2,600
NAS Lemoore, CA...............................................     2,400
MCB Camp Lejeune, NC..........................................     3,500
NAS North Island, CA..........................................     6,400
NSB Pearl Harbor, HI..........................................     1,900
NAVPHIBASE Coronado, CA.......................................     2,800
NAS Oceana, VA................................................     1,550
NSWCCSTSYS Panama City, FL....................................     1,060
NAS Jacksonville, FL..........................................     1,300
NS Pearl Harbor, HI...........................................     2,700
NSWC Dahlgren, VA.............................................     3,200
NWS Earle, NJ.................................................     1,240
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................    53,456
                        Environmental Compliance
    Question. What is the total amount requested to meet environmental 
needs?
    Answer. A total of $37,340,000 is requested for Fiscal Year 1998 
for construction to meet environmental requirements and $47,997,000 is 
requested for Fiscal Year 1999, for a two year total of $85,337,000.
    Question. For the record, provide a listing of the individual 
projects and associated costs?
    Answer.

----------------------------------------------------------------------------------------------------------------
                                                                                                   Project cost 
               PNO                       Activity                ST              Description          ($000)    
----------------------------------------------------------------------------------------------------------------
                                                FISCAL YEAR 1998                                                
                                                                                                                
375..............................  Portsmouth Norfolk   VA.................  Oily waste collect            9,500
                                    NSY.                                      system.                           
053..............................  Camp Pendleton MCAS  CA.................  Emergency spill               2,840
                                                                              control.                          
400..............................  Pearl Harbor NS....  HI.................  Oily waste coll              25,000
                                                                              trtmnt sys.                       
                                                                                                 ---------------
      1998 Total.................  ...................  ...................  ...................          37,340
                                                                                                                
                                                FISCAL YEAR 1999                                                
                                                                                                                
406..............................  Newport NETC.......  RI.................  Boiler plant                  8,700
                                                                              modifications.                    
497..............................  Pearl Harbor PWC...  HI.................  Sewer outfall                23,947
                                                                              extension.                        
149..............................  Indian Head NSWC...  MD.................  Annealing oven                8,200
                                                                              facility.                         
410..............................  Pearl Harbor PWC...  HI.................  Steam condensate              6,200
                                                                              return SY.                        
420..............................  Guam Navacts.......  ...................  Bilge oily                      950
                                                                              wastetrmnt fac.                   
----------------------------------                                                               ---------------
      1999 Total.................  ...................  ...................  ...................          47,997
                                                                                                 ===============
      Grand Total................  ...................  ...................  ...................          85,337
----------------------------------------------------------------------------------------------------------------

                Elimination of Explosive Safety Waivers

    Question. Please provide for the record a list of projects 
programmed in Fiscal Year 1998 that are part of the Navy 
Investment Strategy to eliminate explosive safety waivers as 
directed by the Department of Defense.
    Answer.

----------------------------------------------------------------------------------------------------------------
                                                                                                   Project cost 
               PNO                       Activity                ST              Description          ($000)    
----------------------------------------------------------------------------------------------------------------
708..............................  Yorktown NWS.......  VA.................  Gymnasium..........           5,400
186..............................  Jacksonville NAS...  FL.................  Ordance loading               1,330
                                                                              apron.                            
202..............................  El Centro NAF......  CA.................  Ordance facilities.          11,000
                                                                                                 ---------------
1998 Total.......................  ...................  ...................  ...................          17,730
----------------------------------------------------------------------------------------------------------------

    The Marine Corps does not have any projects programmed in 
Fiscal Year 1998 that are part of the Navy Investment Strategy 
to eliminate explosive safety waivers.
    Question. Does the Fiscal Year 1998 budget request satisfy 
or buy-out the Navy Investment Strategy requirement to 
eliminate explosive safety waivers? If not, what is the future 
requirement by fiscal year and location?
    Answer. The Marine Corps FY 1998 budget request does not 
satisfy or buy-out the remaining explosive safety waivers 
requiring elimination. The following table contains the Marine 
Corps explosive safety waiver locations and the projected 
fiscal year that the requirement will be satisfied:

------------------------------------------------------------------------
           Location                Reason for waiver      Program year  
------------------------------------------------------------------------
MCAS Cherry Point, North        Permits storage of      Unprogrammed.   
 Carolina.                       ordnance within the                    
                                 Airfield Explosives                    
                                 Prohibited Zone for                    
                                 runways 14/32.                         
MCAS Yuma, Arizona............  Permits storage of      FY 2000.        
                                 ordnance in magazines                  
                                 that generate                          
                                 Explosive Safety                       
                                 Quantity Distance                      
                                 (ESQD) Arcs that                       
                                 extend beyond the Air                  
                                 Station's boundary.                    
                                 The land encumbered                    
                                 is agricultural and                    
                                 leased by the Air                      
                                 Station..                              
MCAS Yuma, Arizona............  Permits loading of      FY 2002.        
                                 explosives on combat                   
                                 aircraft in the                        
                                 flight line areas                      
                                 without the Inhabited                  
                                 Building Distance                      
                                 requirement being                      
                                 meet..                                 
MCB Camp Pendleton, California  Permits use of the      Unprogrammed.   
                                 Horno Canyon                           
                                 Helicopter Landing                     
                                 Zone with ordnance                     
                                 that generates an                      
                                 ESQD Arc of 1,250                      
                                 feet..                                 
------------------------------------------------------------------------

                           Barracks Standard
    Question. Please comment on how the Navy and Marine Corps have 
incorporated the DoD ``1+1'' barracks standard in this year's budget 
request.
    Answer. The Navy is committed to achieving the 1+1 standard for our 
permanent party Sailors by 2013. While programming projects to meet 
this goal, the Navy must also provide for the need of Sailors attending 
schools and transients in remote/isolated locations. In our 1998 
request, the Navy has programmed seven projects. Four of the projects 
are for permanent party personnel, two are for students and the seventh 
is for transients in Bahrain.
    The Marine Corps has received a waiver to the DoD ``1+1'' standard 
for its FY 1998 barracks projects and is currently building 2+0 room 
configured barracks. We feel this is the best balance between 
maintaining operational readiness and enhancing the quality of life 
(QOL) of our enlisted Marines in the shortest amount of time. The 
Marine Corps FY 1998 request includes three CONUS projects built to the 
2+0 alternative for permanent party personnel that will deliver a total 
of 767 spaces.
    Question. Have the Navy and Marine Corps budgeted for a balanced 
program, one which provides improved troop housing yet still meets the 
growing infrastructure improvement needs?
    Answer. Yes $273.8 million or 39% of the DON construction program 
is for bachelor quarters. This commitment to funding extends to FY 1999 
and beyond.
    Question. Have the Navy and Marine Corps developed a plan to use 
privatization in meeting the ``1+1'' standard? If a plan has been 
developed, how is the effort working?
    Answer. The DON is in the early stages of developing Bachelor 
Housing privatization projects. It has not moved beyond the conceptual 
phase.
                      Barracks Planning and Design
    Question. As a result of the DoD--wide barracks standard, have the 
Navy and Marine Corps reduced the amount of planning and design 
required for these projects, through the use of standardized design?
    Answer. Yes, the amount requested in the FY 1998 Department of the 
Navy budget submittal for planning and design was reduced in regards to 
barracks projects. The adjustment was made for two reasons--to account 
for savings that are being realized in using a standardized module 
design approach, and in recognition of the proportion of the FY 1998 
and FY 1999 MCON programs these barracks projects represent.
    Question. Have the Navy and Marine Corps developed a single 
standard design for barracks, or a very limited number of standard 
designs?
    Answer. The Department of the Navy's policy is to use design 
standardization to the maximum extent practicable, consistent with user 
requirements. Three standard modular layouts for 1+1 BEQ rooms have 
been developed for garden-style, motel-style, and hotel-style barracks. 
These layouts have been incorporated into our design manual for 
bachelor quarters (MIL-HDBK-1036) and serve as the basic building 
blocks from which the final 1+1 BEQ designs are developed. This is the 
same methodology that was previously used for the design of our 2+2 
barracks. It results in a significant decrease in the actual design 
cost when compared with unique, one-of-a-kind designs.
    Our experience has shown that site adaptable designs work best 
where there is no allowable flexibility in functional layout nor 
structure, e.g., ordnance magazines; or where there are little or no 
problems fitting a facility onto a site, e.g., family housing. In the 
case of barracks, the functional layout for a single 1+1 module is 
easily pre-designed, but the final design of the overall facility is 
influenced by the number of modules to be constructed, the 
characteristics of the site, and the specific geographic and 
climatologic requirements. For example:
    Large, unrestricted sites allow the construction of garden-style 
apartments using standard residential construction methodology.
    Smaller more constricted sites require either motel or hotel-style 
designs and depending on the number of stories, will require vastly 
different structural and mechanical systems.
    In each case, the design of the structural and mechanical systems 
is dependent on site-specific geographic and climatic factors.
    Where possible, existing designs are site adapted to construct 
follow-on projects at a single installation, or similar projects at a 
nearby installation as conditions allow.
    Question. How do the Navy and Marine Corps evaluate whether the 
architectural plan or appearance of an area or installation is 
important enough to warrant significant additional design costs, rather 
than requiring a standard design?
    Answer. All of our projects are reviewed for compliance with the 
Base Exterior Architectural Plan (BEAP). Each installation develops a 
BEAP to ensure that architectural elements on an installation complex 
are coordinated and compatible with local community characteristics. At 
those bases where a historic or significant structure exists, the 
projects are required to comply with the BEAP and often are reviewed by 
state historic preservation officials. We comply with the BEAP and 
spend the appropriate amount of design necessary to achieve the purpose 
of the project and the BEAP.
                            Barracks Backlog
    Question. What is the current troop housing deficit for the Navy 
and Marine Corps?
    Answer. The DoN strategy for erasing the troop housing deficit 
includes the elimination of all barracks spaces which are deemed 
inadequate by DoD standards. Currently, we have 11,600 of these spaces 
in the Navy's inventory and 10,000 in the Marine Corps'.
    The Navy estimates that it will require $2.3 billion over the next 
sixteen years to construct the 38,500 spaces necessary to satisfy its 
1+1 barracks requirement. The Marine Corps cost is the same but the 
execution time-frame significantly longer. This is due to their 
strategy to first build enough 2+0 barracks spaces to erase their 
existing inventory inadequate spaces. The 1+1 construction that follows 
is estimated to cost $1.9 billion over seventy-three years to construct 
35,500 spaces. FYDP funding required to work towards the 1+1 barracks 
standard goal is $0.7 billion for the Navy and $0.3 billion for the 
Marine Corps (cost of eliminating inadequate spaces using 2+0 
configuration).
                       Barracks Program Execution
    Question. Have you run into difficulties in executing the Fiscal 
Year 1997 barracks program?
    Answer. The Department of the Navy barracks construction program is 
about $260 million in Fiscal Year 1997. Through March 1997 we have 
executed $80 million, or 30%, of the program. We are not having 
difficulty in executing this program in Fiscal Year 1997, and expect to 
execute the entire 1997 barracks program in Fiscal Year 1997.
    Question. Are there practical limits to the number of barracks 
projects that can be executed in a given year, and if so, what is the 
level of those annual limits?
    Answer. There are no set limits to the number of new construction 
barracks projects that can be executed in a given year. Given adequate 
time to perform the necessary planning required prior to commencement 
of design, and sufficient funding for the preparation of the design 
documents, there are a number of acquisition tools that would allow us 
to execute a substantial barracks program.
    The one limitation would be in the case of renovation projects. In 
this instance since military members are displaced during the period of 
renovation, it would not be prudent to renovate all barracks at one 
installation in a single year.
    Question. Is it the Navy's intention to execute the 1997 and 1998 
barracks projects as conventional military construction items, or to 
exercise new authorities?
    Answer. At this point in time, the Department of the Navy intends 
to execute the 1997 and 1998 barracks projects as conventional military 
construction items. The program criteria for the use of new authorities 
is still under development in OSD. We are in the earliest phase of 
considering notional candidate locations.
                                Barracks
    Question. How much of your current barracks inventory is deemed 
inadequate to permit permanent party assignment?
    Answer. The navy and Marine Corps currently have 11,600 and 10,000 
spaces respectively which are inadequate for permanent party 
assignment.
    Question. How much of your off-base bachelor housing is deemed 
unacceptable?
    Answer. Currently, we do not have an acceptable measure for 
tracking the suitability of off-base housing for our single Sailors and 
Marines. However, past surveys have shown a strong desire amongst this 
constituency to continue living off-base provided housing allowances 
are sufficient to help them afford adequate housing in the private 
community.
    Question. How do you define ``inadequate'' or ``unsuitable'' or 
``unacceptable,'' both for on-base unaccompanied enlisted housing and 
for off-base bachelor housing?
    Answer. The Navy typically does not use terms such as 
``unsuitable'' or ``unacceptable'' to define the quality/condition of 
our BQs. The Navy classifies on-base housing as follows:
    Adequate: Meets or exceeds minimum size standards of adequacy in 
DoD 4165.63M and the condition of all building systems is acceptable 
such that necessary repairs can be made within the commanding officer's 
authority.
    Substandard: Fails to meet either the minimum size standards of 
adequacy in DoD 4165.63M or the condition of one or more building 
systems is below acceptable engineering standards, but the problems can 
be economically repaired to make the building adequate (e.g., repair 
costs less than 70 percent of the facility replacement value).
    Inadequate: Does not meet minimum standards of adequacy in DoD 
4165.63M and cannot be economically repaired, e.g., repair costs 70 
percent or more of the facility replacement value and thus must be 
replaced.
    The suitability of bachelor housing off-base is not usually 
assessed except with regards to affordability, basic environmental 
livability factors (running water) and proximity to work place (less 
than 60 minute drive in rush hour).
                           Dormitories--Navy
    Question. What is the long-range plan of the Navy to meet the 
``1+1'' barracks standard and how long and at what cost will it take to 
accomplish your goal?
    Answer. The Navy's plan to reach the DoD mandated 1+1 standard is 
estimated to cost $2.0B over eighteen years (completed by FY 2013) and 
will include the upgrade of all substandard assets, the replacement of 
all inadequate quarters, and the replacement of lost capacity due to 
the new 1+1 standard.
    To assist in meeting the goals of the new standard, the Navy is 
reviewing their assignment policies to get in line with the Air Force; 
and, in CONUS, to normally house only E-4 and below permanent party 
personnel. Adjusting the assignment policy will reduce the cost of 
implementing the new DoD standard yet will continue to provide bachelor 
housing to the groups that needs it the most (i.e., the E-1 to E-4 
junior enlisted sailors). Generally, E-5 and above personnel in CONUS 
will live off base and receive a housing allowance.
    The Marine Corps intends to continue requesting waivers to 
construct 2+0 configured barracks until all inadequate spaces are 
eliminated in FY 2005. After all enlisted Marines are adequately 
housed, the Marine Corps will begin implementation of the 1+1 standard. 
This transition is estimated to be complete by FY 2078. The Marine 
Corps estimates it will cost $360 million to eliminate inadequate 
barracks spaces using 2+0 configured modules. This phase of the 1+1 
transition accounts for about sixteen percent of the estimated total 
cost of $2.3 billion.
    Question. Is it correct the Navy does not include shipboard Sailors 
in analyzing your barracks requirement?
    Answer. Essentially, yes. The vast majority of our shipboard 
Sailors are assigned to ``large'' ships (i.e., in excess of 1,000 
tons), and are not included in the final determination of bachelor 
housing requirements. Shipboard Sailors assigned to ``small'' ships 
(i.e., those less than 1,000 tons) are included in the final 
determination of the requirement.
    Question. Why is this and do you foresee any change in this policy?
    Answer. Historically, Sailors assigned to ``large'' ships (i.e., 
those in excess of 1,000 tons) have been berthed aboard ship, both 
while underway and while in port. The Navy has considered these ships 
to provide ``adequate'' quarters for the Sailors assigned aboard. There 
are currently 175,000 Sailors without dependents serving on sea duty. 
The majority are assigned aboard large ships. At this point, we foresee 
no change to this policy.
    Under current law (Title 37, United States code, Section 403--Basic 
Allowance for Quarters), Sailors without dependents who are on sea duty 
and are above the grade of E-5 are entitled to a basic allowance for 
quarters. Effective 1 July 1997, the Secretary of the Navy can 
authorize the payment of a basic allowance for quarters for Sailors 
without dependents who are on sea duty and serving in pay grade E-5.
                       Dormitories--Marine Corps
    Question. Will the Marine Corps continue to seek waivers to the 
policy of ``1+1'' barracks standard? If so, why?
    Answer. Yes. The Marine Corps intends to continue requesting 
waivers to construct two-person configured bachelor quarter rooms until 
all of its inadequate spaces are eliminated in 2005. The two-person 
configurations are less expensive than the 1+1 allowing the Marines to 
move Service members out of inadequate spaces sooner than would 
otherwise be possible.
    Question. Does the Marine Corps intend to develop a modified 
barracks standard? If so, briefly describe the modified standard?
    Answer. The Marine Corps has developed a standardized design for 
the 2+0 room configuration. This provides a total of 180 net square 
feet living/sleeping area with a private bath area and two bulk 
storage/closets. It can be utilized by two E1-E3's or one E4-E5. This 
has been coordinated with the Navy and inserted into the revised 
Military Handbook 1036: ``Bachelor Quarters Design Manual.''
                   Real Property Maintenance Account
    Question. What amount did the Navy receive for barracks renovation 
under the Real Property Maintenance Account in the National Security 
Appropriations Bill last year? Provide for the record a list of 
projects that will be funded by this initiative and the status of each 
project.
    Answer. The FY 1997 Defense Appropriations Bill included $174 
million for Bachelor Quarters maintenance. Real Property Maintenance 
funding is used for recurring maintenance, minor repairs, minor 
construction and major repairs. Of the $174 million appropriated, 
approximately $130 million will be for major repairs. This funding is 
provided to major claimants and activities for execution. Individual 
project selection is based on local priorities and executability and 
are not corporately maintained.
    The FY 1997 Defense Appropriations Bill included a funding increase 
for Quality of Life Enhancements, Defense. This funding was provided 
for Real Property Maintenance for facilities which contribute to 
improving quality of life, including barracks. The Navy has allocated 
an additional $51 million of this funding specifically for barracks. A 
full DoD report on the planned obligation of this funding is currently 
being prepared and will be forwarded in June 1997 as required in the 
House Defense Appropriation Report 104-67.
    The status of the Marine Corps's allocation of FY 1997 Quality Of 
Life, Defense funds is as follows:

----------------------------------------------------------------------------------------------------------------
                                                                             Dollars                            
                Activity                           Project Title           (thousands)     Est Obligation Date  
----------------------------------------------------------------------------------------------------------------
MCAS Yuma AZ............................  Rpr Struc, Mech, Plumbing, Bldg        1,073  Aug-97                  
                                           661.                                                                 
MCAS Yuma AZ............................  Whole Room Concept.............          384  Aug-97                  
MCB Camp Pendleton, CA..................  Improve Classrooms, Bldg 62302.          194  Jun-97                  
MCB Camp Pendleton, CA..................  Rpr Roof & Heating Sys, 3006-            684  Jul-97                  
                                           MWTC.                                                                
MCB Camp Pendleton, CA..................  Repair BEQs 43258, 43269.......        6,506  Oct-97                  
MCRD San Diego, CA......................  Rpr Doors/Frames, H-Style BEQs.          763  Nov-97                  
MCB Camp Pendleton, CA..................  Improve Bldgs 4136 and 4138....          480  Sep-97                  
MCAGCC Twentynine Palms, CA.............  Seismic Rprs To 9 Bldgs........        1,890  Jul-97                  
MCB Camp Pendleton, CA..................  Rpr Bldgs 41344, 41346, 41348..        4,018  Sep-97                  
MCB Camp Pendleton, CA..................  Repair Roof Bldg 24100-Redesign        1,650  Jul-97                  
MCB Camp Pendleton, CA..................  Repair 3 BEQs 1396, 1397, 1398.        8,782  Sep-97                  
MCAGCC Twentynine Palms, CA.............  Seismic Repairs 2 Bldg.........          492  Dec-97                  
MCB Camp Pendleton, CA..................  Rpr Roof, Heating, 2002/5006-            684  Jul-97                  
                                           MWTC.                                                                
MCAGCC Twentynine Palms, CA.............  Renovate Bldg 1613.............          242  Dec-97                  
MCB Camp Pendleton, CA..................  Repair Classrooms, Bldg 62302..        2,159  Jul-97                  
MCAGCC Twentynine Palms, CA.............  Seismic Repairs 1621/22/1555...          891  Jul-97                  
MCLB Barstow, CA........................  Maint BOQ Q11, Garages 140/141.          422  Jul-97                  
MCLB Albany, GA.........................  Renovate Odd Numbered Barracks.          750  May-97                  
MCAS Kaneohe, HI........................  Roof Repair, Bldg 301; Mag24 HQ          720  Jun-97                  
MCAS Kaneohe, HI........................  Repair BEQ Air Conditioning              888  Aug-97                  
                                           #1654.                                                               
MCAS Kaneohe, HI........................  Repair BEQ Air Conditioning              888  Jan-98                  
                                           #1633.                                                               
MCAS Kaneohe, HI........................  Repair Beq Air Conditioning....          888  Jan-98                  
MCAS Cherry Pt, NC......................  Repairs To BOQ 497.............          798  Oct-97                  
MCAS New River, NC......................  Replace Hvac Complete,.........        1,482  Oct-96                  
MCAS Cherry Pt, NC......................  Repairs To BOQ 496.............          798  Oct-96                  
MCB Camp Lejeune, NC....................  Replace Hvac Systems Hp-115,             678  Dec-97                  
                                           BEQ.                                                                 
MCB Camp Lejeune, NC....................  Replace Built Up Roofs, Bldgs            636  Oct-96                  
                                           Bb250, Bb255.                                                        
MCB Camp Lejeune, NC....................  Replace Hvac Systems Hp125               670  Dec-97                  
                                           Barracks.                                                            
MCAS New River, NC......................  Replace Hvac Complete, As4025..        1,424  Oct-96                  
MCAS Beaufort, SC.......................  Structural Repairs To Chapel...          433  Nov-97                  
MCCDC Quantico, VA......................  Renovate Harry Lee Hall, Bldg            265  Sep-97                  
                                           17, Improvements.                                                    
MCCDC Quantico, VA......................  Renovate Harry Lee Hall, Bldg          2,466  Sep-97                  
                                           17--Repairs.                                                         
----------------------------------------------------------------------------------------------------------------

                     Naples Support Complex, Italy

    Question. What is the current status of the Naples Support Site 
Initiative?
    Answer. The Naples Support Site consists of four Increments. The 
status is as follows:
    The first increment includes the master planning for the entire 
support site, the construction and leasing of an elementary and high 
school, 500 family housing units with options for the Navy to add up to 
an addition 500 family housing units, and related infrastructure. The 
provision of land required for the entire Support Site is also included 
in the first increment. Leases for the first increment were signed in 
December 1995. Construction on the housing, schools and related 
infrastructure is progressing well and is approximately 30% complete 
overall as of the end of February 1997. The recent furnishing of a 
model housing unit was a major milestone. The first 36 family housing 
units are expected to be ready for occupancy at the end of April 1997, 
a delay of one month from the original schedule. The elementary school 
and the high school are expected to be complete in August 1997 and 
September 1997, respectively. The high school cafeteria and gym are 
expected to be complete in October 1997.
    The second increment consists of 11 community support buildings 
including child care, fire station, and the Village Forum (quick stop 
retail services such as convenience store, video rental, laundry, 
restaurant, chapel, library, and transient quarters) and site 
infrastructure for all remaining increments. The lease was awarded for 
this increment on 7 March 1997. Phased occupancy of these facilities is 
expected from July 1998 to March 1999.
    The third increment is a three-story medical/dental facility 
consisting of approximately 160,000 gross square feet, a separate 
central energy plant of approximately 10,000 gross square feet and a 
paved parking area. The medical/dental facility will contain offices, 
examining rooms, 30 patient beds, a cafeteria and other features 
itemized in the design specifications provided in the Request for 
Proposals (RFP). The RFP is scheduled for release by the end of April 
1997 with lease award planned for November 1997. The RFP will request 
proposals under the existing five-year lease authority and for 
increments up to 20 years. The latter is subject to congressional 
approval of proposed special legislation for up to 20-year lease 
authority as part of the FY 1998 Defense Authorization Bill.
    The fourth increment includes recreation and main retail buildings 
such as a fitness center, bachelor lodge and the exchange/commissary 
building. The RFP is scheduled for release in August 1997 with lease 
award planned for April 1998.
                       Fiscal Year  1998 Request
    Question. Provide a listing of all planned Fiscal Year 1998 
projects which were submitted to Congress in March 1996 which are not 
included in the February 1997 submittal.
    Answer. A list of projects is attached.

----------------------------------------------------------------------------------------------------------------
               State                      Activity              PNO                Title          Curr FYDP year
----------------------------------------------------------------------------------------------------------------
CA................................  Lemoore CA NAS......  105B             Weapons handling      1999           
                                                                            area impvs.                         
CA................................  Point Mugu CA NAWC..  031              Range operations      UF             
                                                                            center.                             
FL................................  Key West FL NAS.....  604              CDC.................  1999           
HI................................  Kunia HI NSGA.......  001              BEQ (PH 1)..........  1999           
WA................................  Everett WA NAVSTA...  045              SIMA................   2000          
----------------------------------------------------------------------------------------------------------------

                           Age of Facilities
    Question. What are the average ages of Navy and Marine Corps 
facilities?
    Answer. Based on a weighted average of the plant value, the average 
age of the Navy's physical plant is 46 years. The average age of Marine 
Corps facilities is 36 years.
                        Plant Replacement Value
    Question. What is the current replacement value of the Navy and 
Marine Corps' physical plant?
    Answer. The current Plant Replacement Value (PRV) is $142 billion 
for the Navy and $30 billion for Marine Corps.
                                Backlog
    Question. What are the Navy and Marine Corps' construction backlogs 
and how many years would it take to eliminate the backlog at current 
funding levels?
    Answer. The construction backlog for Navy is $8.6 billion. The 
Marine Corps construction backlog is $2.5 billion. If the Department of 
the Navy average annual MCON funding level of $650 million was devoted 
entirely to projects in this backlog, the backlog would be eliminated 
in about 17 years.
                          Planning and Design
    Question. Do the Navy and Marine Corps have sufficient planning and 
design funds to execute the entire Fiscal Year 1999 program?
    Answer. Yes, the FY 1998 planning and design (P&D) appropriation 
request if approved in full will provide sufficient funds to complete 
the designs for all presently anticipated FY 1999 Navy and Marine Corps 
projects. The amount requested, however, is the bare minimum and does 
not provide for any contingency, such as unforeseen additional FY 1998 
design requirements.
                           Minor Construction
    Question. Provide for the record all minor construction projects 
funded in Fiscal Years 1995 and 1996 and the current status of Fiscal 
Year 1997 appropriation.
    Answer. The following are lists of the Unspecified Minor 
Construction (UMC) projects funded in FY 1995 and FY 1996:

------------------------------------------------------------------------
                     Navy/MARCORP                               Amount  
    UMC PNO            activity         Project description     ($000)  
------------------------------------------------------------------------
                              FY95 PROJECTS                             
                                                                        
P601             (Classfied Site)....  Equipment Storage...        1,500
P632             NTC Great Lakes.....  Recruit Confidence            370
                                        Course.                         
P245             NAWS Point Mugu.....  Seawall Extension...          470
P517             NS Roosevelt Roads..  Cold Storage........          675
P065             ASO Philadelphia....  Fire Protection             1,400
                                        Pipeline.                       
P900             NAS Cecil Field.....  Land Acquisition....          450
P100             NAS II Sigonella....  Water Treatment             1,300
                                        Plant.                          
P101             NAS I Sigonella.....  Water Storage Tank..          860
                                                                        
                              FY96 PROJECTS                             
                                                                        
P729             MCB Hawaii..........  Flight Simulator            1,500
                                        Training Facility.              
P157             NSB Pearl Harbor....  MK48 ADCAP IMA              1,500
                                        Expansion.                      
P288             NSWC Crane..........  Battery Evaluation            360
                                        Facility.                       
P315             NUWC Keyport........  Sanitary Wastewater           700
                                        System.                         
P200             FLTACTS Yokosuka....  Interim CV Berth            1,500
                                        Dredging.                       
P040             NSA Souda Bay.......  Aircraft Operations         1,320
                                        Building.                       
P365             NDW Washington......  Acquisition Center          1,140
                                        of Excellence.                  
P571             NSB Kings Bay.......  Dredging (Site VI           1,050
                                        Layberty).                      
P140             NSA Souda Bay.......  Marine General              1,200
                                        Purpose Facility.               
P570             PWC Great Lakes.....  Sewage Treatment              620
                                        Plant.                          
------------------------------------------------------------------------

    The current status of the FY 1997 appropriation is as follows: four 
projects are programmed for execution this fiscal year. Currently one 
project is awarded, two others are planned for award by May 1997, and 
the subsequent award of the fourth project will then completely utilize 
the FY 1997 UMC appropriation.
    Question. What shortfalls have you found in this account in the 
last two years?
    Answer. There was a shortfall in FY 1995 and FY 1996 funds, and a 
reprogramming for an additional $2.85 million was requested and 
approved. This reprogramming provided the funding for the award of 
three additional projects in FY 1996 to meet urgent MCON requirements.
    We are currently evaluating the need to submit a reprogramming for 
FY 1997 UMC funding. As we begin to get the first project requests 
utilizing the FY 1996 legislative authority which allows for UMC 
projects which are ``to correct a life-, health-, or safety-threatening 
deficiency'' to be up to $3 million the pressure to restore funding 
levels in this account to the historical annual level of $14 million 
will increase.

                           Conversion Tables

    Question. Submit for the record tables for the conversion from 
English measurements to metric, and from metric to English.
    Answer. Tables are attached.

[Pages 581 - 582--The official Committee record contains additional material here.]


                      Projects No Longer Required

    Question. Please provide for the record a list of any 
projects, either in the Fiscal Year 1997 appropriation or in 
the prior years' unobligated balances, that are no longer 
required due to forced structure changes, base realignment and 
closure, mission changes, bilateral and multilateral 
agreements, or other reasons. Please include on the list 
military construction projects, family housing construction and 
construction improvement projects, and projects financed under 
the base realignment and closure accounts.
    Answer. The Department of the Navy has only one project 
that is not required and which has not already been canceled, 
rescinded, cited as source of reprogramming; or had its 
authorization terminated.
    The following project is no longer required:
    Military Construction: P-312, MCSFB Norfolk, VA. Bachelor 
Enlisted Quarters, $6,800,000.
    Family Housing Construction: None.
    Family Housing Improvements: None.
    Base Realignment and Closure: None.

                             Reprogrammings

    Question. Submit for the record a table which will show, by fiscal 
year, the total amounts Congress has approved for reprogramming actions 
in the ``Military Construction, Navy'' and ``Family Housing, Navy'' 
accounts over the last five years.
    Answer.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                           1992             1993             1994             1995             1996     
                                                                    ------------------------------------------------------------------------------------
                                                                       No.              No.              No.              No.              No.          
                                                                      Proj     ($M)    Proj     ($M)    Proj     ($M)    Proj     ($M)    Proj     ($M) 
--------------------------------------------------------------------------------------------------------------------------------------------------------
MCON--Navy.........................................................       9    18.20       9    37.19       8    47.34       4    29.64       4    10.67
MCON--Marine Corps.................................................       4     8.85       2                3     0.47       0                1     1.00
MCNR...............................................................       0                0                3   10.075       1     3.55       0     0.00
Fam Housing........................................................       1     0.15       1     7.00       0                0     0.00       1    10.00
Other: (UMC, P&D, EC, DF, Access Roads, etc.)......................       3    20.32       2    25.29       3    29.55       1     8.90       4    16.55
--------------------------------------------------------------------------------------------------------------------------------------------------------

                               Inventory

    Question. How many family housing units do you have in the United 
States, and how many do you have overseas, excluding Sections 801 and 
802, and excluding leases?
    Answer. Inventory numbers as of 30 September 1996, excluding 
Sections 801 and 802 and excluding leases:

------------------------------------------------------------------------
                                      United                            
                                      States      Overseas      Total   
------------------------------------------------------------------------
Navy.............................       55,681       11,504       67,185
Marine Corps.....................       24,586          537       25,123
                                  --------------------------------------
    Total........................       80,267       12,041       92,308
------------------------------------------------------------------------

    Question. How many Section 801, Section 802, and leased units do 
you have in the United States, and how many do you have overseas?
    Answer. There are no Section 801 or Section 802 units at overseas 
locations.

----------------------------------------------------------------------------------------------------------------
                                                                      Section--                                 
                                                             --------------------------   Domestic     Foreign  
                                                                  801          802                              
----------------------------------------------------------------------------------------------------------------
Navy........................................................        2,414            0          693        1,592
Marine Corps................................................          600          276          125            0
                                                             ---------------------------------------------------
    Total...................................................        3.014          276          818        1,592
----------------------------------------------------------------------------------------------------------------

                        Age of Housing Inventory

    Question. What is the average age of the family housing inventory?
    Answer. The average age of the family housing inventory is 35 years 
for Navy and 32 years for Marine Corps.
    Question. What percentage of the family housing inventory is over 
30 years old?
    Answer. Approximately 57 percent of Navy's and 60 percent of the 
Marine Corps' family housing inventory is over 30 years old.
    Question. What percentage is over 40 years old?
    Answer. Approximately 26 percent of Navy's and 34 percent of the 
Marine Corps' family housing inventory is over 40 years old.

                            Housing Deficits

    Question. What is your current worldwide family housing deficit?
    Answer. The projected worldwide family housing deficit is 15,000 
homes for the Navy and 10,511 for the Marine Corps.
    Question. What are your three largest deficits, and how large are 
they?
    Answer. The three Navy locations with the largest deficits are San 
Diego, California, 4,000 homes; Corpus Christi, Texas, 1,000 homes; and 
Norfolk, Virginia, 950 homes. The three Marine Corps locations with the 
largest deficits are Camp Pendleton, California, 5,016 homes; Camp 
Lejeune, North Carolina, 3,581 homes; and Oahu, Hawaii, 470 homes.
    Question. What are your three most expensive deficit locations, 
based on the actual payments of housing allowances?
    Answer. Based on a comparison of Variable Housing Allowance rates 
at our most critical deficit locations, the three most expensive Navy 
deficit locations are Everett, Washington; San Diego, California; and 
Whidbey Island, Washington. The three most expensive Marine Corps 
deficit locations are Camp Pendleton, CA; Camp Lejeune, NC; and Oahu, 
HI.

                             Waiting Lists

    Question. How many families are on waiting lists for government-
provided family housing, and what is the average waiting time?
    Answer. As of 30 September 1996, there were 25,000 Navy families 
and 6,000 Marine Corps families on waiting lists for family housing. 
The average waiting times for assignment to family housing vary from a 
few months to several years depending on such factors as location, time 
of year, and other factors. The waiting list reflects the quality, 
cost, and availability of housing, commuting distances, surrounding 
support facilities, and availability of good schools. The Navy and 
Marine Corps have a disproportionately larger number of members living 
in high cost areas.

                            Off-Base Housing

    Question. How many families are living off-base?
    Answer. The Navy has 175,000 families and the Marine Corps has 
50,000 families living off-base in the community.
    Question. What is the criteria for suitable off-base housing?
    Answer. Off-base housing is considered suitable when it meets the 
following OSD criteria:
    Within 60 minute commute time from duty station during rush hour;
    Not located in a neighborhood designated by installation commander 
as ``not acceptable for health or safety reasons'' ;
    Cost does not exceed the maximum acceptable monthly housing cost, 
which is the total of BAQ plus Variable Housing Allowance (VHA) plus 
the maximum out-of-pocket cost (50 percent of BAQ). Total monthly costs 
include rent, utilities (except telephone and cable TW), and other 
items of operating expense that are compensable by the VHA and Overseas 
Housing Allowances;
    Has a minimum square footage of 550 feet for a three bedroom, 750 
feet for a two bedroom, 960 feet for a three bedroom, and 1,190 for 4 
or more bedrooms;
    Housing is well maintained, structurally sound and includes 
adequate heat/air conditioning, hot and cold water, sewer and 
electrical services, and laundry facilities.

                            ``Suitability''

    Question. How many families are unsuitably housed, and how is 
``unsuitable'' defined?
    Answer. Navy currently has 17,000 families and the Marine Corps has 
10,500 unsuitably housed in the private sector. OSD defines all 
military housing retained in the inventory as being suitable regardless 
of condition. However, the Navy has over 36,000 and the Marine Corps 
12,700 government-owned homes that require more than $15,000 per unit 
for repairs and improvements. These numbers exclude homes at BRAC 
locations that are eventually going to be disposed of.

                          Deferred Maintenance

    Question. What is the current annual funding requirement for family 
housing maintenance and repair?
    Answer. The Fiscal Year 1998 annual maintenance funding requirement 
as included in the President's Budget is approximately $400 million for 
Navy and $62 million for Marine Corps.
    Question. What is the current backlog of deferred maintenance?
    Answer. The major repair improvement backlog is $2.5 billion for 
Navy and $1.0 billion for Marine Corps.
    Question. How much maintenance and repair work can be performed 
during a single fiscal year, and what are the limiting factors?
    Answer. The Navy and Marine Corps can execute all maintenance and 
repair funds included in the Fiscal Year 1998 budget request. The 
limiting factors for performing additional work include the design 
status of the projects, the availability of additional design funds, 
the workload capacity of agencies performing the design, and most 
importantly, the availability of additional maintenance and repair 
funds that can be spent.

                       Construction Improvements

    Question. How much construction improvement work can be performed 
during a single fiscal year, and what are the limiting factors?
    Answer. The Navy and Marine Corps can execute all construction 
improvement funds included in the Fiscal Year 1998 budget request. The 
Navy could execute an additional $68.5 million and the Marine Corps 
could execute an additional $130 million in construction improvement 
work in Fiscal Year 1998.
    The limiting factors to performing additional construction 
improvements include the number of projects currently designed or in 
the process of being designed, the availability of additional design 
funds, the workload capacity of the agencies performing the designs, 
and the number of available units that may go off-line at any time.

                    Operation and Maintenance Costs

    Question. What is the average operation and maintenance cost per 
family housing unit?
    Answer. The average operation and maintenance cost per family 
housing unit budgeted in Fiscal Year 1998 is $10,850 for Navy homes and 
$5,391 for Marine Corps homes.
    Question. How does the average cost compare with the requirement--
assuming ``no growth'' in deferred maintenance?
    Answer. The fiscal year 1998 operations and maintenance average 
cost allows us to meet annual requirements without any growth in the 
backlog and includes an amount to reduce the backlog.

                         Currency Fluctuations

    Question. What currency gains or losses are projected for your 
overseas housing programs during Fiscal Years 1996 and 1997?
    Answer. The Navy experienced $218,000 and the Marine Corps $50,000 
in gains from the foreign currency fluctuation account in FY 1996. 
Based on foreign currency rates in effect at the beginning of Fiscal 
Year 1997, projections are for an anticipated Navy loss of $250,000 for 
the rest of the Fiscal Year 1997, due to the fall in the value of the 
United States currency at some locations. The Navy and Marine Corps 
will review the Fiscal Year 1998 projects at the beginning of the 
fiscal year to assess whether there will be gains or losses depending 
on the foreign currency rate in effect at the time.
                            Officer Quarters
    Question. Please submit for the record a table showing: (a) how 
many general/flag officer quarters you have, separately identifying 
CONUS and OCONUS locations, (b) how many of these quarters exceed the 
statutory space limitations, and (c) the average O&M cost per unit.
    Answer. Table showing Navy and Marine Corps general and flag 
officer quarters data follows:

------------------------------------------------------------------------
                                                   CONUS        OCONUS  
------------------------------------------------------------------------
Navy:                                                                   
    (a) Total flag officers quarters..........          107           39
    (b) Quarters exceed statutory space                                 
     limitations..............................           85           38
    (c) Average O&M cost per unit ($000)......        $39.4        $49.1
Marine Corps:                                                           
    (a) Total Flag officers quarters..........           31            1
    (b) Quarters exceed statutory space                                 
     limitations..............................           28            1
    (c) Average O&M cost per unit ($000)......        $21.8        $29.1
------------------------------------------------------------------------


[Pages 587 - 591--The official Committee record contains additional material here.]


                        Program Execution Rates

    Question. What is being done to improve execution rates and 
to avoid large unobligated balance?
    Answer. There are no large unobligated balances except 
those associated with PPV candidate projects. Recent execution 
of the Department of the Navy family housing (new and 
replacement) construction and improvements programs has been 
commendable.
    For construction, 100 percent of the FY 1993 and 1994 
programs are executed. Seventy-four percent of the FY 1995 
program was awarded in the first year (99 percent of the 
projects included in the FY-95 President's budget, 57 percent 
of the Congressional inserts). The one remaining FY 1995 
project will be executed by the end of FY 1997. Sixty-eight 
percent of the FY-96 program was awarded in the first year (73 
percent of the projects included in the FY-96 President's 
budget, 50 percent of the Congressional inserts. All remaining 
FY-96 projects will be awarded in FY-97, with the exception of 
those projects that are candidates for public private ventures. 
If the PPV candidate projects prove unfeasible, the projects 
will be executed as MILCON in FY-98. Finally, for FY 1997 
program, we are projecting a 93% execution rate for budgeted 
projects and 71% of the overall program including Congressional 
inserts. However, similar to FY-96, PPV candidate projects that 
prove unfeasible in FY-97 may delay execution as MILCON until 
FY-98 or FY-99.
    For improvements, 98 percent of the FY-96 improvement 
projects were executed by the end of the fiscal year. There are 
two remaining fiscal year 1996 projects unexecuted. One will be 
awarded in the Spring 1997 and the other as a PPV project. We 
anticipate award of 100 percent of our fiscal year 1997 
improvements projects in the first year that are not being 
reviewed for public/private ventures. If improvement projects 
that are being considered for PPV are not feasible, execution 
may slip to the second year.
                      Ford Island Causeway, Hawaii
    Question. What is the current status of the Ford Island Causeway?
    Answer. Construction is on track for May 1998 completion. The 
contract was awarded in September 1995. The contractor mobilized in 
October 1995, groundbreaking was held in January 1996 and the Ford 
Island Embankment constructed in July 1996.
    Major milestones still to be completed are: Bridge Structure 
Construction, May 1996-May 1998; Halawa Roadwork, June 1996-April 1998; 
Pontoon Installation, May-June 1997; Ford Island Roadwork, October 
1996-April 1998; Transition Span Installation, March-June 1997; 
Kamehameha Highway Intersection Improvement Construction, July 1997-
April 1998.
  Naval Submarine Base, New London Connecticut Controlled Industrial 
                         Facility ($18,300,000)
    Question. Where is the maintenance and repair services for nuclear-
powered submarines currently performed?
    Answer. Intermediate-level maintenance and radiological support 
services on nuclear-powered submarines are performed in their homeport. 
At Submarine Base New London, this intermediate-level work is performed 
by the Naval Submarine Support Facility (NSSF). Currently, NSSF 
performs nuclear work out of a 52 year old converted ammunition barge. 
This barge was intended to supply NSSF with an interim radiological 
support facility until a more permanent facility could be provided. The 
proposed Controlled Industrial Facility replaces this barge.
    Question. Why wasn't standardize design used for this project based 
on recently constructed and planned Controlled Industrial facilities?
    Answer. The New London Controlled Industrial Facility (CIF) is the 
same basic design as the Norfolk CIF. The only differences are in the 
layout of equipment and room changes due to the smaller size and shape 
of the construction site in New London.
    Naval Air Station, Jacksonville, Florida Ordnance Loading Apron 
                              ($1,330,000)
    Question. How long has the existing ordnance loading operations 
been performed under Chief of Naval Operations (CNO) waiver?
    Answer. The waiver has been in effect since 15 March 1989.
    Question. Prior to construction, do any environmental or safety 
permits/waivers need to be acquired?
    Answer. No. These permits/waivers are not required for this type of 
construction work.
   Naval Air Station, Jacksonville, Florida Tactical Support Center 
                              ($2,150,000)
    Question. Where does the maritime surveillance aircraft resources 
being consolidated into the new facility currently reside?
    Answer. At NAS Cecil Field.
    Question. What has directed the consolidation of the Tactical 
Support Centers (TSCs) and Mobile Operation Command Centers (MOCCs)?
    Answer. The consolidation of MOCC into the TSC (formerly ASWOC) 
program was directed by the CNO in November 1992 via Operational 
Document Serial Number 373-88/6-94. This document consolidated and 
updated two previously validated and approved OR's: Antisubmarine 
Warfare Operations Center (ASWOC) Command, Control and Communications 
(C3) Upgrade and Mobil Operations Control Center.
     Naval Station, Norfolk, Virginia Deperming Piers ($12,750,000)
    Question. What other deperming piers are located in the Norfolk 
area?
    Answer. There are only two deperming piers on the East Coast. One 
is at Naval Submarine Base, Kings Bay. It is specifically designed to 
deperm submarines and cannot accommodate other classes of ships. The 
existing deperming pier at Naval Station Norfolk was the only East 
Coast facility capable of deperming surface ships; however, it is no 
longer usable due to its deteriorated condition.
    Question. Where are the Atlantic Fleet surface ships that are too 
large for the slip between the current piers homeported?
    Answer. Those specific ships (CV's and CVN's) are homeported at 
Naval Station, Norfolk and Naval Station, Mayport.
     Naval Station, Norfolk, Virginia Consolidated Support Center 
                              ($6,500,000)
    Question. What is the cost for demolition of the six buildings 
scheduled for demolition at the Naval Base? Will this be funded within 
this project, or elsewhere?
    Answer. The cost to demolish these facilities is estimated at $1.7 
million. Demolition of these facilities will be funded elsewhere.
    Question. Will this project consolidate any of the current 
operations at the Naval Air Station, St. Juliens Creek Annex, and GSA 
leased space? If so, what is the plan for reuse or demolition of those 
facilities?
    Answer. The buildings FTSC will vacate as a result of this project 
are located on the Naval Air Station, Norfolk and the Naval Station, 
Norfolk. Those vacated buildings will be demolished. FTSC space at St. 
Juliens Creek Annex and GSA leased space is not affected by this 
MILCON.
  Norfolk Naval Shipyard, Portsmouth, Virginia Oily Waste Collection 
                          System ($9,500,000)
    Question. Is this Phase III of the Fiscal Year 1996 and 1997 
projects totaling almost $21,000,000? If so, is this the final phase of 
the project?
    Answer. This project will construct an oily waste collection system 
complete with collection, transfer and pre-treatment facilities at 
Norfolk Naval Shipyard. This project is the first and final phase. The 
projects in FY 1996 and 1997 totaling $21 million were constructed at 
the Naval Station Norfolk located several miles away from Norfolk Naval 
Shipyard.
    Question. What is the building to be demolished as part of the 
project: Why is it being demolished?
    Answer. Building 1440, Storage Facility, consisting of 186 SM (2000 
SF), is in disrepair and will be demolished as part of the project. 
This facility is located in the area of the new pre-treatment facility 
and new storage tanks being constructed for the Oily Waste project. The 
new pre-treatment facility, 770 SM (8288 SF), will also have special 
requirements such as containment.
    Naval Air Station, Oceana, Virginia Bachelor Enlisted Quarters 
                       Replacement ($20,900,000)
    Question. Describe in some detail the ``Special Construction 
Features'' included in the cost of this project?
    Answer. The ``Special Construction Features'' planned for the 
project referred to the number of concrete pilings that are typically 
required to support buildings over three stories high. However, in this 
case, the additional pilings are no longer required since the Navy has 
decided instead to build a 2 to 3 story garden-style apartment 
structure. This modified project will deliver the same number of 1+1 
configured barracks spaces at the same cost.
    Question. This project constructs bachelor enlisted quarters in 
compliance with the ``1+1'' barracks standard. Why wasn't standardized 
design used for this project?
    Answer. We are using a standard design concept for this BEQ. It is 
being constructed as multi-story 1+1 ``Garden Style'' apartments in 
accordance with the requirements of MIL-HDBK 1036, Bachelor Quarters. 
The latest quality of life improvements are described in this criteria 
handbook as standardized design ``elements'' or apartment modules which 
are arranged into the overall building plan. The 1+1 ``Garden Style'' 
apartment module used in the design of the FY 1996 MCON project, P-026 
BEQ at Cheatham Annex, will be used again in this project.
    Question. What is the cost difference between site specific design 
and standardize design for this project? How do you justify the use of 
site specific design?
    Answer. There is no previously designed BEQ project, or site 
specific design, at Oceana that is available for site adaptation. The 
subject project, however, will use the standards module design for 
``Garden Style'' apartment units previously used in the FY 1996 MCON 
BEQ project at Cheatham Annex.
    Question. Is this project a one-for-one replacement for 460 
barracks spaces?
    Answer. The project provides 460 spaces to ultimately replace 466 
spaces. This is not an immediate one-for-one replacement because of the 
need to delay the demolition of the existing barracks to temporarily 
provide BEQ space to mitigate the BQ deficit. In the future, as Oceana 
upgrades and/or replaces more of its substandard BEQs to the new 1+1 
standard, the substandard BEQs will be demolished.
Naval Weapons Station, Yorktown, Virginia Torpedo Magazine ($5,857,000)
    Question. How long have existing operations been conducted under a 
safety waiver as directed by the Department of Defense Explosive Safety 
Board?
    Answer. Safety Waiver W1-94 was issued by the Chief of Naval 
Operations on 1 December 1994. It permits the explosive limit of the MK 
48 maintenance facility to be increased from 15,000 pounds to 30,000 
pounds. The specific safety criteria which defines intraline separation 
distances between the MK 48 maintenance facility and an adjacent 
facility not associated with the MK 48 maintenance function cannot be 
met a this increased explosive weight. By definition, safety waivers 
are issued contingent upon a satisfactory method for ultimate 
compliance to safety criteria being identified. In this case, the 
construction of the two magazines to accommodate the current and 
projected workload will alleviate the need to handle larger than normal 
quantities of torpedoes at the maintenance facility compound. 
Elimination of safety waivers is endorsed by the Department of Defense 
Explosives Safety Board and CNO because it ensures that mandated 
explosives safety criteria will be met.
    Question. What are the cost savings that can be associated with the 
consolidation of intermediate level maintenance operations at Yorktown?
    Answer. Overall, the IMA consolidation efforts have resulted in an 
annual saving of $11.72 million. The Heavyweight Torpedo Program is 
consolidating East Coast IMA's from three facilities to one site, the 
Naval Submarine Torpedo Facility located at Naval Weapons Station (NWS) 
Yorktown, VA in accordance with the Torpedo MK 48/ADCAP IMA 
Consolidation Plan dated October 1993. These actions were a result of 
downsizing the submarine fleet and submarine torpedo inventory. The 
Charleston, SC and New London, CT IMA facilities were closed as of the 
end of FY 1995 and in line with this plan, military construction 
projects to build additional magazines at Charleston, SC and New 
London, CT were canceled. MILCON P-501 at Yorktown, VA is required to 
support submarine torpedo storage for the East Coast due to the IMA 
consolidation efforts and the reduction of submarine tenders being 
decommissioned further reducing torpedo storage capacity.
    Question. What are the current plans for reuse or demolition of the 
facilities from which MK-48 ADCAP torpedoes are being transferred?
    Answer. Implementation of the consolidated Intermediate Maintenance 
Activity initiative at Yorktown was finalized in FY 1995. Since that 
time, the various facilities at Charleston, SC and New London, CT have 
either been reassigned for other mission uses or have been closed and 
identified for demolition. For instance, at Charleston the maintenance 
facility was reassigned to a tenant (Mobile Mine Maintenance Group) 
that had previously been leasing space off-station. The magazine at 
Charleston in which torpedoes were stored while awaiting maintenance 
has since had its storage rack system removed to accommodate other 
weapons systems. The facilities utilized for maintenance associated 
with the torpedo mounted dispensers at Charleston are closed awaiting 
demolition. A similar scenario has occurred at New London, which was 
primarily associated with maintenance of the torpedo mounted dispenser 
system.
    Question. Demolition of the current gymnasium is $1,700,000, or 
31%, of the total project cost. Why?
    Answer. The project includes the demolition of the existing 
antiquated gymnasium as well as three other vacant structures (an 
indoor handball court facility, theater and package store. The cost of 
demolition includes provisions for properly disposing of asbestos and 
lead paint contaminated materials. The $1.7 million cost identified 
includes:
    (1) Demolition of utilities--$14,000
    (2) Demolition of paving and slabs--$10,000
    (3) Structures--$146,000
    (4) Removal of asbestos removal/lead paint--$1,500,000
    This gymnasium project will complete a phased plan in which 13 
personnel support facilities were pregressively removed from a 
geographic area encumbered by the Activity's pier explosive arc. 
Demolition of these facilities ensures that infrastructure reduction 
initiatives are met thus resulting in reduced operations and 
maintenance cost for the Activity.
    Question. This project was designed using standard or definitive 
design. Where was this design most recently used?
    Answer. The original Project Engineering Phase, in 1995, was 
developed from past design concepts from the Gym and Fitness Centers at 
the Naval Hospital in Portsmouth, VA and New River, NC. The scope of 
MCON P-708 is similar, but the actual floor plan and elevations have 
changed. The basic features from Naval Hospital & New River Centers are 
similar and serve as a guide to MCON P-708. A ``standard or definitive 
design'' has not been established for Gymnasium/Fitness Center because 
the recreational needs vary from location to location. Our 35% design 
includes, as much as possible, the latest requirements within the 
Military Handbook 1037/8, Indoor Fitness/Recreational Facilities.
    Question. Has the timing of this project been coordinated with the 
initial delivery of the electronic combat trainer (NA/FSQ-T22)?
    Answer. Yes.
    Question. What are the current cost savings associated with this 
project?
    Answer. The annual cost savings are approximately $3 million.
    Question. What are the current plans for the reuse or demolition of 
the facilities where the TRIDENT missile motors are currently stored at 
the Polaris Missile Facility, Atlantic (POMFLANT), Charleston, South 
Carolina?
    Answer. The facilities will be utilized by the Naval Weapons 
Station Charleston for storage of Fleet containerized munitions.
    Question. What follow-on projects, and at what cost, are necessary 
for this relocation?
    Answer. There are no follow-on projects.
    Question. Briefly describe the facilities currently used for 
ordnance operations at the installation?
    Answer. Three 24 <greek-e> 40 ft non-standard earth covered 
magazines, constructed in 1942, are currently utilized for storage of 
aviation ordnance. One of these magazines is within the airfield safety 
clearance zone and is operating under an explosive safety wavier.
    One 13 bay earth covered magazine, constructed in 1965, is used for 
storage of Hazard Class Division 1.2(04)/1.3(04)/1.4(04) munitions.
    One above ground magazine, constructed in 1942, is used for storage 
of fuses, boosters and detonators. This magazine is unsuitable for 
continued use per Explosive Safety Instruction (ESI) inspection.
    One 10 ft <greek-e> 14 ft earth covered magazine, constructed in 
1942, is used for rocket storage.
    Two bunkers, constructed in 1951, are used for the storage of 
sensitive munitions, Hazard Class Division 1.1/1.3(04).
    Two 70 SF portable ready service lockers placed on two 1942 
demolished magazine foundations are utilized for small arms storage.
    Two explosive operating buildings (Bomb and Rocket Assembly) are 
utilized for explosive assembly operations. These facilities were not 
built to satisfy current safety requirements such as lightning 
protection, secondary grounding, personnel limitations and fire 
protection. Distance between the Bomb and Rocket Assembly buildings 
does not comply the cognizant ordnance operations instruction. NAVSEA 
OP-5 regarding safe distance requirements. This condition restricts 
bomb and rocket assembly operations from being conducted concurrently. 
This restriction results in an unrealistic slowdown or interruption in 
training sorties for the pilots and crews that are trying to maintain 
operational readiness.
    Bomb Assembly. In this facility ordnance components are assembled 
to create usable ordnance. Bomb bodies and components are brought to 
the building from the magazines by truck. The bomb components are built 
in assembly line fashion and then transported to a ``ready service 
staging area.'' A fabric canopy on the west side of the facility 
provides protection for personnel from the extreme desert sun and wind 
which is characteristic year around. There are no comfort stations 
inside the building.
    Rocket Assembly. In this facility rocket warheads are assembled to 
rocket motors. Currently, there are no overhead hoists or assembly 
tables for construction of components. Therefore, component 
construction is conducted on the weapons trailers. Once the ordnance is 
complete the trailers are towed by truck to the ``ready service staging 
area.''
    Inert Storage: An on-site metal shed provides storage of smaller 
inert assembly components. This shed currently serves both the rocket 
and bomb assembly buildings. The remaining 92% inert assets are stored 
outside.
    Question. Why are the current facilities considered undersized and 
inadequate? Will all of the current facilities be demolished? If no, 
what are the plans for reuse?
    Answer. (a) The current magazines are considered undersized and 
inadequate due to modernized weapons configurations and container 
sizes. The existing magazines do not meet the minimum square footage 
requirements specified in the Navy Ordnance Handling Instruction--
NAVSEA OP-5.
    The Bomb and Rocket Assembly facilities are inadequate, constructed 
in the 1960s. Due to their age and the extreme temperature conditions, 
the building materials  are  decaying.  Additionally,  these  
facilities  do  not  meet  current  NAVSEA OP-5 Standards regarding 
personnel square footage allotments, thus requiring personnel to work 
outside in the environment. All the operation facilities will be 
demolished as part of this military constructing project.
    Additonally, several incompatibilities exist in or near the site 
designated for ordnance operations. The existing site is located within 
current air operation clearance zones. Ammunition Hazard Board (AMHAZ) 
provided a waiver and exemption for these areas, contingent upon the 
completion of P-202.
    (b) Facilities to be demolished: Buildings 104, 105, 114; Magazines 
148, 151, 152, 153, 168, 169 and 181 and loading dock 177.
    (c) Two of the remaining magazines will be re-utilized in their 
current state along with one small building. Utilization of the 
existing facilities allows a variety of ammunition compatibility which 
P-202 does not address (i.e., Military Working Dog program, White/Red 
Phosphorus ammunition, and fire bomb components). P-202, will provide 
larger magazines incorporating the necessary door dimensions for the 
larger containerized ammunitions (Rockeye, Walleye, Harm, Maverick, MK-
84 bombs, joint stand-off weapons, and joint defense attack munitions) 
which are currently restricted from storage due to the inadquate size 
of storage space and door way dimensions. The ordnance is utilized as 
they are delivered to NAF EL Centro due to inadquate storage space. 
Facilities to be reused are Magazines 149 and 150, and Building 182.
    Question. What is the current status of the existing fitness 
centers and how many enlisted personnel currently go without a 
gymnasium?
    Answer. The former Officers Club is being used as the weight room 
and the former Enlisted Men's Club is being used as an aerobics area. 
The existing gymnasium is both inadequate and undersized, and has no 
showers; the closest showers are located four blocks away. In addition, 
the existing facility is only sized to accommodate 550 of the more than 
800 eligible patrons, approximately 80% of whom are enlisted. This 
results in an overcroweded situation in which patrons either avoid 
using the gymnasium, or use it less than they would otherwise do so.
    Question. Design for this project was completed in September of 
1992. Why is there such a large time lag between design and the request 
for construction funds for this project?
    Answer. The timing for the project is driven by the procurement of 
the training device. The design for the device has been modified 
several times since September 1992 (all due to improvements in the 
technology and Fleet operational requirements), but the enclosure for 
the trainer (i.e., the military construction project) has remained 
substantially the same awaiting a firm schedule of delivery for the 
trainer. That firm schedule shows the facility is required by March 
1999.

[Pages 598 - 602--The official Committee record contains additional material here.]


    Question. For the fiscal year budget request, what percent 
of the total Marine Corps budget is devoted to programs under 
the jurisdiciton of this Subcommittee (please show separate 
percentages for military construction, family housing 
construction and construction improvements, family housing O&M, 
and Base Realignment and Closure.
    Answer. The following portions of the Marine Corps budget 
are devoted to programs under the jurisdiciton of the Military 
Construction Subcommittee. Base Closure is not included since 
it is not part of the total Marine Corps budget. Base 
Realignment and Closure is part of the Navy portion of the 
Department of the Navy budget.

------------------------------------------------------------------------
                                                            Percent of  
                                                           Marine Corps 
                Category                   Total program    Fiscal Year 
                                                             1998 TOA   
------------------------------------------------------------------------
Family housing O&M......................           145.4            1.45
Family housing (New construction).......            75.3            0.75
Family housing (Design & improvements)..             4.2            0.04
Milcon..................................           125.8            1.26
Milcon reserve..........................             6.5            0.07
    Total subcommittee:.................           357.2            3.56
        Total Marine Corps budget.......        10,008.9                
------------------------------------------------------------------------

                         Okinawa--Marine Corps

    Question. Bring us up to date with various proposals that 
are under discussion regarding the possible realignment of 
Marine Corps facilities on Okinawa.
    Answer. On 2 December 1996, the Security Consultive 
Committee approved the Special Action Committee on Okinawa 
recommendation to pursue the Sea Based Facility option. This is 
viewed to be the best option in terms of enhanced safety and 
quality of life for the Okinawan people while maintaining the 
operational capability of U.S. forces. Additionally, the Sea 
Based Facility can function as a fixed facility during its use 
and can also be removed when no longer necessary. The KC130s 
will be transferred to MCAS Iwakuni. New facilities will be 
constructed there for the aircraft.
    The Sea Based Facility will be approximately 1,500 meters 
long and designed to support basing of helicopters and short 
field aircraft operations. Additional facilities will be 
developed at Kadena or other existing U.S. facilities when they 
cannot be provided on the Sea Based Facility.
    Three Sea Based Facility proposals have been presented to 
the Facilities Implementation Group. They are: a pile supported 
platform, floating method (Megafloat) and the Semi-Submersible. 
The designs must incorporate adequate measures to ensure the 
survivability of personnel, aircraft, and equipment against 
severe weather. The facility will be constructed off the east 
coast of the main island of Okinawa and is expected to be 
connected to land by a pier or causeway.
    Question. Will all facilities requirements be financed 
under the Japanese Facilities Improvement Program--fully 
financed by the host nation?
    Answer. The facilities required to implement the Special 
Action Committee in Okinawa (SACO) final report are to be fully 
financed by the host nation under a program that is unique from 
the Japanese Facilities Improvement Program (JFIP).
    Question. Do you have any preliminary estimates of total 
costs?
    Answer. No, the planning efforts are not far enough along 
to determine what permanent facilities will be required in 
addition to the $2 to $13 billion estimated cost of the Sea 
Based Facility.
    Question. Does the Marine Corps have any objection to any 
of the proposals under discussion?
    Answer. At this time, the proposals are very preliminary. 
The Marine Corps recognizes that significant ongoing planning 
and oversight is necessary to ensure that all U.S. Military 
operational and quality of life issues are adequately 
addressed.
    Question. What is the timetable, and what are the 
milestones for finalizing decisions on Okinawa stationing?
    Answer. The Facilities Implementing Group will recommend a 
candidate Shore Based Facility no later than December 1997.

           Family Housing Inventory and Deficit--Marine Corps

    Question. Is it correct that the current inventory of 
Marine Corps family housing totals 25,123 housing units, and 
that the current deficit totals 10,177 units?
    Answer. Yes. As of 30 September 1996, the Marine Corps 
family housing inventory totals 25,123 housing units. The 
10,177 units is the projected 1999 deficit, based on Family 
Housing Justifications (DD Form 1523) which consider housing 
appropriated but not yet constructed.
    Question. The budget places heavy emphasis on 
revitalization and replacement of existing units rather than on 
reduction of the deficit. The Fiscal Year 1998 budget includes 
$75,290,000 for the construction of 469 units, and the Fiscal 
Year 1999 budget would provide no new units. Has the Corps 
decided that it can live with its housing deficit indefinitely?
    Answer. No, the Marine Corps has not decided to live 
indefinitely with its current housing deficit. However, in view 
of the aging and substandard housing in its inventory, the 
Marine Corps has targeted the majority of its family housing 
resources towards the top family housing priority of 
maintaining, repairing and modernizing (or replacing) the 
current housing infrastructure.
    The Marine Corps views an improved housing allowance system 
as the key to erasing the deficit of affordable and available 
housing. Additionally, the Corps plans to leverage its family 
housing construction capability by utilizing--where feasible--
the new Public-Private Venture Authorities enacted in FY 1996. 
This reliance on privatization, coupled with the anticipated 
benefits of an improved housing allowance system, will be used 
to address the deficit.
             Whole House Revitalization--Quantico, Virginia
    Question. Please describe in some detail the whole house 
revitalization project that is budgeted at Quantico.
    Answer. Quarters 1 is being revitalized in 2 phases with the 
exterior work being accomplished in FY97 and the interior work budgeted 
in FY98. The work included in Phase II follows:
    a. Repair and paint interior surfaces
    b. Repair/replacement of windows
    c. Repair/replacement of interior doors
    d. Renovation of kitchen and pantry
    e. Repairs to laundry
    f. Repairs to bathrooms (3\1/2\)
    g. Repair/replacement of flue liners/insulation
    h. Repairs to crawl space
    i. Installation of fire protection systems
    j. Repairs to interior electrical system
    k. Renovation/replacement of boiler system
    The project is required because site erosion threatens the 
structural stability of the quarters; the site drainage system has 
deteriorated; all elements of the existing electrical system are 
deteriorated; the useful life of the heating system has been exceeded; 
the majority of the surfaces are lead based paint; and there is no 
residential sprinkler system.
    Question. To what extent was the total cost of this project driven 
by historic considerations?
    Answer. The extent of historic considerations on total project cost 
was negligible. Although Qtrs 1 has been nominated to the National 
Register of Historic Places, it has not been placed on the list and is 
not required to comply with historic guidelines. As a result, historic 
considerations only account for four percent of total project cost.
    Marine Corps Air Station, Camp Pendleton, California--Aircraft 
               Maintenance Training Facility ($4,300,000)
    Question. How will the classroom space freed up by the 
consolidation of aircraft maintenance training facilities be utilized?
    Answer. Prior to the consolidation of this training at MCAS Camp 
Pendleton some of the training was conducted at NAS Memphis. The 
classroom space vacated at NAS Memphis is planned to be used by the 
Navy's Bureau of Personnel.
    Question. Briefly describe the one building to be demolished as 
part of this project.
    Answer. The building to be demolished is a 395 square meter 
``temporary wooden structure constructed in 1945. The structure was 
originally designed and used as a parachute loft and low level 
maintenance shop. The building served many tenants and was re-
configured many times during the past 52 years. The building is badly 
deteriorated and is in the footprint of this project.
    Question. The DD Form 1391 states that ``this facility is needed to 
ensure that helicopter maintenance crews are trained in a cost-
effective manner.'' What are the cost savings associated with this 
project?
    Answer. The cost savings are difficult to enumerate because many of 
the benefits are intangible. This project consolidates aircraft 
maintenance training at Camp Pendleton as part of the Fleet Readiness 
Enlisted Skills Training (FREST) concept. Prior to FREST, each 
component of training was conducted at different locations. Classroom 
instruction at one location, hands on instruction at another location, 
and then once the student arrived at the Fleet Squadron more training 
was provided. Efficiency of the training under the FREST concept is 
increased by reducing time spent in transit and related Temporary 
Assigned Duty expenses, reducing duplication of training material, and 
enhancing the development of unit identity and unit integrity.
Marine Corps Air Station, Camp Pendleton, California--Highbay Warehouse 
                              ($6,880,000)
    Question. Are there any demolition costs associated with this 
project?
    Answer. The project does not demolish any buildings. Some minor 
utilities will be relocated as part of the project. The planned 
construction site is currently a gravel parking lot.
    Question. What is the plan for re-use or demolition of the existing 
warehouses?
    Answer. When the current occupants move out of the existing 
warehouses, one warehouse will be back-filled by another unit and the 
other warehouse will either be torn down or back-filled if the 
warehouse is found to be structurally sound. Overall, MCB Camp 
Pendleton is deficient of warehouse storage space.
    Question. Does a highbay warehouse lend itself to a standardize 
design? If so, why wasn't it used for this project?
    Answer. There is not a standard design for warehouses. Warehouses 
are designed based on the quantities and types of materials to be 
stored and based on operational requirements (i.e. requirement for 
rapid deployment). In addition, site specific concerns must be 
addressed in design: soil conditions, weather/climate, seismic, wind, 
topographic site constraints, local construction codes, and the type of 
construction materials used.
 Marine Corps Air Station, Camp Pendleton, California Emergency Spill 
                          Control ($2,840,000)
    Question. Are there any follow-on projects associated with this 
environmental compliance effort?
    Answer. There are no follow-on projects required to bring into 
compliance the emergency spill detention system connected to the 
aircraft maintenance hangars. This project will meet all the 
requirements of the Safe Drinking Water Act and the Clean Water Act as 
determined by the San Diego Regional Water Quality Control Board.
    Question. Are there any environmental clean-up costs for the two 
earth ponds where hazardous waste liquid is currently discharged? If 
so, are they included in the cost of this project?
    Answer. There are environmental clean-up costs for the two ponds 
and it is included in the project cost. The ponds are tested on a 
regular basis and the extent and types of contamination are known. The 
removal of some contaminated soil is required as a part of this 
project's scope.
    Marine Corps Base, Camp Pendleton, California Bachelor Enlisted 
                         Quarters ($12,000,000)
    Question. This project constructs 160 two-person rooms for a total 
of 320 barracks spaces. Why is it only intended for use by only 233 
enlisted personnel?
    Answer. The intended use of this building by 233 personnel vice 320 
is due to the projected grade mix. Personnel in the grade of E1-E3 are 
assigned one space per person and E4-E5 are assigned two spaces per 
person. A maximum utilization by 320 personnel is possible only if E1-
E3's are assigned to the building.
    Question. Is this project a one-for-one replacement of 320 barracks 
spaces?
    Answer. This project is not a straight one-for-one replacement of 
320 spaces. A portion of the scope will allow assignment of two people 
per room vice three in existing barracks space. The associated 
demolition plan include demolition of inadequate wooden open bay 
barracks.
    Question. Why doesn't this project incorporate the ``1+1'' barracks 
standard?
    Answer. The Marine Corps has over 10,000 inadequate bachelor 
quarters spaces. In order to eliminate these inadequate spaces as soon 
as possible, we have chosen to construct two person room configured 
bachelor quarters. The less expensive 2<greek-e>0 BQ design does 
provide a quality of life increase over the previous (2<greek-e>2) 
standard.
                    Reserve Environmental Compliance
    Question. How large is the backlog of requirements for 
environmental compliance projects, and how long will it take to buyout 
this backlog?
    Answer. There is no backlog of environmental compliance projects. 
It is Department of the Navy policy to fund all Class I (currently out 
of compliance with statutory requirements or executive orders) and 
Class II (currently not out of compliance, but which will become out of 
compliance during the current funding year--also known as ``just in 
time'') projects. These projects are fully funded each year with no 
backlog. Class II projects that can be deferred and still meet a 
regulatory date, and Class III projects which provide some 
environmental benefit, but are not required to meet federal, state or 
local standards, and not funded due to fiscal constraints. However, 
these projects are not considered to be a backlog.
                    Reserve Expiring Authorizations
    Question. For projects that have been previously appropriated but 
not yet executed, list any authorizations that will expire in 1997, 
1998, or 1999, if any, identifying the year of expirations.
    Answer. The following project authorizations would expire in FY 
1997, 1998, or 1999. However, all projects are scheduled for contract 
award prior to expiration of authorization, with the single exception 
of P-330, Marine Corps Reserve Training Building at Marietta, Georgia.

------------------------------------------------------------------------
                                                               Expires  
  FY    PNO         Location/Description        Auth ($000)    (30 Sep) 
------------------------------------------------------------------------
95...    330  Marietta, GA, Reserve Training                            
               Bldg...........................        2,650           97
95...    142  NMCRC Tacoma, WA RESCEN                                   
               Alteration.....................        4,200           97
96...    508  MCRTC Camp Edward, MA Training                            
               Building.......................        3,130           98
96...    440  NAS New Orleans, LA BEQ.........        5,035           98
96...    086  NSA New Orleans, LA BEQ.........        6,100           98
97...    029  NAF Andrews WA, Training Bldg                             
               Addn...........................        1,465           99
97...    032  NAF Andrews WA, Hangar Addition.          640           99
97...    519  MCRC Camp Williams, UT Training                           
               Center.........................        1,994           99
97...    168  AFRC Jacksonville, FL REDCOM                              
               Addn...........................          770           99
97...    343  NAS Atlanta, GA BEQ Renovation..        3,250           99
97...    105  NSA New Orleans, LA Instruction                           
               Bldg...........................        3,650           99
97...    091  NSA New Orleans, LA Child Dev                             
               Ctr............................        1,330           99
97...    087  NSA New Orleans, LA BEQ.........        8,956           99
97...    099  AFB Dyess, TX, MCRTC............        3,100           99
------------------------------------------------------------------------

                Reserve Excess Prior Year Authorization
    Question. For the record, what is the amount of excess prior year 
authorization, if any?
    Answer. The MCNR appropriation has no excess prior year 
authorization. However, there is a $4,800,000 FY 1997 Appropriation 
(Naval Reserve Military Construction Project P-438, Construct, BEQ 
(Phase I) at NAS New Orleans, LA) for which there is not corresponding 
authorization. The project is included in the FY 1998 Budget request 
for authorization only.
                          Reserve End-Strength
    Question. What is the authorized end-strength for 1996 and 1997, 
and the projected end-strength for 1997?
    Answer. Naval and Marine Corps Reserve end-strengths are as 
follows:

------------------------------------------------------------------------
                                                    USNR        USMCR   
------------------------------------------------------------------------
FY 1996 Authorized............................       98,894       42,274
FY 1997 Authorized............................       96,304       42,000
FY 1997 Projected.............................       95,898       42,000
------------------------------------------------------------------------

                          Reserve Base Closure
    Question. For the record, list the locations where facilities were 
transferred to the Reserve components under Base Realignment and 
Closure (BRAC).
    Answer. Facilities were or will be transferred to the Naval Reserve 
at: Carswell AFB Fort Worth, TX; Moffett Federal Airfield Santa Clara, 
CA; Fort Dix, NJ; Warminster, PA; and March AFB, CA. The Marine Corps 
Reserve had no facilities transferred to it under BRAC.
    Question. What increases in facility requirements have resulted 
from such transfers?
    Answer. The Plant Replacement Value of Naval Reserve facilities 
will increase approximately 25 percent (from $3.2 to $4.0 billion) as a 
result of BRAC. The Marine Corps Reserve had no facilities transferred 
to it under BRAC.
    Question. For facilities that have been transferred to the Reserve 
components under Base Realignment and Closure, are the BRAC accounts 
fully meeting the construction requirements at those locations?
    Answer. The Naval Reserve BRAC construction requirements for FY 
1998 are fully funded. The Marine Corps Reserve had no facilities 
transferred to it under BRAC.
    Question. For facilities that have been transferred to the Reserve 
components under Base Realignment and Closure, are the BRAC accounts 
fully meeting the construction requirements at those locations?
    Answer. The Naval Reserve BRAC construction requirements for FY 
1998 are fully funded. The Marine Corps Reserve had no facilities 
transferred to it under BRAC.
    Question. How far have such transfers gone toward resolving 
facilities shortages for the Reserve components?
    Answer. The transfers, together with associated BRAC construction, 
have met the Naval Reserve's requirements at BRAC locations. The Naval 
Reserve continues to have requirements for military construction at 
non-BRAC locations. The Marine Corps Reserve had no facilities 
transferred to it under BRAC.
                           Reserve Inventory
    Question. What is the value of the current physical plant, and the 
types, numbers, and average age of facilities?
    Answer. The Replacement Plant Value (RPV) of facilities is:
                                                                 Billion
Naval Reserve.................................................    $3.540
Marine Corps Reserve..........................................     0.173
    Total.....................................................     3.713
    174 Reserve Center.
    10 Reserve Readiness Commands.
    1 Naval Support Activity.
    5 Naval Air Stations.
    1 Naval Air Facility.
    13 Other Naval Air Activities.
    The average age of Naval Reserve facilities is 43 years.
    The types and numbers of Marine Corps Reserve facilities are as 
follows:
    21 Reserve Centers.

    Marine Corps Reserve facilities average 28 years old.

                            Reserve Backlog

    Question. What is the current backlog of facility requirements?
    Answer. The current Military Construction Naval Reserve backlog is:
                                                                 Million
Naval Reserve.....................................................  $341
Marine Corps Reserve..............................................   105
                        -----------------------------------------------------------------
                        ________________________________________________
      Total.......................................................   446

    Question. How much would be required annually to keep even with 
facilities needs?
    Answer. A total of $35 million per year would be required to fully 
fund the Naval Reserve Military Construction needs. Of this amount, $25 
million would be for the Naval Reserve, and $10 million for Marine 
Corps Reserve.

                         Reserve Family Housing

    Question. List the locations and number of units of family housing 
occupied by the reserve components.
    Answer. The Naval Reserve has the following family housing units:
          
Activity:                                                   No. of units
    NAS JRB New Orleans...........................................   216
    NAS JRB Willow Grove..........................................   213
    NSA New Orleans...............................................   286
    NAS JRB Ft Worth..............................................    94
    NAS Atlanta...................................................    10
    NAS South Weymouth............................................   300
    NAR Minneapolis...............................................     6
    Roosevelt Roads, PR \1\.......................................     7

\1\ Additionally, the Marine Corps Reserve.
---------------------------------------------------------------------------

               Reserve Backlog of Maintenance and Repair

    Question. What is the current backlog of maintenance and repair 
funded under the operations and maintenance accounts, by component?
    Answer. The current backlog of maintenance and repair, not 
including activities to be closed by BRAC, is as follows:
                                                                 Million
Naval Reserve.....................................................  $148
Marine Corps Reserve..............................................    45
      Total.......................................................   193

    Question. What is the annual funding requirement to avoid growth of 
the backlog?
    Answer. The annual funding requirement to halt the growth of the 
backlog of maintenance and repair is:
                                                                 Million
Naval Reserve.....................................................   $74
Marine Corps Reserve..............................................     7
                        -----------------------------------------------------------------
                        ________________________________________________
      Total.......................................................    81

                   Reserve Parametric Cost Estimates

    Question. To what extent do you rely on parametric cost estimation 
in the design of military construction projects?
    Answer. Parametric cost estimates are used to develop, plan and 
program all Naval Reserve military construction projects.
    Question. What degree of confidence do you have in the accuracy of 
parametric design estimates?
    Answer. The parametric costs are the accepted figures for audit and 
are an extremely valuable tool. Naval Facilities Engineering Command 
continuously updates the parametric costs and we have a great degree of 
confidence in their accuracy.
                 Reserve Unspecified Minor Construction
    Question. Provide for the record a list of unspecified minor 
construction projects executed during Fiscal Years 1995 and 1996, and 
obligations to date in Fiscal Year 1997, by location.
    Answer.

                         [Dollars in thousands]                         
------------------------------------------------------------------------
                                              Location/         Funds   
    Fiscal Year              PNO             description      obligated 
------------------------------------------------------------------------
1995...............  157................  NMCRC Spokane WA,         $400
                                           Add Air                      
                                           Conditioning.                
                     366................  NAS Fort Worth,            390
                                           TX, Security                 
                                           Group HQ                     
                                           Renovation.                  
                     405................  MCRTC Orlando,             285
                                           FL, Tactical                 
                                           Vehicle Wash                 
                                           Platform.                    
                     406................  NMCRC Greensboro,          140
                                           NC, Tactical                 
                                           Vehicle Wash.                
                     940................  NMCRC Worcester,           305
                                           MA, Wash Pad                 
                                           Storage.                     
                     402................  MRTC Battle                395
                                           Creek, MI,                   
                                           Upgrade MC area.             
1996...............  369................  NRC San Juan, PR,          400
                                           Reserve Center               
                                           Alteration.                  
                     230................  NAS Willow Grove,          250
                                           PA, Storage Bldg.            
1997...............    .................  None.............             
------------------------------------------------------------------------

    Question. Has this appropriation met the needs over the last two 
years?
    Answer. The Unspecified Minor Construction (UMC) appropriation has 
marginally met the needs of the Naval Reserve, only because of the 
carry-over of funds from prior years. However, the Naval Reserve has 
now completely expended its available Minor Construction funds. 
Adequate funding for UMC will be an important priority for the MCNR 
appropriation in FY 1998 and the out-years.
    Question. What shortfalls, if any, have been encountered?
    Answer. We have been able to award all of our critical UMC projects 
up to this point. However, the UMC backlog is 39 projects estimated to 
cost $12.1 million. Additionally, with the increase of the UMC funding 
limit from $400 thousand to $1.5 million in FY 1997, greater UMC 
funding will be required in the future.
               Demolition of Unneeded Reserve Facilities
    Question. How large is the inventory of unneeded facilities 
awaiting demolition?
    Answer. The Naval Reserve has a $6.4 million backlog of demolition 
projects. The Marine Corps Reserve has no separate backlog of 
demolition projects.
    Question. Is the work funded exclusively under the operations and 
maintenance account?
    Answer. For the most part, demolition is funded through the 
operations and maintenance, Naval Reserve account. Demolition can also 
be funded through the CNO centralized demolition program, which is also 
an O&M account.
    Question. How will this work be tracked to ensure that funds are 
used for demolition?
    Answer. Naval Reserve demolition projects compete for funding with 
all other maintenance and repair projects. Demolition projects are 
funded when it is economically advantageous or when required upon 
termination of a lease. Demolition projects are tracked as part of the 
Special Projects program during execution.
    Question. What is the level of effort for this work for Fiscal Year 
1997?
    Answer. The Naval Reserve plans to execute one demolition project 
in FY 1997 at a cost of $167 thousand. Another project for $940 
thousand has been proposed for funding by CNO under the Navy's 
centralized demolition program.
                  Reserve Projects No Longer Required
    Question. Please provide for the record a list of any projects, 
either in the Fiscal Year 1997 appropriation or in the prior years' 
unobligated balances, that are no longer required due to force 
structure changes, base realignment and closure, mission changes, 
bilateral and multilateral agreements, or other reasons. Please include 
on the list military construction projects, family housing construction 
and construction improvement projects, and projects financed under the 
base realignment and closure accounts?
    Answer. There are no prior year Naval Reserve projects which are no 
longer required.
                         Reserve Reprogramming
    Question. Submit for the record a table which will show, by fiscal 
year, the total amount approved by Congress for reprogramming for the 
last five years.
    Answer. The following table is submitted:

                       AMOUNT APPROVED BY CONGRESS                      
                         [Dollars in thousands]                         
------------------------------------------------------------------------
                        Fiscal Year                                     
------------------------------------------------------------------------
1992.......................................................           $0
1993.......................................................            0
1994.......................................................       10,075
1995.......................................................        3,550
1996.......................................................            0
------------------------------------------------------------------------

    There are no Naval Reserve reprogramming pending in FY 1997.

                          Unobligated Balances

    Question. What is being done to improve execution rates and to 
avoid large unobligated balances?
    Answer. As detailed in Question Number 151, the MCNR appropriation 
does not have large unobligated balances. The Naval Reserve continually 
seeks to improve Military Construction, Naval Reserve execution rates. 
Now that the BRAC process is concluded, it is possible to analyze 
construction requirements in a more stable environment, which will 
allow even more effective planning and programming.
    Question. For the record, submit a list of all projects for which 
funds were previously appropriated, but which have not yet been 
executed. This list should include, at a minimum, the year in which 
funds were appropriated and the estimated contract award date.
    Answer.

----------------------------------------------------------------------------------------------------------------
                                                                                      Amount                    
                                                                                     (dollars                   
               FY                   PNO         Location           Description          in       Est Award Date 
                                                                                    thousands)                  
----------------------------------------------------------------------------------------------------------------
1995............................     330  Marietta, GA.......  Reserve Training         2,650   Oct 1997        
                                                                Bldg.                                           
1996............................     508  MCRTC Camp Edward,   Reserve Training         3,130   Oct 1997        
                                           MA.                  Building.                                       
1996............................     440  NAS New Orleans, LA  BEQ................      5,035   Apr 1997        
1996............................     086  NAS New Orleans, LA  BEQ................      6,100   May 1997        
1997............................     519  MCRC Camp Williams,  RTC................      1,994   May 1997        
                                           UT.                                                                  
1997............................     168  AFRC Jacksonville,   READCOM Addn.......        770   Aug 1997        
                                           FL.                                                                  
1997............................     438  NAS New Orleans, LA  BEQ................      4,800   Apr 1997        
1997............................     343  NAS Atlanta, GA....  BEQ Renovation.....      3,250   Sep 1997        
1997............................     105  NAS New Orleans, LA  Instruction Bldg...      3,650   Sep 1997        
1997............................     091  NAS New Orleans, LA  Child Dev Ctr......      1,330   Sep 1997        
1997............................     087  NAS New Orleans, LA  BEQ................      8,956   Sep 1997        
1997............................     099  AFB Dyess, TX......  MCRTC..............      3,100   Jun 1997        
----------------------------------------------------------------------------------------------------------------

  Air Facility Andrews AFB, Washington, DC Bachelor Enlisted Quarters 
                              ($4,640,000)

    Question. This project constructs bachelor enlisted quarters in 
compliance with the ``1+1'' barracks standard. Why wasn't standardize 
design used for this project?
    Answer. The design for this project was initiated using a typical 
interior corridor ``1+1'' modular floor layout. This was redirected by 
the Air Force to use an exterior balcony garden style ``1+1'' quarters 
consistent with the design utilized on Andrews Air Force Base since 
Naval Air Facility is a tenant activity. The Andrews Air Force Base 
standard will be used for this project through a design-build contract.
    Question. What is the cost difference between site specific design 
and standardize design for this project? How do you justify the use of 
site specific design?
    Answer. The Navy policy is to use design standardization to the 
maximum extent achieveable, consistent with customer's mission 
requirements. Throughout the years, various levels of standardization 
have been applied to magazines, engine test cells, firefighter 
trainers, brigs, child development center, and other facilities as 
conditions warrant.
    For this project we have determined that reusing module design data 
previously developed is consistent with customer's requirement, and is 
cost-effective. The project will use the standard module design for 
``garden style'' apartment units previously used at Andrews Air Force 
Base.
    Question. What are the plans for reuse or demolition of the 
existing building?
    Answer. The existing building is substandard and would be 
uneconomical to renovate to 1+1 criteria. The building will be 
demolished and the new foundation will be extended beyond the current 
footprint.
    Question. Briefly describe the ``Special Construction Features'' 
included in the cost of this project.
    Answer. Since the original foundation cannot be used for the new BQ 
due to footprint differences, the special construction features are the 
deep excavation (approximately 10,) and removal of the existing 
foundation, and the sheeting, shoring and backfill to prepare the site 
to receive the new construction.

 Naval Air Station, New Orleans, Louisiana Bachelor Enlisted Quarters 
                              ($4,800,000)

    Question. This project constructs bachelor enlisted quarters in 
compliance with the ``1+1'' barracks standard. Why wasn't standardized 
design used for this project?
    Answer: This project is a site adapt of P-440 BEQ, NSA New Orleans 
that was authorized in the FY 1996 program. This design is a three 
story garden style BEQ utilizing the ``1+1'' standard module floor 
layout.
    Question. What is the cost difference between site specific design 
and standardize design for this project? How do you justify the use of 
site specific design?
    Answer. The subject project does, in effect, use a standard design 
inasmuch as it is site adaption of FY 1996 MCNR project P-440, BEQ, 
also at NAS New Orleans. The Navy policy is to use design 
standardization to the maximum extent achievable, consistent with 
customer's mission requirements. Throughout the years, various levels 
of standardization have been applied to magazines, engine test cells, 
firefighter trainers, brigs, child development center, and other 
facilities as conditions warrant.
    For this project we have determined that reusing module design data 
previously developed is consistent with customer's requirement, and is 
cost-effective.
    Question. What is the estimated contract award date and the 
estimated construction start date for this project? Also, how many 
other phases are needed to complete this project?
    Answer. This project was designed as an option to FY 1996 P-440, 
BEQ, NSA New Orleans which is currently being advertised. Award of P-
440 is planned for 30 April, with groundbreaking approximately 60 days 
following. Since this project, P-438, is designed as an option to P-
440, it can be executed immediately upon receipt of authorization.
    One additional phase of $4,520,000 is required to complete the 
project.

Seal Beach California Marine Corps Reserve Training Center ($6,104,000)

    Question. In January of 1994, the Northridge earthquake rendered 
the existing Stadium Way center unusable. Describe in some detail the 
leased trailers that are currently being used at Seal Beach as a 
temporary measure.
    Answer. Modular trailers are connected together to be used as 
office space. Each are 12,<greek-e>54, forming a total space of 9,072 
SF of office space. Two additional trailers are used as male/female 
head facilities. The male head is 12,<greek-e>60, with 5 showers, 
lockers, 3 sinks and 4 toilets. The female head is 8,<greek-e>20, with 
1 sink, 1 toilet and 1 shower. Hot water is available, water fountains 
are not. With the exception of the heads, all spaces are carpeted. 
There are four exterior entrances/exits. Three have emergency use only 
alarm locks. The main entrance has a handicap ramp. Six exterior lights 
are mounted along the top of the outside walls to provide lighting at 
night. All office lighting is fluorescent. Three emergency lighting 
units are installed. Telephone and computer network jacks are located 
throughout the office space area. Electrical power is provided through 
a central junction at the center of the trailers.
    Question. What is the cost of these commercial leased facilities?
    Answer. The costs associated with the commercial leased facilities 
are as follows:
    Delivery to and from, set-up and tear-down, placement, first year's 
rental and miscellaneous costs: $98,833. Second year, $72,000 ($6,000/
mo). Third year, $42,000 ($3,500/mo). Fourth year, $20,400 ($1,700/mo)
    [Clerk's note.--End of questions for the record submitted 
by Chairman Packard.]
    [Clerk's note.--Questions for the record submitted by 
Congresswoman Northup.]

     Privatization of Naval Ordnance Station, Louisville, Kentucky

    The nation's first effort at privatization is occurring in 
the Third District of Kentucky at what used to be the Naval 
Ordnance Station in Louisville, KY. The U.S. Navy committed 
$41.5 million in FY 1997 in contracts to United Defense, which 
took over that facility. Later this figure was reduced to $35.2 
million. While I understand that the Navy is attempting to 
improve this figure, I am concerned about the message this 
reduction sends to businesses who are contemplating 
participation in other privatization projects. I am here to 
urge you to give privatization a legitimate chance in 
Louisville and establish a precedent for the entire nation to 
follow. The privatization efforts in Louisville will support 
itself, but only if the Navy continue to commit their resources 
to this effort.
    Question. Is the Navy truly committed to see privatization 
succeed in Louisville?
    Answer. The Navy is committed to giving the privatization 
in Louisville every opportunity to succeed. Success is not 
based solely on the Navy though. Industry and the Louisville/
Jefferson County Redevelopment Authority are the critical 
components in making privatization succeed. They, together, 
must make the tough business decisions that will keep costs 
down, attract new business, and diversify the site. The Navy is 
committed to keeping its business in Louisville as long as 
there is work to be done, the quality of work is acceptable, 
and the cost of the work is competitive.
    Question. If so, what level of funding will you commit to 
United Defense and does this level meet your original 
obligation?
    Answer. During negotiations of the contract option, last 
summer, the Navy and United Defense agreed on an option to 
exceed $44.9 million. Not to exceed levels allow for growth 
during a contract period and are generally greater than the 
amount currently on hand. When the budgets became finalized and 
approved by both houses of Congress, the Navy and United 
Defense definitized the FY 1997 contract option at $35.2 
million. This amount included more than $7 million for foreign 
military sales efforts and more than $1 million from other 
services. To date Navy has placed $14M on the contract and has 
identified another $8M expected to be added before the end of 
the fiscal year. An additional $5M in FY 96 funding was also 
added to what was originally agreed to by both the Navy and 
United Defense. Navy will continue to review requirements and 
available funding through the rest of FY-97.
    Question. And, what are the plans for FY 1998 and the 
succeeding years?
    Answer. Early this summer the Navy with United Defense will 
scope the FY 1998 effort and sign another not to exceed option. 
After the budget is approved the Navy will definitize the 
option with the amount provided by Congress to perform the 
Louisville type of work.

          Conveyance To the Louisville Redevelopment Authority

    The long-term success of this first ever Department of 
Defense privatization is contingent upon no-cost economic 
development conveyance in a quick and timely fashion, much like 
a plan the Louisville Redevelopment Authority approached the 
Department of Navy in early summer of 1996. This is a concern 
to some companies wishing to relocate to the Naval Ordnance 
because the Navy is still in control of the land.
    Question. Is the United States Navy prepared to negotiate 
for this conveyance to the Louisville Redevelopment Authority?
    Answer. The Navy has been prepared to negotiate with the 
Louisville/Jefferson County Redevelopment Authority since early 
last summer. The Navy has been encouraging the redevelopment 
authority to begin the negotiation process, as with all BRAC 
closure sites, with the submittal of their Economic Development 
Conveyance application. The Navy has offered to help the 
redevelopment authority with that effort but has not been 
requested to do so by the redevelopment authority. The Navy 
would like to bring this portion of the closure process to a 
close, but must wait on the redevelopment authority to submit 
their application.

      Dioxin Traces at Naval Ordnance Station, Louisville Kentucky

    Trace amounts of dioxin compounds were recently detected at 
the Naval Ordnance Station in Louisville in conjunction with 
base closure an realignment actions.
    Question. What is the Navy's responsibility to fully clean 
up the environmental waste?
    Answer. The navy is committed to remediate environmental 
contaminations as required by state and Federal laws in 
conjunction with the transfer of the former Naval Ordnance 
Station to the City of Louisville.
    Question. At what level of funding will the Navy commit to 
this clean-up?
    Answer. Funding requirements will be identified following 
the completion of the evaluation of test results. The Navy is 
committed to comply with all state and Federal requirements to 
remediate environmental contamination and protect human health 
and the environment.
    Question. Is there an established timetable for this clean-
up, and if so, what is the agenda?
    Answer. Testing is in progress to determine if harmful 
dioxin compounds are present at the former Naval Ordnance 
Station at Louisville. Once that determination is made, an 
evaluation will be performed to ascertain clean up requirements 
and establish remediation schedules.

    [Clerk's note.--End of questions for the record submitted 
by Congresswoman Northup.]
                                           Tuesday, March 11, 1997.

                      DEPARTMENT OF THE AIR FORCE

                                WITNESS

RODNEY A. COLEMAN, ASSISTANT SECRETARY OF THE AIR FORCE (MANPOWER, 
    RESERVE AFFAIRS, INSTALLATIONS AND ENVIRONMENT)

                       Statement of the Chairman

    Mr. Packard. This afternoon we're very privileged to have 
with us Mr. Rodney Coleman who is the Assistant Secretary of 
the Air Force for Manpower, Reserve Affairs, Installations and 
Environment. I've had the privilege of meeting with Mr. Coleman 
in my office and I'm impressed with his leadership and I'm 
grateful that he's here.
    We'll focus this hearing on constructions programs of the 
Air Force and, of course, that will include the Air Guard and 
the Reserve. And we're very pleased to have your support team 
with you and we'll have you introduce them, perhaps as your 
first order of business. But before that, I would like to 
simply tell you how pleased I was to find in your testimony 
that you are seriously addressing overseas dormitories and 
facilities at our bases overseas. I was pleased to see that. We 
certainly believe that our military men and women, when they 
are deployed overseas, need to have adequate housing 
facilities. I know that that creates a different set of 
problems than domestic bases, but you have addressed it, I 
think, over the years and certainly you do it in this budget 
proposal.
    I see in your prepared statement that you're sending 
precautionary prefinancing statements to the NATO 
Infrastructure Committee for all of the European projects 
instead of for just a few. The opportunity for you to recoup 
those funds is much better if we submit for all of them, and I 
think that that's a step in the right direction. I compliment 
you on that.
    As you know, we're emphasizing, of course, the quality of 
life issues, the housing for our men and women in the Air 
Force, and we will be concentrating on that as we get to the 
question and answer period. But I think most of us, certainly 
I, have read your testimony completely through and I have some 
questions that I will ask later, but I prefer that you don't 
read the testimony. It took me a long time last night to read 
it all the way through.
    Mr. Coleman. I wouldn't think of it, sir.
    Mr. Packard. But we would like you to summarize, to 
emphasize those areas that you think are very important for 
this committee to hear and to have emphasized. And before we go 
to your statement, Mr. Coleman, and your introductions of your 
team, I'd like to ask Mr. Hefner if he has an opening 
statement.
    Mr. Hefner. Thank you, Mr. Chairman. I have no opening 
statement. We're just happy to have you before the Committee 
and we're going to be looking forward to working with you to do 
what we can to get involved in quality of life issues for our 
military folk.
    And I would like to apologize in advance to you, Mr. 
Chairman. I've got another hearing with the Military Events 
Subcommittee and I'll have to slip out shortly. It's been our 
focus when I was chairman and when Mrs. Vucanovich was 
chairman, our main focus was on quality of life for our, for 
our people in the service. And if we can't afford them that, it 
hurts our retention and it really handicaps us to ask these 
young men to operate the most sophisticated systems the world's 
ever known and live in World War II barracks. So, we're looking 
forward to your--some of your innovations and looking forward 
to a relationship with you, and we appreciate you getting 
before the Committee.
    Mr. Coleman. Thank you, Congressman Hefner.
    Mr. Packard. Mr. Wicker, do you have a statement?
    Mr. Wicker. No, thank you.
    Mr. Packard. Mr. Wicker needs to leave also, so it may be 
just you and me, and that's all right with me if it's all right 
with you.
    And so with that, if you'd please introduce at least your 
key team here to help you, and then proceed as you wish with 
your testimony.

                  statement of hon. rodney a. coleman

    Mr. Coleman. Thank you. Thank you, Mr. Chairman. With me 
today, Mr. Chairman, are members of the Total Air Force Team: 
Maj.Gen. Gene Lupia, the civil engineer of the Air Force; BG 
John Bradley, the deputy to the chief of the Air Force Reserve; 
and BG Paul Weaver, the deputy director of the Air National 
Guard. And we're pleased to have this opportunity to discuss 
with you the $1.68 billion MILCON submittal for FY 98.
    Over the past 18 months, as you're very well aware, the Air 
Force has crafted a strategy that spells out the role of Air 
and Space Force power for the nation in the core mission 
capabilities critical to that strategy. Our responsibility is 
to skillfully forge a supporting facility and infrastructure 
approach to that strategy, and that approach includes the 
emphasis on supporting new mission beddowns, quality of life 
initiatives and reinvesting in our few remaining bases 
overseas.
    We developed an integrated priority list based on the most 
urgent needs of the total Air Force integrating new mission, 
current mission, and environmental projects for the active 
Guard and Reserve. We are on target to demolish our worn-out 
and obsolete facilities and infrastructure in order to reduce 
operations and maintenance costs. We're also looking very hard 
at maintaining only those facilities that we need to meet core 
mission requirements. We are proceeding to effectively 
determine what we need and to look for opportunities to 
consolidate functions in retained facilities.
    But even our best management, Mr. Chairman, of 
decliningresources will not be enough. We have to stretch our dollars 
and use every means available to protect our hard fought-for position 
as the world's most respected and Air and Space Force. Last year's rule 
making that enabled us to pursue privatization of military family 
housing and dormitories hits the mark. We also welcome the opportunity 
to privatize other assets of our physical plant where it makes 
economical and operational sense. We can optimize our resources using 
better business practices, such as privatization or what we call 
corporate asset management. We must think outside of the box, Mr. 
Chairman, and embrace innovations which are not a part of our current 
paradigms. An example is privatization of military family housing and 
dormitories. Right now we have 10 privatization projects at 10 separate 
installations which could produce as many as 4,000 new or renovated 
housing units for our Air Force families.
    Well, you might ask, so what? Can't we do that with our own 
regular MILCON funds? And the answer, of course, is yes. The 
difference is that with privatization we are leveraging our 
resources for about a three-to-one return on our tax dollar, 
getting three times as many units for the same dollars. Our 
people are the foundation of our strength and we must recruit, 
train, and retain the highest quality forces possible. In this 
light, we need to take the needs of our people very seriously.
    Privacy remains the number one concern among our airmen. We 
have focused on the buy out of all remaining permanent party 
central latrine dormitories. With your continued support, we 
will be able to fully achieve this improvement in quality 
living conditions with the FY 99 MILCON program, and then we 
will focus on depleting our 14,000-room dormitory deficit. Our 
'98 quality of life MILCON request includes 10 dormitory 
projects valued at $128 million and 2 fitness centers valued at 
$6.5 million.
    Military family housing is one of our most important 
programs. We're requesting $139 million for FY 98 new 
construction projects at 16 CONUS bases that will construct 70 
new homes, replace 899 existing houses, and replace 1 housing 
support facility. The replacement units will take the place of 
existing homes that are no longer economical to maintain. Our 
housing budget request reflects our long-standing commitment to 
provide our Air Force families with homes in communities that 
are as comparable to private sector housing as we can make 
them.
    So, in conclusion, Mr. Chairman, I thank the Committee for 
its strong support or our military construction program in the 
past and with its resulting benefits in Air Force readiness, 
recruiting, training, and retention. We'll be happy to respond 
to your questions.
    [Prepared statement of the Honorable Rodney A. Coleman 
follows:]

[Pages 618 - 651--The official Committee record contains additional material here.]


    Mr. Packard. Thank you very much, Mr. Coleman, for that 
brief and very well done statement. Because you may not be able 
to be here for the full time, do you have anything you'd like 
to ask, Mr. Hefner?

                    family housing improvement fund

    Mr. Hefner. I just have a couple of questions. In the past 
2 years, there's been $45 million appropriated in the housing 
improvement fund. And what rationale does the Department use 
for the distribution of these funds? Is it going to be allotted 
to the services or held centrally to allow each project to 
compete?
    Mr. Coleman. Well, we're working with the HRSO, the housing 
office at OSD, on this pilot initiative that we're doing. We're 
seeking all the funds that we can get. We believe that we 
would--we hoped to have had our own prerogative to, to use 
those funds without going through OSD, but that didn't come 
about, so we're going to work as hard as we can to get as many 
funds as we can for our projects.
    I was just notified that for our housing project at 
Lackland we got $4 million of that money from HRSO, to use in 
our Lackland initiative where we're going to do 420 houses.
    Mr. Hefner. But how did you go about doing that?
    Maj.Gen. Lupia. Sir, we have 10 projects, as Mr. Coleman 
mentioned, and as we go through each of these projects we have 
some financial performa that we apply to determine if the 
project is economically feasible and how smart it is to do 
really.
    We sometimes come up with some military construction line 
item as seed money. When we have that seed money, we can add to 
it money that comes out of the pot at the OSD level that's 
mentioned. So, when we brought our Lackland privatization 
project to them, as we went through the financial performa, it 
looked like we would need to add some more government money. 
And if that was the case, they're willing to put up to $4 
million into that project.
    We don't know how much we'll need, actually need yet 
because we don't have the responses to our request for 
proposal. They're due this Friday. So, I don't know the exact 
amount to tell you yet, but we do have a commitment that we 
could withdraw from that pot.
    Our second project is one in Alaska which when I brought to 
the OSD staff they committed again to add resources to the 
amount of money that the Air Force has in order for us to carry 
out that project as well. So, we have been getting very good 
support from Mr. Goodman's office in terms of financial 
assistance for our projects.
    Mr. Hefner. On page 15 of your statement, you say ``We need 
housing MILCON to meld with funds from the Family Housing 
Improvement Fund to act as seed money for potential 
privatization initiatives. Without the MILCON funding base, 
privatization as we know it today would not be possible.'' Why 
not? Why couldn't all of your construction of family housing 
units be financed under the Family Housing Improvement Fund?
    Mr. Coleman. If you make a contribution to the fund that is 
substantial enough to take care of the Army, Air Force, and 
Navy, I suppose you could have a redirect to use the funds from 
the fund and not MILCON, but you don't have enough money in 
there. Therefore, you have to use the MILCON funds.
    Mr. Hefner. Okay. I have some other--probably some other 
questions for the record, but we have other members here. I'll 
yield back the balance of my time. Thank you, sir.
    Mr. Coleman. Yes, sir.
    Mr. Packard. Thank you very much. Then we'll have Mr. 
Wicker but he had to leave already. Welcome, Mr. Tiahrt.
    Mr. Tiahrt. Thank you. I don't have very many questions. I 
do have a concern that I'm trying to find a solution for.
    Mr. Coleman. Yes, sir.

                     assistance with buying a home

    Mr. Tiahrt. We have the volunteer services we're all 
familiar with, and some of the things that may be drawing away 
from that voluntary service is the inability to build up equity 
in a home. Many of your officers and enlisted men and women are 
transferred from time to time and they have a difficult time 
purchasing a home as manyAmericans do, and I'm looking for an 
innovative way to help them make a down payment available or some way 
of helping people in the military buy their own home when they're 
stationed. I don't know whether it's stability in assignment or what we 
can do, but last year I lived down in Springfield, Virginia, and many 
of my neighbors in the military had to lease a house at a very 
expensive rate, and they didn't have either the down payment or access 
to a down payment, and I think that's a drawback.
    In fact, one of my neighbors left as a Major in the Air 
Force to go to work for a private firm because he was 
frustrated in that he was facing another tour of duty elsewhere 
and, and he was unable to buy a home. And I think that 
privatization is a good direction to go. One way we could do 
that is find a way that we could get military personnel into 
their own home that they buy. It's part of the American dream. 
And I don't know how to do that yet, but I'd like somebody to 
sit down with a group of officers and enlisted men and women 
come up with some ideas, maybe determine what are the obstacles 
and what can help them achieve home ownership. Is it lack of a 
down payment? Maybe they can borrow against future retirement. 
Or is it instability in assignment? They're looking at too 
short of a tour to feel confident that they can buy a home. And 
some kind of protection if they do get moved prematurely so 
they don't lose money.
    If I work in the private sector and my company says 
tomorrow you're going to be in L.A. or Seattle or somewhere 
else they will quite often buy the house and then allow the 
employee to go ahead. Do you have any idea?
    Mr. Coleman. I'm really pleased to hear you talk out of the 
box like that. What I said in my opening remarks is we have to 
keep on thinking out of the box, stretching the envelope, 
looking at new and creative and innovative ideas to, to give 
the Force what it is due, Army, Air Force, Navy, Marine, Coast 
Guard.
    Such a proposal--I came here from General Motors and they 
bought my house here when I left in 1980 and bought it again 
when I left Detroit to come here. It's a fine program. Again, 
it takes money. I would like to personally commit to you that 
my office will look at that with a group of airmen and officers 
to see if it makes economical and operational sense.
    Sir, I will tell you that the assignment policies of the 
U.S. military, one of the things that we don't want is 
homesteading. We don't want a person staying in a place too 
long. Usually, the assignment is about three or four years and 
then that, that skill that that person has is required 
someplace else. So, you may have a concern there which is 
juxtaposed to me in the private sector where you're there for a 
goodly length of time, even though you could be prone to go to 
the plant in Indiana or something like that. You're still there 
more so than a military person is. But it's creative, it's a 
challenge to us and I'll look into it and report back to you.
    Mr. Tiahrt. Mr. Coleman, I know that Burlington Northern, 
for example--I've never worked for them but I have a cousin who 
did as a chief engineer and about every five years they plan on 
moving their headquarters and they leave behind their dead 
wood. That's how they cull their dead wood. I you don't get a 
move order, then you're in trouble and it's time to go looking 
for a job. So, there are corporations that do plan on keeping 
their executive mobile to some degree, and I think everyone in 
the Air Force understands that.
    But when they vacate a house, it makes it available for 
another officer coming in or another enlisted man or woman 
coming in. It's something that I'd like to see you consider.
    Mr. Coleman. I'll look at it, sir.
    Mr. Tiahrt. Thank you, Mr. Chairman.
    Mr. Packard. Thank you. Before we go to you, Mr. Olver, did 
you complete your statement?
    Mr. Coleman. Yes, I did.
    Mr. Packard. I thought you had. I didn't want to cut you 
short at all. Mr. Olver.

                             project design

    Mr. Olver. Thank you very much, Mr. Chairman. Thank you for 
being here today. Mr. Coleman, is--does the implication--is 
there an implication to the complete design of projects as to 
if a design is completed is that something that is phased into 
gear to then appear on actual construction lists, or is there 
no real relationship there?
    Mr. Coleman. Once--we don't commit to design unless it's in 
a, it's in a program that can be in the FYDP, we can design it, 
put it on the shelf until it's in the appropriations bin. We 
don't necessarily have to go like on the outside where you've 
already committed an appropriation to build the house and 
that's how you've engaged your contractor. We have some things 
on the shelf awaiting appropriations.
    You want to add to that? The civil engineer will--is the 
one who takes care of that, so----
    Maj.Gen. Lupia. Sir, we have, we have a very specific 
formula that we apply to a project that basically says it costs 
us about 9 percent of the value of the project to, to design 
it. We start two years out. So, right now with the money that 
the Congress will give us in this fiscal year, we will complete 
the design of the '99 program and we will begin the design of 
the 00 program.
    Mr. Olver. Wait a minute. This is--are you saying with 
Fiscal 97 monies you'll complete the design of the '99 program?
    Maj.Gen. Lupia. With Fiscal 98 money, sir.
    Mr. Olver. With Fiscal 98----
    Maj.Gen. Lupia. Yes, sir.
    Mr. Olver [continuing]. Dollars will design the Fiscal 99?
    Maj.Gen. Lupia. Yes, sir. We will try to execute this 
year's program as soon as we get a signed bill for '98. So, we 
would have to have finished designing it in '97 in order to be 
able to execute it in '98. So, the $49.5 million of design 
money that the Congress would give us in the '98 bill we will 
complete designing the '99 program and kick off the 00 program.

                       westover air reserve base

    Mr. Olver. Okay. Well, I'm not sure--we'll see--let me--
there was a reason for asking that and it probably will become 
obvious after a while here, but I wanted to get that one kind 
of laid out. I'm from New England and it's--Massachusetts. New 
England has been one of those areas that in the various BRAC 
commissions has, has been just topsy turvy in, in its base 
structures and so forth. There are no active bases left. 
There's one Reserve base at Westover, it doesn't happen to be 
in my district, and there's a series of Guard bases, of course, 
at which Guard units are--Air Guard units are. And so that just 
to indicate--so that you would indicate where I might be coming 
from, I notice thatin the Administration's request for the 
Fiscal 98 budget submission, in the '98 budget submission there's a jet 
fuel storage complex for--at the Reserve base in Westover and there's a 
fire training facility. Good--it sounds like good environmental and 
good safety issues, both of them in the request, and I certainly 
support that request.
    I understand those are fully designed, so they would have 
been fully designed in--what year would those have been fully 
designed?
    Mr. Coleman. To be ready to go now, sir?
    Mr. Olver. Well, they are supposedly fully designed and 
they're in for Fiscal 98 construction, so they must have been 
designed--but I was curious if you would know whether they had 
been designed in--when the completion of the design occurred.
    Mr. Coleman. Sir, I would not know off hand.
    Lt. Col. Green. The fuel pits project or the--project is 
actually sited after the Air Force standard design and that's 
what's----
    Maj.Gen. Lupia. Mr. Congressman, we have these fire 
training pits for our fire fighters to train on at every Air 
Force base. And so, rather than paying an architect/engineer 
firm to design one, we just took the standard design and we put 
it down in Westover.
    Mr. Olver. Okay, that's the problem. What about the fuel 
jet storage complex, would that have been designed 
individually?
    Maj.Gen. Lupia. Yes, sir.
    Mr. Olver. That would have been designed--when would--you 
may not know this but I would just ask the question for my 
information. I haven't gathered this information, serving for 
the first time on this committee, to, to know what context 
we're working with. I'd like to know----
    Mr. Coleman. We'd be happy to go over that in detail with 
you, sir. However, as the gentleman explained a little while 
ago, it's about a year or so, depending on the complexity of 
the project----
    Mr. Olver. Okay.
    Mr. Coleman [continuing]. That you would go before you 
wanted to build that project. At least a year, with all the 
approvals and et cetera, et cetera.
    BG Bradley. Sir, that fuel storage is actually not an Air 
Force project. It's a Defense Logistics Agency fuels project. 
You were right about the fire training, that is an Air Force 
project. But we will be glad to----
    Mr. Olver. Provides you with----
    BG Bradley. But it would be no different, sir.
    Mr. Olver. So that they would have designed it different--
--
    BG Bradley. Correct.
    Mr. Olver. Fine. Let me take another Westover project which 
is here, which I know of. There is a UH-1 flight simulator 
renovation planned there that I understand is also fully 
designed. It was--I'd asked this of the Army people because 
the, the unit is actually an Army helicopter unit and I--this 
is an instance to, to know. Does that renovation of a building 
that's on the Reserve base, is that something that comes out of 
the Army's----
    Mr. Coleman. Army's, yes, yes, sir.
    Mr. Olver [continuing]. Monies and you wouldn't know 
anything about that? But if it's fully designed, then 
presumably it's----
    Mr. Coleman. Ready to go.
    Mr. Olver [continuing]. It's ready to go.
    Mr. Coleman. With an appropriate appropriation.
    Mr. Olver. And should be--or could be or should be, 
whatever, in this construction. Let me then follow--there has 
been a proposal for some time for a control tower. The control 
tower at that Reserve base, which, of course, was the number 
two SAC base back in the late--in the sixties and on through 
the seventies. It was the chief eastern base, to go along with 
Offutt in Omaha.
    That control tower there was built in 1962. In 1992, the 
report in regard to that, and I'm reading from the report, says 
that the current facility was constructed in '62. This was in 
their request for $3 million for a control tower. The location 
of the tower creates an accessibility problem. Hangar lighting 
and future improved ramp lighting does have an adverse effect 
on the controller's vision. There are movement areas that due 
to the parking of C-5 aircraft are no longer visible from the 
tower. The height of the building is not sufficient to, to see 
movement areas.
    It goes on and says it's 130 feet high with no elevators. 
Therefore, supplies and equipment have to be carried up 10 
flights of stairs, and so on and so forth. It sounds as if it's 
a rather--the final, final words here, ``failure to replace 
existing tower will force continued operation from an unsafe, 
undersize, antiquated control tower which is a safety hazard 
and will increasingly add to the chance of aircraft mishaps.''
    I don't see it yet as having been designed. It was on that 
request five years ago already. Where are we on it?
    BG Bradley. Sir, we have it on our Air Force Reserve 
priority list, but it's outside the five-year Defense plan. 
It's a $3 million project, like we talk about. It is an old 
tower but it's not unlike many other towers that we have, very 
tall. Hardly any of them have elevators. That's just the 
standard they were always built to.
    Mr. Olver. It's good exercise.
    BG Bradley. Yes, sir, it's great exercise. I've been up and 
down many of them. And we would like to get it replaced at some 
point, but it's just--it's too far down right now. But it's 
certainly adequate to do the job and it's not unlike many other 
control towers we have around the system.
    Mr. Olver. Is design done out of a general contract for 
design? Do you--or is that done on specific projects? For 
instance, well----
    BG Bradley. On specific--a very specific project, yes, sir.
    Mr. Olver. Very--so, the design which is 10 percent of--on 
average, of these kinds of projects, if the whole project is a 
$13 million project, at some point you've got to bring forward 
a design. Would we see that as a design and request from the 
Administration in one fiscal year and then, and then follow 
after it's done with a request for the actual construction 
monies at a later time?
    Mr. Coleman. As you might know in my----
    Mr. Olver. Or does it appear all in the same----
    Mr. Coleman. In this submittal, sir, I've asked for $41 
million for design money.
    Mr. Olver. Oh. And does that list exactly which ones are to 
be designed? Is this project in that group?
    Mr. Coleman. No, sir. No, sir.
    Maj.Gen. Lupia. Sir, we have a requirement to get--make 
Congressional notification for projects which require 
over$300,000 in design costs, and only those projects do we submit by 
line item to the Congress for approval. As a notification, I really 
should say.
    Mr. Olver. All right. Well, Mr. Chairman, I'll continue as 
long as you'll allow me.
    Mr. Packard. Go ahead.

                      base realignment and closure

    Mr. Olver. Okay. The--it's my understanding that as part of 
the BRAC closure arrangements that there is a unit which has 
been brought from the--already brought from, from the Weymouth 
Naval Air Station a Marine Air Reserve unit which is now housed 
at the Westover Air Force Reserve base. And I--it seems to me 
to reflect on what you've said about co-locations and 
cooperative efforts to try to be efficient and cost-effective 
in the, in the process.
    How--that unit has come--I understand that they would like 
a Marine Reserve center on, on the grounds of the Westover 
base. The unit's been moved from the Naval Air Station which is 
under the--in the '95 BRAC closure and it's cited for, for 
final--that base is cited for final closure a couple years down 
the road, but the unit has already moved to Westover. Is that 
one that, that would be--this is one--if it's cooperative, it's 
going to either be funded by Air Reserve or funded by Naval 
Reserve, or else it's going to fall between the----
    Mr. Coleman. Marine Reserve.
    Mr. Olver. Marine Reserve?
    Mr. Coleman. Yeah.
    Mr. Olver. Well, that comes out of the Navy, I think, and 
it's going to fall between the cracks because it really is--
it's not a specific kind of fish here.
    Mr. Coleman. We hope it doesn't fall through the cracks. 
We, as the executive agent of a base, of course, would accept a 
fellow service but they would have to appropriate their own 
funds for their facilities. There are, there are differing 
arrangements that can be made, but with regard to Westover, 
Gen. Bradley, if you'd like to amplify----
    BG Bradley. Sir, you're exactly right. We would have an 
agreement between the Department of the Navy and the Department 
of the Air Force to bed the unit down there and we will assist 
them with that beddown, we'll assist them with the project. But 
the Navy Department would fund that military construction 
project out of the BRAC account. It would be paid out of the 
BRAC account, I'm sorry. But we would provide the civil 
engineering support as the host at Westover for that Marine 
Reserve unit.
    Mr. Olver. Okay. Do you know if that has been--that 
agreement has been reached?
    BG Bradley. Sir, I don't, but--sir, I----
    Mr. Olver. Could you----
    BG Bradley. I would imagine----
    Mr. Olver. Would you check on that for me?
    BG Bradley. Yes, sir, I will find out and we will report 
back to the committee on that. Take that for the record.
    [The information follows:]

    The Marine reserve unit was moved to Westover ARB as a 
result of BRAC 95. The unit is currently working out of interim 
facilities on Westover. The interim facilities are eight excess 
Military family housing units controlled by the Navy. The 
permanent fix for their facility needs is to renovate building 
1900, a 46,827 square foot concrete building. A permit has been 
issued allowing the Marines to use the family housing and an 
agreement for use of the Building 1900 has been drafted. The 
building 1900 renovation project will cost $4.1M and is 
currently in Navy/Marine FY-99 program in the Military 
Construction, Naval Reserve Account.

    BG Bradley. The Air Force and the Navy, of course, will 
abide by the BRAC decision to bed the unit down there. So, 
there's no issue between the departments on it. I don't know 
the status on it but I'll find that out and we will report that 
to you.
    Mr. Olver. I'd like to know the status of--I take it there 
would be some sort of an agreement that would be reached before 
the other agency would--since they're going to spend the money 
on it, would start the rehabilitation or remodeling design.
    BG Bradley. Yes, sir. I'll go back this afternoon and I'll 
be able to find out the status, where we are in that process 
and I'll be able to get it.

                    meps: springfield, massachusetts

    Mr. Olver. Well, also, since we're on that Reserve base, 
there is a, there's a military entrance processing station 
that--because that is the Reserve base, there's a military--a 
MEPS station in Springfield which is, you know, 10 miles, is 10 
miles away. But it has then required--I'm told the belief of 
the people at--with the Westover base is that there's a 
considerable cost associated, and inconvenience, but 
particularly cost of, of housing people who come in for that 
entrance processing that they believe could be very, very much 
reduced, as well as the efficiency, if the one--if the major 
Reserve base also had the MEPSstation on that base. Do you know 
anything about where that would lie in the plan?
    Mr. Coleman. Sir, this is the first I've heard of that. 
Brad.
    BG Bradley. Sir, I am not familiar with any proposal. I 
have been to Westover within the last year and I am not 
familiar with any proposal to move the MEPS station to the 
base.
    Mr. Olver. The station itself is in rental space.
    BG Bradley. Yes, sir.
    Mr. Olver. Therefore, there's a cost associated with that 
because we do have, we do have extensive barracks at the 
Westover base. It also involves--that's the administrative 
station. It also involves the housing of people in hotel rates 
in--rather than at--using barracks that we already own and 
operate.
    BG Bradley. Well, we have some limited billeting there, 
sir, but we really don't have a great--what I would call an 
excess of billeting there. Our C-5----
    Mr. Olver. An excess ability?
    BG Bradley [continuing]. Reserve flying wing there is a 
very large outfit, and when we have our reservists there for 
training we don't have enough billeting on the base. So, I 
would have to look at the numbers we're talking about for the 
MEPS processing to see if what we have there might be able to 
help offset some of those hotel costs. But we'd have to look at 
that, and I've not heard any proposal. We'd certainly entertain 
it and look at anything that would help save money for DoD, no 
doubt. But I am not sure that we have what it would take, but 
I'll find out. I will look at it. I've not heard any proposal 
on it.
    [The information follows:]

    The proposal to relocate the Military Entrance Processing 
Station from leased space in Springfield to Westover ARB is in 
the planning stages. MEPS projects are funded through the Army 
MCA program. Currently the MEPS is in space in the federal 
building in downtown Springfield, Mass. The GSA rental cost is 
$473,000 per year. Building a facility at Westover would 
provide adequate space with physical security and services 
needed for in-processing new recruits. The cost for the 
23,120SF facility is $3.7 million and would pay for itself in 
7.7 years. Additional savings would accrue by using billeting 
facilities available during the week at Westover.
    Military Entrance Processing Command (MEPCOM) has a 
definitive design which could be site adapted (minimal design 
required) to Westover. MEPCOM has been unsuccessful at 
obtaining additional funds for this facility over the past five 
years. The point of contact for Headquarters US MEPCOM 
facilities is Major Gregory Tuite at 847-688-3680 ext 7251.

    Mr. Olver. Okay. Well, Mr. Chairman, do I continue or not?
    Mr. Packard. Why don't we come back?
    Mr. Olver. We've got other people.
    Mr. Packard. Why don't we come back to you? And before we 
go on to Mr. Edwards, let both you and Mr. Kingston catch your 
breath, let me start asking some of the questions that I have.

             military construction integrated process team

    I was very intrigued by your--what I perceive to be a new 
policy of your program overview and how that you have a team, a 
process team that literally prioritized your projects. Frankly, 
I'm impressed with that concept and I think that it's something 
that has good merit, not only for the Air Force but could 
possibly be used in other branches of the services. Are you 
aware of other branches of the services using that technique 
yet?
    Maj.Gen. Lupia. No, sir.
    Mr. Packard. One of the reasons that I'm intrigued by it is 
because I think one of the areas where I have, in my 
observations and research, have felt that the Guard has been 
given--and in some instances perhaps the Reserve--has been a 
stepchild to the active duty operations of some of our branches 
of the services. Under this procedure, it appears that you will 
evaluate Guard projects on an equal basis with all of the 
others? I'd like you to review the process for me and just 
exactly how it works, and then I may have some specific 
questions on it.
    Mr. Coleman. Yes, sir. Your questions goes to a number of 
other things. I would ask you to permit me to ask Gen. Lupia to 
go into some brief detail of the process. I will tell you that, 
as you have discussed with the Chief, we have used our MILCON 
this year to pay some bills in modernization. I will have you 
know that the process that you're about to hear from Gen. Lupia 
has involved the Guard and Reserve from its inception to its 
conclusion, and the rack and stacking of projects that show 
that the Guard and Reserve receive less in this submittal than 
last year, less than the active, is a conscious decision by the 
leadership of the Air Force because we had bills to pay.
    We also have said to you on other occasions that--and the 
Committee that we're going to do this for this year and next, 
and then we're going to ramp up and we're going to take care of 
some things that we haven't taken care of during the '98 and 
'99 MILCON submittal.
    Mr. Packard. In your response, Gen. Lupia, I'd like you to 
address two or three points then. Number one, who makes up the 
team, or how's it structured. Number two, do you operate or 
does this team operate on a 5-year plan or 6-year plan, 
whichever you're under. As you know, I've asked for 5-year 
planning and apparently you're doing that now, and I'd like to 
see how this evaluation process works as a project moves up the 
ladder in terms of priorities and in terms of timing, 50 or--on 
up to the first--to this current year.
    Is your budget being, being developed on that long-term 
plan and the prioritization process? And again, are you 
requesting and receiving from the Guard and the Reserve their 
priority lists, or are you doing that, or are you leaving that 
to the Committee to do?
    Those are some of the things I'd like you to address as 
you, as you amplify on this new structure.
    Maj.Gen. Lupia. Sir, let me first explain that the Air 
Force corporate structure is made up to deal with every 
problem, every process, resource allocation, and that in every 
step along the way the active force plays equal role with Air 
National Guard and the Reserves. They are players on the entire 
process.
    This Air Force corporate structure, as we call it, starts 
at the lowest level, made up primarily of action officers. As 
you mentioned earlier, the captains and the majors in the room 
that do the work and our civilian colleagues. They are on 
teams. The team that we're specifically homing in on here is 
the Military Construction Integrated Process Team. That is one 
of seven teams that reports to the Installation Support Panel. 
So, we have a team looking at housing, we have one looking at 
military construction, we have one looking at the environmental 
business, we have one looking at the BRAC business, et cetera.
    The panel, in essence, works for me. It is headed by a GS-
15, a colonel equivalent. There are about 12 panels across the 
air staff. The panels report to the Air Force Group, Air Force 
Group primarily made up of colonels. The Air Force Group 
reports to the Air Force Board, made up of general officers, 
usually at the one- and two-star level, and senior executive 
service civilians. The board reports to the council. I am a 
council member. Mr. Coleman is a council member. The council is 
chaired by the Vice Chief of Staff of the Air Force. So, every 
decision that is made starts at that level and works its way 
all the way up through the corporate process in terms of 
practically every resource decision.
    To get into the specifics of your question about military 
construction, 1998 program is the first time we used this 
process. The tasking, to me as the Installation Support Panel 
chairman, the chairman works for me, was to make sure that 
every dollar that the Air Force spent, active, Guard or 
Reserve, was spent on our highest priorities. And so, we 
established a system where each project that was submitted by 
our major commands, by the Guard and Reserve, was, in effect, 
given a numerical rating, given points for different things.
    We had a submission of $1.4 billion worth of requirements 
for FY 98. We had to get those $1.4 billion into a sack that 
only held $595 million worth of military construction that's in 
front of you today. If you could kind of picture a matrix, and 
we have five categories across the top of the matrix and four 
categories down the side that have to do with how critical the 
project was to the mission--for example, you get the highest 
grade in this category if it happened to be a counterterrorism 
project or a counterproliferation project--then essential to 
the mission, then part of mission accomplishment, and then an 
enhancement to today's mission.
    On the vertical axis, so to speak, we have a fact of life 
that is required by law, an environmental project that is 
required by an environmental law, for example, would score the 
highest. Fact of life, something being directed by the chief of 
staff or the Secretary of the Air Force. Other categories, 
corps modernization, readiness sustainability, quality of life, 
and then sort of another--sort of where other projects didn't 
fit, sort of another category.
    We gave additional sort of bonus points for projects that 
included some demolition, where we would remove some square 
footage. We give a little bonus point for that. We gave extra 
points if it was a CINC's integrated priority list supporting 
maybe CINC South or CINCPAC. We, we took into account the 
timing of a project. For example, when we were prioritizing a 
project maybe we couldn't afford to have a facility torn down 
at that time or, on the other hand, maybe we would have had 
expensive work arounds in the O and M account if we didn't do 
this project.
    All of that was scored by all of the members of this 
Integrated Process Team so that each project eventually came 
out with a very specific score of, to three decimal points, 
9.856.
    Mr. Packard. And are you prioritizing your request for 
money based strictly upon that point system?
    Maj.Gen. Lupia. Absolutely, sir. The $595 million in front 
of you comes from that system. We had the $1.4 billion then 
with the highest score at the top, the lowest score at the 
bottom. We drew a line where we ran out of money, which was 
$595 million. If a Guard project was above that line, it was 
funded; if it was below that line, it was not. If an active 
project was above that line, it was funded.
    Mr. Packard. Are you operating on a 5- or a 6-year plan?
    Maj.Gen. Lupia. Five-year plans.
    Mr. Packard. Five-year plan?
    Maj.Gen. Lupia. Yes, sir.
    Mr. Packard. Have you projected that down on a 5-year plan? 
You mentioned to Mr. Olver that a project he referred to had 
not reached the level where it entered into your 5-year plan.
    Maj.Gen. Lupia. Exactly, sir. And we take the projects that 
did not get funded in the '98 budget and we roll them into the 
'99 budget. But we did reach for them because there are 
different criteria. The major command, four stars, have an 
opportunity that they have as many points to give to a project 
as we did at the Air Staff, so we were sure that we weren't 
trying to second-guess the commanders in the field.
    So, before we just took the list and moved it to '99, we 
regraded the projects, in essence, to make sure that priorities 
hadn't changed for one reason or another. But basically, the 
bottom of the '98 list, the first projects that didn't make it, 
went to the top of the '99 list, to the 00 list, to the 01 
list, et cetera.
    Mr. Packard. What accommodations do you have for changing 
your plan or amending it?
    Maj.Gen. Lupia. Sir, we have an opportunity to take down to 
OSD a change twice a year if we need to.
    Mr. Packard. Well, by that I mean, supposing circumstances 
would affect one of those that was high on your list, maybe to 
be done next year, not this year's budget but maybe '99, and 
then for a variety of reasons it was no longer either necessary 
or would be listed lower in terms of priority?
    Maj.Gen. Lupia. We have----
    Mr. Packard. Do you have the ability to make changes?
    Maj.Gen. Lupia. Yes, sir. Yes, sir, we have a final look at 
the '99 program, for example. About the end of April we'll have 
our final look at it to prepare it to go to OSD in June, mid-
June. So, yes, we keep fine tuning the list.
    Mr. Packard. Now, with the Guard and the Reserve as an 
integral part of your whole mission, I read that throughout 
your whole statement, Mr. Coleman, and I think that's 
noteworthy. As their missions, the Guard, for example, or your 
Reserve particularly, they are mission-oriented, are they not? 
The units are mission-oriented?
    Maj.Gen. Lupia. Absolutely, yes, sir.
    Mr. Packard. And as that particular unit's mission really 
emerges as a top priority, then their projects would be 
evaluated on an equalbasis with your active duty projects?
    Mr. Coleman. Yes, sir.
    Maj.Gen. Lupia. Absolutely. Yes, sir.
    Mr. Packard. Are you satisfied with this system that's new?
    Maj.Gen. Lupia. Sir, after we used it for the '98 program 
we brought in each of the major commands, brought our 
representative into the Pentagon. All the staff functions at 
the Pentagon met for about three days. We tweaked the system a 
little but we came to the conclusion we had a good system.
    Mr. Packard. It's working.
    Maj.Gen. Lupia. We tweaked it a little bit and it's 
working, and we would continue to use it, and we therefore used 
it to rack and stack our '99 program.
    Mr. Coleman. It's a peer system. I mean, it's got input at 
every juncture by those who are supporting the projects, and 
it's as fair a system as you can given as complex a nature of 
our business as we have.
    Mr. Packard. Now, are each of your units, Guard units, and 
Reserve units, and Active Duty units, are they submitting, 
then, to you under this plan a five-year projected plan, or 
haven't you reached that point yet?
    Mr. Coleman. Yes, sir, MAJCOM's.
    Maj.Gen. Lupia. Through their Major Command headquarters, 
yes, sir. The Major Command headquarters actually does an 
integration first at their level for their bases, and then we 
and their staff do the integration of eight or nine lists that 
we wind up getting.
    Mr. Packard. I'll be very interested in following the 
tracking, how that proceeds, because that certainly conforms to 
my idea of long-term planning and making certain that all units 
receive equal weighting in terms of prioritizing. One of my 
concerns, and I believe the concern of this Committee, is that 
some units may be left as stepchildren that were never really 
brought into the loop and weighted alongside of the Active Duty 
or Reserve, and I'm particularly talking now about the National 
Guard. Thank you very much for that rather extensive review. 
Mr. Edwards, let's call you next.
    Mr. Edwards. Chairman, I will pass to allow the members to 
continue with this. Thank you.
    Mr. Packard. Mr. Kingston.

                    family housing improvement fund

    Mr. Kingston. Thank you, Mr. Chairman. Mr. Secretary, let 
me ask you a couple of basic questions coming from a new member 
of this Committee. I understand you've put emphasis on family 
housing privatization.
    Mr. Coleman. Yes, sir.
    Mr. Kingston. But there's no appropriation request for the 
Family Housing Improvement Fund for FY 98?
    Mr. Coleman. We took $4 million from the fund that was 
given to HRSO. Those funds were given directly to OSD.
    Mr. Kingston. That's the transfer authority.
    Mr. Coleman. Correct.
    Mr. Kingston. And why do you do it that way? Because I 
understand there's $45 million that's been appropriated for the 
Family Housing Improvement Fund.
    Mr. Coleman. I'm going to let General Lupia pipe in. We 
didn't want it to go there in the first place, but that's not 
the response that you want.
    Mr. Kingston. I'm new at this.
    Mr. Coleman. Yes, sir.
    Mr. Kingston. I don't know, I wish I was smart enough to--
--
    Mr. Coleman. We wanted it to come direct to the Air Force 
and to be managed by the Air Force leadership, but it didn't 
work out that way so we're working on the process with OSD. 
It's adding a little time, I think, to the whole process but--
Gene, if you want to----
    Maj.Gen. Lupia. Mr. Congressman----
    Mr. Kingston. Let me ask you one----
    Maj.Gen. Lupia. I'm sorry.
    Mr. Kingston [continuing]. Question along----
    Maj.Gen. Lupia. Sure.
    Mr. Kingston [continuing]. Is this fund being a substitute 
for the construction account or is it going with the original--
--
    Mr. Coleman. It complements the construction.
    Mr. Kingston. Because I know it was supposed to be a 
supplement
    Maj.Gen. Lupia. Sir, to answer the easiest part of your 
question, the fund complements what we're doing through the 
Military Construction Program. It does not substitute for it. 
As a matter of fact, that's the whole reason we got started 
down this path.
    In the Military Construction Program, we wound up trying to 
take care of houses that averaged 34 years old. We have 110,000 
of them in the Air Force and 58,000 of them need major work, 
and so as we looked at the investment in today's Military 
Construction Program we figured out it would take us 26 years 
before we'd get through those 58,000 houses. And, oh, by the 
way, while we got through those the good ones today would have 
26 more years of wear and tear on them. So we're almost in a 
spiral that wouldn't work.
    So we looked to our authorities in privatization to help us 
solve this problem, to complement the Military Construction 
Account. When offered the opportunity to contribute some Air 
Force money, family housing money, into this larger kitty, we 
decided it would be better for us to keep a grip of our own 
money and have the flexibility to use it to seed a 
privatization effort, or in some places where a privatization 
effort would not work, we would still have the flexibility to 
improve our houses using the Military Construction line item.
    For example, the one project that the Air Force has on the 
street today for Lackland Air Force Base gets seed money from 
the FY 96 and FY 97 Military Construction Program. Our project 
at Robins Air Force Base in Georgia gets seed money from the 
'96 and the '97 programs. We have a big project we'd like to do 
at Elmendorf Air Force Base, Alaska, and in the '98 program in 
front of you we have $12.8 million which we think we could use 
for seed money to help along with this privatization effort.
    We try to get back about $3.00 for every one we invest of 
government money. We would like private industry to match us on 
the 3-for-1 ratio.
    So we believe that by not putting this money into the 
bigger account we have more flexibility to use it to the best 
interests of our family housing account.
    Mr. Kingston. Okay, let me ask you this, and I think you're 
already--you're clarifying it for me, but on page 15, the 
statement Mr. Coleman has is ``we need Housing MILCON to meld 
with funds from the Family Housing Improvement Fund to act as 
seed money for potential privatization''--
    Mr. Coleman. Correct.
    Mr. Kingston [continuing]. ``Initiatives, and without the 
funding privatization as we know it today it would not be 
possible.''Are you saying the money is needed to be kind of a 
jump start?
    Mr. Coleman. Correct.
    Maj.Gen. Lupia. Yes, sir.
    Mr. Coleman. Correct.

                             privatization

    Mr. Kingston. All right. Let me ask you a couple cats and 
dogs: if you have a project that's already fully funded, if it 
had been funded under privatization authorities, wouldn't it 
have gone quicker? Right now you've got something that's on the 
books, being worked, but it's not going through privatization. 
Isn't it going to take longer to work down that 58,000?
    Mr. Coleman. Not necessarily. This--nobody has much 
experience in this. This is a test. We're hoping that lessons 
learned from this can be expediting the next one. We would like 
to have the ability right now to go out and have four, five, 
six, or seven, whatever the civil engineer defines as needed to 
be done. If we could contract with private-sector developers 
who are interested in looking at the deal that we would present 
with regard to a ready market there for their housing using the 
BAQ as a payment, we would be all over the map at places that 
are needing housing right now to complete that stuff. So we've 
got to wait, based on the rules of HRSO and the privatization 
authorities.
    Mr. Kingston. Is there anything this Committee or Congress 
can do to speed that up?
    Mr. Coleman. Keep on supporting us for innovative, creative 
ideas like getting rid of scoring and some other things that we 
need from OMB, and----
    Mr. Kingston. Do we have a list of that?
    Mr. Coleman. I believe it is in our record as saying what 
has been--what we feel is necessary. I would be happy to look 
at supplying that again to the Committee.
    [The information follows:]

    In relation to scoring, OSD is working with OMB to 
determine appropriate procedures. One improvement would be to 
broaden the applicability of the authorities. The housing 
privatization legislation should be amended to allow the 
Services to transfer base realignment and closure (BRAC) funds 
into the Family Housing Improvement Fund to enable use of these 
authorities at bases that receive new/augmented missions as a 
result of BRAC actions. The authorities should also be expanded 
to include all facilities and utilities rather than only 
housing.

    Mr. Kingston. But right now you have a family housing 
deficit of 58,000----
    Maj.Gen. Lupia. No, sir, not a deficit. Of the 110,000 
houses that I am the landlord of 58,000 of them need major 
work, major repairs.
    Mr. Kingston. All right, do you have a privatization goal, 
an initiative, a mission? Is that broken down somewhere?
    Maj.Gen. Lupia. Well----
    Mr. Coleman. Yes. Yeah, we have a goal that's definitive. 
The overall--the over-arching goal is to provide safe, 
affordable housing for our troops in the next new Air Force. 
We're doing work now, sir, in order for the next new Air Force, 
which is in the next millennium, to not have to come before a 
committee of this sort yelling for monies to take care of the 
troops, that has a morale problem with the troops, that the 
people-first philosophy goes on and becomes a permanent part of 
the Air Force way of life, which has always been high for us, 
that we take care of our troops; but now we are getting to the 
point where our housing is so dilapidated and so small, ill-
planned, shoddily erected in some cases, that it's costing 
major, major amounts of money just to put Airman and Mrs. Jones 
into that house.

                  moffett federal airport, california

    Mr. Kingston. Well, let me ask you about this at Moffett, 
the federal airport in California. You have 711 family housing 
units.
    Mr. Coleman. Um-hum.
    Mr. Kingston. And all but 20 of them you planned to declare 
surplus--120, excuse me.
    Mr. Coleman. Where, sir? Where? Moffett's Navy. We don't 
have anything----
    Mr. Kingston. You're not operating them?
    Mr. Coleman. A National Guard unit at Moffett but----
    [The information follows:]

    The Air Force operates and maintains 804 family housing 
units near Moffett Federal Airport, California; 693 of these 
are on Onizuka Air Force Base and the remaining 111 are on 
Moffett Field. With closure of the Air Force Space Command's 
750th Space Group, the 693 family housing units at Onizuka will 
be excess to Air Force needs. The Air Force intends to retain 
only those housing units in direct support of the remaining 
missions at Onizuka. These missions should be completed within 
10 years at which time the remaining 111 units will be declared 
excess to Air Force requirements.
    Once declared excess, facilities can be transferred to 
another service or government agency that has a valid 
requirement for the facilities. The Navy has not, at this time, 
requested the excess units. If requested, there is no Air Force 
impediment to the transfer.

    Mr. Kingston. Well, then that's an easy question for you. 
Mr. Chairman, how much time do I have? I have some other--
because I don't want to, if Mr. Edwards is ready----
    Mr. Packard. Let's catch you on the next cycle. Is that all 
right? Let me ask one or two more questions.
    Mr. Kingston. Sure.

                             c-17 bed-down

    Mr. Packard. And then we'll go to Mr. Olver. A couple of 
little points I noticed as I read through your testimony. 
Thompson Field at Jackson, Mississippi is designated as your 
Air National Guard operating location, and yet I noticed that 
the bed-down requirements have not been yet determined. Why is 
that? Is that because, again, it hasn't reached priority or is 
it because you haven't gotten to it yet?
    Maj.Gen. Lupia. Sir, I presume your question is about the 
C-17 bed-down----
    Mr. Packard. C-17 beddown, yes.
    Maj.Gen. Lupia. Charleston, then McChord, training at 
Altus, and the first C-17 would not arrive at Thompson until 
2004-2005.
    Mr. Packard. So that's the reason.
    Mr. Coleman. Correct.
    Maj.Gen. Lupia. Yes, sir.

             troop housing--``1 plus 1'' barracks standard

    Mr. Packard. Okay--the One-Plus-One barracks standard, 
you've already started that process, and that's the high 
priority for the Air Force----
    Mr. Coleman. Absolutely.
    Mr. Packard [continuing]. More so than some of the other 
branches of the services, I detect. How are you proceeding on 
that and are you on target, and how do you plan to get to your 
goal?
    Mr. Coleman. We're--I'll let Gene pipe in here, too. One-
Plus-One is our absolute mission to get the young troops into a 
one-plus-one configuration. If--again for the next new Air 
Force, to get them out of the 90 square feet per person that 
they've got now and the two-plus arrangement. Give each person 
about 118 square feet, bring them up to modern standards, give 
them what they're used to at home, and incentivize (sic) them 
by saying ``we take care of our troops.''
    When we're going to build out of that, if we had the money, 
we would be building dorms in every cycle every place we could 
to get to--to get rid of some of what we deem to be very, very 
poor housing.
    Mr. Packard. Does your plan include privatization--will 
that accelerate your efforts to get----
    Mr. Coleman. Right now we don't have a fix on exactly what 
we can do in the private sector with dormitories. That's all 
being discussed now with the private sector to look at what 
could they do, how could we do it, and how could it be 
maintained and operated.
    Gene, do you want to add to that?
    Maj.Gen. Lupia. Yes, sir, I believe that's being done in 
the other branches of the service now.
    I'll do the easy part first, Mr. Chairman. On the dormitory 
piece, we have selected--we had eight nominations from our 
major commands. We have selected two bases that we are going to 
do a--again, a financial performance to determine if 
dormitories being built by the private sector will work; and we 
expect a report back. We promised the staffers of this 
Committee that we'd report back in May. We should have our 
report from the contractor in April to tell us whether this 
looks financially feasible.
    The real issue is you build a building with, say, 200 rooms 
in it. Each airman assigned there gets a housing allowance 
somewhere between $300.00 and $400.00 if he were to live 
downtown. So instead of him paying rent downtown, he would pay 
rent to this person who would build the dormitory for us, and 
really the question is will the cash flow take care of it?
    Mr. Packard. We'll pencil that in.
    Maj.Gen. Lupia. Yes, sir. And so we hoped to report to you 
in May on our progress there.
    Mr. Packard. But you----
    Mr. Kingston. Chairman, would you yield for a second?
    Mr. Packard. Of course.
    Mr. Kingston. Have you looked at the U.S. Post Office 
model? Is that applicable at all?
    Maj.Gen. Lupia. Yes, sir, as a matter of fact, in the 
privatization we've been working with the NIH Initiative and 
with the U.S. Post Office. They've done some great things in 
privatization, and we've partnered with them, we've been 
together with them to get sort of lessons learned from there.
    Mr. Kingston. Thank you. Thank you, Mr. Chairman.
    Mr. Packard. But you're on target on your efforts towards 
One-Plus-One right now.
    Mr. Coleman. Yes.
    Maj.Gen. Lupia. Yes, sir.
    Mr. Coleman. Absolutely.
    Maj.Gen. Lupia. Beginning with the FY 96 program, we're not 
building a dormitory in the Air Force for a permanent party 
that's not the One-Plus-One standards. So we've got----
    Mr. Packard. What about refurbishings?
    Maj.Gen. Lupia. Same thing, sir.
    Mr. Packard. Same thing?
    Maj.Gen. Lupia. To invest--our investment to renovate, we 
convert it at the same time we renovate it. Unless it's a roof 
leak we're working or something of that nature.
    Mr. Packard. Fine. Let's go ahead with Mr. Olver.

                         joint force management

    Mr. Olver. Thank you again, Mr. Chairman. Just to complete 
where I was before, I'm particularly interested, especially 
with BRAC closures and the possibility--there are several of 
these that I've explored over the last several hearings with 
Army and the Navy, of the--the co-locations, it seemed to make 
some sense over time, and this one that I mentioned of that 
unit that has come from the--with the naval stations already on 
the grounds at the Westover Reserve Base, your Reserve base, 
that that runs smooth, and so I'm particularly interested in 
how the arrangements happen between two services. I--is it you 
who will talk with me further on that?
    Mr. Coleman. Yes, sir.
    Mr. Olver. Who are you assigning to do that?
    Mr. Coleman. We can all talk to you further on that because 
consolidation will be a wave, again, into the next millennium. 
We have some prime examples of where we can co-locate and 
operate to the defense of the nation. At Dobbins Air Force Base 
in Atlanta, Georgia, is the consummate example of joint force 
management where you have Marines, Navy, Army, Air Force all on 
one base. Of course, it's all Reserve, but it's all on one 
base. They're there on some weekends where there's about 10,000 
people on that base, and they're flying, they're operating, 
they're training, they're doing everything. There are a lot of 
examples, in my estimation, around the horn where there could 
be some co-location depending on the job that that particular 
unit is doing. To--flying operations on a base, I would not 
know. I could not venture a guess because I don't have that 
abilityright now but----
    Mr. Packard. Will the gentleman yield?
    Mr. Olver. Sure.
    Mr. Packard. Is there a coordination between the branches 
of the services in their training activities or do they do 
their own thing?
    Mr. Coleman. We're--no, we are talking at my level, the 
assistant secretaries that come before you, Robert Pirie, and 
Mike Walker, and myself, are talking about that, about what 
could happen, where could it happen. We haven't come to any 
conclusions as yet.
    Mr. Packard. Thank you.
    Mr. Coleman. Brad, do you want to add to that?
    BG Bradley. Well, sir, you're exactly right. There's been 
great cooperation among the services. He had mentioned Dobbins 
Air Reserve Base in Atlanta. We've got one in Fort Worth, 
Texas, that through the two rounds of base closure lost 
Carswell Air Force Base. It's now Naval Air Station/Fort Worth. 
It's a joint reserve base that has Navy Reserve, Army Guard, 
Army Reserve, Air National Guard, and Air Force Reserve all at 
the same place, and there's more flying there now, all reserve 
components, than there was before when it was a large Strategic 
Air Command base.
    March Air Force Base has Guard and Reserve both there. 
Naval Air Station/New Orleans is another great example. It's an 
active naval installation that has Air Guard, Air Force 
Reserve, and Navy Reserve, along with Coast Guard Reserve and 
Marine Corps Reserve.
    So there are several examples, and I think, you know, it's 
possible that we could see more in the future, but at the unit 
level, at the base level, the services work very well together, 
I'd say. They plan their training so we avoid as much in the 
way of conflicts through the flying as well as through 
billeting of personnel and so forth.
    So I think the commanders of the units get together 
regularly to plan their training through the year so that we 
don't have conflicts. It's worked very well and it's a good--it 
saves money for the taxpayers.
    Mr. Olver. And your name is? I'm sorry----
    BG Bradley. I'm Brigadier General John Bradley. I'm the 
Deputy to the Chief of the Air Force Reserve.
    Mr. Olver. I had----
    BG Bradley. And----
    Mr. Olver. I'm sorry, General. Go ahead.
    BG Bradley. That's all right, excuse me, sir.
    Mr. Olver. Go ahead.
    BG Bradley. General Lupia and I had talked earlier. I would 
be very glad to come--since Westover, of course, is a large Air 
Force Reserve base in your area, we'd be glad to come visit 
with you to talk to you about Westover's specific issues, and 
tell you what's going on there, what we have operating there, 
and let you discuss with us your ideas.
    Mr. Olver. Let me go on to a slightly different thing. You 
also have the Barnes Air Guard base. I think that's also 
subject to discussion today.
    Mr. Packard. Yes, sir.

                             Project Design

    Mr. Olver. And there, my understanding is there is a 100 
percent designed dining facility that is for that location. Is 
that on the--is that--that's not apparently part of the request 
for this year's budget.
    BG Weaver. No, sir, it's in the year 2000.
    Mr. Olver. That's somewhat outside the guidelines that we 
were discussing earlier about when design is completed and when 
one moves forward with those things.
    Mr. Coleman. But if it came up on the priority list, and 
when we develop '99, it could get prioritized and it could be--
it could be placed in there for design.
    Mr. Olver. Well, maybe if it goes to the corporate 
structure, an efficient design process that allows it to be 
brought forward.
    BG Weaver [continuing]. Reserve are the same all the way 
through, sir. Very little design requirements.
    Maj.Gen. Lupia. It could be executed in '98.
    Mr. Olver. Pardon?
    Maj.Gen. Lupia. It could be executed in '98 if it's 
designed now and ready to go.
    Mr. Olver. If it's fully designed it could be executed, 
then, in '98.
    Maj.Gen. Lupia. Yes, sir.
    Mr. Olver. But it's not been requested.
    Maj.Gen. Lupia. No, sir.
    Mr. Olver. Okay, there is another one related to Barnes 
which has another one of these co-location aspects. I'm not 
sure whether it takes--whether it adds to or takes from the 
previous conversation, but it is a co-location proposal for an 
Army Guard with an Air Guard unit.
    Mr. Coleman. Yes, sir.
    Mr. Olver. It happens to be an Army Guard helicopter unit, 
which is----
    Mr. Coleman. The--complex?
    Mr. Olver. Yes, that sort of stuff, but I understand that--
nearly completely designed, also. What year are you about to 
tell me that that's in?
    BG Weaver. 2003, sir.
    Mr. Olver. Okay, that's good. Isn't that lovely. It says--

                       Prioritization of Projects

    Mr. Packard. If the gentleman would yield. If the process 
that we went into has rather significant detail of determining 
which projects should be funded in which year, and is adhered 
to, speaking only as the Chairman of the Committee, I will use 
whatever influence I can to adhere to that process, it will 
eliminate bumping better projects to fund worse projects. Now, 
that's the concept and I applaud that concept.
    I will resist, and would hope that the process that you are 
using would resist, having the political process--members come 
to this Committee and say ``we want this project moved up ahead 
of 2003, or 2000, whatever it's under your long-term plan.'' I 
can't promise that we will always win in that resistance 
because political pressures are a reality here.
    Mr. Coleman. Yes. Yes, sir.
    Mr. Packard. But the fact is I will try to be committed to 
the process of determining priorities on a legitimate, 
meritorious basis that I will do all I can to help hold to that 
process. It may be at the expense of some members who really 
would like to see their project moved up, and, again, I may 
have to acquiesce in some instances, but overall I like what 
I've heard. I like the fact that we're prioritizing projects 
based upon merit, not upon who is putting the pressure on you. 
And so we will do what we can to hold to that process, but 
obviously there may be exceptions. If some powerful senator in 
a conference committee says ``this is going to go first,'' I 
may not be able to offset that.
    Mr. Coleman. Yes, sir.
    Mr. Packard. But the fact is I want the agencies, you men 
and women----
    Mr. Coleman. Yes, sir.
    Mr. Packard [continuing]. To submit to me an honest 
priority----
    Mr. Coleman. Yes, sir.
    Mr. Packard [continuing]. List. I don't want it to be based 
upon the pressures that are coming from external forces.
    You have, I think, a responsibility to make certain that 
this committee gets a list of your priorities that you would 
like to have funded in given fiscal years based upon what you 
genuinely feel for your mission, to fulfill your mission, are 
the most critical; and then you'll have to leave it to us to do 
what we do with that, but overall I'm committing to you to try 
to defend the process as best I can.
    Mr. Coleman. We thank you.
    Mr. Packard. With that in mind, I'll yield back to you.

                             Project Design

    Mr. Olver. Thank you. Thank you, Mr. Chairman, and I 
certainly sympathize with what you've said and agree in 
general. The interesting thing here and the one that I just got 
which tendered that clarification is that I don't know whether 
there was something earlier that went on but we've got a 
program which is virtually complete in its design, ready to go, 
here we are at Fiscal 98 and your construction is scheduled for 
2003. It would appear--so I don't know how it came up so 
quickly on design and whether that merely means that the next 
stage has not moved from where it was at some earlier time up 
to a more forward position.
    Mr. Coleman. Yes, sir. Nor do we. That's why we'd like to 
get back to you. Because we don't know whether that word 
``design'' means that it was a modification of an existing 
facility at--in another base which took very little work to do 
to modify the building to be effected on that particular base.
    Mr. Olver. I see.
    Mr. Coleman. Or whether----
    Mr. Olver. So it might be, again, a cookie-cutter or shelf 
design----
    Mr. Coleman. Absolutely.
    Mr. Olver [continuing]. As opposed--although, in a thing 
like this, this is not a small and simple thing like--as the 
fire training facility----
    Mr. Coleman. Correct.
    Mr. Olver [continuing]. Was before. This is something 
that's somewhat larger, but I think historically, and I'm sure 
the Chairman knows this far better than I being new as I am, 
that normally these things are not moved into the request stage 
until they're already partially designed.
    Mr. Coleman. That is correct. That's correct.
    Mr. Olver. And this one is far beyond the level where they 
go into the--where they normally go into the request stage.
    BG Weaver. I'm wrong, Mr. Olver. That--it is not 2003. The 
particular project that you're talking about is an Army 
National Guard MILCON project which--it's a $19 million project 
of which we will occupy a small facility, part of that 
facility, and it's for a '98 project.
    Mr. Olver. Okay.
    BG Weaver. It's for an Army Guard '98 project.
    Mr. Olver. As a matter of fact, I should be talking with 
the Army about this one.
    Mr. Coleman. Yes, sir.
    Mr. Olver. Again----
    Mr. Coleman. It is not an Air Guard facility.
    Mr. Olver. Okay, all right. Well, keeping these straight, 
especially when you begin to have different services----
    Mr. Coleman. There's another----
    Mr. Olver [continuing]. Your base, others doing things, it 
becomes a little bit complicated.
    Mr. Coleman. However, whenever you want to talk to the Air 
Force, don't hesitate.
    Mr. Olver. Oh, I'm quite ready.
    Mr. Coleman. We would like to, and I would like to amplify 
what General Bradley said. We would like to, at your 
convenience, arrange to brief you on our involvement in 
Westover. We've got some large environmental work going on 
there, so at your convenience we would be happy to do that, and 
also for the new members of the Committee, if we could arrange 
with your schedules and your staffs to do any type of inside 
briefing we'd be most honored to do that.
    Mr. Olver. I don't know why I'm doing this, Mr. Chairman. 
It's not in my district, and besides which, throughout the 
1960's on 7:00 on Sunday morning those B-52's went out over, 
right over, my house.
    Mr. Packard. Let me clarify something, if I may, before we 
go to Mr. Edwards. As we've reviewed the prioritizing system, 
your program review--what is it called? Well, anyway, the one 
that we reviewed, your method of prioritizing with your teams, 
that is not locked into a schedule of design. The design 
activity isn't necessarily tied to the selection of your 
priority list for each given fiscal year, is it?
    Maj.Gen. Lupia. Sir, we don't distribute any design money 
to any of our major commands until that project is above the 
funded line. So, for example, the commands now will give us a 
new look at--'99 is already prioritized; they're on the design. 
The commands will give us a new look at their Zero-Zero 
Program. It's due to us on--at the end of June. We'll do this 
prioritization process. You'll give us a bill in October, we 
hope, and we'll take some of that $41 million design money then 
and begin to spend it on the projects in Zero-Zero that were 
prioritized above the line. So design is not started.
    Mr. Packard. So your design is triggered as a result of 
your priorities, not----
    Maj.Gen. Lupia. Yes, sir. Absolutely.
    Mr. Packard [continuing]. And not affecting the process.
    Maj.Gen. Lupia. Yes, sir.
    Mr. Packard. Thank you. Mr. Edwards.

                       Prioritization of Project

    Mr. Edwards. I, Mr. Secretary, just want to add my thoughts 
to the Chairman's comments. I like the idea of making as 
objective as possible the prioritization system, although I am 
sure I would agree with the Chairman, I am not willing to go so 
far to give up our Constitutional right or responsibility to 
review the military budget. In hindsight, despite my great 
deference to those in uniform, I think Congress has added 
programs, not only in military construction but weapons 
programs, that in hindsight turned out to be very good 
decisions. I am going to ask you a question. I will try not to 
be too specific, because my intent is not to put anybody on the 
spot, but if we are going to put added emphasis on this 
priority system then I have to ask if any of you in this room 
at any time, in any discussion as part of the request for 
military construction projects, thediscussion was made of whose 
member of Congress, whose congressional district that project would be 
in, and whether the discussion either to fund it or not was because it 
was a powerful member of Congress? I do not think it is any great 
secret that there have been discussions where some more powerful 
members, or members who are on the appropriate committees, have found 
their military construction projects funded. Is it the assumption that 
they will be able to get an add-on? Can everyone in this room honestly 
say that you have never been in any discussion where that issue was 
ever brought up?
    Mr. Coleman. Nor have I ever made a phone call. I know from 
my venue with the Secretary, being on the Air Force Council, 
being the person in charge with the oversight responsibility on 
facilities, that in my work we have never discussed a project 
based on what district with what Senator it's in, or a district 
containing what Senator might be interested.
    Mr. Edwards. Never have? How about the people in uniform? 
Can you say you have never heard any discussion of that in all 
of your years of----
    Mr. Coleman. Oh, no, sir. Can't say that. No, no, you have 
just changed your statement. I have heard discussion. You said 
was I party to any decision making that resulted in a list 
being prioritized because of----
    Mr. Edwards. But if I change the question and put it have 
you been in meetings where that has been brought up or 
discussed, the answer is that that has been discussed?
    Mr. Coleman. Oh, yes.
    Mr. Edwards. And I'm not saying that is----
    Mr. Coleman. Oh, no. No.
    Mr. Edwards [continuing]. Wrong and I am not being 
critical, but just as we review this system, I think we will 
have to look at all aspects of----
    Mr. Packard. Well, if the gentleman would yield?
    Mr. Edwards. I would be glad to yield to the Chairman.
    Mr. Packard. Again, I noted that this is a system that they 
just inaugurated or just started this year, and so it's a 
system that hopefully will lend itself to avoiding that more 
than in the past.
    Mr. Edwards. Very good, and I appreciate the Chair's 
comments that these decisions should be basically driven by 
objective criteria and what is best for our families in uniform 
and not necessarily to be decided on a political basis. Thank 
you, Mr. Chairman.
    Mr. Packard. Thank you, Mr. Edwards. Mr. Kingston.
    Mr. Kingston. Thank you, Mr. Chairman. Mr. Coleman, I've 
taken notice down at Moffett. How far is Moffett from Onizuka?
    Mr. Coleman. I know where it is but I----
    Mr. Kingston. Very close, like 50 miles, 25?
    Mr. Coleman. I would say about 100. I'm giving you a ball 
park here, sir.
    Mr. Kingston. That's the question, I think. There is an 
opportunity for the Air Force to use some of that surplus and 
let the Navy use it.
    Mr. Coleman. Onizuka----
    Mr. Kingston. Or--say, that's just an example, but 
hypothetical.
    Mr. Coleman. You're asking me a hypothetical of what--
whether or not it could have a co-location?
    Mr. Kingston. Right.
    Mr. Coleman. Without knowing----
    Mr. Kingston. What obstacles would keep that from being 
used with another branch?
    Mr. Coleman. Mission requirements, aircraft type. I don't 
know what are the----
    Mr. Kingston. No, I'm just talking generally----
    Mr. Coleman [continuing]. The dynamics.
    Mr. Kingston. I'm just talking in general.
    Mr. Coleman. Sure. Gene, do you want----
    Maj.Gen. Lupia. Mr. Congressman, I'm not sure if I'm on the 
exact same wavelength with you but----
    Mr. Kingston. This is how I understand it, and I'll submit 
this to you in writing, but there are 711 family housing units 
there that perhaps the Navy could use at Onizuka, that it's 
close enough to Moffett, and there are probably certain 
obstacles that may keep that from happening, and yet those 
obstacles are, presumably, artificial and not really 
substantive. They're red tape type obstacles, and what I would 
like to get from you for the record, not right now necessarily 
unless you want to talk about it, is what can we do to 
eliminate some of those obstacles.
    Maj.Gen. Lupia. I would only--I'm not familiar with the 
Moffett situation. I would tell you that when the Navy moved 
out of Charleston, we took 500 units of Navy housing. Air Force 
now occupies them. We occupied 500 houses, almost 500 houses, 
on Fort Dix outside of McGuire Air Force Base. There are many 
examples where Air Force people live on former Army 
installations, et cetera, back and forth. I don't know the 
specifics of Moffett, but if Air Force people at Onizuka have a 
requirement, if there is a deficit of housing there and there's 
housing available at Moffett, there's nothing that stops us 
from doing that.
    Mr. Kingston. I understand that certain government 
buildings, when an agency doesn't need them, they can't turn it 
in and get credit. They have to sit and get it to the General 
Service Administration, I believe. Is that clear, Mr. Chairman? 
And because of that, they don't want to give up anything 
because they won't get credit for it, and I was just wondering 
if you had something like that that was hampering your----
    Mr. Coleman. I--without really getting into the specifics 
of the two bases--I can say we'll get back to you on that, but 
the commute would be horrendous if you're over about--what do 
we use now as a radius?
    Maj.Gen. Lupia. About one hour.
    Mr. Coleman. One hour driving time would be about the max 
that we would allow, or we would say that ``this housing is 
sufficient for you.''
    [The information follows:]

    Moffet Field and Onizuka Air Force Base are basically co-
located on opposite sides of the runway. The distance is about 
1\1/2\ miles and commuting time is about 5 minutes.

                      air force academy, colorado

    Mr. Kingston. I notice you have about a $5.3 million in the 
fitness center request for Colorado, for the Air Force Academy. 
Now, has that had a lot of, in the last 10 years, a lot of 
updates? Is it not a fitness center but military construction 
at the Air Force Academy?
    Mr. Coleman. At the Air Force Academy?
    Mr. Kingston. Are we pampering there? Are we kind of 
keeping up with the Joneses?
    Mr. Coleman. No, not in any sense of--I'm an architect. 
I've been to the Academy. I've seen the deplorable condition. 
Some of the buildings have been put in because of the lack of 
maintenance money. There's an aggressive program to get that 
pristine site back to its greatness, so I would say we're not 
squandering any money out there. There's a definite need to do 
a lot of things at the Air Force Academy.
    Mr. Kingston. Do you know how old the pool is that you're 
replacing?
    Mr. Coleman. No.
    Maj.Gen. Lupia. The athletic facility supports the people 
who are on the Air Force Academy, not the cadets on the Air 
Force Academy, not in support of cadet wing but the actual 
people who provide the everyday support of the Academy complex.

                          robins afb, georgia

    Mr. Kingston. All right, coming to Georgia at Robins, the 
B-1 Composite Operations Complex? What are the plans for reuse 
or demolition of the temporary facility when the new facility 
is completed? This is for the record, too.
    Mr. Coleman. Yes, we'll provide that for the record.
    [The information follows:]

    Until the new facility is constructed, the B-1 squadron 
operations and security police operations occupy space in two 
interim facilities. The squadron operations function is in the 
former B-12 Alert Crew Quarters. Due to live ammunition being 
loaded on a nearby aircraft parking ramp, this facility must be 
vacated permanently. The host base will ``mothball'' the 
facility because it is a State Historical Preservation Site. 
The security police unit occupies a facility that will be 
returned to the host base. No demolition funds are needed for 
either building.

    Mr. Kingston. Thank you very much.
    Mr. Coleman. Thank you, sir.

                      infrastructure requirements

    Mr. Packard. Thank you, Mr. Kingston. Let me go through a 
few quick questions and then if there's another go-round 
necessary, we will do it. We're finding on different bases that 
the underground infrastructure has been neglected for just 
literally decades. Much of it is 30, 40, 50--some--not so much 
Air Force, perhaps, but Army and Navy, some of them are 50 and 
60 years old. That's your underground piping system and so 
forth.
    Mr. Coleman. Yes.
    Mr. Packard. We're building new buildings, we're putting in 
new facilities, and hooking onto that old infrastructure, an 
underground infrastructure. Often turn on a brand new faucet 
and still get brackish-brown water through it because of 
piping.
    Mr. Coleman. Yes.
    Mr. Packard. Are you addressing the underground unseen 
infrastructure on a methodical basis?
    Mr. Coleman. Yes. Every project, every new project, to 
effect a building on an Air Force installation includes a look 
at the infrastructure. We don't connect it to bad pipes. We 
take care of the infrastructure in that immediate area. Many of 
the bases are doing infrastructure reviews where they're 
looking at the entire systems. We have some bad systems around 
the Air Force, utility lines, water plants, sewer ejectors. We 
have to expend a lot of money on RPM on our buildings and we're 
trying to do a good job of looking underneath the ground, 
because if you put a brand new building on top of a failed 
infrastructure you're not doing anything but looking for 
trouble. That's going to be a nightmare.
    Mr. Packard. Are you looking at the private sector as an 
alternative on that, also?
    Mr. Coleman. We're looking for authorities, sir, to have 
the ability to sell our utilities to the private sector.

                         environmental clean-up

    Mr. Packard. Thank you. By nature of your operations on Air 
Force bases, contamination and clean up problems may be more 
acute in the Air Force than most of the other branches of the 
service. I may be wrong in that analysis, but that would be my 
general observation. Are we on schedule on clean up, and how--
and what is happening in that area?
    Mr. Coleman. We're on a schedule that will get us taking 
care of all of our Level One areas in the Air Force. We do have 
a unique situation where we have a flying operation because we 
have the fuel that causes some leaks and someground 
contamination that we have found in BRAC is costing us a lot of money. 
We have----
    Mr. Packard. Is BRAC more serious than your operating 
bases?
    Mr. Coleman. Well, BRAC is----
    Mr. Packard. In terms of clean up requirements.
    Mr. Coleman. We've already spent about a billion dollars 
cleaning up BRAC, and we have about $900 million to go on 31 
bases thus far. But we're finding that the degree of 
degradation on the BRAC bases has primarily been because we 
haven't had a responsible program like we have now. We now have 
a very concerted HAZMAT program and a fuel control program. If 
we had had that years ago, we wouldn't have been spending all 
this money.
    Mr. Packard. Well, if we have another series of BRAC in, 
say, 20 years from now, would you fully expect that the clean 
up requirements would be far less than they are now?
    Mr. Coleman. Oh, absolutely.
    Mr. Packard. I was impressed that the 82 percent of the 
funding for clean up and environmental restoration is going for 
clean up activities----
    Mr. Coleman. Yes, sir.
    Mr. Packard [continuing]. Rather than for design and 
limited work.
    Mr. Coleman. We've started--yes, sir.
    Mr. Packard. What projects would that include?
    Mr. Coleman. For BRAC?
    Mr. Packard. No, for clean up. For where this 82 percent is 
going to go.
    Mr. Coleman. Yes.
    Maj.Gen. Lupia. Yes, sir.
    Mr. Packard. Yes.
    Maj.Gen. Lupia. Sir, we have a relative risk management 
process that basically takes the projects that are the highest 
risk to human health, and we work those with EPA regions and 
state and federal regulators. We do this through a restoration 
advisory board on each of our bases which invites the local 
community to participate and help us prioritize; and at the 
level of funding we're at today, which is roughly about $400 
million, we've stabilized around the $400 million mark, we're 
right on target to carry out our highest risk projects in line 
with the Defense standards.
    Mr. Packard. Are those projects prioritized much the same 
way as we've just discussed earlier?
    Maj.Gen. Lupia. They're prioritized in a different way 
because the local community participates, the state and federal 
regulators participate, and they're done on a base-by-base 
basis, and they're all fed up to us at the Pentagon, and then 
we, again, prioritize them based on risk to human health.
    Mr. Packard. And once they're at the top of the list, 
they're on the earlier years' funding.
    Maj.Gen. Lupia. Yes, sir, oh, absolutely. Yes, sir.

                        family housing inventory

    Mr. Packard. I noticed that you indicated in your 
testimony, Mr. Coleman, that the family housing inventory is an 
average of 34 years old, and that about 58,000 of the 110,000 
about half, is requiring some kind of improvement.
    Mr. Coleman. Right.
    Mr. Packard. And that it would take 26 years to get there 
to improve those 58,000.
    Mr. Coleman. If we use our current string of MILCON----
    Mr. Packard. And obviously that's going nowhere because by 
that time you've still got about 34----
    Maj.Gen. Lupia. The other 42,000 are coming apart on you.
    Mr. Packard. The ones you've done are 26 years old when 
some of them----
    Maj.Gen. Lupia. Yes, sir.
    Mr. Coleman. Right.
    Mr. Packard. Because it would take you that long to get to 
them. So we would not be making any progress whatsoever. We may 
actually be falling further and further behind. Now, that's the 
Air Force's standard. I know that the Navy and the Army may--
and the Marines may have a different standard of housing that 
they're judging their needs and requirements from. Has there 
ever been an attempt to make a standardized approach to this, 
number one, from one branch of the service to the other, and 
number two, in terms of the need for the funding? And, now, I 
notice that in succeeding paragraphs you've indicated, and I 
think rightly so, that privatization may hasten this and speed 
up that schedule so it wouldn't be 26 years.
    Mr. Coleman. Yes, sir.
    Mr. Packard. But I sense in the hearings that we've held 
thus far that the Army's and the Navy's approach to substandard 
housing is different than the Air Force's. Is there a single 
standard upon--obviously there's not.
    Mr. Coleman. No, sir.
    Maj.Gen. Lupia. There is for the Air Force, sir. We have 
published a housing excellence guide for the Air Force to 
follow.
    Mr. Packard. In other words, the 34-year-old housing 
average in the Air Force might be something that the Army is 
still looking forward to get to at some point in the future. I 
won't belabor that.
    Mr. Coleman. No comment.

                       guard training facilities

    Mr. Packard. No comment, right. I think you've treated your 
people over the years pretty well. You've worked hard for it 
and I think you've done quite well, and I applaud you for that. 
What percentage of the Guard activities, in terms of training, 
and all your activities in the Guard, are done at Guard 
facilities, Guard-only facilities or Guard and Reserve 
facilities, versus what percentage would be done at Active Duty 
bases? Is very much done at Active Duty bases?
    BG Weaver. In today's--today, we--we're all over the world. 
Most of our localized training is done at our 89 locations, at 
our Air National Guard units. We will go to exercise training 
at Nellis and they have Red Flags in two other locations 
throughout the world, but for the most part our training is 
located right at our Air National Guard units.
    Mr. Packard. But the vast majority is done at your Air 
Guard facilities?
    BG Weaver. Yes, sir.

                            marsh task force

    Mr. Packard. I'll only ask one or two other questions and 
then we'll wrap it up with whatever the rest of the Committee 
members would like. Last year, the DOD task force, the Marsh 
Task Force on Quality of Life Issues, reported its findings to 
this Committee, and they cited five major issues affecting the 
standard of living for single and unaccompanied personnel. What 
steps have you taken at the Air Force level in the past year to 
address these issues, and how do you envision your plan 
working, and what type of a commitment for the future?
    Mr. Coleman. We feel that we have done a responsible job in 
addressing what the Marsh Commission brought out, which is some 
things that we believed all along, that privacy and treating 
the people as men and women, that we want them to have good, 
safe, affordable housing on and around the base, good 
recreational facilities, pay, and--the compensation issue is 
the one which still we hear a lot about from the troops, that, 
you know, we've got to work on the pay and compensation. ``It's 
good to give me a nice home but don't make me poor in the 
home.'' Health care and all of those things are important to 
the families.
    We are addressing as forthrightly as we can.
    Mr. Packard. Just a comment on Mr. Kingston's issue about 
Moffett and the distance and so forth. I was going to mention 
it when he's here but the fact is, and I think you certainly 
understand that, our personnel when seeking housing have to 
weigh their housing allowance versus the commute costs, the 
time, and a variety of other factors, and it actually may be if 
they have to commute more than a half an hour or so, it may be 
a wash or even a loser for them to get base housing 100 miles 
away or 80 miles away; and I think that that's a point that 
sometimes we overlook. I found when I went out and visited some 
of the bases in California recently, that the commute costs 
often override and maybe offset completely any savings of being 
able to locate, and that doesn't take into account the time 
lost. It's simply the cost of gasoline and the cost of the 
commute. Mr. Edwards, do you have any questions?
    Mr. Edwards. No, Mr. Chairman.
    Mr. Packard. I--if we have other questions, if you would be 
kind enough to respond for the record's sake, we'd appreciate 
that.
    Mr. Coleman. We will be happy to.
    Mr. Packard. Just for the benefit of you, Mr. Edwards, we 
have another hearing tomorrow morning at 9:30, and that will be 
the Deputy Under Secretary of Defense for Industrial Affairs 
and Installations, Mr. John Goodnan, and we will be discussing 
primarily privatization issues. So with that in mind I 
certainly want to thank you very much, Mr. Coleman----
    Mr. Coleman. Thank you, sir.
    Mr. Packard [continuing]. For your generosity with time and 
all of the team of support people you have with us. It's been a 
good hearing and I appreciate it very much.
    Mr. Coleman. Thank you.
    Mr. Packard. And this hearing is adjourned.
    Mr. Coleman. Appreciate it.
    [Clerk's note.--Questions for the record submitted by 
Chairman Packard:]
                            Planning Process
    Question. Mr. Coleman, what can we do, and what needs to be done 
about the lack of support and funding requested by the Department to 
have each component place a strong emphasis on the need for long term 
plans and the need to adhere to them?
    Answer. You can continue to support our MILCON program which, in 
turn, supports our long range plan. The Air Force responded to the end 
of the Cold War with our Global Reach-Global Power approach. This has 
guided the restructuring and modernization and the Air Force for the 
past six years. The Air Force for the past six years. The Air Force 
recently launched its new vision entitled ``Global Engagement: A Vision 
for the 21st Century Air Force,'' and is in the process of implementing 
a new comprehensive long range plan. Both of these initiatives fully 
support the Chairman of the Joint Chiefs of Staff Joint Vision 2010 
approach for meeting post-Cold War requirements. Using the 
aforementioned visions and plan as a foundation, the Air Force will 
continue to use its corporate process to review and prioritize our 
MILCON requirements to meet the most urgent needs of the active and 
reserve components.
                      Troop Housing: ``1 Plus 1''
    Question. What impact has the ``1 plus 1'' barracks standard had on 
the Air Force military construction budget?
    Answer. The ``1 plus 1'' barracks construction standard has not had 
a major impact on the Air Force military construction budget. With 
Office of the Secretary of Defense and Air Force leadership emphasis on 
improving quality of life, we naturally have focused a larger 
percentage of our military construction resources on improving the 
living conditions for our unaccompanied airmen.
    Question. Has the Air Force adequately programmed in fiscal year 
1998 to meet their established ``1 plus 1'' standard deficit reduction 
targets?
    Answer. Yes. The Air Force investment strategy for dormitories 
calls for the buyout of all remaining permanent party central latrine 
dorms by Fiscal Year 1999. Our Fiscal Year 1998 budget is focused 
primarily on that priority first, but does include several deficit 
reduction projects, too.
                      Family Housing Construction
    Question. What is the rationale for a $64 million, or 20 percent, 
reduction to the family housing construction account?
    Answer. The Air Force requested $231 million for the FY97 family 
housing construction program. With strong support from Congress, the 
program was increased by $86 million (Congress appropriated $317 
million for the program). Due to current budget constraints and the 
need to balance the requirements for both modernization and quality of 
life, the Air Force requests $253 million in the FY98 budget. Although 
it is $64 million less than the FY97 appropriated amount, it is an 
increase of $22 million, or 9.5 percent, to the FY97 budget request.
                       Private Sector Initiatives
    Question. Please bring us up to date with the current status of the 
Air Force's efforts to promote private sector ventures for family 
housing and barracks.
    Answer. In family housing we have an aggressive program with 10 
active projects. The request for proposal on our lead privatization 
project at Lackland AFB was advertised on 11 Feb 97. The project calls 
for a developer to design, construct, maintain, own, and manage a 
housing development of 420 units on 96 acres of outleased base 
property. The units will be rented to E-3 through E-7 personnel from 
the Lackland community. Award is anticipated in late 1997. We are 
continuing to work the remaining projects and will notify you as we 
approach release of the request for proposal on each project. For 
unaccompanied housing, we are studying the application of the housing 
privatization authorities in order to determine how to best integrate 
the privatization tools into our dorm investment plan. We plan to 
complete that study by late Apr 97.
    Question. What other private sector initiatives is the Department 
pursuing?
    Answer. In addition to family and unaccompanied housing, we are 
also pursuing privatization of utility systems. Our long term goal is 
to turn these systems over to private/public ownership where there is 
no readiness impact and it makes economic sense. OSD is currently 
working with OMB to finalize legislation that would permit 
privatization of these systems.
                         Child Care Facilities
    Question. We all understand the importance of child care 
facilities, and this committee has always placed a high priority on 
child care facilities. What is the current Air Force deficiency 
worldwide?
    Answer. At the end of FY 97 the Air Force is scheduled to meet 58% 
of the child care demand. When the centers we currently have funded are 
completed and other initiatives are implemented, the Air Force will 
achieve the DoD short-term goal of meeting 65% of the child care 
demand. To achieve the DoD long-term goal of meeting 80% of child care 
demand, about 17,000 additional spaces are needed. DoD does not have a 
goal to meet 100% of the need; we expect some children will be provided 
care through alternate means.
    Question. What priority does the Air Force put on child development 
centers and why are no centers in the air Forces's budget request
    Answer. Child development centers are a high priority for the Air 
Force. Child development centers were deferred in the FY98 program due 
to higher priority facility requirements in the FY98 budget request.
                    Demolition of Excess Facilities
    Question. Last year this committee added a total of $30 million for 
the purpose of demolishing excess facilities. Unfortunately, this 
initiative did not make it through conference. Is the Air Force placing 
enough emphasis on eliminating excess facilities, and what can this 
committee do to help correct the deficiencies?
    Answer. The Air Force has had an aggressive demolition program 
emphasizing the necessity to eliminate excess facilities to reduce the 
physical plant inventory and associated O&M costs. In FY96, the Air 
Force demolished approximately 5M square feet at a total cost of $52M 
and has an unfunded demolition requirement of $66M in FY97. The 
committee could help the air force eliminate excess facilities by 
increasing the Air Force Real Property Maintenance account and 
providing financial incentives to encourage demolition.

    [Clerk's note.--Testimony in the Budget Overview hearing 
indicates the Air Force has programmed no O&M funds for 
demolition in FY 98.]
                             Program Level
    Question. On page 8 of your prepared statement, you say that ``this 
year the integrated prioritization process funded 62 percent of known 
[New Mission Beddown] mission requirements.'' What price is being paid 
for deferring the remaining 38 percent of known requirements beyond 
fiscal year 1998? Please separately address the impact on the active 
Air Force, on the guard, and on the Reserve.
    Answer. The most urgent and compelling new mission beddown needs of 
the Active Air Force and Air National Guard have been funded. Unfunded 
requirements will be met with less efficient and more expensive work 
arounds utilizing Operations and Maintenance funds until the 
Requirements can be accommodated in the future years MILCON program. 
All required Air Force Reserve new mission beddown projects were 
funded.
                        Military Family Housing
    Question. On page 20 of your prepared statement, you say that over 
58,000 of the current 110,000 housing units do not measure up to 
contemporary standards. How do these 58,000 units break down by 
different levels of deficiencies?
    Answer. The Air Force uses a condition assessment process to 
stratify our revitalization efforts to ensure we are addressing our 
worst units first. Utility systems, structural components, room 
standards, and amenities are rated and a score of 1,2, or 3 assigned. 
Due to funding constraints, only Level 1 units are currently submitted 
in the budget. However, units scoring levels 1 or 2 do not meet 
contemporary standards. Of the 58,000 units, 37,000 units are Level 1 
and 21,000 units are Level 2.
    Question. Are any of them so deficient that they are uninhabitable?
    Answer. No, none are so deficient that they are uninhabitable.
                    Family Housing Improvement Fund
    Question. For previously appropriated family housing projects, 
let's take a hypothetical example. Assume the project has already been 
fully funded to provide 300 family housing units. If this project were 
executed under privatization authorities, wouldn't it be possible to 
acquire the same 300 units at about one-third the cost, and transfer 
the excess into the Family Housing Improvement Fund in order to provide 
additional units elsewhere?
    Answer. The leveraging we obtain on a particular project is the 
result of a complex structuring of various economic and market factors. 
To date, the projects we have developed have used all available funds 
at our project bases to allow us to accelerate the reduction of the 
housing revitalization backlog and, in some limited cases, buy down 
some of the deficit.
                         Child Care Facilities
    Question. Does the Air Force meet the Department of Defense goal of 
providing for 65 percent of the child care requirement?
    Answer. The Air Force does not currently meet the Department of 
Defense short-term goal to provide for 65 percent of child care 
requirements. At the end of FY 97 we are scheduled to meet 58% of the 
child care need. When the FY 97 and prior year facilities that have 
been funded are completed, and other initiatives are implemented, we 
will be able to meet 65% of the need.
    Question. What is the current plan for reducing or eliminating 
current deficiencies?
    Answer. We plan to request funding for nine additional facilities 
in future budget requests. If funded, these centers will add 2,500 of 
the 17,000 needed child care spaces. We also plan to gain additional 
spaces through expansion of existing family day care and school age 
child care programs.
    Question. Provide a listing, in priority order, of the location and 
anticipated cost of all child development center construction necessary 
to eliminate this backlog.
    Answer. The following is a list, in priority order, of the location 
and anticipated cost of all child development center construction that 
the Air Force has programmed in the outyear (FY99-03) MILCON program. 
It does not represent our total unmet requirement.
    Andrews--$5.0M.
    Bolling--$1.64M.
    Eglin--$3.5M.
    Luke--$3.1M.
    MacDill--$3.5M.
    Wright-Patterson--$8.7M (two centers).
    Scott--$4.0M.
    Falcon--$3.6M.
                        Environmental Compliance
    Question. What is the total amount requested to meet environmental 
needs?
    Answer. The total amount requested for environmental needs in FY98 
is $889M. Included in this request is $48M for MILCON. An additional 
$236M is programmed in FY98 for Base Realignment and Closure (BRAC) 
installations.
    Question. For the record, provide a listing of the individual 
projects and associated costs?
    Answer. Air Force environmental MILCON listing attached.

[Page 683--The official Committee record contains additional material here.]


                         Environmental Program
    Question. On page 17 of your prepared statement, you say that you 
were able to decrease the number of open notices of violations from 262 
in fiscal year 1992 to 35 in fiscal year 1998. For the record, list the 
35 open notice and describe the action programmed to correct these 
notices.
    Answer. We had 35 open notices of violation at the end of Dec 96. 
The programmed actions to correct the remaining open notices of 
violation are attached.

[Pages 685 - 686--The official Committee record contains additional material here.]


    Question. How much is budgeted for fiscal year 1998 for 
environmental work outside the Military Construction bill?
    Answer. $841M is budgeted for fiscal year 1998 for environmental 
work outside the Military Construction bill. This figure is for the 
total force (Active Air Force, Air National Guard and Air Force 
Reserve) and includes all appropriations except MILCON.
    Question. Summarize for us what efforts are funded under MILCON and 
what efforts are funded elsewhere?
    Answer. MILCON funds a small portion of the environmental program 
and is only used to support those environmental compliance construction 
requirements which exceed the $500,000 statutory limit for Operations 
and Maintenance (O&M) construction. All remaining environmental 
requirements are funded from other appropriations, primarily O&M. Non-
MILCON funding is essential to support recurring costs associated with 
managing environmental programs to meet applicable compliance 
requirements and support the military mission. Activities funded in the 
environmental program include compliance, pollution prevention, 
conservation and restoration.
                           Barracks Standard
    Question. Please comment on how the Air Force has incorporated the 
DoD ``1+1'' barracks standard in this year's budget request.
    Answer. Of the ten Air Force dormitory projects in the Fiscal Year 
1998 military construction budget, nine are designated for permanent 
party enlisted personnel and will be built to the ``1+1'' construction 
standard. The tenth dormitory project is for enlisted ``pipeline'' 
students and does not qualify for ``1+1'' construction criteria. Air 
Force enlisted student dormitories are built to house two students per 
room sharing one bathroom.
    Question. Has the Air Force budgeted for a balanced program, one 
which provides improved troop housing yet still meets the growing 
infrastructure improvement needs?
    Answer. Yes, the Air Force budgeted for a balanced program, which 
provides improved troop housing yet still meets the growing 
infrastructure improvement needs.
    Question. Has the Air Force developed a plan to use privatization 
in meeting the ``1+1'' standard? If a plan has been developed, how is 
the effort working?
    Answer. For unaccompanied housing, we are studying the application 
of the housing privatization authorities in order to determine how to 
best integrate the privatization tools into our dorm investment plan. 
We plan to complete that study by late Apr 97.
                      Barracks Planning and Design
    Question. As a result of the DoD-wide barracks standard, has the 
Air Force reduced the amount of planning and design required for these 
projects, through the use of standardized designs?
    Answer. Yes, on average, the Air Force has moderately reduced the 
amount of planning and design required for 1+1 dormitories through the 
use of standard designs and other cost saving measures. We continue to 
work with our design and construction agents (US Army Corps of 
Engineers and Naval Facilities Engineering Command) to deliver this 
program for the lowest cost.
    Question. Has the Air Force developed a single standard design for 
barracks, or a very limited number of standard designs?
    Answer. The Air Force is developing a limited number of standard 
designs. We do not intend to establish a single standard design for the 
entire Air Force to allow sufficient flexibility to meet local 
conditions.
    Question. How does the Air Force evaluate whether the architectural 
plan or appearance of an area or installation is important enough to 
warrant significant additional architectural design costs, rather than 
requiring a standard design?
    Answer. Our standard designs allow flexibility for the exterior of 
the facility to meet local base architectural compatibility standards. 
This normally does not involve significant additional design costs.
                            Barracks Backlog
    Question. What is the total current troop housing deficit for the 
Air Force?
    Air Force Answer. Once the Air Force completes its Dormitory Master 
Plan in July 1997, we will have the information to accurately determine 
the size of the dormitory deficit.
                       Barracks Program Execution
    Question. Have you run into difficulties in executing the fiscal 
year 1997 barracks program?
    Answer. No, the Air Force has not run into difficulties in 
executing the fiscal year 1997 barracks program.
    Question. Are there practical limits to the number of barracks 
projects that can be executed in a given year, and if so, what is the 
level of those annual limits?
    Answer. At a specific location, there may be a practical limit on 
the number of dormitory projects that can be executed simultaneously 
due to construction site constraints and the inability to adequately 
house displaced occupants during construction. These limitations are 
considered during the development of our MILCOM program, however, and 
there are no present annual limits.
                  Inadequate or Unacceptable Barracks
    Question. Is it the Air Force's intention to execute the 1997 and 
1998 barracks projects as conventional military construction items or 
to exercise new authorities?
    Answer. The Air Force intents to execute the 1997 dormitory 
projects as conventional military construction items. At this time, we 
intend to execute the 1998 dormitory projects as conventional military 
construction items; however, the Air Force is studying the application 
of the housing privatization authorities in order to determine how to 
best integrate the privatization tool into our dormitory investment 
plan.
    Question. How much of your current barracks inventory is deemed 
inadequate to permit permanent party assignment?
    Answer. At a very limited number of bases, installation commanders 
have declared some dormitories inadequate due to facility condition and 
will not allow unaccompanied permanent party personnel to be assigned. 
This is the rare exception. The Air Force considers central latrine 
dormitories inadequate; however, we continue to assign unaccompanied 
people to these dormitories until they can be renovated or replaced.
    Question. How much of your off-base bachelor housing is deemed 
unacceptable?
    Answer. The Air Force does not collect data on off-base inadequate 
housing units. Our housing market analysis process determines market 
availability of off-base housing for unaccompanied personnel in grades 
E-5s and above, using general suitability criteria prescribed in the 
Department of Defense Housing Management Manual. Numbers of 
unacceptable housing units are not captured.
    Question. How do you define ``inadequate'' or ``unsuitable'' or 
``unacceptable'', both for on-base unaccompanied enlisted housing and 
for off-base bachelor housing?
    Answer. The Air Force considers dormitories with central latrines/
showers as inadequate, unsuitable or unacceptable for on-base 
unaccompanied enlisted housing; however, we may continue to use these 
facilities when no alternative is available. For off-base unaccompanied 
enlisted housing, we use the Department of Defense Housing Management 
Manual which takes into consideration: price and size of the units, 
physical condition, certain location factors related to health and 
safety, and type of housing.
                    Real Property Maintenance (RPM)
    Question. Submit for the record a table which will show the amounts 
appropriated for the Real Property Maintenance Account in the National 
Security Appropriations bill for each of the last ten years, adjusted 
for inflation.
    Answer. The following table shows the amounts appropriated for the 
Air Force Real Property Maintenance (RPM) program starting in FY90. For 
FY88 and FY89 we are unable to obtain the appropriated amounts. During 
these years, the program element codes assigned a combined effort for 
Environmental Support, Real Property Maintenance, and Real Property 
Services. This accounting structure did not capture appropriated 
amounts for Real Property Maintenance. The table below does not include 
RDT&E Real Property Maintenance data.

                                            [In millions of dollars]                                            
----------------------------------------------------------------------------------------------------------------
                                                                      Fiscal years--                            
                                         -----------------------------------------------------------------------
                                           1998    1990    1992    1993    1994     1995   1996    1997   1998PB
----------------------------------------------------------------------------------------------------------------
Active..................................   2,249   2,028   1,386   1,404   1,422   1,499   1,762   1,462   1,191
Guard...................................      60      60      67      64      76      84     106     127      78
Reserve.................................      29      28      30      42      43      62      58      48      60
                                         -----------------------------------------------------------------------
      Total.............................   2,338   2,116   1,483   1,510   1,541   1,645   1,926   1,637   1,329
----------------------------------------------------------------------------------------------------------------

    The above totals include the Defense Appropriation, Real Property 
Maintenance, Defense Account (RPMDA) in FY92 and FY93 and the Defense 
Quality of Life Enhancement Appropriation in FY97. FY96 includes the 
$151M Real Property Maintenance Congressional increase.
    The appropriated amount includes all Congressional adjustments 
specific to RPM but does not include general reduction (i.e., civilian 
pay repricings, inflation, fuel repricings).
    Question. For the record, describe how you make the difficult 
decision of what levels to budget for RPMA versus MILCON
    Answer. The Air Force Investment Strategy balances Military 
Construction (MILCON) and Real Property Maintenance Activities (RPMA) 
based on available funding and Air Force priorities. The Air Force 
follows the Defense Planning Guidance to maintain the cost of ownership 
of our physical plant. The Air Force funded the Real Property 
Maintenance account at the Preservation Maintenance Level which is the 
level necessary to accomplish periodic maintenance requirements. The 
MILCON program is funded to meet mission and quality of life 
requirements.
                Real Property Maintenance Account (RPMA)
    Question. What amount did the Air Force receive for barracks 
renovation under the Real Property Maintenance Account in the National 
Security Appropriations Bill last year? Provide for the record a list 
of projects that will be funded by this initiative and the status of 
each project.
    Answer. The Air Force received $108M in quality of life enhancement 
funds which we are using for dormitory renovation. A list of the 
projects is attached. All projects on the list are either already 
awarded or pending award. These projects and amounts are part of an 
ongoing O&M execution program and are subject to change until final 
contract award of all projects. The Air Force expects to award all 
projects by 31 March 1997.

[Pages 690 - 694--The official Committee record contains additional material here.]


                             Privatization

    Question. Describe for us what the Air Force plans to accomplish 
through its various privatization efforts.
    Answer. Our overall goal in regards to privatization is to optimize 
the use of public and private resources in the execution of our 
facility investment strategy. In support of this goal we are currently 
focusing on three areas for implementation of privatization: family 
housing, unaccompanied housing (dorms), and utility systems.
    In family housing we have an aggressive program with 10 active 
projects. The request for proposal on our lead privatization project at 
Lackland AFB was advertised on 11 Feb 97. The project calls for a 
developer to design, construct, maintain, own, and manage a housing 
development of 420 units on 96 acres of outleased base property. The 
units will be rented to E-3 through E-7 personnel from the Lackland 
community. Award is anticipated in late 1997. We are continuing to work 
the remaining projects and will notify you as we approach release of 
the request for proposal on each project.
    For unaccompanied housing, we are studying the application of the 
housing privatization authorities in order to determine how to best 
integrate the privatization tools into our dorm investment plan. We 
plan to complete that study by late Apr 97.
    In addition to family and unaccompanied housing, we are also 
pursuing privatization of utility systems. Our long term goal is to 
turn these systems over to private/public ownership where there is no 
readiness impact and it makes economic sense. OSD is currently working 
with OMB to finalize legislation that would permit privatization of 
these systems.

                              C-17 Beddown

    Question. What is the timetable and what are the milestones for 
determining the C-17 beddown requirements at Thompson Field?
    Answer. The Air National Guard (ANG) plans to schedule a site 
survey at Thompson Field, MS, in late 1997. During the site survey 
facility requirements, project costs, and programming milestones 
(including project design schedule) will be determined. Functional 
experts (operations, maintenance, and engineering) from the Active Air 
Force and ANG comprise the site survey team.
    Question. Summarize for us the current reprogramming and scoping 
issues related to the C-17 beddown program.
    Answer. Due to changes in environmental laws and the concept of 
operations for corrosion control and engine maintenance of the C-17, 
the Air Force intends to modify two fiscal year 1997 projects 
supporting the C-17 beddown at McChord AFB WA. The $11.6M Corrosion 
Control Facility will be reprogrammed to $21.0M and the $16.5M Modular 
Replacement Center (MRC) will be downscoped to a $4.0M engine storage 
facility. The savings generated from downscoping the MRC will be used 
to offset the increased cost of the Corrosion Control Facility. The 
change in engine maintenance operations also eliminates the need for 
the fiscal year 1998 project to construct the $3.2M Engine Test Cell at 
McChord AFB.
                  Space Based Infrared System (SBIRS)
    Question. What is the timetable for announcement of the locations 
for the unmanned relay stations for the Space Based Infrared System in 
Australia and in Europe?
    Answer. The SBIRS classification guide has not yet been developed; 
therefore the release of the locations within the United States is 
unknown. The Australian Office of the Minister for Defense produced a 
media release on 26 July 96 which announced the agreement to establish 
a Relay Ground Station in Australia for the Space Based Infrared system 
and to close the Joint Defense Facility at Nurrungar (Woomera). The 
Australian media release also stated the site of the new facility 
within Australia. A draft press release for the European location is 
being reviewed jointly by the United States and the host country. Until 
the SBIRS classification guide is developed, the timetable for the 
announcement of the locations is unknown at this time. A separate 
classified briefing can be arranged to provide you this information.
                       War Reserve Material (WRM)
    Question. Last year we were assured that the location of war 
reserve material projects had been declassified, but the Army's budget 
request line lists its project this year as ``Overseas, Various 
Locations'' and the Air Force lists its projects as ``Worldwide, 
Classified Locations''. Can you clarify the current classification 
status of these projects?
    Answer. Specific Air Force locations concerning prepositioning of 
WRM assets are currently classified. We anticipate the classifying 
authority, USCENTCOM, will declassify this in the near future.
                         Overseas Construction
    Question. Why is the dormitory project at Spangdahlem not funded 
under the Payment-In-Kind (PIK) program?
    Answer. This is an urgent Quality of Life project. We expect to 
receive $8M from the next PIK allocation against an approved list of 
mission related PIK eligible projects totaling over $100M.
    Question. Why are the three projects at Kunsan and Osan not funded 
under one of the two Korean host nation programs?
    Answer. We are asking our allies to support our facility 
requirements in overseas areas to the maximum extent possible and they 
are contributing significantly. These urgent Quality of Life and 
Environmental projects cannot wait for limited host nation funding.
    Question. Why are the two projects at Aviano not funded under the 
NATO Security Investment Program?
    Answer. The Roads & Utilities project is currently not NATO 
eligible. A precautionary prefinancing statement has been filed to 
allow us to recoup funds if eligibility is established in the future. 
The Waste Water Disposal System project is a conjunctively funded U.S./
NATO undertaking. The approved NATO share is $5.3M of the $13.2M total. 
A precautionary prefinancing statement has not been filed.
    Question. Why are the projects at Lajes and Lakenheath not funded 
under the NATO Security Investment Program.
    Answer. The Lajes and Lakenheath projects are not NATO eligible. 
Only infrastructure and operational facility projects are supported by 
NATO, as specified in established criteria.
                            Aviano AB, Italy
    Question. Two projects have been requested for Aviano AB in Italy. 
Are they NATO eligible and have precautionary prefinancing statements 
been filed for those projects?
    Answer. The Roads & Utilities project is currently not NATO 
eligible. A precautionary prefinancing statement has been filed to 
allow us to recoup funds if eligibility is established in the future. 
The Waste Water Disposal System project is not NATO eligible. It 
represents the U.S. share of a conjunctively funded U.S./NATO 
undertaking. The approved NATO share is $5.3M of the $13.2M total. A 
precautionary prefinancing statement has not been filed.

[Pages 697 - 706--The official Committee record contains additional material here.]


                                Okinawa

    Question. The Marine Corps is considering various 
restationing alternatives on Okinawa. Do you foresee any change 
to the current operations of Kadena Air Base, either as a 
result of Marine Corps decisions or otherwise?
    Answer. Until a final plan for replacing MCAS Futenma is 
completed, the Air Staff cannot with any accuracy foresee the 
overall effects on current operations at Kadena Air Base. 
Otherwise, any Air Force answer would be strictly speculative. 
However, the U.S.-Japan Security Consultative Committee (SCC) 
approved the final Special Action Committee on Facilities and 
Areas in Okinawa (SACO) recommendation that in 5-7 years the 
MCAS Futenma be closed and its replacement be moved to a Sea-
Based Facility (SBF). The final design plan for this facility 
has not yet been approved, therefore, the effects in its 
entirety on Kadena AB cannot be addressed at this time. These 
changes are projected to include infrastructure improvements 
(Aircraft Hangars) to support the transfer of Marine Corps C-
12/CT-39 aircraft and Contingency Operations. It should be 
noted that USFJ asserts that consolidating Futenma onto Kadena 
is not a tenable option. Reasons include additional flight 
safety risks, increase of aircraft noise; diminished training 
opportunities; reduced ability to meet high demands of 
contingency operations, and significant disruption to Kadena AB 
over the five to seven year transition period.

                            Onizuka/Moffett

    Question. The Air Force is reducing its personnel at 
Onizuka Air Force Station, while the Navy plans to increase its 
permanent personnel at Moffett Airport. What is the commuting 
time and distance between these installations?
    Answer. Onizuka and Moffett are basically co-located on 
opposite sides of the runway. The distance is about 1\1/2\ 
miles and commuting time is about 5 minutes.
    Question. Is it correct that the Air Force operates and 
maintains over 700 family housing units at Moffett Federal 
Airport, California?
    Answer. Yes, the Air Force operates and maintains 804 
family housing units, 693 on Onizuka Air Force Base and 111 on 
Moffett Field.
    Question. Is it correct that the Air Force plans to declare almost 
all of these units surplus?
    Answer. Yes, as described by the Defense Base Closure and 
Realignment Commission's (DBCRC) 1995 Closure Report, activities and 
facilities associated with Air Force Space Command's 750th Space Group, 
including family housing and the clinic, will close. 693 family housing 
units will be excess to Air Force needs. Other remaining missions will 
require the retention of 111 family housing units.
    Question. If so, why does the Air Force want to declare nearly 600 
units surplus when the Navy can use these units?
    Answer. As a result of 1995 Base Realignment and Closure actions, 
the Air Force has identified 693 housing units as excess to Air Force 
needs. Once declared excess, facilities can be transferred to another 
service or government agency that has a valid requirement for the 
facilities.
    Question. Does the Air Force want to limit the use of the retained 
units to only Air Force personnel?
    Answer. Yes, the Air Force intends to retain only housing units in 
direct support of the remaining missions at Onizuka. These missions 
should be completed within 10 years at which time the remaining 111 
units will be declared excess to Air Force requirements.
    Question. Has the Navy formally requested the transfer of any 
surplus units from the Air Force to the Navy?
    Answer. No. The Navy has not formally requested the transfer of any 
surplus units from the Air Force to the Navy.
    Question. Are there any impediments to such a transfer?
    Answer. There are no Air Force impediments to such a transfer.
                            Kurdish Refugees
    Question. Summarize for us the Air Force efforts involved in the 
housing of Kurdish refugees at Andersen Air Force Base, Guam.
    Answer. USAF and Joint Task Force (JTF) efforts in housing Kurdish 
evacuees at Andersen AFB centered around using the 360 housing units at 
Andersen South (a formerly active USAF housing area located seven miles 
south of main base). Andersen South currently houses approximately 
2,700 evacuees and housed 6,500 Kurdish evacuees over the course of the 
operation. Kurdish evacuees are treated as guests, provided adequate, 
safe, secure and humane living conditions. A friendly and stable 
atmosphere was established to ensure efficient processing and 
transition which included respect for Kurdish customs and courtesies, 
religious needs, recreation needs, and health and welfare items. Food 
preparation is provided by an evacuee self-feeding plan whereby DoD-
purchased food is provided to the evacuees for preparation in 
individual kitchens which were already available in each housing unit. 
It should be noted that self-feeding significantly reduced U.S. forces 
efforts required to provide this service. In addition, the Air Force 
and JTF have supported the deployed forces providing engineering, 
services, medical, and security services to the Kurdish evacuees.
    Question. In particular, what is the cost of this operation, and 
how long is it expected to last?
    Answer. As of 7 March 1997, Operation Pacific Haven has cost 
approximately $15.2 million. The operation is expected to continue 
through the end of April 1997.
    Question. Are there any military construction for family housing 
costs, particularly family housing O&M?
    Answer. No military construction has been accomplished in support 
of Operation Pacific Haven and no military family housing operations 
and maintenance (O&M) funds have been expended to support the evacuees.
    Question. Are Air Force costs being reimbursed from other sources, 
perhaps from the Department of State?
    Answer. The State Department and Health and Human Services have 
made funds available for Operation Pacific Haven.
                     Unmanned Aerial Vehicle (UAV)
    Question. Submit for the record a table which will show the entire 
construction program required for beddown of the Unmanned Aerial 
Vehicle.
    Answer.

                        [In millions of dollars]                        
------------------------------------------------------------------------
         Fiscal year                      Description               Cost
------------------------------------------------------------------------
1997........................  UAV Ops/AMU/Hangar.................    4.7
1999........................  UAV Ops/AMU/Hangar.................    6.9
1999........................  UAV Logistics/Supply...............    4.4
1999........................  UAV Comm Maint/Infrastructure......    4.5
XX..........................  Dining Hall........................    3.5
XX..........................  Dormitory..........................   10.8
                             -------------------------------------------
                                    Total........................   34.8
------------------------------------------------------------------------

                               Demolition
    Question. What is the total funding requirement for the demolition 
of excess facilities?
    Answer. The Air Force currently has an unfunded FY97 operation and 
maintenance demolition requirement of $66M. The Major Commands have 
identified similar unfunded demolition requirements in FY98.
    Question. Why were no funds requested under military construction 
or family housing for this effort?
    Answer. Demolition cost associated with military construction 
(MILCON) or military family housing (MFH) projects is included in the 
programmed amount. Most other demolition is done using normal O&M funds 
or MFH O&M funds, as appropriate.
    Question. Have you done an analysis to determine, dollar for 
dollar, how much is saved in infrastructure costs for each dollar 
invested in demolition?
    Answer. The Air Force has no FY98 for demolition and has not done a 
detailed dollar for dollar analysis to determine how much could be 
saved in infrastructure costs for each dollar invested in demolition.
    Question. Describe for us the ``building eating machines'' that the 
Air Force is using.
    Answer. The ``building eating machines'' are large machines used to 
grind debris into small pieces. One command has used the grinders to 
reduce the cost of demolishing wooden buildings. After environmental 
clearances are secured, wooden buildings are dismantled and the rubble 
reduced to ``mulch.'' This process reduces the volume of material and 
the cost of disposal. The grinders are also used at some bases to help 
dispose of storm damage debris and compost landscaping waste. The cost 
of these machines ranges from $160K to $300K. The Air Force finds these 
machines very valuable and anticipates purchasing three more.
                       New Versus Current Mission
    Question. What is the breakout of total construction funding 
related to new missions, current missions, environmental, planning and 
design and unspecified minor construction?
    Answer. The breakout follows ($M):

------------------------------------------------------------------------
                                       Active   Guard   Reserve   Total 
------------------------------------------------------------------------
New Mission.........................    270.6     36.7      5.2    312.5
Current Mission.....................    167.7        0        0    167.7
Environmental.......................     31.9     12.3      3.3     47.5
Planning & Design...................     40.9      7.0      1.5     49.4
Unsp Minor Const....................      8.5      4.2      4.6     17.3
                                     -----------------------------------
      Total.........................    519.6     60.2     14.6    594.4
------------------------------------------------------------------------

                      Projects No Longer Required
    Question. Please provide for the record a list of any projects, 
either in the fiscal year 1997 appropriation or in the prior years' 
unobligated balances, that are no longer required due to force 
structure changes, base realignment and closure, mission changes, 
bilateral and multilateral agreements, or other reasons. Please include 
on the list military construction projects, family housing construction 
and construction improvement projects, and projects financed under the 
base realignment and closure accounts.
    Answer. The project list follows:

------------------------------------------------------------------------
                                                                 Dollars
     Approp.        Fiscal         Base         Project title      in   
                     year                                       millions
------------------------------------------------------------------------
MILCON...........     1996  Charleston.......  C-17 Flight           1.3
                                                Simulator.              
MILCON...........     1996  Barksdale........  B-52 Training         2.5
                                                Complex.                
BRAC.............     1994  Grissom..........  Alter Utilities       2.0
BRAC.............     1994  Grissom..........  Alter Heat            1.8
                                                Plant.                  
BRAC.............     1994  Vandenberg.......  Vehicle               0.7
                                                Maintenance             
                                                Facility.               
BRAC.............     1997  Beale............  Add/Alter             0.3
                                                Support                 
                                                Facility.               
BRAC.............     1997  Rickenbacker.....  Fuels Systems         1.2
                                                Maintenance             
                                                Facility.               
BRAC.............     1996  Travis...........  Combat Camera         9.9
                                                Facility.               
MFH-Cons.........     1994  Langley..........  Housing               0.4
                                                Management              
                                                Office.                 
MFH-Imp..........     1993  Kirtland.........  Replace MFH....       6.7
MFH-Imp..........     1994  Kirtland.........  Replace MFH....       6.9
------------------------------------------------------------------------

All unobligated balances are required for reprogrammings or have been 
expensed against valid Air Force requirements.
                    Program and Financing Statement
    Question. The Program and Financing Statement shows an unobligated 
balance of $23,858,000 available at the end of Fiscal years 1996 and 
1997, to be reprogrammed into fiscal year 1998. Why does this amount 
not appear in the ``Construction Program'' [C-1] for fiscal year 1998?
    Answer. The ``Construction Program [C-1]'' is a DoD prepared 
document. ``It does not reflect transfer of budget authority or 
unobligated balances, nor proposed program supplements/deferrals.''
    Question. Does the Air Force or the Office of the Secretary of 
Defense regard this Program and Financing Statement entry to be a 
formal reprogramming request?
    Answer. No, the Air Force does not consider this to be the official 
reprogramming request for the identified unobligated balances. Air 
Force will identify specific projects from which the identified amount 
is to be taken.
                          Unobligated Balances
    Question. The budget proposes to finance a total of $23.9 million 
from unobligated prior year appropriations for the Military 
Construction, Air Force account. Why was it formulated in this manner 
and why didn't the Department request a traditional rescission of these 
funds? Provide for the record the individual sources which derive the 
$23.9 million.
    Answer. The Department of Defense determined that $23.86M of prior 
year funds were available to offset the Air Force's FY98 request due to 
past bid savings and project cancellations, therefore no rescission was 
required. Currently, however, there are no significant savings 
available for FY98 requirements and, if required to pay this bill with 
FY97 and prior year funds, the Air Force would have to curtail valid 
projects listed below which have the latest estimated award dates.

                                              [Dollars in millions]                                             
----------------------------------------------------------------------------------------------------------------
         Fiscal Year                State          Project               PA            Remarks                  
----------------------------------------------------------------------------------------------------------------
1996.........................  Oklahoma......  Tinker........  Corrosion Control          $6.0  Evaluating      
                                                                Facility.                        privatization  
                                                                                                 alternative as 
                                                                                                 directed by    
                                                                                                 House Report   
                                                                                                 104-863.       
1997.........................  Oklahoma......  Tinker........  Corrosion Control          $5.4  Evaluating      
                                                                Facility.                        privatization  
                                                                                                 alternative as 
                                                                                                 directed by    
                                                                                                 House Report   
                                                                                                 104-863.       
1997.........................  Kansas........  McConnell.....  Consolidated               $6.7  Appropriated but
                                                                Education Center.                not authorized.
                                                                                                 FY98           
                                                                                                 Authorization  
                                                                                                 Bill requests  
                                                                                                 FY97           
                                                                                                 authorization. 
1997.........................  Ohio..........  Wright          Engineering Research       $7.4  On hold due to  
                                                Patterson.      Lab.                             Air Force      
                                                                                                 Institute of   
                                                                                                 Technology     
                                                                                                 Graduate School
                                                                                                 closure.       
----------------------------------------------------------------------------------------------------------------

                           Age of Facilities
    Question.What is the average age of Air Force facilities?
    Answer. The average age of Air Force facilities is approximately 27 
years. This does not include Military Family Housing.
                        Plant Replacement Value
    Question. What is the current replacement value of the Air Force's 
physical plant?
    Answer. The Air Force total plant replacement value is $204B. The 
military construction value is $129B.
                                Backlog
    Question. What is the Air Force construction backlog and how many 
years would it take to eliminate the backlog at current funding levels?
    Answer. The Air Force does not currently use a metric that could be 
used to answer this question. However, the state of the FY98 MILCON 
program is an indication of the magnitude of the problem. The Major 
Commands submitted over $850M in Current Mission projects in the FY98 
program. The current funding level will fulfill less than a quarter of 
the Current Mission requirements in FY98. The remaining requirements 
will be slipped to future years. The Major Commands have submitted a 
similar magnitude of requirements for FY99. The cumulative effects of 
deferring valid MILCON requirements to future years is producing a 
backlog which we cannot eliminate at current funding levels.
                          Planning and Design
    Question. Does the Air Force have sufficient planning and design 
funds to execute the entire fiscal year 1999 program.
    Answer. The Air Force will have sufficient planning and design 
(P&D) funds to execute the entire fiscal year 1999 program if the Air 
Force request for fiscal year 1998 P&D funds is fully authorized and 
appropriated.
                           Minor Construction
    Question. Provide for the record all minor construction projects 
funded in fiscal years 1995 and 1996 and the current status of fiscal 
year 1997 appropriation.
    Answer. The requested listing is attached.

                     UNSPECIFIED MINOR CONSTRUCTION                     
                          [Dollars in millions]                         
------------------------------------------------------------------------
                                                                  Funded
                 Base                          Projects            amt. 
------------------------------------------------------------------------
Fiscal year 1995:                                                       
    Eielson AFB, AK..................  Ready Munitions Facility      1.1
    Eielson AFB, AK..................  Add/Alter Squadron            1.0
                                        Operations.                     
    Vandenberg AFB, CA...............  Technical Training            0.7
                                        Classrooms.                     
    Air Force Academy, CO............  Field Engineering             1.1
                                        Readiness Lab.                  
    Dyess AFB, TX....................  Munitions Maintenance         1.4
                                        Facility.                       
    Charleston AFB, SC...............  Widen Hill Boulevard....      1.0
    Peterson AFB, CO.................  Band Practice Facility..      1.5
    Various Upward Scope Adjustments.  ........................      0.2
                                      ----------------------------------
                                             Total.............  \1\ 8.0
                                      ==================================
Fiscal year 1996:                                                       
    Bolling AFB, DC..................  Perimeter Security......      1.4
    Air Force Academy, CO............  Sailplane Runway........      0.9
    Bolling AFB, DC..................  Honor Guard Support           1.3
                                        Facility.                       
    McChord AFB, WA..................  Vehicle Maintenance           1.5
                                        Facility.                       
    Buckley ANGB, CO.................  Personnel Support             1.3
                                        Facility.                       
    Aviano AB, IT....................  Comm Maint and Support        1.3
                                        Fac.                            
    Altus AFB, OK....................  Flight Training Facility      1.3
                                      ----------------------------------
                                             Total.............      9.0
                                      ==================================
Fiscal year 1997 (obligated to date):                                   
    Mildenhall AFB, GB...............  Munitions Storage             1.2
                                        Complex.                        
    Tyndall AFB, FL..................  Communications                1.0
                                        Maintenance Fac.                
    Kadena AB, JA....................  Ammo Storage Maint &          0.8
                                        Insp Fac.                       
    Kadena AB, JA....................  Ammo Loading/Storage Fac      1.2
    Columbus AFB, MS.................  Ground Approach Trans/        1.0
                                        Rcvr Fac.                       
    Mt Home AFB, ID..................  ADAL Gen Purp Acft Maint      1.3
                                        Fac.                            
    Laughlin AFB, TX.................  Replace Perimeter Fence.      1.1
                                      ----------------------------------
                                             Total.............      7.6
------------------------------------------------------------------------
\1\ $0.8M reprogrammed into this account.                               

    Question. What shortfalls have you found in this account in the 
last two years?
    Answer. The appropriation has been sufficient to meet our most 
urgent needs. Minor shortfalls have been accommodated through 
reprogramming actions.
                             Reprogrammings
    Question. Submit for the record a table which will show, by fiscal 
year, the total amounts Congress has approved for reprogramming actions 
in the ``Military Construction, Air Force'' and ``Family Housing, Air 
Force'' accounts over the last five years.
    Answer. There were no amounts approved for reprogramming by 
Congress for the ``Family Housing, Air Force'' accounts over the last 
five years. The table listing approved reprogrammings for ``Military 
Construction, Air Force'' is attached.

[Pages 712 - 717--The official Committee record contains additional material here.]


                 Base Realignment and Closure Accounts

    Question. For the record, describe ``the President's five-part 
program'' to which you refer on page 29 on your prepared statement.
    Answer. This refers to the President's 1993 ``Plan for Revitalizing 
Base Closure Communities'' and consists of five Presidential 
initiatives:
    (1) A jobs-centered property disposal at closure bases that puts 
local economic redevelopment first.
    (2) Fast-track environmental cleanup at closure bases that removes 
needless delays while protecting human health and the environment.
    (3) Establishment of base transition coordinators at major bases 
slated for closure that act as ombudsmen for the community in their 
redevelopment efforts.
    (4) Providing easy access to transition and redevelopment help for 
workers and communities at closure locations.
    (5) Quick economic development planning grants to base closure 
communities.
    Question. Are there any schedule slippages in ongoing realignments 
and closures?
    Answer. There are no schedule slippages planned or foreseen in the 
remaining closure and realignment locations.
    Question. After the completion of all actions, is there a 
possibility that excess installation inventory will remain, which would 
justify another round of realignments and closures? If so, how soon?
    Answer. The need for another round of BRAC and its timing depends 
on the results of the QDR, currently underway, and naturally, 
appropriate legislation.
                          Korean Host Program
    Question. What funding has the Air Force received in the last three 
years under the two Korean Host Nation Funding programs?
    Answer.

                        [In millions of dollars]                        
------------------------------------------------------------------------
                                                    Fiscal year--       
                  Program                  -----------------------------
                                              1995      1996      1997  
------------------------------------------------------------------------
CDIP\1\...................................        11        13        10
RFCP\1\...................................        16        14        15
                                           -----------------------------
      Totals..............................        27        27        25
------------------------------------------------------------------------
\1\ Note.--CDIP stands for Combined Defense Improvement Projects. RFCP  
  stands for Republic of Korea Funded Construction Program.             

                        Payment-In-Kind/Germany
    Question. To date, how much has the Air Force received under the 
Payment-In-Kind (PIK) program and what future benefits does the Air 
Force anticipate?
    Answer. To date, the Air Force has received $19.1M in PIK funds. We 
expect to receive $8M from the next PIK allocation against an approved 
list of PIK eligible projects totaling over $100M.
                 Japanese Facilities Investment Program
    Question. What funding has the Air Force received in the last three 
years under the Japanese Facilities Investment Program.
    Answer.

                        [In millions of dollars]                        
------------------------------------------------------------------------
                                                    Fiscal year--       
                  Program                  -----------------------------
                                              1995      1996      1997  
------------------------------------------------------------------------
JFIP......................................       305       363       311
------------------------------------------------------------------------

                           Air Force Academy
    Question. Provide for the record a listing of all military 
construction (including minor construction) and family housing at the 
Air Force Academy over the last ten years.
    Answer.

                                 MILCON                                 
                          [Dollars in millions]                         
------------------------------------------------------------------------
         Fiscal year                        Title                  PA   
------------------------------------------------------------------------
1988........................  Auxiliary Airfield..............     1,700
1988........................  Cadet Chapel Elevator (Minor           595
                               Construction).                           
1988........................  Airfield Fire Station...........       980
1989........................  Alter Cadet Housing (Sijan Hall)     4,000
1989........................  Airman Dormitory................     3,500
1989........................  Add to Community Center Gym.....     1,750
1989........................  Add/Alter Base Civil Engineering       990
                               Facility.                                
1991........................  Consolidated Education and          15,000
                               Training Facility.                       
1991........................  Renovate Cadet Dining Facility         949
                               (Minor Construction                      
                               Appropriated over FY91, FY92,            
                               and FY93.                                
1992........................  Consolidated Education and          21,000
                               Training Facility.                       
1992........................  Upgrade Dormitories.............     3,000
1992........................  Resistance Training Lab (Minor         540
                               Construction).                           
1993........................  Underground Storage Tanks PH 1..       960
1993........................  Upgrade Energy Management            1,650
                               Control System.                          
1993........................  Base Operations.................     1,650
1994........................  Upgrade Wastewater Treatment         7,100
                               Plant.                                   
1994........................  Underground Storage Tanks Phase        780
                               II.                                      
1994........................  Enhanced Flight Screener Hangers     3,800
1995........................  Field Engineering and Readiness      1,103
                               Lab (Minor Construction).                
1996........................  Child Development Center........     4,200
1996........................  Sailplane Hanger................     3,724
1996........................  Replace Heating Facilities......     4,950
1996........................  Sailplane Runway and Taxiway         1,162
                               (Minor Construction).                    
1997........................  Family Support Center...........     2,100
1997........................  Upgrade Academic Facility.......    10,065
1998........................  Upgrade Academic Facility.......     9,854
1998........................  Add to and Alter Fitness Center.     5,375
Military Family Housing:                                                
    1988....................  Improvement Capehart Housing....     2,469
    1988....................  Improve SOQ.....................        37
    1989....................  Improve Family Housing..........     1,930
    1989....................  Improve Rectory.................        38
    1990....................  Improve Family Housing..........     1,875
    1990....................  Replace Roof Quarters 9038......        45
    1990....................  Improve Rectory.................        19
    1991....................  Improve Family Housing..........     1,840
    1992....................  Improve Capehart Housing........     2,600
    1992....................  Construct Storage Sheds, Senior         93
                               Officer Quarter's.                       
    1993....................  Improve Family Housing..........     3,574
    1994....................  Improve Capehart Housing........     3,686
    1994....................  Improve Indigenous House........        52
    1996....................  Improve Family Housing..........     4,029
    1997....................  Improve Family Housing..........     3,911
    1997....................  Improve MFH Maintenance Facility       323
    1998....................  Improve Capehart Family Housing.     6,800
------------------------------------------------------------------------

                           Vandenberg AFB, CA
    Question. What is the current status of Space Launch Complex 6 
(SLC-6)?
    Answer. SLC-6 is fully operational as of June 1994 and is operated 
and maintained by Lockheed Martin. SLC-6 was declared excess by the Air 
Force; therefore, the Air Force does not provide any funding for its 
operation.
    Question. Is the budgeted Launch Operations Control Center projects 
related in any way to SLC-6?
    Answer. There is no direct link between the SLC-6 and this 
facility. This facility will serve as the Western Range Launch 
Operations Control Center (OCC) for all users.
                      USAF Academy Fitness Center
    Question. The form 1391 states that the fitness center project at 
the Academy is a ``Level 1 Commander's Facility Assessment 
requirement.'' What does that mean?
    Answer. A Commander's Facility Assessment (CFA) Level 1 requirement 
is defined as a facility having a condition that directly inhibits 
mission readiness and contributes to a substandard quality of life 
atmosphere. The unit commander determined substandard size, inadequate 
facility configuration, deteriorated and unreliable building systems 
all created conditions justifying a CFA Level 1, Unsatisfactory rating. 
This project will replace a substandard facility, over 2000 square 
meters smaller than authorized, upgrade the building's aged utility 
systems, eliminate environmental hazards and reconfigure the layout. 
The revitalized facility will now have the capability to offer a 
complete array of physical fitness programs, limited due to existing 
facility size, and better serve permanently assigned base personnel 
including the prep and leadership schools. This swimming pool does not 
support the cadet wing.
    Question. To what extent is the scope and priority of this project 
driven by any outside pressures such as NCAA standards?
    Answer. Neither NCAA standards nor other outside pressures had any 
influence on this project.
    Question. By what percent will this project enlarge the existing 
fitness center?
    Answer. The existing building is 3750 SM; the addition is 2050 SM, 
a 55% increase.
    Question. How large is the existing pool, and how large will the 
replacement pool be?
    Answer. The existing pool has exceeded its life expectancy. 
Examination of the pool and infrastructure shows that the cost to 
replace the existing pool is about the same as repair. The existing 
pool is a 75 fool pool, (75 feet long by 42 feet wide with a 6 foot 
depth). The replacement pool will be a 25 meter pool (82 feet long), 
12.5 meters wide (42 feet wide) with a graduated depth.
                            Lackland AFB, TX
    Question. Under the Kelly AFB closure package in the Base 
Realignment and Closure, Part IV account, there is a project to 
construct three general officer's quarters. Explain the need for this 
project in some detail.
    Answer. Six general officer and eight senior officer's quarters at 
Kelly AFB, TX located in the industrial area, which are old and 
operationally expensive to maintain, have been declared surplus and 
will be turned over to the local reuse authority. Three key and 
essential general officer's quarters (Commander of Wilford Hall Medical 
Center, Air Intelligence Agency (AIA) Commander and AIA Vice Commander) 
will transfer to Lackland due to the realignment of Kelly AFB. Lackland 
AFB does not have any additional general officer quarters. With the 
necessary general officer quarter transfers and lack of existing 
facilities at Lackland, construction of three general officer units at 
Lackland is required.
    Question. The direct cost for replacing these family housing units 
is $398,000, according to the form 1391. Why shouldn't this project be 
funded at that level?
    Answer. The $398,000 direct cost reflected in the DD Form 1391 is 
for the family housing structure itself. The remainder of the cost 
reflects all work outside of the ``five foot boundary,'' specifically; 
costs for the driveway, utility connections, earth work on site, 
landscaping, and supervision costs for inspection of the construction.
    Question. Why aren't there three units being included in other on-
going privatization efforts at Lackland AFB?
    Answer. Qualification packages have already been received for the 
on-going effort to obtain 420 family housing units at Lackland AFB 
through the privatization methodology. Actual award of a firm contract 
and construction start is expected late this summer. Because the 
existing privatization effort has progressed this far, another bid 
amendment to the already submitted bid bonds and written proposals 
would only confuse the potential contractors. Thus, this matter 
proposed project will be constructed through the normal bidding 
process.

   Wright-Patterson AFB, OH (Renovate Acquisition Support Facility, 
                              $10,750,000)

    Question. When were the modifications made to the current facility 
to accommodate the current mission? Briefly describe the modifications 
that were made.
    Answer. The building was constructed in 1930 as an administrative 
facility. No major modifications have been made to change the function 
of this facility.
    Question. Can you quantify the savings or economics that this 
renovation will provide compared with current operations?
    Answer. An Economic Analysis was accomplished for this facility. 
Life Cycle Cost for doing nothing, renovation, new construction, and 
leased space were considered. The do nothing alternative was $3M less 
than the renovation alternative. Leasing or constructing new proved to 
be significantly more expensive than renovating. The do nothing 
alternative is unacceptable due to Life Safety (asbestos, lead based 
paint, and fire) hazards. Also this facility is on an historic site and 
must be preserved. The renovation alternative meets all the qualitative 
and life safety requirements.

       Maxwell AFB, AL (OTS Physical Fitness Center, $1,095,000)

    Question. Describe in some detail why Officer Training School (OTS) 
students must have a separate facility, and why the base gymnasium is 
not an option.
    Answer. The base gymnasium is too small to support the base 
population and the officer trainee student load. The officer trainees 
would compete with the other gymnasium patrons to utilize the limited 
training resources of the existing facility. A controlled training 
environment cannot be maintained when officer trainees use the existing 
gymnasium. This separate facility, located in the Officers' Training 
School campus area, satisfies all of these training requirements.

       Clear Air Station, Alaska (Alter Dormitories, $20,285,000)

    Question. This project includes $1,400,000 for a temporary lease of 
modular units during construction. Why is this necessary, rather than 
work-arounds or less costly temporary arrangements?
    Answer. This requirement is driven by a combination of very limited 
living accommodations at this remote site; the high transient load on 
the site during the short construction season; and the reduction in on-
site billeting capacity as dormitories are taken out of service for 
renovation. We are continuing to look for work-arounds which could 
reduce the number of modular facilities required.
    Question. What is the scope and duration of this lease, and what is 
the basis for the estimated cost?
    Answer. The lease is for a 100 person modular camp for a period of 
approximately 30 months consistent with the construction duration. The 
cost was estimated by the Army Corps of Engineers, based on prices 
supplied by local vendors.
    Question. Was this project 35 percent design complete as of January 
1997 or will it reach 35 percent design complete on March 18, 1997?
    Answer. Yes. Extensive planning, requirements identification, site 
investigation, and a parametric cost estimate equivalent to a 35 
percent design were completed in November 1996.

                Master Plan--Family Housing Requirements

    Question. Describe for us in some detail the steps that are being 
taken to develop a master plan that will define and prioritize family 
housing requirements for the Air Force.
    Answer. The housing master plan will outline a corporate Air Force 
strategy to integrate housing investment, housing operations and 
maintenance, and housing privatization programs into a single 
investment ``road map.''' The final product will be a business plan 
that addresses physical planning, cost, and alternative investment 
considerations. The plan will consolidate existing planning and 
programming tools and enable Air Force decision-makers to corporately 
prioritize housing revitalization requirements using the execution 
method (MILCON, privatization, or O&M) that will provide the greatest 
``return-on-investment.''
    Question. What is the timetable for awarding this contract?
    Answer. The Air Force plans to award a contract by 1 Jun 97.
    Question. Will this contractual effort be funded under the family 
housing O&M account?
    Answer. Yes, the contractual effort to complete the housing master 
plan will be funded under the family housing O&M account.
    Question. How much will this contract cost, how long will it last, 
and what milestones will be specified?
    Answer. The current contract estimate is approximately $50,000 per 
installation with completion scheduled for Dec. 1998. Major milestones 
include:
    Define corporate Air Force strategies for the future.
    Integrate strategies with current planning and programming tools.
    Develop investment models.
    Prioritize corporate requirements.
    Publish plan.
    The Air Force is considering a two-step approach starting with a 
prototype task order for five to seven installations followed by a 
second task order for the remainder of our installations.
         Temporary Lodging Requirements for Families in Transit
    Question. Is it correct that temporary lodging requirements for 
families in transit will be addressed under the nonappropriated 
accounts, rather than the family housing accounts? If so, why?
    Answer. Yes. Congress has approved guidance that recognizes NAF as 
the primary fund source for constructing TLFs.
    Question. How much will this effort cost, and how long will it 
last?
    Answer. Program currently identifies 420 of the Air Force's most 
critical TLF needs ($74M). Anticipated construction period will be over 
a two year time period.
                        Family Housing Inventory
    Question. How many family housing units do you have in the United 
States, and how many do you have overseas, excluding Sections 801 and 
802, and excluding leases?
    Answer. The Air Force has about 110,000 housing units worldwide; 
85,000 in the United States and 25,000 overseas.
    Question. How many Section 801, Section 802, and leased units do 
you have in the United States, and how many do you have overseas?
    Answer. The Air Force has 3,828 Section 801 leased units, no 
Section 802 leased units, and 250 other leased units in the United 
States. The Air Force has 4,125 leased units overseas.
                        Age of Housing Inventory
    Question. What is the average age of the family housing inventory?
    Answer. The average age of the Air Force family housing inventory 
is 34 years.
    Question. What percentage of the family housing inventory is over 
30 years old?
    Answer. About 74 percent of the inventory is over 30 years old.
    Question. What percentage of the family housing inventory is over 
40 years old?
    Answer. About 30 percent of the inventory is over 40 years old.
    Question. What is your current worldwide family housing deficit?
    Answer. The total worldwide deficit is about 17,900 units.
                            Housing Deficit
    Question. What are your three largest deficits, and how large are 
they?
    Answer. The three largest deficit locations and their deficit are: 
RAF Lakenheath, United Kingdom, 1,837 units; Elmendorf AFB, Alaska, 
1097 units; Maxwell AFB Alabama, 875 units.
    Question. What are your three most expensive deficit locations, 
based on actual payments of housing allowances?
    Answer. The Variable Housing Allowance (VHA) is structured so as to 
equalize median out-of-pocket costs for each pay grade across all duty 
locations in the United States. The intent is that members in high 
housing cost locations be no worse off than members in low housing cost 
locations. However, members assigned to very low cost locations that do 
not warrant VHA may actually not incur any out-of-pocket cost. 
Conversely, members assigned to very high cost locations may pay 
slightly more out-of-pocket than the established median absorption rate 
because of the cap on the VHA program. The three locations where 
members receive the most Variable Housing Allowance (higher cost 
housing locations) are (from highest to lowest VHA allowance): Hickam 
AFB, HI; Elmendorf AFB, AK; and Los Angeles, CA.
                             Waiting Lists
    Question. How many families are on waiting lists for government-
provided family housing, and what is the average waiting time?
    Answer. There are 41,000 families on waiting lists for government-
provided family housing and the average waiting time is from 12 to 24 
months.
                            Off-Base Housing
    Question. How many families are living off-base?
    Answer. There are approximately 160,000 families living off-base.
    Question. What is the criteria for suitable off-base housing?
    Answer. The criteria for suitable off-base housing includes: (1) 
location--within a 1-hour commute during peak periods or other limits 
to satisfy mission requirements; (2) cost--maximum acceptable monthly 
cost is the sum of basic housing allowance (BAQ), variable housing 
allowance, and maximum out-of-pocket cost of 50 percent of BAQ; (3) 
size--based on grade and dependency ensuring no more than two persons 
share a bedroom, (4) condition--structurally sound, private entrance, 
appropriate bathroom and kitchen, and utilities, and (5) safety--secure 
and safe environment.
                            ``Suitability''
    Question. How many families are unsuitably housed, and how is 
``unsuitable'' defined?
    Answer. More than 75,900 families are unsuitably housed: 17,900 
off-base and 58,000 on-base. For on-base housing, ``unsuitable'' is 
defined as not meeting contemporary design and amenities equivalent to 
housing built in the local community, and having a condition that 
warrants major improvement or replacement of the housing. For off-base 
housing, ``unsuitable'' is defined as not meeting criteria for 
location, cost, size, condition, and safety.
                          Deferred Maintenance
    Question. What is the current annual funding requirement for family 
housing maintenance and repair?
    Answer. Current requirement is $526 M for maintenance and repair.
    Question. What is the current backlog of deferred maintenance?
    Answer. Current backlog is $959M.
    Question. How much maintenance and repair work can be performed 
during a single fiscal year, and what are the limiting factors?
    Answer. The Air Force can execute $650M in maintenance and repair 
projects. We welcome the opportunity to reduce our $1B backlog of 
deferred maintenance and repair; the only limiting factor to executing 
projects is lead time for design.
                       Construction Improvements
    Question. How much construction improvement work can be performed 
during a single fiscal year, and what are the limiting factors?
    Answer. There is not pre-determined limit on the construction 
improvement work that can be performed during a single fiscal year. At 
a specific location, there may be a practical limit on the number of 
projects that can be executed simultaneously due to construction site 
constraints and the inability to adequately displace facility occupants 
during construction.
                    Operations and Maintenance Costs
    Question. What is the average operation and maintenance cost per 
family housing unit?
    Answer. The average operations and maintenance per unit is $6,512.
    Question. How does the average cost compare with the requirement--
assuming ``no growth'' in deferred maintenance?
    Answer. The $6,512 average per unit operations and maintenance cost 
does not address the total requirement. We would need $7,367 per unit 
to address our requirement assuming ``no growth'' in deferred 
maintenance.
                         Currency Fluctuations
    Question. What currency gains or losses are projected for your 
overseas housing programs during fiscal year 1997 and 1998?
    Answer. Currency gains and losses are funded through the centrally 
managed Foreign Currency Fluctuation Construction Defense Account. The 
Foreign Currency Fluctuation Account for Fiscal Year 1997 has $15M to 
satisfy requirements as needed. Projection for Fiscal Year 1998 will be 
determined by the remaining disbursements and the prevailing Foreign 
Currency Fluctuation rate as of August 1997.
                            Officer Quarters
    Question. Please submit for the record a table showing: (a) how 
many general/flag officer quarters you have, separately identifying 
CONUS and OCONUS locations, (b) how many of these quarters exceed the 
statutory space limitations, and (c) the average O&M cost per unit.
    Answer. (a) There are ``238'' permanent general officer quarters--
190 in the CONUS and 49 OCONUS. Add to this the units that temporarily 
housed (change of occupancy, redesignation of general officer quarters, 
down for maintenance etc.) general officers and you get 284. We capture 
the cost and statutory space limitations for all 284 units (OSD 
guidance requires the Services to identify all units occupied by a 
general officer at any time for during the years).
    (b) 213 of the 284 units exceed the 2,100 nsf limitation
    (c) Average O&M cost for the 284 units is $15,421
                     Homeowners Assistance Program
    Question. Please provide a list of installations from which 
Homeowners Assistance claims are currently pending.
    Answer. The following Air Force installations have claims against 
the Homeowners Assistance Program that are currently being processed: 
March AFB, CA; Griffiss AFB, NY; Lajes Field, AZORES, Portugal; 
Plattsburg AFB, NY; Cannon AFB, NM; Carswell AFB, TX; Castle AFB, CA; 
McClellan AFB, CA; Homestead AFB, FL.
    Question. Is the program meeting the needs at all locations?
    Answer. Yes, the program is meeting the needs at all locations 
currently supported by the program. On-going studies at other locations 
announced for closures or realignments will determine the need for 
implementation at those locations.
                    Family Housing Improvement Fund
    Question. Section 2883 of the National Defense Authorization Act 
for fiscal year 1996 established the Department of Defense Family 
Housing Improvement Fund. Briefly, how does your Service intend to 
exercise this authority in the coming year?
    Answer. The Air Force will use the authority to support privatized 
housing project development and fund project awards, in fiscal years 
1997 and 1998. We will transfer appropriated family housing 
construction funds to meld with funds appropriated directly into the 
account to support our initiatives.
                        Program Execution Rates
    Question. Please provide for the record a list of all construction 
and construction improvement projects for which funds were previously 
appropriated, but which have not been executed. This list should 
include, at a minimum, the year in which funds were appropriated and 
the estimated contract award date.
    Answer. The requested list is attached.

[Pages 725 - 728--The official Committee record contains additional material here.]


    Question. What is being done to improve execution rates and 
to avoid large unobligated balances.
    Answer. The execution rate for Air Force Military 
Construction projects has significantly improved over the past 
seven years. In fiscal year 1990, 27 percent of the program was 
awarded in the year of appropriation. That rate has increased 
steadily to 91 percent in fiscal year 1996. This increase is 
due primarily to improved requirements identification and cost 
estimating during the programming phase, and a stronger 
partnership with our design and construction agents. The Air 
Force plans to continue emphasizing these areas.

                    Privatization--Maintain Home AFB

    Question. Describe for us the background of your decision 
to attempt to privatize all 1,525 family housing units at 
Mountain Home AFB, Idaho.
    Answer. Our decision is based on a combination of the 
command and installation willingness to test privatizing on an 
entire base inventory at Mountain Home, the condition of the 
units and funds available to support the initiative, and the 
location of the housing area(s) relative to the base perimeter. 
The project is currently in the initial development stages and 
ongoing investigations will determine if all factors will 
combine to successfully follow through with plans to privatize 
the entire inventory.
    Question. Does this include all housing--enlisted and officer 
housing?
    Answer. Yes this includes all housing--enlisted and officer 
housing.
    Question. What response have you received to date?
    Answer. A joint Air Force and OSD site investigation was conducted 
17-22 Feb. 97. The local community was very responsive to the 
installation's approach to satisfying it's housing requirements. While 
we'll use the privatization initiatives to revitalize the existing base 
inventory, the local community has and will continue to address deficit 
reduction requirements.
    Question. Are there any other similar whole-installation proposals 
being worked?
    Answer. We are investigating the potential to privatize the housing 
inventory at Kirtland AFB. We will continue to look at other Air Force 
projects for whole base privatization candidates.
            Family Housing Construction--Los Angeles AFB, CA
    Question. Describe for us the current status of the execution of 
the previously appropriated fiscal year 1995 and fiscal 1997 projects 
to provide new family housing units at the Navy's former White Point 
site near San Pedro, California.
    Answer. Both the fiscal year 1995 and fiscal year 1997 projects at 
the Navy's White Point site near San Pedro, California received 
favorable bids on 7 March 97. The Air Force has transferred funds to 
base contracting and an award is expected to be made by 17 March 97.
    Question. Are there any remaining impediments to contract award, 
such as scope or cost variation?
    Answer. No, the project received good bids and is ready to be 
awarded. The project will be awarded for a reduced scope of 71 units 
based on a negotiated compromise between Los Angeles AFB and the Local 
Homeowner's Association with regards to the development of the White 
Point site.
    Question. What is the estimated date of contract award?
    Answer. Estimated date of contract award is 17 March 97.
    Question. This location will house personnel working about 20 miles 
away at Los Angeles AFB in El Segundo. What criteria does the Air Force 
use for commuting time and distance for assignment to government-owned 
housing?
    Answer. The Air Force uses a 1-hour commute by a private-owned 
vehicle during normal commuting hours, or within other limits to 
satisfy mission requirements. Other limits will be used only by written 
approval of the major command commander. The commuting time is measured 
from the installation's headquarters building.

    Bolling AFB, Washington DC (Replace Family Housing (46 Units), 
                              $5,100,000)

    Question. How do you justify a project to replace 46 housing units 
for $5,100,000 at an installation that has nobody unacceptably housed, 
a current housing surplus of 591 units, and a projected housing surplus 
of 171 units?
    Answer. While the budget detail does not correctly identify 
unsuitable units, the requirement for revitalization does exist. Of the 
1219 units at Bolling AFB, only 40% have been revitalized to meet 
suitability standards. Regarding surplus units Air Force policy is 
consistent with GAO and DoD direction to ``continue to occupy and 
operate surplus units until no longer economical to maintain and 
repair.'' The current project complies with this policy.

    Edwards AFB, CA (Replace Family Housing (51 Units), $8,500,000)

    Question. How do you justify a project to replace 51 housing units 
for $8,500,000 at an installation that has nobody unacceptably housed, 
a current housing surplus of 419 units, and a projected housing surplus 
of 138 units?
    Answer. While the budget detail does not correctly identify 
unsuitable units, the requirement for revitalization does exist. Of the 
1989 units at Edwards AFB, only 24% have been revitalized to meet 
suitability standards. Regarding surplus units, Air Force policy is 
consistent with GAO and DoD direction to ``continue to occupy and 
operate surplus units until no longer economical to maintain and 
repair.'' The current project complies with this policy.

  Vandenberg AFB, CA (Replace Family Housing (108 Units), $17,100,000)

    Question. How do you justify a project to replace 108 housing units 
for $17,100,000 at an installation that has nobody unacceptably housed, 
a current housing surplus of 10 units, and a projected housing deficit 
of only [1] unit?
    Answer. While the budget detail does not correctly identify 
unsuitable units, the requirement for revitalization does exist. Of the 
2076 units at Vandenberg AFB, only 27% have been revitalized to meet 
suitability standards. Regarding surplus units, Air Force policy is 
consistent with GAO and DoD direction to ``continue to occupy and 
operate surplus units until no longer economical to maintain and 
repair.'' The current project complies with this policy.

    Columbus AFB, MS (Replace Family Housing (50 Units), $6,200,000)

    Question. How do you justify a project to replace 50 housing units 
for $6,200,000 at an installation that has nobody unacceptably housed, 
a current housing surplus of 375 units, and a projected housing surplus 
of 153 units?
    Answer. While the budget detail does not correctly identify 
unsuitable units, the requirement for revitalization does exist. Of the 
733 units at Columbus AFB, none have been revitalized to meet 
suitability standards. Regarding surplus units, Air Force policy is 
consistent with GAO and DoD direction to ``continue to occupy and 
operate surplus units until no longer economical to maintain and 
repair.'' The current project complies with this policy.

    Keesler AFB, MS (Replace Family Housing (40 Units), $5,000,000)

    Question. How do you justify a project to replace 40 housing units 
for $5,000,000 at an installation that has nobody unacceptably housed, 
a current housing surplus of 20 units, and a projected housing surplus 
of 25 units and plans to replace an additional 104 units in the next 
four years?
    Answer. While the budget detail does not correctly identify 
unsuitable units, the requirement for revitalization does exist. Of the 
1951 units at Keesler AFB, only 24% have been revitalized to meet 
suitability standards. Regarding surplus units, Air Force policy is 
consistent with GAO and DoD direction to ``continue to occupy and 
operate surplus units until no longer economical to maintain and 
repair.'' The current project complies with this policy. In addition, 
Keesler is one of the Air Force's privatization candidates.

 Kirtland AFB, NM (Replacement Family Housing (180 Units), $20,900,000)

    Question. How do you justify a project to replace housing units for 
$20,900,000 at an installation that has nobody unacceptably housed, a 
current housing surplus of 115 units, and a projected housing surplus 
of 112 units?
    Answer. While the budget detail does not currently identify 
unsuitable units, the requirement for revitalization does exist. Of the 
2121 units at Kirtland AFB, only 20% have been revitalized to meet 
suitability standards. Regarding surplus units, Air Force policy is 
consistent with GAO and DoD direction to ``continue to occupy and 
operate surplus units until no longer economical to maintain and 
repair.'' The current project complies with this policy. In addition, 
Kirtland is one of the Air Force's privatization candidates.

  Grand Forks AFB, ND (Replace Family Housing (42 Units), $7,936,000)

    Question. How do you justify a project to replace 42 housing units 
for $7,936,000 at an installation that has nobody unacceptably housed, 
a current housing deficit of 47 units, but a projected housing surplus 
of 494 units?
    Answer. While the budget detail does not correctly identify 
unsuitable units, the requirement for revitalization does exist. Of the 
2271 units at Grand Forks AFB, only 10% have been revitalized to meet 
suitability standards. Regarding surplus units, Air Force policy is 
consistent with GAO and DoD direction to ``continue to occupy and 
operate surplus units until no longer economical to maintain and 
repair.'' The current project complies with this policy.

              Environmental Compliance--Air National Guard

    Question. How large is the backlog of requirements for 
environmental compliance projects, and how long will it take to buy-out 
this backlog?
    Answer. The Air National Guard can fully meet the currently 
identified requirements for environmental compliance projects. While 
there is no military construction backlog, only one Level I (not in 
compliance) project ($1.5 million) is not included in this budget 
request. That project, a fire training facility, will be programmed as 
soon as land issues are resolved.

               Expiring Authorization--Air National Guard

    Question. For projects that have been previously appropriated but 
not yet executed, list any authorizations that will expire in 1997, 
1998, or 1999, if any, identifying the year of expiration.
    Answer. The Air National Guard (ANG) has no project authorizations 
expiring in 1997, 1998, or 1999. The Air Force General Counsel has 
interpreted that the fiscal years 1993, 1994, and 1995 Defense 
Authorization Acts provide the ANG with lump sum authorization. As 
such, no authorization expires once a project is awarded in the 
authorized fiscal year.

          Excess Prior Year Authorization--Air National Guard

    Question. For the record, what is the amount of excess prior year 
authorization, if any?
    Answer. The Air National Guard (ANG) has $33.08 million of excess 
prior year authorization. In fiscal year 1997, the ANG applied $1.35 
million of this excess to meet an authorization shortfall for the 
Aircraft Arresting System project at Des Moines International Airport, 
IA. A January 27, 1997 letter notified the respective committees of the 
ANG's intent.

                    Air National Guard--End Strength

    Question. What is the authorized end-strength for 1996 and 1997, 
and the projected end-strength for 1998?
    Answer. The Air National Guard's assigned military end strength for 
Fiscal Year (FY) 1996 was 110,484. The authorized military end strength 
for FY 1997 is 109,278 and the projected military end strength for FY 
1998 is 107,377.
                    Base Closure--Air National Guard
    Question. For the record, list the locations where facilities were 
transferred to the Reserve components under base realignment and 
closure.
    Answer. A portion of Griffiss AFB, NY, was transferred to the Air 
national Guard (ANG). The ANG will operate the Minimum Essential 
airfield (MEA) and the Northeast Air Defense Sector. The MEA provides 
interim support for U.S. Army's 10th Mountain Division deployments 
until permanent facilities are constructed at Fort Drum, NY.
    Question. What increases in facility requirements have resulted 
from such transfers?
    Answer. The increases in facility requirements to the Air National 
Guard at the Griffiss Minimum Essential Airfield (MEA) and the 
Northeast Air Defense Sector are minimal. Upon completion of the 
permanent airfield facilities at Fort Drum, NY, in fiscal year 1999, 
the Griffiss MEA will be closed.
    Question. For facilities that have been transferred to the Reserve 
components under base realignment and closure, are the BRAC accounts 
fully meeting the construction requirements at those locations?
    Answer. There are no construction requirements at Griffiss Minimum 
Essential Airfield, NY, but a $1.2 million alteration project is 
planned for the Northeast Air Defense Sector. At Pease ANGB, NH, and 
Rickenbacker ANGB, OH, Base Realignment and Closure accounts are fully 
meeting construction requirements resulting from facility additions to 
the Air National Guard cantonment areas.
    Question. How far have such transfers gone toward resolving 
facilities shortages for the Reserve components?
    Answer. No facilities shortages exist at Griffiss Minimum Essential 
Airfield, NY, or the Northeast Air Defense Sector. At Pease ANGB, NH, 
and Rickenbacker ANGB, OH, the facility transfers and Base Realignment 
and Closure-funded alteration projects have alleviated space 
deficiencies and antiquated conditions.
                      Air National Guard Inventory
    Question. What is the value of the current physical plant, and the 
types, numbers, and average age of facilities?
    Answer. The value of the Air National Guard physical plant is 
$10.08 billion. The inventory of 5,521 buildings consists of various 
types of facilities: operations, training, communications, aircraft 
maintenance, supply, fuel storage, munitions storage, civil 
engineering, administrative, vehicle maintenance, medical training, and 
fire protection. The average age of these facilities is 37 years.
                       Air National Guard Backlog
    Question. What is the current backlog of facility requirements?
    Answer. The Air National Guard (ANG) has identified and validated 
$1.5 billion of military construction requirements. While the ANG 
budget request addresses the most critical of these requirements, the 
majority of projects had to be slipped beyond the Future Years Defense 
Plan (FYDP). The FYDP includes funding for $449 million of facility 
requirements. The ANG does not have sufficient funding in the FYDP to 
address $375 million of other requirements.
    Question. How much would be required annually to keep even with 
facilities needs?
    Answer. Although current military construction (MILCON) funding 
levels are constrained to meet higher budget priorities, the most 
critical facility projects are being funded. If these funding levels 
were to increase, an average of $190 million per year would keep even 
with Air National Guard facility needs. This figure would account for 
new mission MILCON requirements and a viable recapitalization strategy 
to eliminate numerous current mission facility deficiencies.
                   Air National Guard Family Housing
    Question. List the locations and number of units of family housing 
occupied by the Reserve components.
    Answer. Air National Guard (ANG) personnel on extended active duty 
are eligible and do occupy military family housing (MFH). The ANG does 
not keep an accounting of how many personnel are actually occupying MFH 
units or at what locations because the data is subject to change very 
frequently as personnel move into and out of available MFH units. In 
addition, the ANG does not own, operate, or maintain the MFH units that 
ANG personnel do use.
          Air National Guard Backlog of Maintenance and Repair
    Question. What is the current backlog of maintenance and repair 
funded under the operations and maintenance accounts, by component?
    Answer. The Air National Guard backlog of maintenance and repair 
(BMAR) at the end of fiscal year (FY) 1996 was $528 million. At the 
present level of funding (which includes the $44 million added by 
Congress in FY 1997 for Quality of Life), the BMAR is expected to be 
$518 million at the end of FY 1997 and rise to $593 million at the end 
of FY 1998.
    Question. What is the annual funding requirement to avoid growth of 
the backlog?
    Answer. The annual funding requirement for the Air National Guard 
to avoid growth of the backlog of maintenance and repair is $130 
million.
             Parametric Cost Estimates--Air National Guard
    Question. To what extent do you rely on parametric cost estimation 
in the design of military construction projects?
    Answer. The Air National Guard (ANG) primarily uses parametric cost 
estimates for projects when there is inadequate lead-time to design a 
project to 35 percent prior to the prior to the budget submission. 
Parametric estimates are also used to help stretch limited planning and 
design funds. Overall, less than 25 percent of ANG projects have had 
parametric estimates.
    Question. What degree of confidence do you have in the accuracy of 
parametric design estimates?
    Answer. Parametric cost estimates are found to be equally accurate 
in predicting the final cost of projects as those cost estimates 
developed at the 35 percent project design phase by the design 
architect-engineer.
           Air National Guard Unspecified Minor Construction
    Question. Provide for the record a list of unspecified minor 
construction projects executed during fiscal years 1995 and 1996, and 
obligations to date in fiscal year 1997, by location.
    Answer. The attached chart identifies the Air National Guard 
unspecified minor construction projects executed in fiscal years (FY) 
1995 and 1996, and the FY 1997 obligations to date.

[Page 734--The official Committee record contains additional material here.]


    Question. Has the appropriation met the needs over the last 
two years?
    Answer. The appropriation was sufficient to meet our most 
urgent needs over the last two years. Given the number of 
short-notice mission conversions requiring facility projects, 
the Air National Guard historically has had to judiciously 
balance these urgent requirements against he limited funding 
availability.
    Question. What shortfalls, if any, have been encountered?
    Answer. As the Air Force has downsize, numerous missions 
have been transferred to the Air National Guard (ANG). Since 
inclusion in the military construction program is often late-
to-need, unspecified minor construction is used to satisfy the 
most urgent facility needs. While available funding has been 
able to meet these needs, in some cases, additional funding 
would prevent ANG units from having to operate in inefficient 
workarounds for longer periods of time. The following $3 
million in requirements could not be funded in fiscal year 
1997:

------------------------------------------------------------------------
                                                               Cost in  
             Base/Sate                       Project         millions of
                                                               dollars  
------------------------------------------------------------------------
Camp Murray, WA....................  Add/alter                      .550
                                      communications                    
                                      training facility.                
Stanly County, NC..................  Infrastructure                1.100
                                      improvements.                     
Selfridge, MI......................  Beddown air traffic            .790
                                      control flights.                  
Kulis, AK..........................  Relocate aircraft              .560
                                      inspection shop.                  
------------------------------------------------------------------------

         Demolition of Unneeded Facilities--Air National Guard

    Question. How large is the inventory of unneeded facilities 
awaiting demolition?
    Answer. The inventory of unneeded facilities awaiting 
demolition is 565,000 square feet. This represents 1.43 percent 
of the Air National Guard facility inventory.
    Question. Is the work funded exclusively under the 
operations and maintenance account?
    Answer. A majority of Air National Guard demolition work is 
funded under the operations and maintenance account. In cases 
where the facility to be demolished is in the way of new 
construction, the demolition is funded within the military 
construction project.
    Question. How will this work be tracked to ensure that funds are 
used for demolition?
    Answer. A project is established for every Air National Guard 
facility to be demolished, and obligations are tracked in our 
accounting system. This allows requirements to be measured, and funds 
to be allocated and tracked.
    Question. What is the level of effort for this work for fiscal year 
1997?
    Answer. For fiscal year (FY) 1997, the Air National Guard has 
identified $2 million of demolition projects to be accomplished with 
operations and maintenance funds. In addition, $0.9 million of 
demolition will be accomplished as part of the FY 1997 military 
construction program.
             Air National Guard Projects No Longer Required
    Question. Please provide for the record a list of any projects, 
either in the fiscal year 1997 appropriation or in the prior years' 
unobligated balances, that are no longer required due to force 
structure changes, base realignment and closure, mission changes, 
bilateral and multilateral agreements, or other reasons. Please include 
on the list military construction projects, family housing construction 
and construction improvement projects, and projects financed under the 
base realignment and closure accounts?
    Answer. The Air National Guard no longer requires the three 
military construction projects identified below. In each case, the 
funds were applied to prior year unspecified reductions, thereby 
allowing effective management of the military construction program 
deficit.

----------------------------------------------------------------------------------------------------------------
     Fiscal year                           Base                                  Project                 Cost   
----------------------------------------------------------------------------------------------------------------
1995.................  Buckley ANGB, CO............................  Aircraft wash and Deicing          $400,000
                                                                      apron--Reason for                         
                                                                      cancellation: Using equipment             
                                                                      to recycle the deicing fluid              
                                                                      has provided a more cost                  
                                                                      effective alternative.                    
1995.................  Worcester ANGS, MA..........................  Add to and Alter Vehicle            350,000
                                                                      Maintenance Facility--Reason              
                                                                      for cancellation: Unit                    
                                                                      relocated and installation                
                                                                      closed as part of ANG                     
                                                                      consolidation initiative.                 
1995.................  Sepulveda ANGS, CA..........................  Replace Underground Storage         320,000
                                                                      Tanks--Reason for                         
                                                                      cancellation: A real property             
                                                                      maintenance project ($68,000)             
                                                                      eliminated the environmental              
                                                                      compliance deficiency.                    
----------------------------------------------------------------------------------------------------------------

                   Reprogramming--Air National Guard
    Question. Submit for the record a table which will show, by fiscal 
year, the total amount approved by Congress for reprogrammings for the 
last five years.
    Answer. The attached table identifies all the reprogrammings 
approved by Congress for the Air National Guard since fiscal year 1992. 
The table groups the projects by the related reprogramming actions.

[Page 737--The official Committee record contains additional material here.]


                Air National Guard Unobligated Balances

    Question. What is being done to improve execution rates and 
to avoid large unobligated balances?
    Answer. The Air National Guard (ANG) execution rate has 
been improving for the past three years. The large number of 
small environmental compliance projects in the programs 
required extensive coordination which delayed project 
execution. Increased emphasis has been placed on early 
execution at all levels within the ANG. Additional new tracking 
procedures highlight those projects which require increased 
management attention to ensure timely execution.
    Question. For the record, submit a list of all projects for which 
funds were previously appropriated, but which have not yet been 
executed. This list should include, at a minimum, the year in which 
funds were appropriated and the estimated contract award date.
    Answer. The attached table lists all Air National Guard projects 
for which funds were previously appropriated, but which have not yet 
been executed. The estimated contact award date for each project is 
provided.

[Pages 739 - 740--The official Committee record contains additional material here.]


   Buckley Air National Guard Base, CO (Upgrade Base Infrastructure 
                         Systems, $12,800,000)
    Question. Is this an environmental compliance project? Are there 
any environmental concerns or reviews which could impact this project?
    Answer. No, it is not an environmental compliance project. As a 
result of new mission beddowns and antiquated utilities and pavements 
systems, the project also corrects sanitary sewer and storm drainage 
deficiencies. If left unchecked these deficiencies could result in 
degradation to the environment. As with all military construction 
projects, an environmental assessment (EA) will be accomplished and 
will begin in late March, 1997. While significant impacts for this 
project are not anticipated, the Air National Guard must complete the 
9-month assessment to comply with federal law.
    Question. Can you quantify the operations and maintenance savings 
or economies associated with upgrading the base infrastructure systems?
    Answer. The ANG prepared an economic analysis July 1996 which 
identified the following savings and economies:
    Road/Streets: Reduced traffic delays and automobile accidents would 
generate $2.7 million in savings over 20 years. In addition, a total of 
$2.0 million in maintenance and repair costs would be avoided over 20 
years.
    Electrical Distribution System: Elimination of power outages would 
save $1.0 million (lost time and equipment damage) over 20 years.
    Charlotte/Douglas International Airport, NC (Alter Fuel Systems 
         Maintenance and Corrosion Control Facility $2,550,000)
    Question. Briefly describe the seven buildings to be demolished as 
part of this project.
    Answer. Each of the seven buildings to be demolished as part of 
this project are economically unfeasible to upgrade. They contain 
numerous deficiencies such as leaking roofs, deteriorated siding, water 
intrusion, power fluctuations, and numerous health and safety hazards.

------------------------------------------------------------------------
                                                                   Year 
      Building No.                   Function              SM     built 
------------------------------------------------------------------------
17......................  Operations and Training......     280     1959
18......................  Disaster Preparedness........     400     1967
20......................  Organizational Maintenance        270     1960
                           Shop.                                        
22......................  Fuel Systems Maintenance Dock     670     1965
23......................  Aeromedical Evacuation            810     1965
                           Training.                                    
24......................  General Purpose Shop.........      55     1968
37......................  Aircraft Corrosion Control *.      45     1978
------------------------------------------------------------------------
* In the way of new construction.                                       

                            Status of Funds
    Question. Does the Air National Guard have sufficient funds to 
fully execute all existing authorized projects?
    Answer. Currently the Air National Guard (ANG) does not have 
sufficient funds to fully execute all existing authorized projects. The 
deficit is due to unspecified reductions in prior years and having to 
reprogram project funding into planning and design to fund the design 
to fund the design of congressional add-on projects. Through 
cancellation of some projects no longer required and judicious 
management of the military construction program, the ANG has been able 
to reduce its program deficit to approximately $6 million. It is 
anticipated that through continued close management of the program the 
remaining deficit can be eliminated over time. However, with the 
extremely small programs being submitted in fiscal years 1998 and 1999 
it will become more difficult to absorb this deficit without having to 
cut the scope of some projects or deferring appropriated projects.
    Question. If all current working estimates are tallied, are there 
excess funds?
    Answer. No, the Air National Guard military construction program 
has a deficit of $6 million.
              Environmental Compliance--Air Force Reserve
    Question. How large is the backlog or requirements for 
environmental compliance projects, and how long will it take to buy-out 
this backlog?
    Answer. The Air Force Reserve Command has a total environmental 
compliance MILCON requirement of $8.15 million. With our current 
funding levels, we should be able to buy-out this backlog by our FY 
2001 program.
               Expiring Authorizations--Air Force Reserve
    Question. For projects that have been previously appropriated but 
not yet executed, list any authorizations that will expire in 1997, 
1998, or 1999, if any, identifying the year of expiration.
    Answer. The Air Force Reserve Command has no project with 
authorization that will expire in 1997, 1998, or 1999.
           Excess Prior Year Authorization--Air Force Reserve
    Question. For the record, what is the amount of excess prior year 
authorization, if any?
    Answer. The Air Force Reserve Command has no excess prior year 
authorization.
                     Air Force Reserve End-Strength
    Question. What is the authorized end-strength for 1996 and 1997, 
and the projected end-strength for 1998?
    Answer. The Air Force Reserve Command's authorized and projected 
end-strength is tabulated below:

------------------------------------------------------------------------
              End-strength                Military  Civilians    Total  
------------------------------------------------------------------------
1996 Authorization.....................     73,668      6,119     79,787
1997 Authorization.....................     73,311      5,617     78,928
1998 Projection........................     73,431      5,413     78,844
------------------------------------------------------------------------

                    Base Closure--Air Force Reserve
    Question. For the record, list the locations where facilities were 
transferred to the Reserve components under base realignment and 
closure.
    Answer. Facilities were transferred to the Air Force Reserve 
Command at Bergstrom AFT, TX; Carswell AFB, TX; Grissom AFB, IN; 
Homestead AFB, FL; and March AFB, CA. However, with the redirect of the 
1995 realignment and closure law, our facilities at Bergstrom were 
transferred to the city of Austin, TX and the 10th Numbered Air Force 
moved from Bergstrom to Carswell.
    Question. What increases in facility requirements have resulted 
from such transfers?
    Answer. With the four rounds of base closure and realignments (ie., 
BRAC 1988, 1991, 1993, and 1995), the Air Force Reserve Command has 
experienced a net gain of two (2) installations. This transfer has 
increased the number and square footage of Air Force Reserve Command 
facilities by 21 percent. This increase in facilities includes airfield 
pavements, control towers, and other base operating support facilities 
that are not normally associated with Air Force Reserve Command 
installations. Typically, the Air Force Reserve Command is tenanted at 
an Active Air Force installation or metropolitan airport where these 
airfield facilities are owned and maintained by the host organization.
    When the decision has been made to realign an active base to a 
reserve installation, the facilities and the funding to maintain and 
operate these facilities, is transferred from the losing command to the 
Air Force Reserve Command. However, nearly two years pass from the 
realignment decision to when the Air Force Reserve Command actually 
becomes host of the installation. During this period, the losing 
command often reprioritizes its maintenance and repair fund to its 
other installations, so when the Air Force Reserve Command accepts its 
new installation, the facilities may need work to bring them to an 
acceptable condition. We have spent as much as $4 million in 
maintenance and repair work on transferred facilities at a newly gained 
installation.
    Question. For facilities that have been transferred to the Reserve 
components under base realignment and closure, are the BRAC accounts 
fully meeting the construction requirements at those locations?
    Answer. No. BRAC funding is so limited that any cost increases on 
awarded projects jeopardizes award of other valid projects. For 
example, funding for seven FY 1996 BRAC projects totals $7,530,000. 
This funding level was based on the original estimates for five Active 
Air Force projects ($5,330,000) and two Air Force Reserve Command 
projects ($2,200,000). However, the five Active Air Force projects were 
awarded at $5,648,000 and one Air Force Reserve Command was awarded at 
$1,370,000, leaving only $512,000 of the final FY 1996 Air Force 
Reserve Command BRAC requirement. Unfortunately, the final project is 
estimated at $1,050,000. The result is a shortfall of $538,000 that is 
jeopardizing award of a valid squadron operations facility at General 
Billy Mitchell ARS, WI.
    Question. How far have such transfers gone toward resolving 
facilities shortages for the Reserve components?
    Answer. Base realignments and closures have not resolved Air Force 
Reserve Command facility shortages because BRAC rules prohibit use of 
BRAC funding to ``get well.'' Any action to resolve facility shortages 
is funded via the Current Mission MILCON budget request process.
                      Air Force Reserve Inventory
    Question. What is the value of the current physical plant, and the 
types, numbers, and average age of facilities?
    Answer. The Air Force Reserve Command's current physical plant is 
valued at $5.5 billion. It is comprised of 1,246 buildings with 12.6 
million square feet of space and an average age of 29 years.
                       Air Force Reserve Backlog
    Question. What is the current backlog of facility requirements?
    Answer. The Air Force Reserve Command's current MILCON backlog is 
$513.5 million, of which $8.6 million is included in our FY 1998 Budget 
Request.
    Question. How much would be required annually to keep even with 
facilities needs?
    Answer. The Air Force Reserve Command would require an annual 
MILCON investment of $86 million to keep even with its facilities 
needs. This is based on a current plant valued at $5.5 billion, and a 
plant replacement cycle of 75 years (25 years longer than the industry 
standard). Dividing $5.5 billion by 75 years gives an annual MILCON 
project requirement of $73 million. Another $5 million is required 
annually for unspecified minor construction (approximately the current 
level of funding). Planning and design would be another $8 million 
(i.e., 10 percent of the annual MILCON and unspecified minor 
construction project requirement).
                    Air Force Reserve Family Housing
    Question. List the locations and number of units of family housing 
occupied by the Reserve components.
    Answer. The Air Force Reserve Command has no family housing units.
          Air Force Reserve Backlog of Maintenance and Repair
    Question. What is the current backlog of maintenance and repair 
funded under the questions and maintenance accounts, by component?
    Answer. The Air Force Reserve Command has a $200 million backlog in 
maintenance and repair.
    Question. What is the annual funding requirement to avoid growth of 
the backlog?
    Answer. The Air Force Reserve Command's FY 1997 RPM program totals 
$32.2 million. An annual RPM investment of $73.3 million (in FY 1997 
dollars) is needed to avoid growth in the backlog. This is an increase 
of $41.1 million to the RPM funding level in FY 1997. Typically, the 
Air Force Reserve Command's annual RPM funding level is $60 million, 
and an annual increase of $13 million would halt growth in the backlog.
              Parametric Cost Estimates--Air Force Reserve
    Question. To what extend do you rely on parametric cost estimation 
in the design of military construction projects?
    Answer. All of the programming documents for Air Force Reserve 
Command MILCON projects are estimated using the parametric method.
    Question. What degree of confidence do you have in the accuracy of 
parametric design estimates?
    Answer. The Air Force Reserve Command feels the parametric estimate 
is the most accurate method of estimating construction costs during the 
programming stages of a project (i.e., for DD Forms 1391 submitals to 
Congress). The accuracy of the parametric estimate is due to the fact 
that it is based on a historic record of actual construction costs for 
similar facilities.

[Pages 744 - 745--The official Committee record contains additional material here.]


          Demolition of Unneeded Facilities--Air Force Reserve
    Question. How large is the inventory of unneeded facilities 
awaiting demolition?
    Answer. The Air Force Reserve Command has 67 buildings (180,998 
SF), 4 storage tanks, 1 firing range, and 2 utility systems awaiting 
demolition. Total cost for demolition is $2.72 million.
    Question. Is the work funded exclusively under the operations and 
maintenance account?
    Answer. Yes, but severe O&M underfunding has resulted in no funds 
being available to accomplish demolition.
    Question. How will this work be tracked to ensure funds are used 
for demolition?
    Answer. Requirements are consolidated by Headquarters Air Force 
Reserve Command and as O&M funds become available they will be issued 
to bases on a project by project basis. Completed demolition actions 
are reported to HQ Air Force on a quarterly basis.
    Question. What is the level of effort for this work for fiscal year 
1997?
    Answer. Planned demolition for fiscal year 1997 was 37 buildings, 3 
storage tanks, and 2 utility systems at a cost of $1.1 million. Due to 
constrained funding and unanticipated rate increases in the AFRC O&M 
appropriation, none of this work will be accomplished in fiscal year 
1997.

             Air Force Reserve Projects No Longer Required

    Question. Please provide for the record a list of any projects, 
either in the fiscal year 1997 appropriation or in prior years' 
unobligated balances, that are no longer required due to force 
structure changes, base realignment and closure, mission changes, 
bilateral and multilateral agreements, or other reasons. Please include 
on the list military construction projects, family housing construction 
and construction improvement projects, and projects financed under the 
base realignment and closure accounts.
    Answer. The Air Force Reserve has one project that is no longer 
required. The Fiscal Year 1997 Niagara Falls Air Reserve Station 
Deicing Facility (PA $340K). The project is no longer required because 
of a recently completed agreement to joint use an Air National Guard 
deicing facility at Niagara. Funds released from this project will be 
used to cover high bids received on other fiscal year 1997 projects.

[Pages 747 - 748--The official Committee record contains additional material here.]


         Westcover ARB, MA (Fire Training Facility, $1,800,000)
    Question. Where has training been conducted since the existing 
training facility closed due to Clean Water Act violations in 1994?
    Answer. Firefighter live fire training has not been accomplished 
since the closure of the existing facility. Certification of Air Force 
reserve firefighters has expired. This is a DoD wide problem. 
Firefighters must train on-station, but most training facilities have 
been closed due to environmental problems. For this reason, the Air 
Force Reserve has committed a large portion of its limited MILCON 
resources to construct environmentally safe fire training facilities at 
all its installations, as have the other air components. This project 
completes the Air Force Reserve Fire Pit replacement program.
    Question. Why isn't the facility that has been used since 1994 an 
option?
    Answer. The use of nearby DoD fire training facilities was not 
feasible since AFRC locations are not sufficiently manned to allow 
protection of the installation while simultaneously deploying teams to 
off-base training sites. Current guidelines require firefighters be 
able to respond to base emergencies within 5 minutes. Similarly, no 
other DoD training is available that satisfies the stringent response 
time. Phase training is also unacceptable because fire crews must train 
as a team to obtain the full benefit of live-fire training. Failure to 
provide adequate response capability would result in a cessation of 
flying operations.
   Minneapolis-St Paul ARS, (Add/Alter Aircraft Corrosion Facility, 
                              $1,550,000)
    Question. Are there any reviews or concerns which could impact this 
project?
    Answer. This project has been reviewed for compliance with all 
existing and pending environmental regulations. There are no 
environmental concerns regarding this project. Failure to accomplish 
this project will keep us out of compliance of new air quality 
regulations.
    Question. Describe the communication support included in the cost 
of this project ($100,000).
    Answer. The $100K consists of $20K for communications wiring and 
support in the facility and $80K utility trenching.
  Youngstown-Warren IAP-ARS, Ohio (Add/Alter Base Supply, $2,800,000)
    Question. Has the timing of this project been coordinated with the 
initial delivery of the additional C-130 aircraft?
    Answer. With the completion of the additional ramp space (funded in 
the FY96 program) and the new C-130 hangar (project funded in the FY93 
program), all eight additional C-130s have been delivered to Youngstown 
ARS.
    Question. Briefly describe the facilities to be vacated from this 
consolidation effort, and the plans for re-use or demolition of these 
facilities.
    Answer. Building 504 will utilized by Contracting and the Reserve 
Civil Engineer Squadron. Building 503 will be utilized to store Base 
Civil Engineer work order and job order materials and CES training 
assets.
                            Status of Funds
    Question. Does the Air Force Reserve have sufficient funds to fully 
execute all existing authorized projects?
    Answer. No. The difference between appropriated amounts and the 
current working estimates for all Air Force Reserve Command MILCON 
projects from FY 1993 through FY 1997 is only $251,000. Low bids for 
most FY 1997 projects are coming in higher than the current working 
estimate, although none are 25 percent over the programmed amount 
(i.e., the threshold for formal reprogramming action). It appears the 
Air Force Reserve Command's FY 1997 appropriations is nearly $1 million 
short. The Air Force Reserve Command is considering canceling one of 
its FY 1997 projects, completing it with unspecified minor construction 
funds, and using the resulting MILCON savings to execute its remaining 
FY 1997 projects.
    Question. If all current working estimates are tallied, are there 
excess funds?
    Answer. As the following chart shows, the difference between 
appropriated amounts and the current working estimates (based on 100 
percent project designs) for all Air Force Reserve Command MILCON 
projects from FY 1993 through FY 1997 is only $251,000. This excess 
will not cover the high bids now coming in for most FY 1997 projects.

                        [In millions of dollars]                        
------------------------------------------------------------------------
             Fiscal year              Appropriated     CWE       Excess 
------------------------------------------------------------------------
1997................................       42.579      42.554      0.025
1996................................       29.363      29.137      0.226
1995................................       49.502      49.502      0.000
1994................................       65.320      65.320      0.000
1993................................       20.900      20.900      0.000
                                     -----------------------------------
      Totals........................      207.664     207.413      0.251
------------------------------------------------------------------------

    [Clerk's note.--End of questions for the record submitted 
by Chairman Packard.]
    [Clerk's note.--Questions for the record submitted by Mrs. 
Meek.]
                       Barracks at Homestead ARB
    Question. I understand that there are two barracks buildings on the 
Homestead Air Reserve base that currently are far below standard. Why 
should ``bigger'' taxpayer dollars continually be spent to house 
reserve aircrews and mission support personnel off base when a one-time 
expenditure can correct that situation permanently for less?
    Answer. In the long run, a one-time MILCON expenditure is a more 
economical solution than off base contract quarters. However, with the 
current scarcity of MILCON funding, contract quarters is often the only 
viable alternative. The Air Force Reserve Command's entire MILCON 
project allocation within the FYDP (i.e., the FY 1998 through 2003 
program) totals only $116.3 million. In spite of this limited 
allocation, the Air Force Reserve Command has programmed a $4.6 million 
lodging project for Homestead ARB in the FY 2003 program. The second 
project, and numerous others, fall outside the FYDP due to the limited 
MILCON allocation.
    Question. Why should recruitment and retention of reserve 
personnel, whose presence helps to stimulate a still recovering South 
Dade economy, be degraded through forced use of inadequate facilities?
    Answer. We agree that inadequate facilities can adversely affect 
recruitment and retention of reserve personnel. That is why the Air 
Force Reserve Command considers its people's working and training 
facilities part of its Quality of Life program. However, with the 
reduced DoD budgets, MILCON funding has been diverted to help fund the 
force modernization effort. What little MILCON funding remains is 
allocated toward the most critical needs. The Air Force has developed a 
MILCON allocation process which prioritizes Active, Guard and Reserve 
MILCON projects in one integrated list. MILCON funding is then 
allocated to the projects at the top of that list. Unfortunately, after 
funding is allocated toward projects supporting new mission beddowns 
and specifically defined quality of life requirements, very little is 
available for the type of projects you mention. That is why the Air 
Force Reserve Command has no current mission MILCON projects in its FY 
1998 budget request.
    Question. When DoD itself has vowed to address the inadequacy of 
housing for enlistees, why should facilities for the 482nd Fighter 
Wing, which already suffered serious damage from Hurricane Andrew, be 
allowed to deteriorate beyond renovations capability when minimal 
dollars with maximal benefits could upgrade the facilities to current 
Air Force lodging standards?
    Answer. DoD has addressed the inadequacy of housing for the 
enlisted by fencing $70 million in MILCON funding from FY 1996 through 
FY 1998 to improve Air Force dorms. The Air Force decided to spend the 
$70 million on its most critical enlisted housing need (i.e., to 
replace permanent party dorms with gang latrines). Unfortunately for 
reservists, we have no permanent party dorms. Even though many of our 
lodging facilities have gang latrines, they are not permanent party 
facilities for they only house reservists during drill weekends. With 
the current level of funding, we will not see any fenced DoD dollars 
for temporary quarters until well after the FYDP. However, because we 
recognize that temporary quarters are critical to reservists, we have 
programmed $4.6 million in the FY 2003 program to alter the lodge at 
Homestead ARB to current standards.

    [Clerk's note.--End of questions submitted by Mrs. Meek.]
                                          Thursday, March 13, 1997.

 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                      MOUNTAIN HOME AIR FORCE BASE

                                WITNESS

HON. MICHAEL D. CRAPO, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    IDAHO

                       Statement of the Chairman

    Mr. Packard. We'll open the hearing. This hearing is for 
outside witnesses. That includes Members of Congress, of 
course, and they will be heard as they arrive and as they are 
scheduled. Then we will hear from some of the different 
organizations, primarily that relate and represent different 
branches, the National Guard and other Quality of Life groups 
that are interested in, of course, what this Subcommittee does.
    We're extremely pleased to have Mr. Crapo from Idaho as our 
first witness, and we'll hear from you, as you wish. We have 
your statement. And if you'd like to summarize, that's fine, or 
if you'd like to read it, that's fine.

                   Statement of Hon. Michael D. Crapo

    Mr. Crapo. Well, thank you very much, Mr. Chairman, for 
giving me the opportunity to discuss some of the Idaho projects 
in this year's budget, and I will quickly summarize the 
statement.
    In recent years there's been a very significant change in 
the political and geographic climate worldwide that resulted in 
significant restructuring of our defense policy, as you know; 
and along with that has been the recognition that we need to 
focus our priorities.
    And, to me, one of those big priorities is the military 
Quality of Life issues. And the President's budget includes 
several projects in Idaho that will raise the quality of life 
for our service men and women and their families.
    At the Mountain Home Air Force Base in our district, we 
should ideally operate with a total of 2,224 family housing 
units and currently the base is attempting to manage with only 
1,525 units. And of those, 218 are at a substandard level with 
1,004 needing minor renovations. And this has been an issue 
that our entire delegation has been working on in different 
ways for the last couple of years, but we are hopeful that we 
can make some significant progress in this year's budget.
    There's been $11 million requested in the 1998 budget 
proposal, which will replace 60 of those units and make a big 
contribution toward improving the quality of life in other ways 
at the other facilities.
    Also, as you know, Mountain Home Air Force Base is the home 
to one of our premiere composite wings. And the Air Force 
continues to upgrade this wing at its complex, and the upgrade 
that's the key upgrade this year is the beddown of the B-1 
bomber, which will be one of the final and significant parts of 
completing that composite wing.
    And in order to do that, we are seeking the--a total of 
$17.8 million in the form of three projects: That's the B-1B 
armament shop for $2.7 million, the B-1B dormitory for $9 
million, and the B-1B squadron operations/aircraft maintenance 
unit at $6.1 million. And those are very critical to make sure 
that we can finalize the beddown, andnot only of the B-1, but 
the, but the final operations to make that composite wing operational.
    Those guys are the first ones when we are in a conflict who 
go out and we need to have them in top condition.
    And, lastly, I would ask your support of a C-130 composite 
hangar and shops, which is a $12 million request, for the Air 
National Guard located at Gowen Field near Boise. That project 
directly supports the Guard's new mission of the beddown of 
seventeen A-10's and four C-130 aircraft.
    And, Mr. Chairman, I know you're very familiar with these 
issues already, and so I won't belabor the point. I just would 
appreciate your serious consideration of these issues, because 
we've tried to narrow it down to the ones that are critical, 
knowing that you've got a tough job, and these are the ones 
we'd like you to focus on, if you could.
    Mr. Packard. Thank you very much, Mr. Crapo. I am familiar 
with that. I grew up in that area, as you may know. I know 
Mountain Home quite well. And it's just a relatively small 
community with a fairly large base.
    Are there units of housing available in that small town to 
make up the difference or is it mostly apt to be on base?
    Mr. Crapo. We do have units in the town. In fact, one of, 
one of the--I told you our delegation has been working on this 
for several years, and one of the things we have tried to do is 
to get the commitment for financing from the private sector to 
try to build some units in the town, or even as far away as 
Boise, 40 miles away. And there are efforts underway to do 
that, and there are some--there is some progress being made 
there. But we still find that even with that private sector 
effort that we are helping to facilitate that we still need to 
have the upgrades of the base units that we've identified here.
    Mr. Packard. Is Gowen Field a joint-use base, or airport, 
now?
    Mr. Crapo. When you say ``joint-use,'' you mean between the 
Air Force and the----
    Mr. Packard. And a commercial airport, yes.
    Mr. Crapo. Commercial. Yes, it is at--it is located right 
next to the commercial airport and is a part of it, but I 
believe that their airstrip is separate. I'm not sure on that. 
I may be giving you bad information.
    Mr. Packard. When I lived in that area, grew up in that 
area. there was no military component at Gowen Field. It was 
just Gowen Field.
    Mr. Crapo. So, you know, you're probably right then. It 
probably does have some----
    Mr. Packard. I just didn't know.
    Mr. Crapo [continuing]. Private sector utilization.
    Mr. Packard. Okay. Very good. Thank you very much.
    Mr. Crapo. All right.
    Mr. Packard. Mr. Hefner is here.
    Mr. Crapo. Thank you.
    Mr. Packard. Mr. Hefner, did you have any statement you'd 
like to make?
    Mr. Hefner. No, I do not.
    Mr. Packard. If you have no questions of Mr. Crapo, then 
we'll have him----
    Mr. Hefner. No.
    Mr. Packard. He's completed his statement and we have a 
copy.
    Mr. Crapo. Thank you very much, Mr. Chairman.
    Mr. Packard. Thank you. Thank you very much.
    [Prepared statement of Hon. Michael D. Crapo follows:]

[Pages 754 - 757--The official Committee record contains additional material here.]

                                 ----------

                                          Thursday, March 13, 1997.

                        NEBRASKA NATIONAL GUARD

                                WITNESS

HON. DOUG BEREUTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEBRASKA

    Mr. Packard. Mr. Bereuter, you just walked in at the right 
time. Come right on up.
    We're delighted to have Mr. Bereuter from Nebraska with us 
and he is second on our agenda and we'd like to not waste your 
time a bit, let you come and sit down and give your statement. 
We have a copy of your statement. You might wish to summarize, 
but do as you wish.

                  Statement of Honorable Doug Bereuter

    Mr. Bereuter. Thank you very much, Chairman Packard, Mr. 
Hefner. Nice to see you this morning. It's a very rare occasion 
for me to come before this Subcommittee. I think it's been once 
in 19 years. In fact, I didn't know where the hearing room was.
    But I do come before you today to express my support for 
two projects that are not included in the Administration's 
Military Construction Appropriation Request for the upcoming 
fiscal year.
    The first of these is a ``Joint Air-Army National Guard 
Medical Training Facility'' to replace the utterly inadequate 
Korean War relic now on the National Guard base in the Lincoln 
Municipal Airport in Lincoln, Nebraska. The existing clinic is 
inaccessible, antiquated, undersized, housed in a converted 
warehouse with high-lead-content water and asbestos problems.
    It's only 44% of the required size for such a facility, 
comprising only 7,300 square feet to meet the 
minimumrequirement for such a facility of 16,600 square feet.
    Mr. Chairman, Members of the Committee, the existing center 
is ill-suited to the Army and Air National Guard's training 
needs in fundamental physical and dental and lab work. There 
are not--there is not enough examination room space and the 
clinic lab is little more than a small apartment-sized kitchen. 
The National Guard units are unable to utilize additional basic 
diagnostic equipment as treadmills, panographic dental x-ray 
machines, because there is simply no room for any machines in 
the existing clinic.
    Finally, the current facility has seen no renovation in its 
forty-three-year history.
    Frankly, I'm concerned about the health hazard the existing 
clinic itself poses to our National Guard personnel. Unless a 
new facility is constructed, training of Army and Air National 
Guard units will continue to suffer, a loss that will 
inevitably affect the quality of care of military personnel 
receiving treatment in existing structure. Of the two projects 
that I am going to speak about, the joint clinic is certainly 
the most immediate need.
    I'm also--I would suggest that the American taxpayers 
received their money's worth from the cobbled-together facility 
that's being used many times over.
    The funding requirements for the new facility are unique in 
that both the Army and the Air National Guard are to provide 
resources in accordance with the square footage assigned to 
each. And as you will see in the testimony on page four, the 
amount would be $1,616,500 for the Air National Guard (53% of 
the total) and $1,433,500 for the Army National Guard (47% of 
the total cost) for a total of $3,050,000.
    The second project I would like to bring to the 
Subcommittee's attention is proposed construction of a modern 
outdoor rifle and pistol qualification range at Camp Ashland, 
Nebraska to replace the limited facility that's been shut down 
because it's deemed to be a danger to civilian populations in 
the area.
    There are no alternative ranges for National Guard training 
anywhere within acceptable travel distance. National Guard 
units from all over eastern Nebraska would have to travel from 
Lincoln to Fort Riley, Kansas--100 miles away--or Hastings 
Training area--90 miles distance. Other units in eastern 
Nebraska would have double that travel, depending on the 
location.
    Reliance on these distant ranges eats up scarce training 
time in unproductive transit, which in turn reduces the 
readiness of such units.
    This new range would support all units of the Nebraska 
National--Army National Guard to accomplish necessary combat 
weapons training and qualification.
    Summarizing and getting to the final point, the total 
project cost for the 40-lane 25-meter rifle and pistol 
qualification range, which includes side walls, covered firing 
lines, overhead baffles, safety berms, target sites, and 
necessary supporting facilities, including target storage and 
repair buildings, range lighting, and security fencing, is 
$1,141,500.
    I recognize you have lots of budget constraints and the 
projects I have mentioned are important, however, to the 
health, morale, and readiness of thousands of National Guard 
personnel in our state, so I would ask for your favorable 
consideration in the difficult task that you have in trying to 
accommodate all the needs of the country.
    Mr. Packard. Thank you very much, Mr. Bereuter. Do you have 
some questions, Mr. Hefner?
    Mr. Hefner. Outside of all the reasons you've listed, it's 
in pretty good shape other than that, isn't it?
    Mr. Bereuter. We actually have some Polaroid shots, if 
you'd like to have a first-hand look.
    Mr. Hefner. Oh, no. Thank you.
    Mr. Packard. On the medical training facility, how far away 
is the next medical training--is this the Army's only medical 
training center for the National Guard?
    Mr. Bereuter. Yes, it is.
    Mr. Packard. It is?
    Mr. Bereuter. I'm absolutely certain. It's the Air Guard. 
Because that's the only location for the Air Guard in the State 
of Nebraska.
    Mr. Packard. And it trains all of your medical and 
auxiliary medical personnel?
    Mr. Bereuter. Yes. Mostly----
    Mr. Packard [continuing]. Dental----
    Mr. Bereuter [continuing]. For the service----
    Mr. Packard [continuing]. Dental and physicians----
    Mr. Bereuter. Correct.
    Mr. Packard [continuing]. As well? On the second one, your 
firing range, do you have no firing range there now? This would 
be a new range?
    Mr. Bereuter. We have an outdoor firing range, but it's 
been shut down for reasons of civilian safety. They were fired 
from across the Platte River. There were too many concerns that 
in fact civilians on the other side would beaffected by stray 
bullets, and so they shut it down about a year or two ago.
    Mr. Packard. So they are now using Fort Riley or Hastings?
    Mr. Bereuter. Correct.
    Mr. Packard. I see. Very good. Thank you very much.
    Mr. Hefner. Mr. Chairman, could I ask one more?
    Mr. Packard. Yes, of course.
    Mr. Hefner. On this combination of the medical facility and 
an armory--is an armory in here?
    Mr. Bereuter. No.
    Mr. Hefner. Okay.
    Mr. Bereuter. No armory.
    Mr. Hefner. Where are you on design on this facility?
    Mr. Bereuter. The architectural--the preliminary 
architectural work has been done by the Guard with state funds. 
We have----
    Mr. Hefner. Well, are there some state matching funds that 
go along with these projects? I know in North Carolina we 
have----
    Mr. Bereuter. Not to my knowledge.
    Mr. Hefner. Okay.
    Mr. Bereuter. This is not an armory, but simply a medical 
facility. There is a major Army National Guard facility side by 
side with the Air National Guard facility on Lincoln Municipal 
Airport. It is the largest single location for the Army 
National Guard in the State of Nebraska and it's the only one 
for the Air Guard in the State.
    Mr. Packard. Is it close--excuse me.
    Mr. Hefner. Now, I was just curious about that.
    Mr. Packard. Is it close to a hospital?
    Mr. Bereuter. It is, it is close to Lincoln private medical 
facilities, yes. It would be about seven or eight miles to the 
closest hospital in Lincoln.
    Mr. Packard. Do they coordinate activities or training 
there and use local hospitals in their training, or do they do 
it all at the clinic?
    Mr. Bereuter. I think they do it all at the clinic, but I'd 
like to get back to you and give----
    [The information follows:]

[Pages 761 - 764--The official Committee record contains additional material here.]


    Mr. Packard. Okay.
    Mr. Bereuter [continuing]. You a certain answer to your 
question.
    Mr. Packard. And you say neither of these have been in the 
President's budget?
    Mr. Bereuter. Neither are.
    Mr. Packard. Do you know whether the Guard has submitted 
these as priorities in their budget requests?
    Mr. Bereuter. They have. That's my understanding.
    Mr. Packard. Okay. Thank you very much.
    Mr. Bereuter. You're welcome. My material comes at the 
request of the Guard.
    Mr. Packard. Okay. Thank you. Thank you very much.
    [Prepared statement of Hon. Doug Bereuter follows:]

[Pages 766 - 767--The official Committee record contains additional material here.]


                                 ----------

                                          Thursday, March 13, 1997.

                             FORT CAMPBELL

                               WITNESSES

HON. ED BRYANT, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TENNESSEE
HON. ED WHITFIELD, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    KENTUCKY

    Joint Statement of the Honorable Ed Bryant and the Honorable Ed 
                               Whitfield

    Mr. Packard. Mr. Bryant and Mr. Whitfield? We're glad to 
have you here. And, again, we have your written statements, and 
you may summarize or whatever your pleasure is. We appreciate 
you being here.
    Mr. Whitfield. Chairman Packard and Mr. Hefner, Congressman 
Bryant and I welcome the opportunity to appear before you today 
in support of the FY 98 Military Construction Request for the 
101st Airborne Division (Air Assault) and Fort Campbell, 
Kentucky. As you know, the 101st is the third largest Army 
Division and the home of nearly 24,000 soldiers. It is a 
Division rich in history and strongly supported by the 
surrounding civilian communities in Kentucky and Tennessee.
    In fact, over the last four years, AUSA has designated the 
support group, the AUSA Group at the Fort Campbell, as, really, 
the best in the country. This year, the President's budget 
request includes $50.6 million for two projects at Fort 
Campbell--$37 million to complete construction of the barracks 
complex for the 3rd Brigade and $13.6 million to build a 
consolidated medical/dental clinic. Congressman Bryant and I 
fully support both of those projects.
    But in addition to the requested projects, we are seeking 
your support for several other priority projects we feel are 
critical to fully support the infrastructure requirements of 
the Division and improve the quality of life for the 
soldiersand families at Fort Campbell.
    Fort Campbell has the largest--well, our number-one 
priority is completion of Phase II of the consolidated 
Education Center. The Congress authorized and appropriated $8.1 
million for Phase I of the Ed Center in Fiscal Year 1995 and 
the first phase will be completed this summer. We're requesting 
your support for an additional $6.6 million to complete the 
project.
    Fort Campbell has the largest educational program of any 
Division-level installation in Forces Command. College 
enrollment in the education program is 50 students per 100 
military personnel--as I said, the highest in Forces Command.
    Phase I of the Education Center includes 21 classrooms, an 
auditorium, five science labs, three computer labs; and Phase 
II will provide 28 additional classrooms for a total of 49, a 
vocational technology center, and additional parking 
facilities.
    And I would like to, Mr. Chairman, show you some pictures 
here. These are the ``before'' pictures of the Ed Center and 
this is ``after'' completion of Phase I.
    [The information follows:]

[Pages 769 - 781--The official Committee record contains additional material here.]


    Mr. Whitfield. Now, my second request is for $9.9 million 
to construct two standard-size vehicle maintenance shops with 
7.5 ton cranes, deployment storage, oil storage, sentry 
stations, concrete hardstand, and parking to accommodate the 
626th Forward Support Battalion and the 86th Combat Support 
Hospital unit. A specialized materiel storage warehouse will be 
provided for the hospital unit.
    I have taken additional photos at the existing maintenance 
shop that we would like to request and would like for you to 
look at those.
    [The information follows:]

[Pages 783 - 787--The official Committee record contains additional material here.]


    Mr. Whitfield. The soldiers who work at these shops tell us 
that conditions are deplorable and that a decent work 
environment is important for both safety and morale. They are 
proud of their work, but it could be done more efficiently and 
effectively with the right equipment and facilities. And these 
existing maintenance shops have been there for many, many, many 
years.
    So, I want to thank you for giving me the opportunity to 
talk about this and I would now like to recognize Congressman 
Bryant to conclude our testimony.
    Mr. Bryant. Thank you, Mr. Chairman, Mr. Hefner. Last year, 
with the support of this Subcommittee, Congress authorized and 
appropriated an additional $9.9 million to upgrade the 104 
company-grade family housing units at Werner Park--at Fort 
Campbell, of course. Our third request is for $8.8 million to 
upgrade and renovate an additional 86 units. This is Phase IV 
and this is request--this request will complete the entire 
Werner Park project for a total of 508 units, which, again, are 
company-grade units.
    Work at these units includes increasing the net square 
footage, replacing the heating and air conditioning conditions, 
redesign the kitchen and bathrooms, and the additional of a 
family room and laundry room. Carports, exterior storage, 
driveways, parking areas and patio areas will all be replaced, 
and funds will repair or replace utilities and replace or 
upgrade all gutters, sidewalks, and streets. Common area 
recreational facilities will also be constructed.
    I personally have visited these. They are wonderful 
additions. As a six-year veteran of the Army who has lived in 
housing, I know how important it is and, again, this is a good 
work for our soldiers.
    Finally, knowing of the Subcommittee's strong interest in 
addressing the Army's housing crisis, we are asking the 
Subcommittee's support for an additional $38 million for Phase 
I construction of a 336-person barracks complex for the 101st 
Support Command (DISCOM). This would be the first phase of a 
three-phase project to construct a 1,008-person barracks and 
administrative complex for DISCOM and is virtually identical to 
the barracks replacement project that Congress has approved in 
the past for the 3rd Brigade.
    This last set of photos, and I'll simply pass these to you, 
do give you a better understanding of the conditions of the 
barracks at Fort Campbell and why it's important to be 
replaced. But, basically, outside, interior views of some of 
the leakage and some of the exposed wiring and so forth, and 
just the overall run-down condition of some of the remaining 
barracks.
    Mr. Chairman and Mr. Hefner, we want to thank you for the 
hard work that you have done for--on behalf of the men and 
women in our Armed Forces who rely on your efforts to focus on 
the Quality of Life issues that are often overlooked by the 
Pentagon. Upgrading and replacing weapon systems and equipment 
is very important but, in our judgment, giving soldiers a 
decent and safe place to work and live is equally important. It 
is the work of this Subcommittee that recognizes that fact, and 
it is your work that helps our soldiers fulfill their missions.
    Mr. Packard, I want to congratulate you on your selection 
as the new Chairman of this very important Subcommittee, and we 
look forward to working with you to insure continued 
Congressional support for our 101st Division (Air Assault) and 
Fort Campbell.
    [Prepared Joint Statement of Hon. Ed Bryant and Hon. Ed 
Whitfield follows:]

[Pages 790 - 792--The official Committee record contains additional material here.]


                                          Thursday, March 13, 1997.

              GUARD PROJECTS AT HENDERSON AND CENTERVILLE

                                WITNESS

HON. ED BRYANT, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TENNESSEE

                  Statement of the Honorable Ed Bryant

    Mr. Bryant. I ask the Subcommittee's continued indulgence 
as I bring to your attention two other projects of special 
importance to me and my constituents in the 7th District of 
Tennessee.
    However, before I move on to my other request, I just want 
to reiterate my strong support, and it is strong support, 
because we had our Fort Campbell people up yesterday from the 
communities on either side of the border in Kentucky and 
Tennessee, and they're very strong for this completing Phase II 
of the Education Center there at Fort Campbell. We have a 
wonderful university there that is doing a tremendous job with 
these extension type courses there at Fort Campbell.
    As I'm sure you're aware, opportunities for higher 
education have become a prime factor in our ability to attract 
young soldiers as volunteers, and we're seeing that even more 
today as some quotas--we're having difficulty meeting some 
quotas, quite frankly. It's been a successful recruiting 
incentive and it has enhanced our enlistment success both at 
Fort Campbell and elsewhere throughout the nation. Many 
universities, including Austin Peay State University in 
Clarksville, the university I referred to, have provided this 
invaluable opportunity on post. Completion of the Education 
Center is a part of the Army's five-year plan, and this 
Subcommittee's support in FY 98 would allow the Army to 
complete this two-phase project.
    Mr. Chairman, with the remaining few minutes of my time, a 
few seconds, I should say, I would also like to express my 
support for funding of two National Guard armories at Henderson 
and Centerville, Tennessee.
    The Tennessee Army National Guard provided many units in 
support of the U.S. Army in the Desert Shield/Desert Storm 
operations. The Tennessee National Guard has always been ready 
for combat when called upon and has a long proud history of 
support to our nation's defense of our--to the national defense 
of our nation. I might add that we did come out of North 
Carolina in the beginning. We trace our heritage back today.
    The present armory in Centerville was constructed in 1973 
and has only 65% of the space authorized for the unit. Storage 
and training space is a major problem as well as kitchen space, 
administrative area, and maintenance training work bays. An 
assessment of the present facility has been made by the 
Nashville Headquarters and it has been determined that the 
construction of a new facility is the most cost effective 
alternative. The construction of a new armory is estimated to 
cost approximately $2,340,000 in Federal funds, which is 75% 
Federally funded.
    The present armory in Henderson, which is where my home 
town is, was constructed in 1976. The facilities are antiquated 
and do not conform with the current National Guard criteria and 
were not designed to support an artillery battalion. Storage 
and training space is a major problem, as well as kitchen 
space, administrative area, and maintenance and storage at the 
operation--or at the Organizational Maintenance Shop.
    An assessment of the present facility has shown that the 
construction of a new facility is the most cost effective 
alternative. The construction of the new 43,118 square foot 
armory is estimated to cost approximately $3.8 million in 
Federal funds, which is 75% Federally funded.
    In the case of both armories, the hosting cities have 
agreed to provide the real estate for the construction, and the 
transfer of this property to the State will be at no cost to 
the State or Federal governments. The city will further provide 
12\1/2\ percent of the construction cost of the new facility 
and the State will provide the remaining 12\1/2\ percent.
    Mr. Chairman, I want to thank you and the members of this 
Subcommittee for giving me the opportunity to speak here today. 
As one who has served in the Army, the commitment this 
Subcommittee has made to the well-being of our troops does not 
go unnoticed nor is it unappreciated by the men and women who 
live and work on our military installations.
    Representative Whitfield and I would be more than happy to 
answer any questions you might have.
    Mr. Packard. Thank you very much. Mr. Hefner.
    Mr. Hefner. Fayetteville is not in your district, is it?
    Mr. Bryant. No, sir, but I spent a long time in 
Fayetteville, North Carolina.
    Mr. Hefner. Oh. But Fayetteville----
    Mr. Bryant. Right. But Fayetteville is not in my district.
    Mr. Hefner. You know, I still have family in Tennessee. I 
was born in Tennessee. But they're going to build a log cabin 
where I was born.
    Mr. Whitfield. So that you can say you were born in a log 
cabin.
    Mr. Bryant. Did you kill a bear when you were only three?
    Mr. Hefner. No. I'm strictly an environmentalist.
    Mr. Bryant. Well, Mr. Crockett also served in Congress.
    Mr. Hefner. We certainly appreciate and I'm glad that you 
did the explanation--especially on the armories that will give 
us the matching funds. And the locals are going to put up----
    Mr. Bryant. The land and 12\1/2\ percent and the State 
12\1/2\ percent.
    Mr. Hefner. Has that already been appropriated?
    Mr. Bryant. I----
    Mr. Hefner. In the State legislature?
    Mr. Bryant. Yes, as far as I know. They have----
    Mr. Hefner. How about----
    Mr. Bryant. Commitments have been made.
    Mr. Hefner. Of course, Mr Chairman--we've always had around 
here 35 percent designed before we even talk about funding. I 
don't know if that's going to be the criteria we have anymore.
    Mr. Bryant. I don't, I don't anticipate any changes in----
    Mr. Hefner. Do you know whether the design----
    Mr. Bryant. I don't know, but we certainly will find that 
out and----
    Mr. Hefner. Yes.
    Mr. Bryant [continuing]. And late file that with this 
committee.
    Mr. Hefner. Since it's for Tennessee, we'll certainly look 
on it kindly. If you can get Wamp to go along with it.
    Mr. Packard. On your medical/dental clinic, is this a new 
facility or are there existing medical and dental facilities 
there?
    Mr. Whitfield. There are six existing medical clinics at 
Fort Campbell and they are located in 40-year-old structures. 
In fact, there's one dental clinic at Fort Campbell right now 
that's over 30 years old.
    Mr. Packard. This is to service the active duty members at 
Fort Campbell?
    Mr. Whitfield. Yes, sir.
    Mr. Packard. So it's an old facility, you're looking for 
new facilities?
    Mr. Whitfield. Right.
    Mr. Packard. Thank you very much gentlemen.
    Mr. Whitfield. Thank you.
    Mr. Packard. Yes? Oh, excuse me, Mr. Wamp. Did you have 
some questions?
    Mr. Wamp. Just one, and that is the authorization for all 
of this, I'll have those questions for you'all as well as 
Representative Gordon, who comes next. Are all of the 
authorizations for these projects in place? I just wanted to 
check on that.
    Mr. Whitfield. We'll be seeking authorization.
    Mr. Wamp. Okay. Simultaneously you're going to try to catch 
the authorization up with the appropriations--
    Mr. Whitfield. Right.
    Mr. Wamp. That's what--whether it's Guard Bureau, or 
whoever, the first thing I hear now is: where's the 
authorization and has this gone up the chain of command through 
Guard Bureau for any of the Guard facilities to make sure that 
the authorization is not too far behind the appropriations, or 
hopefully it's right side by side with the appropriations 
efforts. Because I don't want too much pressure on me until the 
authorization is connected to it. So, let's try to keep it as 
close to tandem as possible.
    Mr. Whitfield. Right.
    Mr. Packard. Thank you very, very much.
    Mr. Whitfield. Thank you.
    Mr. Packard. Appreciate it.
    Mr. Whitfield. Thank you.
    [Prepared statement of Hon. Ed Bryant follows:]

[Pages 796 - 797--The official Committee record contains additional material here.]

                                 ----------

                                          Thursday, March 13, 1997.

                    SMYRNA NATIONAL GUARD, TENNESSEE

                                WITNESS

HON. BART GORDON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TENNESSEE

    Mr. Packard. Mr. Gordon, would you like to come forward, 
please?
    I should have said at the beginning. I won't apply it to 
Mr. Bryant, but your chance of getting funding is directly 
related to the amount of time you take here.
    Not really, but please--we have your testimony, Mr. Gordon, 
and if you'd like to summarize we'd appreciate it.

                 Statement of the Honorable Bart Gordon

    Mr. Gordon. Thank you, Mr. Chairman and Mr. Former Chairman 
and Mr. Wamp. I feel like a piker here after listening to all 
these big figures that have been thrown out. I will put my full 
testimony in, as you say, in the record and try to summarize.
    I'm here requesting $2,881,000 in the Military Construction 
Reserve Components Budget for the Department of Defense for the 
reconstruction of barracks at the Tennessee National Guard 
facility in Smyrna.
    In 1970 this is the location of the old Sewart Air Force 
Base. It was the last base to be closed in the normal course of 
things in 1970. Through a various chain of ownership, now a 
portion of the old Sewart Air Force Base is the--a major 
location for the Tennessee National Guard. The only barracks 
facilities they have there are barracks that were originally 
built in 1942 with a five-year life expectancy with the old 
Sewart Air Force Base.
    I want to show you some photographs here. Let's see. Iguess 
we can--Mr. Chairman, I'll let you see these and you can--well, I guess 
we can just share them when there are so many. And I think you'll get a 
pretty good idea of what we've got here.
    Mr. Gordon. I mean, they are completely deteriorated. 
You've got a situation--I say they are 50 years old. The 
flooring is tile made of asbestos. Eighty percent of the wood 
is termite-infested. The utilities are 35 years old. It is 
absolutely the only facilities they have there for barracks.
    The facility will also be used, when it's not being used 
directly for the Guard, for the Tennessee Military Academy and 
also for M.T.S.U. aerospace program there. Those--they will in 
turn pay fees that will help to offset the utilities. So, I 
think that makes it a much better, a much better deal.
    And also in terms of dollars for the Guard, as I say, 
because there is no location on--to house these people, they--
they're having to--we're having to pay, taxpayers are paying, 
to put them in motels. Last year alone there were 9,900 
Guardsmen that trained at Smyrna. Because there was no 
facility, there were 2,000 of them that had hotel rooms that 
were reimbursed at over $100,000.
    And, unfortunately, the others--to get--what you have to do 
is you have to get a hotel room, pay for it yourself, and then 
be reimbursed. Many of the folks couldn't afford to pay for it 
themselves, so they wound up, you know, driving long distances, 
staying with friends, or whatever, because they couldn't, they 
couldn't, you know, they couldn't afford to be out that money 
for a few months. If they had all used a hotel, that would be 
over $500,000.
    And, finally, I don't know whether this is going to help or 
hurt, but Congressmen John Tanner and Bob Clement trained 
there. They have firsthand knowledge that those are the dorms 
they tried to use----
    Mr. Hefner. That might help.
    Mr. Gordon [continuing]. And they have sent in a--signed a 
letter, again, with seriously firsthand knowledge that this is 
where they trained, this is facilities that they had to stay 
in, and really a deplorable situation.
    It is--it's a shame that we put our military personnel in 
these kinds of conditions. It ought not happen. And I hope to 
get your help to rectify that. And, Mr. Chairman, I will make 
this a part of the record also.
    Mr. Packard. Thank you.
    Mr. Gordon. Let's see. Here's a copy of that letter with 
all these photographs together.
    [The information follows:]

[Pages 800 - 810--The official Committee record contains additional material here.]


    Mr. Gordon. In terms of priorities, the Tennessee National 
Guard has reviewed this. They are more than 35 percent along 
with their design. It is one of their top five projects for 
Tennessee and I--we will simultaneous be working through the 
authorization committee as we go through this project.
    Mr. Packard. Thank you very much, Mr. Gordon. Mr. Hefner?
    Mr. Hefner. Has the money been appropriated at the State 
level yet? Has there been matching money--or is there matching 
money or----
    Mr. Gordon. There--I guess--I don't know whether it is--I 
know this is, this is one of their top five priorities they've 
asked me to do, and so I'm sure that they are prepared to make 
whatever requests that they need to do.
    Mr. Hefner. But you don't know if it's been appropriated at 
the State level yet?
    Mr. Gordon. No. I honestly do not.
    Mr. Wamp. Gentlemen, Adjutant General Wood of the Army 
Guard in the State of Tennessee did send this to me as one of 
the top five priorities. I can only assume that it is priority 
for the state.
    Mr. Gordon. Then they must have.
    Mr. Wamp. Yeah.
    Mr. Gordon. But this is a legitimate question that needs to 
be--we need to know what the answer is.
    Mr. Hefner. Yes, and you can find that out.
    Mr. Packard. Would you get that for the record?
    Mr. Gordon. Okay. I sure will.
    Mr. Hefner. In most cases the states do that before they 
make the request.
    Mr. Gordon. What we need to do is see whether--the State is 
in the process of going through their budget right now and I 
need to see whether it's in the budget. And with--showing my 
ignorance, what is--is there a percentage match that the state 
are required----
    Mr. Hefner. Well----
    Mr. Gordon. What's the----
    Mr. Hefner [continuing]. It's, it's usually 25 percent 
state money. In the case of Mr. Bryant, it's going to be more 
than that because the locals are going to give the land and the 
city is going to put up 12\1/2\ percent, so the state is only 
going to have to put up 12\1/2\ percent. But there is----
    Mr. Gordon. Well, the locals--I'm sure the--this area is 
owned by a--Smyrna Airport Authority, that I'm sure is putting 
up--you know, I mean, they are the ones putting up the land, so 
that has been done. But I will check on the rest of that.
    Mr. Wamp. Mr. Chairman, just one point of clarification. Is 
this a combined Air Guard/Army Guard facility?
    Mr. Gordon. Yeah. And even more than that. I mean, it's a--
it's Air Guard, Army, and it will also be used for the 
Tennessee Military Academy and ROTC. I mean, it's going to be a 
facility there that, I guess, the appropriate agencies will use 
free. Those that are collateral, ROTC, Military Academy, will 
pay an appropriate fee, but then that will go back into the 
utilities and lease--oh, just the utilities and running the 
barracks.
    Mr. Wamp. And also, just one point for the record, and that 
is that the Representative Gordon is the dean of the Tennessee 
Congressional Delegation.
    Mr. Gordon. And I've got, I've got the gray hair to prove 
it.
    Mr. Hefner. You proved that end with Tanner and Clement----
    Mr. Gordon. That's a lot of pressure. We've got a lot of 
baggage----
    Mr. Hefner. It's a lot of power.
    Mr. Packard. If Mr. Tanner and Mr. Clement lived in these 
deplorable conditions, it must have gotten them ready for 
Congress.
    Mr. Hefner. It depends on what they were used to at home.
    Mr. Packard. Or even here. Or even here. Sleeping in their 
rooms, you know.
    Well, we appreciate, Mr. Gordon----
    Mr. Gordon. Thank you.
    Mr. Packard [continuing]. Your testimony.
    Mr. Gordon. I'll get back to you on the state's.
    [Prepared statement of Hon. Bart Gordon follows:]

[Pages 813 - 816--The official Committee record contains additional material here.]


                                 ----------


                                          Thursday, March 13, 1997.

                      NAVAL WEAPONS STATION EARLE

                             FORT MONMOUTH

                               WITNESSES

HON. FRANK PALLONE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY
HON. MICHAEL PAPPAS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY

    Mr. Packard. Congressman Pallone, please? And also, I 
believe, Mr. Pappas is here as well.

Joint Statement of Honorable Frank Pallone and Honorable Michael Pappas

    Mr. Pallone. Thank you, Mr. Chairman and Congressman Hefner 
and other Members of the Subcommittee. The two of us jointly 
share Fort Monmouth, which is the Army Communications and 
Electronics Command, and also Naval Weapons Station Earle, 
which is a weapons depot. And basically what we're asking for 
today, I'm going to summarize it if I could just----
    Mr. Packard. Please, please do.
    Mr. Pallone [continuing]. Include my whole testimony, 
because it's long and I want to summarize it as quickly as I 
can.
    Basically, support projects for those facilities that are, 
as I said, in both of our districts.
    Last December the Department of the Navy announced it was 
changing the homeport assignment of two AOE Class ships now 
stationed in Norfolk, Virginia, the U.S.S. Supply and the 
U.S.S. Arctic, to Naval Weapons Station Earle, and as a result 
of that Navy decision it's become apparent that three modest 
structural upgrades to Earle's Pier Complex need to be 
undertaken.
    If I could just describe those, the first project needed is 
an upgrade to the electrical service to the Pier Complex. 
Currently, the electrical power capacity on the piers is not 
sufficient to support the AOE-6 Class ships with total shore 
power when in homeport status. The cost of that, Mr. Chairman, 
is $1.5 million.
    The second unprogrammed project I'm seeking funding for at 
Earle also pertains to electrical power. Specifically, the 
system that provides shore power to ships in homeport status is 
in dire need of repair due to a number of reasons, chief among 
them is the harsh sea environment and unfunded maintenance, and 
that's $500,000.
    And then the third unprogrammed project for Earle, again, 
this allows for badly needed bearing pier repair on Piers 2 and 
Trestle 2, and this is for $1 million.
    Now, obviously the details of this are summarized in the 
testimony, so I didn't want to go through it with you.
    There are two more matters I would like to discuss 
concerning Earle.
    The Department of the Navy has been considering plans to 
expand and enhance Weapons Station Earle's homeport capability 
by extending Pier 4 of its pier/trestle complex, and this is 
something that the Committee has expressed its opinion on 
before. We basically are asking that the Committee indicate its 
support for this project, the pier extension, by pushing up the 
construction date, as it did last year, by including language 
in the Appropriations Bill that reaffirms the Committee's 
understanding of the need for this project. We--you had some 
language like that last year, report language, and I'm hoping 
that we can get that in again.
    And then the last matter pertaining to Earle is, again, 
some help, if we could, with the construction of an Explosive 
Truck Holding Yard along the waterfront and mainside parking 
facilities. Last year the Committee included language in the 
Bill that approved a reprogramming request and indicated its 
support for the construction of these holding yards.
    So, again, that's not a specific funding request, but some 
language that would be in the Appropriations Bill.
    I wanted to turn now very briefly to Fort Monmouth which, 
as I said, is the Communications and Electronics Command, an 
Army facility. We have two requests there.
    One is that the Fort Monmouth Fire and Emergency Service is 
in need of immediate construction of a new Charles Wood Area 
Fire Station that is currently programmed for construction 
sometime in the future. The existing fire station is a World 
War II vintage structure that was severely damaged by a fire in 
December 1994. And there, in terms of the cost, we are seeking 
$2.2 million in this coming fiscal year for construction of 
that fire station.
    And the second request is a proposal that was included in 
this year's budget program to renovate 48 senior NCO quarters 
along Fort Monmouth's Main Post. Other than roof and window 
replacements, the quarters have had no major modernization 
improvements since their construction about 50 years ago. That 
is a $5.1 million request. That was included in the Army's 
budget program for Fiscal 98 because of the renovations really 
being sorely needed.
    I know that my colleague from New Jersey, Mike Pappas, is 
here with me and I'm pleased to see----
    Mr. Packard. Mr. Pappas. I notice that your testimony 
addresses, I think, the same--essentially the same projects. If 
you would like to make any brief comments, it would be welcome.
    Mr. Pappas. Thank you, Mr. Chairman and Mr. Hefner, for 
your time and thank you for your indulgence by your staff. 
You've been very kind.
    I can only reiterate what Mr. Pallone has said and in a 
bipartisan fashion we're approaching this, because it's 
important not just for what we believe to be important national 
security reasons but important for the region of New Jersey 
that we represent. Both of these facilities, as he indicated, 
are in both of our districts and it's been my pleasure to work 
with him in regard to both of them.
    Just to reiterate what he's spoken about in reference to 
the piers, the kind of hardware that will be berthed there is 
very expensive and something that the taxpayers of our country 
have spent a lot on, and to make what I believe to be minimal 
improvements to those piers I think makes a lot of sense.
    And with regard to Fort Monmouth, with the BRAC efforts 
that have been undertaken over the last five or ten years, that 
facility has actually grown whereas many, as you know, have 
either shrunk or been closed. So, I'm very confident that any 
investment that would be made in that facility, as well as 
Earle, would be money well-spent.
    And I certainly appreciate any consideration that you folks 
can provide.
    Mr. Packard. Thank you very much, both of you. Comments or 
questions?
    Mr. Hefner. I'm assuming that Chris is supporting you on 
this, Chris Smith?
    Mr. Pallone. Oh, absolutely, yes.
    Mr. Hefner. Is this the same thing, if he were here, he 
would be talking about?
    Mr. Pallone. Yeah. He--I don't know that he actually 
represents--he used to, he used to--you know, we've had, 
because of redistricting----
    Mr. Hefner. I know.
    Mr. Pallone. All of us have been going back and forth. He 
would certainly support the request because he also represents 
a part of Monmouth County, which is where these facilities are.
    Mr. Hefner. Okay.
    Mr. Pappas. He may be here to speak about other--but he----
    Mr. Hefner. Other----
    Mr. Pappas. Yeah, he has other facilities that he'll 
probably mention.
    Mr. Packard. Okay. I have no questions. Thank you very 
much.
    [Prepared statements of Hon. Frank Pallone and Hon. Michael 
Pappas follow:]

[Pages 820 - 828--The official Committee record contains additional material here.]

                                 ----------


                                          Thursday, March 13, 1997.

 INDIANA NATIONAL GUARD; CAMP ATTERBURY; NAVAL SURFACE WEAPONS CENTER 
  CRANE; INDIANA AIR NATIONAL GUARD TERRE HAUTE; ARMY NATIONAL GUARD 
            ARMORY MARION; FORT WAYNE INTERNATIONAL AIRPORT

                                WITNESS

HON. PETER J. VISCLOSKY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    INDIANA

    Mr. Packard. Mr. Visclosky, would you like to please come 
forward? We have your testimony, Mr. Visclosky, and if you 
would summarize--we're running a little behind schedule.

                  Statement of Hon. Peter J. Visclosky

    Mr. Visclosky. I'd appreciate that very much. Mr. Chairman, 
I want to thank you and Mr. Hefner for the opportunity to 
appear, and I essentially just want to raise three points with 
the Subcommittee.
    But, first, I am here to support the Administration request 
of $10 million for a fully-capable combined arms multi-purpose 
training ground in Camp Atterbury in the State of Indiana as 
well as $7.7 million for an ammunition containerization complex 
at the Naval Surface Weapons Center in Crane, Indiana. I do 
fully support these Administration requests.
    Secondly, Mr. Chairman and Mr. Hefner, I have a number of 
other projects and, as you mentioned, my testimony is entered 
into the record. In addition to the President's request, they 
are very important to me and would look forward to working with 
members of the Committee as well as the staff as we proceed.
    Finally, Mr. Chairman, earlier this year I met with the 
Indiana National Guard to discuss an issue of great importance 
to me in Lake County, Indiana. As you may know, the Governor of 
Indiana under the provisions of our State's Counterdrug Support 
Plan has authorized the Indiana National Guard to provide 
administrative and engineering support to assist in the 
demolition of crack houses throughout the State. The Guard is 
eager to conduct this mission and has offered to serve as a 
lead agency if funds are provided by the Congress to demolish 
abandoned crack houses. I am requesting of the Subcommittee 
$2,308,500 to the Indiana National Guard for crack house 
demolition in Lake County. Our area desperately needs a 
solution to the terrible problem.
    Lake County, Indiana, is located along the drug trade route 
between Chicago and Detroit and it is increasingly being used 
as a hub for drug activities. Part of the problem that we have 
is the number of abandoned properties in Lake County that are 
being used as distribution centers for local drug dealers. The 
open existence of these so-called ``crack houses'' is extremely 
discouraging and one of my top goals.
    Earlier this week the Gary Police Department provided me 
with a list of addresses and descriptions of 112 homes in that 
community. The Chicago Police Department provided me with a 
list with 53 known crack houses, 18 of which are already in 
default on that city property tax liabilities. Although a 
number of East Chicago and Gary properties are subject to 
seizure and demolition, these cities are in severe financial 
distress and cannot afford to divert resources from their 
police departments to demolish and remove these abandoned 
properties.
    And again, Mr. Chairman and Mr. Hefner, I appreciate very 
much your consideration in allowing me to testify today and to 
consider my request.
    Mr. Packard. We appreciate very much you being here and 
presenting your written statement. Mr. Hefner.
    Mr. Hefner. I have no further questions.
    Mr. Packard. Nor do I, Mr. Visclosky, as well.
    Mr. Visclosky. Thank you very much.
    Mr. Packard. Thank you. Thank you very much.
    [Prepared statement of Hon. Peter J. Viscloskey follows:]

[Pages 831 - 833--The official Committee record contains additional material here.]

                                 ----------


                                          Thursday, March 13, 1997.

                        GUAM ARMY NATIONAL GUARD

                                WITNESS

HON. ROBERT A. UNDERWOOD, A REPRESENTATIVE IN CONGRESS FROM THE 
    TERRITORY OF GUAM

    Mr. Packard. We have with us also--I didn't see Chris Smith 
come in, so we will--we'll go on to Mr. Underwood--the Delegate 
from Guam. We appreciate you being here. We have your written 
testimony. It is one we might ask you to read rather than 
summarize.
    Mr. Underwood. I was hoping that that would do the trick.
    Mr. Packard. It may do the trick, we don't know, but it's a 
nice short statement. But proceed as you wish.

                 Statement of Hon. Robert A. Underwood

    Mr. Underwood. Okay. Thank you, Mr. Chairman and Mr. 
Hefner, for this opportunity to talk about an issue that has 
been ongoing on Guam for a number of years, and that is 
concerning a potential Army Readiness Center on Guam.
    The Guam Army National Guard is located at Fort Juan Muna 
in Tamuning, Guam. It is a Federally operated training site 
consisting of 15 acres. And previously--the history of this 
particular facility is that it's really just barracks for a 
construction company, actually, from the Philippines, and which 
it housed foreign workers for a number of years, and it 
consists of prefabricated metal barracks, warehouse, and dining 
area--a remodelled dining area, and community shower 
facilities. And most of this old structure requires thousands 
of dollars to maintain on a yearly basis.
    The lack of all of these facilities affects the training of 
the units, and in an adverse manner, and a facility to house 
the unit is required. There are currently no Army National 
Guard facilities available to adequately house and support 
these units in Guam.
    The Guam National Guard is the most forward deployed Guard. 
It stands ready to go into battle in case something happens in 
Korea and it also served in Desert Storm. We are the--we have 
the only Guard unit that doesn't have an armory. The 
construction of an Armory is a major priority for the people of 
Guam. And, Mr. Chairman and Members of the Committee, I ask for 
funding at the level of $7.5 million be appropriated to--for 
construction to bring the Guam National Guard into the total 
force community.
    Mr. Packard. Thank you very much, Mr. Underwood. Do you 
have questions or comments, Mr. Hefner?.
    Thank you very much for being here to make your testimony. 
We appreciate it a lot.
    Mr. Underwood. Thank you.
    [Prepared statement of Hon. Robert A. Underwood follows:]

[Page 835--The official Committee record contains additional material here.]

                                 ----------

                                           Thursday, March 13, 1997

                            QUALITY OF LIFE

                                WITNESS

SYDNEY HICKEY, ASSISTANT DIRECTOR, GOVERNMENT RELATIONS, NATIONAL 
    MILITARY FAMILY ASSOCIATION

    Mr. Packard. And that brings us back on the schedule. Now, 
we're very pleased to have with us a representative from the 
National Military Families Association, Sydney Hickey. We're 
not only delighted to welcome you to this hearing, but you've 
been to almost every hearing, as I've observed, and which we're 
delighted to have you here. We're looking forward to your 
testimony.
    We do have your written testimony, Ms. Hickey, and so you 
may wish to summarize it.

                       Statement of Sydney Hickey

    Ms. Hickey. Yes, sir. Thank you very much. Mr. Chairman and 
Mr. Hefner, we again this year, for about the 14th year in a 
row, bring the thanks of military families. This Subcommittee--
the leadership of this Subcommittee is without peer, we 
believe, in improving the quality of life for service members 
and their families.
    We are pleased with the President's budget for 1998, FY 98, 
in the sense that it includes some significant improvements for 
single family--single service member housing, particularly 
those in Korea and in Germany, and those barracks are 
desperately in need of renovation.
    We are not so happy, obviously, with the lack of request 
for family housing and for child development centers.
    In our written testimony we had pictures of the housing out 
in Hawaii, which I think pretty closely shows that we 
desperately need what is in the President's request for housing 
there.
    Attachment number two, I found it very interesting with the 
Congressmen this morning who is from Mountain Home. 
Essentially, it's a letter to a service member who has orders 
and it says (a) don't bring your family and (b) incidentally--
because we have no housing here, and (b) incidentally, when you 
get here, we can only promise you 15 days worth of housing. I'm 
not quite too sure where the service member who is now 
stationed in Mountain Home is supposed to live.
    Of as much importance as construction of new family 
housing, however, is the underlying infrastructure at 
installations that detrimentally affect the quality of life of 
military families. We believe that families should not live 
with raw sewers in their front yard. We also believe that they 
ought to use a modicum of the modern--be able to use a modicum 
of the modern electrical appliances that are found in most 
homes without blowing fuses.
    NMFA is supportive of the Privatization Initiatives. 
However, we are concerned that the full ramifications of where 
this housing is going to be located and what support services 
will be available to make such housing a community and not just 
a bunch of brick and mortar pieces put up are not being given 
due consideration. We do not want to move into brand-new 
housing areas in the civilian community only to find that we 
are unwelcome by our neighbors because we are creating 
hardships for local community resources and schools.
    And after the testimony that was presented before you 
yesterday, Mr. Chairman, I would suggest we have significant 
questions about whether or not this housing is actually going 
to be affordable to our junior enlisted, and those are the ones 
most in need of housing, I think as we all know. The other 
thing I have a question about is if we're going to ask for 
MILCON money, which would, in essence, in most cases go at 
least to a few quarters for junior enlisted, be switched to 
privatization funds that are being built to the standards of 
senior enlisted mid-grade officers, then what have we done for 
our juniors?
    We also see not only is that--community in the civilian 
sector not going to be a community if it doesn't have the 
support services. But then we question what are--where are we 
going with this? Are we going to leave those quarters that are 
falling down on the base and assume that at some point when we 
have enough in the civilian community that our junior enlisted 
will take whatever is left? And what kind of community will we 
build--be building then?
    And I'm afraid it's also very confused about this practice 
of continually placing construction projects in a particular 
fiscal year's request during the POMs and then as that year 
approaches we move it forward three or four or five years. We 
don't understand if it was a necessary project in one year why 
all of a sudden simply because one or two years have gone by 
it's no longer necessary.
    And in that vein, we bring two particular projects to your 
attention. One is a CDC at Camp Pendleton that was originally 
in the FY 98 construction. It's got a waiting--space for 100 
children. It's a lease project. A waiting list of 60 children. 
The lease is up this year. The life expectancy of the building 
is only to the year 2000. So, do we lease it again for five 
years with, I assume, it falling down in three or do we buy and 
spend a lot of money doing repair and maintenance? That 
facility has now been pushed out to the year 2002, and I would 
suspect, if normal things go, next year we will see it in 2004. 
And we believe that it needs to be built now.
    The second one is a community building at the Puget Sound 
Naval Shipyard out in Washington State. It was in the POMs for 
FY 97, FY 98, and FY 99, and it seems to have this year gone 
into never-never land somewhere.
    There are 870 families in Jackson Park, which is an 
isolated housing area, primarily enlisted, and they are served, 
and there's a picture in our testimony, by a Family Service 
Center of two temporary trailers. Usually they are broken down, 
so usually they're closed. They can't have any predeployment 
briefings. They can't have any postdeployment briefings. They 
can't have any during-deployment workshop. The Navy Ombudsman 
have no place to meet. Very few youth programs, very few family 
programs. It also would include the building of a chapel; so, 
this facility would be used seven days a week. It's also a 
cost-saver because it's going to be co-located with one of the 
CDCs that's in this year's request. So, we could save money if 
we brought it up this year in site preparation, utility 
hookups, and the parking lot, which they will share.
    Lastly, we noted that last year the Subcommittee noted a 
concern that we have shared for a long period of time, and that 
is our domestic schools, DoD-owned domestic schools, and the 
language asks for DoD to submit a request. And we noticed that 
there was no request in this year's budget. So, we would like 
to bring to your attention to Brewster Middle School at Camp 
Lejeune, North Carolina, which we understand to be one of the 
top priorities of the Department of Defense, and our families 
there can tell you why.
    There is raw sewage in the bathrooms and the locker rooms 
of this school where our children are. The water has leaked so 
much in the roof that a good many of the light fixtures and the 
wall sockets are useless. Not only that, the ceilings are 
falling down and the walls are crumbling on the side. Whenever 
there's a heavy rain there are sinkholes all the way around the 
school, so we have to put a----
    Mr. Packard. Where is this, again?
    Ms. Hickey. Camp Lejeune. It's the Brewster Middle--all the 
schools at Camp Lejeune need help. This one is in the worst 
shape. There's no lab tables in the science room. One of the 
art classes is actually sitting in a place that's supposed to 
be a warehouse loading area.
    The safety, the safety standards--minimal state safety 
standards are not met in this school and the Department of 
Defense tells us they're going to put a lot of O&M money in it 
next year simply to bring it up to minimal standards. For 
instance, the fire alarm system doesn't work. So, we would 
believe, sir, if there is any way, that this school would 
certainly bear your attention.
    We appreciate your listening to our views.
    Mr. Packard. We appreciate your interest, your concern, 
your constant vigilance on military housing, particularly 
family housing, and, of course, your detailed statement.
    Mr. Hefner, do you have questions or comments?
    Mr. Hefner. I have a question. It's good to see you again, 
the friend that's always here standing up for our military 
folk. It's good to have you back.
    Ms. Hickey. Thank you, Mr. Hefner.
    Mr. Packard. Mr. Tiahrt, you just came in. We've had a good 
statement from Ms. Hickey, who represents the National Military 
Families Association.
    Mr. Tiahrt. Mr. Chairman?
    Mr. Packard. Yes, sir?
    Mr. Tiahrt. If I could ask one question? A question I posed 
yesterday to the Air Force, was there obstacles for enlisted 
troops and officers, from obtaining their own housing as far as 
buying their own home. Quite often they move. Maybe it's just a 
down payment. Maybe it's something else. I'm not sure. But one 
of the things that I've heard from people at McConnell Air 
Force Base and at Fort Riley in Kansas, is that they would like 
the opportunity to build-up a little equity in a home. And if 
you or your organization has any ideas, I would like to hear 
what they are and find out what the obstacles are so we can 
address the problem.
    Ms. Hickey. Yeah. I think there are a couple obstacles, 
sir. One, one, of course, is the mobility. It used to be that 
we were told by realtors that you--if you, if you could plant 
yourself for three years, it might be worthwhile buying. Most 
of them now will talk to five years, and that's, for most 
people, longer than we can count on being stationed anywhere.
    The other one is, obviously, the amount of money for a down 
payment. But I will say very honestly that because most of us 
are eligible for VA home loans that do not require down 
payments, that that is frequently not as much of the problem 
as: is that house going to retain the same value in the three 
years or five years we're there? Can we afford to sell it and 
pay the realty costs and still come out at least equal?
    Certainly: these days are we vulnerable to a possible 
another BRAC? We have had a lot of people who have lost their 
shirts on the BRAC. I mean, there is a program to help them, 
but I can guarantee you that by the time you pay the taxes on 
that, help is in the minimal category.
    A lot of people wonder: should I keep this home when I move 
somewhere else? And if I move--that somewhere else is overseas 
and then I go someplace else and I go into Government quarters 
and my four years gets up, then I'm going to have to pay 
capital gains on this house if I sell it--if I don't get back 
to McConnell Air Force Base.
    So, I think there are a variety of things. I don't think 
that any one of them are necessarily out of the realm of 
overcoming.
    I think one of the pieces is to perhaps be able to delay 
the capital gains as long as you're in Government quarters as 
well as being overseas. Right now that's not possible. The 
overseas piece stops the four years, but not the living in 
Government quarters.
    Certainly I would think the Air Force is probably head and 
shoulders of the other services and keeping people stationed in 
one place long enough that owning a home is a possibility. The 
Navy is supposedly moving to that with their homeport concept. 
We have not seen movements in the Marine Corps or in the Army 
in that direction yet and are really not in a position to say 
whether or not they can or not. I mean, readiness and training 
are not our areas of expertise and we don't move into them. So, 
maybe that's impossible for those two services.
    Mr. Packard. I might mention, on our visit to some of the 
facilities out in the San Diego County area, we visited the 
child development center that you referred to in your testimony 
and in your remarks. And in spite of the fact that they are 
perhaps in substandard buildings, they are doing a superb job. 
We were very impressed with the qualityof the care and the, and 
the activities that were taking place there with that child development 
center. True, that the facilities need to be upgraded.
    Ms. Hickey. We are very blessed, Mr. Chairman, with very, 
very loving caregivers in our child development centers, no 
matter what the facility.
    Mr. Packard. They are doing a good job, from our 
observation.
    We deeply appreciate your testimony. Thank you so much for 
remaining with us. I understand you had a plane to catch. So, 
hopefully you'll be able to stay on schedule.
    [Prepared statement of Sydney Hickey follows:]

[Pages 840 - --The official Committee record contains additional material here.]

                                 ----------

                                          Thursday, March 13, 1997.

                            QUALITY OF LIFE

                                WITNESS

CHARLES CALKINS, NATIONAL EXECUTIVE SECRETARY, FLEET RESERVE 
    ASSOCIATION

    Mr. Packard. And we're very pleased to have with us Mr. 
Calkins, who is representing the Fleet Reserve Association. We 
have your detailed statement. Obviously we would prefer that 
you wouldn't read the whole statement. I don't think----
    Mr. Calkins. I'll try not to.
    Mr. Packard [continuing]. Your five minutes would certainly 
exceed that. So, if you would summarize, we would appreciate it 
and we are very grateful to have you with us and appreciate 
your willingness to participate in this hearing.

                      Statement of Charles Calkins

    Mr. Calkins. Mr. Chairman and Mr. Hefner and Mr. Tiahrt, I 
really appreciate the opportunity to present my statement and 
I'll brief it as much as I possibly can here.
    The Fleet Reserve Association represents--representing over 
162,000 members of the Navy, Marine Corps, and Coast Guard, 
extends grateful acknowledgment for the interest and concern 
this Subcommittee has offered military personnel over the 
years--consistently over the past years, and we thank you so 
very much.
    Mr. Chairman, the Fleet Reserve Association is concerned 
that the FY 1998 Military Construction Budget Request is 
inadequate for the Navy and the Marine Corps. My written 
statement addresses the Association's concerns and seeks 
additions to the construction request without deleting any of 
the current programs existing in the budget.
    We are particularly supportive of the request made by the 
Master Chief of the Navy and Sergeant Major of the Marine Corps 
presented before this Subcommittee last March 4th last. Their 
recommendation to consider funding for single sailor and 
bachelor marine initiatives are, in the opinion of the Fleet 
Reserve Association, a priority of the highest order. There is 
a perception amongst the bachelor service members that the 
majority of attention by DoD and Congress is targeted toward 
married personnel, and in many cases such is the truth.
    The OPTEMPO appears not to be less--any less than that 
reported in late 1995, and by the Quality of Life Task Force. 
In fact, the Sergeant Major of the First Marine Regiment told 
the House National Security Committee that OPTEMPO seems to be 
increasing.
    In another vein, the Fleet Reserve Association believes 
that OPTEMPO will get worse, not better. As the Services head 
toward more privatization and further downsizing, more and more 
pressure will be placed on our sailors to spend longer sea duty 
tours because there will not be enough shore duty billets to 
swap. And most recently, I think within two weeks ago, The Navy 
Times had an article in there that they've already started to 
adjust these rotation periods, spending more time at sea and 
less time at--on shore duty, so to speak, because of their 
downsizing and because of the, the fewer billets ashore. And 
some of those seagoing rates are really seeing that already.
    For the Marines, it will be more and longer deployments. 
And needless to say, Mr. Chairman, the Fleet Reserve 
Association respectfully cautions this Subcommittee to go slow 
in funding private initiatives that will replace uniformed 
personnel.
    Although we endorse privatization of family housing 
wherever feasible and to the advantage of our sailors and 
marines, the Association is concerned with how rental costs to 
troops will be determined: by the developer or the Department 
of Defense or the service? If the young married sailor or 
marine cannot afford to live in private housing being 
constructed, for instance, at Corpus Christi or Everett, 
Washington, then the Fleet Reserve Association would withdraw 
its support for the initiative.
    And in conclusion, Mr. Chairman, the Fleet Reserve 
Association urges this distinguished Subcommittee to consider 
adding more family housing, the Navy's request, increasing BEQs 
for the Navy and Marine Corps, funding additional physical 
fitness centers. And that's a pretty good shopping list. And 
giving priority to the single sailor initiatives while looking 
at the family support and MWR facilities that will enhance the 
morale and readiness of our Navy and MarineCorps families.
    I'm aware that this is a heavy load on the Subcommittee, 
but the condition of our current forces demand our attention. 
We already see some deterioration in personnel recruiting 
efforts and a staggering loss in attrition amongst first-
termers. The coupling of downsizing with increased OPTEMPO and 
the hurry-up approach to privatization leads the Fleet Reserve 
Association to believe that to do otherwise will return the 
forces to the early 1970 days of the all-volunteer force, a 
hollow army and Navy, unable to get its ships to sea.
    Again, thank you for giving us this valuable time and I 
will be now pleased to entertain any questions that you may 
have.
    Mr. Packard. Thank you very, very much. Mr. Hefner.
    Mr. Hefner. I have no questions.
    Mr. Packard. Mr. Tiahrt.
    Mr. Tiahrt. No questions at this time, Mr. Chairman.
    Mr. Packard. Thank you. You have expressed, I think, in 
your statement some of the same concerns that the Committee has 
had, and you've heard, I think, if you've been here in previous 
hearings. We certainly hope that privatization will work and 
that it will provide the kind of housing--speed up the housing 
for those that we're targeting. So, we're watching that 
closely. But you expressed some of the same concerns I think 
the Members of the Committee have.
    Mr. Calkins. If I might add a response? In the response to 
your question earlier on: how could the services help members 
find homes? And we'll--I think--the Navy has a--it's not unique 
in anything whatsoever, but a lot of places where their 
homeports are, the facilities outside those bases are really 
exorbitant. It's kind of tough for a--even a senior sailor to 
afford some of those houses.
    Mr. Packard. That's true. We visited that process and how 
it's done in San Diego, which is a pretty good Navy town, and I 
was extremely impressed, though, with the quality of effort 
that went into helping these young families find housing. 
They've got an excellent program. They work with them very 
closely. We actually watched them do this with families. They 
were computerized. And even though it is expensive sometimes to 
go off base into community housing, they are very, very 
sensitive to the amount of money that these young families have 
and the kind of housing they can afford. And they've done a 
very good job, I must say.
    [Prepared statement of Charles Calkins follows:]

[Pages 861 - 874--The official Committee record contains additional material here.]


                                          Thursday, March 13, 1997.

                NAVAL AIR WARFARE CENTER, LAKEHURST, NJ

                                WITNESS

HON. CHRISTOPHER H. SMITH, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF NEW JERSEY
    Mr. Packard. Thank you so much, Mr. Calkins. We have Mr. 
Smith, who has arrived, and we've received your testimony, 
Chris. We're delighted to have you here. We'd prefer that you 
summarize, if you could----
    Mr. Smith. It's very brief, Mr. Chairman.
    Mr. Packard. That's fine.

                 Statement of the Honorable Chris Smith

    Mr. Smith. Thank you, and I do hope you look at the full 
statement. But I'm again appearing before your Subcommittee 
asking for help in securing money for a military construction 
project for the Naval Air Warfare Center at Lakehurst, New 
Jersey.
    This particular MILCON would provide--it's number three on 
the list that NAVAIR has put out. It is a $16.3 million 
appropriation. And the importance of it is that, and the reason 
why it has not been done before, was that it was originally 
slated to be done in 1995 and we had a BRAC. It was on the 
first close Lakehurst scenario, then radically realign 
Lakehurst. And it got caught up in all of that. But, finally, 
when the BRAC commissioners looked at this very important Naval 
Air Warfare Center where all of the launch and recovery work 
for our aircraft carriers is done, there isn't a single 
catapult in operation that has not in some way been affected by 
Naval--Navy Lakehurst, and I say this with real pride.
    My brother is a former carrier pilot and he flew A-7s 
offthe Enterprise. My brother is a--other brother is a helicopter 
pilot, although he's Army.
    We don't have Naval aviation without Lakehurst. And I think 
when BRAC looked at this and when the BRAC commissioners looked 
at it, they said: we have to keep this very important crown 
jewel in effect. Now it's a matter of making it absolute state-
of-the-art, and that's why this MILCON is necessary.
    There are a number of rather old laboratories scattered 
throughout the base that would be consolidated under this plan, 
and we--again, we have a good letter which hopefully we have 
submitted for the record--if not, from the head of NAVAIR--
testifying to the need for--and, again, on their list it is 
number three.
    Now, you have it slated here for the year 2000, but our 
argument is that this has been pushed back so many times going 
back to 1991 when it was slated for 1995, that the time has 
come to get this underway. And we do hope you look at it very 
carefully and favorably.
    Mr. Packard. Thank you very much. Mr. Hefner.
    Mr. Hefner. No questions.
    Mr. Packard. Mr. Hefner asked a question earlier of your 
colleagues from New Jersey. Do you support their projects that 
they, that they were asking for?
    Mr. Smith. I am supportive of those, but I think----
    Mr. Packard. They were in your district, I understand, at 
one time?
    Mr. Smith. NAVAIR is so important, though. And the whole 
idea is the ability to project power.
    Mr. Hefner. We support those.
    Mr. Smith. It's--I've been supportive of this one for 
years, even when it wasn't--which it wasn't for 14 years.
    Mr. Packard. Do you know whether the President has included 
this one on his budget?
    Mr. Smith. Apparently not, not for this fiscal year.
    Mr. Packard. It's been pushed back by the Administration as 
well?
    Mr. Smith. Right.
    Mr. Packard. Mr. Tiahrt.
    Mr. Tiahrt. I just want to express my concern, Mr. 
Chairman. We've had three members of Congress in here. I'm 
afraid it's going to fall off and we're going to do something 
for New Jersey. So, I want to support Rep. Chris Smith same 
way.
    Mr. Smith. Thank you.
    Mr. Packard. Thank you. Thank you. We appreciate you 
coming.
    Mr. Smith. Thank you.
    [Prepared statement of Hon. Chris Smith follows:]

[Pages 877 - --The official Committee record contains additional material here.]

                                 ----------

                                          Thursday, March 13, 1997.

                       ROLE OF RESERVE COMPONENTS

                                WITNESS

ROGER SANDLER, EXECUTIVE DIRECTOR, RESERVE OFFICERS ASSOCIATION

    Mr. Packard. We'll now return to the associations, the 
Reserve Officers Association, Mr. Roger Sandler. And we 
appreciate you being here. I've had a lot of connections and 
relationships with the Reserve Officers Association in the past 
and we're delighted to have you here. We appreciate your 
statement. It's a lengthy statement and obviously we would ask 
you not to read it, but if you could summarize within the five-
minute period?

                 Prepared Statement of Roger W. Sandler

    Mr. Sandler. Thank you very much, Mr. Chairman. I do indeed 
intend to summarize for you. On behalf of our almost 100,000 
members, we're delighted to have the opportunity to testify 
before this Committee before you and Mr. Hefner and Mr. Tiahrt. 
Thank you very much for inviting us.
    I just might preface my remarks by saying that I think you 
all know that the Reserve components today are more important 
than ever and they are being mobilized involuntarily, 
particularly to Bosnia, and they've been in other places as 
well. And so what I'm about to refer to you is a series of 
requests for all of the services in the, in the Reserve to 
support the kinds of things they are doing in support of the 
country.
    I'll cut to the quick immediately by getting into the 
construction backlogs. Base closures and force realignments 
have generated requirements for new construction to support new 
missions. Much of the appropriated funding for 
MilitaryConstruction for the Guard and Reserve has been for new 
construction while the needs for repair and renovation have grown. Even 
in the eighties when Defense spending was on the rise, Reserve 
component military construction backlogs continued to grow. And Reserve 
components--if the Reserve components are to continue to make 
significant contributions, as they have in the past to national 
security, they must be provided adequate facilities to meet unique 
requirements, including the location of facilities where the persons 
and skills needed to meet Reserve component needs are located.
    And this gets into the next subject, which is demographics, 
and this is very important to the Reserve components. 
Demographics are so critical to Reserve components because, 
unlike the active counterparts who can readily move to new 
locations, Reservists are tied to their civilian employments 
and are often unable to relocate for Reserve assignments. And 
for this reason, we must, we must provide the best training 
facilities possible to put them where the Reservists are 
located.
    I'm going to get into the Army Reserve first. Today, your 
United States Army Reserve has a $1.9 billion backlog of known 
construction requirements. Now, this is current. The facility 
shortage is further complicated by numerous base closings and 
the loss of support facilities, many of which were 
geographically proximate to Army Reserve units. All of these 
factors contribute to an average utilization rate of over 200 
percent in existing facilities.
    For half of the Army Reserves 2,800 facilities, which 
average 32 years old, are inadequate to meet recognized 
training, maintenance, and storage requirements. Many fail to 
meet Army standards. This situation has created a training 
environment that is increasingly unsafe, environmentally 
unacceptable, and damaging to readiness. To further compound 
the situation, the Army Reserve has taken over management of 
several Army installations formerly operated by the active 
Army, and as a result the Army Reserve has an additional 2,600 
buildings in its inventory, averaging 47 years old.
    We urge the Congress to authorize and fully fund the 
Reserve's $47 million budget request for major construction, as 
well as the $240 million required to eliminate the growing 
backlog of maintenance and repair and $25 million to support 
environmental compliance requirements.
    We further urge the Congress to authorize and appropriate 
additional funding to move essential construction projects back 
into the FY 98 budget.
    In the case of the Air Force Reserve, military construction 
program for the Air Reserve is divided into three categories: 
environmental compliance, new mission, and current mission 
military construction. The total Air Force Reserve Military 
Construction Request for FY 98 is only $14.5 million, including 
$5.2 million for new mission, no funds for the current mission, 
and $3.3 million for environmental compliance, $4.5 million for 
minor construction and $1.5 million for architectural and 
engineering services.
    Air Force Reserve current mission military construction 
funding levels are inadequate to support the existing 
infrastructure. $551 million current mission backlog equals 31 
years of existing funding levels. Funding is requested for 
current mission military construction to provide adequate 
facility support to the Air Force Reserve mission.
    In the Naval and Marine Corps Reserve, the budget requests 
for Military Construction for Fiscal 98 is for $13.9 million. 
This request will support only three relatively small projects. 
It does not include any funds for minor construction. It 
includes only limited funding for planning and design for 
future projects. This year's budget request contrasts sharply 
with the more than $25 million appropriated for Fiscal 94, 
$22.8 million for Fiscal 95, and $19.1 million for FY96.
    So, funding for the Naval and Marine Corps Reserve 
Construction at these relatively modest levels has occurred 
only because this Subcommittee and the Congress has made 
significant additions to the requests that were submitted from 
the Pentagon.
    So, in the case of the Naval and Marine Corps Reserve, 
their backlog of military construction still remains. It's 
critical. They have essential maintenance and repair of Naval 
and Marine Corps Reserve facilities and still approaches $340 
million. Once again, Military Construction of Naval Reserve for 
Fiscal 98 will not keep pace with the requirements at hand.
    So, we request that the ROA, Mr. Chairman, that this 
Committee look closely at--I already submitted a copy for the 
record--and see what you can do to improve the facilities for 
the training and maintenance and the continuing support 
required for our reserve forces around the country.
    And with that, sir, thank you very much for allowing us to 
be here.
    Mr. Packard. Thank you, Mr. Sandler. Mr. Tiahrt.
    Mr. Tiahrt. No questions. Thank you, Mr. Sandler.
    Mr. Packard. You have a very comprehensive statement for us 
which you've prepared and I have no questions. Thank you very 
much.
    Mr. Sandler. All right. Thank you. And this is--
parenthetically, I'm very familiar with your 89th's Reserve 
Command out there. They're doing a great job out in Kansas. 
They've taken on an enormous amount of responsibility, taking 
over several new state responsibilities in the Army Reserve and 
you should be proud of them.
    Mr. Tiahrt. And we're breaking ground--this year. They have 
done a very good job of taking what was a pig's ear and making 
a silk purse out of it. Very proud of them.
    Mr. Sandler. Thank you.
    Mr. Tiahrt. Thank you.
    Mr. Packard. Thank you.
    [Prepared statement of Roger W. Sandler follows:]

[Pages 886 - 911--The official Committee record contains additional material here.]

                                 ----------

                                          Thursday, March 13, 1997.

          HISTORIC PRESERVATION AND NEIGHBORHOOD CONSERVATION

                               WITNESSES

RICHARD NETTLER, CHAIRMAN, PRESERVATION ACTION
NELLIE LONGSWORTH, PRESIDENT, PRESERVATION ACTION

    Mr. Packard. We're pleased to have with us the Preservation 
Action group. Richard Nettler is the Chairman. Nellie 
Longsworth is the President. We are delighted to have you with 
us. Thank you. And we'll proceed as you wish.
    Ms. Longsworth. We were going to share testimony.
    Mr. Packard. That's fine. Thank you. If you will, have you 
go first.

      Joint Statements of Richard B. Nettler and Nellie Longsworth

    Ms. Longsworth. I'm Nellie Longsworth. I'm President of 
Preservation Action. And we're sort of the new kids in front of 
this Committee. We're the national citizens' lobby for historic 
preservation and neighborhood conservation. Our organization 
represents grassroots preservationists--professionals and 
volunteers--who really are the heart and soul of protecting our 
nation's heritage in our own communities.
    Normally, Preservation Action has testified before the 
Appropriations Committee for two decades, but usually it's down 
the hall on the Subcommittees of Interior. And we--we've been 
working to ensure funding for the states, the tribes, National 
Trust for Historic Preservation, the Advisory Council, and 
cultural resources within the Park Service.
    Our goal has been to develop a cost-effective 
intergovernmental program that protects historic structures in 
both the public and private sector. Since 1966 and the 
enactment of the Historic Preservation Law, our program has 
matured into, I think, one of the finest examples of 
intergovernmental cooperation.
    Day to day, we see several government agencies, states, 
local governments, and the private sector working on issues 
from transportation issues to tax incentive issues to issues of 
nominating properties to the National Register, and of course 
now we're interested in the historic quarters on military 
reservations.
    It is not a program besieged by delays and inefficiencies. 
We've worked with Congress to create incentives that make 
preservation competitive in the marketplace. And with some 
creative restructuring, we believe that some of these 
incentives would work for military housing.
    Our success includes the enactment of state and Federal tax 
credits for commercial revitalization and a credit that works 
for residential rental as well. Commercial credit has attracted 
$17 billion in private investment into the rehabilitation of 
historic structures throughout the nation. You can see it in 
downtowns. You can see it in main streets. In other words, 
there's been a great deal that's happened.
    And the public-private partnership approach we have found 
to be a good one, and we believe it has the potential to work 
for military housing by offering inducements for private 
financing. Now, I will say that this will require some changes 
in procedures, guidelines, leasing policies, but it might 
decrease the reliance on Federal appropriations.
    And I will also share with you that before the Congress 
this week, Representative Clay Shaw is going to introduce a 
Federal tax credit for owners--homeowners of historic 
properties. And we've had a lot of support. Last year we had 85 
co-sponsors for that. Another thing which may be of interest.
    I further want to call your attention to a recent Executive 
Order that requires the General Services Administration to look 
at downtown historic areas to find structures that would meet 
Federal Government office needs. Again, there may be 
opportunities to integrate the Executive Order requirements 
with utilization of underused structures on military 
installations by Government agencies other than the military.
    Much that we've learned during the past 20 years is 
relevant to your concerns about the military and about 
maintenance of its historic quarters. This is not a new issue 
for preservationists. However, it took center stage a year ago 
with the language that was included in the 1997Appropriations 
for Military Construction, saying that housing quarters maintained by 
the military are overwhelming the housing accounts and directing each 
service to review current inventories of historic quarters and provide 
a report to the Appropriation committees on specific plans to remove 
all but the most significant historic homes.
    Well, we really got quite excited about that ``remove'' and 
it was something of great concern to us. And we know that the 
language was a direct response to the Marsh Panel conclusions 
in 1995.
    This is not, however, the only action that was a response 
to the conclusions and recommendations of the Marsh Panel. The 
other was the Housing Privatization Initiative. This Act 
authorizes DoD to use a variety of tools to obtain privately 
managed, owned, and financed military housing. Over the past 
year we've seen DoD through the Housing Support and 
Revitalization Office. And with the cooperation of the 
services, select a number of military bases for implementation 
of the Housing Privatization Initiative. And recently, they had 
their first Request for Proposal, RFPs, for proposals.
    I'm going to conclude my piece of the testimony--and I 
timed this, because I know how military people are; I wanted to 
give Richard his chance--by suggesting that the two 
Congressional responses to the Marsh Panel should not be 
treated as separate tracks but should be viewed as 
complementary actions addressing preservation. And we believe 
some of the things we know from our experience over the past--
since 1966 also might be helpful.
    And that we look forward to the reports that this Committee 
will be receiving and we think they will contain information 
relevant to the work of DoD's Housing Privatization Project.
    Mr. Packard. Thank you, Ms. Longsworth.
    Mr. Nettler. Well, let me just add a few additional 
comments. This is not the first time that Congress and the 
preservation community have been concerned about military 
housing and the costs, O&M, and other costs associated with 
the--with military housing.
    In the mid-nineteen-eighties, Congress asked the Department 
of the Army to do a study, which it did, and it took quite a 
few years, and produced some results which we think were very 
valuable and which we've been sharing with the Army. Those 
results suggested that the costs, the O&M costs related to 
military housing, historic housing, were not as much as the 
Marsh Panel had suggested but were indeed similar to the costs 
associated with the other construction efforts.
    Given the concerns that Congress had last year and the 1997 
Act, we determined to work with the Department of Defense on 
this issue and set up with a meeting with the Department of 
Defense and the housing revitalization and support office with 
members, representatives from the General Services 
Administration, the Advisory Council on Historic Preservation, 
Preservation Action, and the American Institute of Architects 
to discuss ways in which each of us could provide assistance 
with regard to the Housing Privatization effort.
    The major problem that we've seen from the Housing 
Privatization effort as it goes forward, even with the RFPs 
that have been issued, is from a financing perspective. The 
private industry has concerns about being able to finance the 
RFPs that have been issued, and that is, that is something that 
DoD is, as you very well know, is struggling with. We believe 
that the tax credits that are available to the private industry 
can be utilized for military housing that is privatized and the 
military housing that is of historic nature.
    Lastly, we would like to correct some of the assumptions 
that are part of the FY 97 Appropriations language in reference 
to historic preservation requirements.
    The Marsh Panel was clearly concerned about increased costs 
of repair and maintenance, as Nellie has alluded to, of 
historic military housing, compared to the repair and 
maintenance of newer structures. As I said, in the studies that 
were done by the Army in the 1980s, it was found that those 
differences in costs were not real, were not real. The language 
in the, in the conference report stated that the overburdening 
of the housing accounts would only worsen as the number of 
homes eligible for placement on the register continues to grow.
    To comply with the Historic Preservation Act, substantive 
work must receive prior approval from the various historic 
boards. The fact is that the listing of properties as historic 
in the Federal agencies' inventory does not preclude cost-
effective changes in the property or its use. Section 106 of 
the Historic Preservation Act requires a Federal agency to take 
into account the effect that an undertaking may have on a 
property that is listed on or eligible for the National 
Register. The agency must then provide the Advisory Council 
with a reasonable opportunity to comment.
    The process does not preclude--does not mandate a 
Preservation Act outcome and accommodates a wide range of 
mission-driven solutions. Furthermore, Section 110 of the Act 
requires a Federal Agency to adopt measures for maintaining 
historic structures. The Department of Defense has done so, has 
adopted regulations for doing so, and the privatization of such 
housing is consistent with this aspect of the Act.
    Therefore, we ask the Committee and we encourage the 
Committee to ask the DoD to pursue together cost-effective 
alternatives to the removal of all but the most significant 
historic homes. Those of us with preservation experience 
outside the military believe there are cost-effective solutions 
to the maintenance and active use of both historic quarters and 
commercial structures on military installations that go beyond 
the reliance on Federal appropriations and that are consistent 
with the Privatization effort. Webelieve that Privatization, 
with a variety of tools, is a good springboard and that it holds the 
promise and answers that work together. We're better than mothballing, 
putting off maintenance, or demolition. We look forward to working with 
the Department of Defense and with you on these measures.
    Mr. Packard. Thank you very much. Mr. Tiahrt?
    Mr. Tiahrt. Thank you, Mr. Chairman. Do you have a list of 
historical buildings that are currently--on military bases, and 
how do we determine which ones are worthwhile preserving?
    For example, I've been at Fort Riley in Kansas and they 
have the home of the infamous or famous, however you view 
George Armstrong Custer. He lived there for awhile and they 
have one house that supposedly he lived in. And I don't know 
how they verified that. I'm sure you guys know how to do that. 
I don't. But--do you have a list of buildings?
    Mr. Nettler. Well, actually, the military has a list 
itself. Each base is required to have prepared a master plan 
for future development of the base, future construction, taking 
into account what is existing on the base. Each base under 
regulations the Department of Defense has adopted is required 
to adopt a cultural resource management plan, which is aimed at 
identifying those resources of historic value or other value 
that much have--must have some program for, whether it is 
maintenance or even demolition, but some program for.
    And, in fact, as I alluded to, the Army has done a study in 
the mid-1980s, a very comprehensive study, of all of its bases 
and the historic properties on those bases and addressing 
Congressional concern regarding the cost of maintenance and--of 
maintenance and----
    Mr. Tiahrt. Have you seen this study?
    Mr. Nettler [continuing]. Operations of those houses.
    Mr. Tiahrt. Have you seen this list? Do you know what's in 
the study?
    Mr. Nettler. The irony is we have, we have probably more of 
a list than the Department of Defense has. When we met with the 
Department of Defense and had alluded to this fact that this 
information that was available prior to the meeting, they had 
tried to locate the information. We had the information with us 
at the meeting and were--and did provide it to Department of 
Defense. So, the information does exist. It may very well be 
that we had better access to it, and we are certainly willing 
to share that with the Department of Defense and the different 
branches and work on financing mechanisms and other types of 
mechanisms that would ensure less cost to the Department of 
Defense and I think reasonable privatization efforts.
    Mr. Packard. I think generally, and I'd be interested if 
you concur, DoD has done a fairly responsible job of 
preservation. They're aware of these on their bases and they're 
quite proud of them, at least my observation is that. And they 
generally are quite responsible in their maintenance and upkeep 
and restoration, where necessary. Do you agree?
    Ms. Longsworth. We do agree. I had the pleasure of a 
wonderful tour of Fort Sam Houston. I was able to see, you 
know, in perspective a lot of the aspects of this. And I was 
impressed with what they had done.
    I still think there's a big job to be done, and I think 
that's where we would like to, you know, share with you some of 
our expertise.
    Mr. Packard. Thank you very, very much for being here, both 
you, Mrs. Longsworth, and Mr. Nettler. We appreciate your 
testimony, your interest in this area, and your willingness to 
come before the Committee.
    Ms. Longsworth. Thank you very much.
    [Joint prepared statement of Richard B. Nettler and Nellie 
Longsworth follow:]

[Pages 917 - 924--The official Committee record contains additional material here.]


    Mr. Packard. Thank you. All testimonies, or all written 
statements, will be entered in the record just for your 
information. And with that, we'll adjourn the hearing.
    This concludes the hearing and we will adjourn.






                           W I T N E S S E S

                               __________
                                                                   Page
Alley, J.T., Jr..................................................   231
Benken, E.W......................................................   273
Bereuter, Hon. Doug..............................................   758
Brown, Alan......................................................   923
Bryant, Hon. Ed................................................768, 793
Calkins, Charles.................................................   858
Coleman, Hon. R.A................................................   615
Crapo, Hon. M.D..................................................   751
Goodman, Hon. J.B................................................   175
Gordon, Hon. Bart................................................   798
Hagan, John......................................................   241
Hamre, Hon. J.J..................................................     1
Hickey, Sydney...................................................   836
Lee, Lewis.......................................................   257
Longsworth, Nellie...............................................   912
Nettler, Richard.................................................   912
Pallone, Hon. Frank..............................................   817
Pappas, Hon. Michael.............................................   817
Pirie, Hon. R.B., Jr.............................................   521
Sandler, Roger...................................................   883
Smith, Hon. C.H..................................................   875
Sodano, Henry....................................................     1
Underwood, Hon. R.A..............................................   834
Visclosky, Hon. P.J..............................................   829
Walker, Hon. R.M.................................................   337
Whitfield, Hon. Ed...............................................   768






                               I N D E X

                              ----------                              

                               OVERVIEW

                                                                   Page
Base Realignment and Closure Savings.............................    19
Base Realignment and Closure--Environmental Cleanup..............    27
Base Realignment and Closure--Funding History....................   111
Base Realignment and Closure--Unobligated Balances...............    60
Bosnia Supplemental..............................................    25
Breakage and Deferred Design.....................................   101
Chairman, Statement of the.......................................     1
Chemical Demilitarization........................................    30
Child Development Centers........................................58, 70
Contingency Construction.........................................   112
Davis Bacon.....................................................21, 102
Defense Energy Deficiency Act....................................    18
Demolition of Excess Facilities..................................    54
DOD Environmental Compliance Project List........................   103
DOD Life Safety/Health Project List..............................   108
Environmental Levels.............................................   106
Execution Rates..................................................   110
Family Housing Improvement Fund..................................    61
Family Housing Maintenance Costs.................................   112
Family Housing...................................................20, 31
Family Housing--Annual Maintenance and Repair....................    65
Family Housing--Average Age of Units.............................    65
Family Housing--Deficit..........................................    65
Fiscal Year 1998 Budget Request..................................    24
Foreign Currency Exchange Rates..................................    99
Full Compliance Long Term Plan...................................   107
Guard and Reserve Components--Decrease in Military Personnel.....    27
Guard and Reserve Funding Levels.................................    16
Hamre, Prepared Statement of the Honorable John J................     9
Hamre, Statement of the Honorable John J.........................     6
Housing Privatization, OMB Scoring of............................    20
Housing Revitalization Support Office............................    62
Inflation........................................................    80
Lost Design......................................................   101
Military Unaccompanied Housing Improvement Fund..................    56
NATO Security Investment Program--Construction vs. Procurement...    73
NATO--Capability Packages........................................    77
NATO--Funded Construction........................................    73
NATO--Funding for CONUS Projects.................................    78
NATO--IAU Rate...................................................    80
NATO--New Initiatives............................................    76
NATO--Recoupment.................................................    77
NATO--Restoration Backlog........................................    76
NATO--U.S. Contractors...........................................    77
Non-Appropriated Funds...........................................    80
Overall Funding Level............................................    31
Overseas Construction............................................    57
Overseas Housing.................................................    20
Permanent Party Unaccompanied Personnel Housing..................    72
Phase Funding....................................................   102
Planning and Design........................................85, 101, 122
Portsmouth Naval Hospital........................................    24
Prior Year Savings...............................................    64
Private Sector Initiatives......................................36, 122
Quality of Life..................................................    33
Real Property Maintenance........................................   122
Transfer Authority...............................................    32
Troop Housing Inadequacies.......................................    67
Troop Housing--``One Plus One''..................................34, 55
Troop Housing--Budget Request....................................    69
Troop Housing--Cost of Buy-Out Troop Deficit.....................    69
Troop Housing--Deficit...........................................    66
Unspecified Minor Construction.................................109, 113
Wright-Patterson AFB: Simulator..................................    18

                 DEFENSE-WIDE QUESTIONS FOR THE RECORD

Anniston Army Depot, Alabama.....................................   157
Bolling Air Force Base, Washington, D.C..........................   136
Chemical Demilitarization........................................   151
Child Care Facilities............................................   142
CINCLANTFLT Norfolk, Virginia....................................   130
Columbus Center..................................................   128
Craney Island Norfolk, Virginia..................................   140
Defense Commissary Agency Headquarters Addition..................   123
Defense Finance and Accounting Service...........................   125
Defense Logistics Agency.........................................   137
Department of Defense Dependent Education........................   163
DMFO Backlog of Facilities.......................................   146
DMFO Hospitals...................................................   145
DMFO Overall Funding Level.......................................   144
DMFO Phase Funding...............................................   145
DMFO Service Priorities..........................................   145
DMFO Unobligated Balances........................................   145
Elmendorf Air Force Base, Alaska.................................   139
Energy Conservation Improvement Program..........................   158
Family Housing...................................................   169
Ford Island......................................................   129
Fort Detrick, Maryland...........................................   146
Fort Meade, Maryland.............................................   148
Future Program...................................................   129
Government and Performance and Results Act.......................   171
Hill Air Force Base, Utah........................................   147
Kwajalein Atoll--American Preference.............................   170
Lawton/Fort Sill.................................................   130
Leases...........................................................   169
Millington Naval Air Station, Tennessee..........................   130
Naval Air Station, Jacksonville, Florida.........................   139
Naval Air Station North Island, California.......................   150
Norfolk, Virginia................................................   140
Redstone Arsenal, Alabama........................................   131
Richmond, Virginia...............................................   142
Robins Air Force Base, Georgia...................................   147
San Diego Naval Station, California..............................   146
Truax Field, Wisconsion..........................................   143
United States Special Operations Command.........................   149

                         HOUSING PRIVATIZATION

Account Balances/Allocations.....................................   227
Area Cost Factors................................................   208
Balance, Proper..................................................   197
Base Realignment and Closure.....................................   204
Base Realignment and Closure--Use of Funds.......................   228
Budget Appendix Material.........................................   225
Budget Tool......................................................   227
Bureaucracy......................................................   209
Camp Pendleton, California.......................................   227
Chairman, Statement of...........................................   175
Corpus Christi, Limited Partnership Agreements...................   225
Davis-Bacon......................................................   206
Delayed Regular Construction Projects............................   210
Economic Analysis................................................   218
Energy Saving....................................................   198
Expiration of Authority..........................................   219
Family Housing Improvement Fund................................221, 206
Federal Acquisition Regulation...................................   206
Fort Carson, Colorado............................................   226
Funding Mechanism................................................   224
Funding Sources..................................................   202
Funding, Overall.................................................   191
Goodman, Prepared Statement of the Honorable John B..............   178
Goodman, Statement of the Honorable John B.......................   176
Housing Units, Number for 1997 and 1998..........................   201
HRSO Administrative Expenses.....................................   217
HRSO Jurisdiction................................................   218
HRSO Workload Measurement........................................   221
Impact Aid.......................................................   219
Installation Involvement.........................................   212
Installation Reluctance..........................................   228
Legislative Proposals............................................   224
Limited Partnership Agreement....................................   208
Limits of Federal Liability for Costs............................   221
Maintenance......................................................   221
Naval Station Everett, Washington................................   226
Non-Appropriated Funds...........................................   220
Non-Performing Contractors.......................................   220
O&M Account....................................................212, 224
OMB Scoring....................................................195, 220
Privatization as a Supplement....................................   194
Privatization vs. 801 Housing..................................199, 211
Privatized Housing, Intended Purpose of..........................   216
Project Data.....................................................   224
Property Taxes...................................................   220
Section 801 Program..............................................   223
Site Selection...................................................   196
Transfer of Funds................................................   219
Unaccompanied Housing Improvement Fund...........................   201
Unit Size........................................................   221
User Involvement.................................................   213
Utilities........................................................   215
Variable Housing Allowance.......................................   194
Voluntary Assignment.............................................   220

                            QUALITY OF LIFE

Alley, Jr., Prepared Statement of Sergeant Major Jerry T.........   235
Alley, Jr., Statement of Sergeant Major Jerry T..................   223
Bachelor Housing...............................................316, 323
Benken, Prepared Statement of Chief Master Sergeant Major........   274
Benken, Statement of Chief Master Sergeant Major.................   273
Chairman, Statement of...........................................   231
Child Care Needs.................................................   321
Downsizing.......................................................   289
Education........................................................   335
Family Advocacy..................................................   330
Family Housing...................................................   316
Family Housing vs. Bachelor Housing..............................   313
Family Separation................................................   313
Family Violence Cases............................................   329
Gangs............................................................   304
Hagan, Prepared Statement of Chief Petty Officer John............   243
Hagan, Statement of Chief Petty Officer John.....................   241
Housing Allowance................................................   317
Housing Referral Offices.........................................   318
Housing........................................................298, 302
Impact of Terrorism on Personnel.................................   307
Job Satisfaction.................................................   320
Lee, Prepared Statement of Major Lewis G.........................   260
Lee, Statement of Sergeant Major Lewis G.........................   257
Marsh Task Force.................................................   304
Medical Care.....................................................   290
Medical Program, Assessment of...................................   324
Morale and Welfare.............................................285, 289
Navy Personnel at Crystal City...................................   288
One Plus One Barracks Standard...................................   301
Overseas Installations...........................................   309
Physical Fitness Centers.........................................   312
Quality of Life Funding Levels...................................   300
Reasons for Leaving the Service..................................   329
Recruitment/Training/Re-Enlistment...............................   327
Retention........................................................   286
Retirement.......................................................   296
Spousal Employment...............................................   332
Stabilization Force (IFOR) Deployment............................   311
Women, Infants and Children Program Overseas.....................   334

                                  ARMY

Age of Housing Inventory.........................................   425
Army Guard Budget................................................   381
Army National Guard--End Strength................................   439
Army National Guard Inventory....................................   439
Army National Guard Training.....................................   394
Army Reserve Centers.............................................   398
Army Reserve Training............................................   395
Atlantic Side transfers..........................................   411
Backlog of Maintenance and Repair--Army Reserve..................   490
Backlog, Army National Guard.....................................   439
Backlog--Army Reserve............................................   489
Barracks Priorities..............................................   407
Barracks Program Execution.......................................   408
Barracks Projects in Europe......................................   379
Barracks Real Property Maintenance Account.......................   408
Barracks Renovation..............................................   392
Barracks Standard................................................   407
Barracks/Balanced Program........................................   499
Barstow-Daggett..................................................   431
Base Closure--Army National Guard................................   439
Base Closure--Army Reserve.......................................   489
Base Realignment and Closure--Environmental......................   385
Budget Planning Process..........................................   376
Budget Request, History of Army National Guard...................   470
Chairman, Statement of...........................................   337
Chemical Demilitarization Program................................   422
Child Development Centers......................................403, 424
Concord Naval Weapons Station, California........................   438
Construction Improvements........................................   427
Conversion Tables................................................   421
Cost-Sharing--Army National Guard................................   487
Crane Army Ammunition Activity, Indiana..........................   437
Currency Fluctuation.............................................   427
Davis-Bacon......................................................   390
Defense Intelligence Agency/Missile Space Intelligence Center....   431
Deferred Maintenance.............................................   427
Demolition of Excess Facilities..................................   499
Demolition of Unneeded Facilities--Army National Guard...........   473
Demolition of Unneeded Facilities--Army Reserve..................   492
Demolition.......................................................   404
Directed Minor Construction Projects.............................   384
End Strength--Army Reserve.......................................   489
Environmental Compliance.........................................   438
Environmental Compliance--Army Reserve...........................   488
Excess Prior Year Authorization..................................   438
Excess Prior Year Authorization--Army Reserve....................   488
Expiring Authorizations--Army National Guard.....................   438
Expiring Authorizations--Army Reserve............................   488
Facilities Privatization Initiatives.............................   405
Facilities Returned to States--Army National Guard...............   477
Facility Definition--Army National Guard.........................   488
Family Housing Improvement Fund..................................   405
Family Housing Maintenance.......................................   499
Family Housing Privatization and Housing Authority...............   425
Family Housing--Army National Guard..............................   470
Family Housing--Army Reserve.....................................   490
Fort Carson, Colorado............................................   437
Fort Gordon, Georgia.............................................   437
Fort Huachuca, Arizona...........................................   437
Fort Leavenworth, Kansas--U.S. Disciplinary Barracks.............   435
Fort McCoy, Wisconsin............................................   498
Fort Riley, Kansas...............................................   438
Fort Sam Houston, Texas..........................................   438
Fort Stewart Barracks Projects...................................   383
Guard and Reserve Components.....................................   380
Guard and Reserve Training.......................................   393
Historic Preservation............................................   413
Homeowners Assistance Program....................................   428
Host Nation Support..............................................   415
Housing Deficits.................................................   425
Infrastructure Requirements....................................377, 499
Installation Status Report.......................................   412
Inventory........................................................   425
Inventory--Army Reserve..........................................   489
Korea............................................................   412
Marsh Task Force.................................................   406
Massachusetts Army Guard Facilities..............................   402
Military Construction Needs of the National Guard................   500
Minor Construction...............................................   420
Mississippi-Bed-Down of Avenger Air-Defense-System Units.........   518
National Guard Backlog of Maintenance Repair.....................   470
Off-Base Housing.................................................   426
Officer Quarters.................................................   427
Operation and Maintenance Costs..................................   427
Operation and Maintenance for Army Guard Facilities..............   400
Pacific Side Transfers...........................................   411
Panama Relocation................................................   411
Parametric Cost Estimates--Army National Guard...................   470
Parametric Cost Estimates--Army Reserve..........................   490
Planning Process.................................................   498
Power Projection Platforms.....................................386, 397
Private Sector Initiatives.......................................   404
Privatization..................................................378, 499
Program Execution Rates..........................................   430
Projects No Longer Required......................................   414
Projects No Longer Required--Army National Guard.................   474
Projects No Longer Required--Army Reserve........................   492
Recruiting.......................................................   391
Reprogrammings...................................................   418
Reprogrammings--Army National Guard..............................   474
Reprogrammings--Army Reserve.....................................   492
Sacramento, California...........................................   493
Schofield Barracks, Hawaii.......................................   437
SOUTHCOM Headquarters Relocation.................................   518
Southwest Asia...................................................   413
State Master Plans--Army National Guard..........................   488
Suitability......................................................   426
Total Army School System.........................................   413
Total Army.......................................................   500
Troop Housing--``1 Plus 1''......................................   403
Unneeded Infrastructure..........................................   403
Unobligated Balances.............................................   414
Unobligated Balances--Army National Guard........................   475
Unobligated Balances--Army Reserve...............................   492
Unspecified Minor Construction--Army National Guard..............   471
Unspecified Minor Construction--Army Reserve.....................   491
Unspecified Minor Project--Massachusetts ARNG....................   384
USAR Facilities Profile..........................................   400
Utilities Privatization..........................................   377
Waiting Lists....................................................   426
Walker, the Honorable Robert M.--Opening Statement...............   338
Walker, the Honorable Robert M.--Prepared Statement..............   343

                                  NAVY

Age of Facilities................................................   579
Air Facilities Andrews AFB, Maryland.............................   610
Backlog of Maintenance and Repair, Reserve.......................   608
Backlog..........................................................   579
Backlog, Reserve.................................................   607
Barracks Backlog.................................................   575
Barracks Planning and Design.....................................   574
Barracks Program Execution.......................................   575
Barracks Standard..............................................556, 574
Barracks.........................................................   576
Barracks/Balanced Program........................................   570
Base Closure, Reserve............................................   607
Base Realignment and Closure.....................................   587
Chairman, Statement of...........................................   521
Child Care Facilities............................................   572
Construction Improvements........................................   585
Conversion Tables................................................   580
Currency Fluctuation.............................................   585
Davis-Bacon......................................................   553
Deferred Maintenance.............................................   585
Demolition of Excess Facilities..................................   562
Demolition of Unneeded Facilities................................   609
Dormitories......................................................   576
Elimination of Explosive Safety Waivers..........................   573
End-Strength, Reserve............................................   607
Environmental Compliance.........................................   573
Environmental Compliance, Reserve................................   606
Excess Prior Year Authorization, Reserve.........................   606
Expiring Authorizations, Reserve.................................   606
Family Housing Improvement Fund...........................552, 570, 589
Family Housing Inventory and Deficit.............................   604
Family Housing Maintenance.......................................   570
Family Housing...................................................   557
Family Housing, Reserve..........................................   608
Five-Year Plan...................................................   555
Ford Island Causeway, Hawaii.....................................   592
Funding Levels...................................................   550
Home Schooled Individuals, Hiring................................   567
Housing Deficits.................................................   584
Housing Inventory, Age of........................................   583
Housing Privatization............................................   549
Infrastructure Requirements......................................   555
Inventory........................................................   583
Inventory, Reserve...............................................   607
Limited Partnerships.............................................   552
Louisville, Kentucky.............................................   563
Marine Corps Air Station, Camp Pendleton, California.............   604
Marsh Task Force.................................................   562
Massachusetts Base Realignment and Closure.......................   547
Minor Construction...............................................   579
Naples Support Complex, Italy....................................   578
Naval Air Station, Jacksonville, Florida.........................   592
Naval Air Station, New Orleans, Louisiana........................   611
Naval Air Station, Oceana, Virginia..............................   593
Naval Ordnance Station, Louisville, Kentucky.....................   612
Naval Station, Norfolk, Virginia.................................   593
Naval Submarine Base, New London, Connecticut....................   592
Naval Weapons Station, Yorktown, Virginia........................   594
Navy Force Levels................................................   548
Norfolk Naval Shipyard, Virginia.................................   593
Off-Base Housing.................................................   584
Officer Quarters.................................................   585
Okinawa..........................................................   603
Operation and Maintenance Costs..................................   585
Overseas Construction............................................   558
Parametric Cost Estimates, Reserve...............................   608
Pier Modernization...............................................   560
Pirie, Jr, Prepared Statement of the Honorable Robert B..........   525
Pirie, Jr, Statement of the Honorable Robert B...................   523
Planning and Design..............................................   579
Plant Replacement Value..........................................   579
Program Execution Rates........................................588, 592
Program Level....................................................   598
Projects No Longer Required......................................   583
Projects No Longer Required, Reserve.............................   609
Real Property Maintenance Account................................   577
Regional Maintenance Centers.....................................   559
Regional Planning................................................   557
Reprogramming, Reserve...........................................   609
Reprogrammings...................................................   583
Ritalin..........................................................   568
Seal Beach.......................................................   611
Sigonella, Italy.................................................   570
Suitability......................................................   584
Third Party Contracting for Child Care Services................561, 572
Unobligated Balances...........................................571, 610
Unspecified Minor Construction, Reserve..........................   608
Waiting Lists....................................................   584
Whole House Revitalization, Quantico.............................   604

                               AIR FORCE

Age of Facilities................................................   710
Age of Housing Inventory.........................................   722
Air Force Academy, Colorado...............................675, 718, 719
Aviano, Italy....................................................   696
Backlog of Maintenance and Repair--Air National Guard............   732
Backlog..........................................................   710
Backlog, Air Force Reserve.......................................   743
Backlog, Air National Guard......................................   732
Barracks Backlog.................................................   687
Barracks Planning and Design.....................................   687
Barracks Program Execution.......................................   688
Barracks Standard................................................   687
Base Realignment and Closure Accounts............................   718
Base Realignment and Closure.....................................   657
Base Realignment and Closure--Air Force Reserve..................   742
Base Realignment and Closure--Air National Guard.................   731
Bolling AFB, Washington, D.C.....................................   729
Buckley Air National Guard Base, Colorado........................   741
C-17 Beddown...................................................666, 695
Chairman, Statement of the.......................................   615
Charlotte/Douglas International Airport, North Carolina..........   741
Child Development Centers......................................681, 682
Clear Air Station, Alaska........................................   721
Coleman, Prepared Statement of the Honorable Rodney A............   618
Coleman, Statement of the Honorable Rodney A.....................   616
Columbus AFB, Mississippi........................................   730
Construction Improvements........................................   723
Conversion Tables................................................   713
Currency Fluctuations............................................   723
Deferred Maintenance.............................................   723
Demolition of Excess Facilities..................................   681
Demolition of Unneeded Facilities--Air Force Reserve.............   746
Demolition of Unneeded Facilities--Air National Guard............   735
Demolition.......................................................   708
Edwards AFB, California..........................................   730
End Strength--Air National Guard.................................   731
Environmental Cleanup............................................   676
Environmental Compliance.........................................   682
Environmental Compliance--Air Force Reserve......................   741
Environmental Compliance--Air National Guard.....................   731
Environmental Program............................................   684
Excess Prior Year Authorization--Air Force Reserve...............   742
Excess Prior Year Authorization--Air National Guard..............   731
Expiring Authorizations--Air Force Reserve.......................   742
Expiring Authorization--Air National Guard.......................   731
Family Housing Construction......................................   680
Family Housing Improvement Fund......................652, 663, 682, 724
Family Housing Inventory.......................................678, 722
Family Housing Requirements--Master Plan.........................   721
Family Housing...................................................   681
Family Housing--Air Force Reserve................................   743
Family Housing--Air National Guard...............................    73
Grand Forks AFB, North Dakota....................................   731
Guard Training Facilities........................................   678
Home, Assistance with Buying a...................................   653
Homeowners Assistance Program....................................   724
Homestead ARB, Florida--Barracks.................................   750
Housing Deficit..................................................   722
Inadequate or Unacceptable Barracks..............................   688
Infrastructure Requirements......................................   676
Inventory--Air Force Reserve.....................................   743
Inventory--Air National Guard....................................   732
Japanese Facilities Investment Program...........................   718
Joint Force Management...........................................   668
Keesler AFB, Mississippi.........................................   730
Kirtland AFB, New Mexico.........................................   730
Korean Host Program..............................................   718
Kurdish Refugees.................................................   707
Lackland AFB, Texas..............................................   720
Los Angeles AFB, California--Family Housing Construction.........   729
Maintenance and Repair, Backlog of--Air Force Reserve............   743
Marsh Task Force.................................................   678
Maxwell AFB, Alabama.............................................   721
MEPS, Springfield, Massachusetts.................................   658
Military Construction Integrated Process Team....................   659
Minneapolis-St. Paul ARB.........................................   749
Minor Construction...............................................   710
Minor Construction--Air Force Reserve............................   744
Moffett Federal Airport, California..............................   666
Mountain Home AFB, Idaho--Privatization..........................   729
New vs. Current Mission..........................................   709
Off-Base Housing.................................................   722
Officer Quarters.................................................   723
Okinawa..........................................................   707
Onizuka/Moffett..................................................   707
Operation and Maintenance Costs..................................   723
Overseas Construction............................................   696
Parametric Cost Estimates--Air Force Reserve.....................   743
Parametric Cost Estimates--Air National Guard....................   732
Payment-in-Kind--Germany.........................................   718
Planning and Design..............................................   710
Planning Process.................................................   678
Plant Replacement Value..........................................   710
Prioritization of Projects.....................................670, 673
Private Sector Initiatives.......................................   680
Privatization..................................................665, 695
Program and Financing Statement..................................   709
Program Execution Rates..........................................   724
Program Level....................................................   681
Project Design............................................654, 670, 671
Projects No Longer Required......................................   709
Projects No Longer Required--Air Force Reserve...................   746
Projects No Longer Required--Air National Guard..................   735
Projects Not Yet Executed--Air National Guard....................   739
Real Property Maintenance Account................................   688
Reprogramming--Air Force Reserve.................................   747
Reprogramming--Air National Guard................................   736
Reprogrammings...................................................   711
Robins AFB, Georgia..............................................   676
Space Based Infrared System......................................   695
Status of Funds................................................741, 749
Suitability......................................................   723
Temporary Lodging Requirements for Families in Transit...........   722
Troop Housing--One Plus One Barracks Standard..................667, 680
Unmanned Aerial Vehicle..........................................   708
Unobligated Balances.............................................   709
Unobligated Balances--Air Force Reserve..........................   748
Unobligated Balances--Air National Guard.........................   738
Unspecified Minor Construction, Air National Guard...............   733
Vandenberg AFB, California.....................................719, 730
Waiting Lists....................................................   722
War Reserve Material.............................................   695
Westover Air Reserve Base, Massachusetts.......................655, 749
Wright-Patterson AFB, Ohio.......................................   720
Youngstown-Warren IAP-ARS, Ohio..................................   749

                      MEMBERS AND PUBLIC WITNESSES

Bereuter, Prepared Statement of the Honorable Doug...............   766
Bereuter, Statement of the Honorable Doug........................   758
Brown, Statement Submitted for the Record by the Honorable Alan..   922
Bryant, Statement of the Honorable Ed..........................768, 793
Bryant, the Honorable Ed, Prepared Joint Statement (with the 
  Honorable Ed Whitfield)........................................   790
Bryant, the Honorable Ed, Prepared Statement.....................   796
Calkins, Prepared Statement of Charles...........................   861
Calkins, Statement of Charles....................................   858
Chairman, Statement of...........................................   751
Crapo, Prepared Statement of the Honorable Michael D.............   754
Crapo, Statement of the Honorable Michael D......................   751
Gordon, Prepared Statement of the Honorable Bart.................   813
Gordon, Statement of the Honorable Bart..........................   798
Hickey, Prepared Statement of Sydney T...........................   840
Hickey, Statement of Sydney T....................................   836
Longsworth, Joint Statement of Nellie (with Richard B)...........   912
Longsworth, Prepared Joint Statement of Nellie (with Richard B)..   917
Nettler, Joint Statement of Richard B. (with Nellie Longsworth)..   912
Nettler, Prepared Joint Statement of Richard B (with Nellie 
  Longsworth)....................................................   917
Pallone, Prepared Statement of the Honorable Frank...............   820
Pallone, the Honorable Frank, Joint Statement (with the Honorable 
  Michael Pappas)................................................   817
Pappas, Prepared Statement of the Honorable Michael..............   825
Pappas, the Honorable Michael, Joint Statement (with the 
  Honorable Frank Pallone).......................................   817
Sandler, Prepared Statement of Roger W...........................   886
Sandler, Statement of Roger W....................................   883
Smith, Prepared Statement of the Honorable Christopher...........   877
Smith, the Honorable Christopher Smith...........................   875
Underwood, Prepared Statement of the Honorable Robert A..........   835
Underwood, Statement of the Honorable Robert A...................   834
Visclosky, Prepared Statement of the Honorable Peter J...........   831
Visclosky, Statement of the Honorable Peter J....................   829
Whitfield, Statement of the Honorable Ed.........................   768
Whitfield, the Honorable Ed. Prepared Joint Statement (with the 
  Honorable Ed Bryant)...........................................   790

                                <all>
</pre></body></html>
